<html>
<title> - JOINT INQUIRY INTO INTELLIGENCE COMMUNITY ACTIVITIES BEFORE AND AFTER THE TERRORIST ATTACKS OF SEPTEMBER 11, 2001</title>
<body><pre>[Senate Hearing 107-1086]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 107-1086
 
               JOINT INQUIRY INTO INTELLIGENCE COMMUNITY
                    ACTIVITIES BEFORE AND AFTER THE
                TERRORIST ATTACKS OF SEPTEMBER 11, 2001

=======================================================================


                                HEARINGS

                               before the

                    SELECT COMMITTEE ON INTELLIGENCE
                              U.S. SENATE

                                and the

                       PERMANENT SELECT COMMITTEE
                            ON INTELLIGENCE
                        HOUSE OF REPRESENTATIVES

                               __________

                                VOLUME I

                 SEPTEMBER 18, 19, 20, 24, and 26, 2002

                               __________




                 U.S. GOVERNMENT PRINTING OFFICE

96-166                 WASHINGTON : 2004
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866)512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2250 Mail: Stop SSOP, 
Washington, DC 20402-0001













                SENATE SELECT COMMITTEE ON INTELLIGENCE
                             107th Congress

                     BOB GRAHAM, Florida, Chairman
               RICHARD C. SHELBY, Alabama, Vice Chairman
CARL LEVIN, Michigan                 JON KYL, Arizona
JOHN D. ROCKEFELLER, West Virginia   JAMES M. INHOFE, Oklahoma
DIANNE FEINSTEIN, California         ORRIN HATCH, Utah
RON WYDEN, Oregon                    PAT ROBERTS, Kansas
RICHARD J. DURBIN, Illinois          MIKE DeWINE, Ohio
EVAN BAYH, Indiana                   FRED THOMPSON, Tennessee
JOHN EDWARDS, North Carolina         RICHARD LUGAR, Indiana
BARBARA MIKULSKI, Maryland
                                 ------                                

            HOUSE PERMANENT SELECT COMMITTEE ON INTELLIGENCE
                             107th Congress

                   PORTER J. GOSS, Florida, Chairman
               NANCY PELOSI, California, Ranking Democrat
DOUG BEREUTER, Nebraska              SANFORD D. BISHOP, Georgia
MICHAEL N. CASTLE, Delaware          JANE HARMAN, California
SHERWOOD L. BOEHLERT, New York       GARY A. CONDIT, California
JIM GIBBONS, Nevada                  TIM ROEMER, Indiana
RAY LaHOOD, Illinois                 SILVESTRE REYES, Texas
RANDY ``DUKE'' CUNNINGHAM,           LEONARD L. BOSWELL, Iowa
    California                       COLLIN C. PETERSON, Minnesota
PETER HOEKSTRA, Michigan             BUD CRAMER, Alabama
RICHARD BURR, North Carolina
SAXBY CHAMBLISS, Georgia
TERRY EVERETT, Alabama


















                            C O N T E N T S

                              ----------                              
                                                                   Page

                                Volume I

Hearing held in Washington, D.C., September 18, 2002.............     1
Statement of:
    Breitweiser, Kristen, Co-Chairperson, September 11th 
      Advocates..................................................    21
    Hatch, Hon. Orrin G., U.S. Senator from the State of Utah....    10
    Hill, Eleanor, Staff Director, Joint Inquiry Committee.......    58
    Kyl, Hon. Jon, U.S. Senator from the State of Arizona........    17
    Push, Stephen, Co-founder and Treasurer of Families of 
      September 11th.............................................    48
    Roberts, Hon. Pat, U.S. Senator from the State of Kansas.....    13

Hearing held in Washington, D.C., September 19, 2002.............   145
Testimony of:
    Armitage, Hon. Richard L., Deputy Secretary of State.........   148
    Berger, Hon. Samuel R., Former Assistant and Deputy Assistant 
      to the President for National Security Affairs.............   220
    Lake, Anthony, Former Assistant to the President for National 
      Security Affairs...........................................   208
    Scowcroft, Gen. Brent, Former National Security Advisor......   216
    Wolfowitz, Hon. Paul D., Deputy Secretary of Defense.........   153
Supplemental Materials:
    Response to QFRs from the Department of Defense..............   272
    Response to QFRs from the Department of State................   276
    Response to QFRs from Hon. Samuel R. Berger..................   280
    Comments on Joint Inquiry Staff Statements by Samuel R. 
      Berger.....................................................   286
    Report on Plans to Improve Department of State Access to FBI 
      Criminal Information for Visa Purposes.....................   292

Hearing held in Washington, D.C., September 20, 2002.............   305
Statement of:
    A Special Agent of the Federal Bureau of Investigation.......   364
    An Officer of the Central Intelligence Agency................   344
    Beer, Richard, Director, Coordination Division, Visa Office, 
      Office of Consular Affairs, Department of State............   392
    Hill, Eleanor, Staff Director, Joint Inquiry Committee.......   309
    Kojm, Christopher A., Deputy for Intelligence Policy and 
      Coordination, Bureau of Intelligence and Research, 
      Department of State........................................   371
    Rolince, Michael E., Special Agent in Charge, Washington 
      Field Office, Federal Bureau of Investigation..............   353
Supplemental Materials: Chronology prepared by Senator Carl Levin   380

Hearing held in Washington, D.C., September 24, 2002.............   431
Testimony of:
    A FBI Headquarters Agent.....................................   482
    A FBI Minneapolis Agent......................................   487
    A FBI Phoenix Agent..........................................   478
    Hill, Eleanor, Staff Director, Joint Inquiry Committee.......   436
Supplemental Materials:
    ``The Phoenix Electronic Communication,'' Phoenix Special 
      Agent, Federal Bureau of Investigation memo dated July 10, 
      2001.......................................................   552
    Order of Judge Leonie Brinkema, U.S. District Court, dated 
      August 29, 2002, in Criminal No. 01-455-A..................   562
    Order of Judge Leonie Brinkema, U.S. District Court, dated 
      September 23, 2002, in Criminal No. 01-455-A...............   469
    Order of Judge Leonie Brinkema, U.S. District Court, dated 
      September 24, 2002, in Criminal No. 01-455-A...............   556

Hearing held in Washington, D.C., September 26, 2002.............   571
Statement of:
    Black, Cofer, Former Chief, DCI's Counterterrorist Center, 
      Central Intelligence Agency................................   589
    Watson, Dale, Former Executive Assistant Director, Counter-
      intelligence and Counterterrorism Division, Federal Bureau 
      of Investigation...........................................   604
Supplemental Materials: Declassified June 18, 2002 statement of 
  FBI Director Robert S. Mueller III.............................   573















                 JOINT COMMITTEE HEARING ON THE EVENTS 
                     SURROUNDING THE ATTACK ON THE 
                  UNITED STATES ON SEPTEMBER 11, 2001

                              ----------                              


                     WEDNESDAY, SEPTEMBER 18, 2002

        U.S. Senate, Select Committee on Intelligence and 
            U.S. House of Representatives, Permanent Select 
            Committee on Intelligence,
                                                    Washington, DC.
    The committees met, pursuant to notice, at 10:10 a.m., in 
room SH-216, Hart Senate Office Building, the Honorable Bob 
Graham, Chairman of the Senate Select Committee on 
Intelligence, presiding.
    Senate Select Committee on Intelligence members present: 
Senators Graham, Levin, Rockefeller, Feinstein, Wyden, Durbin, 
Bayh, Edwards, Mikulski, Shelby, Kyl, Inhofe, and DeWine.
    House Permanent Select Committee on Intelligence members 
present: Representatives Goss, Bereuter, Castle, Boehlert, 
Gibbons, LaHood, Hoekstra, Burr, Everett, Pelosi, Bishop, 
Condit, Roemer, Harman, Boswell, Peterson, and Cramer.
    Chairman Graham. I call the Joint Inquiry committee to 
order.
    We are here today because 3,025 innocent people, most of 
them Americans, were killed 53 weeks ago when terrorists 
stunned the world by hijacking domestic airliners and crashing 
them into the World Trade Center towers, the Pentagon, and a 
field in rural Pennsylvania. We are here today because so many 
Americans have been personally touched by these horrific 
events.
    We who are privileged to serve in the Senate think of our 
colleagues and staff as a family. And the Senate family, 
especially those of the Select Committee on Intelligence, 
suffered a special loss. Terry Lynch, who had turned 49 one 
week before the attacks, was married and the father of two 
beautiful daughters, Tiffany Marie and Ashley Nicole. For more 
than two decades, he was a public servant. He spent several 
years on the bipartisan staff of the Senate Intelligence 
Committee, where he was our expert on Middle Eastern affairs. 
In 1999, Terry left government service and became a consultant.
    On September 11, 2001, Terry was attending a meeting at the 
Pentagon on the subject of extending military survivor benefits 
to military families. Every day, Terry's family and the Senate 
family mourn his loss. And we have him on our minds and hearts 
today as we begin the public hearing phase of the joint inquiry 
committee's review of those events of September 11.
    Like all Americans, we now realize that terrorism is no 
longer something that happens ``over there,'' to people on the 
other side of the globe. Terrorism can hurt people close to us, 
here at home. In the days after September 11, many were quick 
to blame the success of the terrorists' diabolical plot on 
failures of intelligence or preparedness. These public hearings 
are part of our search for truth, not to point fingers but to 
pin blame, but with the goal of identifying and correcting 
whatever systemic problems might have prevented our government 
from detecting and disrupting Al-Qa'ida's plot.
    The public hearings follow a series of ten closed hearings, 
including one held on September 12. It is our task here to 
fulfill our oversight responsibility and to recommend reforms. 
We will follow the facts wherever they lead to provide answers 
to the American people and to improve our nation's security. 
While there have been many congressional investigations of 
significant events in our nation's history, including the 
several inquiries that followed Japan's surprise attack on 
Pearl Harbor, this is the first time in the history of the 
Congress that two permanent committees have joined to conduct a 
bicameral investigation.
    The Joint Inquiry Committee has hired an independent staff, 
negotiated with the executive branch over access to documents 
and witnesses and coordinated with the federal judiciary to 
assure that our public hearings will not interfere with pending 
prosecutions. I congratulate my colleagues from the Senate and 
the House and our staff for their commitment and determination 
to fulfill our obligation to the American people. I am very 
pleased with our progress to date.
    As we enter the public hearing phase of the inquiry, our 
purpose is to inform the American people of our findings and to 
continue exploring what reforms will be necessary to reduce the 
chances of another terrorist attack on our homeland. As we said 
in the preamble to the scope of inquiry statement that the 
committee adopted in April, our review is designed to reduce 
the risk of future terrorist attacks, to honor the memories of 
the victims of the September 11 terrorist attacks by conducting 
a thorough search for facts to answer the many questions that 
their families, and many Americans, have raised, and to lay the 
basis for assessing the accountability of institutions and 
officials of the government.
    To reach those ends, our inquiry is focusing on three key 
areas. One, the evolution of the terrorist threat to the United 
States, and our government's awareness of and response to that 
threat. It is important that we gain an understanding of how 
terrorist organizations, particularly Usama bin Ladin and Al-
Qa'ida, move from being a relatively insignificant threat to 
American interests just a decade ago to their status today as 
America's number one threat.
    Second, what the Intelligence Community and the active 
consumers of the government's intelligence knew, or should have 
known, prior to September 11 about the scope and nature of 
possible attacks on U.S. interests by international terrorists. 
By examining how and when the government recognized this 
evolving threat and how it responded to that threat, we will 
gain insights into the ways that we need to respond to 
terrorism. Clearly, this is not a static threat, but a rapidly 
changing and accelerating danger to America.
    Three, how the agencies that make up our Intelligence 
Community interact with one another, as well as with other 
federal, state and local agencies, with respect to identifying, 
tracking, assessing and coping with international terrorist 
threats, including biological, chemical, radiological, and 
nuclear. The ultimate question we will seek to answer is this: 
how can we use the information that we discover during the 
inquiry to recommend, and then to successfully advocate to the 
American people and our colleagues, changes in the Intelligence 
Community that will reduce the prospects of another September 
11?
    In this first open hearing, we will hear from two 
representatives of the groups that speak for the families of 
the victims of September 11. Kristen Breitweiser is co-founder 
of September 11th Advocates. Stephen Push is co-founder and 
treasurer of Families of September 11th. They have been asked 
to speak to us about the impact of September 11 on their 
families and America, as well as what reforms of the 
Intelligence Community will guard us against future threats.
    We will then have the first of several presentations from 
the Joint Inquiry committee's very capable staff, led by Ms. 
Eleanor Hill. Ms. Hill is a former prosecutor, a veteran 
congressional investigator, a former inspector general of the 
Department of Defense. We are extremely fortunate to have a 
person of her experience and capabilities as the committee 
staff director. Ms. Hill will review the work of the Joint 
Inquiry committee over the last six months, including the ten 
closed hearings, interviews with nearly 500 individuals, and a 
review of more than 400,000 documents. Following her 
presentation, members of the Joint Inquiry committee will be 
recognized for comments and questions.
    In future open hearings, we will hear from customers of 
intelligence, including representatives of the Defense and 
State Departments, front-line personnel from intelligence 
agencies, and then key leaders of the Intelligence Community, 
including the Director of the Central Intelligence Agency and 
the Director of the Federal Bureau of Investigation.
    I now recognize Congressman Porter Goss, Chairman of the 
House Permanent Select Committee on Intelligence and Co-
Chairman of the Joint Inquiry committee for opening remarks. I 
am extremely pleased to have Congressman Goss as a partner in 
this effort. Congressman Goss will be followed by Senator 
Richard Shelby, vice chairman of the Senate Select Committee on 
Intelligence, and then by Representative Nancy Pelosi, ranking 
member of the House Permanent Select Committee on Intelligence.
    Congressman Goss.
    Chairman Goss. Thank you, Chairman Graham. I'm pleased to 
associate myself with your remarks, and I'm honored to serve 
with you as Co-Chairman of this joint effort.
    Looking back at the innocent lives lost and the damage 
inflicted by a fanatical band of suicidal extremists has been 
very painful for all of us. We all experienced that just a week 
ago with the remembrances of 9/11, and I think it's fair to say 
that every American is incensed. We need to understand the hows 
and the whys of what happened to bring some comfort to those 
who are still grieving, and there are many, and to ensure the 
wellbeing of Americans at home and abroad as we go about our 
lives today and tomorrow in the globe, as it exists.
    And I want to thank Ms. Breitweiser and Mr. Push for being 
with us today and sharing with others, and I know there are 
others in the audience who are with them. You put a human face 
on the tragedy that we all feel. The people whose lives were 
unfairly ripped from them is way down deep what drives this 
committee to follow the facts to find the truth and you should 
know that. Your contribution today, representing so many who 
have lost so much, reminds us how the impact of September 11 is 
very profound and very personal across our land, and in fact, 
around the world.
    Providing your thoughtful, specific suggestions for what we 
can do better and asking penetrating questions is a help to us, 
and I know your testimony has questions and suggestions. I 
suppose everybody has a tragic story about pain and suffering 
related to September 11. Mine is about CeeCee Lyles. A flight 
attendant on Flight 93, CeeCee was a resident of Ft. Myers, 
Florida, in my district. She was a former police patrol officer 
and detective, and she spent six years risking her life to 
protect others in that job.
    In December, 2000, mindful of her young children and 
looking for a less dangerous and wearing career, although I'm 
not sure that was a way to characterize flight attendant work, 
she enrolled in a flight attendant school and began flying for 
United out of Newark.
    At 9:58 on September 11, 2001, CeeCee called her husband 
Lorne, a police officer in Fort Myers, from the plane to tell 
him that her flight had been hijacked. Her words, ``I called to 
tell you I love you. Tell the kids I love them.'' Her last 
words that we know of are, ``I think they're going to do it. 
They're forcing their way into the cockpit.'' And then the call 
broke off. We here owe a particular debt of gratitude to CeeCee 
Lyles and her companions on Flight 93, which was heading 
towards Washington when it crashed in Shanksville.
    The President of the United States has told us intelligence 
is the first line of defense. We know that he's right. We know 
the first line of defense has to be strong. These hearings will 
hopefully lead us to capabilities that better fit the threat as 
it does exist today and make our first line of defense 
stronger, which obviously it must be. We've already started 
this process in the oversight committees of intelligence, and I 
want to compliment all the members of the committees, 
particularly Representatives Saxby Chambliss and Jane Harman 
for the excellent report their Subcommittee on Terrorism has 
already provided us on the House side.
    It's been a useful building block to help our Joint 
Committee staff, a group I would describe as small in number 
but dynamic in impact. Under the leadership of Eleanor Hill, 
they have interviewed a multitude of people, as the Chairman 
has said, read thousands of documents and asked a great many 
questions, always with the steady hand of the Members and the 
staffs of the House and Senate Intelligence Committees to back 
them up.
    What this all means is that we have well over 100 
professionals and some 37 Members dealing with mountains of 
information. And these mountains are getting bigger every day. 
Every time we track down another terrorist cell, conduct 
another raid, through interrogation or documentation 
exploitation and other leads, we find out more about the enemy, 
and of course, how to stop them.
    There will be further chapters as the war on terrorism 
unfolds. We will incorporate as many as we can in our final 
report of this joint effort, and I predict there will be plenty 
of work for the other standing committees of jurisdiction in 
Congress because our primary focus has been intelligence, and 
there has been more than just intelligence involved in this 
situation.
    What forms further investigations take we'll leave to the 
future and concentrate now on finishing our work as completely, 
as accurately and expeditiously as possible. The terrorist 
threat remains high. I want to emphasize that it is precisely 
because we want to save lives in the future that we must be 
careful how we present and discuss this information in public.
    It's true, it may be axiomatic, the enemy is listening to 
us today. We must protect our sources and methods, and we must 
not reveal any of our plans and intentions to our enemies, 
those who would harm us. So today, we begin the process of open 
hearings with the understanding not everything can be discussed 
in this forum, as much as we would like to share it with 
America, but that much can and should be explained to our 
nation, which is our goal. And we will go as far as we can.
    Having said that, Mr. Chairman, I thank you and look 
forward to the testimony of our witnesses.
    Senator Inhofe. Mr. Chairman?
    Chairman Graham. Senator Shelby.
    Senator Inhofe. Could I ask a question, a procedural 
question?
    Chairman Graham. Yes. Senator Inhofe.
    Senator Inhofe. Could you inform us as to how we're going 
to proceed in terms of Members' participation?
    Chairman Graham. Yes. After we complete the opening 
statements, we will then hear from the representatives of the 
families. Then Ms. Eleanor Hill will present a report on the 
work of the Joint Inquiry Committee to date, after which 
members will be recognized for questions of Ms. Hill and any 
comments they wish to make.
    Senator Inhofe. Thank you, Mr. Chairman.
    Chairman Graham. Thank you, Senator.
    Vice Chairman Shelby. Mr. Chairman, thank you. We now know 
that our inability to detect and prevent the September 11 
attacks was an intelligence failure of unprecedented magnitude. 
Some people who couldn't seem to utter the words intelligence 
failure are now convinced of it. Many of us also knew that an 
accounting would have to be made on behalf of the innocent 
victims, the families left behind, and the American people. 
After all, there were nine separate investigations into the 
attack on Pearl Harbor and the intelligence failures attendant 
there.
    We agreed, however, that some time would have to pass 
before we began on the Committees such an effort, because we 
were at war and it was our top priority to ensure its success. 
Approximately six months after that fateful September day, our 
two Committees joined together in what I hoped would be a 
thorough and comprehensive examination of the United States 
Intelligence Community's failures to detect and to prevent the 
attacks of September the 11. Now, approximately six months 
later, we're making progress, but we are far from done, and I 
am concerned.
    The staff has reviewed many thousands of documents, but 
they have many thousands yet to review. They have interviewed 
many people, but there are many people yet to interview. In 
fact, it's still very difficult even to determine how far we've 
come, and almost impossible to tell how far we've yet to go.
    I've been part of many investigations in my career, but 
none has been as important as this one. Almost 3000 Americans 
have been murdered, and perhaps thousands more innocent lives 
will hang in the balance every day. This investigation, I 
believe, must be thorough, comprehensive, and complete. I want 
it to be a success. But to be a success, an inquiry needs time 
and resources. If you limit either one, your chances of success 
diminish significantly. Unfortunately, I believe we have a 
short supply of both in this inquiry, and I'm afraid that we're 
beginning to reap the results.
    From the outset, I argued strongly that we should avoid 
setting arbitrary deadlines. Deadlines are an invitation to 
stonewalling and foot-dragging, and we've had some of both in 
this effort. I've also said many times that agencies under the 
congressional microscope are generally not motivated to 
cooperate. That's just common sense, that's human nature.
    To be thorough, I believe we must be able to identify and 
to locate relevant information, retrieve it, analyze it in the 
context of all of the other information we've gathered. This is 
inevitably difficult and time consuming. Because we have only 
one to three staffers actually focusing on any particular 
agency at any one time, and because so much of our Joint 
Inquiry staff resources are tied up in producing hearings such 
as this one, which I deem important, it is becoming exceedingly 
difficult to be as thorough and probing, I believe, as we need 
to be.
    I'm afraid we've asked the joint staff to move a mountain 
and perhaps only given them a couple of shovels and a little 
over six months to get it done. I hope it's enough, but I'm 
concerned. This is a massive undertaking, and I compliment our 
Chairmen, Senator Bob Graham and Congressman Porter Goss, for 
their leadership, because anyone who has willingly volunteered 
to lead and to coordinate an effort such as this deserves our 
admiration and our support, and perhaps our condolences. But 
I'm concerned that the management challenges that you faced and 
continue to face have created some fundamental flaws in our 
process.
    Many members of our joint committee have found it 
exceedingly difficult to get information about the inquiry. 
They're frustrated by what a lot of them perceive to be efforts 
to limit their ability to participate in this inquiry fully. 
They want to support and ultimately to endorse this effort that 
we have undertaken, but they will be unable to do so, I 
believe, unless they have a clear and unfettered view of the 
activities of the joint staff.
    At this point, I don't believe they do. Today, Eleanor 
Hill, our staff director, will present a summary of a statement 
intended to reflect the current state of our inquiry. Members, 
however, have had essentially no involvement with the process 
that led to its drafting, and therefore have little idea, as a 
whole, whether what it says is accurate or a fair and thorough 
representation of what has been discovered.
    Mr. Chairmen, I'm not saying that it is not accurate or 
thorough; hopefully, it is both. I'm saying that our Members, 
as they've voiced to me, have no practical of way of knowing. 
These are concerns that we've discussed before in the four of 
us meeting, and they will need to be resolved if we're to have 
any chance of reaching a consensus at the conclusion of this 
inquiry.
    I think it's important that the American people know where 
we stand as we begin to discuss publicly why their multi-
billion dollar Intelligence Community was unable to detect and 
prevent the worst single attack on American soil in our 
history.
    At this point, again, I'm very concerned that we may not 
have the time or resources we set out to do. I will continue to 
support this effort, and support our Chairmen, but there may 
come a day very soon when it will become apparent that ours 
must be only a prelude to further inquiries. Thank you, Mr. 
Chairman.
    Chairman Graham. Thank you, Senator.
    Congresswoman Pelosi.
    Ms. Pelosi. Good morning, Mr. Chairmen.
    I want to join you in welcoming today's very important 
witnesses. I commend the two of you for your great leadership 
in doing the best possible job under the circumstances to get 
to the bottom of all of this, and I associate myself with the 
remarks of our distinguished chairmen on the priority we place 
in the participation of the members of the family.
    When we began our Joint Inquiry eight months ago, we began 
with a moment of silence. We did this in recognition of the 
tremendous tragedy that had befallen us, the gravity of the 
responsibility we faced, and the obligation we had to the 
families of those who lost their lives. Today, it is 
appropriate that we begin our first public hearing of this 
joint committee and this inquiry with the presentation of the 
families.
    It is important that this inquiry be viewed through the 
prism of the families of the victims of this terrible tragedy 
that occurred at the World Trade Center, at the Pentagon, and 
in Pennsylvania. The dignity shown by the thousands of family 
members has been an inspiration to our country and a tribute to 
their loved ones. They have risen to the occasion that they 
never could have imagined, and their strength has lifted the 
spirit of all Americans.
    In welcoming our witnesses here today, I want to express 
the appreciation I know that every American feels towards them. 
The appreciation of the depth of their grief we can only 
imagine, but we do appreciate their leadership which has sprung 
from that sadness. To Kristen Breitweiser, the co-chairman of 
September 11th Advocates, which is helping other families, and 
to Stephen Push, co-founder of Families of September 11th, and 
all the members of the families, thank you for your courage.
    All of America has been touched by this tragedy, as we all 
know, none more directly than all of you. However, we have, 
some of us, a closer association because of our work at the 
Pentagon. Members of the Defense Intelligence Agency and the 
Office of Naval Intelligence lost their lives when they went to 
work to work to protect our country. Little did they know that 
they would lose their lives at the Pentagon doing that. And of 
course, Mike Spann was the first American killed in conflict in 
our struggle to root out terrorism wherever it is. And his 
association with the Intelligence Community is one that I wish 
to acknowledge.
    As we address the challenge September 11 presents to our 
country--and I also want to mention Betty Ang, a flight 
attendant on the plane that went into the World Trade Center. 
She was on Flight 11. She was one of my constituents in San 
Francisco. Her courage enabled her to keep communicating with 
the ground until the last possible moment. There are so many, 
many stories, and we know that there are at least 324 of them 
directly. We identify New York, Washington, and Pennsylvania, 
but on those planes, one of which was destined for San 
Francisco, there were people from all over the country whose 
lives were touched.
    As we address the challenge of September 11that it presents 
to our country, we're walking on hallowed ground, respecting 
the sacrifice of those who died and ensuring the families that 
justice will be done. We must find answers, reduce risk to the 
American people and comfort the families. Families of those 
affected by September 11 talk of their continuing reactions to 
events that used to be no cause for concern. For some family 
members, every time a plane flies overhead, we have been told, 
they experience deep fear. We must remove that fear.
    We are all united in our determination to win the war 
against terrorism. We all agree that this battle will be won 
and that we will succeed by working together. The House and 
Senate Intelligence Committees have a responsibility to ensure 
that Congress conducts a thorough assessment of the performance 
of the intelligence agencies leading up to, and including, 
September 11.
    Yes, Mr. Chairman, we must protect sources and methods, but 
we must conduct our inquiry in the most open way possible, so 
that information that can be made available to the public, and 
especially to the families, is made available. Only in the case 
of protecting sources and methods should it be withheld, not in 
the case of protecting reputations or to avoid embarrassment to 
some.
    The committees have decided that the best way to do our 
inquiry is to work cooperatively in a bipartisan manner on an 
inquiry conducted by the House and the Senate, as you know. And 
here we are today with our first public hearing. A joint 
investigation is an unusual step, but the events of September 
11 call for unusual measures. I join both of our Chairmen in 
commending our colleagues, the Members of the House and the 
Senate on the Committees for their diligence and their 
reverence for the subject that we are dealing with.
    Our purpose is not to assign blame but to identify areas 
that could lessen the chance that another September 11 could 
happen. We must do everything we can to prevent another 
terrible tragedy. In doing so, we will balance the need to 
enhance physical security for Americans with the duty to 
preserve the freedoms guaranteed by the Constitution. The 
martyrs of September 11 gave their lives because of those 
freedoms.
    The goal of terrorists is to instill fear. That fear can 
change the way of life for a society. We cannot let them have 
that victory. We can and we must do things in a way that 
respects our people, protects our founding principles, and 
protects and defends our communities. The words of ``America 
the Beautiful'' ring true in describing the great cities of 
Washington, DC, New York, and indeed, the nation. ``Oh, 
beautiful, for patriot dream that sees beyond the years. Thine 
alabaster cities gleam, undimmed by human tears.''
    Today, those tears are fresh, but this is America, land of 
the free, and, as the martyrs and their families have shown us, 
home of the brave.
    We will take all the time that is needed. We will pursue 
every angle. We will turn every stone to find answers for the 
families. And I hope that in all that we do in this Joint 
Inquiry and in rooting out the terrorism and finding the 
perpetrators of this tragedy, that our work says to the 
families, ``Peace be with you.''
    Thank you, Mr. Chairman.
    [The prepared statements of Senators Hatch, Roberts and Kyl 
follow:]


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


    We are honored today to be joined by representatives of the 
families of the victims. We understand the pain that you have 
suffered over the last year. We can empathize, but you 
represent an invaluable perspective and an insight into the 
full meaning of this tragedy, and the responsibilities that we 
all have to avoid the prospects of its repetition. We very much 
appreciate your sharing with us today.
    First, Ms. Kristen Breitweiser.
    [The prepared statement of Ms. Breitweiser follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

  STATEMENT OF KRISTEN BREITWEISER, CO-CHAIRPERSON, SEPTEMBER 
                         11TH ADVOCATES

    Ms. Breitweiser. Good morning, Mr. Chairman. I have a 
written statement to be made part of the record, and I would 
like to submit some supporting documentation.
    Chairman Graham. Ms. Breitweiser, could you put the 
microphone--yes, right in front. Good, thank you.
    Ms. Breitweiser. Is that better?
    Chairman Graham. That's good.
    Ms. Breitweiser. I will summarize my testimony as follows. 
I would like to thank the families of the 3000 victims for 
allowing me to represent them here today before the Joint 
Intelligence Committee. It is a tremendous honor. Testifying 
before this committee is a privilege and an enormous 
responsibility that I do not take lightly. I will do my best 
not to disappoint the families or the memories of their loved 
ones.
    Toward that end, I ask the Members present here today to 
find in my voice the voices of all the family members of the 
3000 victims of September 11. I would also ask for you to see 
in my eyes the eyes of the more than 10,000 children who are 
left to grow up without the love, affection and guidance of a 
mother or a father who was tragically killed on September 11.
    I would now like to thank the members of the Joint 
Intelligence Committee, Eleanor Hill and her staff for giving 
the families this opportunity to be heard. It has been an 
excruciating and overwhelming 12 months, and it is now time for 
our words and our concerns to be heard by you. My three-year-
old daughter's most enduring memory of her father will be 
placing flowers on his empty grave. My most enduring memory of 
my husband Ronald will be his final words to me. ``Sweets, I'm 
fine, I don't want you to worry. I love you.''
    Ron uttered those words while he was watching men and women 
jump to their deaths from the top of Tower One. Four minutes 
later, his tower was hit by United Flight 175. I never spoke to 
my husband again. I don't really know what happened to him. I 
don't know whether he jumped or he choked to death on smoke. I 
don't know whether he sat curled up in a corner watching the 
carpet melt in front of him, knowing that his own death was 
soon to come, or if he was alive long enough to be crushed by 
the buildings when they ultimately collapsed. These are the 
images that haunt me at night when I put my head to rest on his 
pillow.
    I do know that the dream that I had envisioned, that I so 
desperately needed to believe, that he was immediately turned 
to ash and floated up to the heavens, was simply not his fate. 
I know this because his wedding band was recovered from Ground 
Zero, with a part of his arm. The wedding band is charred and 
scratched, but still perfectly round and fully intact. I wear 
it on my right hand it will remain there until the day I die.
    September 11 was the devastating result of a catalogue of 
failures on behalf of our government and its agencies. My 
husband and the approximately 3000 others like him went to work 
that morning and never came home.
    But were any of our governmental agencies doing their job 
on that fateful morning? Perhaps the carnage and devastation of 
September 11 speaks for itself in answering this question. Our 
intelligence agencies suffered an utter collapse in their 
duties and responsibilities leading up to and on September 11. 
But their negligence does not stand alone. Agencies like the 
Port Authority, the City of New York, the FAA, the INS, the 
Secret Service, NORAD, the Air Force and the airlines also 
failed our nation that morning. Perhaps said more cogently, one 
singular agency's failures do not eclipse another's.
    And it goes without saying that the examination of the 
intelligence agencies by this committee does not detract, 
discount, or dismantle the need for a more thorough examination 
of all of these other culpable parties. An independent, blue 
ribbon panel would be the most appropriate means to achieve 
such a thorough and expansive examination, in large part 
because it would not be limited in scope or hindered by time 
limits. An independent blue ribbon panel would provide a 
comprehensive, unbiased, and definitive report that the 
devastation of September 11 demands.
    Soon after the attacks, President Bush stated that there 
would come a time to look back and examine our nation's 
failures, but that such an undertaking was inappropriate while 
the nation was still in shock. I would respectfully suggest to 
President Bush and to our Congress that now, a full year later, 
it is time to look back and investigate our failures as a 
nation.
    A hallmark of democratic government is a willingness to 
admit to, analyze and learn from mistakes, and it is now time 
for our nation to triumph as the great democracy that it is. 
The families of the victims of September 11 have waited long 
enough. We need to have answers. We need to have 
accountability. We need to feel safe living and working in this 
great nation.
    On May 17, 2002, National Security Adviser Condoleeza Rice 
stated, ``I don't think anybody could have predicted that these 
people would take an airplane and slam it into the World Trade 
Center, that they would try to use an airplane as a missile--a 
hijacked airplane as a missile.'' The historical facts 
illustrate differently.
    In 1993, a $150,000 study was commissioned by the Pentagon 
to investigate the possibility of an airplane being used to 
bomb national landmarks. A draft document of this was 
circulated throughout the Pentagon, the Justice Department, and 
to FEMA.
    In 1994, a disgruntled FedEx employee invaded the cockpit 
of a DC10 with plans to crash it into a company building. 
Again, in 1994, a lone pilot crashed a small plane into a tree 
on the White House grounds. Again, in 1994, an Air France 
flight was hijacked by members of the Armed Islamic Group with 
the intent to crash the plane into the Eiffel Tower.
    In January, 1995, Philippine authorities investigating 
Abdul Murad, an Islamic terrorist, unearthed Project Bojinka. 
Project Bojinka's primary objective was to blow up 11 airliners 
over the Pacific. In the alternative, several planes were to be 
hijacked and flown into civilian targets in the United States. 
Among the targets mentioned were CIA headquarters, the World 
Trade Center, the Sears Tower, and the White House.
    Murad told U.S. intelligence officials that he would board 
any American commercial aircraft pretending to be an ordinary 
passenger and that he would then hijack the aircraft, control 
its cockpit, and dive it at CIA headquarters. In 1997, this 
plot resurfaced during the trial of Ramzi Yousef, the 
mastermind behind the 1993 bombings of the World Trade Center. 
During the trial, FBI agents testified that, ``The plan 
targeted not only the CIA, but other U.S. government buildings 
in Washington, including the Pentagon.''
    In September 1999, a report, ``The Sociology and Psychology 
of Terrorism,'' was prepared for U.S. intelligence by the 
Federal Research Division, an arm of the Library of Congress. 
It stated, ``Suicide bombers belonging to al-Qa'ida's martyrdom 
battalion could crash-land an aircraft packed with high 
explosives into the Pentagon, the headquarters of the CIA, or 
the White House.'' Again, that was in September, 1999.
    This laundry list of historical indicators, in no way 
exhaustive, illustrates that long before September 11, the 
American Intelligence Community had a significant amount of 
information about specific terrorist threats to commercial 
airline travel in America, including the possibility that a 
plane would be used as a weapon.
    On March 11, 2002, Director of the CIA George Tenet stated, 
``In broad terms last summer that terrorists might be planning 
major operations in the United States, but we never had the 
texture, meaning enough information to stop what happened.''
    On May 8 2002, Director of the FBI Robert Mueller stated, 
``There was nothing the agency could have done to anticipate or 
prevent the attacks.''
    Once again, the historical facts indicate differently. 
Throughout the spring and early summer of 2001, intelligence 
agencies flooded the government with warnings of possible 
terrorist attacks against American targets, including 
commercial aircraft, by al-Qa'ida and other groups. The 
warnings were vague, but sufficiently alarming to prompt the 
FAA to issue four information circulars to the commercial 
airline industry between June 22 and July 31 warning of 
possible terrorism.
    On June 22, the military's Central and European commands 
enforced force protection condition delta, the highest anti-
terrorist alert.
    On June 28, 2001, National Security Adviser Condoleeza Rice 
said, ``It is highly likely that a significant al-Qa'ida attack 
is in the near future within several weeks.''
    As of July 31, the FAA urged U.S. airlines to maintain a 
``high degree of alertness.'' One FAA circular from late July, 
2001, noted, according to Condoleeza Rice, that there was, ``No 
specific target, no credible information of attack to U.S. 
civil aviation interests, but that terror groups are known to 
be planning and training for hijackings, and we ask you 
therefore to use caution.''
    Two counterterrorism officials described the alerts of the 
early and mid-summer 2001 as ``the most urgent in decades.'' 
One thing remains clear from this history: Our intelligence 
agencies were acutely aware of an impending domestic risk posed 
by al-Qa'ida. A question that remains unclear is how many lives 
could have been saved had this information been made more 
public. Airport security officials could have gone over all the 
basics again of the steps needed to prevent hijackings. The 
policy allowing passengers to carry razors and knives with 
blades of up to four inches in length certainly could have come 
under scrutiny.
    Indeed, officials could have issued an emergency directive 
prohibiting such potential weapons in carry-on bags. Finally, 
all selectees under the computer-assisted passenger 
prescreening system, and their carry-on luggage and checked 
bags, could have been subjected to additional screening. 
Apparently, none were on September 11, although internal FAA 
documents do indicate that CAPPS selected some of the 
hijackers.
    And how many victims may have thought twice before boarding 
an aircraft? How many victims would have chosen to fly on 
private planes? How many victims would have taken notice of 
these Middle Eastern men while they were boarding their plane? 
Could these men have been stopped? Going further, how many 
vigilant employees would have chosen to immediately flee Tower 
Two after they witnessed the blazing inferno in Tower One if 
only they had known that an al-Qa'ida terrorist attack was 
imminent? Could the devastation of September 11 been diminished 
in any degree had the government's information been made public 
in the summer of 2001?
    On July 5, 2001, the government's top counterterrorism 
official, Richard Clarke, stated to a group gathered at the 
White House, ``Something really spectacular is going to happen 
here, and it's going to happen soon.'' The group included the 
FAA, the Coast Guard, the FBI, the Secret Service, and the INS. 
Clarke directed every counterterrorist office to cancel 
vacations, defer non-vital travel, put off scheduled exercises, 
and place domestic rapid response teams on much shorter alert. 
For six weeks, last summer, at home and abroad, the U.S. 
government was at its highest possible state of readiness 
against imminent terrorist attack.
    A senior FBI official attending the White House meeting on 
July 5, 2001, committed the Bureau to redouble contacts with 
its foreign counterparts and to speed up transcription and 
analysis of wiretaps obtained under the Foreign Intelligence 
Surveillance Act, among other steps. But when the field agent 
in Phoenix, Arizona reported the suspicions of a hijacking plot 
just five days later, the FBI did not share the report with any 
other agency. One must ask why.
    That report, written by Agent Kenneth Williams, now well-
known as the Phoenix memo, recommended that the FBI investigate 
whether al-Qa'ida operatives were training at U.S. flight 
schools. Williams posited that Usama bin Ladin followers might 
be trying to infiltrate the civil aviation system as pilots, 
security guards, or other personnel. He recommended a national 
program to track suspicious flight school students. Agent 
Williams was dead on point.
    But in the summer of 2001, while our nation was at its 
highest state of alert, his memo was flatly ignored. And what 
result if it hadn't been ignored? What if his memo was promptly 
placed on INTELINK, SIPRNET or NIPRNET? What if other agents 
had the same suspicions in Florida, California, Georgia, Ohio, 
and Nevada? Could the terrorists have been stopped?
    On August 15, 2001 an alert civilian instructor at a 
Minnesota flight school called the FBI and said, ``Do you 
realize that a 747 loaded with fuel can be a bomb?'' The next 
day, Zacharias Moussaoui was arrested. After investigating 
Moussaoui's past, the FBI, with the help of French 
intelligence, learned that he had Islamic extremist 
connections. They also knew that he was interested in flight 
patterns around New York City, and that he had a strong desire 
to fly big jets, even though at the time he didn't have so much 
as a license to fly a Cessna.
    And then what happened? The FBI office in Minnesota 
attempted to get a FISA warrant, but they were rebuffed, a 
crucial mistake, because Zacharias Moussaoui's possessions 
contained evidence that would have exposed key elements of the 
September 11 plot. Why was this request denied? Again, the 
historical facts must be analyzed. In March, 2001, an internal 
debate ignited at the Justice Department and the FBI over wire-
tap surveillance of certain terrorist groups. Prompted by 
questions raised by Royce C. Lamberth, the chief judge of the 
FISA court, the Justice Department opened an inquiry into 
Michael Resnik, an FBI official who coordinated the Act's 
applications.
    Attorney General John Ashcroft and Robert Mueller, then 
Deputy Attorney General, ordered a full review of all foreign 
surveillance authorizations. Again, this was in March, 2001. 
Justice Department and FBI officials have since acknowledged 
the existence of this internal investigation and said that the 
inquiry forced officials to examine their monitoring of several 
suspected terrorist groups, including al-Qa'ida. And while 
senior FBI and Justice Department officials contend that the 
internal investigation did not affect their ability to monitor 
al-Qa'ida, other officials have acknowledged that the inquiry 
might have hampered electronic surveillance of terror groups. 
The matter remains highly classified. What is not classified is 
that in early September, a Minnesota FBI agent wrote an 
analytic memo on Zacharias Moussaoui's case, theorizing that 
the suspect could fly a plane into the World Trade Center. 
Tragically, this too was ignored.
    Also ignored by U.S. intelligence agencies was the enormous 
amount of trading activity on the Chicago Exchange Board and in 
overseas markets. Our intelligence agencies readily use PROMIS 
software to analyze these kinds of market indicators that 
presented themselves in the weeks prior to September 11. Why 
were these aberrational trades and market swings ignored? We 
were at the highest state of alert, an attack by al-Qa'ida was 
expected to occur at any given moment, and yet massive amounts 
of trade occurred on American Airlines, United Airlines, 
reinsurance companies and lease holders in the World Trade 
Center, and none of our watchdogs noticed.
    Perhaps even more disturbing is the information regarding 
Khalid al-Mihdhar and Nawaf al-Hazmi, two of the hijackers. In 
late August 2001, the CIA asked the INS to put these two men on 
a watch list because of their ties to the bombing of the USS 
Cole. On August 23, 2001, the INS informed the CIA that both 
men had already slipped into this country.
    Immediately thereafter, the CIA asked the FBI to find al-
Mihdhar and al-Hazmi, not a seemingly hard task in light of the 
fact that one of them was listed in the San Diego phone book, 
the other took out a bank account in his own name, and finally 
we have recently come to find out that an FBI informant 
happened to be their roommate. But again, our intelligence 
agencies failed.
    It was only after the devastation of September 11 that our 
intelligence agencies seemed to get back on track. On September 
12, 2001, the New York Times reported, ``On Tuesday, a few 
hours after the attacks, FBI agents descended on flight 
schools, neighborhoods and restaurants in pursuit of leads. The 
FBI arrived at Huffman Aviation at about 2:30 a.m. Wednesday 
morning. They walked out with all of the school's records, 
including photocopies of the men's passports.''
    The New York Times also reported that day that students at 
Embry-Riddle Aeronautical University said that, ``within hours 
of the attacks, FBI investigators were seen,'' at their school. 
How did the FBI know exactly where to go only a few hours after 
the attacks? How did they know which neighborhoods, which 
flight schools and which restaurants to investigate so soon in 
the case?
    The New York Times went on to report on September 12 that, 
``Federal agents questioned employees at a store in Bangor, 
Maine, where five Arab men believed to be the hijackers tried 
to rent cell phones late last week. Store employees at first 
refused to sell the phones because the men lacked proper 
identification, but they gave in after the five offered $3,000 
cash to store employees, an airport official said.''
    The September 12 article goes on to state, ``The men then 
phoned Bangor Airport trying to get a flight to Boston, but 
were told that there was no flight that matched their desired 
departure time. The men then phoned Portland International 
Jetport, where two of them apparently made reservations for a 
flight to Boston on Tuesday morning.''
    How would this information be gleaned so quickly? How would 
the FBI know to visit a store in Bangor, Maine, only hours 
after the attacks? Moreover, how would they know the details of 
a phone conversation that occurred a week prior to the attacks? 
Were any of the hijackers already under surveillance?
    It has been widely reported that the hijackers ran practice 
runs on the airline routes that were chosen on September 11. 
Did our intelligence agents ever shadow these men on any of 
their prior practice runs?
    Furthermore, on September 12, the New York Times reported 
that, ``Authorities said they had also identified accomplices 
in several cities who had helped plan and execute Tuesday's 
attacks. Officials said they knew who these people were and 
important biographical details about many of them. They 
prepared biographies of each identified member of the hijack 
teams, and began tracing the recent movements of the men.''
    How are complete biographies of the terrorists, and their 
accomplices, created in such short time? Did our intelligence 
agencies already have open files on these men ? Were they 
already investigating them? Could the attacks of September 11 
been prevented?
    The speed by which the FBI was able to locate, assimilate 
and analyze a small amount of information so soon after the 
attacks, barely one day later, perhaps answers this question 
for itself.
    But if the terrorists were under investigation, then why 
were they ever permitted to board those planes? Perhaps even 
more potently, why, if such an investigation was already under 
way, was our nation so late in responding to the emergency that 
quickly unfolded that morning?
    Too many questions remain. Topping the list of unanswered 
questions are those that involve our nation's coordination, 
communication and response to the attacks that morning. The 24 
hours that presented themselves on September 11 beg to be 
examined. Questions like, why did the New York Port Authority 
not evacuate the World Trade Center when they had an open phone 
line with Newark Air Traffic Control Center and were told that 
the second plane was bearing down on the South Tower? New York/
New Jersey Port Authority had at least 11 minutes of notice to 
begin evacuations of the South Tower. An express elevator in 
the World Trade Center was able to travel from top to bottom in 
one minute's time. How many lives may have been saved had the 
Port Authority acted more decisively or, rather, acted at all?
    Washington Air Traffic Control Center knew about the first 
plane before it hit the World Trade Center, yet the third plane 
was able to fly loop-the-loops over Washington, DC, one hour 
and 45 minutes after Washington Center first knew about the 
hijackings. After circling in this restricted airspace, 
controlled and protected by the Secret Service, who had an open 
phone line to the FAA, how is it possible that that plane was 
then able to crash into the Pentagon? Why was the Pentagon not 
evacuated? Why was our Air Force so late in its response? What, 
if anything, did our nation do in a defensive military posture 
that morning?
    Three thousand innocent Americans were killed on September 
11, leaving behind families and loved ones like myself and my 
daughter. There are too many heartbreaking stories to recount. 
There are too many lost opportunities and futures to be told. 
But what can be said to you today is that the families continue 
to suffer each and every day. All we have are tears and a 
resolve to find the answers, because we continue to look into 
the eyes of our young children, who ask us, ``Why?''
    We have an obligation, as parents and as a nation, to 
provide these young children with answers as to why their 
mother or father or aunt or uncle or grandmother or grandfather 
never returned from work that day. We need people to be held 
accountable for their failures. We need leaders with the 
courage to take responsibility for what went wrong.
    Mistakes were made, and too many lives were lost. We must 
investigate these errors so that they will never happen again. 
It is our responsibility as a nation to turn the dark events of 
September 11 into something from which we can all learn and 
grow so as a nation we can look forward to a safe future.
    In closing, I would like to add one thought. Undoubtedly, 
each of you here today, because you live and work in 
Washington, DC, must have felt that you were in the bullseye on 
the morning of September 11. For most of you, there was a 
relief at the end of that day, a relief that you and your loved 
ones were in safe hands. You were the lucky ones. In your 
continuing investigation, please do not forget those of us who 
did share in your good fate. Thank you.
    [Applause.]
    Chairman Graham. Thank you, Ms. Breitweiser for a moving, 
inspirational and highly motivating statement. Thank you.
    Ms. Breitweiser. Thank you.
    Chairman Graham. Mr. Stephen Push.
    [The prepared statement of Mr. Push follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
STATEMENT OF STEPHEN PUSH, CO-FOUNDER AND TREASURER OF FAMILIES 
                       OF SEPTEMBER 11TH

    Mr. Push. Chairmen Graham and Goss, Ranking Minority 
Members Shelby and Pelosi, and members of the Senate and House 
Intelligence Committees, I would like to thank you and also 
thank the joint 9/11 inquiry staff for the vital work that you 
have been doing to understand the problems of the intelligence 
agencies and take steps to correct them. I appreciate the hard 
work that you and your staff are doing to ensure that our loved 
ones have not died in vain.
    I would also like to thank you for inviting Kristen and me 
to testify before you today. I realize that your decision was 
not popular with the bureaucrats in the Intelligence Community, 
but the victims' families greatly appreciate the opportunity to 
have their voices heard on the important work of your inquiry.
    Our loved ones paid the ultimate price for the worst 
American intelligence failure since Pearl Harbor. I hope that 
Kristen and I can do justice to their sacrifice and contribute 
in some small way to preventing other families from 
experiencing the immeasurable pain that accompanies such a 
tragic loss.
    While I eagerly await the final report of your inquiry, one 
thing is already clear to me from the news reports about the 
intelligence failures that led to the attacks: If the 
Intelligence Community had been doing its job, my wife, Lisa 
Raines, would be alive today. She was a passenger on flight 77, 
the plane that was crashed into the Pentagon.
    I realize that preventing terrorism is a very difficult 
task, and that we will never achieve complete safety. But a 
series of missteps that defy common sense made the attack on 
the Pentagon possible.
    In January of 2000, the Central Intelligence Agency learned 
that two Saudi nationals, Nawaf al-Hazmi, and Khalid al-Mihdhar 
attended an al-Qa'ida meeting in Kuala Lumpur. Thanks to the 
infamous stovepiping of information in the Intelligence 
Community, these two men, who were to become two of the 
hijackers on flight 77, were not immediately placed on the 
terrorism watch list, and they were allowed to enter the United 
States.
    Shortly after the bombing of the USS Cole in October of 
2000, the CIA discovered that one of the men photographed with 
al-Hazmi and al-Mihdhar in Kuala Lumpur was a suspect in the 
Cole attack. But still the two suspected terrorists in the 
United States did not appear on the watch list. The Federal 
Bureau of Investigation seems to have been unaware of him, even 
though they lived with an FBI informant during part of their 
time in this country.
    The two suspects were finally added to the watch list on 
August 23, 2000, but on September 11, they were able to board 
flight 77 using their real names. I don't know why they called 
it a watch list; apparently no one was watching them.
    After the Kuala Lumpur meeting, al-Hazmi had at least three 
meetings with Hani Hanjour, the terrorist believed to have 
piloted flight 77. I am convinced that had the CIA and the FBI 
displayed any initiative, al-Hazmi, al-Mihdhar and Hanjour 
would have been apprehended. With the loss of three hijackers, 
including the pilot, flight 77 would not have been hijacked and 
the lives of the 184 people murdered in the Pentagon attack 
would have been saved.
    What's more, Mohamed Atta, the ringleader of the 9/11 
conspiracy and the pilot of the first plane to hit the World 
Trade Center, attended one of the meetings between Al-Hazmi and 
Hanjour. Thus it's possible, if not likely, that surveillance 
of Al-Hazmi could have led to surveillance of Atta and 
discovery of the other terrorists involved in the conspiracy. 
In fact, the FBI, in an apparent attempt to pin the blame for 
9/11 on the CIA, reportedly developed a chart that showed how 
timely access of the information about Al-Hazmi and Al-Mihdhar 
would have enabled the FBI to foil the entire
9/11 plot.
    I won't belabor the argument about the possibility of 
preventing the 9/11 attacks. A number of intelligence experts 
have said that preventive work is easier said than done. I 
don't know if that's a fair excuse, but one conclusion is 
incontestable: The 9/11 attacks exposed serious shortcomings in 
the American Intelligence Community. Or, to state this fact 
more precisely, the attack exposed these flaws to the wider 
public. Many of the flaws have been known to intelligence 
professionals, to your two Committees and to a succession of 
commissions for years.
    In voicing these complaints it is not my intention to 
malign the field officers, agents, analysts, technicians and 
others serving their country in the intelligence agencies. I'm 
sure that most of them are very competent and dedicated people. 
But in many cases they seem to be stymied by a bloated, risk-
averse and politicized intelligence bureaucracy that is more 
interested in protecting its turf than in protecting America.
    Initially, I thought 9/11 would be a wake-up call for the 
Intelligence Community, but I was mistaken. The intelligence 
agencies and the White House have asserted that no mistakes 
were made. They couldn't possibly have conceived that anyone 
would use commercial jets in suicide attacks on buildings. They 
asserted that al-Qa'ida is impossible to penetrate.
    Such a can't-do attitude is profoundly un-American. It also 
raises the question of why taxpayers should continue to spend 
tens of billions of dollars annually on the Intelligence 
Community if it cannot protect us.
    The following anecdote suggests that little has changed at 
the FBI since 9/11. Three years ago, a female flight attendant 
for an American airline was assaulted in flight in front of a 
witness by a male flight attendant wielding a knife that the 
female flight attendant described at the time as looking like a 
box cutter. The assailant had bragged to this flight attendant 
about how he regularly smuggled the knife past security. The 
woman reported the incident immediately, but the airline 
dropped the case without explanation.
    Immediately after the 9/11 attacks, the female flight 
attendant, noting the parallels between her assailant and the 
hijackers, reported the incident to the FBI. An agent 
interviewed her, but later told her that the FBI couldn't find 
the male flight attendant because he no longer worked for the 
airline.
    I had a private investigator, yesterday, do a search for me 
using public databases, and within a matter of a few hours he 
was able to tell me the current address of this male flight 
attendant and also report to me that he is indeed still an 
employee of the airline in question.
    Nearly a year later, the female flight attendant grew 
frustrated and asked her Congressman to investigate. The 
Congressman sent the request, including the original incident 
report describing the weapon and the assault, to FBI 
headquarters. Within a few weeks the woman received a letter 
from the FBI explaining that the matter fell outside the 
Bureau's jurisdiction.
    I find this response unacceptable, not only because 
assaulting an airline crew member in flight is a federal 
offense, but also because a violent man who smuggles knives 
onto planes should have received more attention from the FBI 
than this man apparently did.
    The time for incremental reform of the Intelligence 
Community ended on September 11, 2001. The ossified 
intelligence bureaucracy must now be thoroughly restructured. 
If it isn't, the next attack may involve weapons of mass 
destruction, and the death toll may be in the tens of 
thousands, or even hundreds of thousands.
    I urge you, please, seriously consider making the following 
changes in the Intelligence Community.
    One, put someone in charge of intelligence. Stovepiping is 
an inevitable consequence of competition among agencies. Only a 
strong leader with authority over all of the intelligence 
agencies can force them to share information. In principle, 
this is the President's job, but he has limited time to spend 
on intelligence. There should be a Cabinet-level official with 
authority over all of the intelligence agencies.
    Two, establish a new domestic intelligence agency similar 
to Britain's MI-5. This agency would have no law enforcement 
powers, and would work with the FBI when criminal 
investigations and arrests were necessary. The FBI would retain 
a small intelligence unit to serve as a liaison with the 
Intelligence Community. Domestic intelligence professionals can 
not flourish in a culture that rewards people for the number of 
cases solved or the number of arrests made.
    Three, develop closer links with state and local law 
enforcement agencies. There are 700,000 state and local law 
enforcement officers who can provide help by providing the 
Intelligence Community with raw intelligence and by acting on 
threat assessments issued by the federal government.
    Four, create a new clandestine service. Human intelligence 
has become a lost art at the CIA. A new clandestine service 
should be established and must be protected from second-
guessing by the risk-averse, politicized bureaucracy.
    Five, share more intelligence with other countries. 
American intelligence agencies have obtained much valuable 
intelligence from foreign intelligence services. But the 
American agencies have a reputation for not reciprocating. If 
we want to maintain the flow of information from these other 
services, we must be more generous with the information we 
provide them.
    Six, require all intelligence reports to be uploaded 
immediately to INTELINK, the Intelligence Community secret 
online database. This will help foster information exchange at 
all levels of the Intelligence Community.
    Seven, reorient the National Security Agency to be a hunter 
of information rather than a gatherer. The volume of electronic 
communications has grown exponentially, to the point where 
intercepts cannot be translated in a timely manner. We've all 
read about the two intercepts on September 10 that warned of 
something to happen on September 11 that were translated on 
September 12. The agency must learn to focus its resources on 
those communications links most likely to yield information 
about terrorist threats.
    Eight, upgrade technical intelligence. The proliferation of 
new communications technologies has hampered the NSA's ability 
to intercept messages. Some of the nation's best scientists and 
engineers should be assigned to a Manhattan Project-style 
program aimed at making breakthroughs in new technologies for 
monitoring electronic communications.
    Nine, set up a separate oversight subcommittee specifically 
for intelligence on terrorism.
    While this is by no means an exhaustive list, I believe it 
addresses some of the most urgent problems in the Intelligence 
Community. Whether you decide to accept or reject these 
specific recommendations, I hope you will agree that the 
monumental tragedy of 9/11 requires changes far more sweeping 
than the reform measures that have been implemented in recent 
years.
    Finally, I join Kristen in urging Congress to establish an 
independent commission to study the events surrounding the 9/11 
attacks. While the work of your inquiry is invaluable, it has 
become clear that you cannot complete a thorough, comprehensive 
investigation by the end of the 107th Congress. And also there 
are other 9/11 issues other than intelligence that should be 
investigated by an independent commission, such as law 
enforcement, border control and immigration policy, diplomacy, 
transportation security and the flow of assets to terrorists.
    In conclusion, I would like to thank you again for offering 
the 
9/11 families this opportunity to have our voices and the 
voices of our loved ones heard on these very important issues.
    [Applause.]
    Chairman Graham. Mr. Push, thank you very much for that 
very informative statement, and your specific recommendations. 
They will be taken fully into account throughout the completion 
of our inquiry.
    Mr. Push. Thank you, sir.
    Chairman Graham. Thank you very much. The panel is 
dismissed.
    Again, we extend our thanks and appreciation to Ms. 
Breitweiser and to Mr. Push and to all the families who are 
with us today. You are a reminder of why we are undertaking 
this inquiry. You are a challenge for us to fully fulfill our 
obligation.
    Ms. Eleanor Hill, staff director of the Joint Inquiry 
Committee.
    [The prepared statement of Ms. Hill and supporting 
documents follow:]


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


   STATEMENT OF ELEANOR HILL, STAFF DIRECTOR, JOINT INQUIRY 
                           COMMITTEE

    Ms. Hill. Good morning, Chairman Graham, Chairman Goss, 
Members of the Committees. Before I proceed with my statement, 
I have a long written statement which I would like to submit 
for the record, and I'm going to orally summarize it, given the 
length of what we have here.
    Chairman Graham. The full statement will appear in the 
record.
    Ms. Hill. Thank you.
    Before I get into the main part of the statement, I do want 
to make clear to you and members of the committees that the 
information that's in this statement that we're going to 
present this morning has been cleared for public release. As I 
think most of you know, much of the information that our staff 
has been working on over the last several months is obviously 
highly classified or has been highly classified.
    In the course of the last two months, we have been working 
with the Intelligence Community in a long and what I would call 
very arduous process to declassify much of the information that 
we have reviewed and that we believe is important to the 
public's understanding of why the Intelligence Community did 
not know of the September 11 attacks in advance.
    And I would point out that that process--we want to say for 
the record that we appreciate the many long hours that have 
been put into that process and what I believe for the most part 
has been very constructive cooperation with the Executive 
branch on that process. A good number of professionals from the 
community have been brought together in working groups and have 
gone over with our staff the details of this information to put 
it in a form where it could be released publicly. So we have 
made very good progress.
    But I do need to report that by late last night we were 
able to resolve all but two issues where we believe relevant 
information to the inquiry has not yet, despite our discussions 
with the Executive branch, been declassified. And I want to 
make reference to those two issues because this statement has 
been prepared recognizing that those two areas remain 
classified.
    The two areas are any references to the Intelligence 
Community providing information to the President or the White 
House, and the identity of, and information on, a key al-Qa'ida 
leader involved in the September 11 attacks.
    According to the White House and the DCI--Director of 
Central Intelligence--the President's knowledge of intelligence 
information relevant to this inquiry remains classified, even 
when the substance of that intelligence information has been 
declassified.
    With respect to the key al-Qa'ida leader involved in the 
September 11 attacks, I am advised this morning that the White 
House and not the DCI has declined to declassify his identity 
despite an enormous volume of media reporting on this 
individual that has been out there for some time.
    The Joint Inquiry staff disagrees on both of those issues. 
We believe the public has an interest in this information and 
that public disclosure would not harm national security.
    However, as I believe you know, we do not have the 
independent authority to declassify intelligence information 
short of a lengthy procedure in the U.S. Congress, and we 
therefore have prepared this statement without detailed 
descriptions of our work in those two areas.
    Mr. Roemer. Mr. Chairman?
    Chairman Graham. Mr. Roemer?
    Mr. Roemer. Mr. Chairman, parliamentary inquiry.
    Chairman Graham. Mr. Roemer?
    Mr. Roemer. Are the Committees bound by the classification 
decisions made in these two instances?
    Chairman Graham. It is our advice from staff director and 
counsel that we do not independently have the authority to 
declassify material, and therefore we are constrained by the 
decisions made by those who have that legal responsibility.
    Mr. Roemer. A further parliamentary inquiry, Mr. Chairman. 
Is there a process then that either the Committee or the 
Congress can undertake to challenge a classification decision 
such as that?
    Chairman Graham. The answer is yes, and I would like--Ms. 
Hill alluded to the fact that there was such a process. I think 
she described it as being cumbersome. If you or counsel might 
briefly explain what the option is to Congress.
    Ms. Hill. Mr. Chairman, I am not an expert on the Committee 
process regarding declassification. As I understand it, from 
speaking with the full Committee counsel on this, it would 
require the Congress to vote. I'm not sure if it's the full 
Congress or the Senate or House, but there's a vote involved. 
The Congress itself would have to override that classification 
decision.
    We did not originate this information, and under the 
classification system, the agency that originates it makes the 
classification and declassifies it, and in this case, that 
would not be the Congress. So the only alternative would be to 
go through what I am told is a lengthy, rather prolonged 
process.
    I should point out that right before the hearing this 
morning I was advised by the White House that they were going 
to look at these two issues again and they thought they would 
review it again within the next 48 hours. And I advised them 
that if their position changes, please advise the committees 
and we could always issue a supplemental statement on those two 
issues for the record. So my assumption is they are still 
reviewing it.
    Mr. Roemer. Final parliamentary inquiry, Mr. Chairman. Does 
the Chairman intend to have this Committee consider or debate 
that kind of process? I'm not advocating that we challenge it 
at this point, but certainly understanding more from the Joint 
Inquiry staff that strongly disagrees with the decision as to 
why might be helpful in a deliberative sense for the committee.
    Chairman Graham. I think there are two questions in your 
inquiry. One is whether we might consider utilizing the 
currently existing process in this or future instances in which 
we have a disagreement as to whether the information which is 
being withheld is, in fact, classified information--i.e., that 
it relates to the national security.
    Second question might be, as part of our final report, we 
might want to recommend to our colleagues a change in the law 
that relates to the congressional role in declassification so 
that it would be more available as an alternative in the event 
that there was a disagreement between Congress and an executive 
classifying agency.
    Mr. Roemer. Well, Mr. Chairman, thank you. I hope we do 
have a robust discussion of this, and I appreciate your 
patience.
    Ms. Pelosi. Mr. Chairman?
    Chairman Graham. Yes, Ms. Pelosi.
    Ms. Pelosi. Thank you, Mr. Chairman.
    I want to join you in your earlier comments commending 
Eleanor Hill and Rick Cinquegrana and the Joint Inquiry staff 
for their fine work. And I want to inquire if it's possible, 
just on this point, that the parliamentary inquiry that Mr. 
Roemer brought up, if Ms. Hill could just clarify.
    It says, ``Any reference to the Intelligence Community 
providing information to the president or the White House.'' 
Could you give us an example of that?
    Ms. Hill. What we're referring to is, and it's clear as you 
go through this statement that I'm about to present, that we 
are talking about a number of intelligence reports, which we 
have had declassified through this process. And part of our 
role was not just looking at what was the reporting, but where 
the reporting went.
    And you will note that this statement includes many 
intelligence reports and in some instances says they were 
provided to senior government officials--I believe that is the 
wording that's used--but there's no reference on any of the 
pages as to whether the President received that information or 
not. And we have been told that that information--in other 
words, not what is in the report, but rather whether or not it 
went to the President--would be classified under this decision.
    Ms. Pelosi. And when you say the President, you mean any 
President.
    Ms. Hill. That's correct. And clearly if you look at this 
statement, the reporting is not just reporting that would have 
been under the current administration, but also reporting that 
was made under the prior administration. And the decision, in 
fairness, obviously, to the White House is not simply as to 
this sitting President, but as to any President.
    Ms. Pelosi. Well, I would hope, Mr. Chairman, whoever's 
presiding here, that Mr. Roemer's comments will be taken 
seriously by the Chairmen and that the committee should 
consider the options under existing Committee rules to make 
this information public, depending on how it goes in the next 
48 hours. I think that the White House should be aware that 
there is strong interest among many of us to have this be the 
most open process possible in fairness to those families who 
are affected, we heard from this morning, and really in the 
interest of a democratic society.
    Thank you, Mr. Chairman.
    Mr. LaHood. Mr. Chairman.
    Chairman Goss [presiding]. Chairman Graham had to step out 
for a moment. He'll be back. But I assure you, Ms. Pelosi, that 
he will be attentive to that request, as will I.
    Is it a point of inquiry or on this matter?
    Mr. LaHood. On this matter.
    Chairman Goss. Mr. LaHood.
    Mr. LaHood. Mr. Chairman, I wonder if the two Chairmen 
could approach the White House within the next 48 hours since 
they have this under consideration to encourage them to make 
this information public and to relay the will of--I believe 
it's the will of the joint committee that, based on what our 
staff director has said, that this information is important to 
be released. And it sounds like they're trying to make a 
political decision. And the joint committee would encourage 
them to release the information.
    I say that because it's under consideration. And I think 
it's important, particularly given the testimony that was 
provided by the first two witnesses. Thank you.
    Chairman Goss. Thank you, Mr. LaHood. I assure that this is 
not a matter of first impression for the two Chairmen or 
actually the four of us. We have made this case before.
    And just so all members of the committee and the public 
will know, there are approximately three generalized areas that 
we feel there is legitimacy to withhold information to the 
public. Otherwise we feel the burden is on the administration 
to prove to us why we should not give it to the public. We take 
the position the public deserves it.
    Those three exceptions are, of course, sources of methods, 
particularly those are still active; plans and intentions that 
would be involving any actions we might take, which might put 
our personnel at harm by giving advance information about what 
they're up to; and the third area is in the active prosecutions 
ongoing by the Department of Justice. We don't want to in any 
way mess up a prosecution that is going forward by saying 
something inadvertent that would create a problem for the 
prosecution.
    I think other than those three areas the public has a right 
to know and a need to know. Because part of the reason we're 
going public here is the awareness curve of what this enemy 
looks like, what they can do to us, and why we need to have a 
better system and why we are going to be asking for the support 
of our constituency, the American people, to give us a better 
intelligence system and all that that means.
    I hope that's a satisfactory answer. And your request is 
duly noted and will be dealt with.
    Would you please proceed, after I advise the Members that 
we have about 12 minutes left on a vote in the House? Is it one 
vote or two? Do we know? I believe it is one vote. Do the 
members of the Senate wish to continue.
    Senator Feinstein. Mr. Chairman.
    Chairman Goss. Yes, Senator.
    Senator Feinstein. Might I ask a question? Will there be a 
brief recess over the lunch hour for those of us that have 
commitments?
    Chairman Goss. It had been intended that there would not 
be. And I would suggest that when Senator Graham comes back 
that you confer with him on that.
    The Members of the House are now going to vote. And we will 
be away for about 20 minutes. And perhaps in that time you can 
decide how you wish to carry forward.
    Vice Chairman Shelby. Mr. Chairman, do you want us to wait 
and suspend the hearing, because you won't have the benefit of 
her testimony?
    Chairman Goss. What is the view of the Members? Do you want 
them to suspend or----
    Vice Chairman Shelby. Until you get back. I think so.
    Chairman Graham [presiding]. Okay. We'll take a suspension 
until you return. The hearing will suspend until the members of 
the House return.
    [Whereupon, from 11:38 a.m. until 12:04 p.m., the hearing 
recessed.]
    Chairman Graham. I call the hearing back to order.
    Ms. Eleanor Hill was in the early stages of providing us 
with the report of the Joint Inquiry staff. For purposes of 
people's schedules, it is our plan, after Ms. Hill completes 
her statement, to then call upon Members in the order in which 
they arrived for five minutes of either questions or comments.
    I recognize that we'll be running through the lunch hour. 
If Members have to leave for previous commitments or the pangs 
of hunger become overwhelming, they are encouraged to do so, 
but also encouraged to return so that they can have their 
opportunity to ask questions or make their comments.
    Ms. Hill.
    Ms. Hill. Thank you, Mr. Chairman.
    Senator Feinstein. Excuse me, Mr. Chairman, could you read 
the list so we might know where we are?
    Chairman Graham. Yes, ma'am. After the Chairs and Vice 
Chairs, they are, in this order, Senator DeWine, Congressman 
Boehlert, Senator Wyden, Congressman Bereuter, Congressman 
Bishop, Senator Levin, Senator Inhofe, Congressman Peterson, 
Congressman Kramer, Congressman Boswell, Congressman Castle, 
Congressman Roemer, Congresswoman Harman, Congressman Burr, 
Senator Bayh, Senator Rockefeller, Senator Feinstein, Senator 
Mikulski, Congressman LaHood, Congressman Hoekstra, Senator 
Edwards, Congressman Gibbons, Congressman Everett.
    Mr. Hoekstra. Mr. Chairman.
    Chairman Graham. Yes.
    Mr. Hoekstra. Would it be appropriate to ask unanimous 
consent of the members that if individuals do have to leave, if 
they have statements that they could be included as part of the 
record?
    Chairman Graham. They will be included in the record.
    Mr. Hoekstra. I thank the Chair.
    Chairman Graham. Are there any other comments before we 
return to Ms. Hill?
    Ms. Hill.
    Ms. Hill. Thank you Mr. Chairman.
    Before I forget, I do want to ask that--we have two 
versions of this statement. It's the same statement, but we 
have two copies, one of which has been signed and certified as 
releaseable, cleared for public release by the chair of the 
declassification working group for the Intelligence Community, 
and each page has been initialed by that individual.
    And the second copy that I would also like to make 
available and part of the record is a similar copy that was 
signed and certified by the representative of the Department of 
Justice and initialed, indicating that they agreed and 
concurred that it was suitable for public release. Because, as 
you know, the Justice Department has some litigation concerns 
related to ongoing cases.
    So I'd ask that those be made part of the record.
    Chairman Graham. Without objection.
    [The documents referred to contain classified information 
and were made a part of the classified record and retained in 
the files of the Joint Inquiry.]
    Ms. Hill. I appreciate the opportunity to appear here today 
to advise the Committees and the American public on the 
progress to date of the Joint Inquiry staff's review of the 
activities of the U.S. Intelligence Community in connection 
with the September 11 terrorist attacks on the United States.
    As the horror and sheer inhumanity of that day engulfed 
this nation, all of us struggled with shock, with the utter 
disbelief, and the inevitable search for answers. The 
questions, if not the answers, were obvious. How could we have 
been so surprised? What did our government, especially our 
intelligence agencies, know before September 11, 2001? Why 
didn't they know more? What can we do to strengthen and improve 
the capabilities of our intelligence agencies and as a result 
help save ourselves and our children from ever having to face 
this again?
    On February 14, 2002, the leadership of these two 
Committees announced their resolve to come together to find 
credible answers to those sobering but critically important 
questions. The Committees joined in an unprecedented, bicameral 
and bipartisan joint inquiry effort to meet that challenge. To 
conduct the review, the Committees assembled a single staff, 
that we call the Joint Inquiry staff, of 24 highly skilled 
professionals with experience in such areas as intelligence 
collection, analysis, management, law enforcement, 
investigations and oversight.
    My testimony this morning is intended to address the 
inquiry's initial task, which was to conduct a factual review 
of what the Intelligence Community knew or should have known 
prior to September 11, 2001, regarding the international 
terrorist threat to the United States.
    I caution that the inquiry remains a work in progress, and 
that we may be developing additional relevant information as 
our work continues. That being said, we feel it is important to 
share with the American people, through these hearings, what we 
have found through our efforts to date.
    Let me briefly describe the way in which we have approached 
this review. We decided to target our search on categories of 
information that would most likely yield any intelligence 
material of relevance to the September 11 attacks.
    Specifically, our teams requested and reviewed from the 
Intelligence Community agencies these categories of 
information: any information obtained before September 11 
suggesting that an attack on the United States was imminent, 
and what was done with it; any information obtained before 
September 11 that should have alerted the Intelligence 
Community to this kind of attack--that is, using airplanes to 
attack buildings--and what was done with it; any information 
obtained before September 11 about the 19 dead hijackers and 
what was done with it; and any information obtained after 
September 11 about the hijackers and their backgrounds, 
including their involvement with al-Qa'ida, entry into this 
country and activities while in this country, as well as why 
they never came to the attention of the United States 
Government.
    And I would point out on the issue of the hijackers that we 
do intend--we will not address that this morning, but we do 
intend to have an additional statement at subsequent hearings 
that are focused on that issue.
    As part of this review of the evolution of the 
international terrorist threat against the United States, the 
Joint Inquiry staff produced a chronology that begins in 1982 
and ends on September 11, 2001. And that chronology I believe 
has been reproduced and handed out, and is also depicted on 
these charts here in the room this morning.
    And I would request that the chronology also be part of the 
record.
    Chairman Graham. Without objection, so ordered.
    Ms. Hill. The chronology notes significant events in 
international terrorism, significant counterterrorist actions 
that were taken by the U.S. Government in response to the 
threat, and information received by the Intelligence Community 
that was potentially relevant to the September 11 attacks.
    The chronology underscores several points regarding what 
the U.S. Government, specifically the Intelligence Community, 
knew about the international terrorist threat to the United 
States and U.S. interests prior to September 11, 2001. And 
these are those points.
    September 11, while indelible in magnitude and in impact, 
was by no means America's first confrontation with 
international terrorism. While the nature of the threat has 
evolved and changed over time, it has long been recognized that 
United States interests were considered prime targets by 
various international terrorist groups.
    In response to a number of terrorist attacks on U.S. 
interests abroad during the 1980s, the U.S. Government 
initiated a focused effort against terrorism, including the 
establishment by the director of Central Intelligence, William 
Casey, of the Counterterrorism Center, or CTC, at CIA 
headquarters in 1986. In 1996, 10 years later, the FBI created 
its own counterterrorism center at FBI headquarters.
    Both in terms of attempts and actual attacks, there was 
considerable historical evidence prior to September 11 that 
international terrorists had planned and were in fact capable 
of conducting major terrorist strikes within the United States. 
The 1993 attack on the World Trade Center, the subsequent 
discovery in 1993 of plots to bomb New York City landmarks, and 
the arrest in 1999 during the millennium of an individual with 
al-Qa'ida connections intending to bomb Los Angeles 
International Airport should have erased any doubts, to the 
extent they existed, about that point.
    From 1994 through as late as August 2001, the Intelligence 
Community had received information indicating that 
international terrorists had seriously considered the use of 
airplanes as a means of carrying out terrorist attacks. While 
this method of attack had clearly been discussed in terrorist 
circles, there was apparently little, if any, effort by 
Intelligence Community analysts to produce any strategic 
assessments of terrorists using aircraft as weapons.
    Usama bin Ladin's role in international terrorism came to 
the attention of the Intelligence Community in the early 1990s. 
While bin Ladin as initially viewed as a financier of 
terrorism, by 1996 the Intelligence Community was aware of his 
involvement in directing terrorist acts, and had begun actively 
collecting intelligence on him.
    Bin Ladin's own words indicated a steadily escalating 
threat. In August 1996, Usama bin Ladin issued a public fatwa, 
or religious decree, authorizing attacks on Western military 
targets in the Arabian peninsula. In February 1998, bin Ladin 
issued another public fatwa authorizing and promoting attacks 
on U.S. civilians and military personnel anywhere in the world.
    Following the August 1998 bombings of two U.S. embassies in 
East Africa, Intelligence Community leadership recognized how 
dangerous bin Ladin's network was. In December 1998, Director 
of Central Intelligence George Tenet provided written guidance 
to his deputies at the CIA declaring in effect a ``war'' with 
bin Ladin.
    While counterterrorism was a resource priority from the 
time of the DCI statement onward, it was competing with several 
other intelligence priorities, such as nonproliferation. 
Despite the DCI's declaration of war in 1998, there was no 
massive shift in budget or reassignment of personnel to 
counter-terrorism until after September 11, 2001.
    By late 1998, the Intelligence Community had amassed a 
growing body of information, though general in nature, and 
lacking specific details on time and on place, indicating that 
bin Ladin and the al-Qa'ida network intended to strike within 
the United States. And concern about bin Ladin continued to 
grow over time and reached peak levels in the spring and summer 
of 2001, as the Intelligence Community faced increasing numbers 
of reports of imminent al-Qa'ida attacks against U.S. 
interests.
    In July and August 2001, that rise in intelligence 
reporting began to decrease, just as three additional 
developments occurred in the United States--the Phoenix memo, 
the detention of Zacarias Moussaoui, and the Intelligence 
Community's realization that two individuals with ties to bin 
Ladin's network, Khalid al-Mihdhar and Nawaf al-Hazmi, were 
possibly in the United States.
    The two individuals turned out to be two of the 19 
hijackers on September 11. The Intelligence Community 
apparently had not connected these individual warning flags to 
each other, to the drum beat of threat reporting that had just 
occurred, or to the urgency of the war effort against bin 
Ladin.
    Our review today provides further context for each of these 
points. And my written statement addresses in great detail each 
point. For purposes of this review, I'm going to focus not on 
the historical sections, but rather on our review of more 
recent intelligence reporting.
    And the first point in that regard would be intelligence 
reporting on bin Ladin's intentions to strike inside the United 
States. Central to the September 11 plot was Usama bin Ladin's 
idea of carrying out a terrorist operation within the United 
States.
    It has been suggested that prior to September 11, 2001, 
information available to the Intelligence Community had, for 
the most part, pointed to a terrorist threat against U.S. 
interests abroad. Our review confirms that shortly after Usama 
bin Ladin's May 1998 press conference, the Intelligence 
Community began to acquire intelligence information indicating 
that bin Ladin's network intended to strike within the United 
States.
    These intelligence reports, which I'll go through in a 
minute, should be understood in their proper context. First, 
they generally did not contain specific information as to 
where, when and how a terrorist attack might occur, and 
generally they are not corroborated by further information.
    Second, these reports represented a small percentage of the 
threat information that the Intelligence Community obtained 
during this period, most of which pointed to the possibility of 
attacks against U.S. interests overseas. Nonetheless, there was 
a modest but relatively steady stream of intelligence 
information indicating the possibility of terrorist attack 
within the United States.
    Third, the credibility of the sources providing this 
information was sometimes questionable. While one could not, as 
a result, give too much credence to some individual reports, 
the totality of information in the body of reporting clearly 
reiterated a consistent and critically important theme--bin 
Ladin's intent to launch terrorist attacks inside the United 
States.
    And I will summarize several of these reports. And I should 
stress again, these are in declassified versions. They have 
been declassified.
    In June 1998, the Intelligence Community obtained 
information from several sources that bin Ladin was considering 
attacks in the United States, including Washington, DC, and New 
York. This information was provided to senior U.S. government 
officials in July 1998.
    In August 1998, the Intelligence Community obtained 
information that a group of unidentified Arabs planned to fly 
an explosive-laden plane from a foreign country into the World 
Trade Center. The information was passed to the FBI and the 
FAA. The FAA found the plot highly unlikely, given the state of 
that foreign country's aviation program. Moreover, they 
believed that a flight originating outside the United States 
would be detected before it reached its intended target inside 
the United States. The FBI's New York office took no action on 
the information, filing the communication in the office's 
bombing repository file.
    The Intelligence Community has acquired additional 
information since then indicating there may be links between 
this group and other terrorists groups, including al-Qa'ida.
    In September 1998, the Intelligence Community prepared a 
memorandum detailing al-Qa'ida infrastructure in the United 
States, including the use of fronts for terrorist activity. 
This information was provided to senior U.S. Government 
officials in September 1998.
    In September 1998, the Intelligence Community obtained 
information that bin Ladin's next operation would possibly 
involve flying an aircraft loaded with explosives into a U.S. 
airport and detonating it. This information was provided to 
senior U.S. Government officials in late 1998.
    In October 1998, the Intelligence Community obtained 
information that al-Qa'ida was trying to establish an operative 
cell within the United States. This information indicated there 
might be an effort under way to recruit U.S.-citizen Islamists 
and U.S.-based expatriates from the Middle East and North 
Africa.
    In the fall of 1998, the Intelligence Community received 
information concerning a bin Ladin plot involving aircraft in 
the New York and Washington, DC, areas.
    In November of 1998, the Intelligence Community obtained 
information that a bin Ladin terrorist cell was attempting to 
recruit a group of five to seven young men from the United 
States to travel to the Middle East for training. This was in 
conjunction with planning to strike U.S. domestic targets.
    In November of 1998, the Intelligence Community received 
information that bin Ladin and senior associates had agreed to 
allocate reward money for the assassinations of four top 
intelligence agency officers. The bounty for each assassination 
was $9 million. The bounty was in response to the U.S. 
announcement of an increase in the reward money for information 
leading to the arrest of bin Ladin.
    In the spring of 1999, the Intelligence Community obtained 
information about a planned bin Ladin attack on a U.S. 
government facility in Washington, DC.
    In August 1999, the Intelligence Community obtained 
information that bin Ladin's organization had decided to target 
the Secretary of State, the Secretary of Defense and the 
Director of Central Intelligence. ``Target'' was interpreted by 
Intelligence Community analysts to mean assassinate.
    In September 1999, the Intelligence Community obtained 
information that bin Ladin and others were planning a terrorist 
act in the United States, possibly against specific landmarks 
in California and New York City. The reliability of the source 
of this information was unknown.
    In late 1999, the Intelligence Community obtained 
information regarding the bin Ladin network's possible plans to 
attack targets in Washington, D.C., and New York City during 
the New Year's millennium celebrations.
    On December 14, 1999, an individual named Ahmed Ressam was 
arrested as he attempted to enter the United States from 
Canada. An alert U.S. Customs Service officer in Port 
Washington stopped Ressam and asked to search his vehicle. 
Chemicals and detonator materials were found in his car. 
Ressam's intended target was Los Angeles International Airport.
    In February 2000, the Intelligence Community obtained 
information that bin Ladin was making plans to assassinate U.S. 
intelligence officials, including the Director of the FBI.
    In March 2000, the Intelligence Community obtained 
information regarding the types of targets that operatives in 
bin Ladin's network might strike. The Statue of Liberty was 
specifically mentioned, as were skyscrapers, ports, airports 
and nuclear power plants.
    In March 2000, the Intelligence Community obtained 
information indicating bin Ladin was planning attacks in 
specific West Coast areas, possibly involving the assassination 
of several public officials. The Intelligence Community had 
concerns that this information might have come from a source 
known to fabricate information.
    And in April 2001, the Intelligence Community obtained 
information from a source with terrorist connections who 
speculated that bin Ladin would be interested in commercial 
pilots as potential terrorists. The source warned that the 
United States should not focus only on embassy bombings, that 
terrorists sought ``spectacular and traumatic'' attacks and 
that the first World Trade Center bombing would be the type of 
attack that would be appealing. The source did not mention a 
time frame for any attack. Because the source was offering 
personal speculation and not hard information, the information 
was not disseminated within the Intelligence Community.
    Bin Ladin's declaration of war in 1998 and intelligence 
reports indicating possible terrorist plots inside the United 
States did not go unnoticed by the Intelligence Community 
which, in turn, advised senior officials in the U.S. Government 
of the serious nature of the threat.
    The staff has also reviewed documents other than individual 
intelligence reports that demonstrate that, at least at senior 
levels, the Intelligence Community understood that bin Ladin 
posed a serious threat to the domestic United States.
    Here are five examples. A December 1, 1998, Intelligence 
Community assessment of Usama bin Ladin read, in part, ``UBL is 
actively planning against U.S. targets. Multiple reports 
indicate UBL is keenly interested in striking the U.S. on its 
own soil. Al-Qa'ida is recruiting operatives for attacks in the 
U.S. but has not yet identified potential targets.''
    On December 4, 1998, in a memorandum to his deputies at the 
CIA, the Director of Central Intelligence summed up the 
situation in this way: ``We must now enter a new phase in our 
effort against bin Ladin. Our work to date has been remarkable 
and in some instances heroic. Yet each day we all acknowledge 
that retaliation is inevitable and that its scope may be far 
larger than we have previously experienced. We are at war. I 
want no resources or people spared in this effort, either 
inside CIA or the community.''
    A classified document signed by a senior U.S. Government 
official in December 1998, read, in part, ``The Intelligence 
Community has strong indications that bin Ladin intends to 
conduct or sponsor attacks inside the United States.''
    In June 1999 testimony before the Senate Select Committee 
on Intelligence and in a July 1999 briefing to House Permanent 
Select Committee on Intelligence staffers, the Chief of the CTC 
described reports that bin Ladin and his associates were 
planning attacks in the United States.
    And a classified document signed by a senior U.S. 
Government official in July 1999, characterized bin Ladin's 
February 1998 statement as, ``a de facto declaration of war'' 
on the United States.
    What is less clear is the extent to which other parts of 
the government, as well as the American people, understood and 
fully appreciated the gravity and the immediacy of the threat.
    For example, officials at the National Security Agency whom 
we have interviewed were aware of DCI Tenet's December 1998 
declaration that the Intelligence Community was at war with bin 
Ladin. On the other hand, relatively few of the FBI agents 
interviewed by the joint inquiry staff seem to have been aware 
of DCI Tenet's declaration.
    There was also considerable variation in the degree to 
which FBI-led joint terrorism task forces, or JTTFs, 
prioritized and coordinated field efforts targeting bin Ladin 
and al-Qa'ida. While the FBI's New York office was the lead 
office in the vast majority of counter terrorism investigations 
concerning bin Ladin, many other FBI offices around the country 
were unaware of the magnitude of the threat.
    There are also indications that the allocation of 
Intelligence Community resources after the DCI's December 1998 
declaration did not adequately reflect a true war effort 
against bin Ladin. In 1999, the CTC had only three analysts 
assigned full time to bin Ladin's terrorist network worldwide. 
After 2000, but before September 11, 2001, that number had 
risen to five.
    On a broader scale, our review has found little evidence 
prior to September 11 of a sustained national effort to 
mobilize public awareness and to harden the homeland against 
the potential assault by bin Ladin within the United States, 
with the possible exception of a heightened focus on weapons of 
mass destruction.
    The second point that I want to cover is strategic 
warning--indications of a possible terrorist attack in the 
spring and summer of 2001.
    Let me briefly describe what we have found regarding the 
level and the nature of threat information that was obtained by 
the Intelligence Community during the spring and summer of 
2001. During that time period, the community experienced a 
significant rise in information indicating that bin Ladin and 
al-Qa'ida intended to strike against United States interests in 
the very near future.
    Some individuals within the community have suggested that 
the increase in threat reporting was unprecedented, at least in 
terms of their own experience. While the reporting repeatedly 
predicted dire consequences for Americans, it did not provide 
actionable detail on when, where and how specific attacks would 
occur.
    Between late March and September 2001, the Intelligence 
Community detected numerous indicators of an impending 
terrorist attack, some of which pointed specifically to the 
United States as a possible target.
    In March 2001, an intelligence source claimed a group of 
bin Ladin operatives were planning to conduct an unspecified 
attack in the United States in April 2001. One of the 
operatives allegedly resided within the United States.
    In April 2001, the Intelligence Community obtained 
information that unspecified terrorist operatives in California 
and New York State were planning a terrorist attack in those 
states for April.
    Between May and July, the National Security Agency reported 
at least 33 communications indicating a possible imminent 
terrorist attack. None of these reports provided any specific 
information on where, when or how an attack might occur, nor 
was it clear that any of the individuals involved in these 
intercepted communications had any firsthand knowledge of 
where, when or how an attack might occur. If they did know, it 
was not evident in the intercepts. These reports were widely 
disseminated within the Intelligence Community.
    In May 2001, the Intelligence Community obtained 
information that supporters of bin Ladin were reportedly 
planning to infiltrate the United States via Canada in order to 
carry out a terrorist operation using high explosives. The 
report mentioned an attack within the United States, though it 
did not say where in the U.S., or when or how an attack might 
occur.
    In July 2001, this information was shared with the FBI, the 
Immigration and Naturalization Service, the U.S. Customs 
Service and the State Department, and was included in a closely 
held intelligence report for senior government officials in 
August 2001.
    In May 2001, the Department of Defense acquired and shared 
with other elements of the Intelligence Community information 
indicating that seven individuals associated with bin Ladin had 
departed various locations for Canada, the United Kingdom and 
the United States.
    In June 2001, the DCI's CTC had information that key 
operatives in Usama bin Ladin's organization were disappearing, 
while others were preparing for martyrdom.
    In July 2001, the DCI's CTC was aware of an individual who 
had recently been in Afghanistan who had reported, ``everyone 
is talking about an impending attack.'' The Intelligence 
Community was also aware that bin Ladin had stepped up his 
propaganda efforts in the preceding months.
    On August 16, 2001, in Minneapolis, Minnesota, the INS 
detained Zacharias Moussaoui. Prior to that date, in August 
2001, Mr. Moussaoui's conduct had aroused suspicions about why 
he was learning to fly large commercial aircraft, and had 
prompted the flight school he was attending in Minneapolis to 
contact the local FBI office. FBI agents believed that 
Moussaoui may have been intending to carry out a terrorist act.
    On August 23, 2001, the Intelligence Community requested 
that two individuals, Khalid Al-Mihdhar and Nawaf Al-Hazmi, who 
had first come to the attention of the community in 1999 as 
possible associates of bin Ladin's terrorist network, be added 
to the U.S. Department of State's watch list for denying visas 
to individuals attempting to enter the United States.
    Working levels of INS and U.S. Customs had determined that 
at least one of them was likely in the United States, prompting 
FBI headquarters to request searches for them in both New York 
and Los Angeles. The FBI's New York field office unsuccessfully 
searched for Al-Mihdhar and Al-Hazmi. The FBI's Los Angeles 
office received the search request on September 11, 2001.
    In late summer 2001, the Intelligence Community obtained 
information that an individual associated with al-Qa'ida was 
considering mounting terrorist operations within the United 
States. There was no information available as to the timing of 
possible attacks or the alleged targets.
    And on September 10, 2001, NSA intercepted two 
communications between individuals abroad suggesting imminent 
terrorist activity. These communications were not translated 
into English and disseminated until September 12, 2001. These 
intercepts did not provide any indication of where or what 
activities might occur.
    Despite these indicators of a possible terrorist attack 
inside the United States, during the course of interviews the 
Joint Inquiry staff was told that it was the general view of 
the U.S. Intelligence Community in the spring and summer of 
2001 that an attack on U.S. interests was more likely to occur 
overseas. Individuals in the Intelligence Community pointed to 
intelligence information, the arrests of suspected terrorists 
in the Middle East and Europe and a credible report of a plan 
to attack a U.S. embassy in the Middle East as factors that 
shaped their thinking about where an attack was likely to 
occur. One senior FBI official said that based on the 
intelligence he was seeing, he thought there was a high 
probability, ``98 percent,'' that the attack would occur 
overseas.
    During the summer of 2001 the Intelligence Community was 
also disseminating information through appropriate channels to 
senior U.S. government officials about possible terrorist 
attacks.
    For example, in June 2001, the community issued a terrorist 
threat advisory warning U.S. Government agencies that there was 
a high probability of an imminent terrorist attack against U.S. 
interests by Sunni extremists associated with bin Ladin's al-
Qa'ida organization. The advisory mentioned the Arabian 
peninsula, Israel and Italy as possible locations. According to 
the advisory, the community continued to believe that Sunni 
extremists associated with al-Qa'ida are most likely to attempt 
spectacular attacks resulting in numerous casualties.
    Subsequently, intelligence information provided to senior 
U.S. government leaders indicated that bin Ladin's organization 
expected near-term attacks to have dramatic consequences on 
governments or cause major casualties. A briefing prepared for 
senior government officials at the beginning of July 2001 
contained the following language, ``Based on a review of all-
source reporting over the last five months, we believe that UBL 
will launch a significant terrorist attack against U.S. and/or 
Israeli interests in the coming weeks. The attack will be 
spectacular and designed to inflict mass casualties against 
U.S. facilities or interests. Attack preparations have been 
made. Attack will occur with little or no warning.''
    Later intelligence information provided to senior 
government leaders indicated that bin Ladin's organization 
continued to expect imminent attacks on U.S. interests.
    The Joint Inquiry staff has been advised by a 
representative of the Intelligence Community that about a month 
later, in August 2001, a closely held intelligence report for 
senior government officials included information that bin Ladin 
had wanted to conduct attacks in the United States since 1997.
    The information included discussion of the arrests of Ahmed 
Ressam in December 1999 and the 1998 bombings of the U.S. 
embassies in Kenya and Tanzania. It mentioned that members of 
al-Qa'ida, including some U.S. citizens, had resided or 
traveled in or traveled to the United States for years and that 
the group apparently maintained a support structure here. The 
report cited uncorroborated information obtained in 1998 that 
bin Ladin wanted to hijack airplanes to gain the release of 
U.S.-held extremists; FBI judgments about patterns of activity 
consistent with preparations for hijackings or other types of 
attack and the number of bin Ladin-related investigations under 
way; as well as information acquired in May 2001 that indicated 
a group of bin Laden supporters was planning attacks in the 
United States with explosives.
    In August 2001, based on information it had in its 
possession at the time, the CIA sent a message to the FAA 
asking the FAA to advise corporate security directors of U.S. 
air carriers of the following information. ``A group of six 
Pakistanis currently based in Bolivia may be planning to 
conduct a hijacking or possibly a bombing or an act of sabotage 
against a commercial airliner. While we have no details of the 
carrier, the date or the location of this or these possibly 
planned actions, we have learned that the group has had 
discussions in which Canada, England, Malaysia, Cuba, South 
Africa, Mexico, Atlanta, New York, Madrid, Moscow and Dubai, 
have come up, and India and Islamabad have been described as 
possible travel destinations.''
    While this information was not related to an attack planned 
by al-Qa'ida, it did alert the aviation community to the 
possibility that a hijacking plot might occur in the U.S. 
shortly before the September 11 attacks occurred.
    Now, I want to turn to intelligence information on possible 
terrorist use of airplanes as weapons.
    Central to the September 11 attack was the terrorist use of 
airplanes as weapons. In the aftermath of the attacks, there 
was much discussion about the extent to which our government 
was or could have been aware of the threat of terrorist attacks 
of this type and the extent to which adequate precautions were 
taken to address the threat. Based on our review to date, we 
believe that the Intelligence Community was aware of the 
potential for this type of terrorist attack but did not produce 
any specific assessment of the likelihood that terrorists would 
use airplanes as weapons. Our review has uncovered several 
examples of intelligence reporting on the possible use of 
airplanes as weapons in terrorist operations.
    In December 1994, Algerian armed Islamic Group terrorists 
hijacked an Air France flight in Algiers and threatened to 
crash it into the Eiffel Tower. French authorities deceived the 
terrorists into thinking the plane did not have enough fuel to 
reach Paris and diverted it. A French antiterrorist force 
stormed the plane and killed all four terrorists.
    In January 1995, a Philippine national police raid turned 
up materials in a Manila apartment indicating that three 
individuals planned, among other things, to crash a plane into 
CIA headquarters. The Philippine national police said that the 
same group was responsible for the bombing of a Philippine 
airliner on December 12, 1994. Information on the threat was 
passed to the FAA, which briefed U.S. and major foreign 
carriers.
    In January 1996, the Intelligence Community obtained 
information concerning a planned suicide attack by individuals 
associated with Shaykh Omar Abdel Rahman and a key al-Qa'ida 
operative. Theplan was to fly to the United States from 
Afghanistan and attack the White House.
    In October 1996, the Intelligence Community obtained 
information regarding an Iranian plot to hijack a Japanese 
plane over Israel and crash it into Tel Aviv. An individual 
would board the plane in the Far East. During the flight, he 
would commandeer the aircraft, order it to fly over Tel Aviv 
and then crash the plane into the city.
    In 1997, one of the units at FBI headquarters became 
concerned about the possibility of a terrorist group using an 
unmanned aerial vehicle, UAV, for terrorist attacks. The FBI 
and CIA became aware of reporting that this group had purchased 
a UAV. At the time, the agencies' view was that the only reason 
that this group would need a UAV would be for either 
reconnaissance or attack. There was more concern about the 
possibility of an attack outside the United States, for 
example, by flying the UAV into a U.S. embassy or a visiting 
U.S. delegation.
    As noted previously, in August '98, the Intelligence 
Community obtained information that a group of unidentified 
Arabs planned to fly an explosive-laden plane from a foreign 
country into the World Trade Center.
    Also noted previously, in September '98, the Intelligence 
Community obtained information that bin Ladin's next operation 
could possibly involve flying an aircraft loaded with 
explosives into a U.S. airport and detonating it.
    In November 1998, the community obtained information that a 
Turkish Islamic extremist group had planned a suicide attack to 
coincide with celebrations marking the death of Ataturk. The 
conspirators, who were arrested, planned to crash an airplane 
packed with explosives into Ataturk's tomb during a government 
ceremony. The Turkish press said the group had cooperated with 
Usama bin Ladin. The FBI's New York office included this 
incident in one of its Usama bin Ladin databases.
    In February 1999, the Intelligence Community obtained 
information that Iraq had formed a suicide pilot unit that it 
planned to use against British and U.S. forces in the Persian 
Gulf. The CIA commented that this was highly unlikely and 
probably disinformation.
    In March 1999, the Intelligence Community obtained 
information regarding a plan by an al-Qa'ida member, who was a 
U.S. citizen, to fly a hang glider into the Egyptian 
presidential palace and then detonate the explosives he was 
carrying. The individual, who received hang glider training in 
the United States, brought the hang glider back to Afghanistan.
    In April 2000, the Intelligence Community obtained 
information regarding an alleged bin Ladin plot to hijack a 
747. The source, who was a walk-in to the FBI's Newark office, 
claimed that he had been to a training camp in Pakistan where 
he learned hijacking techniques and received arms training. He 
also stated that he was supposed to meet five to six other 
individuals in the United States who would also participate in 
the plot. They were instructed to use all necessary force to 
take over the plane because there would be pilots among the 
hijacking team. The plan was to fly the plane to Afghanistan, 
and if they could not make it there, that they were to blow up 
the plane.
    Although the individual passed an FBI polygraph, the FBI 
was never able to verify any aspect of his story or identify 
his contacts in the United States.
    And, in August 2001, the Intelligence Community obtained 
information regarding a plot to either bomb the U.S. embassy in 
Nairobi from an airplane or crash an airplane into it. The 
Intelligence Community learned that two people who were 
reportedly acting on instructions from bin Ladin met in October 
2000 to discuss this plot.
    Despite these reports, the community did not produce any 
specific assessments of the likelihood that terrorists would 
use airplanes as weapons. This may have been driven in part by 
resource issues in the area of intelligence analysis. Prior to 
September 11, 2001, the CTC had 40 analysts to analyze 
terrorism issues worldwide, with only one of the five branches 
focused on terrorist tactics. Prior to September 11, 2001, the 
only terrorist tactic on which the CTC performed strategic 
analysis was the possible use of chemical, biological, 
radiological and nuclear weapons, because there was more 
obvious potential for mass casualties.
    At the FBI, prior to September 11, 2001, support for 
ongoing investigations and operations was favored in terms of 
resources over long-term strategic analysis. We were told 
during the course of our FBI interviews that prevention 
occurred in the operational units, not through strategic 
analysis, and that prior to September 11 the FBI had 
insufficient resources to do both.
    We were also told that the FBI's al-Qa'ida-related analytic 
expertise had been ``gutted'' by transfers to operational units 
and that as a result the FBI analytic unit had only one 
individual working on al-Qa'ida at the time of the September 11 
attacks.
    While focused strategic analysis was lacking, the subject 
of aviation-related terrorism was included in some broader 
terrorist threat assessments, such as the National Intelligence 
Estimate on Terrorism. For example, the 1995 NIE on Terrorism 
cited the consideration the Bojinka conspirators gave to 
attacking CIA headquarters with an aircraft. The document 
contained the following language: ``Our review of the evidence 
suggests that the conspirators were guided in their selection 
of the method and venue of attack by carefully studying 
security procedures in place in the region. If terrorists 
operating in this country, the United States, are similarly 
methodical, they will identify serious vulnerabilities in the 
security system for domestic flights.''
    The 1997 update to that report on terrorism included the 
following language: ``Civil aviation remains a particularly 
attractive target in light of the fear and publicity the 
downing of an airliner would evoke and the revelations last 
summer of the U.S. air transport sector's vulnerabilities.''
    In a December 2000 report, the FBI and the FAA published a 
classified assessment that suggested less concern about the 
threat to domestic aviation. ``FBI investigations confirm 
domestic and international terrorist groups operating within 
the United States but do not suggest evidence of plans to 
target domestic civil aviation. Terrorist activity within the 
U.S. has focused primarily on fundraising, recruiting new 
members and disseminating propaganda. While international 
terrorists have conducted attacks on U.S. soil, these acts 
represent anomalies in their traditional targeting, which 
focused on U.S. interests overseas.''
    After September 11, 2001, the CIA belatedly acknowledged 
some of the information that was available and had been 
available regarding the use of airplanes as weapons. A draft 
analysis dated November 19, 2001, entitled ``The September 11 
Attacks: A Preliminary Assessment,'' states: ``We do not know 
the process by which bin Ladin and his lieutenants decided to 
hijack planes with the idea of flying them into buildings in 
the United States. But the idea of hijacking planes for suicide 
attacks had long been current in jihadist circles. For example, 
GIA terrorists from Algeria had planned to crash an Air France 
jet into the Eiffel Tower in December 1994. And Ramzi Yousef, a 
participant in the 1993 World Trade Center bombing, planned to 
explode 12 U.S. jetliners in mid-air over the Pacific in the 
mid-1990s. Likewise, the World Trade Center had long been a 
target of terrorist bombers.''
    Despite the intelligence available in recent years, our 
review to date has found no indications that prior to September 
11 analysts in the Intelligence Community were cataloging 
information regarding the use of airplanes as weapons as a 
terrorist tactic, sending requirements to collectors to look 
for additional information on this threat, or considering the 
likelihood that Usama bin Ladin, al-Qa'ida or any other 
terrorist group would attack the United States or U.S. 
interests in this way.
    Mr. Chairman, our purpose this morning was to report on 
theinformation that the Intelligence Community possessed prior to 
September 11, 2001, about terrorist attacks of the kind America 
witnessed on that fateful day. In closing, let me just say that for all 
of us who have been conducting this review, the task has been and 
continues to be not only a daunting one, but in all respects a sobering 
one. We are ever mindful that lost lives and shattered families were 
the catalyst for this inquiry. We know, as I have heard Ms. Pelosi say 
many times, that we are on sacred ground.
    We also have come to know from our review of the 
intelligence reporting the depth and the intensity of the 
enemy's hatred for this country and the relentless zeal with 
which it targeted American lives. We understand not only the 
importance, but also the enormity, of the task facing the 
Intelligence Community. As my statement this morning suggests, 
the community made mistakes prior to September 11. And the 
problems that led to those mistakes need to be addressed, and 
they need to be fixed.
    On the other hand, the vengeance and the inhumanity that we 
saw on that day were not mistakes for Usama bin Ladin and for 
others like him. The responsibility for September 11th remains 
squarely on the shoulders of the terrorists who planned and 
participated in the attacks. Their fervor and their cruelty may 
be incomprehensible, but it is real, it persists and it is 
directed at Americans. We are convinced that it is no longer a 
question of whether the Intelligence Community can do better. 
It must do better. America can afford no less.
    Mr. Chairman, that concludes my statement this morning. 
Thank you.
    Chairman Graham. Ms. Hill, I would like to extend my 
congratulations to you and the staff for an excellent, sobering 
assessment of the events prior to September the 11th. I 
recognize this is the first of what will be a series of 
publicly released statements of the results of our inquiry to 
date, and we look forward to your future reports.
    Ms. Hill. Thank you, Mr. Chairman.
    Chairman Graham. We will now proceed to questions and 
comment from members, starting with Senator DeWine.
    Let me just state who the next questioners will be: Mr. 
Boehlert, Senator Wyden, Mr. Bereuter, Mr. Bishop, Senator 
Levin, Senator Inhofe, Mr. Peterson, Mr. Cramer.
    Senator DeWine. Mr. Chairman, thank you very much.
    Ms. Hill, thank you for your very good statement and your 
good work. Mr. Chairman, thank you for the opportunity to make 
some brief remarks at this very important public hearing.
    Let me also thank our witnesses who testified this morning. 
While none of us can understand what you have been through, I 
have seen how tragic the events of September 11 had been for my 
own state director, a very good friend of mine, Barbara 
Schenck. Barbara lost her brother, Doug Cherry, to the 
terrorist attacks.
    Before talking about what I hope comes out of these 
hearings, let me express a concern. I've been concerned from 
the outset of this investigation that the time deadlines under 
which this Committee is operating would not be conducive to 
producing the product that we want. The artificial deadline I 
believe is making it extremely difficult to get the job done. 
It's simply a lack of time, it's a lack of resources.
    However, Mr. Chairman, there still are things that we can 
accomplish, even with the current constraints of this 
investigation. First, it is important to report, and we have 
begun this today, it's important to report to the American 
people what intelligence failures did occur, not so we can 
assess blame but so we can learn from the specific mistakes 
that were made.
    But there is more to it than that. Yes, we need to gather 
the facts and take time to examine what they mean with regard 
to what happened on September 11, but we certainly cannot stop 
there. We also need to figure out what these facts tell us 
about the current structure of our overall Intelligence 
Community. What are the shortcomings? Where do we need reform?
    And I thought Mr. Push's testimony earlier was very 
excellent. I thought he talked about some of the big picture 
issues that we're not going to resolve on this Committee, but 
at least that we can begin to look at and begin a national 
dialogue about these issues. So I thought his testimony was 
particularly telling.
    I think, for example, Mr. Chairman, in investigating these 
issues, we must take a serious look at the role of the Director 
of Central Intelligence. I believe it's time to give the DCI 
the necessary authority and the ability to truly direct our 
overall intelligence operations. Quite simply, we need to 
empower the DCI to do the job.
    I believe we also must seriously examine the long-term 
resource issues that confront us, not just now but over the 
long haul, over the next decade or two decades. Do we have the 
human resources available within the agencies themselves? Do we 
have the right technology, and enough of it, to get the job 
done in the new world that we live in? Do we have a long-term 
commitment to intelligence?
    I think we need to discuss that commitment and what we are 
looking at and make it very plain to the American people the 
sacrifices that are going to have to be made if the 
Intelligence Community is to do its job, and what kind of 
resources they need.
    And finally, I believe that we need to re-examine the 
Foreign Intelligence Surveillance Act, or the FISA statute, and 
determine what changes are needed to make sure we are getting 
the intelligence from this source to help prevent future 
attacks. FISA deserves and requires a great deal of attention 
and oversight from the joint committee, from the Senate and 
House Intelligence Committees and, frankly, from the entire 
Congress. We must focus on our congressional duty for oversight 
because we simply have not had, in my opinion, effective 
oversight since FISA was instituted approximately a quarter of 
a century ago. Somehow, we've got to figure out, Mr. Chairman, 
how to do that.
    Finally, this Committee's job, I believe, is really to kick 
off, to launch, a serious national debate about what changes 
must be made in our Intelligence Community. Because, if we've 
learned anything from September 11, it is that our security, 
our safety, the safety of our loved ones, is intrinsically 
linked to the quality of that intelligence.
    I thank the Chair.
    Chairman Graham. Thank you, Senator.
    Congressman Boehlert.
    Mr. Boehlert. Mr. Chairman, let me ask about procedure. Are 
we just to have an opening statement or to go right to 
questions?
    Chairman Graham. It is your choice; you have five minutes.
    Mr. Boehlert. All right, thank you very much Mr. Chairman.
    Ms. Hill, let me thank you for an excellent presentation, 
and let me begin where you ended. You said we are convinced 
that it is no longer a question of whether the Intelligence 
Community can do better, it must do better. America can afford 
no less. I could not agree more with that statement.
    Your summation of our 10 closed hearings and the revelation 
of the information in the public domain is somewhat difficult 
to deal with because so much of what we've had, obviously, 
during those closed hearings has been highly classified, 
dealing with sensitive national security information.
    But it appears to me that the alarm was sounded not once, 
but several times, but too many gave it a deaf ear. I'm not 
ascribing any sinister motives; I'm just saying too many were 
not paying attention. A lot of reasons for that, resource 
deficiencies, lack of adequate staff. Some of the revelations 
in your testimony are just absolutely mind-boggling.
    But let me ask something. Back in '98, when the Director of 
Central Intelligence declared war on al-Qa'ida, sent a 
memorandum to his agency people, was that a unilateral 
declaration of war? Was that memorandum shared with anyone but 
the in-house people at the CIA? Did it go to the FBI? Did it go 
to all the other agencies in the Intelligence Community?
    Ms. Hill. We have been following that question in the 
course of our interviews and we've been basically asking those 
questions. We're dealing with a lot of the agencies in the 
Intelligence Community and we're trying to find out how much 
the entire community was aware of that declaration of war.
    And what we're finding is that some people were. I think 
certainly senior levels in the CIA were, and probably elsewhere 
in the CIA, but as I mentioned, if you go out to the field 
offices of the FBI they were not aware of it.
    Other people in the federal government were not aware of 
it. The Defense Department--we've interviewed some people there 
who were not aware of it that might have been interfacing with 
the community.
    So I would say it appears to be, it was the DCI's decision. 
It was circulated to some people but certainly not broadly 
within the community. And what I find disturbing about it is 
that it was distributed at senior levels, but sometimes the 
operative level, the level in the field, is where it actually 
is critical that they know what the priorities should be and 
have to be, particularly in combating something like al-Qa'ida. 
The field offices of the FBI, in terms of domestic activity, 
are crucial because they are the ones who are going to be in 
the front lines in the United States dealing with those kinds 
of groups.
    And, at least in that respect, what we're finding is that 
many of them were not aware of that declaration of war and some 
of them really were not focused very much at all on al-Qa'ida 
and bin Ladin.
    Mr. Boehlert. Well, I find that incomprehensible, quite 
frankly. Because a key operative in our Intelligence Community, 
a leader, issues something as important as a declaration of war 
against an organization that has openly declared its determined 
effort, a fatwa, the religious decree to destroy America and 
Americans, and that information is not shared at the highest 
level down to the lowest level.
    Which brings me forward to the Phoenix memo and the 
Minneapolis case involving Mr. Moussaoui. And I've checked with 
counsel to see if it's all right to reveal some of this stuff, 
because the problem is, I have difficulty, and I've had for all 
the years I've served on the Committee, in recalling where I 
learned the information that I have. Was it from a highly 
secure, highly sensitive briefing, or did I read it in the 
front page of the newspaper? And so my practice has been just 
not talk to the media at all about this very important 
assignment.
    But we go forward to the Phoenix memo, which was sent up to 
headquarters, at a time we had a declaration of war in the 
Intelligence Community, and the memo was marked ``Routine.''
    Ms. Hill. And it was not only at the time of the 
declaration of war, it was in the summer of 2001; it was at a 
time when the threat level was very high also.
    Mr. Boehlert. And so the memo was marked ``Routine'' and it 
was given the most routine handling and it never got above mid-
level. And then we go out to Minneapolis in the Moussaoui case, 
and that was treated in a somewhat cavalier, very routine 
manner.
    I fail to see how, with all the alarms that were sounded, 
why--what do we know? There was not the proper coordination, 
there was not the proper information sharing.
    You have indicated some corrective action has been taken--
but boy, God, we would only hope so--since September 11, but I 
would suggest a lot of corrective action should have been taken 
well before September 11th.
    Let me ask you this. With our first two witnesses, Ms. 
Breitweiser and Mr. Push--and their testimony was very 
poignant----
    Chairman Graham. Your time is expired.
    Mr. Boehlert. That's a fast five minutes. All right, just 
let me finish the one question; I'm in the middle of it.
    Chairman Graham. We'll be compassionate.
    Mr. Boehlert. Did you spend an extended amount of time with 
both of these witnesses? Because they both have statements that 
are forever seared in our souls. Some deal with opinion, others 
deal with alleged fact. And so did you spend a good amount of 
time with them? And have you checked up on the alleged facts 
that they presented?
    And I'm not questioning those facts; I just want to make 
sure we're dealing with the same information.
    Ms. Hill. I have met with Ms. Breitweiser several times 
since I joined this effort with the Committee, with her and her 
group. And Mr. Push, I believe, I've met with him once. I have 
not checked up on all the specifics in their statements because 
I didn't see the statements until yesterday--I mean, we got 
those statements yesterday. But I've had a lot of discussions 
with them and some of the things, you know, that they mentioned 
I am aware of, some of them I'd want to look into in more 
detail, obviously.
    Mr. Boehlert. Thank you very much.
    Thank you, Mr. Chairman, for your indulgence.
    Chairman Graham. Senator Wyden.
    Senator Wyden. Thank you, Mr. Chairman.
    Ms. Hill, as you know, there were years of history 
indicating that airplanes would be used as a tool of terrorism. 
And yet you state on page 30, and I'll quote here, ``Our review 
to date has found no indications that prior to September 11th 
analysts in the Intelligence Community were cataloguing 
information regarding the use of airplanes as weapons, as a 
terrorist tactic, sending requirements to collections to look 
for additional information this threat or considering the 
likelihood that bin Ladin, al-Qa'ida or other terrorist groups 
would attack the United States or U.S. interests in this way.''
    That is a remarkable statement, given the history going 
back, I believe, to 1994 at least. And my question, to begin 
with, is when you asked the Intelligence Community why this was 
the case, why they didn't catalogue this information regarding 
the use of planes as weapons or consider the likelihood that 
they would be used as terrorist tools, what was the response of 
the Intelligence Community when you asked them why?
    Ms. Hill. Well, I think a couple of things. We've spoken to 
many people over there and gotten, you know, opinions and 
reactions on this.
    You have to understand, the reason we have been able to 
catalogue all these instances is because one of the things we 
did was ask the community to go back and find anything that 
related to aircraft as weapons. So we went back and 
consolidated and went through their databases to pull it all 
out so you could see it all together. And I don't believe that 
had been done, obviously, before we focused on it, given 
September 11.
    So, one, it had not been all pulled together for them to 
see it, you know, other than in piecemeal fashion over time. 
Secondly, I think what they will tell you on many of these 
things in the terrorism field is that they were overwhelmed. 
The people who were looking at al-Qa'ida and bin Ladin will 
complain to you about resources, about the amount of 
information that was coming in. They were overwhelmed by almost 
a flood of information. Because, as you can see from our 
statements, there's a lot of reporting in there just on these 
topics. And of course, that reporting is but a small amount of 
the overall amount of reporting that the community deals with.
    So I think the reasons that they would give you were that 
it was spread out over time, they were overwhelmed by limited 
resourcesand other priorities, and they were overwhelmed by the 
amount of information they were getting and dealing with responses to 
other areas.
    Senator Wyden. What is so hard to swallow, however, is how 
anything could be a higher priority than this. And for you to 
state that the Intelligence Community was not considering the 
likelihood that bin Ladin, al-Qa'ida would attack the United 
States in this way is, of course, exactly the kind of thing 
we've got to address in these inquiries.
    In your testimony and also from the victim's families we 
have heard about the failure to place Khalid Al-Mihdhar and 
Nawaf Al-Hazmi--and by the way, Mr. Al-Hazmi is listed in the 
phone book in San Diego, I gather--on a watch list that would 
have prevented their entry into the United States.
    I offered an amendment on the intelligence bill this year 
to create a terrorist tracking system that would help ensure 
that this information would finally actually get shared to 
everybody in the intelligence, everybody in the law enforcement 
area, and would actually get to local law enforcement 
officials.
    In your view, to make this kind of a system effective, what 
sort of policies need to be included so that finally we can 
respond to what Mr. Push has asked for, and that is to have a 
system that on an ongoing basis makes as a top priority 
tracking the most dangerous individuals who threaten this 
country?
    Ms. Hill. Well, I think part of it is, you have to get 
people's attention. I mean, you have to get people focused on 
the need to do that--people in the system, in the agencies, in 
the group that is working on those issues. We're going to go 
into that particular case in much more detail when we present 
our testimony or statement on the hijackers; that would relate 
to the case you're talking about. So we will go into it in a 
lot more detail and tell you what we've heard from people who 
were handling that information at the time and why it slipped 
by them.
    But I think you may hear anything from they had too many 
things to do, it wasn't considered that significant, they were 
overwhelmed and it was simply a mistake--they made a mistake.
    Senator Wyden. Mr. Chairman, my time has expired. I would 
only want to add one last point with respect to where I think 
we are in terms of our inquiry.
    As we all know there are many, both on this Committee and 
off, who think that essentially this Committee ought to punt to 
an independent effort. I'm of the view that the bar is very, 
very high now in terms of establishing the credibility of this 
effort and to show that we're capable of attacking these 
fundamental problems. This is not something that's going to be 
solved by just moving the boxes around on the organizational 
chart and people going up with pointers and saying the problem 
is solved.
    So I think Ms. Hill has helped us, with the families, get 
off to a good start. And I look forward to working with my 
colleagues.
    Chairman Graham. Thank you very much, Senator.
    Mr. Bishop.
    Mr. Bishop. Thank you.
    This is, indeed, a historic occasion when the two 
Intelligence Committees working together on a matter of great 
importance like this comes to pass. And I'm sure, however, that 
given the nature and the circumstances which require our 
attention, the destructive attacks on our country September 11, 
it's a task which all of us wish that we didn't have to face. 
But we are most appreciative today for the well-prepared, 
thoughtful and helpful testimony presented by Ms. Breitweiser 
and Mr. Push.
    We have a responsibility to thoroughly and professionally 
gather, assess and present the facts about September 11 as they 
relate to performance of the intelligence agencies. And as we 
enter these public hearings there remains a general sense of 
disappointment and disbelief within the American people that 
those agencies, particularly the CIA and the FBI, were not 
better positioned to detect the conspiracy and to prevent the 
attacks.
    We must try to address the many questions which have arisen 
about why better intelligence was not collected, or why better 
use was not made of the information which was available. And 
now, publicly examining the performance of the communities and 
the decisions that were made in the Executive branch and 
perhaps in Congress about the establishment of priorities 
within the Intelligence Community, we will be conducting the 
type of oversight which these committees are at present 
uniquely situated to provide.
    It is my continued hope that these hearings and our final 
report will result in a marked improvement in our understanding 
of the events that led up to 9/11 and most importantly, in our 
ability to protect the American people from terrorist attacks 
such as these.
    I look forward to working with the joint leadership and all 
of our scheduled witnesses. And I want to thank Ms. Hill and 
her staff for the tremendous work that they have done under 
very difficult circumstances, with some muzzling and bridling 
and limitations and with great time constraints. It has, I 
think, been a valiant effort. And we will certainly, as a 
Committee, work with you to try to secure the cooperation that 
you need from the Executive branch and the agencies in getting 
access and being able to explain to the American people, and 
have this Committee explain to the American people, in the kind 
of detail which does not compromise sources and methods, plans 
and intentions, or active ongoing prosecutions, so that they 
can understand, as well as we hope to understand, what 
happened, why it happened, and what we can do to make sure it 
does not happen again.
    With that, I have no questions, but I did want to share 
those comments and thank again the witnesses for taking the 
time and the effort, which must have been extremely difficult, 
given the exigencies of your lives over the past year, to have 
come forward and done the magnificent job that you did today.
    Chairman Graham. Thank you, Mr. Bishop.
    Our next questioner, or discussant will be Senator Levin. 
After Senator Levin, Mr. Boswell, Mr. Castle, Mr. Roemer, Ms. 
Harman, Mr. Burr, Senator Bayh, and Senator Rockefeller.
    Senator Levin.
    Senator Levin. Thank you, Mr. Chairman.
    First, let me thank you, Ms. Hill, and your staff for 
getting us to the point where we are finally analyzing and 
presenting to the American people the significant intelligence 
failures which occurred prior to September 11. At this stage of 
the inquiry, much is already evident.
    First, the Intelligence Community said that it was at war 
with Usama bin Ladin, and had said so for three years prior to 
the attack of September 11.
    Second, despite National Security Adviser Condoleezza 
Rice's assertions to the contrary, the use of a plane as a 
terrorist weapon capable of causing mass casualties was neither 
ingenious nor novel but, rather, a method of attack that the 
Intelligence Community knew that the terrorists were 
considering as early as the early and mid-90s.
    Third, there is much troubling evidence that information 
crucial to preventing attacks by al-Qa'ida terrorists was not 
shared or acted upon by intelligence officials prior to 
September 11. Those intelligence failures will haunt loved ones 
and their families and should also haunt us and motivate us to 
very strong and necessary reforms.
    Here is just a few examples that I'm summarizing from your 
report. In January of 2000, the U.S. Intelligence Community was 
alerted to a meeting of al-Qa'ida members in Malaysia, 
including two of the eventual hijackers of American Airlines 
Flight 77. The hand-off of that information from the CIA to the 
FBI was bungled. The individuals were not tracked and, 
inexplicably, were not promptly placed on a watch list. Ten 
days later, the two accomplices entered the United States on a 
flight to Los Angeles. The location of the individuals after 
they were finally placed on the watch list was also mishandled.
    Second, a July 10, 2001 memorandum from an FBI field agent 
in Phoenix to the Usama bin Ladin unit and the radical 
fundamentalist unit at FBI headquarters requesting that an 
investigation be opened into foreign terrorists training at 
flight schools in the U.S. was never acted upon. Nor was the 
Phoenix field investigation shared with the CIA as specifically 
suggested by the FBI agent.
    And this is not in your memo, but this is what we learned, 
that nearly a year after the Phoenix memo, the FBI Director was 
unable to explain to our Committee who saw that request from 
the Phoenix FBI agent, what was done with the request, and who, 
if anyone, had been held accountable for letting that important 
information fall between some crack.
    Third, the August 16, 2001 arrest of Zacarias Moussaoui and 
the suspicions of the FBI agents in Minneapolis that he might 
be planning to undertake a terrorist attack using a plane and 
the urgent request that a warrant to search his computer and 
other belongings were not acted upon by FBI Headquarters.
    And I want to emphasize a point here. These were not some 
reports by unreliable sources. These were not unconfirmed 
statements. These were FBI agents that were asking for action. 
Their requests were ignored.
    Now I believe it is critically important for the 
Administration to release the Phoenix memorandum, documents 
relating to the Minneapolis FBI office request, and other 
documents that will allow the American people to judge for 
themselves the significance of these missed signals and the 
failures to share information between and within the 
intelligence and law enforcement communities.
    The Committee, I understand, has asked for declassification 
of those documents. That request is under consideration, I 
understand, by the Administration in preparation for next 
week's hearings.
    We've had discussion about this already this morning, but I 
do hope that the leadership of these Committees, our 
committees, will let the administration know that our 
Committees will seek congressional authorization, by 
legislation if necessary, to declassify appropriate information 
if the Executive branch refuses.
    We have Chairmen and Vice Chairmen of our committees who've 
agreed on some matters. It seems to me that is enough for us as 
committees to automatically authorize them to seek legislation 
should the Executive branch refuse. And that would go to future 
refusals, not just to previous ones.
    The American people understand that perfection is 
unattainable. But they also believe, as I do, that when errors 
are made, accountability, accountability is essential if 
lessons are to be learned for the sake of the future security 
of our nation.
    Is my time up?
    Chairman Graham. Thank you, Senator, for those very 
thoughtful----
    [Applause.]
    Chairman Graham [continuing]. And obviously well-received 
suggestions of actions by the Committee. We will take those 
under advisement.
    Mr. Boswell.
    Mr. Boswell. Thank you, Mr. Chairman.
    I think the word that hit me hardest today has been the 
word sobering. And as I heard the testimony of Kristen and 
Stephen it caused me to do a little flashback in my earlier 
life when I had to spend a lonely night, as some of the rest of 
you have done, to write to the loved ones why their loved one 
was lost in the battlefield that day. I've sensed your pain. I 
love you, respect you, and want you to have relief. And I see 
the relief for you is to see that these lessons learned are 
learned and filed and not have to be learned again.
    I used to work for Admiral Fluckey, probably the most 
decorated living American. He said, ``Put that in your lessons 
learned file and you don't have to learn it again.'' And that's 
what I hope we accomplish here.
    I feel like maybe my colleague from the Senate that said 
that maybe we don't need this extra blue-ribbon panel. After 
listening to Kristen and Stephen, I think you made a pretty 
good case maybe we do need it. And I wonder about the time and 
the resource and availability to us to finish this job, though 
I trust that the days lying ahead of you, Mr. Chairman, you're 
going to be dealing with that, with this side of the operation, 
and I know you'll give it serious consideration.
    A couple of questions, Ms. Hill, if I might ask. And I'll 
just ask them all and then I can refresh if you need them. Do 
you intend to have further statements of fact as we go forward 
from here today?
    Ms. Hill. Not today, but we do in future hearings.
    Mr. Boswell. I mean in the future. All right.
    Would you want to elaborate a little bit on what, or could 
you, what agencies had the responsibility to respond to the 
warnings? We've heard so much about the warnings for two, three 
years. Would you have any comment from your research and your 
study that who should have been responding--military, who?
    Ms. Hill. Well, it would depend on what you mean--a warning 
from the Intelligence Community or the reports?
    Mr. Boswell. Well, a combination. Did we fail as part of 
our lesson learned, if we can, in the area of maybe there 
should have been some responses going out to somebody else?
    Ms. Hill. Well, some of this--it depends. I mean, some of 
this information was disseminated further, some was not 
disseminated. Some, for instance, that we talked about, some 
went to the FAA in certain cases, and then they in turn would 
put out a warning.
    For instance, I talked about the one instance of the 
terrorist attack to the private commercial airline industry. So 
it depends on the nature of what the threat was and who they 
would warn.
    Mr. Boswell. I think in your further analysis and maybe 
what I'm asking is that you share with us as you look at it and 
have more time, if there's some things that we can put in 
this----
    Ms. Hill. I can say that we are pursuing the whole issue 
about questions of warnings and dissemination of information. 
It is notjust sharing information, as Senator Levin was talking 
about, within the Intelligence Community, between the FBI and CIA, for 
example, but also sharing threat information beyond the Intelligence 
Community to the agencies within government, outside the community and 
also to the private sector, which gets into the warning and how far 
this information went.
    And that is an area we are looking at, and we haven't yet, 
you know, come back with a report on it. But we are looking at 
that. And you know, that's a valid point because the job of the 
Intelligence Community is not only to get the good intelligence 
and to analyze it, but then to disseminate it to people who can 
use it in a timely manner.
    Mr. Boswell. Thank you. I've got a little bit of time left. 
Do you have any comment about the--and all the emphasis on bin 
Ladin and his activities and his lack of being able--prior to 
September 11 that is--lack of ability to bring damage to us. 
Did that lure our people into complacency, even at the senior 
levels?
    Ms. Hill. I think part of it is, as I alluded to earlier, 
is that the community, you know, does get so much information. 
And as I said in this statement, there were a lot of these 
threats coming in, but a lot of them they couldn't really 
corroborate. They didn't know if some of them were true or not 
true. So I think, you know, it may be human nature if you keep 
hearing this stuff all the time and nothing happens and you 
never really know if it's accurate, you tend to start 
disregarding it.
    And the problem is that buried in the middle of all that 
where some may be accurate, some maybe not, there may be 
something that really is important that needs to be looked at.
    So it may be that when the threat level was very high and 
all the chatter was coming through it was hard to distinguish 
what was really legitimate and something they needed to be 
concerned about.
    Mr. Boswell. Thank you very much. My time is up. I 
appreciate the hard work that you've presented to us, the 
straightforwardness, and I'm looking forward to what you 
further have to say as we go on from here.
    Ms. Hill. Thank you.
    Chairman Goss. Thank you, Mr. Boswell.
    Mr. Castle.
    Mr. Castle. Thank you, Mr. Chairman.
    I would also like to thank Ms. Breitweiser and Mr. Push for 
their testimony on their own behalf and on behalf of the others 
who have endured this. You're brave to be here. But you also 
had a lot to say and from a perspective that's different than 
we've heard so far.
    And I also thank Ms. Hill for making sure that we started 
off with this testimony. I think it is vitally important that 
we hear this.
    And some of my--these are sort of statements/questions. Let 
me go through a few of them, and if we have time perhaps you 
could respond to some of them, Ms. Hill, based in large part on 
matters that both Kristen and Stephen referenced.
    But one that has concerned me for some time, and Mr. 
Boehlert referenced it too, and that is the whole business of 
public versus private or classified information versus non-
classified information. I, for one, have felt for some time, 
having served on this Committee for a while, that we over-
classify terribly in the world of intelligence. You read about 
it the next day in the New York Times. It's about 90 percent of 
what you'd heard about the day before. And I just have serious 
questions about that. But the point was made in some of their 
testimony about the failure to warn the public. And I would 
imagine the public really didn't know much about bin Ladin. 
Based on what you said, I'm not even sure the Intelligence 
Community knew what it should have known about bin Ladin when 
September 11 came in 2001.
    We saw what the President has been able to do with Saddam 
Hussein, who is probably in the forefront of the minds of 
almost every American today. We know what can be done if there 
is a greater public awareness as to what is going on.
    And a lot that's happened since September 11 of last year 
has caused us all to be much more aware of possible terrorist 
activities or whatever. I would hope that as our Committee 
looks at all of this, we look at the public aspect of it. The 
American public is very intelligent and very cognizant of 
what's going on in the world. And, if they're given a chance to 
know what the potential problems are, my sense is that perhaps 
we can prevent some of the problems that we've had so far. And 
we shouldn't be so closed as far as intelligence is concerned.
    Now I understand there are circumstances in which that can 
not happen. I well understand that, and I'm not trying to go 
too far in saying that. But I really think we need to visit 
that question in terms of speeches being given by people in the 
Intelligence Community perhaps could be more open in terms of 
information that could be released, that kind of thing. And I'm 
very interested in pursuing that at some point.
    Something that Mr. Push said I had heard earlier when I 
visited the Homeland Security. And that is that the officials 
here in Washington were struck by how much the local law 
enforcement officers know about what's happening in their 
communities, about the individuals in their communities, 
perhaps troubled individuals in their communities, various 
things that we probably would never know in Washington, DC. 
There are a whole lot of them, you know, well over half a 
million state and local law enforcement officers who have a 
tremendous world of knowledge.
    And I think that Homeland Security is looking at trying to 
develop and to cultivate that knowledge, and make it part of a 
central--not a central bank system necessarily but the ability 
to be able to have that information go up and be digested and 
used in dealing with terrorists and other activities in this 
country. I think that's vitally important. We don't hear much 
about that.
    We hear about the CIA and the FBI and NSA and various major 
federal agencies. When you're dealing overseas, that's probably 
what it's all about. But when you're dealing in America, and 
also even when you're dealing overseas, you're dealing with 
some sort of a cell or a pod or somebody who's here locally, 
it's very helpful to have that information. And I hope as we go 
about our business of this particular Committee and what we're 
doing, that we incorporate that into it as well. So that also 
concerns me.
    And another area is much broader too than anything we've 
talked about and that's the area of prevention overall. I am 
vitally concerned about the hatred that exists in the Middle 
East, apparently at least in certain pockets of the Middle 
East, for America and perhaps for Israel and other portions of 
the world.
    And I don't know how to go about this. I'm not suggesting 
that we should be starting to formulate policy with respect to 
diplomacy and education. But it seems to me its something we 
should be paying attention to. If we could get to the root 
causes of this, of why that is there, if we could start to 
build the relationships that might change some of this, this 
might take 10, 15 or 25 years, but I don't think we should 
ignore it. And perhaps it's a little bit beyond what we are 
doing on this Committee, but the bottom line is I think it's a 
very important function of what we're doing as American 
citizens to try to prevent terrorism activities as far as the 
future is concerned.
    And I do have a specific question. I'd like your comment on 
any of those things. And then a specific question--I've got 
about 10 seconds here I think--and that is, just how far along 
are we in terms of all of your work? Are we going to be able to 
get our work done by the completion of this Congress?
    Ms. Hill. I am optimistic that we will be able to get 
through what we have in our minds as our schedule in terms of 
treating various topics that we think need to be treated. Where 
no one can ever be sure is that things are still coming up as 
we investigate. You know, once youstart looking at an agency 
and you're going through files, what tends to happen is the more you 
get into it, the more you start finding more things. And as we find 
things, we want to follow those where the facts lead and make sure we 
understand what did or did not happen. And that takes time.
    So there are some things like that, that we are now working 
on that are going to take us more time, because we haven't 
planned for that. But I'm cautiously optimistic we can make 
what I think would be a significant contribution on this whole 
front in terms of really understanding what did and didn't 
happen here before the eleventh and why, why we didn't know 
more in terms of what were the systemic problems that were 
preventing people from knowing more.
    So I would be foolish to sit here and tell you we're going 
to look at every single document on terrorism that the United 
States Government had for the last 20 years, because we haven't 
tried to do that. We've tried to narrow it to where we get to 
the relevant material that pertains to September 11. And I 
think we have a good shot at doing that.
    Mr. Castle. Thank you, Ms. Hill. We'll take my other 
statements and perhaps we can discuss them further at some 
point in terms of what we can do with them.
    I yield back, Mr. Chairman.
    Chairman Graham. Thank you, Mr. Castle.
    Senator Rockefeller.
    Senator Rockfeller. Thank you, Mr. Chairman.
    Thank you, Ms. Hill, very much for your distinguished work. 
In the interests of time, Mr. Chairman, I would like to make 
just three points.
    First, the fundamental question is what did the 
Intelligence Community know, and then what did they do with 
what they knew. The work of the Committee has not to this point 
unearthed any single piece of information or smoking gun, if 
you will, that would have in and of itself prevented the 
attack. But we have found far too many breakdowns in the 
intelligence-gathering and processing method.
    My own conclusion is that, given the events and signals of 
the preceding decade, the Intelligence Community could have, 
and in my judgment should have, anticipated an attack on U.S. 
soil on the scale of 9/11.
    We had witnessed attacks on Americans overseas, as you laid 
out--the USS Cole, Kenya, Tanzania, Khobar, the 1993 attack on 
the World Trade Center. We knew beyond any doubt that al-Qa'ida 
wanted to strike the United States. We were just sort of stuck 
in our classic American innocence that anything that happens is 
going to happen overseas. But there was information and plenty 
of it, disseminated or not disseminated, that something was 
going to happen here. Yet the Intelligence Community, for a 
whole host of reasons, did not launch the all-out effort that 
is its responsibility, that might have detected and potentially 
prevented 9/11.
    Second, the FBI is an outstanding law enforcement agency. 
But I have serious questions about whether it is the right 
place to do intelligence work necessary in our country. Law 
enforcement is not necessarily compatible with intelligence 
gathering; in fact, it is not. It's not the same skills, not 
the same mission. Going forward, we must not undermine the 
FBI's ability to carry out its fundamental responsibilities, 
because they're very important, and they do it very well.
    And we must not give short-shrift to new intelligence 
demands. So we have to ask ourselves, can the problem be 
addressed by reforming the FBI? I don't think so. Or is this a 
case where we need to find a wholly different solution? This is 
a tough question, obviously, which I hope this Committee will 
be tackling in the coming months, and it leads me to my final 
point.
    Are we ready, as a committee, as a Congress, as a 
government, as a people, not only to pose the tough questions--
it's easy to do--but also to find and to implement the tough 
solutions? It is clear to all of us that we must make serious 
changes in how we gather, process and react to intelligence in 
this country. Our existing agencies came into being in the Cold 
War. That's fine, but that structure no longer matches the 
threat that we face. Lines of authority are, in my judgment, 
blurred intentionally for the sake of turf, for the sake of all 
kinds of things which in some cases have justification, in many 
cases do not. The whole process leading up to today has been an 
interesting example of how difficult it is, in a very common 
purpose, to get people to agree on some relatively simple 
things.
    So lines of authority are blurred, information gets lost, 
and the mission is unfocused, the intelligence mission is 
unfocused. It might best be described as trying to do 
everything and in the process doing little well.
    Far-reaching change isn't just a goal, it's a necessity. 
Unfortunately, it's a very controversial and very uncomfortable 
necessity. It's something that they don't want to do here in 
Congress, they don't want to do at the White House, they don't 
want to do at the Defense Department, they don't want to do in 
the non-defense intelligence aspect of what we carry on in this 
country.
    But are we going to find the political will to create an 
intelligence system that works? Or are we going to say that 
this is going to be politically impractical, or probably not 
doable, and therefore cut our goal by 50 percent and then get 
leveraged down from there?
    So are we as a committee, in which we have our own 
differences and our own conflicts, as a Congress where the same 
exists, and as a government where the same exists, in the 
Intelligence Community where the same exists, do we have the 
political will and the strength and the determination to do the 
job right?
    Nothing else counts.
    Thank you, Mr. Chairman.
    Chairman Graham. Thank you, Senator.
    Mr. Roemer.
    Mr. Roemer. Thank you, Mr. Chairman.
    I want to thank Ms. Hill for an excellent presentation and 
outline this afternoon to help us understand this issue a bit 
more after several months of this investigation.
    I want to compliment your top-notch staff for their 
sacrifices and their hours of service to the country. And Mr. 
Chairman, you and Mr. Goss, on my side, I want to compliment 
both of you for bringing together in a bipartisan way this 
committee to launch an unprecedented bicameral investigation 
into the worst terrorist attack in our nation's history. And it 
is with pride and confidence that I know that we will produce a 
good product on this committee.
    In listening to the very moving testimony from Kristen and 
Steve this morning, I'm even more convinced, I'm even more 
compelled to work hard. I'm even more persuaded that an 
independent blue-ribbon commission is the right way to go.
    It's the right way to go because if this committee, with 
its jurisdiction and its might and insight and experience and 
dedication to intelligence, does its job, and by the very 
nature of an investigative inquiry staff doing their job over 
an eight-month period, unearthing facts, uncovering data, 
asking tough questions, they will produce even more questions 
for us to try to answer over the next year.
    So I think there is a compelling case, by the very 
effectiveness of this committee to do its job near perfectly 
and assume its jurisdiction as a body of Congress to take on 
this tough task, we make the case in a very convincing way for 
follow-up and a thread attached to this for an independent 
blue-ribbon commission to continue to look at these very, very 
tough questions as to how to reorganize an Intelligence 
Community that made mistakes, that committed failures, that saw 
warnings, and reorganize it in a time when we are threatened by 
a brand new source that wants to kill Americans in massive 
numbers very quickly. And they can do it in this kind of world 
environment.
    I think the case is made compellingly for an independent 
blue- ribbon commission. And I think that compliments us, and I 
think it adds into the history of this committee, the 
Intelligence Committee, which has had independent commissions 
such as Aspin-Brown, Hart-Rudman, the NRO, Rumsfeld on ICBMs, 
and even in the Senate bill, a brand new commission to study 
something else.
    Ms. Hill, I do have a question or two that I wanted to ask 
about the classification of data. On page 16 there is a 
reference to information provided to senior U.S. Government 
officials in September of 1998, and on page 28 mentioning 
senior government officials in July of 2001.
    Now without getting into breaking our classification--and 
we don't want to do that--one would be a Democratic 
administration, one would be a Republican administration. Is 
there the possibility that those references might be, could be, 
to a White House?
    Ms. Hill. Well, obviously given the classification----
    Mr. Roemer. I'm just asking in the realm of possibilities.
    Ms. Hill. Well, I guess are you asking about the term 
``senior government officials''? I mean, I guess the term 
``senior government officials'' would be anyone at a senior 
level in the entire U.S. Government, but I cannot, as I 
understand the rules on this, we are not allowed----
    Mr. Roemer. But your case, Ms. Hill, is that it's important 
for the American people to know when we get intelligence that 
it's not only the intelligence agencies that act upon it, it's 
the administration, as to what they do with it, with the 
military, with other branches of government----
    Ms. Hill. Right.
    Mr. Roemer [continuing]. The FAA, the border control, and 
so forth and so on.
    Ms. Hill. That's absolutely right. Because, I mean, to make 
intelligence really the way it should be, to make it important 
and valuable, it has to be not only collected and analyzed, but 
it has to be disseminated to the people who can use it in a 
timely manner.
    That's the whole point of having intelligence.
    Mr. Roemer. Part of our bipartisan efforts would be to get 
in a bipartisan way this access to declassifying that kind of 
references. Is that your argument?
    Ms. Hill. Well, I mean, our argument on this issue about 
the White House is that if you've declassified the information 
itself, it seems to us we don't see the national security 
interest in declassifying where it goes from there. If you 
declassify that it goes to some people, you should be able to 
declassify that it goes to everybody, whoever it went to.
    Mr. Roemer. I would hope our committee would have a long, 
very serious discussion about what to do on this 
declassification issue.
    Finally, Ms. Hill, if I could ask one final question, you 
mention the CTC and the number of analysts that they had, and I 
think mentioned a number of three to five.
    Ms. Hill. Right.
    Mr. Roemer. Yet as we've looked at the CTC budget over the 
1990s and a question of resources, without mentioning a 
specific number, which is classified, the trend which we can 
talk about, right----
    Ms. Hill. Right.
    Mr. Roemer [continuing]. Is a quadrupling in the CTC 
budget. So why isn't more money put into analysts in that 
budget when it's quadrupling?
    Ms. Hill. I think it's a priority question. What we found 
and we're saying is that the resources--they were getting more 
resources for counterterrorism prior to September 11 and after 
the DCI declared war on bin Ladin, it was going up. But there 
was no massive shift. It was a gradual thing.
    Mr. Roemer. Quadrupled.
    Ms. Hill. And in terms of analysis, there was not a 
significant amount of resources dedicated to it. So I assume it 
is like every other research allocation. It's depending on 
where your priorities are, and obviously there was not a big 
priority on the analysis.
    Mr. Roemer. Thank you, Mr. Chairman.
    Chairman Graham. Thank you, Mr. Roemer.
    Mr. LaHood.
    Mr. LaHood. Thank you, Mr. Chairman.
    Ms. Hill, thank you for your service to our Committee and 
to your staff too. I know they've worked long hours.
    Ms. Hill. That's very true, and they've done an excellent 
job.
    Mr. LaHood. They really have; I agree with that.
    And to Kristen and Steve, thank you for--if you're still 
here--for being here and the people that you represent. 
Obviously, our hearts go out to all of you.
    Ms. Hill, if you take all of the information that's in your 
report today, and you analyze all of that information and then 
you look at the notion that there was a lot of information 
prior to 9/11, there were a lot of people in separate ways who 
saw it, and if you took that information, and it was analyzed 
correctly, and the people responsible, whether it be the 
President, the Vice President, the National Security Adviser, 
the CIA Director, FBI Director, if they had had all of the 
information that you've collected and documented in your 
report, could 9/11 have been prevented--if they had seen the 
Phoenix memo, if they had seen the memo from Minnesota, if they 
had really had all of these documents that had come over the 
transom for any number days?
    I mean, there has to be some idea about--because the 
criticism is that a lot of information came, but it wasn't 
shared. A lot of information was available, but wasn't shared, 
and the right people didn't know it. Well, if you take all of 
that information, and if it had been shared with the highest 
elected people in our government and the highest appointed 
people in our government who have responsibility for 
counteracting these activities, could 9/11 have been prevented?
    Ms. Hill. My own view is that I don't think anyone will 
ever be able to say--no one will ever really know whether 9/11 
would have been prevented. Because what we're talking about 
here is we not only would have to know what everyone would have 
done with the information they had in the Intelligence 
Community in terms of law enforcement and intelligence, you 
would also have to know how bin Ladin and the hijackers would 
have reacted. We don't know that.
    I mean, it's all--we're hypothesizing. And there's been so 
much emphasis on, was there a smoking gun? Was there a where, 
when, how, that sort of thing.
    We haven't found that. What we have found is a lot of 
information, a lot of things that weren't put together. And to 
me maybe the biggest issue is, and we say it somewhat in the 
statement, not only that they weren't put together, but that 
they weren't recognizing their importance given everything else 
they should have known, for instance, in the summer of 2001. 
That's the summer that you had Mihdhar and Hazmi. You had 
Phoenix. You had Moussaoui. You had a high threat level. Well, 
you would think that with all of that, when you got Phoenix or 
you got Moussaoui--it would have even been more important--you 
would have been more aggressive with it. And that didn't 
happen.
    So there's a lot of unknowns. There's questions about if 
you had caught one hijacker, would they have replaced him with 
someone else? There's questions about if you had gotten on to 
one of these cases, could you have surveilled and perhaps found 
what was going on?
    All of those are hypothetical. So we're never going to 
know, but I think what we do clearly know is that the community 
could have done a lot better--the intelligence side and the law 
enforcement side.
    Mr. LaHood. But your answer is that the community could 
have done a lot better. But knowing what we know about 
information that wasthere and the dots were never connected in 
a lot of these different areas, you're not saying though that the 
community could have prevented this. They could have done a lot better, 
but they couldn't have prevented it.
    Ms. Hill. No, I didn't say they--I never said they couldn't 
have----
    Mr. LaHood. Well, I want to know. I want you to be able to 
tell us pretty definitively here for these people that are here 
that if all of the dots were connected and if all of the 
information was shared and all of the right people would have 
known it, could we have prevented 9/11?
    Ms. Hill. I would say----
    Mr. LaHood. I mean, that's the criticism all of this town 
and all over the country and all over the world that we, that 
you know we collected a lot of information, but it wasn't 
connected, that people didn't connect the dots, they didn't 
share information.
    And my question is, and I think it's a question on the 
minds of the American people, if it had been done correctly, 
could it have been prevented? And people that are promoting a 
blue ribbon committee, which I am not, are saying that that's 
the way we get to the bottom line.
    But I want to know from you, who have been working at this 
now for several months, could it have been prevented?
    Ms. Hill. I can't say, guaranteed, that it could have been 
prevented. There could have been some things done that it would 
have been possible that they might have been able to uncover 
some of this plot--if they had had the information on 
individuals, and they had followed them, and they had 
surveilled them, and the individuals had talked about something 
and they might have picked it up.
    I mean, all of those are ifs. It's one if after another. 
You're never going to know that. But you need to get beyond 
that point to the point that they could have done better. You 
know, that's what they have to do the next time. Because if 
they don't, you're not going to have a shot at preventing this 
the next time. That's where the issue is, not so much 
preventing what's already happened. It's preventing what may 
happen in the future that we have to focus on. That's my own 
view.
    And I think to prevent what may happen in the future, 
there's a lot of things that have to be done to get us there.
    Chairman Graham. Thank you, Mr. LaHood.
    Let me say tomorrow we're going to have two panels with 
five persons in total, all of whom have had extensive 
experience at the highest level of actually making decisions 
based on intelligence. And I would suggest the question you 
just asked of Ms. Hill would be a very appropriate question to 
ask of those panelists to get their assessment of whether there 
was enough information from the experience and perspective that 
they have had and can provide as to whether there was enough to 
have avoided September the 11th.
    Mr. Hoekstra.
    Mr. Hoekstra. Thank you, Mr. Chairman.
    And I'd like to thank the Chairmen for how they started off 
these public hearings with Steve and Kristen today, a very 
appropriate way to begin the process by remembering those whose 
families paid the ultimate sacrifice on September 11 and 
recognizing the sense of urgency and the importance with which 
this Committee has to go through and conduct its work.
    And Ms. Hill, thank you for your work.
    Ms. Hill. Thank you.
    Mr. Hoekstra. Having gone through some other investigations 
on other committees, recognizing the importance of how you 
approach this work and the intensity and the professionalism 
and having to put up with Members of Congress. So thank you for 
being willing to go through that process.
    As you've gone through and done the analysis, have you also 
taken a look at other attempted terrorist activities during 
this timeframe which may have been prevented because of 
knowledge that we had beforehand and things that might not be 
part of the public record? Have you uncovered anything like 
that?
    Ms. Hill. You mean other actions by other groups or----
    Mr. Hoekstra. By al-Qa'ida or other groups that--you know, 
where they had been planning on attacking the United States and 
for one reason or another, those attacks were thwarted.
    Ms. Hill. We have heard some of that. I mean, we have not 
focused on that because we have been focusing on the 
information on aircraft as weapons and the September 11 plot.
    But certainly, in talking to people, there were successes 
by the Intelligence Community against al-Qa'ida and other 
terrorist groups. There were also, you know, failures.
    Mr. Hoekstra. There were other failures.
    Ms. Hill. So I didn't read that part of it, but in our 
statement we talk about the fact that it was a very difficult 
target for the Intelligence Community. Al-Qa'ida had a lot of 
operational security. They were hard to penetrate. It was hard 
to get them to talk about things that would help you. It was 
difficult. There were resource problems.
    But despite all of that, the community did amass a lot of 
information on them, and they were engaged in operations 
against Al-Qa'ida. And there were some successes, but there 
were also some failures.
    Mr. Hoekstra. As you go though this process, will you also 
overlay policy decisions that were made either in Congress or 
at the Executive level? Specifically, I think this morning, 
Steve talked about--and I'm not sure exactly what the words 
were--the inability to penetrate organizations like al-Qa'ida 
with human intelligence and recognizing that during parts of 
the '90s, you know, there were decisions that were made that 
changed the way that the CIA and other organizations could 
actually recruit human intelligence.
    Ms. Hill. I think that area, I mean those are all valid 
policy questions, and it's relevant to how you combat terrorism 
in groups like this obviously, because penetrating a group like 
this is tremendously important. It's a valuable source of 
intelligence.
    But I think those are issues that we will probably address. 
As I understand the Chairmen, one of the things we want to do 
as we get further away from the facts--we're trying to get the 
factual review out first--is to go to the systemic problems and 
then look at possible ways to reform the community and changes 
and policy issues and those sorts of things.
    So I would guess that those issues would be addressed once 
we get into where do we go from here in terms of reform.
    Mr. Hoekstra. Because it's very, very clear that the 
Intelligence Community and the various agencies don't operate 
in a vacuum. There are policy decisions that are over a period 
of time that will have an impact on the culture within the 
various agencies as to their ability to recruit or how they 
will use or who they will access for human intelligence. There 
are also decisions that are made by Congress in terms of the 
funding levels and direction and those types of things.
    And as the report moves forward, we will get a fuller 
context of where the breakdowns will be, some of which may have 
occurred within the intelligence agencies, some of which may 
have occurred in the Executive, other parts of the Executive 
branch or some of which may have occurred in Congress because 
of decisions that have been made over here, so that we get that 
full picture of what went on.
    Ms. Hill. Right.
    Mr. Hoekstra. Those are all areas that you plan on looking 
at?
    Ms. Hill. The game plan, so to speak, is to look at the 
factual review, get through that, then look at the systemic 
issues and then decide how those systemic issues can be 
addressed through reform. And what you're talking about I think 
would be in the review of systemic problems, restrictions on 
our ability to penetrate human sources, and then where we go 
from here in terms of reform.
    Mr. Hoekstra. Thank you.
    Mr. Chairman, I yield back my time.
    Chairman Graham. Thank you very much.
    Senator Shelby.
    Vice Chairman Shelby. Thank you. I've missed some of this 
because, like everybody else, we have to do other things during 
the meetings.
    Would it be fair to say at this point in the inquiry, the 
investigation, that we're a long way from finishing our 
inquiry; are we not?
    Ms. Hill. I like to be optimistic rather than pessimistic, 
and I would say I think we've made a significant good start 
down the road. We're not finished, but I think we've done a 
fair amount of work here, and we have a good record on the 
facts so far.
    Vice Chairman Shelby. But you are a veteran investigator, 
veteran prosecutor, Inspector General of DOD, we all know this 
and we have a lot of respect for you. In any investigation, you 
don't know what's going to turn up next, do you?
    Ms. Hill. Right.
    Vice Chairman Shelby. And you're not telling us here today 
and the American people that you see the end of this 
investigation?
    Ms. Hill. No, I think I said previously in response to 
another question that any investigation, the more you dig, you 
find things and then you have to have time to go through those 
things.
    Vice Chairman Shelby. Analyze it.
    Ms. Hill. That is happening. It's happening to us like it 
happens in any investigation, and we're trying to follow those 
facts to where they lead. Now, whether all of that will be 
finished by whenever this is determined to end, I don't know. 
But I think we'll make a significant contribution, and we'll 
have made available a good body of knowledge.
    Vice Chairman Shelby. Well, I think you're already making a 
significant contribution, and I think the staff is. My concern 
is that we don't know what we don't know.
    Ms. Hill. That is correct.
    Vice Chairman Shelby. And I have the feeling that there's 
more out there because I raised this morning--I raised the 
issue in my opening statement that I don't believe, as a member 
of the Committee, that we've had the utmost support by the 
agencies that we're investigating. And I don't believe that 
we've had the support that was promised at the outset, you 
know, by the Administration.
    Having said that, I want to focus just what little time I 
have on the FBI. You may have talked about this earlier--I know 
you addressed it--and that is the analytical component of the 
FBI. We know that the FBI has got good people. We know that 
they're great on investigations. They have no peer, I believe. 
But on analysis of intelligence information, some of us have 
been on the Committee--and this is my eighth year here--we've 
been concerned with that for a long time. It's hard to put an 
intelligence division or component together and make it work.
    Tell us in your judgment, what was the state of the 
analytical component of the FBI before September 11 as far as 
terrorism is concerned?
    Ms. Hill. The FBI, I mean, our figures--we have the figures 
in the statement--they, I think, had one individual working al-
Qa'ida analytically.
    Vice Chairman Shelby. One individual working al-Qa'ida 
before September 11 in the analysis.
    Ms. Hill. Analysis, right.
    And, you know, my own personal view, and you alluded to it, 
is based on the fact that I have worked with the FBI for many, 
many years starting when I was a prosecutor----
    Vice Chairman Shelby. I know you have.
    Ms. Hill. And I agree with you. I think they are tremendous 
investigators. And in terms of law enforcement, they can be the 
best on some cases and prosecutions. But that's their mission. 
Their mission is to do an investigation, to do a prosecution, 
do a case. If it's their case and their mission, their 
prosecution, they will go to the nth degree and they're very 
aggressive and we need that.
    But they are not, at least in my experience, their training 
and their mission does not focus on going beyond that into the 
broader analytical world and looking at the big picture. They 
are focused on their case, and it's too bad because their 
aggressiveness would be very valuable if they could also 
channel it, at least in issues like terrorism, in a little 
broader way, onto the analytic view.
    Vice Chairman Shelby. But before September the 11, they 
only had one person in the whole Bureau working on that, you 
just testified to--is that correct--on al-Qa'ida?
    Ms. Hill. Yes, and I just have a note from our staff, who 
has done a lot of these interviews, that at the FBI they had 
one individual doing strategic analysis. That is what we're 
talking about.
    Vice Chairman Shelby. That's right.
    Ms. Hill. They did have some others that were doing, as she 
calls it, operational analysis, which I would interpret to mean 
that was connected with prosecutions and cases. And so, there 
were individuals doing that.
    Vice Chairman Shelby. Do you think that there is a way to 
get the FBI changed, or at least part of it, toward strategic 
analysis of information dealing with terrorism in the future? I 
know we talked to the Director about this, but that's harder to 
do than it is to say, isn't it?
    Ms. Hill. Well, I think it's not only getting them to 
expand their focus. I mean, it's like any job or profession in 
an agency; they have to be able to give people incentives in 
terms of career and progression and those sorts of things to 
make the analysis positions in the FBI important positions that 
people want to do.
    Vice Chairman Shelby. Well, my light's on. I guess I'll 
wait another round, Mr. Chairman.
    Chairman Graham. Ms. Pelosi.
    Ms. Pelosi. Thank you very much, Mr. Chairman.
    I want to join others in commending Ms. Hill on the 
excellent work that she and the members of her very able staff 
have performed.
    Ms. Hill. Thank you.
    Ms. Pelosi. I hope that it is a comfort to the families to 
know how persistent and thorough the staff is in this 
investigation, in this inquiry. However limited it is, it's 
strictly to intelligence. And as was mentioned earlier, there 
are other agencies of government beyond the Intelligence 
Community that need some review as well.
    The question of could it have been prevented, of course, is 
one that will haunt us as long as we exist as a country, and 
there's no good answer. The good news is the bad news. If the 
answer is no, it could not have been prevented, that means 
we're very exposed in the future. If it means yes, it could 
have been prevented, that's good news because that bodes well 
for the future, but is a tragedy, obviously, for the families. 
It's a tragedy in any event. But if it could have been 
prevented, we'll all be haunted by the guilt associated with 
that, and that's not even good enough punishment for us. There 
will be hell to pay. That's going up to September 11.
    Post-September 11, if any of these agencies of government 
in the Intelligence Community are not dealing honestly with 
us--and by that I mean, being forthcoming with information--if, 
as Mr. Shelby says, there's other information to come that we 
don't know about now, I believe there will be hell to pay for 
them because we all assume that everyone is doing their best to 
protect our country, and they must help us get to the bottom of 
this. I trust that they are helping us all they can, but we 
must continue the inquiry.
    I think, as one who originally supported an independent 
commission--I was the original author of it and we passed in 
Committee, we failed on the floor--the idea, I think, is an 
important one. However, it does not in any way undermine the 
important work of this inquiry. As Mr. Roemer has said, and 
others have said, this piece of it that goes into the 
Intelligence Committee is very important.
    We could have had the best intelligence in the world, 
though, and what we've found out since September 11 is that the 
hijackers and the al-Qa'ida knew something about us that we did 
not know about ourselves, and that is we had tremendous 
exposure at the airports. That all four of these hijackings 
could have been successful is remarkable. I find it remarkable 
that maybe one would get by, but four of them to succeed, in 
their words ``succeed,'' is remarkable to me.
    So my question to you, Ms. Hill, is on this subject your 
report is clear, but I'd just like to see if you could shed 
some further light. As you were looking into this issue of the 
hijackers, and we'll go more into it in a couple of days, but 
did you see a distinction made between hijacking--of course, 
that's a predictable threat to us--and using airplanes as 
weapons as two distinct threats, because from the perspective 
of many of us, a hijacking is still the loss of many, many 
lives and should have been taken as seriously as hijacking with 
intent to do further damage?
    Ms. Hill. We certainly, when we went out looking for 
information and requesting information from the agencies, 
distinguished it because we were asking for information on the 
use of aircraft as weapons. So that would imply more than the 
usual attempt to just hijack a plane to get somewhere or take 
hostages or whatever.
    But in terms of being prepared to address it--and your 
comments about why they were able to hijack all four of these 
planes and why our defenses were down--there's probably less of 
a distinction, and I point to the FAA and FBI assessments that 
we quote in this staff statement. I think for that year, which 
was I believe 2000, they were looking at the whole terrorist 
threat to civil aviation, so they were not distinguishing 
between aircraft as weapons or hijacking. And what was 
interesting about it is they were concluding that there was a 
very small domestic threat. So they were not too concerned 
about any sort of terrorist threat to domestic U.S. aviation 
here in the United States as late as 2000.
    Ms. Pelosi. Well, I find that to be a serious shortcoming 
separate and apart from not knowing the time and place and 
date.
    Ms. Hill. Right.
    Ms. Pelosi. The fact that the entire threat was minimized 
to that extent. So I do see the need, as I had said before, to 
assess the performance of any agency, beyond the intelligence 
agencies, which have a responsibility to protect against acts 
of terrorism and to shed--to look with fresh eyes and some 
innovative thinking on our intelligence and all other aspects 
of protecting the American people in this regard. And of 
course, as Senator Rockefeller said, we must do it right, but I 
think doing it right also means protecting our civil liberties.
    So we have quite a challenge, and your presentation this 
morning and the work of your staff has been a valuable 
contribution. Thank you.
    Ms. Hill. Thank you.
    Ms. Pelosi. I look forward to following hearings.
    Thank you, Mr. Chairman.
    Chairman Graham. Thank you, Ms. Pelosi.
    Mr. Goss.
    Chairman Goss. Thank you. Let me advise members of the 
House that there's ten minutes left on a vote in the House, so 
my wrap-up will be very quick.
    First of all, I want to thank Ms. Hill for a very excellent 
presentation.
    Ms. Hill. Thank you.
    Chairman Goss. I like the version that we had before it had 
been redacted better, and I expect that we are going to 
continue to press on because I do believe that there is more 
that can be revealed.
    And along that area, is it fair for me to make a statement 
that, because of the joint staff, we now know some things that 
we otherwise certainly would not have known. Is that a fair 
statement?
    Ms. Hill. I would hope so, yes. I would say so.
    Chairman Goss. It is certainly my feeling as well, and I 
would hope that much of that can be shared with the American 
people.
    The second question I wanted to ask provides some guidance 
from my perspective. It was in your excellent report this 
morning on intelligence reporting on bin Ladin's intentions to 
strike inside the United States on pages 14 and 15 of your 
report--15 and 16. There are a series of specifics that cries 
out to say, why was all this ignored? Where was the audience? 
Why was nobody listening?
    And one of the issues that I would like to have further 
amplification on this is, if this was 2 percent of the 
reporting, what was the other 98 percent of the reporting that 
was consuming the analysts' time in the Intelligence Community? 
I'm not asking for an answer now. I think that's going to be 
helpful for our report.
    The next question, I think, is self-evident and others have 
said it. There's no doubt that some of the questions Members 
here have addressed today to you are more appropriate for 
witnesses that will be forthcoming, and I want to make sure 
that we understand that there will be other witnesses 
forthcoming. We will try and have as much of that as public as 
we can, as it should be.
    But the very penetrating questions that were asked by Ms. 
Breitweiser and Mr. Push, and the recommendations I think are 
excellent points. Each one of them deserves consideration and 
we'll get them at some point. In fact, some of them have 
already been given consideration, as I'm sure you know.
    And finally, with regard to the remarks by Senator Levin 
and Senator Rockefeller on declassification, my view is that 
the burden is on the Administration to tell us why we must 
preserve classification, unless it's in those areas, those 
exempt areas that I spoke to--sources, methods, plans and 
intentions, and ongoing prosecutions by the Justice Department.
    The final point I would make is that the work of this 
Committee will be done. There is no question about that, and 
there will continue to be oversight by the United States 
Congress in a number of areas, including in the Intelligence 
Committees, no matter who the members are of that committee. So 
this is an issue that is not going to be dropped merely because 
another date flips up on a calendar or there is a change of 
personnel somewhere in the establishment. This will go forward 
because the American people deserve the answer, and they will 
get the answer.
    I thank you very much for your participation today. An 
excellent job, Ms. Hill.
    Ms. Hill. Thank you.
    Chairman Goss. Thank you, Mr. Chairman.
    Chairman Graham. Thank you, Mr. Goss.
    Senator Feinstein.
    Senator Feinstein. Thank you very much, Mr. Chairman.
    I certainly concur with the remarks that have been made 
about the excellence of the report.
    Ms. Hill. Thank you.
    Senator Feinstein. I'm just sorry I couldn't get it until 
the meeting so I had to spend my time reading it during the 
meeting, which Mr. Chairman, I would suggest is not the best 
way of enabling us to carry out our duties.
    Chairman Graham. Senator, as you know, we made the original 
non-redacted version available in both the House and the Senate 
Intelligence Committee rooms, and I understand that you took 
advantage of that. Unfortunately, it was only within the last 
less than 36 hours that we got back from the declassification 
agencies the version that we could make public. I hope that in 
the future we and they will do a better job and a more 
expeditious job so that will give us an opportunity to know 
what's going to be public with more lead time.
    Senator Feinstein. I thank you, Mr. Chairman.
    Ms. Hill, on December 4, 1998, the DCI told his deputies in 
a memo about bin Ladin and al-Qa'ida that, ``We are at war. I 
want no resources or people spared in this effort, either 
inside CIA or the community.'' Yet, in your testimony, you 
indicate that when it came time to translate that declaration 
of war into real resources, the government's efforts fell 
woefully short.
    Specifically, you concluded that the allocation of 
Intelligence Community resources did not adequately reflect a 
true war against bin Ladin. For example, you point out in 1999 
the CTC of CIA had only three analysts assigned to the bin 
Ladin network worldwide. And after 2000 that number had risen 
to just five, and that things were even worse outside the CIA. 
The international terrorism analytic unit at the FBI had in 
place only one analyst to address al-Qa'ida, this out of an 
intelligence budget of literally billions of dollars every 
year.
    Now, it really concerns me because I was one that felt very 
strongly that the warnings that something was going to happen 
were there. And certainly, by July--I mean, this was just based 
on what I heard in this Committee--100 percent certain that 
something was going to happen. I even said that on national 
television, that I thought it wasgoing to happen within the 
next three months. And my question really goes to the fact that whether 
today even we have enough to do what we need to do.
    Why do you think so little attention, even after these 
declarations of ``We're at war,'' were really paid when it came 
to devoting real resources and what was taking a higher 
priority?
    Ms. Hill. I think that we have asked that to many people in 
the community--and again I have to be careful with the details 
of it because we're in a public session--but I think what we 
are hearing is that there were other priorities for 
intelligence. One reaction would be that people would tell you 
is that the Intelligence Community responds to its customers, 
customers being other parts of government that are tasking them 
to come up with intelligence on certain items. And that, in 
some respects, there were customers that they had to satisfy, 
they felt they had to satisfy, and were told to satisfy on 
other topics other than al-Qa'ida. So that was one issue that 
we've heard.
    We have heard in the FBI on the resources, as we just 
discussed with Senator Shelby, that there were not many. There 
was like one strategic analyst for al-Qa'ida in the FBI. There 
were some more analysts on operations, and there was a much 
bigger emphasis in the FBI on operations, on cases, 
investigations, as opposed to strategic analysis even though it 
was on al-Qa'ida, which was a high threat. But their mission 
was more focused on actual prosecutions and cases.
    So I think, as with any resource issue, it was a question 
of other priorities, customers demanding other things and the 
agencies responding to that.
    Senator Feinstein. Do you believe that today there are 
sufficient resources?
    Ms. Hill. Senator, we know some of the details as to how 
things have jumped since September 11 in terms of resources, 
but we have not focused intently on what is going on post-
September 11 because our job has been to try and find out what 
was happening before September 11. So I really would not feel, 
you know, probably qualified to start guessing as to whether 
it's adequate now.
    Senator Feinstein. On page 15.
    Chairman Graham. Senator, we will have another round after 
this round.
    Senator Feinstein. I don't even get the time that our 
question took up. Never mind, that's all right. Thank you.
    Chairman Graham. Senator Mikulski.
    Senator Mikulski. Thank you very much, Mr. Chairman. Mr. 
Chairman, a few words to the families, and then a question for 
Ms. Hill.
    To the families, first of all, my name is Barbara Mikulski. 
I'm a United States Senator and I'm from the State of Maryland. 
I had people die at the World Trade Center, and I also had 60 
Marylanders die at the Pentagon when a plane created the 
inferno there. I also believe I owe my life to the gallantry of 
the men and women who fought back on flight 93 because I do 
believe the plane was heading towards us. And I have two 
constituents who died in the anthrax attack on us.
    So know that I'm absolutely on your side. And I want you to 
know I thank you today for coming because you show such 
inspirational strength and courage, and I believe you have a 
right to know about what happened. You have a right to be heard 
in any public forum, and I believe that Americans have a right 
to be protected. I know that you're still looking for answers 
on why this happened, how it happened and how it doesn't happen 
again.
    Know I would support a vote to establish an independent 
commission. I believe my Committee has done an outstanding job. 
But I believe when such an impact happens to America and its 
families, we need more than one opinion on how to make sure it 
never happens again.
    I find many things about what happened troubling, but what 
I find most troubling is that four of the terrorists were 
stopped by local law enforcement--four for speeding and one for 
not having a driver's license. They were actually in the hands 
of law enforcement. But when they were stopped and the police 
went to check the databases, nothing alerted them to detain 
these men. Something is wrong here.
    State troopers, like the one in my own state that stopped 
one of these thugs and other police officers, know more when 
they check their database, know more about men being behind in 
their child support the database will tell them, than they will 
do about men who are possibly around a terrorist attack. There 
are more than 50 different watch lists to keep track of people 
dangerous to the United States.
    But guess what? If you're a watch list, you don't talk to 
other watch lists. If you're a watch list, you like live in one 
of those caves. You might not know if there are other watch 
lists out there. You don't tell anyone that you are a watch 
list, and you certainly don't talk to each other, make friends 
with the other watch lists or make friends with law 
enforcement. That's really, I think, unacceptable.
    And these will be the questions I'm going to direct to Ms. 
Hill, because, like you, I want to be sure that this Committee 
gets answers for you and the rest of America on how we can 
detect, deter, disrupt and defeat any attack on the United 
States of America.
    And having said that, Ms. Hill, you know about these watch 
lists. You know that they're all over the place and they're 
nowhere. In our work with you and my colleagues, I wanted to 
see if there was a smoking gun. I wanted to know what were the 
systemic problems and what were the solutions. I'm not sure 
there's a smoking gun, but these watch lists are definitely a 
systemic problem.
    Could you elaborate on them what you can or where you would 
see solutions going on this watch list issue?
    Ms. Hill. The watch list issue, Senator, I am aware of it. 
We are going to go into that in more detail when we get to the 
hearing on the hijackers because as you alluded to that is an 
issue regarding Mihdhar and Hazmi. I mean, that's a very big 
issue. It's an issue of getting in on the right watch list, 
getting it to the right people. But even before that, it's also 
an issue of getting it between the Intelligence Community and 
the law enforcement community and breaking down the reluctance 
sometimes to share information across--from the Intelligence 
Community to the criminal investigators and law enforcement on 
the other side.
    And that, I think, may also play in some of this. But those 
are issues that we will talk about when we look at the hijacker 
case. And you're right, they are problems.
    Senator Mikulski. Well, let me just say this before the 
yellow goes to red. I raised the issue of a smoking gun. I've 
been at many hearings. Do you believe that there is a smoking 
gun on what went wrong or were there just a series of total 
disconnects?
    Ms. Hill. Well, of course, I'm handicapped in answering 
that because we are in a public session and we are still 
looking at a number of other issues that have come up. But I 
don't think in any of what we have seen here there is a smoking 
gun--if you mean by smoking gun that somebody in the United 
States Government had information on when, where, and how this 
was going to happen in the United States Government. We have 
not found that.
    But I had a discussion actually with one of our staff on 
this the other day and he pointed out wisely that there's been 
so much discussion about looking for a smoking gun. The truth 
is, you hardly ever get a ``smoking gun,'' in not just 
terrorism, but in a criminal case, et cetera, et cetera. And if 
by focusing all of the time on whether we have the smoking gun, 
you know, we focus on how we have to be ready to go if we have 
a smoking gun, the truth is that most of the time you'll never 
have a smoking gun. It's a lot harder to find it when you don't 
have one.
    So what we ought to be focusing on is how to get our 
systemready to find these guys when you don't have a smoking gun, which 
is what you're going to be faced with most of the time. You know, the 
odds are, you're not going to have a smoking gun. And we need to have 
our intelligence and law enforcement people good enough and bright 
enough and aggressive enough that they can track these guys down and 
find this even when there is no smoking gun, because, you know, in my 
own experience, at least in law enforcement, that's what you have most 
of the time.
    Senator Mikulski. Thank you.
    Chairman Graham. Thank you, Senator.
    Senator Kyl has submitted an opening statement which will 
be placed in the record.
    Senator Kyl. Thank you, Mr. Chairman.
    By the way, I think that last point is a very important 
point and needs to be underscored. And it's one of the most 
important things that comes from your statement today, Ms. 
Hill.
    Ms. Hill. Thank you, Senator.
    Senator Kyl. I was this morning detained in my office 
waiting for a couple of phone calls, but I had my television on 
the entire time and was privileged to hear not only the 
statements of the Chairmen of our committee, but also the 
statements made by Ms. Breitweiser and Mr. Push. And, as has 
been expressed by others here, my heart goes out to them and 
the families and friends that they represent. And I think that 
I should state that I am certain that every American shares 
their grief and their anger and even their frustration. And I 
also share their view that there's more we could have done to 
try to prevent the terrorism we experienced on September 11.
    I also agree with Eleanor Hill that at the end of the day 
it's doubtful we'll ever find a smoking gun, but as she said, 
the important point is to be in a better position to deal with 
the other pieces of information in order to try to prevent this 
in the future.
    I do think, Mr. Chairman, that it is very unclear whether 
the joint investigation, the Joint Committee investigation that 
we're engaged in here and whatever report we eventually submit 
will satisfy these witnesses and those that they represent or 
whether they will satisfy members of this Committee, let alone 
the other members of the House and Senate.
    As you know, Mr. Chairman, I've expressed serious 
reservations about the direction of our investigation, 
including the allocation of time and resources to holding open 
hearings at this time before we've finished our work. Ours is a 
large undertaking, and we've got a lot more work to do before 
our fast-approaching deadline. And yet we're proceeding with 
public hearings in spite of not having completed that 
investigation.
    What was presented today was only a staff document. I'm 
talking now about the testimony of Ms. Hill. It was not a 
consensus product of the Committee. Members had no practical 
input into interim report, I think the public should know. 
Ordinarily, we investigate, we write our report and then we 
present our recommendations.
    The staff's presentation of its interim report before 
Member vetting is, therefore, in my view, premature as well as 
a diversion of the joint staff from the investigation that we 
have given them the job to do. The interim statement from our 
Joint Inquiry staff provides some very valuable information 
about what has been done to date--a chronology of events 
leading to the September 11 attacks and some background 
information about the growing threat of al-Qa'ida over the last 
decade. It is very useful to have this history, and it's 
important to make it public, but the Committee should have 
approved it first. And in any event, the release of the report 
could have been done without taking the time to have it read by 
the staff director.
    But more importantly, I believe the questions fundamental 
to our investigation have yet to be pursued adequately. These 
include, but are not limited to, whether part of the pre-
September 11 problem was the result of a culture of risk 
aversion in the Intelligence Community and/or an inadequate 
allocation and improper prioritization of resources to those on 
the front lines of our counter-terror efforts.
    Mr. Chairman, you know I've expressed before my concern 
that Committee members have been able to play only a limited 
role on this inquiry. It's largely being conducted by the Joint 
Committee staff with little input by or to our own Committee 
staffs, let alone the Members themselves. And that will make it 
difficult to concur in the final product without reservations. 
We will not know what we haven't been told, and, therefore, we 
will not be able to vouch unequivocally for the final product.
    Questions about this investigative process have led to 
calls for the creation of a national commission to investigate 
all of these matters. This would further stress the 
Intelligence Community at the very time we're trying to fight 
the war on terrorism. While it may be deemed necessary, it can 
hardly be deemed desirable.
    So I hope, Mr. Chairman, that we can continue to work to 
resolve these issues. Only by doing our very best will we have 
done our duty to the victims who are represented here today and 
to the American people.
    Senator, thank you.
    Senator Bayh is supposedly en route. Senator Shelby, do you 
have a comment?
    Vice Chairman Shelby. Yes, sir, if you'll recognize me till 
he comes.
    Chairman Graham. And then I have a couple of questions I'm 
going to ask at the conclusion of Senator Bayh's questions. 
Senator Shelby.
    Vice Chairman Shelby. Ms. Hill, I'd like to go back to the 
FBI and the analytical component we were talking about earlier, 
or lack thereof. In your investigation regarding the analytical 
ability of the FBI, do you know if the FBI prior to September 
11 ever did an analysis of terrorist tactics--that is terrorist 
tactics with a possible use of airplanes as weapons?
    Ms. Hill. I don't believe so. We, as I think the statement 
says----
    Vice Chairman Shelby. You're saying no? You go ahead and 
answer.
    Ms. Hill. As the statement says, we haven't found any 
analysis of the use of aircraft as weapons in the community, as 
far as I know, including the FBI.
    Vice Chairman Shelby. In the community--you're talking 
about the Intelligence Community----
    Ms. Hill. Yes, but we would include----
    Vice Chairman Shelby [continuing]. Not just the FBI?
    Ms. Hill. Right. I think it's safe to say the FBI also on 
that.
    Vice Chairman Shelby. Now, in our statement, I believe it's 
on page 28--without reading it all--and I'll quote some of it. 
It says, ``In April 2000 the Intelligence Community obtained 
information regarding an alleged bin Ladin plot to hijack a 
747. The source was a walk-in to the FBI's New York office 
claiming that he had been to a training camp in Pakistan where 
he learned hijacking techniques and received arms training. He 
also stated that he was supposed to meet five or six other 
individuals in the U.S. who would participate in the plot.''
    I'll read further. ``They were instructed to use all 
necessary force to take over the plane because there would be 
pilots among the hijacking team. The plan was to fly the plane 
to Afghanistan and if they could not make it there, they were 
to blow up the plane.''
    This is part of your report, is that right?
    Ms. Hill. Right.
    Vice Chairman Shelby. Now, I believe there was another 
report of August 2001, according to page 28 of your report. 
``In August 2001 the Intelligence Community obtained 
information regarding a plot to either bomb the U.S. embassy in 
Nairobi from an airplane or crash an airplane into it. The 
Intelligence Community learned that two people who were 
reportedly acting on instructions from Usama bin Ladin met in 
October 2000 to discuss this plot.''
    And then we go back--and you've touched on this I believe; 
I know we've had hearings on it--about the Philippines '95 
situation where there was information that they could use 
airplanes as weapons and so forth.
    In the light of the part of your statement that I just 
referred to, you're saying that, according to your 
investigation, there was not any analysis of these terrorists 
tactics in the Intelligence Community regarding the use of 
airplanes?
    Ms. Hill. There was no analysis of the likelihood of the 
use of airplanes as weapons as a terrorist tactic.
    Vice Chairman Shelby. I wonder why not.
    Ms. Hill. I would hypothesize that, when we've asked 
questions of people, it's a resource issue. People say they 
were overwhelmed. The other thing, and I mentioned this 
earlier, I don't think anyone had pulled together as much 
information on this as we did. The way we got this information 
is by going to the agencies and saying we want everything you 
have on the use of aircrafts as weapons. And we had them pull 
reports out of this huge amount of data they have and come up 
with enough to show that there was this trend and this theme 
going through some of the reporting.
    Vice Chairman Shelby. This was not on September the 11th 
something new or shouldn't have been something new.
    Ms. Hill. No.
    Vice Chairman Shelby. This was stuff that had been out 
there at least since '95 before then. And I believe you talked 
about the Paris incident----
    Ms. Hill. Right.
    Vice Chairman Shelby [continuing]. Where the French----
    Ms. Hill. The Eiffel Tower.
    Vice Chairman Shelby. Oh, yes, the Eiffel Tower deal, the 
Philippine deal, these reportings that you listed. So, when 
people come up and they say, gosh, we were shocked that they 
would use airplanes as weapons and we didn't do any analysis of 
that in the community, are you kind of shocked or surprised?
    Ms. Hill. Well, it was there. The information was there.
    Vice Chairman Shelby. The information was there, if they 
had analyzed it.
    Ms. Hill. Right.
    Vice Chairman Shelby. As far as the potential tactics of 
the highjackers, is that right?
    Ms. Hill. Yes. Based on what we've seen, this was not a new 
idea as of September 11.
    Vice Chairman Shelby. Thank you, Mr. Chairman.
    Chairman Graham. Senator Durbin.
    Senator Durbin. Thank you, Mr. Chairman and I apologize for 
not being here earlier, but I had a Judiciary Committee hearing 
which ran in conflict with this hearing. And I thank you, Mr. 
Chairman, Senator Shelby and our counterparts in the House for 
the time put into this effort and your leadership in bringing 
us to this moment.
    I personally feel that we have identified some things of 
value in terms of shortcomings from the government's point of 
view prior to September 11. We have identified a lack of 
communication among the intelligence agencies and I'm afraid 
that today, although there's been an improvement, there's still 
much room for improvement.
    I have focused primarily on the issue of information 
technology and I have been chagrined and disappointed by the 
reports about the lack of coordination of the computer 
architecture of the federal government so that intelligence 
agencies can share information effectively. Governor Ridge 
referred to this as a force multiplier and it would be, but it 
is not because of those shortcomings.
    We've also considered the results of those shortcomings, 
not the least of which was the example of the Phoenix Memo, 
which should have been, but was not, brought to the attention 
of or analyzed by counterterrorism forces. That memo might have 
at least helped us to be better prepared for what occurred on 
September 11, though I don't want to suggest that anyone saw 
this coming in its specifics. But it certainly raised 
questions, which should have been pursued and were not. I 
think, recalling some of the testimony we received, there was 
clearly a lack of follow-up at the FBI and a lack of 
involvement by the CIA. The same thing holds true for the 
Moussaoui arrest and disclosures that came out of the FBI 
afterwards--again, evidencing a lack of coordination, a lack of 
sharing of vital information that could have had us better 
prepared to defend America.
    Those two instances, though, I would like to bring to the 
attention of this joint inquiry, have come to the public eye 
because of leaks by the Administration and leaks from Capitol 
Hill of vital information. It strikes me as unwise and unfair 
for us to expect there to be a thorough investigation of what 
led up to September 11 based on the possibility of leaks coming 
from anywhere.
    History has told us that it is far better to have a public 
hearing, a public investigation and the involvement of third 
parties when it comes to assigning blame and perhaps suggesting 
meaningful and painful reforms. But, that has not been the case 
here. I think we are doing what we set out to do, to try to 
find ways to improve the workings of the Intelligence Community 
to avoid a future September 11. But we will never be able to 
satisfy the needs and curiosity of the American people about 
whether their government did everything it could to protect 
them in closed hearings with occasional leaks. That is not 
going to serve the needs of America.
    [Applause.]
    Senator Durbin. I know that earlier today there was 
testimony of one of the widows of a victim of September 11 and 
I have met in my office with some of those same victims and 
their families in painful meetings. There is an anger and a 
sadness in the message that they bring to Congress, but there 
is certainly, I think, wisdom in what they've suggested. Let us 
do our business here. Let us try to find evenwithin closed 
hearings ways to improve intelligence, but let's not forget our primary 
obligation to the people of this country.
    We do not serve the needs of an open society with closed 
hearings in relation to an attack on America, virtually 
unprecedented in our history. It is time for us to acknowledge 
the obvious. We need a third party investigation, people that 
we can trust who have no political animus, who are going to 
come to this as loyal Americans and try to help us be a safer 
nation.
    I commend the staff. They have done heroic work and I know 
have worked long and hard to bring the report that we have 
today and we should continue to meet our mandate as best we 
can. But let us not believe that this chapter has been closed 
in American history. We have merely addressed the foreword with 
this investigation. Now we must get into the substance and do 
it in a public way. That's not to diminish any of the efforts 
of my colleagues or anyone on this Committee, but I think we 
owe it to the American people to give them more.
    Thank you, Mr. Chairman.
    Chairman Graham. I would like to ask a question and then 
make a comment. The question has to do with the relationship 
between intelligence and affecting the operations of a 
governmental agency. You have five or more pages in which you 
outline the examples of the use of commercial aviation as a 
weapon of mass destruction. As I understand the history, 
generally the taking of an airplane by highjackers has been 
done for either a political or an economic purpose. In light of 
that, the standard protocol of what a crew is supposed to do if 
they are subjected to highjacking is to cooperate, to 
acquiesce, try to get the airplane on the ground and then start 
the process of negotiating with the highjackers. From your 
review is that an accurate statement?
    Ms Hill. Yes, I think that's correct and that was 
traditionally the way you would deal with a hijacking.
    Chairman Graham. And I believe it was reflected in the way 
in which the first three planes that were highjacked on 
September the 11 reacted. It was not until the information of 
the first three planes became known to the persons on the 
fourth plane that there was a resistance to the hijackers and 
the result that the plane crashed in Pennsylvania.
    With the kind of intelligence information then, there might 
be a shift in the way in which hijackers and aircraft 
interrelate. That is, instead of they can be airplane for a 
political or economic purpose, that the plane itself might be 
converted into a weapon and used in the horrific manner that it 
was. Was that information from the Intelligence Community 
transmitted to either the FAA or the commercial aviation 
industry so that it might affect the way in which they advised 
crews as to how to respond to a hijack?
    Ms. Hill. I cannot say that all that information was 
transmitted to the FAA, but the FAA did get some of it and we 
talk about their analysis of the threat to civil aviation. My 
own read on it is that I don't think that, to the extent the 
FAA got the information, there was a real recognition that this 
was a serious threat.
    You're correct. If they had changed their focus from 
highjacking for a ransom or to take the plane and fly it 
somewhere else or hostages or whatever, if that had changed to 
the use of an aircraft as weapon, you would have had to change 
the entire mindset and training that was given to the flight 
crews, for instance, and the security in the plane and 
everything. And that, obviously, did not happen, as of 
September 11; you're absolutely correct. It didn't happen on 
September 11 until, evidently, the passengers in the fourth 
plane became aware of what was going on. But the flight crews 
up to that point, I assume, were following the standard 
protocol for dealing with a hijacking.
    But that issue underscores the importance of someone 
recognizing in the community, the Intelligence Community, that 
this was a serious threat and that there was a stream of 
information there and that perhaps it was serious enough and 
the likelihood was serious enough that they needed to address 
not only disseminating it but telling policymakers in those 
other agencies that this was a threat they now had to be 
prepared to meet.
    Chairman Graham. One of my criticisms of the threats that 
are being issued to the general public, including the one 
within the last two weeks, is that what's lacking is the 
follow-on of what is the citizen who receives this information 
that they're living in a heightened threat environment supposed 
to do to protect themselves, their families, their communities. 
And here we have a case where intelligence information was sent 
to a sophisticated industry, commercial aviation, apparently 
without any direction as to how the industry should use the 
information and the consequence was they didn't use the 
information and that contributed to what happened on September 
the 11.
    I'd like to ask if we might pursue that issue, because I 
think it is a metaphor for the larger issue of how do you get 
intelligence from the theoretical to actually affecting the way 
people function and how they use that information to reduce 
their vulnerability to a particular threat.
    Senator Feinstein.
    Senator Feinstein. I think Senator DeWine was before me, 
Mr. Chairman.
    Chairman Graham. Oh, I'm sorry. Senator DeWine, I'm sorry.
    Senator DeWine. Mr. Chairman, I don't have any further 
questions, thank you.
    Chairman Graham. Senator Feinstein.
    Senator Feinstein. May I, Mr. Chairman?
    Ms. Hill, I wanted to kind of follow up on where I was 
trying to go with this. The year 2001 was a very big year in 
the early spring with a lot of pieces of intelligence coming 
in. In reading your report, the year 1998 also appears to have 
been a very big year for all kinds of pieces. And I wanted to 
see if we couldn't go into some of those pieces a little bit 
more. They're contained on page 15 on your written statement.
    You talk about the use of fronts for terrorist activities. 
You talk about flying an aircraft loaded with explosives into 
an airport and detonating it. Al-Qa'ida was trying to establish 
an operative cell within the United States, a bin Ladin plot 
involving aircraft in New York and Washington, recruiting a 
group of five to seven young men from the United States to 
travel to the Middle East for training, reward money for 
assignations of four top intelligence agency officers and on 
like that. And then of course the war that was declared in the 
CIA.
    Can you go into any more detail on any of these individual 
pieces of intelligence and how they were used from an 
intelligence perspective to try to weave an intelligence web? 
Because it seems to me with this and then, unfortunately, in 
July of 2001 with the Phoenix Memo and then in August with 
Moussaoui, I don't know what was in his computer or in his 
possession, but I would suggest if you took those pieces and 
the other pieces, one might be able to weave together a rather 
significant scheme. Can you give us any more information?
    Ms. Hill. I can't. I don't think I can give you more 
information on the actual report because, as I mentioned at the 
outset, the language that we have in this statement is what has 
been declassified. So, to venture beyond that language, that is 
the language that the declassification group basically signed 
off on as suitable for public release. I can't go into much 
more detail about the language of the report.
    We did go on some of these to the FBI and asked them what 
they did with some of this information or what happened to it 
when the report came in, if they got it, and I can tell you, 
some of them. We've given them a whole list and some we still 
have not gotten responses. They are still trying to find out 
what they did or trying to locate the record. Others they have 
found. For instance, I think you mentioned the 1998 information 
concerning a bin Ladin plot involving aircraft in New York and 
Washington. The FBI, I can tell you, did receive that 
information and theyworked actually with local law enforcement 
to try to verify the report, but they were not able to corroborate the 
report and took no further action. That is what we have been told.
    In September '98, we had one where we did get a response 
from the FBI. This was the one indicating that they obtained 
information that bin Ladin's next operation could involve 
flying an aircraft loaded with explosives into a U.S. airport 
and detonating it. We asked the FBI if they got that 
information and what did they do with it. They did receive the 
information and they also worked with another government agency 
to try to verify the information.
    The source of the information said that another individual 
had advance knowledge of some of bin Ladin's operations and had 
given him the information about bin Ladin's attack that was in 
this report. The FBI tells us that they tried to work with 
other agencies and did verify portions of this account, but 
they were not able to locate the individual who purportedly had 
the advance knowledge. And after September 11 they actually 
went back to this report and tried to locate that individual 
again and were unable to do so.
    So, what we tried to do when we got these reports that we 
felt were significant, there were many in 1998 involving 
domestic U.S. attacks and on those we went back to the FBI, as 
I said, and asked them did you get the report? What did you do 
to verify it or did you take any action? And they have come 
back to us on some of them. Some of them, there are a number of 
them, they are still trying to go through the records and come 
up with an answer as to whether they got it and if so what they 
did with it. But, those two are examples of the type of thing 
we're getting from them.
    Senator Feinstein. Thank you.
    Mr. Chairman, just one quick comment, if I might. I think 
this report becomes kind of a basic primer on 9/11. I'm sure 
more will be filled in as time goes on, but I find it a very 
valuable document in establishing a chronology of what was 
known, when it was known, the fragmentary messages that come 
through here, and my hope is as these hearings go on, and 
particularly when we get to the Phoenix Memo and the Moussaoui 
case, that we might be able to ask some questions and I don't 
know in public session if we will about if there had been a 
FISA warrant on Moussaoui and the information made available, 
whether that would have been substantial enough to really ring 
a very strong bell.
    But, I wanted to thank the staff and Ms. Hill and also 
thank the victims who are here today. It's very special and I 
hope you know that we really do care and you really do have our 
sympathy and our determination to get at the heart of it.
    Chairman Graham. And, Senator, I share those comments and I 
would say that within the next week or ten days we will have a 
further specific hearing on the issues that surround the 
Moussaoui case and that would a very excellent opportunity to 
bore in at the level of detail that you've indicated your 
interest.
    I didn't get a chance in my first round to make my 
comments, so I will do so, unless does anyone have any 
remaining questions or this will be the last word.
    To me, one of the lessons that we have been learning and 
today we've learned it at a new depth is how difficult it is to 
get an organization which has been doing its business, 
important business, in a particular pattern for an extended 
period of time to be flexible enough to recognize that the 
environment has shifted and it is going to have to change its 
pattern of business.
    In case of the intelligence agencies, they were a child 
born in 1947 and grew up in the Cold War. Every experience that 
the U.S. intelligence service had was a post-1947 experience, 
because we didn't have any civilian intelligence service in the 
United States prior to 1947. I contrast that with, for 
instance, the British, who've had an intelligence service since 
the Napoleonic Wars. So it's not surprising that when the Cold 
War ended the agencies continued to act pretty much the way 
they did while the Cold War was still under way because that 
was the only environment in which they had ever functioned or 
known.
    We've had some examples in, I think, in the report that Ms. 
Hill has given us today--the difficulty in reestablishing 
priorities, even though we've declared that terrorism and Usama 
bin Ladin specifically was such an adversary that we were at 
war with him. We didn't change resources commensurate with that 
decision. We did not recognize that terrorism was now becoming 
a domestic threat, because historically we thought of terrorism 
as something that happened abroad and the new creative uses 
that the highjackers were about to make of commercial 
airliners. No longer were they passive instruments to try to 
use to secure money or some political advantage; they have 
themselves become a weapon of mass destruction.
    So, I see as one of our challenges as we move from what 
we're learning to what we're going to prescribe for the future 
is how can we build in to our Intelligence Community a greater 
capability of internal adaptation? We certainly don't want to 
leave this issue for the future that will require a repetition 
of September the 11 to get to grab us by the sleeves and say 
you've got to change, because your old ways are threatening the 
security of the American people. And how we go about doing 
that, I suggest, will be one of our major tasks and, if we're 
successful, one of our major accomplishments.
    If there's no further statement, as I indicated earlier, 
the record will be open for 48 hours if anyone has any 
additional material they would like to submit.
    I want to especially thank the families who are represented 
here today and especially to Kristen, who I see is still with 
us, and also Stephen for their excellent presentation which 
started our public hearings with the appropriate recognition of 
why we are here. We are here because of you. Thank you.
    Vice Chairman Shelby. Mr. Chairman, what's the schedule for 
the rest of the week?
    Chairman Graham. Ms. Hill, do you want to review tomorrow?
    Ms. Hill. I believe tomorrow we are going to have a public 
hearing in this room beginning at 10:00 and there will be two 
panels of users of intelligence products from the Intelligence 
Community and those users will be senior government officials 
over several Administrations.
    I believe tomorrow we will have Mr. Wolfowitz, the Deputy 
Secretary of Defense, Mr. Armitage, Deputy Secretary of State, 
Brent Scowcroft, former National Security Adviser, Tony Lake, 
former National Security Adviser and Sandy Berger, former 
National Security Adviser.
    Vice Chairman Shelby. Will we start at ten?
    Chairman Graham. You'll start at 10:00 and, assuming that 
the stars line up properly and we can accomplish this, our goal 
would be to complete the first panel, which will be Mr. 
Wolfowitz and Mr. Armitage in approximately three hours, have a 
break and then return at 2:30 and have the second panel run 
another--I'm corrected. The second panel's going to start at 
two o'clock so that we can try to finish at approximately 5:00 
with both panels.
    Ms. Hill. That's correct.
    Chairman Graham. Are we at a point, Ms. Hill, we can 
comment on Friday yet?
    Ms. Hill. I think we're still engaged in ongoing 
discussions regarding Friday.
    Chairman Graham. Okay. Thank you, Senator.
    The hearing is adjourned.
    [Whereupon, at 3:10 p.m., the hearing was adjourned.]


   JOINT COMMITTEE HEARING ON THE VIEWS OF CURRENT AND FORMER SENIOR 
 POLICYMAKERS ON THE INTELLIGENCE COMMUNITY'S COUNTERTERRORIST EFFORTS 
             IN REVIEW OF THE EVENTS OF SEPTEMBER 11, 2001

                              ----------                              


                      THURSDAY, SEPTEMBER 19, 2002

        U.S. Senate Select Committee on Intelligence and 
            House of Representatives Permanent Select 
            Committee on Intelligence,
                                                    Washington, DC.
    The committees met, pursuant to notice, at 10:25 a.m., in 
room 216, Hart Senate Office Building, the Honorable Bob 
Graham, chairman of the Senate Select Committee on 
Intelligence, presiding.
    Senate Select Committee on Intelligence members present: 
Senators Graham, Shelby, Levin, Rockefeller, Feinstein, Durbin, 
Bayh, Edwards, Mikulski, Kyl, Inhofe, Hatch, DeWine and Lugar.
    House Permanent Select Committee on Intelligence members 
present: Representatives Goss, Bereuter, Castle, Boehlert, 
Gibbons, LaHood, Hoekstra, Chambliss, Everett, Pelosi, Bishop, 
Harman, Roemer, Reyes, Boswell, Peterson and Cramer.
    Chairman Graham. I call the hearing to order. Welcome to 
this, the second public hearing by the joint inquiry committee 
into the Intelligence Community's performance before, during 
and since the attacks of September the 11th.
    At the outset I would like to make an announcement about 
tomorrow. We will have a hearing, and it will probably include 
a 10:00 morning and 2:00 or 2:30 afternoon session. The subject 
will be the Malaysia hijackers. We will have a staff report, 
which is available to be read in both the Hart offices of the 
Senate subcommittee and at the Capitol offices of the House 
committee. It is in the process of being declassified. As of 10 
o'clock, that process had not been completed, but the 
classified version is available now. It has been for the past 2 
weeks. The declassified version hopefully will be available 
shortly.
    We will have three witnesses representing the CIA, the FBI. 
Each of them had a particular role in the events that surround 
the Malaysia hijacking aspect of the September 11 tragedy.
    We will have designated questioners for that hearing. The 
designated Senate Democratic questioner will be Senator Levin. 
At this time I do not know who the other three questioners will 
be.
    Is there any question relative to tomorrow's schedule?
    I again would like to express our joint appreciation for 
the excellent presentations that were made in yesterday's 
hearings by representatives of the families of the victims of 
September 11. Their powerful testimony, probing questions 
underscored the reason for this inquiry, to ensure that our 
government is better prepared to fight the threat of terrorism 
and to avoid repetition of last year's tragedies at the World 
Trade Center, the Pentagon, and that field in Pennsylvania.
    We remain at risk for the very same terrorist 
organizations. It is our responsibility, as well other 
important parts of the Federal, State and local governments, to 
reduce their threat to our homeland.
    I would also like to express my appreciation for the 
outstanding presentation made yesterday by our professional 
staff under the leadership of Eleanor Hill. Ms. Hill's 
compelling presentation of the early findings of our inquiry 
raised many questions, some of which will be posed to witnesses 
today, and those questions are: how much of a priority has been 
given within our government to fighting terrorism, particularly 
since the end of the Cold War; why was there not more attention 
to the possibility of a terrorist attack on the homeland of 
America; did the United States Government understand the 
gravity of the threat of terrorism; and did the Intelligence 
Community provide adequate warnings to policymakers; based on 
these assessments, what reforms to the Intelligence Community 
would you recommend? These are a few of the important questions 
of our inquiry. We will be addressing these at this and future 
hearings.
    Today we will hear from two panels of distinguished 
witnesses who will describe for us how well the Intelligence 
Community has discharged its duty to support senior 
policymakers. As active consumers of intelligence, these 
individuals are uniquely qualified to help us determine whether 
senior policymakers have been well served by the Intelligence 
Community. In other words, are the senior leaders of our 
government receiving timely and relevant information, 
particularly regarding terrorism?
    We will also seek to learn from these individuals about the 
overall direction of the United States Government's effort 
against terrorism and the efforts that have been undertaken by 
the current and former administration to assure that the 
Intelligence Community has had the leadership and resources 
necessary to focus on this escalating threat.
    Deputy Secretary of State Richard Armitage and Deputy 
Secretary of Defense Paul Wolfowitz will testify before the 
committee this morning, and we welcome them.
    This afternoon the committee will hear from three former 
national security advisors to the President: General Brent 
Scowcroft, national security advisor in the Ford and first Bush 
administration; Dr. Anthony Lake, national security advisor 
during the first term of the Clinton administration; Mr. Sandy 
Berger, national security advisor in the second term of the 
Clinton administration.
    Three lead questioners, one from the Senate and two from 
the House, will ask questions of the witnesses. Senator 
Rockefeller will take the lead from the Senate side. 
Representatives Boswell and Bereuter will take the lead from 
the House side. Other Members will be recognized to ask 
questions in the order in which they have arrived at the 
hearing.
    We must conclude the first panel by 1 p.m., so some 
questions may need to wait until this afternoon's session.
    Before calling upon our witnesses, I would ask if there are 
any opening statements from our co-Chair Congressman Goss or 
from Congresswoman Pelosi.
    Chairman Goss. No, thank you, Mr. Chairman.
    Ms. Pelosi. No, thank you, Mr. Chairman.
    Chairman Graham. Thank you.
    We are honored to have with us this morning Deputy 
Secretary of State Richard Armitage and Deputy Secretary of 
Defense Paul Wolfowitz. Mr. Armitage was sworn in as Deputy 
Secretary of State on March 26, 2001. He previously served our 
country in senior positions in the Department of State and the 
Department of Defense, and on the staff of our former colleague 
Senator Bob Dole of Kansas. From 1993 until his return to 
government service last year, he had his own business and 
public policy consulting firm.
    Dr. Wolfowitz was sworn in on March 2, 2001 as the 28th 
Deputy Secretary of Defense. This is his third tour of duty in 
the Pentagon. He also served in the State Department and was 
our Nation's Ambassador to Indonesia. For the 7 years prior to 
his return to government service in 2001, Dr. Wolfowitz was 
dean of the Paul H. Nitze School of Advanced International 
Studies at the Johns Hopkins University.
    Each of our committees has adopted a supplemental rule for 
this joint inquiry that all witnesses will be sworn. I would 
ask the witnesses to rise at this time.
    [Witnesses sworn.]
    Chairman Graham. Thank you.
    Mr. Armitage, welcome, and we look forward to your 
testimony.
    [The prepared statement of Mr. Armitage follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
 TESTIMONY OF RICHARD L. ARMITAGE, DEPUTY SECRETARY OF STATE, 
                      DEPARTMENT OF STATE

    Mr. Armitage. Thank you, Mr. Chairman. If you will allow me 
just to submit my testimony for the record, the purpose of this 
hearing is for you all to ask questions. The public wants 
questions asked, we are going to do our best to give you some 
answers. So I would just like to make three points, if I might.
    The first is one that is a question that was not asked in 
the letter that you kindly sent to Secretary Powell and 
Secretary Rumsfeld; that is, are we satisfied that we did 
everything we could do to prevent 9/11 from happening? It is 
implicit in these hearings, the question I want to pose 
explicitly, and the answer to that is when you see 3,000 of 
your brothers and sisters die, when you witness the compelling 
testimony yesterday, people sitting in the audience holding 
pictures of their loved ones, no one can say that they were 
satisfied no matter how splendidly any individual thinks that 
they were doing their job, and no matter thus far, that I have 
not been able to ascertain, a single point of failure in the 
system.
    This is not to say that we just sat back for the 9 months 
or so from the time the administration came in until this 
tragedy occurred. I will speak, obviously, from the Department 
of State's point of view. As was noted yesterday by Ms. Hill, 
the strategic intelligence was not bad. In fact, it was good 
enough for us to take several steps. We issued, between January 
and September, nine warnings, five of them global, because of 
the threat information we were receiving from the intelligence 
agencies in the summer when George Tenet was around town 
literally pounding on desks saying, something is happening, 
this is an unprecedented level of threat information. He didn't 
know where it was going to happen, but he knew that it was 
coming.
    The strategic information was sufficient to allow us to go 
out to four specific posts with warnings, and let me be clear, 
this does not mean we tell our people in the embassy to button 
up. We are required because of our no dual standard or policy 
to inform every American who is going to travel to X country 
and every American that we have registered in that country by 
e-mail, by consular bulletin, telephonic notification, by 
bulletins in hotels, et cetera. I make this point because it 
behooves all travelers to make sure what we long requested that 
they do; that is, check in with the U.S. Embassy whether you 
are a visitor or permanent resident.
    Second, the administration, I think, as you will see 
through your questions in their--I believe the first Deputies 
meeting after Paul and I were both confirmed, set off against 
al-Qa'ida. As you will see in the questions today, we just 
didn't want to roll back, we realized that we were in a war. 
And you will see that through the testimony.
    Finally, something that I don't quite know how to 
verbalize. It is this: I mentioned that we were able to warn 
some of our embassies. We did it again last week, as you saw, 
particularly in Southeast Asia, because of specific and, we 
believe, credible information, and in some cases we buttoned 
them up, we closed them, we kept people at home. Did we save 
any lives? I don't know. I hope so. Last summer when we did the 
same thing. Did we save any lives? I don't know. I hope so.
    That is the point I want to make, is, for the Department of 
State, the metrics to define success in many aspects of this 
war is in things that didn't happen, things that were avoided. 
So I guess another way of saying that is that your 
administration and successive administrations have to be right 
every time, every single time. The terrorists only have to be 
right once.
    Thank you, Mr. Chairman.
    Chairman Graham. Thank you, Mr. Secretary.
    Secretary Wolfowitz.
    [The prepared statement of Mr. Wolfowitz follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

    
 TESTIMONY OF PAUL D. WOLFOWITZ, DEPUTY SECRETARY OF DEFENSE, 
                     DEPARTMENT OF DEFENSE

    Mr. Wolfowitz. Chairman Graham, Chairman Goss, members of 
this committee, you have long provided our country strong 
leadership and bipartisan support, especially now as we wage 
this war against terrorism. You demonstrate by example that 
America's security transcends party or politics. I appreciate 
the opportunity to discuss with you today some Defense 
Department perspectives on the very important role of 
intelligence. I will keep my comments brief, as I believe my 
primary purpose today is to respond to your particular 
questions.
    Let me first say that our thoughts and prayers are with the 
families of the victims of last September's attacks. Last week, 
on the anniversary of the Pentagon attack, I was privileged to 
take part in a ceremony honoring those men and women who 
labored so diligently and tirelessly over the last year to 
rebuild the Pentagon, and I was able on that occasion to meet 
with some of the family members of the victims. And while they, 
too, rejoiced in the outward healing that has taken place in 
the Pentagon since that day, it was all too evident that there 
is a hole in their hearts and many others', a hole that will 
never heal, and we grieve with them at their loss. But seeing 
those family members whose lives were so fundamentally changed 
1 year ago served also to renew the commitment of each person 
who works in the Pentagon, military and civilian, to carry out 
our Department's mission in this war that we wage to prevent 
future acts of terrorism.
    Yesterday, before a different committee in the Congress, 
Secretary Rumsfeld addressed a dimension of this war against 
terrorism, referring to valuable intelligence information we 
already possess. He referred to President Bush, who said last 
week at the United Nations, and I quote, ``We know that Saddam 
Hussein pursued weapons of mass murder even when inspectors 
were in his country. Are we to assume that they stopped when 
they left?''
    The Secretary concluded to the contrary. Knowing what we 
know about Iraq's history, no conclusion is possible except 
that they have and are accelerating their WMD programs.
    Secretary Rumsfeld went on to observe that there are many 
now who are asking hundreds of questions about what happened on 
September 11, poring over thousands of pages of documents, and 
asking who knew what, when, and why they didn't prevent that 
tragedy. And he concluded, and I quote, ``I suspect that in 
retrospect most of those investigating September 11 would have 
supported preventive action to preempt that threat if it had 
been possible to see it coming.''
    He went on to make the point that if one were to compare 
the scraps of information that the government had before 
September 11 to the volumes that we have today about Iraq's 
pursuit of weapons of mass destruction, its history of 
aggression and hostility towards the United States, and factor 
in our country's demonstrated vulnerability after September 11, 
the case that the President made should be clear.
    And the Secretary then added, we cannot go back in time to 
stop the September 11 attack, but we can take actions now to 
prevent some future threats. And, of course, that is precisely 
why we are heretoday, to examine how we can all work together 
to prepare for future threats to our Nation.
    From the beginning, President Bush emphasized that the 
United States would fight this war using every element of 
national power, from diplomatic and law enforcement to 
intelligence and military elements, and certainly one of the 
most important elements of national power, one that we rely on 
every day now to help us in this war on terrorism, is the U.S. 
Intelligence Community. As evidenced by this hearing, these 
committees are well aware of the fundamental importance of 
intelligence to our national security and have long been 
dedicated to providing bipartisan support for critical 
intelligence programs.
    Four areas ago I was privileged to serve on the Rumsfeld 
Commission, which was charged with reporting to Congress on its 
assessment of the ballistic missile threat to the United 
States. One of underlying focuses of our study was, of course, 
intelligence. When the commission released its report in 1998, 
its nine Commissioners, which were an almost even mix of 
Democrats and Republicans holding a very wide range of views on 
policy, unanimously concluded that U.S. analyses, and I quote, 
``practices and policies that depend on expectations of 
extended warning of deployment be reviewed and, as appropriate, 
revised to reflect the realty of environment in which there may 
be little or no warning.''
    Well, that conclusion came out of an assessment geared 
toward the ballistic missile threat. It was understood by each 
Commissioner that the conclusion was applicable to all 
intelligence-related issues. This was an understanding, I 
think, shared by those to whom we presented our findings, since 
Members of Congress subsequently requested an intelligence side 
letter that elaborated on the Commission's concerns and 
recommended some--had some recommendations for change.
    First, according to the side letter, it was evident to all 
of the Commissioners that resources for intelligence had been 
cut too deeply, and that the United States was entering a 
period in which the Intelligence Community was going to be 
seriously challenged to meet its foremost task, preventing 
surprise.
    Second, one of the primary weapons in the endless struggle 
against surprise is knowing what our enemies don't want us to 
know. U.S. intelligence capabilities needed to succeed in this 
task, the letter concluded, were not as robust as they needed 
to be.
    Third, when there is more ambiguity in the intelligence 
material, the system becomes more dependent on analytic 
resources to discern the potential for surprise. The letter 
highlighted that in methodical approach, analytic depth and 
presentation to users, the Intelligence Community was in a 
degraded situation.
    Following those conclusions, Congress responded with a 
significant increase in funding for intelligence in the fiscal 
year 1999 budget. Despite the best efforts of this committee, 
however, these increases were not sustained in fiscal years 
2000 or 2001. At the time of the attacks last September, the 
Defense Department was preparing a significant increase for 
intelligence in the fiscal year 2003 budget, and after the 
attacks this figure was doubled to the present proposal.
    Mr. Chairman, members of the committee, in my prepared 
statement, which I would encourage you to read, there is a very 
impassioned passage from Thomas Schelling's foreword to Roberta 
Wohlstetter's superb book about Pearl Harbor, Warning and 
Surprise, and it underscores that some of the difficulties that 
we are analyzing today about our ability to discern 
intelligence, to find signals in noise, to deal with our--
projecting our own assumptions about rationality on enemies 
that have different assumptions about rationality are problems 
that go back in practically every comparable incident in 
history and will probably be endemic to the intelligence 
process. We can work at reducing them, but we can't eliminate 
them.
    One of the most telling lines from Schelling is that the 
danger, he said, is in a poverty of expectations; a routine 
obsession with a few dangers, that that may be familiar rather 
than likely. The expectation of the familiar must not guide us 
as we move forward. Rather, the unfamiliar and the unlikely 
must be our new guides.
    With this in mind, let me discuss briefly some lessons from 
September 11. First, for the past 50 years, U.S. intelligence 
has concentrated on defeating external nation-state threats. It 
is now clear that we must apply the same level of effort to 
nonstate actors and threats that emanate from within our 
borders.
    Second, when people threaten openly to kill Americans, we 
should take them very seriously. That is true of Usama bin 
Ladin, and it is true of the regime in Baghdad. We must not 
assume that our enemies share our views about what is rational 
or irrational.
    Third, we should not underestimate the skill of our enemies 
or their determination to conceal their activities and deceive 
us. They understand how we collect intelligence, how we are 
organized and how we analyze information. Just like them, our 
intelligence services must constantly adapt and innovate. Thus, 
we have aggressive efforts under way to find new ways to 
discern those terrorist signals from the background noise of 
our society, but we must also recognize that enemies will 
deliberately create noise in our system in order to conceal 
their real signals.
    Fourth, we need to adapt our intelligence system to the 
information age. Old stovepipes are being broken down and must 
be broken down. The culture of compartmentation is being 
reconsidered and must be reconsidered. In all that we do, we 
must emphasize speed of exchange and networking to push 
information out to people who need it, when they need it, 
wherever they are.
    Fifth, while we must always work to improve our 
intelligence, we should never allow ourselves to believe that 
we can rely exclusively upon intelligence for our security. We 
should expect surprise and have capabilities that do not depend 
on perfect intelligence to defend the Nation.
    As Secretary Rumsfeld observed yesterday, we have had 
numerous gaps of 2, 4, 6 or 8 years between the time a country 
of concern first developed a weapons of mass destruction 
capability and the time we finally learned about it.
    Efforts are under way that will ultimately result in the 
transformation of our intelligence posture. Our current sources 
and methods depreciated badly over the last decade, and sorely 
needed investments were postponed. Our budgets have been 
substantially increased, but we are playing catch-up.
    There is no question that we need to recapitalize and 
introduce new sources of intelligence and novel methods of 
collecting and analyzing information, but our intelligence 
sources and methods have also been devaluated by a pattern of 
leaks from the executive and legislative branches of government 
and through a number of well-known espionage cases. Leaks and 
espionage have provided our adversaries over time with an 
unfortunately good picture of what we know and how we know it. 
One well-known incident involves the unauthorized disclosure of 
information that led Usama bin Ladin to stop using a satellite 
phone that we had been monitoring. Once that information was 
out in public, we never heard again from that satellite phone.
    Culture and doctrine. A culture of excessive 
compartmentation will hinder our ability to defeat new threats. 
We need to facilitate greater sharing of information and 
collaboration with and between intelligence agencies, including 
law enforcement agencies and analysts and collectors. At the 
same time, it is true that compartmentation is necessary to 
prevent compromise of sources and methods.
    Global terrorism now forces domestic and foreign 
intelligence systems to link together to prevent the enemy from 
finding a hiding place in the seam between our disciplines. It 
means that we have to work together between the executive and 
legislative branches, within the executive branch, with foreign 
intelligence services to redefine the relationships and the 
rules. And we must also accelerate the speed with which 
information is passed to policymakers and operators.
    Finally, we need to avoid the mistake of thinking that 
intelligence estimates reached by consensus should routinely 
trump those of a lone dissenting voice. They do not. During 
World War II, the U.S. and Britain assembled our best minds to 
crack the German code. Those code breakers assembled in England 
at a place called Bletchley Park defied the odds of 
accomplishing their vital mission faster than anyone expected. 
In so doing, they hastened the demise of Nazi Germany and the 
end of the war. As we seek to defeat terrorists and their 
supporters, our intelligence culture must renew that sense of 
urgency in collecting and mining and analyzing intelligence.
    With respect to organization, we need to continue to update 
the Cold War intelligence structure to better address 21st 
century threats. We are already taking steps to get our Defense 
Department house in order, and have proposed to the Congress 
the creation of an Under Secretary of Defense for Intelligence 
to streamline and integrate disparate DOD intelligence 
activities. That Under Secretary is intended to provide the 
Department with a single staff office to oversee the various 
intelligence programs and will support the existing 
relationship between the Director of Central Intelligence and 
senior DOD officials and provide a focal point for securing 
timely and effective support for the DCI from the defense 
intelligence establishment.
    This change will permit us to accelerate a large number of 
actions that are already under way. As members of this 
committee know, many of them are very highly classified, but 
there are a number that are mentioned in my statement. That is 
there for the record.
    We also need to address the relatively new problem, what I 
would call information discovery. Many agencies collect 
intelligence, and lots of agencies analyze intelligence, but no 
one is responsible for the bridge between collection and 
analysis. For tagging, cataloging, indexing, storing, 
retrieving and correlating data or facilitating collaboration 
involving many different agencies, given the volume of 
information that we must sift through to separate signals from 
noise, this function is now critical.
    There is much that we can do to exploit the full benefits 
of new information technologies, such as data mining, and 
change detection, as well a steadily decreasing cost of data 
storage, but partly because of the inescapable need for 
security of information, the intelligence world lags behind the 
private sector in its ability to tag and store massive amounts 
of data and to mine that information to determine patterns.
    And one more issue we must consider is how we consider need 
to know. We have to break down the access to information so 
that those who need it get access to it. It is interesting to 
recall that before Pearl Harbor, the ultra secret code-breaking 
operation called Magic, one of the most remarkable achievements 
in American intelligence history, had unlocked the most secret 
Japanese communications, but that operation was considered so 
secret and so vulnerable to compromise that the distribution of 
its product was restricted to the point that our field 
commanders in Pearl Harbor didn't make the need to know list. 
But it is easy to say in hindsight that this information should 
have been shared more widely. If it had been, and if it had 
been compromised as a result, we would have been asking 
ourselves why it was shared so widely.
    In closing, I would like to emphasize three points. First, 
as I mentioned, the President has said that the United States 
would fight this war using every element of national power, 
from diplomatic and law enforcement to intelligence and 
military elements, with America's military power by no means 
necessarily the first option, but one of the vast array of 
national resources with which to fight.
    Certainly one of the most important elements in fighting 
this war of the shadows involves the U.S. Intelligence 
Community and its extraordinary capabilities. Whatever is done 
to reform and improve our Intelligence Community should not do 
harm to its contribution to the current war effort.
    Second, no matter how good intelligence can be, we will not 
win this war simply by going after individual terrorists. We 
must not only capture and kill terrorists and break up 
individual plots, but we must drain the swamp in which 
terrorists breed.
    In February of 1998, Usama bin Ladin published a fatwah 
declaring his intent to kill Americans, a fact which leads to 
my third conclusion. When our professed enemies declare that 
they intend to kill us, we should take them at their word and 
prepare accordingly. We must avoid the temptation of believing 
that the truth can only be found through classified sources. To 
do otherwise, despite warnings and signs, would indeed 
constitute a grave intelligence failure.
    Secretary Rumsfeld testified yesterday to some of the signs 
of the signals that now abound, saying that we are on notice. 
Let there be no doubt, he said, an attack will be attempted. 
The only question is when and by what technique. It could be 
months, a year, or several years, but it will happen.
    If the worst were to happen, not one of us here today will 
be able to honestly say it was a surprise, because it will not 
be a surprise. We have connected the dots, he said, as much as 
it is humanly possible before the fact. Only by waiting until 
after the event could we have proof positive. The dots are 
there for all to see. The dots are there for all to connect. If 
they aren't good enough, rest assured they will only be good 
enough after another disaster, a disaster of still greater 
proportions, and by then it will be too late. We cannot afford 
to wait, the Secretary put it, until we have a smoking gun, for 
a gun smokes only after it has been fired.
    We appreciate this committee's dedication to accomplish 
meaningful positive and constructive measures with regard to 
America's Intelligence Community. We appreciate your continued 
bipartisan leadership and guidance, and we look forward to 
working with you in your important task of looking to the 
future to improve America's intelligence capability. Thank you.
    Chairman Graham. Thank you, Mr. Wolfowitz and Mr. Armitage. 
Excellent statements. We appreciate the significant 
contribution that you have been and are making to our Nation's 
security.
    I would like to call upon Senator Rockefeller for the first 
round of questions.
    Senator Rockefeller. Thank you, Mr. Chairman.
    Thank you, Secretary Armitage, Secretary Wolfowitz, for 
being here. Let me just say at the beginning what Eleanor Hill 
said yesterday; that is, it was not our Intelligence Community, 
it was not the FBI, it was not anybody else that did the 
killing at the World Trade Center, the Pentagon and in 
Pennsylvania. It was the terrorists. That is paramount.
    Having said that, I would like to talk a little bit about 
perceived threats and ask some questions. According to the 
Department of State publication Patterns of Global Terrorism, 
there were 274 international terrorist attacks worldwide in 
1998, reflecting that the number of attacks, in fact, had been 
decreasing and were at their lowest point since 1971.
    If we measure the threat of terrorism by the number of 
Americans killed, and, of course, even one death is too many, 
including the attacks on our African embassies, 12 U.S. 
citizens died in 1998, 54 were killed in the proceeding 5 
years. In 1999, five more Americans died. In 2000, another 19 
died, 17 on the USS Cole.
    These numbers are tragic, but they show a fairly persistent 
pattern over the past decade. Even with this consistent pattern 
of activity, George Tenet, who by most Americans, I think, is 
considered to be the person who runs intelligence in this 
country--we know that not to be true, I am going to discuss 
that--but the Director of Central Intelligence kind of evokes 
an image of real control. He was concerned enough, as both of 
you mentioned, particularly Secretary Wolfowitz, to mention in 
1998 and tell his deputies, and then it was broadly 
disseminated within the Intelligence Community, doesn't say 
beyond that in our report, that we are at war with al-Qa'ida.
    So my first question is what did you think that meant, 
either or both of you? What did you think that meant? And what 
should have happened at that point, in your judgment?
    The reason I ask that question, Secretary Wolfowitz, you 
talk a lot about things that must happen, things that cannot 
happen again, ``we should be, we must do, we must make sure 
that such and such doesn't happen again.'' But specifically 
what did that mean, we are at war, to you, as you came into 
office? And what should have happened at that point, in your 
judgment?
    Mr. Wolfowitz. I think it means that you plan for war. And, 
in fact, over the course of--from the time Secretary Armitage 
was sworn in, which I think was late March of 2001, which was 
when we finally had two deputies and could have a deputies 
committee, in fact, prior to that I believe even, national 
security advisor Dr. Rice had tasked her staff to begin 
preparing options for what this would mean.
    And as you start to look at it, you realize that war 
against al-Qa'ida is something different than going after 
individual acts of terrorism or retaliating against individual 
acts of terrorism; that it really does involve all of the 
elements of national power; that it is not just something for 
the Intelligence Community alone; that, in fact, you can't go 
to war against al-Qa'ida without recognizing the role that the 
government of Afghanistan is playing. You can't go after the 
government of Afghanistan without recognizing the problems in 
your relationship particularly with Pakistan, but with other 
neighboring countries, and you can't get serious about this 
without looking at military options.
    And when you start to look at military options, you have to 
think about something more than a one-off retaliation for an 
attack. That is the process that we were engaged in over the 
course of basically the summer of 2001. And, ironically enough, 
it led to a principals committee meeting in early September 
before the attacks that produced a recommendation that was not 
far off from what we ultimately implemented after September 11.
    I would like to make one other point.
    Senator Rockefeller. I have 12 questions in 20 minutes.
    MR. Armitage. I will only add that where we--I think our 
story is pretty good on going after al-Qa'ida from April 30th 
on, after the first deputies meeting. However, where we went 
wrong, where we made a mistake, was that we didn't have the, 
first of all, a necessary baseline from intelligence on the 
global aspect and global possibilities of al-Qa'ida, number 
one. And, number two, although many of us, including Members of 
Congress, were saying the right words, I don't think that we 
really had made the leap in our mind that we are no longer safe 
behind these two great oceans, and even though we had the World 
Trade Center attack of 1993.
    Senator Rockefeller. When you came into office, did you 
both think, know that we were at war with al-Qa'ida?
    Mr. Armitage. I was briefed in January and February, 
leading to my hearings in March before the U.S. Senate. The 
term ``at war'' was, to my knowledge, not used. There was no 
question, though, that we were in a struggle with al-Qa'ida, 
and al-Qa'ida was the very first thing that the administration 
took on at the deputies level.
    Senator Rockefeller. But you were aware that the DCI 
thought that we were at war?
    Mr. Armitage. I was aware of his comments.
    Senator Rockefeller. Yes. And did the Intelligence 
Community clearly warn you what al-Qa'ida was capable of doing, 
and that it sought to carry out a mass casualty attack on U.S. 
soil? Did you know that? Had you been informed of that by the 
Intelligence Community?
    Mr. Armitage. The Intelligence Community, as I recall, 
informed me, one, that we may have an explosion in Kenya from 
an explosive-laden aircraft. I do not specifically remember a 
mass casualty event.
    However, there were discussions in INR in the State 
Department from information gleaned from the Intelligence 
Community that there was the possibility of a chem-bio attack, 
no location, no time, but that was being discussed.
    Senator Rockefeller. What did you two gentlemen perceive 
the threat to be?
    Mr. Armitage. I, in general, perceived the threat to be at 
our interests overseas, primarily in the Gulf, some in 
Southeast Asia, and most definitely in Israel. That is from my 
point of view and the Department of State.
    Mr. Wolfowitz. I would say near term we perceived the 
threat to be overseas, as Secretary Armitage says. In the mid 
to longer term, we perceived the threat to be mass casualties 
in the United States as a result of chemical or biological or 
conceivably nuclear attack, and that is why, in the course of 
developing the Quadrennial Defense Review over the summer of 
2001, we identified homeland security as the top priority for 
transformation.
    Senator Rockefeller. Did you take any steps with respect to 
reacting to these threats that the Clinton administration had 
not taken at that point in time? Because the Tenet warnings 
came out in 1998.
    Mr. Armitage. We increased, in INR, the number of analysts. 
We have 4 in general that look at terrorism and crime. We 
increased the number to eight. It has, since 9/11, been 
increased to 10. So that is a specific answer.
    Mr. Wolfowitz. We undertook a number of steps in our 
development of the defense program to increase our capability 
to detect or respond to weapons of mass destruction attacks, 
and I believe there were a number of classified actions taken 
by other agencies.
    Senator Rockefeller. Anything specific you can tell us 
unclassified?
    Mr. Wolfowitz. No, not with respect to classified actions. 
Specifics on what we did with respect to developing our own 
capabilities to respond, I can give you lots of detail for the 
record.
    Senator Rockefeller. Please do that.
    Who, in fact, is responsible for assessing the risk of 
terrorist attack in the United States of America, and was any 
strategic assessment or other kind of assessment done when you 
came into office, both of you?
    Mr. Wolfowitz. I think what you are putting your finger on, 
I think, to some extent is that we have certain divisions of 
responsibility between what the FBI and domestic law 
enforcement is responsible for and what the CIA is responsible 
for, and indeed limitations on what the CIA is allowed to do 
and collect domestically, which I think members of this 
committee are very familiar with. So there is a problem of 
where responsibility is assigned.
    I am not aware of any specific assessment of what the 
threat was domestically.
    Mr. Armitage. I agree, sir.
    Senator Rockefeller. All right. Obviously we had had the 
1993 World Trade Center incident and the whole series of other 
things, which Eleanor Hill delineated yesterday. So there were 
things going on in this country over a long period of time. The 
question was were they individually aggregated and taken to a 
higher level where they reached policymakers who said, oh, this 
is not just a matter of the international, but this is a matter 
of domestic?
    So America's perception of threat here, as opposed to 
overseas, was not, you are saying, fully formed when you 
gentlemen took office?
    Mr. Armitage. I think that is a fair statement, but I would 
like to accompany it with the notation and the notice that when 
Mr. Bush was a candidate, he specifically spoke about homeland 
security, and he was drawing on a report that was actually 
commissioned by the U.S. Congress, the National Defense Panel 
Report, which spoke about homeland security being a new mission 
area, and the Pentagon is on top of that as far as I can see; 
and, second, that we recognized that we couldn't have a policy, 
certainly in South Asia, as early and--more broadly as early as 
the end of April when we had a deputies meeting and made 
decisions and gave instructions to not just roll back al-
Qa'ida, but to go after and eliminate them.
    Senator Rockefeller. Thank you.
    The Intelligence Community--this is sort of about what you 
were talking about, Secretary Wolfowitz--collects, analyzes and 
disseminates one kind of intelligence for civilian policymakers 
and another and different kind for the defense needs to shape 
our military forces and plan and execute military operations.
    Many of our intelligence collection systems used to collect 
both kinds of intelligence. I mean, there is an overlap. And it 
is well known--no, in fact, it isn't well known generally out 
there in the country, but it is a fact that 85 percent of the 
money for intelligence is within or controlled by the 
Department of Defense. So it is important to understand the 
different needs, how they overlap, and how they do not, and 
what happens when there is a conflict between the civilian 
policy needs and military needs.
    And to that I would just give you something to lop on. If 
Director Tenet foresaw a requirement to make a change because 
he needed to have something happen, but that change was not 
under his budget authority, would he have the ability to go 
into the Department of Defense and move the money he needed? Or 
is it the unwritten law that the Director of Central 
Intelligence, thought to be the controller of intelligence by 
most of our country, in fact usually loses when he goes up 
against the Secretary of Defense?
    Mr. Wolfowitz. I don't think that describes the 
relationship. In fact, I think Secretary Rumsfeld and Director 
Tenet have a closer relationship than any previous Secretary of 
Defense and the DCI. And when these issues come up, this was 
true before September 11----
    Senator Rockefeller. I understand personal relationships. 
That is not the question I asked.
    Mr. Wolfowitz. It is not a personal matter; it is a working 
relationship, it is a professional relationship. They meet 
regularly. These problems get resolved. We have frequently 
moved resources to address their needs.
    But I think a fundamental point, too, here, Senator, 
related to a lot of these questions is this is not a game that 
we will ever win on defense; we will only win it on offense. 
And I believe that recognition came very early in this 
administration, and the recognition that going on offense was 
something that would be a very substantial exercise.
    Senator Rockefeller. Thank you.
    Mr. Secretary?
    Mr. Armitage. Absolutely.
    Senator Rockefeller. Under the current structure I think it 
is fair to say that the Director of Central Intelligence, 
thought by the American people to control intelligence, 
doesn't. And I am not arguing that point, but I am raising it. 
I don't think there have been any recent Central Intelligence 
Directors who have really wanted to venture beyond their budget 
authority, and their budget authority is fundamentally 15 
percent of the intelligence budget. This raises all kinds of 
questions about the relationship between the DCI, the DOD, 
which you say is very good. And I have been at the meetings 
when people have had their arms around each other and were 
working very well together, but it doesn't seem to work out 
necessarily to the best coordination of intelligence 
activities.
    It seems to me, in fact, that the DCI lacks that authority 
and is not necessarily willing to take on a Secretary of 
Defense, who controls budgets and personnel. If there is any 
truth in either of your minds in this, does that, in your 
judgment, hinder the fight against terrorism?
    Mr. Wolfowitz. Senator, I don't think it is a matter of 
taking on the Secretary of Defense. I think there are times 
when it would be helpful--and this is why we have proposed an 
Under Secretary of Defense for Intelligence--when the Director 
has a problem or when his subordinates have a problem, to be 
able to come to somebody below the level of the Secretary and 
get these problems sorted out.
    When problems are elevated, my experience has been they 
have been resolved, and I don't think there are basic problems 
here that flow from some inability of the Director of Central 
Intelligence to get from the Department of Defense what they 
need.
    But a basic point which the American people also expect is 
that these vast intelligence resources of ours will be made 
available to permit our military to win wars when they fight 
them. And the intelligence resources of the Defense Department 
have been absolutely critical in this campaign against 
terrorism.
    Senator Rockefeller. And I agree with what you have said, 
and I also note that in your testimony you talked about 
stovepiping, and you talked about the proposed new Under 
Secretary for Intelligence. And I would like to ask that 
question: how do you think that this is going to help bring 
clarity, succinctness, precision, sequential accuracy to the 
variety of 14 different intelligence agencies which exist but 
which have no sort of central command, even though the American 
people think that it is that way? How will this proposed new 
Under Secretary be able to bring clarity to the process of the 
gathering, dissemination, and strategic assessment of that 
intelligence?
    Mr. Wolfowitz. I think the key to breaking down stovepipes 
is to bring them together at levels below the very top level 
ofthe government. When the only place they come together is at the 
Cabinet level, then inevitably there are going to be the walls and 
compartments that busy Cabinet officers don't have the time to break 
down.
    Having an Under Secretary for Intelligence whose sole 
responsibility is overseeing those agencies and precisely 
looking at those compartments and stovepipes I think is a key 
to doing it. And the Rumsfeld Commission, looking at the 
ballistic missile threat, nine of us working part time were 
able to do an enormous amount in breaking down stovepipes, but 
it requires people who are focused on that issue and not 
distracted by many other things. That is what an Under 
Secretary of Defense for Intelligence will be able to do.
    Senator Rockefeller. Talking about stovepipes is something 
that the Intelligence Community and this committee have done 
for a very, very long time, and we have seen not much progress. 
So when you say getting people together at a lower level, I am 
pleased to hear that.
    Could you elaborate a little bit on how you really break 
down a culture of non-communication of individual campuses 
spread around within a 3- to 6-mile radius of Washington, which 
all have their own cultures, their own memorial gardens, their 
own cafeterias, their own set of histories? I mean, it is an 
easy thing to talk about, a hard thing to do. How do you think 
this should be made to happen, Secretary Wolfowitz?
    Mr. Wolfowitz. Let me try to split it in two different 
problems. I think, first of all, there is--before you get into 
the culture problem, there is just simple problems of 
compartmentation. One reason that the Rumsfeld Commission was 
able to break down a lot of stovepipes is that we had the 
authority to go into every compartment, and we could see that 
information in one compartment was something that people in 
another compartment needed to have and weren't getting.
    That is not a culture issue, that is a--somebody with the 
oversight, the ability and the time to look into those 
compartments that can break them down.
    You raise a bigger question, which is culture, and you 
don't change those things overnight, nor do you want to change 
them entirely. You need organizations with specialized 
capabilities. I think, though, we have seen a lot over just the 
last 12 months of agencies, including agencies that have not 
traditionally worked together--the FBI, for example, has 
brought CIA analysts into the FBI. That is a rather radical 
change. How much it is changing the FBI? You have to ask the 
Director or the CIA Director.
    Senator Rockefeller. Let me use that statement to go into 
my final question. Regarding the FBI, from my point of view, I 
really question--I would like both of your responses on this--
whether the FBI ought to be heavily involved in the 
intelligence business.
    They are trained differently, their skill sets are totally 
different, their habits are different. Everything is different 
about them. They do a superb job at prosecuting and putting 
people in jail. But the intelligence function on a domestic 
basis--which raises serious questions of what would an 
alternative be, which is what we need to discuss--is something 
that I worry about a lot.
    You indicated the FBI reported to you, but was the FBI 
really monitoring some of these domestic groups in a way which 
was satisfactory to you? Did they have the mindset, skill set 
to do that?
    Mr. Armitage. I am going to give you two answers. One is a 
perspective, Senator. I was involved in the setting up of the 
CTC in the mid-1980s. There has been a light year's difference 
between the FBI now and the FBI then.
    But the direct answer to your question is, absolutely. The 
FBI must be more than an investigation and prosecutorial arm 
who comes in after an event. They have to be involved in the 
investigation and the monitoring. There is no way around it, 
nor should there be.
    Senator Rockefeller. My time is up. I thank you, gentlemen.
    Chairman Graham. Thank you, Senator Rockefeller.
    Mr. Bereuter.
    Mr. Bereuter. Thank you, Mr. Chairman. Gentlemen, good 
morning. Thank you for your initial statements and your 
responses thus far. Because of a change in the committee's 
schedule yesterday, I was not able to be here for a part of it 
that I expected to be. And I want to take a minute or two in my 
available questioning time to say something, and it is that I 
am concerned about the total preoccupation on intelligence 
failures. And that's the headlines, of course, and that was the 
theme of all day yesterday and in general.
    Of course there are inadequacies, gaps, and deficiencies in 
intelligence collection and analysis. We all understand that 
very well. But what is not being focused upon are the failures 
in the law enforcement agencies and the other entities that 
could have averted terrorist acts and need to avert future 
terrorist attacks.
    I have been amazed to find thus far there has been no place 
in the Federal Government where there was a responsibility for 
examining all the potential terrorist scenarios and then making 
plans to avoid them with the domestic agencies. I think most 
citizens would have assumed that capacity existed. I certainly, 
with some knowledge of the Federal structure, would have 
expected it existed. It apparently didn't.
    It doesn't take too much imagination, it seems to me, to 
imagine that a commercial airliner would be used as a flying 
bomb. And we know from the committee's report yesterday, there 
were many indications this was being considered by al-Qa'ida--
Tom Clancy had it as a part of one of his books, with an 
airliner being crashed into the Capitol dome--and if it wasn't 
specifically assigned to an entity or an interagency group, it 
looks like it would have been done in the National Security 
Council. Now we have a homeland security director, and we know 
where the responsibility is placed and will be developed.
    Gentlemen, I want to focus first on I guess, you, Secretary 
Armitage. I am generally aware of the recommendations for 
changes in the intelligence agencies within the Department of 
Defense. But looking at the State Department's own 
intelligence--internal intelligence capacity, INR, how do you 
think it interfaces? How has it interfaced in fact with the 
other collectors and analytical capabilities of the Federal 
Government, and what changes have been made or would you 
contemplate, would you recommend, Secretary Armitage?
    Mr. Armitage. Thank you. In INR we are primarily almost 
exclusively involved in analysis and not in gleaning 
intelligence. And I believe the excellent staff of this 
committee has determined that much of the analysis at INR was 
pretty damn good, number one. Number two, that means that 
primarily it's limited by the information end. So one might 
contemplate whether State itself wants to have a larger, sort 
of more active role in the gleaning of intelligence.
    Now, primarily, the intelligence we get is open source, or 
comments of one embassy officer with some host country official 
or another, and the other is gleaned from open sources. And 
Paul was careful and I think right to draw our attention to 
that. We have put both INR and DS, Diplomatic Security agents 
with the Counterterrorism Center. This is good at breaking down 
the culture. It also helps us a bit. We have had before 9/11, 
and continue to have, FBI officers who serve in our 
Counterterrorism Center. In the main, I have to do a little 
more with the budget for INR. As I said, we've now got 10 
analysts strictly devoted to terrorism, which is up from 
before, but it is clearly not sufficient. But the analysis 
they've given was judged, by your own Commission, to be pretty 
much on the mark.
    Mr. Bereuter. Secretary Wolfowitz, you generally quote the 
President, in the conclusions of your testimony this morning, 
as saying that every element of national power must be used 
against the terrorists--military, law enforcement, diplomatic 
intelligence. And I don't think anyone would dispute that.
    Looking back at this small boat attack on the USS Cole in 
the previous administration, looking back and determining what 
was done at that point or not done, why--first of all, was 
there a military response planned to respond to the attack on 
the USS Cole? And if not, why not? Was there an expectation 
that the problems of al-Qa'ida and the Taliban would be handled 
by the intelligence agencies or covert operations? Why was 
there no attack? And was there any military planning to attack 
and respond to the USS Cole attack?
    Mr. Wolfowitz. Congressman, I can't tell you what happened 
in the immediate aftermath of the attack. I can tell you 6 
months later when we came into office, or when Secretary 
Armitage and I came into office, it was clear that terrorism 
had to be dealt with in a different way. It is not a law 
enforcement problem, and it can't be dealt with simply by 
retaliating against individual acts of terrorism. As we said 
earlier, we understood this was an entity that was at war with 
us, and taking them on involved more than just an individual 
retaliatory response. That wasn't going to stop the problem.
    You, I think, expressed your puzzlement, and undoubtedly 
the puzzlement of many Americans, of why the FBI didn't provide 
some of this information. In fairness to the FBI, it ought to 
be pointed out, that for very good, substantial reasons, they 
are not supposed to report information on Americans to 
intelligence agencies. This is an issue we have to confront 
now. It's not that they were stupid. They are there under a 
different set of rules, rules that require people to be very 
careful about information that can be prosecuted.
    But if I could, just two points: We are not going to win 
this war on defense. No matter how good our intelligence is, we 
have got to go on offense. And offense does not just mean one-
off military retaliation; it means the kind of campaign we are 
conducting now against terrorism. It means a war.
    Mr. Bereuter. Secretary Wolfowitz, we are well aware of the 
limitations properly imposed upon the Federal Bureau of 
Investigation and that there is no excuse for the failure to 
communicate what the agents in the Phoenix office had 
uncovered, which therefore caused a failure to respond properly 
to the agents in the Minneapolis field office. There is an 
absolute failure in that bureaucracy and the information 
technology failure, to say the least. And so it's important we 
don't divert by telling us that this is not in their area of 
responsibility from their real failures in this instance.
    And, of course, yesterday the family witnesses pointed out 
to us about the 11 minutes, or perhaps 12 minutes, that seemed 
to have taken place in FAA control, New York, after they knew 
that the second airliner was headed for the second tower but no 
alert was given to the port authority.
    I would like, Secretary Armitage, if you would respond to 
this question: Do you feel U.S. foreign policy in the Middle 
East has contributed to the rise of al-Qa'ida?
    Mr. Armitage. No, Senator.
    Mr. Bereuter. I would say to you that many people believe 
that it does; and many people in the Middle East, more 
importantly, believe that it does.
    Mr. Armitage. That's a different question.
    Mr. Bereuter. In light of this attitude of so many people 
living in the Middle East, and indeed some of our citizens, 
what is the State Department's role to correct errors in 
perception--I guess I will put it that way--or to change their 
attitude about the United States and their attitude about the 
terrorists?
    Mr. Armitage. I know you understand this explicitly, but I 
want to make the point that Usama bin Ladin was planning these 
attacks at a time when the Israeli/Palestinian question was in 
a much more benign state, when our President was meeting here 
at Camp David and they were very close to a resolution. So I do 
not buy the argument that our policy in the Middle East is 
responsible for al-Qa'ida, Usama bin Ladin. And it was only 
laterally, it was only after the World Trade Center attacks 
that Usama bin Ladin could even say the word ``Palestinian'' 
out loud publicly.
    Now, the question of what should we do to fix it? I think 
we are trying to work a very difficult equation, to address the 
humanitarian situation, particularly in the occupied 
territories, to work with our closest ally, the Government of 
Israel, who even today suffered yet again from terrorism and, 
finally, to have a political change in the Palestinian 
Authority that will allow the Palestinians to be governed by 
the type of government the people deserve. And that is all 
ongoing, and that was the subject of Secretary Powell's meeting 
2 days ago in New York.
    Mr. Bereuter. Secretary Armitage, would you speak to the 
role of public diplomacy that would have an impact upon 
attitudes of the population of the Middle East, particularly 
the Arab countries?
    Mr. Armitage. This is an area that we have done 
historically, we know now, a bad job. And the Secretary brought 
in Charlotte Beers to really try to address this; and I am 
delighted, particularly Frank Wolf's Appropriations Committee 
in the first instance, have been so supportive to give us the 
resources for this. But we had to learn what the questions to 
ask were before we could start addressing them, and Charlotte 
Beers has done that, and we are off and running in the Middle 
East. And I think over time, you will be able to judge whether 
we have been effective or not. I don't think I can judge that 
today.
    Mr. Bereuter. It's an important priority. We wish you well 
in this respect and much success.
    Mr. Armitage. Thank you.
    Mr. Bereuter. I would like to ask both of you if you would 
give us your own observations about the weaknesses that you 
have observed with regard to intelligence collection and 
analysis. And let me just stipulate, we all seem to agree that 
there is an inadequacy of human intelligence and a risk 
aversion perhaps in some of the people involved in HUMINT which 
we are trying to address. But setting that aside, what other 
kinds of weaknesses have you seen in your experience in 
government, going back over some years now and contributing to 
this day in the intelligence collection and analysis function 
of the Federal Government? And, of course, I am talking about 
foreign intelligence collection.
    Mr. Armitage. I think the questions of human intelligence, 
agents and all of this, this committee, both the House and the 
Senate, have delved into it at great length. And the point that 
has always bothered me was related to by Paul, and that is that 
the Intelligence Community is in the analysis business, which 
is where I am. I am the consumer. It's very rare that we get 
the one-off voice or the dissident voice that Paul was talking 
about. For a policymaker, the dissident voice is very helpful 
to either confirm what you think or really open up a new area, 
and this is not generally done. If I had to say the one biggest 
weakness in the analysis area, I would say that's it.
    Second, it's the way analysis in the Intelligence Community 
is generally put forth, and it's related, and that is 
consensus.
    Mr. Bereuter. We found a dissident voice in the DIA that 
seemed to be discouraged from being able to present his 
viewpoints, and I would guess that's a common problem. So you 
bring up an interesting point. And how do we protect that, how 
do we make sure that those dissident voices that sometimes have 
part of the answer, or the answer, are heard?
    Mr. Armitage. I must say I remember when Director Gates was 
the deputy director. I remember vividly. I was in the Pentagon. 
He set down something on Africa and it had to do with the 
community view on HIV/AIDS in Africa. And he said, I want to 
give you the view of one analysis, it is not a community 
product--which was dramatically different and, by the way, 
dramatically correct, as was seenby the virulence of the spread 
of AIDS. And that's the kind of thing that has to be encouraged.
    Mr. Bereuter. Secretary Wolfowitz, would you like to focus 
in your observations on any weaknesses other than HUMINT, which 
we can probably agree on?
    Mr. Wolfowitz. I really would just enforce this observation 
about the need to get alternative views up, because almost 
everything that's important here is shrouded in ambiguity and 
uncertainty. There's nothing that is flat black and white. 
There is a tendency to want to get things scrubbed out to get 
the differences eliminated.
    I remember the first national intelligence estimate I ever 
read, which I'm embarrassed to say was nearly 30 years ago, in 
which--it was on the critical issue of Soviet strategic 
capabilities. And I believe it was the Director of Central 
Intelligence in forwarding the report said, very proudly, how--
what a great job these people had done in producing a report on 
such an important subject without a single footnote; in other 
words, without a single voice of disagreement. And I was just 
appalled. I thought, how could you address a subject of that 
importance without differences?
    So I think get those differences up on the table, get the 
raw information up a little faster. Understandably, some of it 
is going to be wrong and you don't want people rushing off and 
taking precipitous actions based on raw intelligence, but I 
think there is a tendency to hoard stuff too long and to keep 
it in compartments.
    Mr. Bereuter. Thank you. I want to ask both of you, are 
there any groups capable of--any groups other than al-Qa'ida 
capable of or seriously considering attacking the United States 
today? And I am talking about the homeland.
    Mr. Armitage. In terms of capability and virulence, 
Hizbollah certainly is capable. They have thus far confined 
themselves in the main to Central and South America and, of 
course, the Middle East. But capability, they could do it.
    Mr. Wolfowitz. It's absolutely right--and intentions are 
one of those things that if you want any precision on you 
almost never get it--if you reject the evidence that comes from 
overt expressions of hostility, then you'll be taken by 
surprise every time.
    Mr. Bereuter. Is there any other entity you would suggest, 
other than Hizbollah, at this point or make general reference 
to?
    Mr. Armitage. No; other than to make the obvious point that 
there are a number of groups in the so-called network that is 
al-Qa'ida, whose intentions are clearly to harm Americans. 
They've said it, they do it, they write it. So I don't have 
direct information that they are targeting the United States, 
but they are certainly intent on targeting U.S. interests.
    Mr. Wolfowitz. Congressman, we don't have that kind of 
precise information about what groups are there. This group 
that calls itself the Islamic Movement for Change that sent a 
threatening letter to our embassy in Saudi Arabia in the spring 
of 1995 and then claimed credit for the attack in Riyadh in the 
fall of 1995 has never been identified. We don't know what 
countries or what groups have sleeper cells buried around the 
world now. We know what people have capabilities and we know 
what people have declared hostile intentions toward us. And I 
go back to Secretary Rumsfeld's point. Those are the dots, and 
if you want to wait until they're connected, you're going to 
wait until something terrible happens.
    Mr. Bereuter. Both of you have experience beyond your 
current capacity, in your previous roles in the 
administrations. Both of you have held important roles in the 
Department of Defense and one continues today, of course. What 
do you think the state of affairs is with respect to our allies 
and their ability to provide intelligence to us? Have we--is 
there progress yet to be made in that respect?
    Mr. Armitage. Well, first of all, the difference between 
September 10 and September 12 in this regard is night and day, 
and that includes more than just intelligence. It is also in 
the terrorist financing. We stood up to terrorist financing 
back in May, the tracking center, but after the tragedy, people 
came aboard.
    Is there more work to be done? Absolutely. And I say that 
with complete assurance, because we don't know what we don't 
know from these countries. And we sometimes find it very 
surprising that we have some information which turns out to be 
true, and we turn to those countries and they say oh, yeah, we 
knew about that, we neglected to tell you, we forgot to tell 
you. So there's a lot of work still to be done.
    Mr. Wolfowitz. I just add very briefly, our cooperation 
with our allies improved dramatically after September 11. Our 
cooperation with unfriendly countries improved dramatically 
after the fall of the Taliban.
    Mr. Bereuter. Thank you, Mr. Chairman. I think we are 
called for a vote and so I will just terminate at this point.
    Chairman Graham. Thank you, Congressman Bereuter.
    Congressman Boswell, would you like to do your questioning 
now or----
    Mr. Boswell. I have just shared with your co-chair--and 
he's got a solution--that I definitely want to share in this 
questioning. So I think we are going to go vote and he's got us 
suggesting about letting the Senators continue their 5 minutes.
    Chairman Graham. And when you return, you will be called 
upon for your 20 minutes.
    Mr. Boswell. And I'm ready.
    Chairman Graham. The House members will be attending to 
their voting for approximately the next 20 to 30 minutes, but 
we are going to continue with questions from Senators, and I 
would just like to ask two questions.
    Mr. Wolfowitz, you said in your prepared statement that our 
goal should be to drain the swamp of terrorists, and that the 
primary method of doing so was going to be win on the offense; 
that is, to go after the terrorists, not play defense.
    In a previous hearing, we had high officials in the 
Intelligence Community who were asked a question: What was the 
biggest mistake that we made in the 1990s relative to al-
Qa'ida? Answer: The failure to aggressively assault the 
training camps of al-Qa'ida, which at one time were producing, 
on average, 100 terrorists per week, who then were subsequently 
placed around the world, including, as we know, in the United 
States.
    In light of that, I have been surprised that our current 
war on terrorism has not, at least apparently, targeted the 
training camps where the current generation or the next 
generation of terrorists--and I am speaking specifically the 
training camps outside of Afghanistan--are producing the next 
group that will likely be equipped to attack us. Is that based 
on intelligence that the community is getting to the effect 
that the training camps are not as significant today as they 
were 4, 5 years ago; or what is the reason why in a campaign on 
the offensive to drain the swamps, the place that the 
alligators are being prepared are not being targeted?
    Mr. Wolfowitz. Senator, I am not sure if we can get into 
this in open session. I am not sure which training camps you 
are referring to.
    Chairman Graham. Primarily the ones, as I say, outside of 
Afghanistan; and I will not mention the specific countries, 
although they are fairly well known.
    Mr. Wolfowitz. There are countries like Yemen and Georgia 
where we know there are active terrorists, not just training 
camps--training camps, yes, but also people plotting and doing 
plots. And we are working actively in different ways with both 
those governments to get actionable intelligence, number one, 
and, number two, to improve their capabilities to go after 
these problems. But if we have actionableintelligence and they 
are not prepared to act, then we'll have to figure it out ourselves. I 
mean, in the cases that I'm aware of, we're aware that there are 
problems, but we don't have the kind of precision that told us about 
Tornak Farms or specific things in Afghanistan.
    Just one last point. I don't want to get in an argument 
with the people who talked to you earlier about training camps, 
but it seems to me even worse than the training camps was the 
training that took place here in the United States and the 
planning that took place in Germany. The donkeys, if we can 
call them that, that took over the airplanes may have been 
trained in Afghanistan. The pilots were clearly trained 
elsewhere.
    Chairman Graham. In your opening statement, Mr. Wolfowitz, 
you commented about the importance of us not being seduced by 
the status quo, the way things have been, and to be prepared to 
think creatively as to the nature of the threat and the nature 
of our vulnerability. Based on what has happened September 11, 
and before and since, what recommendations would you have in 
terms of personnel policy, organizational policies as to how we 
can inject a greater degree of creativity within our 
intelligence agencies?
    Mr. Wolfowitz. Well, some of the things we've done already 
are in fact enumerated in my statement. I do think 
organizationally from within the Department of Defense, we 
believe very strongly that having this single focal point for 
intelligence, the Under Secretary for Intelligence, would 
contribute enormously in dealing with two problems. One is 
breaking down compartmentation within the Department and, 
number two, giving the Director of Central Intelligence a focal 
point that he can go to to solve problems when they occur.
    With respect to the issue about culture, I think there are 
a lot of things that come to mind, but I can't think of 
anything that would be more important than finding ways to 
reward those long voices that do descend to perhaps send back 
intelligence estimates that have no footnotes in them, and 
praise the ones that come forward that indicate with some 
clarity what we know and what we don't know and what we may not 
even be aware that we don't know.
    Chairman Graham. Thank you. The questioners will be Senator 
DeWine, Senator Lugar, Senator Inhofe, Senator Feinstein, 
Senator Kyl. Senator DeWine.
    Senator DeWine. Mr. Secretary, Mr. Secretary, thank you for 
both being here. We all have a great deal of respect for both 
of you. It's clear that George Tenet was, as Secretary Armitage 
said, pounding on the table. It's clear that you both were very 
concerned and working hard on the issue of terrorism. And it's 
also clear that there are a lot of good people not just in the 
administration but down in the trenches who were doing a lot of 
good hard work. And I don't think--we should make it clear to 
the American people that our investigation has shown that: that 
while there was an intelligence failure, we have seen there 
were a lot of people doing a lot of very, very good work every 
single day.
    I really have two questions. One was, was there a strategy 
for fighting terrorism? Were all the instruments of national 
power coordinated and applied together? Off the top of my head, 
these would include covert action, the use of foreign 
countries, disruption by foreign governments, use of the 
Justice Department, prosecution, jailing terrorists when we 
catch them, military, obviously, trying to freeze economic 
assets. Were all of those being coordinated together?
    And second, and probably more important, if the answer to 
the first question is yes, who is driving this?
    George Tenet talked about a war against Usama bin Ladin. 
He's the man who talks to the President every day. He's the man 
who the public looks to, frankly, in regard to the effort 
against terrorism. I believe, you know, in spite of that fact, 
in spite of the fact that you wouldn't find anyone who was more 
driven than George Tenet about this issue during that period of 
time, it didn't seem that all the things got pulled together.
    I wonder if you could reflect a little bit on that and talk 
to me a little bit about structural changes that need to be 
made, so that this is a focus that can be applied, so there is 
the coordination that is needed.
    Because I agree with you, Mr. Secretary, the cooperation 
does exist at the top level. The question is how you drive it 
down and how you make sure that someone who is in the field, 
who works directly under the Defense Department, candidly, gets 
the priority, that information, things need to flow somewhere 
else when they are tasked to do that. And that is the real 
difficulty that we face. I don't want to go in any more detail 
than that. But I think that is the difficulty that we face.
    If the two of you could reflect on those. One was the 
coming together, if you had a plan to coordinate everybody; and 
two, who is driving it?
    Mr. Armitage. The National Security Council was driving it. 
It started in March when they called for new proposals on a 
strategy that would be more aggressive against al-Qa'ida. The 
first deputies' meeting, which is the first decisionmaking body 
in the administration, met on the 30th of April and set off on 
a trail of initiatives to include financing, getting at 
financing, to get at increased authorities for the Central 
Intelligence Agency, sharpen things that the military was asked 
to do. The Attorney General was wrapped into it. The point of 
this is it is not something that takes place at one meeting, 
and it happens because there are many considerations, from 
privacy considerations to budgetary ones.
    So from March through about August we were preparing a 
National Security Presidential Directive, and it was 
distributed on August 13 to the principals for their final 
comments. And then, of course, we had the events of September 
11. So the answer was yes, we are on that track; it's not 
something that takes place overnight.
    Senator DeWine. I would just say to the public--Mr. 
Secretary, I understand what you said--but to the public that 
sounds like a hell of a long time, Mr. Secretary. In hindsight 
that sounds like a long time.
    Mr. Wolfowitz. Well, and the truth is that these people 
were embedded in our country, the pilots 2 years ago, and 
people carrying out the hijackings last spring. I mean, they 
were way ahead of us. And that's something one has to bear in 
mind in saying, where is the evidence of an imminent threat? By 
the time threats are imminent, first of all, you probably won't 
have the perfect intelligence, and if you do, it may be too 
late to do anything about it.
    I think organizationally there are many things that can be 
done and are being done; some of them not yet being done. But I 
think nothing is as important as what the President has 
proposed for the new Department of Homeland Security. The clear 
deficiency before was that we didn't have anyone with the 
responsibility for dealing precisely with that problem.
    And I don't think it's an exaggeration to say, as has been 
said, that this proposal which the Congress is wrestling with 
right now is as important to restructuring our government for 
this new security era as the 1947 National Security Act was in 
structuring the government for the Cold War. It's not a magic 
solution and there's still going to be work to be done, but I 
do think it's very clear that we need--having a single official 
who has that responsibility doesn't mean that they will work by 
themselves, but will focus a great deal of effort in sorting 
intelligence.
    Chairman Graham. Thank you, Senator DeWine. Senator Lugar.
    Senator Lugar. Thank you, Mr. Chairman. During all the 
committee's analyses of what occurred prior to 9/11, we have 
come back time and again to two thoughts: we possess vast 
powers of collection out there and hopefully we will do better 
with analysis.
    I am hopeful that in the course of all of our discussion we 
can parse this large input-output mismatch. I'm impressed with 
how much somebody has listened to or heard somewhere and how 
difficult it is to translate this for the policymaker. How does 
the analyst determine ``relevance''?
    The second thought is even if we do excel at collection, 
this information has to be translated. The language skills that 
are required to deal with this hand-off from the collector 
simply are not there. A crash program has to occur. In other 
words, even if we collect the nuggets, can we get it in a 
language the analysts can understand?
    What fascinates me about our witnesses' testimony today is 
their concern that the desire for analytical consensus may lead 
to the policymaker receiving the lowest common denominator, one 
devoid of dissent. We don't want to confuse the President or 
the Secretary of State or Defense with conflicting advice, but 
having several different policy choices weighed by the 
policymaker is imperative.
    Lastly, let me query Secretary Wolfowitz and Mr. Armitage 
on the issue of ``intelligence accountability.'' Somebody has 
to be in charge of intelligence, someone has to be 
``accountable.''
    Mr. Armitage. There is something seriously out of sync when 
you have policymakers, and even good friends like Paul and I, 
who can disagree almost violently without being disagreeable I 
think on policy issues as we discuss them; and yet it doesn't 
seem to be the case in the Intelligence Committee that that 
kind of disagreement is allowed to flourish. The meetings in 
front of the President--it's not a secret that he welcomes 
different views; he requires them to make the right decision.
    I can't give you any satisfaction on the other question of 
the interconnectivity of our information and all of that. We're 
dealing with a Department of State that, thanks to the goodness 
of Congress for the last 2 years, is finally coming into the 
1980s. We almost have all of our posts wired for e-mail, not to 
mention secure.
    Senator Lugar. The technical revolution in the field----
    Mr. Wolfowitz. Senator, I think one of the real lessons--
and it's not with respect to terrorism--is we now have 
technological capacities that allow us to have a pull system 
for intelligence rather than a push.
    Let me give you an example. When it comes to satellite 
photography, our traditional way of doing it is the photo 
interpreters at a central location pore over it and figure out 
what's really good and they distribute to a user. We now have 
the capacity to distribute stuff that a user out in the field 
who may not be the world's best photo interpreter, but he knows 
that it's the guy shooting at him from over the hill that he 
needs a photograph of, can pull it out, and the data, can 
distribute it. And we need more of that. And that, by the way, 
is the opposite of this tendency which is every problem is 
going to be solved by centralizing. I think on the whole, we 
get huge advantages from more decentralization.
    The other point is, I hope the people understand no matter 
how good our intelligence gets, and obviously it can be 
improved and obviously we can identify things that could have 
been done better, it will never be good enough that we can 
simply wait and head off every attack when it's imminent. We 
have to act preventively. And that isn't only by military means 
or even only by intelligence means. But we can no longer say 
that it is somehow acceptable--maybe acceptable was never quite 
the right word, but countries sponsor terrorism and we put them 
on the terrorism list and we don't sell them Boeing aircraft, 
and that's good enough. I think we have seen on September 11 a 
glimpse of how terrible the world will be when those 
capabilities are magnified by weapons of mass destruction. And 
I think what we came to live with over the last 20 years, we 
can't live with anymore. And no matter how good our 
intelligence is, we will not be able to live with it.
    Chairman Graham. Thank you, Senator Lugar. Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman. I am going to 
cover three things that I don't believe have been covered. 
First of all, and I think it's appropriate even though it is 
not within the scope specifically of what we're supposed to be 
talking about here, but what Senator Lugar said about the 
abilities, the ability that we have. I don't think we can 
isolate and leave out of this discussion what is happening to 
our military capability. We have seen several articles 
recently, and one as recent as Monday in the Wall Street 
Journal, in terms of the attention that we are paying to the 
defense of this country; that throughout the 20th century, we 
have spent on average about 5.7 percent of our gross domestic 
product on defense during peacetime; during wartime, 13.3 
percent on defense. It has been, prior to this last budget, 
under 3 percent of our gross domestic product. I think this is 
a very critical thing, and I believe that it was in one of the 
early hearings that we had in this administration, Secretary 
Rumsfeld said we are going to have to face it and get it up to 
or exceed 4 percent of our gross domestic product. I would like 
each one of you to respond to that.
    Mr. Wolfowitz. You are not going to get a strong argument 
from me. We are getting substantial increases in resources, 
thanks to the budget increases that the President approved 
actually prior to September 11.
    Senator Inhofe. Except the current budget is only at 3.1 
percent.
    Mr. Wolfowitz. I think the other point I would make, 
Senator, is we need to make truly efficient use of what we 
have, and it's similarly not a matter--though it's not a 
trivial matter to make good use of the taxpayers' dollars--but 
I think sometimes we find that we need structures that are 
quicker and more agile and communicate with one another better, 
and sometimes that is a smaller, leaner structure rather than a 
bigger one.
    Senator Inhofe. Let me get to the point. There seems to be 
an attitude here, or several public statements have been made 
that talk about this administration and the mess that we got.
    I was thinking about the two skeletons in the closet. One 
rattled to the other one, how did you get in here? The other 
one said, if we had any guts we'd get out.
    Well, I think we have an administration now that has the 
guts to get out. I'm a little disturbed, though. The first 
thing that happened in the past administration--take the energy 
labs, for example, they did away with color-coded ID badges. 
They did away with background checks and reinstated some people 
that had already been shown to have leaks. And I remember going 
through what I call the hand-wringing phase of Usama bin Ladin, 
starting with the World Trade Centers, and actually taking 
credit for the first Yemen threat that was out there; Somalia, 
and then Tanzania and then Yemen.
    All this happened, and then you guys came in office. I 
think you said, Secretary Armitage, that by the time you got 
your national security team in place and were able to do 
something--your first meeting was in March?
    Mr. Armitage. April.
    Senator Inhofe. In April. And then this comes along just a 
few months later. And I would just ask you for a real brief 
answer as to what do you think you had to do in terms of 
getting a real handle on all the access to the information that 
was there and getting it properly interpreted to your 
satisfaction?
    Mr. Armitage. I'm not sure how to satisfactorily answer 
that, Senator Inhofe. I know that within a month, we felt we 
had enough information that we had to aggressively go after al-
Qa'ida. And that was within a month. We learned a lot more as 
we moved on down the path. But that was a decision April 30. I 
had been in office 5 weeks, and Paul about 7.
    Senator Inhofe. I think in your testimony, Secretary 
Wolfowitz, the key paragraph: The President has made it clear 
we will not wait until it's too late and that the one option we 
don't have is doing nothing. We cannot afford to wait until we 
have a smoking gun, for a gun smokes after it's been fired.
    I see the hand-wringing now coming from this side of the 
table as opposed to the administration, quite frankly, because 
when we talk about all the things that have to be done and all 
the things that have to be in place, I am hoping that you do 
realize and the whole country needs to realize that you have 
the authority in the event that the President sees imminent 
danger to an American city to go ahead and take the necessary 
action. That doesn't require a response.
    Lastly, my predecessor, David Boren, was the Chairman of 
the Senate Select Intelligence Committee. He and I talked in 
1994, when I took his place and he became President of Oklahoma 
University, about the problems that we have in our Intelligence 
Community talking to each other, NSA, and it's kind of a turf 
battle going on.
    In terms of the Under Secretary of Intelligence--which I 
strongly support--recognizing this doesn't take all of the 
Intelligence Community into effect, only the DOD portion of it, 
do you think this is going to go a long ways into ending the 
turf battle in the intelligence system?
    Mr. Wolfowitz. I hopes it goes a long way toward dealing 
with turf battles in that large chunk of the intelligence 
system that is in the Department of Defense. Yes, there are 
turf battles and there are legitimate reasons why one agency is 
concerned about overly wide dissemination of information. And 
these problems don't arise just because people are defending 
turf. But I think within that large area that is under the 
Secretary of Defense's purview, I think this will go a long 
way. It's not a magic cure. There is no single magic cure, but 
it will be a major step forward. I thank you for supporting it.
    Mr. Armitage. May I take advantage of your initial 
question? Any support for the defense budget is welcome, and I 
think it should be welcomed by every citizen. And I will make 
the point that the Department of State's budget is one-tenth of 
1 percent.
    Senator Inhofe. I only mention that because I chaired the 
Senate Armed Services Committee on Readiness. And we are at the 
point now when you look at readiness, modernization, all these 
things we have to do, there's no longer one area that you can 
rob money of, and we're still going to have to do something 
about the bottom line.
    Chairman Graham. Thank you, Senator Inhofe. Senator 
Feinstein.
    Senator Feinstein. Thank you, Mr. Chairman. And, gentlemen, 
welcome and thank you.
    What has come through to me so far is that although George 
Tenet declared war, either no one heard that declaration or not 
many people heeded it. And although the Intelligence Community 
warned that al-Qa'ida sought to attack the United States and 
was capable of inflicting mass casualties, insufficient 
attention was devoted to the risk of an attack at home. Gaps in 
intelligence coverage were not filled. Defending the homeland 
should have been the number one priority. But instead, 
attention was really focused on attacks overseas and no real 
effort was made to harden the homeland to reduce the chances of 
attack.
    Did the Intelligence Community--and I recognize that 
there's a shift of administrations, and I recognize the time it 
takes to get up and running, and I'm not intending to ask these 
questions purporting any blame whatsoever--but did the 
Intelligence Community clearly warn you that al-Qa'ida was 
capable of and sought to carry out a mass casualty attack on 
the United States?
    Mr. Armitage. Senator, thank you. I recall being told by 
the Intelligence Community about the efforts of al-Qa'ida to 
develop chemical, bio, and radiological weapons. I do not 
recall and I'm sure I didn't get any information that said they 
had this capability. They were intent on developing; I remember 
that.
    Mr. Wolfowitz. I don't recall any warning of the 
possibility of a mass casualty attack using civilian airliners 
or any information that would have led us to contemplate the 
possibility of our shooting down a civilian airliner. I do 
recall a lot of information suggesting the danger of a mass 
casualty attack from chemical, biological, nuclear weapons.
    And I disagree with the statement that nothing was done to 
protect the homeland. We put a major focus on what needed to be 
done to deal with particularly those mass casualty 
contingencies. We included a number of measures in our '02 
budget proposal. And as I said earlier, when we did the 
Quadrennial Defense Review some considerable time before 
September 11, we identified homeland defense as the number one 
priority for the Defense Department for its transformation 
efforts.
    Senator Feinstein. Thank you, and that's certainly correct. 
Since you mentioned Iraq and you mentioned it in your written 
statement as well, what do you see as the connection between 
al-Qa'ida and Iraq? And have you received any information which 
is specific enough to let you be convinced that there was a 
meeting between Mohamed Atta and Iraqi intelligence in Prague 
or anywhere else?
    Mr. Wolfowitz. This gets into a lot of classified areas.
    Senator Feinstein. I am not asking you for the information.
    Mr. Wolfowitz. One can't get into it without getting into 
the information. One of the things we've said earlier, these 
are not issues where there is a categorical that is the case or 
this is the case. Almost everything we know, or certainly 
everything we think didn't happen, has some uncertainty 
attached to it.
    But the point I was trying to make, the point that the 
Secretary of Defense is trying to make, is about more than just 
one country. It's about the fact that there are people out 
there, a number of them, with horrible capabilities and with 
hostile intentions. And if we insist on waiting until we have 
the kind of precise intelligence that allows us to say there is 
an imminent threat, we will wait too long.
    When one thinks about September 11 and the kinds of actions 
that might or might not have been taken in a war against al-
Qa'ida, it is worth remembering that the September 11 plot was 
clearly put into motion as early as the beginning of the year 
2000; that the entire group of hijackers was in this country by 
the spring of last year. And if we had succeeded in closing one 
door to them, they might have well examined others.
    We know that Mohamed Atta, for example, was investigating 
the possibility of crop dusters, presumably to distribute 
biological weapons. So we can't defeat terrorism by defense, by 
closing every door we can find. We are only going to defeat 
terrorism when we put these organizations out of business.
    Chairman Graham. Thank you, Senator. Senator Kyl.
    Senator Kyl. Thank you, Mr. Chairman. I just want to begin. 
I have been reading this August Time magazine piece that tells 
all with absolute accuracy, I am sure. And by way of 
introducing our two panelists today, they come out very well as 
enthusiastic supporters of doing something about terrorism: 
``Richard Armitage, the barrel-chested deputy Secretary of 
State. Paul Wolfowitz, the scholarly hawk from the Pentagon.''
    Mr. Wolfowitz. I resent that comment.
    Senator Kyl. You should be very pleased with it in the 
context of the article, which says there were those who weren't 
quite as anxious to move forward on terrorism and that you all 
were very enthusiastic.
    Chairman Graham. And I will also note that Mr. Armitage did 
not reject his description of barrel-chested.
    Mr. Wolfowitz. They didn't describe which part of mine.
    Senator Kyl. In your testimony, Secretary Wolfowitz, you 
talk about your service on the Rumsfeld Commission and the 
issuance of the report back in 1998. And I just wanted to 
quote, because this was not quoted during your oral 
presentation. You talk about your service on that Commission 
and the fact that because of the significant need for good 
intelligence, Congress subsequently requested an intelligence 
side letter to the report, which was provided. And then I quote 
partially from your testimony here: First, according to the 
side letter, it was evident to all commissioners that resources 
for intelligence had been cut too deeply and that the United 
States was entering a period in which the Intelligence 
Community was going to be seriously challenged to meet its 
foremost task--preventing surprise.
    You go on to say that U.S. intelligence capabilities needed 
to succeed in this task, the letter concluded, were not as 
robust as they needed to be.
    And to go on to conclude the letter: Methodological 
approach, analytical depth, and presentation to users of the 
Intelligence Community was in a degraded situation. And then 
your testimony notes that, partly as a result of this, Congress 
responded with a significant increase in funding for 
intelligence in the fiscal '99 budget but--and I quote your 
testimony--despite the best efforts of this committee, however, 
the increases were not sustained in fiscal years 2000 or 2001.
    And then you conclude by noting, literally at the time of 
the attacks last September, the Department was preparing a 
significant increase for intelligence in the FY 2003 budget. 
And you noted immediately after the attacks it was doubled.
    So I take your point and have been urging for some time 
that we focus on the resources part of the problem, that many 
of the deficiencies that people have been able to point to here 
can be traced back to a requirement that we compromise some 
intelligence because of inadequate resources.
    And my first question to you is, without citing any 
specifics--unless you would like to and can in an open 
session--are you aware generally of situations when 
intelligence compromises had to be made because of inadequate 
resources?
    Mr. Wolfowitz. Yes, generally, but I am not aware of ones 
that I would directly connect to the September 11 events.
    Senator Kyl. Does it make sense to fix the intelligence 
budget as a specific arbitrary percentage of the defense 
budget, given especially the kinds of things you have been 
trying to do in terms of transition and the increasing 
requirements for good intelligence as a component of the new 
kind of war that we fight?
    Mr. Wolfowitz. I don't think so. I'm reluctant to have 
arbitrary targets, although it's maybe good to keep them in 
mind as a benchmark to ask yourself the question. To give you 
an example of how I think it needs to be done, we went through 
a major exercise last fall in putting the budget together and 
looking at transformational technologies that hadn't made it 
into the service budgets. And a lot of those were in the 
intelligence area. And then we sat down, program by program, 
with Director Tenet and with his people and decided where there 
were overlaps and redundancies or where there were gaps that 
needed to be filled. I don't think there's any substitute for 
doing the detailed work. We did it, and we need to continue to 
do.
    Senator Kyl. I want to give Secretary Armitage an 
opportunity to talk about the need for enhancements in budget 
with respect to the State Department's significant 
responsibilities specifically with regard to terrorists coming 
into the country, the visa programs, the new requirements that 
I think we have properly placed with the State Department in 
the border security bill.
    Mr. Wolfowitz. I support him.
    Mr. Armitage. The first 2 years, I must say the Congress in 
relative terms has been generous to us; the requirements of the 
PATRIOT Act, further in the homeland security bill, which we 
gladly accept, will definitely require more consular affairs 
officers, more training in consular affairs, which is exactly 
what you all want. This does not mean, however, that even in 
the State budget, that other than for planning purposes I would 
welcome a fixed percentage of the GNP devoted to the State 
budget, because it's what you what do with the money that is so 
much more important than some arbitrary number. But for 
planning purposes, having a general range would be very 
helpful, I think, for guys who have to make budget decisions.
    Chairman Graham. Thank you, Mr. Secretary. Thank you, 
Senator Kyl. Senator Hatch.
    Senator Hatch. I want to welcome both of you here, and we 
appreciate the service both of you have given through all these 
years to our country. It has been an extraordinary service, and 
of course I'm aware of a lot of it and personally have high 
regard for both of you.
    Dr. Wolfowitz, to your knowledge, did the Defense 
Department ever do any kind of after-action study of the 
lessons learned following the USS Cole incident? And let me 
just add one other question. Did it ever attempt to inform 
intelligence collection or analysis in ways designed to prevent 
future such attacks?
    Mr. Wolfowitz. There was a very careful after-action study 
on the Cole incident. I believe it was done at the request of 
the House Armed Services Committee. And understandably--maybe 
not understandably, but I think understandably--it focused very 
heavily on force protection deficiencies and what we needed to 
do to close that particular door in the future. And we are 
pretty good at closing the barn door after that particular 
horse is out. And at the risk of repeating myself, I think the 
message there is we are not going to win this game on defense. 
We've got to go to offense and we are on offense now.
    Senator Hatch. For both of you, in February 2001 the 
Director of Central Intelligence testified before the Senate 
Intelligence Committee that he believed al-Qa'ida was the most 
immediate threat faced by the United States. And before 
September 11, did anybody in your respective departments 
receive periodic reports from the Intelligence Committee on al-
Qa'ida and the threat that it posed?
    Mr. Armitage. Yes, absolutely. In the State Department, we 
had mostly a weekly update on al-Qa'ida.
    Senator Hatch. Were you aware that despite what the DCI 
said about al-Qa'ida being our number-one threat, the CIA's 
Counterterrorist Center had only five persons working full time 
on intelligence analysis related to Usama bin Ladin and the FBI 
only had one?
    Mr. Armitage. No, I was not.
    Senator Hatch. Would you have less confidence in the 
strength of the products you were getting if you had known how 
little effort the Intelligence Community had devoted to 
analytical work on this type of a product?
    Mr. Armitage. We had our own analysts looking at it and 
sometimes they came to slightly different opinions on this or 
that. And I had a fair amount of confidence that between the 
two, I was getting it right. I had no idea of the numbers 
involved in the Agency.
    Senator Hatch. Just one more question. Mr. Wolfowitz, would 
you care to comment?
    Mr. Wolfowitz. I would give you the same answers.
    Senator Hatch. When you arrived at the Defense Department 
in this new administration, were you briefed on any serious 
contingency planning for using military personnel in the fight 
against terrorism?
    Mr. Wolfowitz. We certainly talked about contingency 
planning for the use of the military in dealing with a mass 
casualty event in the United States. But one of our 
observations was that contingency planning was in the very most 
primitive stages, and it's one of the considerations that led 
us to saying in the Quadrennial Defense Review that this had to 
be the number-one priority for DOD transformation.
    Senator Hatch. At the time you arrived at the Defense 
Department, what degree of effort and resources did the 
Department of Defense devote to fighting terrorism as distinct 
from force protection measures?
    Mr. Wolfowitz. I'm not sure I can make that distinction 
very well. We were spending billions of dollars on force 
protection. I guess to say what we were spending on the 
offensive piece, that would mostly be in--there really is an 
accounting problem here. There would be a lot in the 
intelligence world, and then the question would be how do you 
count the various capabilities that we were developing that we 
later used in Afghanistan. We were not actively using our 
military against terrorism at that particular stage, but we 
obviously were developing capabilities that proved to be 
crucial.
    Senator Hatch. One last question to either or both of you: 
Does the FBI currently have the freedom necessary to penetrate 
radical cells within our country? And we know there are radical 
cells in our country.
    Mr. Wolfowitz. Don't know the answer to that.
    Mr. Armitage. Don't know the answer to that.
    Chairman Graham. Thank you, Senator Hatch. Senator Levin.
    Senator Levin. Thank you, Mr. Chairman. Let me add my 
welcome to our witnesses.
    Let me ask both of you: In August of 1998 in the aftermath 
of the east African embassy bombings, the United States 
launched cruise missiles at al-Qa'ida targets in Afghanistan. 
Is it your understanding that bin Ladin was an intended target 
of that attack? Let me start with you, Mr. Wolfowitz.
    Mr. Wolfowitz. I don't know what the intentions were at 
that time, Senator. I have read that he was, but that it was 
considered avaluable target, whether or not he was there.
    Mr. Armitage. I agree.
    Senator Levin. Were we not, in any event, after that attack 
in effect at war with bin Ladin and al-Qa'ida at that point 3 
years ago?
    Mr. Wolfowitz. I would say, Senator Levin, that we probably 
were at war with al-Qa'ida in February of that year when bin 
Ladin issued his famous fatwa declaring war on us in effect, or 
possibly earlier. I mean, one of the basic problems we have 
here is we're not dealing with a traditional enemy where there 
is a clear transition from being at peace to being at war, but 
surely that fatwa was something that was pretty chilling.
    Senator Levin. Let me ask you about intelligence reporting 
by the FBI that you received and as to whether or not the 
reporting from the FBI on the threat of foreign terrorism has 
changed since September 11. Mr. Armitage, why don't I start 
with you?
    Mr. Armitage. From our point of view at State, it has. And 
the FBI is a very active participant in the secure video 
teleconference we have twice at least twice a week simply in 
the counterterrorism arena. I asked the very question to our 
fellows this morning, and that's the answer I got.
    Senator Levin. That was not the case before September 11?
    Mr. Armitage. No, I believe it was not the case, and 
general sharing of information from law enforcement agencies 
was a real shortfall.
    Senator Levin. Mr. Wolfowitz.
    Mr. Wolfowitz. I think there has definitely been a change 
since September 11. I think there are still big issues that 
people wrestle with about civil liberties considerations 
involved in sharing information that may directly be related to 
a prosecution. And I think there are concerns that the FBI has, 
like every other agency, that if they share information with 
someone else it might get compromised. So there are still 
issues there and there's no magic solution, but there's 
definitely a change since September 11.
    Senator Levin. Be specific. What changes have occurred 
since September 11?
    Mr. Wolfowitz. I measure it in terms of the quantity of 
information that I get.
    Senator Levin. How would you measure, twice as much, four 
times?
    Mr. Wolfowitz. Enormously more. Threat reporting every 
morning. And by the way, it isn't always clear when something 
has come from the FBI or from another intelligence source, but 
I'm making guesses that a lot of this is coming from FBI 
investigations.
    Senator Levin. And you are looking at the quantity of 
reporting every morning on threats?
    Mr. Wolfowitz. Basically, yes.
    Senator Levin. Was that reporting available every morning 
prior to 9/11 but there wasn't as much each morning, or it was 
sporadic as to whether it was every morning or not?
    Mr. Wolfowitz. I think it's two things. I don't think there 
was nearly as much. I mean, remember all of these people that 
the FBI has detained and interrogated around the world, 
including this country, has produced a huge volume of 
information we didn't have before, but I also think there is a 
much greater willingness to share what they have.
    Senator Levin. Yesterday the joint inquiry staff reported 
that a closely held intelligence report was prepared in August 
of 2001 for senior government officials and that it included 
information that bin Ladin had wanted to conduct attacks in the 
United States since 1997, as well as information acquired in 
May of 2001 that indicated that a group of bin Ladin supporters 
was planning attacks in the United States with explosives.
    Can you tell me who within the administration received that 
report and what action was taken in response, if any, to the 
warnings in that specific intelligence report of August 2001 
for senior government officials?
    Mr. Armitage, let me start with you.
    Mr. Armitage. I recall that general topic in the SEIB, the 
Senior Executive Intelligence Brief--I can't tell you who got 
it. I know I got that one. I think a day or two after, some 
other people saw it, but I saw that, and it talked about a 
hijacking possibility.
    Mr. Wolfowitz. I have to confess, I wasn't aware of it 
until I read about it much later. Maybe that is because it came 
in August, and I think during a time when I was on leave. I 
think that we were generally aware of the fact that al-Qa'ida 
attacks could take place in the United States as well as 
abroad, and put a lot of emphasis on heightened force 
protection levels in July of last year when we got an 
exceptionally large volume of threat reporting. We went on a 
worldwide alert, including in our facilities here in the United 
States.
    Senator Levin. For the record, would you let these 
committees know who in the Defense Department then, if anyone, 
received that August 2001 intelligence report that I have 
referred to?
    Mr. Wolfowitz. I will try to check for the record.
    [See Department of Defense responses to questions for the 
record.]
    Chairman Graham. Thank you, Senator Levin.
    Congressman Boswell, a designated questioner, has now 
returned.
    Mr. Boswell. I have returned. Thank you, Mr. Chairman. And 
thank you and Chairman Goss for your hard work in trying to 
bring this to resolve.
    I would like to address our two Secretaries just a moment 
before I ask questions.
    Mr. Armitage, you and I have a little history together. I 
suppose you probably know where that was, in Southeast Asia in 
the Vietnam situation. I might make a reference to that in a 
moment. But I appreciate the fact that you said some things 
didn't happen, as we refer to what is going on, this talk 
today. And I refer to them as prevents that we can't talk about 
that have happened, and I appreciated that, but I think that we 
owe it to these families from yesterday. It was a soul-
searching day yesterday as we talked to them, and I would guess 
if you would have been sitting up here, you would have felt no 
different than we did.
    But they need assurances from us that we learned whatever 
lessons we are learning, and that we don't have to learn them 
again, and I hope that we will remember that and try to keep 
that information flowing to them, because it is terribly 
important in their grief, and we wouldn't feel any different--
we don't feel any different.
    I am going to go over to, I think, Mr. Wolfowitz just for a 
minute. We need to know what is new. You may not be able to 
tell us today, but you made a comment that we have known for 
some time aboutthe chemical and biological possibilities of 
mass destruction, and somewhere, someplace, we need to know what the 
situation is with the nukes, how close they are. And I hope that is in 
mind, which leads me to some of your opening comments that caused me to 
think about that.
    And, Secretary Armitage, yourself, again I thank you for 
your years in uniform, now your service now, both of you, in 
fact. But you and I, and, of course, others right here at this 
table, we went to Vietnam, and we didn't have the people behind 
us, and we know that. And we left there under less than 
favorable conditions, kind of had our tail between our legs. 
The worst part of it was that 56,000 body bags that came back. 
I don't know about you, but I helped put some of my comrades in 
those bags, and I will never forget that; you wouldn't expect 
me to, and I am sure you don't either.
    So I want to know when we get to the point where you can 
share with us, maybe not today, to give information that will 
cause the American people to be with us if and when we should 
go to Iraq. And I think it is terribly important because of 
that history that I have just referred to, so I hope that that 
will be shared.
    And I would also like to know from your opinion of that 
time, and we have allowed our Chairs to get you with us, what 
do we do next? The day after we take Mr. Saddam Hussein out, 
then what happens next?
    So I guess I wanted to lead off with that and now I would 
like to go to some questions. I appreciate you being here. I 
know since I am the last one to ask the lengthy set of 
questions, a lot has been already asked, so I hope that I don't 
do things redundantly at anybody's expense because of absence 
and so on.
    But, Secretary Armitage, in your written testimony, you 
note that in the summer of 2001 the U.S. Government demanded 
formally of the Taliban that they cease support of terrorism, 
and that we will hold them responsible for attacks committed by 
terrorists that they harbored. Can you elaborate on that? Can 
you describe how this message was received? Was there a 
reiteration of previous warnings to the Taliban of a 
significant ratcheting up of the stakes? Can you address that? 
Have we learned anything from this about the tools at the State 
Department's disposal to prevent states from harboring 
terrorists?
    Mr. Armitage. Yes, sir. We, in June, late June of 2001, had 
our ambassador in Islamabad talk to the representatives of the 
Taliban in Pakistan. We also demarched the government of 
Pakistan, who was supporting the Taliban at that time. We made 
it clear that should any harm come to any Americans, they, too, 
bore responsibility.
    In the intelligence reporting after that, for a short while 
we saw that some in the Taliban leadership were trying to put a 
little distance between themselves and the people that they 
referred to as the Arabs, which we know are, of course, the al-
Qa'ida, foreigners who were in Afghanistan. However, as that 
discussion internal to the Taliban continued, Mullah Omar 
finally overruled it, I believe because of greed, the money 
that he was getting from bin Ladin, and it had ultimately 
little effect.
    Mr. Boswell. In your written statement you discuss State's 
information-sharing mechanisms with the FBI and local law 
enforcement still not where they need to be.
    And our embassies bear a responsibility as hosts for a 
number of agency representatives, such as the FBI and legal 
attaches and so on. How well is this system interaction with 
the FBI and law enforcement working now, a year later after the 
attacks?
    Mr. Armitage. Well, the short answer is it is working much 
better, but I don't think it is sufficient to the problem. I 
don't think our own capabilities from our embassy, in terms of 
communication and interconnectivity, are sufficient to the 
problem at all.
    Mr. Boswell. Well, sharing of information will always be 
under scrutiny, and I appreciate what both of you have said, I 
think, in terms of the sensitivity and putting people in 
danger. If it is in the wrong hands, so on, we will always have 
to deal with that in a democracy. Of course we will. It is very 
sensitive. We have to go back and deal with approximately 
600,000 people that we are here to represent, something close 
to that number.
    And it is my opinion, from spending a lot of time with 
local law enforcement and the State equal of FEMA and so on, 
and those that will be on the front line in this kind of a war, 
that they really need and deserve the best communication we can 
get to them, and so anything that we can do to work with you on 
that, we have got to do the best we can. I trust you understand 
that, and I would like for you to allude a little more how we 
can get there, that is not in a classified sense, so if they 
are watching, or if we go home, the rest of us, we can tell 
them about it, that we are engaged in this, and it is our 
intent to be sure that they are in the information scheme of 
things so they can do what we are going to expect of them as we 
continue this battle with terrorism.
    Mr. Armitage. First of all, you are talking to the son of a 
cop, so you are not going to get anything but cheerleading from 
me on that statement. But I think my father, as I recall, would 
have been astonished to find that he was on the front line of a 
national battle. He thought it was all he could do to get 
through the day on the street. But that is sort of the mindset 
that has to be changed immediately.
    Further to that, there are new--we have got new folks in 
our Intelligence Community, the TSA. Customs has become so much 
more important. We have got to be able to more integrate them 
with this, and so over time it becomes a seamless flow of 
information.
    Now, no witness is going to sit in front of you, sir, and 
tell you that that is the case now. It is not credible. But 
that is the direction we are going in, and it takes a mind 
change not just from the national level, but at the level of 
mayors, and Governors, et cetera.
    Mr. Boswell. They are very keen on this. I know you know 
that from what you have just said. They are very keen on this. 
I appreciate your reassurance that you are tuned in to it, but 
I can tell you from firsthand contact, which happens almost on 
a daily basis, that they are very, very concerned that we don't 
expect them to have responsibilities that they are not at least 
informed about, and they need that information. So we have got 
to keep that in front of us and continue to expand on it.
    Let me shift a little bit. Secretary Wolfowitz, what can 
you share with us? What should the American people know about 
the toll, the cost this global war on terrorism will take on 
the Department of Defense. And how big a threat is this--your 
thoughts on how long it would last? How much effort do we need 
to deal with it? And what do you see as the gaps between the 
counterterrorism capabilities that we have and the 
counterterrorism capabilities that we need? And can we do a war 
on terrorism and a war on Iraq at the same time? What 
comments--can you give us some reassurance?
    Mr. Wolfowitz. You covered a lot of ground there.
    Mr. Boswell. I will go back.
    Mr. Wolfowitz. I think the answer is we have had 
substantial increases in resources, for which we appreciate the 
support of the Congress. I think it has made a huge difference. 
There are strains in certain areas, particularly in the call-up 
of Reserves. I think most people who signed up for the Reserves 
some years ago probably didn't anticipate the length or the 
level of demands that this new homeland security mission would 
place on people. But I think the force has responded 
magnificently so far. I believe it has a great capability to 
sustain what is probably going to be a long war.
    You asked how long. I don't think we know how long, and, as 
we get a better idea of how long it will be, we will have to 
assess at each stage what kinds of resource that we need. But I 
think that we have adequate resources now.
    I believe, as Secretary Rumsfeld has testified, it is a 
mistake to separate this issue of Iraq as something separate 
from the war onterrorism. It is very much part of the war on 
terrorism. And I think we--depending on what the President asks us to 
do, we have a very wide range of options that we can sustain, I think, 
with the military capabilities that we have today.
    But we certainly are anticipating getting the full level of 
increases that are planned over the course of the 5-year 
defense program that we gave to the Congress last year. We have 
got to be on a steady, but not overwhelming, upward curve.
    Mr. Boswell. Well, I guess a point I am trying to make is 
if we are going to have a war on terrorism and the potential of 
this war with Iraq, which is certainly getting lots of 
attention, can we afford it, and can we take care of the 
homeland in the process? This is something that people are 
sharing with us as we travel back to our districts.
    And I think that is a fair question, you know, picking up 
the tab, taking care of homeland, ensuring that Europeans, the 
region and whatever, as we go back to probably classified 
things at some point, are picking up their share of the tab.
    And so I think there are folks--the American people are 
getting behind all of this. We are going to have to communicate 
better than we are so far, and some of that responsibility lies 
on us, but for a lot we have to rely on you, because I have 
often said, because of being on this committee, I kind of know 
what some of the threats are, but I don't know what is going on 
with the Secretary of State, as you folks travel and do all 
things. You can't keep us totally informed on that. I 
understand that. Maybe you are accomplishing some great things 
that we don't know about, and at some place and point you can 
tell us about it. When you can, we need to know, because--again 
going back to my opening statement--the American people have 
got to be with us, and there is a lot of doubt out there.
    And they are reminded of the 56,000 body bags. They bring 
it up to me once in a while because I am a Vietnam veteran, as 
are you.
    Mr. Armitage. May I make a comment? Paul probably wants to 
comment, too. I am not contradicting what you said. You are 
right. One of the questions that we and you particularly with 
your responsibilities have to ask is whether we can continue 
the global war on terrorism and if the--depending on what the 
President decides, how to handle Iraq and to take care of 
homeland security. That is one of the questions.
    One of the other questions that I hope constituents are 
also asking or at least being asked to think about is can we 
afford not to act?
    As Paul and I have been discussing last night and this 
morning, in this very hearing, and we were thinking to 
ourselves, if a terrible event happened from Iraq, what kind of 
hearing would we be having if we hadn't done something? That is 
a fair question. That is one that we have to--you are 
suggesting we should do a better job communicating. Fair 
enough. But I think it is also fair to have this discussion 
with the American public along the lines of what is the cost of 
no action? And we happen to feel it is considerable.
    Mr. Wolfowitz. Congressman Boswell, one thing that hasn't 
gotten communicated sufficiently in public, and that is the way 
in which this war is a global war, and that is the reason why 
separating out the issue of Iraq as not part of the war on 
terrorism is a mistake.
    Let me give you a couple of examples. We have uncovered a 
whole network of al-Qa'ida terrorists in Southeast Asia. We 
would never have gotten at those people if it hadn't been for 
the action in Afghanistan, which unveiled some capabilities 
that were going on in Singapore.
    The success in Afghanistan drove several people, including 
the man we arrested, detained a couple of months ago, Abu 
Zubaydah, and probably now this guy we got just very recently, 
Ramzi Binalshibh, into Pakistan where we were capable, with 
Pakistani authorities, to wrap these guys up. And finally, I 
mean, among the many interactions here, the fact that the 
Taliban supported terrorists and are now no more is a lesson to 
every other government around the world that used to support 
terrorists and now begins to think whether it has to change its 
policies.
    So it is really a mistake to think that there is one 
struggle with just terrorists and this issue of Iraq is 
something completely separate. They really are part of a piece. 
Finally----
    Mr. Boswell. Let me just interface with you a little bit. 
That is a point I have been trying to make, as in my opening 
statement. We understand that. And this guy is a terrorist, and 
he can provide a lot of resources, but we have got to be able 
to protect the homeland. I appreciate what you are saying. So 
continue, please.
    Mr. Wolfowitz. We are protecting the homeland in every way 
that we can, but, as I said, we can only get so far playing 
defense. So we are going to do everything we can defensively 
here, and undoubtedly they will come up with some surprises we 
haven't thought of, but our real effort is to get them out of 
business.
    Mr. Boswell. Then we have got to make the case. That is, we 
are not there. We have got to make the case. We are relying on 
you to come to us and make the case. And I know you are doing 
some of that now, and I appreciate the presentation to the 
U.N., but the American people, we need to hear the case. And I 
think the support will be there, but we have got to make the 
case.
    Mr. Wolfowitz. Thank you.
    Mr. Boswell. Moving on. Our time is okay?
    Secretary Armitage, much of the success in the campaign 
against al-Qa'ida has been the result of significant 
assistance, and we have been touching on that, from foreign 
governments around the world.
    The administration has much to be proud of in working with 
the other countries. I compliment you on your efforts, you and 
the Secretary. We have asked them to take dangerous police 
actions. We have asked them to accept our troops on their 
territory and to provide us law enforcement, intelligence 
information to an unprecedented degree. But recently, however--
and I am concerned about it--we have become aware that some of 
our allies are unsettled about our policies and the way in 
which we are pursuing our interests. Some leaders are becoming 
more popular with the electorate as they distance themselves 
from U.S. policies. So how strong are our bonds?
    Elaborate. Talk to us about that, because I think that we 
have to have allies with us to make this acceptable to our 
people.
    Mr. Armitage. You are referring, I think, in the main to 
the German election to be held the 22nd of this month, and I 
think it is quite regrettable that there have been a number of 
both--to some extent a campaigning on an anti-American theme. I 
don't know how, as a general matter, to separate our 
preeminence in the world from jealousies, from being a target. 
I think we are going to be that as long as we enjoy this 
promise and preeminence in the world, and indeed American 
Presidents generally do stand up and stand for principle, and I 
think we are doing that.
    And most of our allies in this global war on terrorism have 
been quite good. Even in the case that you cite, I think you 
were citing, that--activities in Afghanistan alongside us do 
continue with German police and military.
    So to some extent it is a mixed picture. In other areas 
like in Pakistan, Uzbekistan, people are not only standing up, 
they are standing up at risk to their governance and to their 
lives. Witness the fact that President Musharraf's intelligence 
service thwarted a bombing attempt on him yesterday.
    So it is a mixed picture. I think it is a better picture 
than it is worse, but it is a daily struggle. We are going to 
keep at it.
    Mr. Boswell. Thank you.
    To both of you, the response to global terrorism threats, 
it is an interagency situation. Before 9/11 the National 
Security Council orchestrated and coordinated interagency 
responses to terrorism. After9/11 the national security 
interagency system has shifted in adding in particular a deputy 
national security advisor for combatting terrorism. So who reports to 
both Ms. Rice and Governor Ridge?
    Mr. Armitage. Right.
    Mr. Wolfowitz. Who is it?
    Mr. Boswell. Who reports to them?
    Mr. Armitage. It's now General John Gordon, sir. It was 
General Wayne Downing up until a month or two ago.
    Mr. Boswell. Give us some reassurance and elaboration on 
how the coordination, the sharing of information at the high 
level, at the administration level, is actually taking place.
    Mr. Armitage. Regarding General Gordon, he chairs the--the 
secure teleconference at least twice a week. During last week 
it was several times a day because of the fact that we had 
increased our threat alert. And I talk to John probably every 
other day, myself, on one issue or another. So I think, from my 
point of view, he is interacting pretty well, just as General 
Downing did.
    I would have to let Dr. Rice speak to how she feels about 
it, but I have every reason to believe that she is very 
satisfied with the way that he works.
    Mr. Wolfowitz. I would agree with that.
    Mr. Boswell. Okay.
    Chairman Graham. Well, good.
    Mr. Boswell. Is my time up? I am still in the yellow light.
    Chairman Graham. We have had a rule that you don't start a 
question in the yellow light.
    Mr. Boswell. They made a new rule on me.
    Mr. Chairman, I appreciate this opportunity and the time, 
and I appreciate the efforts. And I just want to leave this, my 
opening thought, if I could. It is that we have got to take 
this to the American people, and we don't want another Vietnam 
situation where we have got 56,000 body bags and we don't have 
the people with us. We have got to give reassurance where 
lessons learned to those families.
    And I thank you for your attention. I thank you for your 
time.
    Mr. Armitage. If I may, you are right, absolutely, but I 
didn't and I doubt that you left Vietnam with our tail between 
our legs.
    Mr. Boswell. No. I had my head high, but I didn't like the 
fact that----
    Mr. Armitage. I didn't like what happened either. I had my 
head high.
    Mr. Boswell. We did.
    Mr. Armitage. It is not your problem.
    Mr. Boswell. Our people were not with us. You know that.
    Chairman Graham. Thank you, Mr. Congressman.
    Senator Shelby.
    Vice Chairman Shelby. Mr. Chairman, first I want to 
apologize to both the Secretaries. I have been tied up in the 
Banking Committee all day. I told Secretary Wolfowitz earlier 
that I would have been here. I have been here most of the time.
    I want to just make a few observations--I am going to keep 
you here--because, one, Secretary Wolfowitz, I think this 
statement, I have reviewed it, is excellent. And lessons 
learned, that is very important. If we don't learn from the 
past, we will repeat them. We all know this.
    My observation is that both of you have brought a lot of 
leadership to the State Department and to the Secretary of 
Defense's office. You have outstanding Secretaries, Secretary 
Powell, Secretary Rumsfeld, people that are going to put the 
security of this Nation first, whatever comes.
    I had the opportunity when I chaired this committee to work 
with Secretary Rumsfeld when he headed up the Rumsfeld 
Commission that you served on, and I thought that Commission 
laid the groundwork for many things, including missile defense. 
But it also touched on intelligence, and if you look back in 
that report, we got something out of it.
    But I just want to thank you for your service, thank you 
for what you are doing, and I am sorry I was not here earlier 
for all of your testimony.
    But as far as the President is concerned, I know a lot of 
questions may have centered around the right. I think the 
President is on the right track. I know he is on the right 
track. I am going to support him. I believe that Congress is 
going to support the President overwhelmingly, and I think we 
should lead, not the U.N.; we should lead. And if the U.N. 
follows, well, that is good. If they don't fellow, they will 
become a debating society. Thank you, Mr. Chairman.
    Chairman Graham. Thank you, Senator Shelby.
    Congresswoman Pelosi.
    Ms. Pelosi. Thank you very much, Mr. Chairman. I was 
settling in getting ready for your distinguished Vice 
Chairman's 20 minutes of questioning, but pleased to be 
recognized.
    Vice Chairman Shelby. I will yield my time. Only this 
morning, though.
    Ms. Pelosi. Thank you.
    Thank you, Mr. Chairman.
    Welcome, Mr. Secretary. Thank you for your presentation 
this morning.
    My questions spring largely from some of your comments here 
today. Some of them I don't need answers to; I just want to 
make some observations, and then I do have a couple of 
questions.
    First of all, I was interested in your ``drain the swamp'' 
comment--that we, in order to fight terrorism, had to drain the 
swamp. And it was interesting to me, because the--this was said 
earlier--the Hamas and the Hizbollah are an important part of 
terrorism in the world, and as we know, there is significant 
support from Iran for terrorism.
    I wondered if that was the next swamp that we were planning 
to drain, if there were any other swamps that you might like to 
mention as well?
    Mr. Wolfowitz. I wasn't talking about anything specific. I 
am trying to make the point that we are not going to be able to 
have intelligence that is so perfect that we can find every 
snake in the place.
    Ms. Pelosi. I understand. But you related it to the Iraq 
situation.
    Mr. Wolfowitz. I think the point--and maybe you weren't 
here when I said it, I think it bears repeating. For roughly 
the last 20 years or maybe even longer, we viewed terrorism as 
an evil.
    Ms. Pelosi. Mr. Secretary, I understand. I only have 5 
minutes. I was here. I just missed the first couple of minutes 
of Mr. Boswell's. But my point is you were mentioning that in 
the context of Iraq. We have a responsibility to the American 
people to protect them. We all want to work together to do 
that. We all stand with the President on the war on terrorism. 
But that is the war that we are in, and I would not like to see 
us undertake any initiatives that would jeopardize the 
cooperation we have with the countries in the world in the war 
on terrorism that put our forces--in which force protection is 
one of our primary responsibilities in intelligence.
    So if we are talking about going after the al-Qa'ida and 
the support that we need to do that, my concern is that, and I 
didn't have any intention of talking about Iraq today. It is 
not the subject of this hearing. The subject of this hearing is 
rooting out terrorism.
    Now, you want to talk about it in a larger sense and relate 
it to a different initiative, but we are trying to figure out 
how we can improve our intelligence gathering so we can 
understand plans and intentions to protect the American people 
better and to assure the families of those who are affected 
that this won't happen again, the suffering they have 
experienced won't be experienced by others.
    So in terms of that, if we were to go into Iraq, do you 
feel confident that we have the intelligence capability, going 
into a different place to--as we are engaged in the war on 
terrorism to protect our troops when we go in there, if we were 
to go in there in a matter of weeks?
    Mr. Wolfowitz. I mean, we didn't come here to discuss that.
    Ms. Pelosi. I understand that. No. But you brought it up, 
and I specifically advised my colleague, this isn't about Iraq. 
But you spent your testimony quoting Secretary Rumsfeld's 
testimony from yesterday to another committee about Iraq when 
we are here to talk about how we best fight the war on 
terrorism in relationship to 9/11.
    I want to be respectful of you. I hope that you will extend 
my best wishes to the Secretary, as you will to Secretary 
Powell, and tell them that our invitation stands for them to 
come here and answer these questions as well.
    But let me be more specific, Mr. Secretary Wolfowitz. 
Again, going back to your comments, on page 3 of your 
testimony, you say, lessons learned from September 11, and the 
important point that you make is that you quoted Thomas 
Schelling's novel--I mean, the foreword to Roberta 
Wohlstetter's superb book, Pearl Harbor, and in it you quoted, 
this is in your statement, surprise, when it happens to a 
government, is likely to be complicated, diffuse, bureaucratic. 
It includes neglect of responsibility, but also responsibility 
so poorly defined or so ambiguously delegated that actions get 
lost.
    My question to you is when you used that quote, are you 
saying that this--September 11 happened because it included 
neglect of responsibility? If so, what? Responsibility so 
poorly defined? If so, what? And so ambiguously delegated that 
action gets lost? Could you address your own statement relating 
to this inquiry?
    Mr. Wolfowitz. I am not trying to say everything in that 
quote pertains to September 11. I think everything in that 
quote pertains to the problem of the future----
    Ms. Pelosi. I am just talking about what you quoted. I 
didn't say----
    Mr. Wolfowitz [continuing]. And how one avoids surprise. 
One of the points that he makes there, I think it is crucial, 
and I think it is actually by now widely accepted, that in 
addition to failures that may have existed to get information, 
for example, out of the Phoenix FBI, there is a problem which I 
think we are trying to address now with a new Department of 
Homeland Security, assigning responsibility so that not only 
that we get beyond this issue of simply who neglected 
responsibility, but to make sure that the responsibility is 
pinned somewhere so that it gets done, because unless you 
identify people as responsible, there is a tendency to say, 
that is not my job, someone else is taking care of it.
    Ms. Pelosi. That is a very good point. I wonder if you 
would like to be specific in that regard, because you are using 
the quote that this was--are you saying that September 11 was a 
neglect of responsibility?
    Mr. Wolfowitz. I didn't say that.
    Ms. Pelosi. But you used that quote, though. It says, 
includes neglect of responsibility.
    Mr. Wolfowitz. The import of that quote is to say that 
problems often arise, even though people are taking their 
responsibilities perfectly seriously, because the 
responsibilities aren't clearly assigned. He is actually 
talking about Pearl Harbor where people identified all kinds of 
people who didn't do what they should have done, but where 
there were problems also that the responsibility for making 
sure, for example, the information got out to Pearl Harbor 
wasn't assigned anywhere.
    Ms. Pelosi. But we are talking about September 11. I am 
asking in relationship to the context in which you made the 
comment. My time has expired, but I have to close by saying 
that I had hoped that we could focus on September 11 and that 
the purpose of this hearing was September 11, and it was not to 
expand it to justify--to saying, but if we could have in war in 
Iraq, that it would make some difference as to what happened on 
September 11.
    Certainly we have to be proactive and go out there and co-
opt any attempt to attack our country, but it isn't about that. 
And we were trying to be respectful of you in confining our 
questions to September 11 and how we can do better in the 
future, and I am just disappointed that you--the Secretary 
didn't come, but you came and read his statement to another 
committee, about a different subject that was not the specific 
focus of our hearing. I am glad you came.
    Mr. Wolfowitz. I thought the focus of this hearing was to 
talk about what can be learned about September 11 to prevent 
attacks in the future. The statement I gave you is full of what 
I think is lessons learned from September 11 that can help us 
to prevent attacks in the future.
    Ms. Pelosi. Thank you, Mr. Secretary.
    Thank you, Mr. Chairman.
    Chairman Graham. Thank you very much, Congresswoman Pelosi.
    The Chair recognizes Congressman Goss.
    Chairman Goss. Thank you. Secretary Armitage, you have 
noted that we have had great cooperation from other services in 
other countries in the war on terrorism. That is a very welcome 
comment. I don't interpret from that you suggesting in our 
intelligence capabilities that we should in any way reduce or 
give up our unilateral efforts in the Intelligence Community. 
Am I interpreting you correctly?
    Mr. Armitage. Absolutely. On the contrary, we should 
redouble our capabilities and encourage others to come along 
with us.
    Chairman Goss. Thank you, sir.
    Also in your testimony you say we simply cannot afford to 
lose the openness for which we are famous, and, of course, that 
is the hallmark of our country. You are talking about 
protecting in some ways our embassies overseas, which is a 
concern of all of us.
    Many of us are concerned that we don't want to build just 
fortress America in many places around the world. On the other 
hand, we want to provide reasonable protection from terrorists 
at our overseas installations, whether they are embassies or 
bases. Mr. Wolfowitz, do you have any further comment on that?
    Mr. Armitage. Senator Hatch asked Paul earlier a question 
about any lessons learned after the U.S.S. Cole. Well, we 
learned some lessons after Kenya and Tanzania. That is, as much 
as we desire to be open and keep in close contact with every 
country, it is not on these days. So, because of the 
congressionally-mandated Crowe Report, I think we have taken 
those lessons to heart.
    Our budget submissions reflect both the upgrading of the 
diplomatic security efforts as well as the hardening of our 
embassies, which were called for in that report.
    Chairman Goss. I hope you would agree with my view that 
hardening of the embassies and taking necessary gates, guards 
and guns protection obviously makes great sense, but really the 
first line of defense would be good information so we never 
have to rely too much on those gates, guns and guards.
    Mr. Armitage. Of course, I would, but I would also add that 
our first line of homeland defense, as far as we are concerned, 
starts with our consular people, who are interviewing now these 
folks overseas. They really, as far as we are concerned, are 
the first line.
    Chairman Goss. That is welcome. Thank you.
    Secretary Wolfowitz, you made the statement that our 
current sources and methods have depreciated badly over the 
last decade. I characterize that as basically that we have been 
underinvested in intelligence. Is that pretty much what you are 
saying?
    Mr. Wolfowitz. I think underinvested, and I thinkprobably a 
bit risk-averse, too much risk-averse. You don't penetrate 
organizations of the kind we are talking about easily. I think we now 
recognize that the cost of not penetrating them is enormous, however.
    Chairman Goss. Thank you. I yield to the Chairman on that.
    Chairman Graham. I apologize for myself and for my 
colleagues. A Senate vote is under way and is reaching the end, 
so we are going to have to leave to make that vote. I wanted to 
extend my personal thanks and the appreciation of The Joint 
Inquiry Committee for the excellent testimony and response to 
questions which you have allowed us to receive today.
    Thank you very much.
    Chairman Goss [presiding]. Thank you, Mr. Chairman. I think 
that we all know that we have got ourselves smothered in stacks 
of hay with fewer and fewer needles out there basically in the 
Intelligence Community. We have heard that expressed so many 
different ways by military and civilian customers, that is a 
problem. And, Secretary Wolfowitz, you talked about what I will 
call information discovery and that bridging, which we 
understand, and that is a theme.
    My worry is that we do not have enough people focused on 
what I will call the hard work of building the database that 
Secretary Armitage referred to also, that we don't have people 
loading up the system with the kinds of information which--open 
source, routine stuff which seems like a waste of time, but can 
be critical as we go along.
    And I notice even in the vetting of background for security 
clearances in the Department of Defense, and I am sure other 
agencies as well, there is quite a reasonable waiting list, 
perhaps unreasonable waiting list. Are we making any progress 
in those areas?
    Mr. Wolfowitz. I think we have cleared up a lot of the 
backlog on the security clearance side. One problem that we 
have, I think, is something that Senator Lugar alluded to 
earlier, on the need for more language capability. We have 
potentially enormous resources in this country with our 
immigrant communities to deal with these difficult languages, 
and I think the security and understandable security concerns 
about bringing in people that we haven't got long familiarity 
with deprives us of a great deal of that benefit. That is 
something that I think we need to deal with.
    And just to say it very quickly, we have a challenge. We 
have said it over and over again in the Defense Department. At 
the same time that we are fighting a war today, we are trying 
to build the military of 10 years from now. It is difficult. It 
is a lot more than just walking and chewing gum at the same 
time.
    The same thing is true in the intelligence world. A lot of 
capabilities that we would like to be developing are 
capabilities that are going to pay off a year, 2 years, 5 years 
from now. And the same people that have to do that work are 
busily working on the most immediate threat information that 
comes in. So keeping that balance between the immediate and the 
very important long term is a challenge, and it is something 
that I think committees of the Congress can help us in getting 
that balance.
    Chairman Goss. Committees of the Congress have recognized 
that challenge. We need to be reminded, realistically, when we 
are doing our authorization and appropriation, of what the true 
needs are, and we need to work with you on what consequences we 
are willing to accept by not meeting those true needs in case 
we can't. That process has not worked as well as it should have 
in the past, in my view. Pointing no fingers, it is just simply 
that we know some things don't get the attention that they 
need. We need to understand what those are and what the 
consequences are.
    Thank you. My time has run out.
    Ms. Harman.
    Ms. Harman. Thank you, Mr. Chairman.
    Thank you to both witnesses.
    I just want to jump in where this conversation has just 
left off, because we had a conversation, private conversation, 
before your testimony, and I was waiting to say exactly what 
you just said, and that is that the point of looking backwards 
is to make certain we understand what failed--and I think what 
failed were systems, not people--so that we can look forward 
and make certain it doesn't fail again, and that if we dwell 
too long on finding the needle in the haystack, we may miss the 
needle in the next haystack. And I think it is very important 
to remember that, and I frankly think that even the families 
who offered enormously compelling testimony yesterday would, if 
they had the choice, rather know that no one else will meet the 
fate of their spouses or parents than know precisely, 
absolutely that some piece of paper maybe should have moved 
from desk A to desk B.
    So I just want to commend you for looking forward. I hope 
systems do change. I think it is imperative that good people 
trying to do their jobs get a signal from us that we want them 
to do their jobs, and that while we investigate this, we want 
them to be at their desks thinking out of the box, 
communicating with people in the next agency about everything 
they can imagine that could happen, and reaching for better 
technologies to converge the different databases and the 
different information so that next time we can hunt and not 
just gather the clues that will get us to know in advance what 
can be coming our way.
    I also want to say something that you have said often, Mr. 
Chairman. I quote you anyway. I hope you said it, but if you 
didn't, I impute it to you. That is, that what changed on 9/11 
was the audience, and I think that is a big difference.
    I appreciate the fact that these witnesses have not said, 
gee, some prior administration did something wrong. That isn't 
the point. Every administration over, you know, the last 20 
years has been trying to get this right. The point is that now 
the attention is focused on solving the problem, and there is 
popular support for the investments we need to make in 
counterterrorism, and we are making those investments.
    And we do need a Department of Homeland Security so that 
someone is in charge, and we do need the right authorities to 
that person, and we do need the technologies that go with that. 
At any rate, I know these witnesses agree.
    Let me just ask two questions thinking forward about things 
under your control, and I will put them both out there before 
the light changes.
    The first is for you, Secretary Armitage. I am interested 
in what changes we are making to our visa system that was 
obviously extremely porous pre-9/11, and some of us who looked 
at this in past lives, I as a member of the Bremmer Commission 
pointed this out, and nothing changed. What are you doing to 
change that?
    And to you, Secretary Wolfowitz, I am interested in 
NORTHCOM, which I don't think has come up this morning, I don't 
believe, and how the Northern Command, in your view, will 
integrate with our homeland security effort to make certain 
that we have capabilities that work seamlessly with the new 
Department of Homeland Security, rather than work as a separate 
stovepipe.
    Mr. Armitage. Thank you, Ms. Harman. If I might start out 
by saying your comments and that of Chairman Goss's will do 
more to inspire a confidence in people to be not risk-averse, 
to really think out of box, than anything that we would ever 
say, I will tell you that. Thank you.
    The changes in visas runs the gamut. First of all, because 
of the homeland security bill, particularly the House bill 
where we gladly accept the direction of the Director of 
Homeland Security, we will have functional responsibility as he 
has policy responsibilities for us, number one.
    Number two, we have, I think, rather dramatically 
increased, with cooperation now from law enforcement and from 
intelligence, the number of files that are in our TIPOFF system 
and our CLASS system; that we have gone to machine-readable 
visas in almost all cases; that in certain countries, all males 
between 16 and 45 have to be not only interviewed, but there is 
a required waiting time; and there are a whole host of these 
issues which--or measures that I would be more than happy to 
supply for the record, if that is acceptable to you.
    Ms. Harman. Fine.
    [See Department of State responses to questions for the 
record.]
    Mr. Wolfowitz. If I can make one very quick comment. I 
think it is important to understand failures and try to correct 
failures. I do think--and this isn't in our departments--I 
think it would be fair also to recognize success, because a lot 
of things have been prevented by some very hard-working and 
talented and creative people in the Intelligence Community. We 
want to inspire that kind of creative risk-taking. I think it 
is important as one focuses on failure not to make everybody 
failure-averse.
    On the issue about Northern Command, it--of course we are 
just about to stand it up on October 1, and General Eberhart is 
developing the plans by which it would be structured. But what 
it will provide is a single point of contact for the Secretary 
to go to for those military capabilities needed in support of 
civilian authorities.
    We are going to have to work very hard on making sure that 
these requirements are communicated in a timely way, and we 
have had quite a few opportunities for real-world exercises, if 
I can call them that, over the last 6 months of making sure 
that when something was needed on the civilian side, that we 
had the right rules of engagement in the military chain.
    I don't think there is any substitute for two things: 
Number one, trying to think as carefully as you can and 
anticipate real-world requirements, whether it be to deal with 
a hijacked airliner or any number of other things that could 
occur. And, secondly, I think we are going to have to do a fair 
amount of war game simulation to actually see what works and 
what doesn't work. We have just been through a very, very 
revealing exercise called Millennium Challenge that had nothing 
to do with the homeland side, just on a pure military side. We 
have had huge lessons learned from that. I think we need a kind 
of Millennium Challenge for Northern Command as soon as they 
are ready to do one.
    Chairman Goss. I will announce to Members that our 
agreement with these gentlemen--they have other obligations--
was to leave at 1:00. We have three Members here who have been 
here and attentive all day. If you could spare time for a few 
minutes for each of them, I promise you I will not go more than 
the allotted time. And I would ask Members to be as concise in 
their questions. Is that agreeable?
    Mr. Armitage. Of course, sir.
    Chairman Goss. Thank you very much.
    Mr. Roemer.
    Mr. Roemer. Thank you, Mr. Chairman.
    Welcome, gentlemen. Delighted to have the distinguished 
panel here this morning.
    I would just like to for 30 seconds talk about Iraq, 
although we are not supposed to talk about Iraq. It was my very 
first vote in 1991 on whether or not to go to war, and I am 
open to the administration's arguments, to the rationale, to a 
forward engagement, as we called it in the Democratic Party's 
platform, but I really would hope that people of your caliber 
and stature as well as your bosses would be up here talking to 
the full committee and to the House of Representatives making 
the argument that I know you are capable of making and 
explaining why we need to do it so that we can communicate that 
to our constituents as well, too.
    Just as an aside, I remember on that first vote, we had the 
administration, the first Bush administration, coming up scores 
of times to help inform and educate and work with Members of 
Congress on what was an exceedingly important vote at that 
time, and I hope that we can reengage in that with this 
administration. That is not a criticism. That is a hopeful 
suggestion on a vote that may be pending next week.
    Mr. Secretary, I want to say to you, I didn't know that you 
were going to quote Wohlstetter's book. I happen to be looking 
at it. Let me read you one more part of what Schelling's 
foreword was, and either you did great work on this or your 
staff, maybe Rich Haver is reading this.
    It would be reassuring to believe that Pearl Harbor was 
just a colossal and extraordinary blunder. In fact, blunder is 
too specific. It was just a dramatic failure of a remarkably 
well-informed government to call the next enemy move in a Cold 
War crisis, to call the next enemy move.
    Finally, he says, Wohlstetter's book is study of a great 
national failure to anticipate.
    Usama bin Ladin in a fatwa says that he is at war with us. 
George Tenet says we are at war with him. Yet we can't 
anticipate even with all of these clues the next move.
    I think mistakes were made. I, like Secretary Rumsfeld 
yesterday, think it is too late when the smoking gun is there. 
You have got to find the person pointing the gun, loading the 
bullets, getting ready to pull the trigger. And intelligence, 
that is what it is supposed to do.
    So I hope that we can, as the families who were here 
testifying so emotionally and so passionately yesterday, we can 
prevent the next one, but we can also move forward in a 
paradigm shift to see what we need to do in the Defense 
Department to forward engage or to support Special Ops that can 
go after terrorist groups that aren't sponsored by nation-
states, but may be in different countries in the world, and 
work with Congress in a bipartisan way to see if that is a good 
policy to implement.
    We have a panel coming after you, Mr. Secretary. I think 
this is a tough question, and I hope it is fair. They may say 
we briefed this administration on these priorities. They said 
that they would spend more time on the war on terrorism than 
any other war or any other battle. Did you have those kinds of 
transition briefings that you were part of, and were there 
specific requests by George Tenet at CIA to move resources and 
money in the Defense Department to this tougher, more 
unconventional war, to go after al-Qa'ida?
    Mr. Wolfowitz. We--I don't remember briefings from--by the 
time we were nominated and confirmed, the transition was over, 
so they weren't transition briefings. We got lots of briefings 
from the beginning about the al-Qa'ida danger, including from 
important people who had served in both administrations, not 
only Director Tenet, but Richard Clarke at the National 
Security Council. As we said earlier, there were quite a number 
of actions that were proposed, quite a few of which were, in 
fact, implemented, but some of which we recognized really 
called for looking at the whole problem in a bigger way, and 
recognizing that if you are going to go to war with an entity, 
it was war, it wasn't just an intelligence activity or just a 
single military retaliation.
    And I would say considering the challenges of putting all 
of that together, it came together pretty quickly.
    Mr. Roemer. Did you consider doing it before September 11? 
Did you have a plan to go to war in an unconventional way 
against al-Qa'ida before September 11?
    Mr. Wolfowitz. We weren't quite there, but we had a 
conclusion from the principals, meaning that we needed to look 
at major military options. That conclusion came on September 5. 
As we have said, the Presidential decision memo that came after 
September 11 was not substantially different.
    But, I mean, one could also----
    Chairman Goss. Could I interject? Your time has run. I 
don't mean to interrupt, but out of fairness to your schedules 
and the two Members remaining.
    Mr. Gibbons.
    Mr. Gibbons. Thank you very much, Mr. Chairman.
    And to our Secretaries, welcome, and I will not try to keep 
you long.
    And sometimes we all, in looking back, have 20/20 
hindsight. The question has been asked. And oftentimes in order 
to soothe some of the, you know, the feelings and the emotions 
of America following September the 11, we come up with this 
question: Why were the Americans not warned?
    Well, why were they not warned when you look at the attack 
of 1993, when people died in the World Trade Center, when you 
look at the 1998 attack on our embassies in Africa, or the 2000 
attack on the U.S.S. Cole? And we can all ask that question, 
why were the Americans not warned?
    I think that is part of what we are trying to do here today 
is to find the avenues through which we can improve our 
intelligence capability to provided that warning. That is why 
we are here, and that is what it is about today. It is not a 
perception of who was negligent, and it is not a perception 
about failure to anticipate. It is about what we do tomorrow to 
prevent yesterday's attack.
    What I want to ask you, both of you, very quickly, is do 
you believe that America is better defended without the passage 
of the homeland defense bill that we have in the House of 
Representatives?
    Mr. Wolfowitz. If I understood the question correctly, 
absolutely not. I think we would be much better defended with 
the homeland defense bill and with a Department of Homeland 
Security so that there is a clear responsibility.
    Mr. Gibbons. Secretary Armitage.
    Mr. Armitage. Absolutely, sir.
    Mr. Gibbons. Final question for you. That would be vertical 
integration of information and intelligence-sharing. Part of 
the problem has been throughout the history of terrorism the 
failure to communicate not just between Federal agencies, but 
vertically as well, down to State and local law enforcement 
agencies as well.
    Have you found in the recent years that the activities of 
Governor Ridge and the homeland security advisor have improved 
our ability to communicate intelligence both vertically as well 
as horizontally down to and up from our local and State law 
enforcement agencies?
    Mr. Wolfowitz. I guess all I can say is I have an 
impression, and it is related to what I said earlier about the 
quality of reporting that appears to come now from domestic 
sources, that we are just getting a lot more of it. I can't 
tell you exactly why. I imagine because an awful lot of people, 
including Governor Ridge and the Attorney General and everybody 
in the FBI, and the pressure from this kind of a committee, I 
think, encourages people to ask, are we passing the right 
information?
    Mr. Gibbons. I know there was a concern and a perception 
that classified information and the ability to share that with 
those that do not have or possess a clearance was a problem. 
Have we managed to overcome that in terms of expediting 
classifications and clearances for those individuals so that we 
can get the necessary information down to them? That was one of 
the hurdles. Are we moving in that direction?
    Mr. Wolfowitz. We are moving in that direction. There have 
been some important changes, but I don't think we have debugged 
that system, if I can use a computer term, because there is 
always going to be this dilemma of do you share stuff that 
compromises your sources, or do you share stuff that prevents 
something from happening?
    A general point, if I may make it, I think it goes back 
also to the Pearl Harbor book. I think it helps to understand 
that certain kinds of failures are endemic, that this is not 
the first time we have been taken by surprise, nor will it be 
the last time probably, unfortunately. If you understand some 
of the reasons why that happens, you have a better chance of 
fixing them, and I think one of the things to remember and 
understand is that warning comes in lots of shapes and flavors, 
and we have had lots of warnings. Some of them have been issued 
to the public, and the reaction is, what do they expect us to 
do about it? It is, in effect, not an actionable warning.
    You have to relate the intelligence warning to the action 
that it is warning you of, and if the action it is warning you 
of is to shut down all civil aviation in the United States, it 
is going to have to be pretty darn precise information. So I 
think helping people understand and improving our own 
understanding of the relationship between the warning and the 
action that is expected to be taken on the warning, I think, is 
a fundamental point that I think this committee can help with. 
I think the whole country needs to understand a little better.
    Mr. Armitage. If I may, Mr. Gibbons, I don't want to 
prolong this, but I think it is worth mentioning. Congressman 
Boswell hit one of the same points. Are we in a seamless 
information flow down to the local law enforcement? No, we are 
not. We are not in a seamless information flow down to the 
Governors and the mayors yet either. I think Governor Ridge has 
worked magnificently to try to bridge that.
    Witness the Golden Gate Bridge warning. We issued a warning 
based on what we felt was the credible information of a desire 
to attack that, and there were some who criticized us for 
inducing and inciting fears, et cetera.
    We had an experience, Paul and I, in the middle of last 
year when we sortied--or he and Defense Department sortied 
ships from Bahrain around the July timeframe. We closed up an 
embassy. We were accused by some of the ``sky is falling'' 
phenomenon. So there is a lot of sort of paradigm shifts that 
have to go on not just in law enforcement. It is in the 
governance as well.
    Chairman Goss. Thank you very much.
    The last Representative of the morning will be Mr. 
Chambliss. You have the floor, sir.
    Mr. Chambliss. Thank you.
    Very quickly. Gentlemen, you are certainly two of the--
outside of the Secretary, you are the highest-ranking and the 
highest-profile folks at State and Defense. Prior to April 30, 
2001, had you gentlemen been involved in any meetings with the 
previous administration, particularly with Mr. Clarke and Mr. 
Berger, where you were advised of an urgency of the matter 
regarding al-Qa'ida and that positive action needed to be 
taken, and were you given a plan of action by Mr. Clarke and 
Mr. Berger?
    Mr. Armitage. I never met with Mr. Berger. I did meet with 
Mr. Clarke, along with other colleagues. He certainly was 
infused with an urgency of the al-Qa'ida threat. We were right 
with him on that. We were never given a plan. There were some 
briefings, I understand, that the transition got, but it was 
not a plan.
    Mr. Wolfowitz. Same answer for me. I met with Mr. Clarke, 
not with Mr. Berger.
    Mr. Chambliss. At the meeting that took place on April 30 
that both of you acknowledge that you were at, and I believe 
your quote, Secretary Armitage, was, a deputies' meeting on 4/
30/01, you made a decision to go after al-Qa'ida and eliminate 
them. Again, was that meeting--at that meeting, which I know 
Mr. Clarke was at, I am not sure whether Mr. Berger was there 
or not, would you tell us whether both or either one were 
there? Was their sense of urgency at any degree higher than 
what had been expressed to you before, and, again, was any plan 
to offensively go after al-Qa'ida or bin Ladin given to you?
    Mr. Armitage. I can assure you that Mr. Berger was not 
there. We did have some discussions there about the use of 
UAVs. I won't go any further than that. Out of that meeting, 
among other things, came directions to the various 
bureaucracies, including the Defense Department, to develop 
contingency military plans. Mr. Clarke was there.
    Mr. Wolfowitz. It also might be worth pointing out, April 
30 is an interesting date, if I am correct, on the intelligence 
information. All of the hijackers were in the United States by 
that time. It is important to recognize the lead time you need 
to have to deal with these threats, and if we had undertaken 
this campaign in Afghanistan in July of last year, those people 
were all ready. They had their plans engaged really from early 
2000.
    Mr. Chambliss. Thanks, gentlemen.
    Chairman Goss. I want to thank you very much, Mr. 
Chambliss.
    I want to thank our witnesses, the two Secretaries, for 
coming up. This has been extremely instructive. We are 
definitely, as you know, aware of how the consumers see this. 
We are working very steadfastly to try and come up with the 
best possible awareness and understanding of the American 
people on the events of 9/11, and you have helped us to do 
that.
    We are reassured by the work that you are doing, and we 
wish you well in it. We are all counting on you. Thank you.
    The committee stands adjourned, subject to the call of the 
Chair, I guess, which should come at about 2 p.m.
    [Whereupon, at 1:15 p.m., the committee was recessed, 
subject to the call of the Chair.]
    Chairman Graham [presiding]. I call the meeting to order. 
We are pleased to have with us this afternoon two former 
national security advisors, General Brent Scowcroft and Mr. 
Sandy Berger. We were to have a third, Dr. Tony Lake, who 
unfortunately has had a medical problem which has precluded him 
from joining us this afternoon. He had previously submitted his 
written statement which will be available and included in the 
record.
    [The prepared statement of Dr. Lake follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

    
    Chairman Graham. The fight against Usama bin Ladin and 
against terrorism broadly goes back many years. This afternoon, 
we will seek to understand what happened in some of those 
earlier years in the emerging fight against terrorism in the 
views of those who had key policymaking and policy advising 
positions as to the support which they received from the 
intelligence community.
    General Brent Scowcroft served as national security advisor 
to both Presidents Ford and President George H.W. Bush. He had 
a 29-year military career that included the rank of Lieutenant 
General in the United States Air Force. His career also 
included a period of service as special assistant to the 
director of the Joint Chiefs of Staff and military assistant to 
President Nixon.
    Mr. Samuel R. Berger has served as assistant and deputy 
assistant to the President for national security affairs under 
President Clinton. Mr. Berger, a lawyer, has a long career in 
public service, including serving on the staff of former 
Senator Harold Hughes of Iowa as well as at the State 
Department.
    Gentlemen, I very much appreciate your participation this 
afternoon and I know that it will be very meaningful to the 
members of the committee. Each of our two committees has 
adopted a supplemental rule for this joint inquiry that all 
witnesses shall be sworn. So I would ask if you would please 
rise and raise your right hand.
    [Witnesses sworn.]
    Chairman Graham. Mr. Scowcroft, we look forward to hearing 
your statement.

TESTIMONY OF BRENT SCOWCROFT, FORMER NATIONAL SECURITY ADVISOR 
    TO PRESIDENT GERALD FORD AND PRESIDENT GEORGE H.W. BUSH

    General Scowcroft. Thank you, Mr. Chairman. I'm very 
pleased to appear before you to discuss such a complex and an 
important subject. I am not so efficient as Dr. Lake, so I was 
unable to provide a written statement, but I am prepared to 
make a few introductory remarks. I was asked to focus on the 
role of terrorism in the first Bush administration and that 
will be the focus of my remarks. And at the outset, I would 
like to point out the difficulties of comparing the 
counterterrorist situation and activities of the first Bush 
administration with those of the present time.
    The dominant security challenge of the Bush I 
administration was still the Soviet Union, and that tended to 
be the organizing focus in which security priorities were 
viewed. So there was a different kind of an outlook there. And 
still, things that were not related somehow to the Soviet 
Union, sort of ipso facto, were not given quite as much 
attention. In addition, at that time, terrorism was primarily a 
phenomenon which was State-sponsored or State-assisted or 
tolerated. And therefore, it was natural for us to think of 
deterring or dealing with terrorism primarily through the 
sponsor than through the--with the terrorist organizations 
directly where things like deterrence and so on would have some 
impact.
    A further point: none of the terrorist organizations at the 
time so far as we knew had global reach. This meant that while 
U.S. persons, U.S. interests and U.S. assets were not immune 
from terrorist attack, the United States homeland, in effect, 
was. And that certainly colored how terrorism was viewed. 
Terrorist organizations appeared to be either regionally- or 
issue-related. And even though Hizbollah was thought to be 
behind many of the terrorist acts that occurred during the 
Reagan administration, they, the acts themselves, seemed to be 
relatively independent and uncoordinated events rather than 
part of an overall strategy.
    Indeed, at that time there were some terrorist experts who 
argued that terrorist acts were less an attempt to create 
damage or to kill people than they were to call attention to 
the issue which the particular terrorists supported. And I have 
no idea whether that is really true, but that would be another 
distinction with the present. As compared to the Reagan 
administration, which we succeeded, the incidents and the 
severity of terrorist acts diminished significantly during the 
Bush I administration.
    There was nothing, for example, comparable to the Beirut 
embassy bombing, Kuwait embassy bombing nor the Marine 
barracks. There was only one aircraft hijacking during our 
administration, and no Americans were involved at all.
    Nevertheless, there were terrorist activities which 
compelled a focus on the terrorist problems. And there are two 
issues which stand out in my mind. The first is Pan Am 103, 
which occurred technically during the Reagan administration on 
21 December 1988, so that the fallout was almost entirely in 
the Bush administration. And the second was the issue of 
hostages in Lebanon. I followed the Pan Am 103 problem closely. 
I received periodic briefings on the investigation. And the 
effort which led to Libya and away from Syria and Iran, who 
were the first suspects, was, in my mind, a product of 
brilliant analysis and investigation and had appeared to be the 
result of very close coordination between/among CIA, FBI and 
the British.
    The hostage problem was one which we basically inherited. 
In the decade beginning in 1982, there were some 30 westerners 
kidnapped in the Middle East. When we came to office, I believe 
there were about eight hostages being held most apparently in 
Lebanon.
    In February of 1988, Marine Lieutenant Colonel William 
Higgins, a member of the UNTSO, the UN Treaty Supervision 
Organization, was captured early in the Bush administration; 
pictures of what seemed to be his execution were released. The 
emotional impact of that in the country was severe. The hostage 
problem was a particularly difficult one. We had various bits 
of information about some of the hostages, nothing about 
others. We considered various ideas for trying to rescue the 
hostages, but the intelligence was never adequate to make the 
risks appear reasonable. And I'll comment in a moment further 
about that.
    In the early nineties, we saw the emergence of a 
fundamentalist or Islamic fundamentalist movement, which became 
suffused with the terrorist threat. It entered the political 
structure of a number of countries in the Middle East so that 
the character of terrorism was now changing. It was assuming, 
for example, possibility of terrorism fundamentalism capturing 
the political structure of different countries inaddition to 
the typical Hizbollah-like terrorists. And this was an entirely new 
thrust.
    And one of the best examples of that is Algeria. In 1992, 
the fundamentalists threatened--the Algerians were having two-
stage elections. After the first stage, it appeared likely that 
the fundamentalists would capture the Algerian government. The 
then-government, realizing that, canceled the elections and a 
civil war ensued, replete with much terrorism--and that war has 
just recently been winding down.
    Now my recollection there is that the President was kept 
well informed through the PDB of this evolution of terrorism 
into the broader issue involving politics. My summing up is 
that terrorism was a difficult issue for us to deal with, but 
that, especially compared with the Reagan administration, it 
was not an issue that was on the rise and getting worse.
    But now, just as terrorism, as I pointed out, has changed, 
so have the challenges before us. I would say that for Bush I 
intelligence support in general seemed adequate to the task as 
it then appeared. But as I indicated, I was frustrated then at 
the lack of HUMINT capability to help with the hostage problem. 
We simply could not find out enough about the hostages--who 
precisely was holding, where they were held and so on--to make 
any attempt at rescue feasible because we stood the chance of 
having more of them killed in an attempt to rescue one or two.
    And I think that remains an area where improvements are 
required. The war on terrorism is, in my mind, primarily an 
intelligence war. And we badly need an improved capability to 
get inside terrorist networks if we're to deal with that 
problem. I would observe also that the early nineties began a 
period of severe budget cuts in the intelligence community. 
That's a policymaker's issue. That's not an intelligence 
problem. And that also hampered the ability of the intelligence 
community to make the transition from the focus on the 
terrorist threat to that of a world nurturing terrorist 
activities. And I think that was particularly the case in 
HUMINT, which had been, to my mind, exclusively focused on the 
Soviet issue. And HUMINT capability in other areas was sparse 
and making that transition was made harder.
    One last thought about the changed nature of terrorism, and 
that is its global reach. I believe that the change exacerbates 
the bifurcation of the intelligence community, the bifurcation 
being the U.S. border and intelligence collection and 
activities outside the border versus inside the border. It was 
not so much of a problem during the Cold War and in the 
immediate post Cold War world when most of the intelligence 
problems we faced were overseas, were out of the country. So, 
with the exception of a couple of counterintelligence cases 
when we did run into this bifurcation, it was a manageable 
problem.
    The borders, as far as the terrorists are concerned, are 
gone. There is no distinction for a terrorist between inside 
and outside the United States. And I think that makes much more 
serious the division that we have between the CIA and the FBI. 
And I think it goes two ways. First of all, when you have to 
have a hand off between any two bureaucracies, there is a 
considerable loss of efficiency, even if they get along very 
well. I am not suggesting those two do not. But that is in 
itself, it makes the problem more difficult, and some of the 
things that you all are looking at about
9/11 are clearly a result of that bureaucratic difference.
    But, in addition to that, there is to me a cultural issue 
between these two organizations. And that is they approach the 
problems on which they are expert from opposite ends of the 
spectrum for the law enforcement organization--and that's 
fundamentally what the FBI is. You start with an incident. You 
start with something that focuses your attention and you seek 
to know more about it to find out about it and so on, but you 
start with this central fact and you build a case--and as 
you're building the case, you protect the evidence in that case 
so that it can be used in prosecution.
    The intelligence analyst comes to that problem in an 
opposite way. There are a lot of little sort of disconnected 
things going on in the world and the analyst looks at it and 
says is there a pattern here somewhere that I can discover that 
will lead me to be able to prevent something from happening. 
Now these are both legitimate points of view for the jobs that 
these two have, but they are not interchangeable, and you do 
not make one an expert simply by putting another label around 
his neck. And I think that is one of the fundamental problems 
that we face in the community today. And while we are working 
on it, I'm not sure that we have adequately solved that 
difficult issue.
    Thank you, Mr. Chairman.
    Chairman Graham. Thank you very much, General.
    Mr. Berger, thank you for joining us.
    [The prepared statement of Mr. Berger follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    TESTIMONY OF SAMUEL BERGER, FORMER ASSISTANT AND DEPUTY 
ASSISTANT TO THE PRESIDENT FOR NATIONAL SECURITY AFFAIRS UNDER 
                       PRESIDENT CLINTON

    Mr. Berger. Chairman Graham, Chairman Goss, members of the 
Joint Committee, thank you for inviting me here today. We meet 
at a time of sober reflection just a year since the attacks on 
the World Trade Center and the Pentagon. We can never forget 
what we lost that day, more than 3,000 lives cut short. 
September 11 changed our perspective and priorities as a 
Nation, perhaps even as individuals. I welcome the committee's 
efforts to explore community intelligence performance prior to 
that terrible day and to determine what can be done better.
    In order to look forward, we have to look back, to ask hard 
questions and seek honest answers. All of us want to learn the 
right lessons to prevent another catastrophe. At the same time, 
as I am sure your investigation has revealed, it's easier to 
see how puzzle pieces fit together when you have the final 
picture at hand. History is written through a rear-view mirror, 
but unfolds through a foggy windshield. Few things are as clear 
at the time as they are looking back. Our challenge now, 
regardless of party or administration, is to sharpen to the 
greatest extent we can our ability to look forward, because the 
dangers and opportunities our country must confront lie before 
us, not behind.
    In that spirit, I would like to, today, first put into 
perspective the intelligence the Clinton administration 
received and the actions it prompted, and then focus on the 
challenges that I believe our intelligence system still faces 
in dealing with jihadist threat, jihadist terrorist threat, and 
what we must do to enhance our capabilities and protect our 
people.
    When President Clinton began his first term in 1993, as 
General Scowcroft has noted, the Intelligence Community was 
primarily focused on the agenda created by the Soviet Union's 
collapse, with Cold War's end, and our Gulf War victory. 
Despite the fact that during the eighties nearly 500 Americans 
had been murdered in terrorist attacks abroad by Hizbollah, 
Islamic Jihad, and others, counterterrorism was not a top 
intelligence priority. The CIA maintained no significant assets 
in Afghanistan after our withdrawal from that region in 1989. 
Little was known about Usama bin Ladin, except that he was one 
of many financiers of terrorist groups.
    Terrorism became a priority for us early with the fatal 
attack on employees at Langley five days after inauguration, 
the World Trade Center bombing in February, the Iraqi plot to 
assassinate President Bush in April, and the Day of Terror plot 
against historic landmarks in New York that was thwarted in 
June. The terrorist threats came from disparate sources, 
although perhaps not as disparate as we knew at the time. But 
they reinforced a larger view that President Clinton expressed 
early and with increasing frequency, that the very same forces 
of global integration that were making our lives better also 
were empowering the forces of disintegration, the terrorists, 
the drug traffickers, the international criminals, sometimes 
all three together.
    In 1995, he was the first world leader to bring the 
terrorist challenge before the United Nations, calling for a 
global effort to fight it. And, as early as 1996, he spoke of 
terrorism in a major speech as the enemy of our generation. 
Director Tenet, in my judgment, shared the President's sense of 
priority for the terrorist threat. To reflect that increased 
priority, working with the Congress, we more than doubled the 
counterterrorism budget from 1995 to 2000 during a time of 
budget stringency, with a 350 percent increase in the FBI's 
counterterrorism funds and, although it is classified, 
substantial increases in CIA's counterterrorism resources. We 
sought to achieve greater coordination by energizing an 
interagency counterterrorism security group consisting of 
senior level officials from all key agencies, and we appointed 
a tough-minded activist, Richard Clarke, to a new position of 
White House-based national counterterrorism coordinator.
    The CSG convened several times a week, sometimes every day, 
to review threats presented by the intelligence and law 
enforcement community and to follow up. In 1995, the President 
signed a presidential directive formalizing a system for 
periodically reviewing intelligence priorities and elevated 
terrorism to a level exceeded only by support for military 
operations and a few key countries such as Iraq.
    How effective was the intelligence community within the 
context of that heightened priority? The intelligence and law 
enforcement community did succeed in preventing a number of 
very bad things from happening before September 11. They 
thwarted the day of terror plot in New York 1993. Sheikh Omar 
Abdel Rahman was convicted of that conspiracy in 1995. They 
worked with foreign intelligence services to track down and 
capture more than 50 top terrorists, including Ramzi Yousef, 
responsible for the '93 World Trade Center bombing, and Mir 
Amal Kansi, who murdered the CIA employees at Langley.
    With Filipino authorities, they helped to prevent a Manila-
based plot to assassinate the Pope and blow up 12 American 
airlines over the Pacific. Beginning as early as 1997, they 
undertook a campaign working with cooperative intelligence 
agencies around the world that broke up al-Qa'ida cells in more 
than 20 countries.
    In late '99, the CIA warned of 5 to 15 attacks on American 
interests during the millennium celebrations that were 
upcoming. That prompted the largest counterintelligence 
operation in the history prior to 9/11. Our intelligence 
community worked with Jordanian officials to uncover plots 
against the Radisson Hotel in Amman and religious holy sites.
    Following the arrest of Ahmed Ressam crossing into the 
United States from Canada, they traced materials seized from 
him to terrorist cells that were broken up in Toronto, Boston, 
New York and elsewhere. During this very tense period, the most 
serious threat spike of our time in office, I convened national 
security principals, including the Director of Central 
Intelligence, the Attorney General, the top level people from 
the FBI, State and Defense at the White House, virtually every 
single day for a month for coordinating meetings.
    I am convinced that serious attacks were prevented by this 
warning and the actions that resulted. Yet there were things we 
did not know or understand well enough. The sophistication of 
the Counterterrorism Center increased significantly after it 
was substantially increased in size in 1996 and the dedication 
and commitment of the people who worked there was 
extraordinary. But the picture of the al-Qa'ida network 
developed slowly. It was and is a hard and illusive target, as 
we have seen even since the horrifying events of September 11, 
which galvanized the world to go to war with Afghanistan and 
turn Taliban allies like Pakistan into its adversaries.
    Islamic jihadists have been attacking American targets 
since the early '80s. But the linkages among this new breed, 
hardened by the battle against the Soviets in Afghanistan in 
the '80s and energized against the United States by the 
military presence we left in Saudi Arabia after the Gulf War, 
emerged gradually in the nineties. Our understanding of bin 
Ladin evolved from terrorist financier in the early nineties to 
an increasingly rabid, magnetic and dangerous galvanizer of 
anti-American hatred in the mid to late nineties.
    In June of 1998, I described bin Ladin in a Nightline 
television interview as the most dangerous non-State terrorist 
in the world. The first time the Intelligence Community 
presented clear evidence of bin Ladin's responsibility for 
attacks against Americans was following the bombings of our 
embassies in Kenya and Tanzania in August of 1998, killing 12 
Americans and many more Africans. Our focus on bin Ladin and 
our efforts to get him intensified in urgency. I do believe the 
CIA was focused on the counterterrorism mission.
    What we have learned since 9/11 makes clear to me that the 
FBI was not as focused as an organization. Director Mueller has 
acknowledged these problems. Until the very end of our term in 
office, the view we received from the Bureau was that al-Qa'ida 
had limited capacity to operate in the United States and any 
presence here was under surveillance.
    That was not implausible at the time. With the exception of 
the World Trade Center bombing in 1993, not attributed before 
9/11 to bin Ladin, plots by foreign terrorists within the 
United States have been detected and stopped. But revelations 
since September 11 have made clear that the Bureau 
underestimated the domestic threat. The stream of threat 
information we received continuously from the FBI and CIA 
pointed overwhelmingly to attacks on U.S. interests abroad. 
Certainly the potential for attacks in the United States was 
there. That is why, for example, we established first program 
on protecting U.S. critical infrastructure. But the ongoing 
picture of specific threats we received generally was pointed 
abroad. Serious efforts appear to be under way to reorient the 
FBI, making prevention of terrorism its primary mission.
    As far as intelligence reporting on threats to civil 
aviation was concerned, the risk was principally placed 
overseas and generally involved information about bombing or 
hijacking, along with scores of potential threat scenarios from 
truck bombs to assassinations to public utilities.
    We have heard of the idea of airplanes as weapons, but I 
don't recall being presented with any specific threat 
information about an attack of this nature or any alert 
highlighting this threat or indicating it was any more likely 
than any other.
    Mr. Chairman, in a speech before Congress nine days after 
September 11, President Bush memorably declared, in our grief 
and our anger, we have found our mission and our moment. As our 
government builds on, expands and intensifies its efforts to 
combat terrorism, I would like to highlight seven important 
challenges that I believe our Intelligence Community must 
address if that mission is to succeed. First, we have to 
improve dramatically the timely coordination and integration of 
intelligence.
    September 11 brought into stark relief the extent of the 
information breakdown, not only between agencies but within 
them, in some cases. We have to resolve these problems while 
recognizing the different elements of the national security 
community have distinctly different intelligence needs. The 
creation of a Department of Homeland Security is a step in the 
right direction. The key to making the new DHS work, in my 
judgment, will be the creation of an intelligence analytical 
unit that is accepted as a full partner in the Intelligence 
Community--an integrated all-source fusion center to analyze 
and prioritize both domestic and foreign threats.
    They should have the ability to set collection priorities 
and task partner agencies. And there will still be a need for a 
White House-led coordinating mechanism to deal with policy 
judgments that flow from threat analysis. In my view, that 
mechanism is better placed within the National Security Council 
system rather than separate from it.
    Second, we must reach a new consensus on the proper balance 
of responsibilities within the Intelligence Community, 
especially now, as General Scowcroft has pointed out, that the 
lines between wartime and peacetime, foreign and domestic, law 
enforcement and intelligence have been blurred.
    I believe strengthening the DCI's program to plan, program 
and budget for intelligence collection analysis and 
dissemination will permit much more effective integration of 
our intelligence priorities and efforts, including better 
concentration on counterterrorism.
    In that connection, I encourage the committee to consider 
proposals to separate the DCI and the CIA director positions so 
the DCI can focus primarily on community issues and not just 
CIA concerns. In addition, I would end the practice of having 
every Intelligence Community agency develop its own bilateral 
relationships with foreign counterparts and give the DCI 
authority to coordinate all intelligence cooperation with other 
countries. In some countries there are now a dozen or more of 
these relationships.
    Third, the terrorism challenge increasingly increases the 
importance of predictive intelligence from terrorist targets, 
the information that tells you where they are going to be and 
what they are going to do. This is an incredibly difficult 
challenge, especially when dealing with a shadowy cell-based 
network. After new authorities were issued by President Clinton 
in 1998, we were actively focused on getting Usama bin Ladin 
and his top lieutenants through overt and covert means.
    The success of those efforts depended upon actionable 
intelligence on his future whereabouts. The Intelligence 
Community stepped up its efforts to anticipate bin Ladin's 
movements. But reliable intelligence of this nature emerged 
only once shortly after the African embassy bombings. We acted 
on this predictive intelligence to attack a gathering of bin 
Ladin and his operatives in Afghanistan. Twenty to 30 al-Qa'ida 
lieutenants were killed, we were told, and bin Ladin was missed 
by a matter of hours.
    Over the next two years we continually sought to obtain 
predictive intelligence on bin Ladin. This included developing 
and successfully testing promising new technologies in late 
2000, but never again in our time would actionable intelligence 
necessary for effective action emerge. Obtaining better 
predictive intelligence requires strengthening human 
intelligence collection. Recruiting these exceptional sources 
requires effort, patience, ingenuity and professional zeal. It 
also depends upon a profound understanding of the intelligence 
targets that comes from the closest possible partnership 
between the CIA director of operations and intelligence.
    Fourth, intensified use of new technologies also is 
essential, particularly downstream information capabilities 
involving processing exploitation and efficient distribution. 
We need to enhance the Intelligence Community's cadre of 
computer science and technology experts, as well as expand 
public/private IT partnerships, building upon Director Tenet's 
innovative In-Q-Tel venture capital program.
    Fifth, we need to strengthen covert action capability, 
including paramilitary, while maintaining all of the necessary 
congressional consultations and oversights. Our military 
special forces are magnificent, but they are organized and 
trained to work best within the context of a larger declared 
military operation. There is a need for a strong CIA 
paramilitary capability for highly sensitive undeclared 
operations less compatible with the special forces traditional 
mission.
    Six, I believe we should seek the same ethic of jointness 
among our various intelligence units as Goldwater-Nichols 
initiated in the military. Requiring rotational assignments for 
intelligence professions in different agencies in the community 
can expose them to different techniques and points of view, 
create relationships that facilitate cross-agency cooperation 
and improve the performance of the overall community.
    Finally, we must address resources not only to collection, 
but also to analysis, including looking at new ways to fuse 
open source analysis with information from clandestine sources. 
We need to build better mechanisms to bring academic and 
private sector experts in close and constructive contact with 
the Intelligence Community. The National Intelligence Counsel 
has been used to recruit outside experts for periods in 
government. We should consider ways of expanding this 
cooperation, including a quasi-official institute to bring 
experts together in a classified context with intelligence 
professionals. And there are less formal ways to build virtual 
networks of cleared outside experts and government intelligence 
specialists.
    Mr. Chairman, in conclusion, let me simply say that the 
hardest challenge for policymakers is to recognize the larger 
context, to discern the bigger picture, to understand the 
historical forces and hear the sounds of distant footsteps. 
That requires the best possible Intelligence Community. For 
better or for worse, after September 11, nothing is 
unimaginable anymore. Our challenge is to summon and sustain 
the will to make our intelligence as good as it must be. Thank 
you very much.
    Chairman Graham. Thank you very much, Mr. Berger and 
General Scowcroft, for two excellent, thought-provoking 
statements. Our practice is to have the designated questioners 
who will ask questions for a period of approximately 20 
minutes. The House is leaving because of a vote that is under 
way. They will be returning in approximately 20 to 30 minutes. 
First, Senator Rockefeller and then Senator Shelby.
    Senator Rockefeller. Thank you, Mr. Chairman, gentlemen. I 
will repeat something I said this morning. This is, as Eleanor 
Hill said yesterday, the terrorists at the World Trade Center 
and Pennsylvania, the Pentagon, and that needs to be said 
because you want to free witnesses of any sense of the word 
going after people, trying to place blame until we know a lot 
more. So that the terrorists are at fault and that has to be 
made very, very clear.
    Now you represent very key intelligence policymakers in the 
years before 9/11, as opposed to this morning's panel which was 
some of each. And each of you has been involved for years in 
promoting reform. And I have here just at random--I mean, an 
endless series of reports, none of them thin, all of them huge 
and all of them recommending how do you bring the Intelligence 
Community together to work efficiently before 9/11, when the 
world changed forever. There is an enormous reluctance to do 
this.
    From my observation, I don't think very much has been done 
in a larger systemic sense and that troubles me. Each of you 
have already in your own way answered some of the questions 
that I have, but I want to follow up on them. You have the 
concept of how do you service customers. You suggested seven 
approaches. General Scowcroft, you are at work on something 
which you are probably not free to discuss but you have 
discussed with us in a classified setting, and so that the 
question of protecting the Nation at home and prosecuting the 
war on terrorism here and abroad occurs very deeply to each of 
you.
    The first thing that strikes me is why is this so 
impossible? Why is there such an ethic against change? I can 
give you some answers, but I am not interested in my answers, I 
am interested in yours. When everyone really goes at the 
subject of doing systemic change, I mean, if there was ever an 
opportunity that was handed this Nation and this Nation's 
intelligence effort and beyond that to reorganize ourselves in 
a way which protects the American people, which is our first 
responsibility under the Constitution, it is now, it is post 9/
11. And you would think people would be coming out of the 
woodwork in ways to do that, but that is not happening. Changes 
are being made at the edges. People are taking those changes 
and making them appear to be enormous events when they're not. 
Because as you said--I forget your phrase, Mr. Berger, but it 
was something like jointness, the ethic of jointness.
    They're all in this together and the intelligence 
communities are in this together. And yes, they do have 
separate missions and they do have certain things, but they 
have their own campuses and they have grown up NSA, no such 
agency. I mean they have grown up in a climate of quiet 
uniqueness, nobody to intrude, their own memorial gardens, 
which are sacred, their own cafeterias, their own way of doing 
things, directors come and go, the bureaucracy stays, nobody 
really challenges, and, since 9/11, people have gotten very 
interested.
    The question is what are we going to do about it? And you 
just start with the question of no single person over all of 
this. And we were told this morning that the new Under 
Secretary for Intelligence will be able to do that, bring all 
the different threads together. Can an Under Secretary, in 
fact, do that? Just drawing some thoughts and I want you to 
come back with some. I can't remember any director of the CIA 
who felt really at liberty, with controlling only 15 percent of 
the budget, with the Department of Defense controlling 85 
percent of the intelligence budget, you know, to equal 100 
percent, that they felt really able to wander beyond what they 
had the power to participate and authorize and their authorized 
limit, which in the case of the Central Intelligence Agency 
which the American people think is the source of all 
intelligence is 15 percent.
    Now if there's a crisis, if a satellite goes dead, if 
something happens, can George Tenet and any of his 
predecessors, whether there were similar situations or there 
weren't, go to the Department of Defense and say I need X 
hundreds of millions of dollars to do this kind of thing and 
will it happen? Probably not? Why? Because it is this Senator's 
opinion that they know they're going to lose that effort to 
improve their efficiency.
    So what do you make of a system where you have the 15 
percent/85 percent divide, where Mr. Berger is calling for a 
sharp increase in preemptive intelligence--and I agree, you 
can't make war without preemptive intelligence. You have to 
have good intelligence before you make good war. But what do 
you make of this? They have their own. The Central Intelligence 
Agency has their own. They both share in the control of a 
variety of other agencies, but the budget belongs to the 
Pentagon. What is the fear? What is the political fear?
    Is it the fact there are so many campuses out there that 
are complete and settled? Is it the fact that nobody wants to 
take on a big risk and nobody wants to take on the Secretary of 
Defense and if they do that, they are taking on the President 
maybe? I don't know. Why is it so hard to get us to focus 
particularly now on coordinating our intelligence efforts? That 
is my short question.
    General Scowcroft. I will try to give you a shorter answer 
than the questions. You make a number of very good points. My 
guess is if you look at those volumes that you showed us, they, 
in general, go in one direction, which is to--toward 
centralization of the Intelligence Community. The Department of 
Defense and the CIA or the DCI, let me say, the Secretary of 
Defense and DCI were both established by the legislation, 
National Security Act of 1947, and they were both sort of 
titular heads of agencies that were gathered together from out 
of the executive branches or executive departments of the 
government. Neither of them had significant powers.
    Now over a period since then, the Secretary of Defense has 
accreted a great deal of power. He still is not probably quite 
so much a czar as most other Cabinet heads are, but he has 
pretty much authority over his constituent elements. The DCI, 
despite his title of Director of Central Intelligence, has 
shared in no such accretion. There have been changes and they 
have generally gone on in that direction, but he still presides 
over a group of semiautonomous agencies.
    Now is that good or bad? There are some people who say 
organizational blocks don't matter, it's the people. And if you 
get the right people in, you'll get the job done. But I think 
in part that's true. But a good organizational structure can't 
make up for bad personnel. But a good organizational structure 
can make good people more efficient at what they do. But every 
time you take steps to increase the authority of the DCI, 
you're taking away authority from someone else. And no 
bureaucrat likes authority taken away from him, and so the 
resistance is significant. And by and large, there has been the 
crisis within the Intelligence Community as there has been in 
the Department of Defense having to fight several wars since 
1947 to get people to take that step.
    Now that's a pretty broad answer, but is 9/11 that 
precipitating incident? I don't know. I would just point out 
one thing. In May of 2001, the President established an NSPD 5, 
a review of the Intelligence Community. And I was honored to 
chair the external panel of that review. And that was the sense 
that even before 
9/11, that we had some problems here that needed to be worked 
on. Now that also conjoins me from getting into too much detail 
because that report has been submitted and is still classified 
and that is my initial response to you. It is the inertia; 
whether it's constructive or destructive depends on your 
philosophy about organization and its connection to management.
    Senator Rockefeller. Mr. Berger.
    Mr. Berger. Why is it so hard to change? Perhaps you should 
bring in a distinguished panel of psychiatrists, but let me 
give you my perspective from the intelligence side. I think 
that people tend to look at things from the inside out rather 
than outside in. So change means what about my carpool and what 
about the project I'm working on and how I fit into the new 
office. So there is a personal inertia. And then there is 
vested interest in the status quo. But I do believe 9/11 is an 
indispensable moment and so I believe the work of this Joint 
Committee is so important because the battlefield of the war is 
now here at home and therefore we have to be organized for that 
war.
    My own view, Senator, as I said in my remarks, I think 
organization does matter. I would have a Director of Central 
Intelligence who had overall authority for budget, planning and 
priorities working with his colleagues, not execution. He would 
not own the agencies, but he would have the ability to set 
overall priorities in concert with his colleagues under the 
direction of the President.
    Number two, as I indicated, I think there still should be 
two counterterrorism centers, but I think in the new Department 
of Homeland Security there must be a fusion center. It's an 
analytical center, not a collection center, with the ability to 
take all of this information you've been getting, all 400,000 
documents and try to see the patterns, that has the ability to 
task the agencies for collection and seen as a full partner in 
the intelligence process.
    And third, I think there does need to be a White House 
focused coordinating mechanism, because policy and intelligence 
are linked together, my own view is, best situated within the 
National Security Council than in an Office of Homeland 
Security. We can get into that later. It's a side issue. I 
think it's more central to the way we make decisions in this 
country involving national security. But I think this is the 
moment, Senator, that all of us have to try to change the way 
we do things and we can either do it----
    Senator Rockefeller. Reclaiming my time. I have an FBI 
question for both of you. We can either say this is what it 
ought to be, but then if we try to do that, everybody would 
say, oh, they are just fooling themselves. They're just naive. 
They're do-gooders. It will never happen. You accept that, you 
accept that and then by definition, you have immediately cut in 
half what it is that you seek which will then be leveraged down 
to 25 percent or below.
    So, I mean I just want that out there--the horror of 9/11 
and people talking about carpools and what kind of a Nation are 
we with respect to change. We are capable of doing some rather 
extraordinary things, and this ought to be one of them.
    My second and last question has to do with the FBI. I am 
interested, and I think that Mr. Berger, you were fairly clear 
on this and I think that you were, too, General Scowcroft. I 
would be interested in the quality of the intelligence that you 
received, each of you, in your own time from the Intelligence 
Community as compared to the FBI, and I would put that within 
the following context. I do not understand why it is that you 
have the obvious situation of you collect intelligence 
internationally, and that's central intelligence, and then you 
collect it internally and that can't be central intelligence 
because that's invasive.
    We have something that is called the PATRIOT Act, that says 
yes, you can cooperate on some things and all of a sudden 
there's an analytical group set up over in FBI of not very many 
people to do intelligence work. And they are trained in one 
kind of life as you said, General Scowcroft. They are trained 
to do one set of things. They are not trained to do the other 
set of things. We don't have the time. It takes five years to 
train good analysts anyway. So why is it that we're trying to 
make the FBI do something which I don't basically think it can 
do from this Senator's point of view. And I am interested, one, 
in what your views are about that and, secondly, what was the 
quality of the feedback that you got from each of those 
separate agencies on common threats?
    General Scowcroft. Well, that is an interesting question, 
Senator Rockefeller, because, as you first mentioned, I was 
thinking back to intelligence from the FBI, I mean, 
intelligence information from the FBI, and I was trying to 
think of cases where we actually got it. Not very much, because 
we are or I was focused on foreign intelligence primarily. 
There was some counterintelligence issues where the FBI 
intelligence was particularly involved, and the one case I 
mentioned, Pan Am 103, but that was investigative intelligence 
and the FBI and the CIA did an absolutely brilliant job on 
that. But I can't think of many--can't recall of any instances 
of pure intelligence product from the FBI. And I don't say that 
pejoratively at all.
    Senator Rockefeller. And I don't ask it in that fashion, 
because what they do, they do superbly.
    General Scowcroft. They do superbly. And it would be a 
shame to say now FBI, you are going to focus only on 
intelligence collection and we're not going to worry about law 
enforcement anymore. That would be a serious mistake. But I 
don't know how to answer your question because I can't separate 
FBI intelligence out very well.
    Senator Rockefeller. Mr. Berger.
    Mr. Berger. Senator, let me say first, there are 
extraordinarily dedicated people in the FBI and we have seen 
that since 9/11 as we have looked back. And the FBI had some 
successes here, for example, in breaking up the 93 days of 
terror. But by and large, if there was a flood of intelligence 
information from the CIA, there was hardly a trickle from the 
FBI.
    I think that relates somewhat to how they saw their 
mission. I think it relates to their sense of the al-Qa'ida 
fundamentalist threat in the United States--which I think 
either was much less by the end of 2000 than it seems to be 
today, or was underestimated--and the priority given to this 
area of counterintelligence.
    So it is a little bit like the person who looks for his 
keys under the light pole because that is where the light is. 
We were getting a lot of information on foreign threats. We 
were getting very little information on domestic capabilities 
and threats, and that obviously influenced the focus.
    Senator Rockefeller. I thank you both. Mr. Chairman, that 
concludes my questions.
    Chairman Graham. Thank you, Senator Rockefeller. Senator 
Shelby. Senator, before you commence--after Senator Shelby, we 
will then turn to questions from members of the committee, 
assuming that we are still in a situation where our House 
brethren have not returned. The order of questioning will be 
Senator Bayh, Senator Durbin, Senator DeWine, Lugar, Inhofe, 
Feinstein, and Kyl.
    Vice Chairman Shelby. Thank you, Mr. Chairman.
    First of all, General Scowcroft and Mr. Berger, we 
appreciate you coming here today and we appreciate your insight 
and your experience. I respect both of you. I especially 
appreciate Mr. Berger's insight into the creation of the 
intelligence component at Homeland Security. It is something 
Senator Graham and I have been working with both Senator 
Lieberman, Senator Thompson, the White House, and others to 
create what Mr. Berger described. We think it is very 
important. Without it, we doubt that Homeland Security could be 
what it needs to be to deal with this. So I appreciate your 
insightful remarks.
    I would like to pick up on, first, what Senator Rockefeller 
was talking about. We all respect the FBI. We know the FBI has 
no peer when it comes to forensic science, you know, 
investigations and stuff. I believe they are great and they 
have got great people there. And I believe Director Mueller is 
bringing leadership down there. But we will have to measure 
that with time.
    Having said that, Mr. Berger, on page 6 of your testimony, 
and I will quote again, it is similar to what you said earlier: 
I do believe the CIA was focused on the counterterrorism 
mission. What we have learned since 9/11 makes clear that FBI, 
as an organization, was not as focused. Director Mueller has 
acknowledged these problems. Until the very end of our time in 
office, this is the Clinton Administration, what we received 
from the Bureau was that al-Qa'ida had limited capacity to 
operate in the U.S. and any presence here was under 
surveillance.
    Gosh. I am not going to comment on that, but that is 
disturbing. And I think your remarks were true--ring true.
    I would like to get into something else now. Mr. Berger, 
first I will direct some questions at you. I have some 
observations to make first. In August of 1998, after al-Qa'ida 
bombed our embassies in Kenya and Tanzania, President Clinton 
had strong words about how we must deal with the terrorist 
threats. He declared, and I will quote, ``that countries that 
persistently host terrorists have no right to be safe havens. 
Our battle against terrorism,'' he said, ``will require 
strength, courage and endurance.''
    He pledged--that is, President Clinton--that we, and I 
quote, ``will not yield to this threat. We will meet it no 
matter how long it may take. This will be a long, ongoing 
struggle. We must be prepared to do all that we can for as long 
as we must.''
    President Clinton also went on and he warned that the risk 
from inaction from America and the world would be far greater 
than action, for that would embolden our enemies, leaving their 
ability and their willingness to strike us intact.
    President Clinton went on to say, and he promised, ``There 
will be no sanctuary for terrorists. We will persist and we 
will prevail.'' Those are very strong words. I agreed with him. 
I welcomed it. And they sound a lot to me like what President 
Bush has said recently and said just before we destroyed the 
Taliban regime in Afghanistan with overwhelming force.
    By the time he spoke those words, President Clinton, if I 
recall right, had already or about that time, contemporaneous 
with, launched a missile strike against a camp in Afghanistan 
and a pharmaceutical factory in Sudan. After that speech, Mr. 
Berger, what steps did the administration take to fight a 
decisive, clear battle against terrorism?
    Mr. Berger. Well, Senator, as you point out, first of all, 
when--after the attacks on our embassy in Afghanistan and--
excuse me, in Kenya and Tanzania--there were 12 Americans 
killed; a number, many more Africans. Quite soon, within 2 
weeks, we had developed very good intelligence indicating that 
200 to 300 bin Ladin operatives would be at a fixed location 
with bin Ladin. We attacked that facility. We killed many al-
Qa'ida people.
    What I was told afterwards is that bin Ladin had probably 
left a few hours before, indicating the difficulty of getting 
predictive intelligence, getting inside the tent cycle.
    We can talk about Sudan. I believe hitting that plant was 
the correct thing to do. I know that the Sudanese have paid a 
lot of money to lobby us with public relations firms to try to 
portray it as a toothpaste factory. I would be happy to make 
that case if you like, as to why that was an appropriate 
target. From that point on----
    Vice Chairman Shelby. That is a dispute----
    Mr. Berger. It may be disputed, but I believe we were 
correct then, and I believe we are correct now.
    Vice Chairman Shelby. Was there a dispute in the 
Intelligence Community?
    Mr. Berger. There was no dispute----
    Vice Chairman Shelby. As to whether or not this was a 
military target or an intelligence target?
    Mr. Berger. There was no dispute presented to the 
principals or the President.
    Vice Chairman Shelby. Okay.
    Mr. Berger. That facility was one in which there was VX 
chemical precursor found, which was owned by the Military 
Industrial Corporation of Sudan, which we knew was their 
vehicle for developing chemical weapons, which was--had 
received millions of dollars from bin Ladin. And we have 
actually learned since, from an al-Qa'ida operative, that they 
were working with Sudan on chemical weapons in Khartoum. And I 
would much rather be defending the decision to hit that place 
than not having hit that place, if two weeks later chemical 
weapons had shown up in the New York City subway system or in 
Alabama. So as for that, I believe that was the right decision 
to make. We proceeded on the information that we received. 
Whether down in the bowels----
    Vice Chairman Shelby. Do you believe that was good 
information?
    Mr. Berger. I have gone back to the Agency on a number of 
occasions, because I have been defending this from time to time 
since. And at the highest level, that information has been 
validated to me.
    Now, with respect to what else was going on, from 1998 on, 
we were embarked on a very intense effort to get bin Ladin, to 
get his lieutenants, through both overt and covert means. I 
cannot discuss in this committee the covert efforts, which 
involved working with----
    Vice Chairman Shelby. Let me go back. You said 1998. What 
about 1996? Was he ever offered up by the Sudanese people? I 
was recently--Senator Spector and I were in Khartoum. They told 
us that they offered him up to the Clinton administration and 
that you all declined. Was that a real offer or was that just 
talk or what?
    Mr. Berger. Senator, can I answer the last one and then get 
to the next one?
    Vice Chairman Shelby. Sure.
    Mr. Berger. You ask them faster than I can answer them. You 
asked what we did after 1998. We were involved--at that point, 
our intense focus was to get bin Ladin, to get his key 
lieutenants. The President conferred a number of authorities on 
the Intelligence Community for that purpose.
    Vice Chairman Shelby. By ``get him,'' that meant kill him 
if you had to, capture him or kill him?
    Mr. Berger. I don't know what I can say in this hearing, 
but capture and kill--until the Chairman rules me out of order. 
There was no question that the cruise missiles were not trying 
to capture him. They were not law enforcement techniques. We 
unfortunately, despite intense effort, had actionable 
intelligence only that time.
    Whether more could have been done to get more actionable 
intelligence, I don't know. We developed some new techniques at 
the end of 2000, some technical means to get corroborating 
information on bin Ladin's whereabouts. Those were tested 
successfully in 2000. I don't know if they were used again 
after 2000.
    So our focus was, in addition to breaking up al-Qa'ida 
cells around the world, in addition to a number of other things 
we were doing, our focus was getting bin Ladin, A, and B, 
putting pressure on the Taliban. We froze Taliban assets, about 
$250 million. We went to the United Nations. We got sanctions 
on the Taliban. We sent senior diplomats to meet with the 
Taliban and issue to them privately the same threat that 
President Bush issued publicly after September 11; that is, if 
there were any further incidents involving bin Ladin, they 
would be held personally accountable as the Taliban.
    So I think that was intense effort. I think that it was 
directed at personnel, it was not directed at jungle gyms or 
facilities. We--I think the judgment was to hit a camp and not 
get top bin Ladin people would have made the United States look 
weak and bin Ladin look strong. And I think the potential of 
going to war with Afghanistan before 9/11 was not something 
that I think was feasible. No one on this committee was seeking 
that, or, I think, elsewhere.
    Now, you ask about Sudan. There never was an offer, 
Senator, from Sudan to turn bin Ladin over to the United 
States.
    Vice Chairman Shelby. Were there discussions?
    Mr. Berger. There was an effort in 1996----
    Vice Chairman Shelby. Were there discussions?
    Mr. Berger. There was an effort in 1996 taking place. There 
were contacts with the Sudanese. Understand, Senator, the 
Sudanese Government in the mid-1990s was one of the worst 
terrorist states in the world. Close to Iraq. They tried to 
assassinate Mubarak. They have been engaged in a civil war in 
which two million of their people have been killed. They have 
bombed their own people at feeding facilities. They practice 
slavery and discriminated in gross ways against the Christian 
community in that--these were not nice people. That is point 
number one.
    Number two, we tried to--they wanted to get off the 
terrorism list. We put them on the terrorism list in 1993 
because of all of this and many other things. They wanted to 
get off the terrorism list. And from time to time they would 
say just, you know, take us off the terrorism list and we will 
be nice guys.
    We said, do something. Prove it. Get rid of bin Ladin. 
Expel all of these other groups. There never was--and I spent a 
great deal of time on this since 9/11 because the question has 
come up more than once--there never was, and certainly no 
official I have talked to at any agency is aware of any offer 
by the Sudanese to turn him over to the United States.
    We pressed the Sudanese to expel him. We actually had 
discussions, I believe, with the Saudis and others about 
whether they would take him. They said no. But the Sudanese 
never offered that. They have said so since, most recently.
    And if I can say this in conclusion, if you think that 
Tarabi and Beshar, who were as vile a bunch of thugs as exists, 
was going to turn Usama bin Ladin over to a hostile country, 
whether Saudi Arabia or the United States, I think that 
overestimates the kind of people we were dealing with.
    We gave them every opportunity, from 1996 on, even after--
let me just finish, Senator--even after bin Ladin was expelled, 
to give us information, to turn over information. We met with 
them continually all over the world. They never gave us 
anything. Since 9/11, there is a bit of revisionism going on, 
because they don't want President Bush to single them out as 
the next target. And there is obviously an attempt to rewrite 
history.
    Vice Chairman Shelby. Do you think they have changed very 
much since September 11 last year?
    Mr. Berger. Well, I am just reading now that they are 
probably taking al-Qa'ida resources back to Sudan. That is--
they now, according to what I have read, even though--the 
Sudanese now is where the al-Qa'ida are transferring gold and 
other materials, al-Qa'ida resources. So it doesn't sound to me 
as if they have made much of a fundamental break, although they 
have had some negotiations with Senator Danforth about ending 
the civil war.
    Vice Chairman Shelby. Back in 1996, had there been a 
decision made at that point in your discussions at the National 
Security Council to take, if you could, Usama bin Ladin dead or 
alive, if you could? Had that decision been made then or was 
that----
    Mr. Berger. I think in 1996 that decision was never 
presented. I think there had been a discussion, as I understand 
it, at the CSG, at the assistant secretary level, about could--
could we find some place to take him. Could we take him here, 
could we take him to Saudi Arabia? But those were hypothetical, 
because we never had such an offer from the Sudanese.
    And in 1996, Senator, I don't believe that the law 
enforcement community had evidence linking him to attacks on 
the United States. We have subsequently found out since 9/11 
that there may be linkages between bin Ladin and World Trade 
Center 1993 and other activities.
    Vice Chairman Shelby. In 1996, you were very interested in 
him?
    Mr. Berger. In 1996 he was certainly on the radar screen. 
He was not as--I would say this: In 1996 he was on the radar 
screen. In 1998 he was the radar screen.
    Vice Chairman Shelby. He was. Okay.
    I want to shift over to, Mr. Berger, something else I think 
you know something about. The White House Commission on 
Aviation Safety and Security, headed by Vice President Gore as 
I understand, recommended that the U.S. develop and implement a 
system of airline passenger profiling.
    According to the Commission, and I quote: ``Based on 
information that is already in computer databases, passengers 
could be separated into a very large majority who present 
little or no risk, and a small minority who merit additional 
attention.'' These are techniques that the Customs Service has 
long used and which could have played an important part in 
preventing terrorists from being able to commit the attacks of 
September 11.
    As I recall, and you might correct me, did anything ever 
come of the Commission's recommendation for doing this? In 
other words, were those recommendations implemented?
    Mr. Berger. As I recall, Senator, the Commission was 
established after TWA 800, which at the time we thought was a 
terrorist act. We subsequently concluded that it was a 
mechanical failure. But I remember very well the night that the 
plane went down and we were very concerned that it was a 
terrorist attack.
    One of the things that President Clinton did was to appoint 
this Commission to look at aviation security. That Commission 
came up with a number of recommendations. My understanding is 
some were implemented, some were not implemented by the FAA, 
some were not implemented by the Congress. So I think--I can't 
tell you piece by piece, since I was not directly involved in 
that, which recommendations were implemented, which were--which 
died at the FAA and which died in the Congress.
    Vice Chairman Shelby. Mr. Berger, the National Security 
Council sets priorities, as I understand it, and allocates to 
some extent resources to the most important issues. How high on 
the screen did fighting al-Qa'ida rank on your list of 
priorities up until the time, January 2000, that you left?
    Mr. Berger. Well, I will take this in a couple of stages, 
Senator. In 1995 the President issued PDD-35, which for the 
first time was an organized system of establishing intelligence 
priorities. And I think General Scowcroft has very well 
described the situation prior--in the 1980s--where the focus 
was more on the Cold War and more on the post-Cold-War issues.
    So in 1995, we set up a system for setting and periodically 
reviewing intelligence priorities. At that point, intelligence 
was placed at a level exceeded only by support for military 
operations and a few key countries such as Iraq. And at the 
same time, the President issued PDD-39, which essentially 
directed the agencies to give terrorism the very highest 
priority. So I think from 1995 on, budgets started going back 
up. The focus was more intense. The bin Ladin cell was set up 
at the Agency. I guess he is probably the only terrorist that 
had his own acronym, a dubious distinction. We were obviously 
increasingly focused.
    And I think with 1998, with the bombing of the African 
Embassy, where for the first time the intelligence and law 
enforcement community was able to say to us, this is al-Qa'ida, 
this is bin Ladin, that is the first time we had been able to 
have that kind of predicate. I think at that point bin Ladin 
and al-Qa'ida were among the highest priorities of our 
administration.
    Vice Chairman Shelby. My yellow light is on. Thank you, Mr. 
Chairman.
    Chairman Graham. Thank you, Senator.
    Senator Bayh.
    Senator Bayh. Thank you, Mr. Chairman.
    Thank you, gentlemen, for your testimony today and for your 
excellent written submission to the committee. I want to thank 
you both for your service to our country.
    I was particularly interested in your remarks about the 
importance of coordinating and improving the communication 
among the different service branches. Senator Rockefeller asked 
about that at some length, so I won't get into that.
    Sandy, I would like to ask you--Brent, I think you covered 
it pretty well in your comments--you suggested that within the 
Department of Homeland Security there be a unit focused upon 
coordinating intelligence. What does that say--what is your 
opinion about how that would interface with the FBI? Does that 
mean that you agree with Senator Rockefeller's skepticism about 
whether the FBI can be reformed to carry out that function or--
--
    Mr. Berger. No, I don't think it devalues or undermines the 
FBI in any way. I think that we could either reform the FBI to 
make it more focused on counterterrorism or invent a new 
institution and have to build it from scratch. It seems to me 
to make more sense, at least in the first instance, to try to 
make the FBI, as Mr. Mueller is trying to do, into primary 
focus counterterrorism prevention. They do have a lot of 
talented people and skills in investigation.
    Now they are collecting essentially and analyzing. CIA is 
collecting and analyzing. They both have CTCs, counterterrorism 
centers. One of the things that we did, by the way, is we took 
an FBI person, and made him deputy at the CIA Counterterrorism 
Center. And we took a CIA person and made him or her deputy at 
the FBI CTC center. Obviously that was helpful, but not enough.
    We also had a counterterrorism group that was taking the 
information that it had and looking at it collectively. But I 
believe to have a fusion cell in the new department would not 
be a collection agency, it would be an analytical function. It 
would take all of the information that it got from the CIA, 
that it got from DIA, that it got from NRO, that it got from 
FBI, and it would be dedicated to looking at this. And if it 
was a second pair of eyes or set of eyes to what was happening 
in the constituent agencies, all the better.
    Senator Bayh. This is something, from my perspective, the 
two big issues that we need to grapple with, going forward, are 
how to better coordinate and improve communication among the 
different agencies. You have spoken to that. Senator 
Rockefeller spoke to that.
    And then what to do about our domestic security and 
intelligence-gathering intelligence capacities and how to 
optimize those. I must say that--I told this to Senator 
Rockefeller--I share some of his concerns in this area. It is 
one of the big-picture items I think that we need to think 
through. So we deeply appreciate the insights that both of you 
can share with regard to that.
    Just a couple of other things, because I know that I don't 
have much time. This is little bit sensitive, but I think we 
need to address it. We are now focused upon Iraq and what to do 
about the weapons of mass destruction there, largely being 
driven by their leader, Saddam Hussein.
    The question, gentlemen: Specifically, I would be 
interested in your perspective on both--as you know, it is 
prohibited by Federal statute, it is a felony for us to 
authorize the killing of a head of state.
    And there are other--well, there are Executive orders that 
restrict our ability to eliminate individuals who are non-heads 
of state. Is that a policy we should rethink? And we are in the 
process here of putting an untold number of American servicemen 
and women in harm's way, and yet we are constrained from 
accomplishing a similar objective through more precise and 
direct means?
    Do either of you have an opinion about whether we should 
revisit those restrictions?
    Mr. Berger. I think they were put into effect when General 
Scowcroft was National Security Adviser the first time, so I 
will defer to him.
    General Scowcroft. I believe that we should probably 
rescind them. One of the objections to rescinding them is that 
it encourages terrorists to think that it is okay to eliminate 
heads of state. But it gets us into all sorts of complications 
and drawing legalistic lines. One of the things that we found 
out in 19--let's see, 1989--there was an attempted coup in 
Panama, and we tried to help a little, but not very much. After 
we were looking into it, what we found is that some of the CIA 
personnel who were--I wouldn't say involved, but who knew about 
it and were meeting with the coup plotters and so on, were 
concerned about being accessories; because if you mount a coup, 
you know, it is very likely there are going to be some people 
killed.
    So we tried afterwards to amend the Executive order to take 
account of that. But it seems to me highly legalistic. It was 
designed specifically after the investigations of the 
Intelligence Community in 1975, with some pretty farfetched 
attempts at Fidel Castro.
    I think it is anachronistic, and we ought to be duly 
respectful of all reasons why you might not want to do that, 
but to be proscribed I think is a mistake.
    Mr. Berger. Senator, let me have an--I don't know whether 
this is a slightly different perspective or not. The Executive 
order was--we received rulings from the Department of Justice 
that the Executive order did not prohibit our ability--our 
ability to prohibit our efforts to try to kill bin Ladin, 
because it did not apply to situations in which you are acting 
in self-defense or you are acting against command and control 
targets against an enemy, which he certainly was.
    Query whether or not actions against--if self-defense can 
justify a war, then presumably it can justify somewhat more 
surgical action. So while I do have some of the concerns that 
General Scowcroft has, if I believed that it was not an 
impediment to surgical actions with respect to an enemy, as it 
was not in the case of bin Ladin and might not be in the case 
of Saddam Hussein, I would then have to measure the fact that 
as a practical matter it didn't stop us from doing anything.
    From the public international blowback that we would get 
from the symbolic statement that we are now going to go around 
killing foreign leaders, I think it depends a lot on whether it 
is a practical constraint about doing--with respect to dealing 
with Saddam Hussein, what the President may believe is 
necessary. I believe legally, based on rulings that we got, 
that it would not be a bar to targeting in self-defense a 
command and control target. And if the head of the army is not 
a command and control target, I don't know what is.
    Senator Bayh. Mr. Chairman, I see my time is expired. I 
would just add one comment. We have heard, and we can't discuss 
it in this forum obviously, but we have heard from some of the 
folks who deal in these kind of areas. They are pretty 
reluctant, absent an express authorization, to wander too far 
down that path for fear of having the wrong legal 
interpretation and someday being faced with a lawyer who has a 
different analysis of some kind.
    So I do think that it is an issue we ought to----
    Mr. Berger. They certainly would have to have clarity from 
the President of the United States or something like that.
    Chairman Graham. Thank you, Senator Bayh. Senator Durbin.
    Senator Durbin. Thank you very much, Mr. Chairman, and 
thank you both for joining us. I have listened to the line of 
questioning from Senator Rockefeller, Senator Bayh, and others. 
It seems to be very apparent to us as we review the 
capabilities of the agencies that are tasked with gathering 
intelligence that there is a wide disparity in their 
information technology and capability. I would say that the FBI 
is barely out of the Stone Age in terms of computer capability. 
Other agencies apparently, National Security Agency and others, 
are very sophisticated.
    I would like to ask General Scowcroft and Mr. Berger, under 
your watch, who had the responsibility of oversight on 
something as basic as the information technology of each of 
those agencies and their physical ability to gather, review, 
coordinate, and share information?
    General Scowcroft. That is a very good question, Senator. 
And I think the answer is it depends on the particular 
intelligence agency and who it belongs to. And in many cases 
it--there is divided responsibility. And what has really 
happened is each one of the individual components has built 
their own system. And in many cases the systems can't talk to 
each other.
    Senator Durbin. Were you aware of that?
    General Scowcroft. Yes.
    Senator Durbin. Were any efforts made during your watch to 
address that?
    General Scowcroft. Yes. And there has been some progress 
made in combining systems or inputting what I would call an 
interpreter, an electronic interpreter to allow the search to 
go on. But there is no enthusiasm in many cases to share this 
data. Each one likes to keep the family jewels.
    Senator Durbin. I was afraid you were going to say that. I 
was afraid that it wasn't just a matter of a breakdown of 
computer architecture, but it really was a mindset that said, 
``why would we want to talk to those people?''
    General Scowcroft. That is some part of the problem that--
this is a subset of a larger problem that I think that Senator 
Rockefeller talked about.
    Senator Durbin. Thank you. Mr. Berger, would you address 
that as well?
    Mr. Berger. Senator, in some cases this is a matter of 
collective priority or a matter of priority for the President 
or for the National Security Adviser. Early on in our 
administration, for example, it was the judgment of the then-
DCI that our satellite infrastructure was woefully inadequate 
and that we had to make major investments to deal with the 
information technology, communications technology revolution. 
And so in the early 1990s we spent more money on satellites. 
That was something we shared, an overall assessment that was 
done with Congress.
    Senator Durbin. Who had the corporate responsibility of 
directing that discussion?
    Mr. Berger. There was enough money involved that that was a 
matter that both--this committee, both committees, as well as 
the Office of Management and Budget was involved in and the 
overall budgeting process. This was a big chunk of money to 
rebuild, update our satellite system. So in some sense it is 
overall responsibility. I would say the day-to-day management 
systems within a particular agencyare generally the 
responsibility of the head of the agency. It is not possible from the 
NSC----
    Senator Durbin. Mr. Berger, the point I am making is this: 
what they serve in the cafeteria at the FBI, as opposed to the 
CIA, is irrelevant. But their computer technologies, and 
whether or not they are complementary and consistent with the 
architecture of computers at other intelligence agencies would 
seem to be a matter of national security. And when we find in 
our first Judiciary Committee oversight hearing of the FBI last 
year, the first one I think in 12 or 14 years, maybe longer, 
the primitive state-of-the-art of computers at the FBI, it 
suggests no one was watching. Not just under your watch, but 
going back for the first----
    Mr. Berger. Well, those budgets were increased 
substantially. I think it would be worth looking at what 
happened to that money. The CT budget in FBI, according to 
Director Freeh, increased 350 percent. So I think it is worth 
looking inside that and finding out what the allocation was.
    Senator Durbin. But----
    Mr. Berger. Like I say, they were efforts to increase 
coordination. And in particular, we energized a high-level 
senior group that--the Counterterrorism Security Group--these 
were assistant secretaries for security--for counterterrorism 
in all of the key agencies. They met three, four, sometimes 
every day, to look at intelligence.
    Now, I think looking post 9/11, not everything was always 
provided to that central mechanism. So there has to be a 
willingness, and this gets I suppose to culture, on the part of 
the agency to----
    Senator Durbin. I am out of time.
    Mr. Berger [continuing]. To share that information.
    Senator Durbin. I think this is emblematic of what the 
challenge is. If we do not have one person at the top of the 
heap somewhere near the White House, if not there, who is 
taking a look at something as basic as information technology 
at these agencies and saying that they ought to be able to 
communicate with one another if they wanted to, how will we 
ever reach the point of having a conversation where they can 
meaningfully be told to communicate? We seem to have lacked 
that in previous administrations. If we are talking about 
reforming intelligence, I hope this is part of it.
    Mr. Berger. I think some efforts were made, but more 
efforts need to be made, Senator. Absolutely.
    Chairman Graham. Thank you, Senator Durbin.
    Congressman Reyes, I had indicated that you were going to 
be the next questioner, and then two persons who were here this 
morning have arrived. And so staying with our first arrival 
policy, it will be Congressman Castle, and then Congressman 
LaHood and then Congressman Reyes.
    Mr. Castle. Thank you, Mr. Chairman. I unfortunately missed 
a lot of your testimony because of other responsibilities, 
including voting on the floor. So I am not exactly sure what 
has been stated, so I apologize if I am replowing land you have 
just plowed moments ago. But I am just interested in the broad 
conclusion of whether based on what we heard yesterday--you 
probably read about it in summaries, if you didn't see it at 
all--about what we actually knew or did not know with respect 
to al-Qa'ida in the Intelligence Community.
    And my first question is, is it your judgment that we knew 
and we had broadcast the fact that they were capable of 
carrying out a mass casualty attack on U.S. soil? One of my 
concerns, frankly, is that sometimes we don't talk publicly 
enough about the potential threats, which could embrace all 
Americans in helping prevent it.
    And my question to you is: Was that something which you 
felt was publicly an issue before it happened on September 11, 
2001, beyond just the Intelligence Community knowing?
    Mr. Berger. Well, I think there was--again, you have to see 
this like a photograph developing in developer, which becomes 
clearer over time, and certainly becomes clearer after 9/11.
    But I think that as we got into 1997, 1998, it was clear 
that there was an al-Qa'ida network that bin Laden was at the 
center of. This was something that we talked about a great 
deal. I said earlier, Congressman, that, you know, in June of 
1998, I said on television, bin Laden is the number one 
terrorist threat to the United States.
    And where there were--the President spoke about terrorism 
and al-Qa'ida and bin Laden very frequently. I mean, I provided 
the committee staff a book, 270 single-spaced pages of 
statements that President Clinton made about terrorism, al-
Qa'ida, bin Laden, over the 8 years, this thick.
    Where there was specific threat information, obviously that 
was provided. But we did not really have, as I said earlier, 
specific threat information with respect to the United States. 
And I think that the threat in the United States was 
underestimated.
    The threat information we generally had, for example, we 
had threat information that the Tehrani Embassy in Albania was 
going to be attacked. We sent 300 marines and stopped the 
attack.
    During the Millennium, we warned the American people that 
there was a general threat of terrorist activity during the 
Millennium. I have talked about what we did in that connection. 
But I don't think there was specific threat information with 
respect to the United States that we did not provide. And in 
general I think, as I said earlier, the threat picture in the 
United States I think was not sufficiently seen.
    Mr. Castle. I am not trying to play the blame game at all 
with this. I am one of those who wishes very much to resolve 
these problems as far as the future is concerned.
    But I mean, you were there in 1998 when the attacks took 
place as the National Security Adviser, and bin Laden at that 
point was clearly identified by everybody. And yet we had 
testimony yesterday that the FBI really didn't have a lot of 
resources focused on this. And my sense is that even though 
most of us who have worked on this committee or at the White 
House knew about this, that perhaps the actual Intelligence 
Community did not have quite the focus we would like to have on 
bin Laden. And I realize that the President did and I realize 
that you did.
    But the question is, in a broad sense: Did we in the 
Intelligence Community as a whole--this is not faulting anybody 
when I say this--have the focus that we should have had on bin 
Laden in retrospect? I realize in retrospect everything is a 
little bit simpler.
    Mr. Berger. Congressman, I was puzzled by the statement by 
the FBI that they didn't understand----
    Mr. Castle. The statement yesterday?
    Mr. Berger. That I read in the paper today, that they 
didn't understand the al-Qa'ida/bin Laden threat. They met 
three times a week in a highly secret Counterterrorism Security 
Group in which all of this information was on the table.
    We went through the Millennium together, where we knew that 
there would be--we were told that there would be five to 15 
attacks in the United States. We met at the White House at the 
highest level, Attorney General, Director Freeh, Secretary of 
State, every single day for a month, for at least an hour. We 
were a high-level fusion cell, if you want to call it that, 
during the Millennium period. And nothing happened in the 
Millennium. I believe we stopped some things from happening.
    How you can walk away from those experiences and not 
understand--we are trying to kill bin Laden, we dropped cruise 
missiles on him. How you could not understand--I think this is 
an internal FBI issue of communication from the top to the 
field, and field to the top.
    But there was no question, I think, that al-Qa'ida was a 
threat, bin Laden was a threat, certainly within all of the 
elements of the Intelligence Community.
    Mr. Castle. My time is up and I can't ask you another 
question I wanted to ask you, but maybe we can discuss it 
someday. And it would have been whether you were satisfied with 
the extent of our human intelligence during the period of time 
that you were in the White House.
    Mr. Berger. I would be happy to at any time, Congressman.
    Mr. Castle. Thank you. I yield back.
    Chairman Graham. And will you give us the answer to the 
question?
    [See Mr. Berger's responses to questions for the record.]
    Chairman Graham. We have had another member added to our 
list. So the questioning now will be Mr. LaHood, Mr. Chambliss, 
and then Mr. Reyes.
    Chairman Goss. I am sorry; Mr. Chambliss did speak this 
morning.
    Chairman Graham. I am sorry; clerical error. You did speak 
this morning. So it is Mr. LaHood and then Mr. Reyes. Mr. 
LaHood.
    Mr. LaHood. Well, thank you for your fairness in conducting 
this hearing, Mr. Chairman; we appreciate it.
    Can I ask both of you gentlemen, were you shocked and 
surprised on 9/11 or 9/12, and after you began to learn about--
I don't mean shocked from a personal point of view, but shocked 
at the news--who the people were; who was involved; how they 
did it--and particularly you, Mr. Berger, after just coming off 
of having worked in the administration in such a high-level 
position, and I know you worked very hard and spent a lot of 
hours on a lot of these activities.
    But I am wondering, though, when you read the details of 
what happened, were you surprised by any of it, in terms of the 
people involved and how they did it, and how they carried it 
off, and the fact that they were able to do it?
    Mr. Berger. I was not surprised, Congressman, by who was 
responsible, for a second. I was stunned by the magnitude of 
this. Surprised by how they had used primitive, in a sense, 
instruments. This was not--we had spent a lot of time on trying 
to anticipate weapons-of-mass-destruction threats, trying to 
build up our stockpile of Cipro, trying to build up our 
smallpox vaccines, trying to get first responders training, 
beginning to anticipate a potential WMD attack.
    So I was not surprised by responsibility, because I thought 
it was the only terrorist organization that had the capability 
of doing simultaneous activities like that. I was surprised by 
their ability to strike here as sharply as they did, and I 
suppose by their ability to take box cutters and airplanes and 
turn them into weapons of mass destruction. But not by 
responsibility.
    Mr. LaHood. Mr. Scowcroft, do you have any comments?
    General Scowcroft. Yes. I was not surprised. I was 
horrified. I was surprised at the coordinated nature of the 
attack. That did surprise me.
    But I would say, you know, the safest place in the world 
for a terrorist is inside the United States, because then he 
becomes a U.S. person with a lot of protections that we don't 
give him or anybody else outside. And so as long as they don't 
do something that trips them up against our laws, they can do 
pretty much all they want.
    So all you have to do is pick some people that are clean to 
start with, that don't have records, and they can do all of 
those things. And so I think what, in a sense, what we are all 
surprised at--we have had this notion ever since really 
terrorism became a threat--that somehow the United States was 
immune. It was just too complicated for them to extend their 
organizations and to mount a sophisticated attack inside the 
United States. This was not actually very sophisticated, but it 
didn't really have to be, given the freedom with which they can 
operate, go in and out and back and forth.
    Mr. LaHood. Mr. Berger, were you surprised or shocked at 
the level of noncommunication between and within agencies that 
were in the business of collecting intelligence and sharing it 
with the highest levels of our government?
    Mr. Berger. I have been continually disappointed since 9/
11, Congressman, just reading the newspapers about the 
difficulties of communication within agencies from people in 
the field up, and the fact that there was inadequate sharing of 
information between them.
    Mr. LaHood. Do you think that was true during your 
stewardship?
    Mr. Berger. Well, we tried to address the horizontal 
communication issue in a number of ways. I think probably it 
was better, but it was not sufficient. We energized, we got all 
of the key players in a room three times a week, or sometimes 
every day, to go through all the threat information and to 
share it and talk about what to do about it, what more they 
needed to do. The FBI was there, the CIA was there, the Justice 
Department was there, number one.
    Number two, we took a--we decided that an FBI person should 
be deputy at the CTC, at CIA, and vice versa. So we took steps 
to increase horizontal coordination, and I think it probably 
was better. But it is clear that not everything was being put 
on the table.
    Mr. LaHood. Can I stop you, because I had one other 
question. Both of you have served in high public office and 
both--I know Mr. Scowcroft has been on commissions. There is an 
idea floating around Washington and around Congress to 
establish a blue ribbon commission to look into what happened. 
I would appreciate your thoughts on that idea.
    General Scowcroft. I am not sure we need a blue ribbon 
commission on what happened. I think that we have a pretty good 
idea in general what happened. And the kinds of questions that 
you are asking, whether they were precisely responsible, I 
think we ought to start looking forward and fix the things we 
know need fixing, whether or not they were precisely 
responsible.
    Mr. Berger. I don't know what my answer is to that 
question, Congressman. There obviously is a trade-off here 
between past and future. There is a trade-off between open and 
secret. I want to get the answers, I want to fix things, 
whatever is the best way to do that.
    Mr. LaHood. Thank you, Mr. Chairman.
    Chairman Graham. Thank you, Mr. LaHood. Mr. Reyes.
    Mr. Reyes. Thank you, Mr. Chairman, and I apologize for not 
having been here before, but we were finishing up on the House 
side and I just now got an opportunity to leave there. I wanted 
to welcome both Mr. Berger and General Scowcroft, who I have 
had the opportunity to talk with extensively. General, we 
served on the oversight--civilian oversight for the Air Force 
Academy. And ironically enough, some of the conversations 
dealing with today's subject we discussed about the commissions 
that were talking essentially about not if there was going to 
be an attack on the homeland, but when it was going to occur. 
And, of course, Mr. Berger on many occasions on Air Force One, 
traveling with the President, discussing many different issues.
    But I am curious first, General, what you recommend--given 
your statement that the safest place for a terrorist is in the 
United States. What are your recommendations to resolve that 
dilemma that we are facing?
    General Scowcroft. Well, I think in general we ought to 
look at terrorism this way: that aside from one thing--which is 
to try to penetrate terrorist networks and activities--is that 
every time the terrorists speak, every time they move, every 
time they spend money, every time they get money, there are 
some traces of those activities.
    Now, theoretically it is hard to find them. But 
theoretically you can. There are several problems, though, 
because in those activities there are similar activities of 
millions of other people doing innocent things the same way. 
How do you distinguish between them? And also, how--since many 
of those may be in a foreign language--how do you get them 
translated quickly enough to be able to act on them? And in 
addition, you are dealing with volumes that are horrendous. I 
think we need to look at technology here for a solution to each 
one of those.
    And the one I didn't mention, of course, is how you look 
through all of these without violating the privacy of all of 
those innocent individuals doing it. I think you can do some 
things with machines and technology, before they get to human 
beings, that help preserve the privacy things and still let us 
get more of a handle than we are able to do now.
    Mr. Reyes. Because one of the big concerns that a lot of us 
have in Congress are concerns dealing with minorities and 
racial profiling and those kinds of issues. You know, I was 
asked early on whether I thought it was a good idea to do 
racial profiling and fingerprinting individuals coming out of 
specified countries that the Attorney General had commented on. 
And I said, well if we are going to do that, then perhaps we 
need to go back and fingerprint everybody in Oklahoma because 
of Terry McVeigh.
    The point there is that we want to make sure that we don't 
do exactly what you are talking about, General, and that is 
trample on the civil rights, because the first ones trampled 
would be the minority community. And we are seeing a lot of 
those kinds of issues surfacing already, and I am very much 
concerned in that regard. And I appreciate your comments along 
those lines, which leads me to the second point.
    Wouldn't it make sense to be able to, in addition to the 
official role that we play here as Members of Congress with 
these hearings and this mandate, to have a commission that 
would be composed of people that could bring different talents 
and different expertise to looking at the events of 9/11, to 
get a different perspective, including the issue of protecting 
minorities and racial profilings and all of those? Don't you 
think that would help give a different perspective than the one 
we generally give here?
    General Scowcroft. Well, it might. And of course, we don't 
know what we don't know. One of the things for a commission to 
look at is to find out all of the things we know.
    But I would--I would say it would be very valuable at least 
to have an information technology group skilled enough to try 
to deal with the problems that you raise, and I suggested a way 
to deal with them, because there may be--technology may be able 
to give us the access that we need to the people we want, 
without trampling on anybody else.
    Mr. Reyes. Thank you. I am out of time. The time runs 
faster over here, Mr. Chairman. I am not used to this galloping 
pace.
    Chairman Graham. There is a reason for that. I will explain 
it to you later.
    Mr. Reyes. Thank you, Mr. Chairman.
    Chairman Graham. I understand that Congressman Chambliss 
was shorted on his full five minutes. So as we begin the second 
round, I will call on him and you will have a full five minutes 
now.
    Mr. Reyes. Mr. Chairman, I think I was shorted, too.
    Chairman Graham. Same clock.
    Mr. Chambliss. Thank you very much, Mr. Chairman.
    Mr. Berger, during the Clinton administration, was bin 
Laden ever offered up to the United States by any country?
    Mr. Berger. No. I have a longer version of that answer 
which I provided to Senator Shelby earlier. But the short 
answer is no.
    Mr. Chambliss. That is fine.
    During the time you acted as National Security Adviser, did 
you and your colleagues ever reach the conclusion that 
offensive action needed to be taken against al-Qa'ida as well 
as bin Laden himself?
    Mr. Berger. Yes.
    Mr. Chambliss. When was that conclusion reached?
    Mr. Berger. From August 1998, the first time that the 
intelligence and law enforcement community, particularly the 
Intelligence Community, was able to say to us this is the 
responsibility of al-Qa'ida and bin Laden. From that point on, 
the President authorized a series of overt and covert actions 
to try to get bin Laden and his top lieutenants.
    Mr. Chambliss. Did you develop any plan to dismantle or 
disrupt or go after the al-Qa'ida organization?
    Mr. Berger. Yes. And, in fact, the Intelligence Community 
worked with intelligence agencies around the world from 1997 
on. Al-Qa'ida cells were dismantled, disrupted in about 20 
countries.
    There was not as much receptivity, Congressman, today--then 
as there is today. There were some countries which did not take 
the threats as seriously then as today. We were more protective 
of civil liberties and ethnic communities than today, but there 
was an active and aggressive effort by the Intelligence 
Community, working with liaison agencies, to disrupt and 
dismantle al-Qa'ida cells. And that succeeded in more than 20 
countries.
    Mr. Chambliss. During the latter weeks and months of the 
Clinton administration, was there a plan developed and proposed 
by you and your colleagues to the Clinton administration with 
respect to----
    Mr. Berger. You mean to the Bush administration?
    Mr. Chambliss. Well, initially I would like to know if it 
was proposed to President Clinton.
    Mr. Berger. We were continually looking at what we were 
doing, looking at new techniques, looking at new steps we could 
take. In the fall--in February of 2000, for example, I sent a 
memo to President Clinton outlining what we were doing. And he 
wrote back, this is not satisfactory. It was particularly 
related to how you find this guy. We have got to do more. And 
that prompted us to work with the Intelligence Community and 
the military on a new technique for detecting bin Laden. I am 
not able to talk about it in this forum.
    We tested that in the fall of 2000. Actually it was very 
promising as a way of determining where he would be if we had 
one strand of human intelligence. So we were continually 
looking at how we can up the ante.
    Mr. Chambliss. But did you have a plan, a plan that could 
be executed, to disrupt or take out bin Laden and the 
organization?
    Mr. Berger. Yes, sir. And we were executing that plan. Now 
the second question you asked, was there--which comes out of a 
Time magazine story, I think--was there a plan that we turned 
over to the Bush administration during the transition?
    If I can address that, we--the transition, as you will 
recall, was condensed by virtue of the election in November. I 
was very focused on using the time that we had. I had been on 
the other side of transition with General Scowcroft in 1992. 
But we used that time very efficiently to convey to my 
successor the most important information that was going on and 
what situations they faced.
    Number one among those was terrorism and al-Qa'ida. And I 
told that to my successor. She has acknowledged that publicly, 
so I am not violating any private conversation. We briefed them 
fully on what we were doing, on what else was under 
consideration, and what the threat was. I personally attended 
part of that briefing to emphasize how important that was.
    But there was no war plan that we turned over to the Bush 
administration during the transition, and the reports of that 
are just incorrect.
    Mr. Chambliss. Thank you.
    Chairman Graham. Thank you. Thank you, Congressman 
Chambliss. And Congressman Goss and I appreciate your 
maintaining the classified nature of the geography of where 
that election took place that shortened the transition period.
    We have now completed the first round of questions.
    Now I would like to ask two questioners from the House who 
did not get to ask their questions if they wish to ask a series 
of questions beyond five minutes. Did you indicate a full 20 
minutes?
    Mr. Bereuter. I will not take a full 20 minutes.
    Mr. Boswell. I will attempt not to take the full 20 
minutes.
    Chairman Graham. Congressman Bereuter, then Congressman 
Boswell.
    Mr. Bereuter. Thank you, Mr. Chairman, and, gentlemen, 
thank you for your statements here, responses and your previous 
service to the country. Very much appreciate it. I will try not 
to cover things thathave been asked previously if I understand 
what has happened appropriately. I wonder--this one goes to you, Mr. 
Berger, in particular. It appears that the FBI was not active in 
monitoring or penetrating radical Muslim groups. Is that your 
understanding? And if you have something of that understanding, why was 
that the case?
    Mr. Berger. I think that is my general understanding, 
Congressman, and I think that was pursuant to guidelines and 
directives that had been drawn up within the FBI in prior years 
and perhaps the threat to some degree, their view that the 
capability here was not substantial.
    Mr. Bereuter. The capability within al-Qa'ida and related 
organizations was perhaps not substantial? That might have been 
their understanding?
    Mr. Berger. That is at least what was conveyed. Perhaps 
there are different understandings among different people in 
the FBI.
    Mr. Bereuter. Is it your view that the FBI did not 
seriously warn or understand and then not warn that there was a 
serious terrorism problem that could take place in the United 
States?
    Mr. Berger. You know, I think there were certainly people 
at the FBI, Dale Watson, the late John O'Neill who understood 
this.
    Mr. Bereuter. Are you talking about your twice a week 
meetings?
    Mr. Berger. They were certainly there and I think they were 
trying to deal with what I now understand better was a 
disconnect between headquarters and the field. So I think as an 
institution--and I think Mr. Mueller has acknowledged this--as 
an institution, at least as of the time I left, which was the 
year 2000, there was another 9 months, there was not a sense 
that there was--the sense, the capability that was here was 
logistical support, was not a serious threat and was covered, 
was the word they would use. We have it covered.
    Mr. Bereuter. A question for both of you. Does the United 
States need an MI5 or some modified MI5 and can you answer 
briefly why you think that would be the case or not the case?
    General Scowcroft. I think that is one solution to the 
problem. The fundamental problem is that you need either to 
change the basic laws and responsibilities of the two 
intelligence agencies, FBI and CIA, or you need to build 
capabilities to match the legal responsibilities. Now one way 
to do it in the FBI would be to create an MI5, which is a 
domestic intelligence without the law enforcement. Another way 
would be to create a separate career path, for example, for the 
National Security Division of the FBI, training them not as law 
enforcement officers the way they are now, but as intelligence 
analysts to do the job. And there are other ways. But simply to 
say your primary duty right now has gone from law enforcement 
to counterterrorism is not going to produce a revolution inside 
the system.
    Mr. Bereuter. Do you think there has been relatedly a 
disadvantage to an FBI person that moves into counterespionage 
or counterterrorism for a significant part of their career?
    General Scowcroft, Oh, yes, quite definitely. Most of my 
information is anecdotal, but it has been from talking to a 
wide number of people, including high FBI or Justice Department 
officials. And the people who don't make it in law enforcement 
are sent off to the National Security Division.
    Mr. Bereuter. So it's possible for someone to be a 
homesteader in counterespionage activities like Mr. Hansen and 
then breach the compartmentation----
    General Scowcroft. I am not sure about the specific cause 
and effect, but, yes.
    Mr. Berger. Congressman, my inclination would be to fix the 
FBI. I think there are dedicated fine people there who care 
passionately about their country, who take risks every day, and 
it seems to me intuitively better and easier to fix and change 
the mission and deal with the organizational problems of an 
agency that exists than to do a greenfield operation someplace 
out in the Beltway. So I guess I see no inherent reason why it 
would be harder to fix the organizational problems in the FBI, 
reorient the mission, provide the leadership than it would be 
to start from scratch. I think the people there are talented, 
dedicated, patriotic people who if you tell them what their job 
is, they'll do it.
    Mr. Bereuter. I appreciate your opinion and I appreciate 
the fact that they're talented, patriotic and energetic. 
Looking back at the situation, it seems to me that the 
Intelligence Community would desirably be able to tell us the 
kind of approaches that terrorists might take against our 
citizens, against our infrastructure in the United States, 
spelling out the delivery methods, the techniques and so on. 
And if you look at the testimony presented yesterday by Eleanor 
Hill, which constitutes in effect a part of our committee's 
report, the Joint Committee, just focusing in on one type of 
approach that was used, the use of commercial airliners as 
flying bombs, we have these items in our chronology. We have of 
course the Manila plot where part of it was an attempt to bring 
aircraft to crash into the CIA headquarters.
    In August '98, Intelligence Community obtained information 
that a group of unidentified Arabs planned to fly an explosive-
laden plane from a foreign country into the World Trade Center. 
September, '98, Intelligence Community obtained information 
that Usama bin Ladin's next operation would possibly involve 
flying an aircraft loaded with explosives into a U.S. airport 
and detonating it. In the fall of '98, the Intelligence 
Community received information concerning Usama bin Ladin's 
plot involving aircraft in New York and Washington, D.C. areas. 
April of 2001, the Intelligence Community obtained information 
from a source with terrorist connections who speculates that 
bin Ladin would be interested in commercial pilots as potential 
terrorists.
    So these are the things that were specifically identified 
as some of the things coming in that were geographically not 
specific and time uncertain of course, and that is one method 
of delivering terrorism in this country. But what surprises the 
American public and what shocks me is that there seems to have 
been no place in the Federal Government as far as I can find it 
that examined the information then about the potential delivery 
methods of terrorism and said this is how we counteract it.
    And these are the kinds of procedures that have to work 
between the FAA and the FBI or between the FBI and the INS. And 
given the fact there didn't seem to be any agency responsible 
for that, and indeed it's a multi-agency problem and no one 
specifically looking at details of how to approach that, I 
guess I would have turned to expect it in the National Security 
Council.
    But now hopefully we'll have the Director of Homeland 
Security and the new department with that very specific 
responsibility. But that is all categorized as an intelligence 
failure, and it seems to me it goes beyond that. I would 
welcome any response from you two gentlemen who have been 
National Security Advisors as to how it is that our government 
didn't meet its citizens' expectations by having a focused look 
at how these means of terrorism could be delivered upon our 
country.
    Mr. Berger. Congressman, first of all, recognize that there 
were mountains of intelligence information. Someone said we 
were drowning in the information. They related to a wide 
variety of possible means from truck bombs and car bombs to 
assassinations and an infinite--not infinite, but a wide range 
in variety of modalities. As I said in my testimony, we did not 
and I did not recall receiving anything that focused 
specifically on the threat of airlines as weapons. Certainly, 
it was known as one of many possibilities.
    There was, chaired by the National Security Council, a 
counterterrorism security group whose job it was to look at 
cross-agency information. It was only as good as what was 
given. And obviously, I have checked. It did not receive the 
February '98 report, for example, that you referred to. So 
there was nothing that made this stand out anymore than any 
other range of threats.
    But that's history. I do believe, as I said in my 
testimony, that a Department of Homeland Security ought to have 
a fusion center where all of the agencies are there, all of the 
raw data is available. The fusion cell is able to task, follow 
up. I think that because the volume of threat information, some 
of it unextracted from its digital form, is so great that we 
have to have a new mechanism for extracting patterns.
    Mr. Bereuter. General Scowcroft, do you have a comment?
    General Scowcroft. I agree with most of what Mr. Berger 
said. I think that we need to look more closely than we have, 
because this is still fairly new as the best way to go about 
the intelligence job. Is it to look at all the things that can 
be done to us? Is it to look at all the people who could do it? 
Is it a connection of both and how do you do either one? And 
we're a long way from that. We have analyzed different parts 
better than we had the use of aircraft, for example. It's going 
to be very hard to stay ahead of people anyway.
    But I think the specific answer to your question is 
homeland security is designed to be an answer to it. I cannot 
agree with Senator Shelby and Mr. Berger about the solution. I 
don't think replicating the Intelligence Community inside 
Homeland Security is--I think it's dodging the problem rather 
than solving it. But a fusion center needs to be done.
    Mr. Bereuter. I have one more area of questions that 
relates to the military and their past and future use in the 
war on terrorism. Mr. Berger and General Scowcroft, both of 
you, do you feel that there has been any reluctance on the part 
of the military to have become engaged in the war on terrorism 
or do you think there has been a reluctance on the part of the 
civilian leadership of the country to employ them?
    And I raise a couple of other questions relatedly. Why is 
it, for example, that we had no military response to the boat 
attacks--small boat attack on the USS Cole? Did our policy 
structure suggest that the primary focus of dealing with al-
Qa'ida terrorism was or even is the law enforcement and 
Intelligence Community unless we are formally engaged in going 
into a country like we did in Afghanistan?
    Mr. Berger. Congressman, let me start off by answering all 
three of your questions. We, both the President and myself, 
spoke to Secretary of Defense, Chairman of Joint Chiefs of 
Staff on numerous occasions about boots on the ground options 
in Afghanistan. And they looked at them, I believe seriously. 
And their assessment--this is pre-9/11, we don't have Pakistan, 
we don't have Uzbekistan, we don't have Tajikistan, we don't 
have any of those neighbors. Their assessment was that, given 
the distance for staging, given the likelihood for detection, 
given the inability to have forces proximate for backup and, 
most importantly, in the absence of actionable intelligence, 
that it was likely to fail. I don't believe that actually was 
risk aversion. I think that that was not an unreasonable 
assessment under the circumstances.
    Mr. Bereuter. How would you assess the military's attitude 
about their involvement?
    Mr. Berger. We are in an entirely new situation. 9/11 has 
galvanized the world to go to war in a full scale war that I 
thought was not possible, not thinkable before. And I think the 
military in the war on Afghanistan has performed very well. But 
you're really talking about special operations kinds of--if one 
is talking about special operations. There are--there's 
something we pressed on. It's something I think we got a 
response to. And I don't think the response was necessarily an 
unreasonable one under the circumstances.
    Number two, you asked about the USS Cole, which happened in 
October of 2000. When we left office, neither the Intelligence 
Community nor the law enforcement community had reached a 
judgment about responsibility for the USS Cole. That judgment 
was reached sometime between the time we left office and 9/11. 
So even with 9/11 people said show us the proof. We did not 
have a judgment from the Intelligence Community of 
responsibility on the USS Cole when we left.
    Mr. Bereuter. Are you surprised there was no military 
response when it became clear that al-Qa'ida was responsible?
    Mr. Berger. I leave that to the people from the Bush 
administration to address whether this was part of a larger 
plan on their part. I really would prefer to address my own 
tenure.
    On the question of law enforcement versus military, after 
August of '98, after we knew we had responsibility for an 
attack that killed 12 Americans, we were not pursuing a law 
enforcement model. Cruise missiles are not generally conceived 
of as a law enforcement technique. We were trying to kill bin 
Ladin and his lieutenants. And so I know there has been a lot 
of discussion of that. The FBI is an investigative arm. They 
are an instrument for trying to find out what happened. But we 
are in a war and it takes the instruments of war to fight that.
    Mr. Bereuter. General Scowcroft, would you have any 
comments on the comments that I brought up?
    General Scowcroft. Yes, I would. Part of the problem is the 
nature of terrorism and terrorist organizations. It seems to me 
your question is basically that of retaliation in an attempt to 
deter further action, so on. I suggest that that's irrelevant 
to terrorist organizations. If you knock someone out, they 
don't care very much. As long as they are there, they'll go on. 
This is poor man's war. It seems to me we're not going to have 
maybe any more situations like Afghanistan where you had a 
terrorist organization protected by the government and the 
military operation was really after the government forces 
primarily--maybe too much.
    But most of it now is going to be terrorists hiding in 
states where control over territories is insecure or where you 
don't have a fully operating government--Yemen, Somalia, those 
kinds of things. And it's a war where our military machine is 
pretty largely ineffective except for the intelligence aspects 
of it. It's not military destruction we're after, it's finding 
these people. Getting rid of them is easy if you can find them 
and pin them down.
    Mr. Berger. Congressman, can I make one thought? It has 
occurred to me since 9/11 that we have had since the beginning 
of the Cold War essentially a threat-based approach to national 
security. We built NORAD so we could have detection so that we 
could respond. And part of what this committee is doing is 
trying to figure out how we get better intelligence, so we have 
threat, so we can have warning.
    But with this new enemy I think we have to think about not 
only threat-based protection but vulnerability-based 
protection. We have to look at each of these systems and see 
where the vulnerabilities are, because we will not always have 
warning with this kind of enemy. We started to do that by 
focusing in on critical infrastructure in the nineties. But I 
think the real task of the Department of Homeland Security and 
all of us is to look--beef up our ability obviously, to get 
them, fight offense and get warning, but recognize that we also 
have to look at all of our systems, our critical systems, from 
a vulnerability point of view, whether that's companies or 
government, and have a much higher threshold of security in a 
vulnerability sense.
    Mr. Bereuter. Thank you, Mr. Chairman.
    Chairman Graham. I would like to comment on one aside that 
you made, which was the characterization of the staff report 
that we started yesterday's hearings with. It is not our 
characterization of these staff reports as being part of or the 
final report. They are rather means of putting the committee 
into a position that it can have an overview as to major blocks 
of events and activities that led up to September 11 and then 
to have that fleshed out by the kind of commentary that we've 
had today from our excellent witnesses. It will then be our 
responsibility to prepare the final report with that as one 
source of that beginning preparation, but not a part of the 
final report.
    Mr. Boswell.
    Mr. Boswell. Thank you, Mr. Chairman. And, remembering your 
urging me to be short----
    Chairman Graham. Just asking.
    Mr. Boswell. I took that as urging. This panel has been 
good. General, Mr. Berger, you bring a lot of expertise and a 
lot of experience to what we need to talk about and we 
appreciate it very much. I've got a couple of things I would 
like for you to comment on. I'll start off with you, Mr. 
Berger.
    During your tenure, was the NSC worried about the nightmare 
described in Mr. Lake's book of terrorists' access to weapons 
of mass destruction? In particular, were you concerned about 
loose nukes falling into the their hands and would you comment 
on that?
    Mr. Berger. This was a very serious concern. In fact, in 
1999, the President gave a speech to the National Academy of 
Sciences talking about this as the great looming danger. And he 
asked the Congress for $1.4 billion, most of which you 
appropriated, for money that provided for research, vaccines. 
We had the Cipro stockpiles because we got started then. We 
started to train first responders. Obviously, much more needs 
to be done. Much more needed to be done. But this was a 
particular preoccupation of the President.
    And if you read Judy Miller's very good book called 
``Germs,'' a New York Times reporter, hardly a natural fan of 
the Clinton administration, I think she indicates that 
President Clinton was really focused on this. We have a long 
way to go and we probably will focus more on the weapons of 
mass destruction scenario than the airport scenario. We built 
an airport security system in the seventies to stop hijackings. 
The only hijacking that took place in the nineties before 9/11, 
as far as I know, was a disgruntled FedEx pilot who took a 
FedEx plane from Memphis and flew it to San Jose. In fact, it 
appears as though that that airport security system had 
atrophied more than the people running it had known. But we 
were very much focused on the WMD threat, sir.
    Mr. Boswell. I appreciate that. Some have criticized the 
administration's missile strikes against bin Ladin in '98 as 
ineffective and inadequate. And could you comment? Why didn't 
the Clinton administration in 2000 or 2001 launch a combined 
military effort something like what we've done after September 
11?
    Mr. Berger. Congressman, I don't think that that was 
feasible before 9/11. Let's remember that in the Clinton 
administration, 67 Americans have been killed by terrorism. 
That is 67 far too many, 12 in Africa. But it is an order of 
magnitude different than what happened to us on 9/11. I don't 
think there was anybody up here calling for an invasion of 
Afghanistan. I don't think anybody in the press was calling for 
an invasion of Afghanistan. I just don't think that was 
something we would have had diplomatic support, we would not 
have had basing support. And so I don't think the kind of full-
scale war that we have seen since 9/11 was feasible, 
unfortunately, before then.
    Mr. Boswell. I would like for both of you to comment, if 
you would, just based on your experience, both of your years 
around the White House, how difficult, how difficult would it 
be for the Bush administration to maintain the focus and 
urgency of the war on terrorism with our allies, the American 
people and with government personnel, many of whom are pretty 
well stretched at this point? General, do you want to go first?
    General Scowcroft. It will be very difficult. It will be 
especially difficult if there are no more terrorist acts for a 
while because you can already see us slipping back into 
business as normal. I think part of the job of any President is 
to keep the people motivated. Keep them stirred up. Keep the 
issues before them. And I think so far the President has done a 
good job, but the difficulty of keeping us focused will 
increase the more time that passes without any additional 
attacks.
    Mr. Boswell. Understandably so. The efforts on the war on 
terrorism are very, very important, no question about it. None 
of us disagree on that. But there are some pressures from 
across the country to get back on some of the domestic issues, 
and justly so. So will that accomplish----
    General Scowcroft. I think we ought to be able to walk and 
chew gum and ride a bicycle. But keeping an attention on 
terrorism is--first of all, the President has declared it the 
number one mission of the country. Secondly, it's not 
glamorous. You can't read the reports like you could in World 
War II of how the battle line changed over the last 24 hours 
and so on. Lots of times, it would be absolutely quiet and then 
in the last few days we've caught a few people and there will 
be an upsurge. But this is not a war that the press will be 
glued to to keep the American people up for it. And so the 
administration will have to serve that.
    Mr. Berger. Congressman, if I could add one thing. I think 
the President is right in saying rather periodically we are 
going to be attacked again. I think Secretary Rumsfeld is 
right. I support Secretary Ridge in doing the same thing. It's 
always a very difficult balance, how do you warn without 
creating anxiety? How do you tell people to be alert and go 
shopping? But the fact of the matter is, Congressman, we are 
going to be hit again and it is something the American people 
do have to be reminded of continually so that they will demand 
that these problems get addressed, that we learn from what 
happened, that they are not inert in their daily lives but 
alert in their daily lives.
    I think the President is doing the right thing by saying 
from time to time we're going to be attacked again. That is 
true, and that's part of maintaining the concentration and 
focus of the American people and we ought not, in my judgment, 
to be dismissing that as alarmism.
    Mr. Boswell. Moving to another point, General Scowcroft, 
through your long career you have witnessed a number of 
strategic surprises that result in dramatic shifts in the 
international relations environment--the rapid fall of the 
Soviet bloc, the end of the Cold War in '89, Saddam Hussein's 
invasion of Kuwait, discoveries in '91 about his development of 
mass destruction weapons and others. Is there in your mind or 
could you give us your thoughts, is there some common 
characteristic to the way our government does intelligence and 
strategic analysis that leads us to missing dramatic paradigm 
shifts such as these?
    General Scowcroft. That's a really tough question to 
answer. I don't know. I'm not aware of it. One of the real 
problems is that if you start to look far out and anticipate 
contingencies and bring those to the decisionmakers, they say 
don't bother me with something 10 years away. I've got 
something 10 minutes away. Or he'll say, well, that's a 
possibility, but I have 10 others that are just as likely. It's 
very hard to do long range planning.
    And I have been involved in it both in the military and the 
NSC, which supposedly is supposed to do it. It is incredibly 
hard to integrate it into government whose primary job is 
putting out fires as a practical matter.
    Mr. Berger. Congressman, let me just add one perspective on 
this. I think there's information and context. I think often 
the problem is failure to understand the context, which is why 
I said in my remarks how important it is to build up the 
analytical side as well as the collection side and to bring 
outside experts in. Why did we not see the Holocaust coming 
when you can look back now and see plenty of signs? Why did we 
not see the Khmer Rouge coming into Cambodia even though there 
were telltale signs? Why did we not see in the eighties Saddam 
likely to invade his neighbor after what he had done to the 
Kurds? Why do the greatest experts on Yugoslavia not understand 
that the breakup of Yugoslavia would lead to rabid nationalism 
and wars against humanity?
    Those were only partly failures in information. These are 
generally failures of understanding and context. And I think we 
always have to wrap the question of information, finding that 
needle in the haystack, with understanding the haystack.
    Mr. Boswell. Do you have suggestions how we might?
    Mr. Berger. I think we live in a world, Congressman, in 
which expertise increasingly does not exist in the government. 
It's a very complicated world. And the five people who know 
Afghanistan the best or Sierra Leone the best are probably 
located either in academia, in think tanks or in companies, not 
to devalue the people of the government. So we have to find a 
way in my judgment to integrate the expertise that exists on 
the outside with the information that exists on the inside. I 
suggested some kind of--we tried this with the National 
Intelligence Council counsel once under Joe Nye. I think it was 
a good experiment.
    We ought to look at some sort of a quasi-official institute 
where top level academics and top level businessmen can give 
two years, not necessarily working for the CIA, which continues 
to be a bit of a tank going back to academia, but can be some 
place where they have access to classified information, they 
have access to our best people, our best people have access to 
them and we're able to put the consequences of the footprint we 
left in Saudi Arabia after the Gulf War in a better context.
    Mr. Boswell. Thank you. General, I am informed that in the 
early nineties when the generals began to make clear the threat 
of nuclear proliferation, while you were at the White House, 
you once considered creating a nonproliferation agency to focus 
on addressing the threat. Can you share with us your thinking 
behind considering this and other proposals that you might have 
had to deal with this high priority situation?
    General Scowcroft. Yes. At one time, as the Cold War turned 
off, if you will, the issue of the proliferation of nuclear 
weapons--first their extent, proliferation within the old 
Soviet Union and therefore into some of the successor states--
the general issue became an important one. And that at one 
time, as we were looking at the Arms Control and Disarmament 
Agency, which seemed no longer to serve a purpose for so large 
an agency over an issue which was declining in importance, we 
looked at the possibility of turning that into a 
nonproliferation agency.
    I happen to think it was a pretty good idea. But some of my 
more frugal colleagues thought it was better to eliminate an 
agency and that nonproliferation was everybody's business and 
that putting it in one agency would be most likely to leave the 
other agencies not to pay any attention to it because it wasn't 
their job anymore, and nonproliferation was everybody's job.
    Mr. Boswell. I think the last question, Mr. Chairman, to 
Mr. Berger, that a lot of senior policymakers complain that 
there's relentless focus on the ``in box'' need to respond to 
short-term crisis, which I think you touched on just a moment 
ago, at the expense of having time for long-term strategic 
thinking. Is it true, and what can we do about it and what 
would be a role we could play?
    Mr. Berger. I think it's unquestionably true that the 
urgent tends to drive out the important. I think that's 
probably true for your day as it is for the day of a 
policymaker in the executive branch or a CEO of a company. I 
don't have a magical solution except to understand that if you 
don't go to work every day with the idea of what are the three 
things you want to get done and then go home, if you got one of 
them done you're feeling pretty good and two of them are still 
left undone and then you'll get to the in box, I don't think 
you ever overcome the problem. I think you've identified a 
problem, I think, that clearly exists.
    Mr. Boswell. Was there time to conclude that the al-Qa'ida 
was this high priority? Did you have time, or were you 
constantly badgered with all the other things going on?
    Mr. Berger. Congressman, there was no question in my mind. 
This is a problem I woke up at night about. We were focused on 
this. I wish we could have gotten bin Ladin, but it was not 
because it was not a priority, sir.
    Mr. Boswell. Thank you, Mr. Chairman. I want to thank you 
for bringing these witnesses to us today. I appreciate it very 
much, and I want to personally thank each of you for your 
contribution to our country. Thank you.
    Chairman Graham. Thank you very much, Mr. Boswell. We have 
committed to our witnesses, who have been extremely generous 
obviously in the amount of time that they took in thoughtfully 
preparing the remarks they've given and now responding to our 
questions, we committed that at 5 o'clock we would call this to 
an end. What I'd like to suggest is maybe in the remaining 13 
minutes if we could restrict ourselves to one final question 
and then at 5 o'clock, we will adjourn.
    Vice Chairman Shelby. Is that one final question per 
person?
    Chairman Graham. One final question per person.
    Mr. Berger. This is a commitment that I have from some of 
your colleagues.
    Chairman Graham. I am going to ask the first question and I 
will try to ask a precise question and it will be to General 
Scowcroft and maybe he can give a precise answer. I know that 
you have been heading up the external review of the 
Intelligence Community and until the President makes some 
decisions you are constrained in terms of what you can say, but 
in our morning panel we did have considerable discussion about 
the proposal to establish within the Department of Defense an 
Under Secretary for Intelligence. Could you comment on that in 
terms of what from your review of the structure and 
architecture of the Intelligence Community that might mean?
    General Scowcroft. Well, let me just say that while the 
things I have heard about it make it look like a housekeeping 
measure within the Defense Department, I really think that it 
ought to be viewed in the light of the structural discussions 
that are going on, whether it's the report of my group, and 
there are many others going on, because it will have profound 
implications for the Intelligence Community as a whole.
    And it seems to me to make one single step unassociated 
with all the other things that your committees are now 
deliberating would be a mistake, because then you would 
predetermine the direction of thestructure or you have to 
change it to go back again. So I would urge as a first step that no 
decision be made on anything which ipso facto will affect the entire 
community.
    Chairman Graham. Thank you, General. Congressman Goss.
    Chairman Goss. Thank you very much for your testimony and 
for taking the time to be here, and it's a pleasure to see you 
both and we appreciate the assistance. It's hard to restrict 
ourselves one question to you because you have so much to offer 
us on your views on the fixes that we need, and I appreciate, 
Mr. Berger, the seven points that you've outlined in your 
testimony, and I know that General Scowcroft has other points 
for the structure of the Community as well which we anxiously 
looking forward to reading.
    My question is for both of you. I believe that the Aspin-
Brown Commission identified a problem that still exists in the 
Community which is extremely important, and that is the 
relationship between the President of the United States and the 
Community. Is there anything that we in Congress can do to 
ensure that that is always functioning in a way that gets the 
best out of the Community to serve the President and the 
country?
    Mr. Berger. If we had a DCI who was head of the Community 
and not only head of 15 percent of the Community and was able 
to integrate all of these priorities working with his 
colleagues, I think automatically that would change the nature 
of the relationship.
    General Scowcroft. I don't disagree with that.
    Chairman Goss. I am glad to hear that we are in agreement 
on that. Thank you very much, Mr. Chairman.
    Chairman Graham. Senator Shelby.
    Vice Chairman Shelby. Thank you, Mr. Chairman. I am going 
to try to have one question in several parts, I hope. We were 
talking with Mr. Berger earlier about a group. Was this the so-
called White House Working Group on Terrorism? You said the FBI 
met two or three times a week.
    Mr. Berger. Counterterrorism Security Group, sir.
    Vice Chairman Shelby. And did they meet about three times a 
week more or less?
    Mr. Berger. Sometimes every day. As much as necessary. 
There were also meetings at the deputy level probably every two 
weeks.
    Vice Chairman Shelby. Did you go to some of these meetings?
    Mr. Berger. The principals met on terrorism during our 
years frequently, the last two years probably once a week or 
once every two weeks.
    Vice Chairman Shelby. Did you ever hear or know of the 
group talking about the possibility of terrorists using 
airplanes in some ways as weapons?
    Mr. Berger. You would have to ask Mr. Clarke. My 
understanding is----
    Vice Chairman Shelby. He headed this group, did he not?
    Mr. Berger. Yes, he did. I don't know that that issue was 
brought to that group with clarity.
    Vice Chairman Shelby. Do you know whether or not the 
Counterterrorism Center over at Langley ever discussed or 
considered or gained the possibility that terrorists would or 
could use airplanes as weapons considering the fact that they 
were aware of the Philippine situation in '95, the French 
dealing with the Eifel Tower and a lot of other threats?
    Mr. Berger. I can't answer that question.
    Vice Chairman Shelby. I would have to go to that group. Do 
you know, General? I know you were not there then.
    Okay. Thank you, Mr. Chairman.
    Chairman Graham. Thank you, Senator. The next speakers will 
be Congresswoman Pelosi, Senator DeWine, Ms. Harman, Mr. 
Roemer, Mr. Reys and then Senator Edwards.
    Ms. Pelosi. Thank you very much, Mr. Chairman. So many 
questions, so little time. I want to join our distinguished 
chairman and my colleagues in thanking you for your testimony 
today and for your very distinguished service, both of you, to 
our country. It really was a very valuable presentation that 
you both made and we appreciate it very much. I have so many 
questions, and this is the one I am going to ask because I 
think it is of major concern to the American people.
    Following September 11, one of the biggest fears that we 
had was use of some radioactive material or some weapon of mass 
destruction or act of bioterrorism, et cetera, that as horrible 
as September 11 was, and it has scarred our souls forever, 
would have many more deaths than that. In addition to that, 
stopping the proliferation of weapons of mass destruction is 
the pillar of our foreign policy. It is an overarching issue in 
terms of a presidential priority to stop it. When we go to 
address the issue, we are looking at the end user rather than 
the source.
    From your experience can you tell me why--certainly the 
capacity that some countries have in the Persian Gulf area, 
more than one, is not indigenous to them nor is their delivery 
system indigenous. Why is it, as a matter of policy if this is 
a pillar of our foreign policy and it is a major priority for 
the President of the United States, that we're not more serious 
as a country in stopping proliferation at the source rather 
than always dealing with it at the end user?
    General Scowcroft. Congresswoman Pelosi, I'm not sure I 
accept the premise. I think we have taken serious steps against 
possible proliferation, the Nunn-Lugar legislation. I think it 
is inadequately funded, but it is designed precisely for that 
question and that is by all odds the largest source of 
potential proliferation in the world. All others are dwarfed by 
it. One of the other major proliferators is North Korea, and 
it's a proliferation partly of know-how and partly of 
components and so on. We have tried to stop that in a variety 
of ways. The same with some Chinese exports.
    So I don't think--I know you're focused on a particular 
potential user now, but I think we have tried to control 
proliferation at the source. I think it has been inadequately 
funded.
    Ms. Pelosi. If I may just say, of course, Nunn-Lugar--God 
bless Senator Nunn and Senator Lugar. We are all deeply in 
their debt and this is a most significant and discrete area of 
the technology as well as know-how.
    Mr. Berger.
    Mr. Berger. I share your concern about this priority. I do 
think some progress has been made, not nearly enough. When the 
Nonproliferation Treaty was signed in 1975, the expectation was 
at the time there will be 30 nuclear nations in 20 years. There 
are eight, three putative nuclear nations. But I agree 
absolutely more has to be done. Number one, for purposes of 
this committee, I think there is an active role that covert 
action can play in this agenda. I will say no more. But we can 
try to stop things from moving from place A to place B.
    I agree on Nunn-Lugar, and I suppose some of us will 
disagree. I happen to believe that international regimes like 
the Comprehensive Test Ban Treaty and Biological Weapons 
Convention strengthen the international norm. We're not 
perfect, but that means when states are outside that norm it is 
easier, as in the case of Iraq, to rally the world to see they 
are out of compliance with the international norm. So I do 
believe that international regimes are useful.
    Ms. Pelosi. Thank you very much to both of you. Thank you 
very much, Mr. Chairman.
    Chairman Graham. We have now less than two minutes left.
    Senator DeWine. Let me just thank both of you very much. I 
wholeheartedly agree with your comment that this is the 
opportunity for this country to make fundamental reforms in 
intelligence. It's interesting on page 7 of Anthony Lake's 
testimony he also talks about reform. I'd ask my colleagues to 
take a look at that. Let me play the devil's advocate because I 
want to touch on a couple of questions that I think are 
questions that should be asked.
    One, Mr. Berger, how do you make sure that the DCI in your 
plan is not a czar--up a little higher but really with no 
authority or even less authority than he has under the system 
today--once you take the CIA out? And second, Mr. Scowcroft, 
how do you deal with the military's ability to control their 
fear that they're going lose ability to control their assets if 
you follow that plan?
    Mr. Berger. My proposal, Senator, and I think I said the 
commission should consider--I mean this is a complicated 
subject. The DCI would have primary responsibility on budget 
resources and priorities. He would not own these individual 
agencies. They'd still be run by the Defense Department and by 
other agencies. There might be some consolidation that's 
possible, but I think that would help in prioritizing and 
particularly putting a higher priority on the number one war we 
face, which is the war against terrorism.
    General Scowcroft. Senator, I can't answer your question 
explicitly, but there are--it is a valid concern the military 
getting what they need, and there are ways to provide for that 
in a way that doesn't require them to own the assets.
    Senator DeWine. Thank you very much.
    Chairman Graham. Thank you, Senator. We are now at the 5 
o'clock hour. The record will remain open through the end of 
business on Monday. So any of those who did not get to ask the 
questions that they wished to ask, if they would submit them in 
writing, we will forward them to the person to whom you would 
like them directed.
    I wish to take this opportunity on behalf of the Joint 
Committee to thank again General Scowcroft and Mr. Berger for 
their excellent presentations. I recognize the special effort 
that both of you extended to do this for which I am personally 
and the members of the----
    Mr. Berger. I am told by my friend here we have probably a 
few minutes if Congressman Roemer or----
    Chairman Graham. There is a man of truly generous heart. 
Can you stay a few more minutes?
    Mr. Berger. There's another meeting of Senators that I'm 
supposed to be at in five minutes.
    Chairman Graham. Then the next would be--everything I just 
said still counts--Ms. Harman.
    Ms. Harman. Thank you, Mr. Chairman. The witnesses are all 
friends of mine and I just decided I like them a lot better 
than I like you. Just a joke, Mr. Chairman.
    Chairman Graham. I am deeply wounded and offended.
    Ms. Harman. I want to thank them for their prior service to 
our country and for their future service, and it would be very 
valuable if they served our country in the future, too, because 
they are so highly skilled. I want to ask another question 
about risk aversion.
    Chairman Graham. Ms. Harman, one question.
    Ms. Harman. Risk aversion, Mr. Bereuter was asking about 
it. My question is, given the fact that on 9/11 the audience 
changed, given the fact that these committees have criticized 
1995 guidelines and recruitment of human spies and they have 
been changed, given the fact that I think the whole country is 
focused on this now, do you feel that our Intelligence 
Community, the 14 agencies in our Intelligence Community, have 
finally overcome what one could call risk aversion and are 
aggressively in every way possible going after the terrorist 
targets?
    General Scowcroft. No.
    Mr. Berger. We can always do better. I think I mean the 
whole country is focused much more intensely than they were 
before 9/11.
    Ms. Harman. Thank you. Thank you, Mr. Chairman.
    Chairman Graham. Mr. Roemer.
    Mr. Roemer. Thank you, Mr. Chairman. Nice to see you, 
General, thank you, Sandy, and thank you for your service to 
the Clinton administration. My one question that I get to ask 
here is not going to be knowing you are a big Oriole fan; it's 
going to be about General Scowcroft has spearheaded an effort 
to try to make some institutional changes in the way the CIA 
has responsibility and jurisdiction for budgets and issues and 
so forth. This Joint Committee will probably make some sweeping 
institutional recommendations at some point when they finish 
their job.
    I guess my question is--well, let me just underscore one 
more point. The Department of Defense has now recommended an 
Under Secretary of Defense for Intelligence which may run 
counter or may run in sync with what you recommend. I don't 
know. What do you think about the creation of that Under 
Secretary position, both of you, and when might your 
recommendations be available to the committee for review?
    General Scowcroft. I think that a recommendation such as 
the one that Secretary Rumsfeld made ought to be considered in 
the light of overall structural considerations and should not 
be acted on in the absence of the comprehensive review that is 
now going on. I can't answer the question.
    Mr. Berger. I agree.
    Chairman Graham. Thank you, Mr. Roemer.
    Mr. Reyes.
    Mr. Reyes. I just have one question and I also wanted to 
thank both you gentleman for your service to the country. My 
question is, do you think that there is sufficient diversity in 
the Intelligence Community to address the current challenge as 
we see it against this country?
    Mr. Berger. I don't know if I can answer that question. I 
think we need a lot more people, Congressman, who are from the 
countries of concern here whose heritage is Arab and Islamic 
and in particular who speak the language and are able to 
function with sophistication in our societies.
    General Scowcroft. And primarily whatever we need to get 
inside the ethos of different countries and how they will react 
to different stimuli, and so on and so forth, we're not very 
good at that and I think diversity, as you suggest, would help 
that problem a lot.
    Chairman Graham. Thank you.
    Senator Edwards.
    Senator Edwards. Thank you, Mr. Chairman. First of all, 
thank you to the witnesses very much for being here. I have 
been following this hearing very closely during the course of 
the day and thank you both for what you have done for our 
country. Almost every question I had has been asked at least 
twice so far, so I do have a quick anecdote I want to tell 
before I yield the mike.
    When I went on this committee originally, which was about a 
year-and-a-half ago, the first thing I did was to call Sandy 
Berger and asked him to come meet with me. He came and met with 
me and this was long before 9/11. And he was sitting on my sofa 
and I said I am going on this committee, what are the things I 
need to be concerned about?
    And Mr. Berger's response was, two things are going to 
dominate us for at least the next decade. The first is the 
threat of terrorism, and the second is weapons of mass 
destruction.
    Given what has happened on 9/11 and the ongoing national 
debate now about Iraq, it is a clear indication of you being on 
the front edge of what we need to be focused on and what needed 
to be done. I am confident if you were saying that to me, I am 
not the only person you were saying it to, and I think it was 
an extraordinary prediction of where we would be.
    Thank you for what you have done and for all of the help 
you have given me and others in my position.
    Mr. Berger. Thank you.
    Chairman Graham. Thank you, Senator.
    Any concluding comments? If not, again, thank you for your 
very generous and helpful participation.
    [Whereupon, at 5:15 p.m., the hearing was adjourned.]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    






 JOINT COMMITTEE HEARING ON WHAT THE INTELLIGENCE COMMUNITY KNEW PRE-9/
  11 REGARDING THE HIJACKERS IN REVIEW OF THE EVENTS OF SEPTEMBER 11, 
                                  2001

                              ----------                              


                       FRIDAY, SEPTEMBER 20, 2002

        U.S. Senate, Select Committee on Intelligence and 
            U.S. House of Representatives, Permanent Select 
            Committee on Intelligence,
                                                    Washington, DC.
    The committees met, pursuant to notice, at 10:07 a.m., in 
room SH-216, Hart Senate Office Building, the Honorable Bob 
Graham, Chairman of the Senate Select Committee on 
Intelligence, presiding.
    Senate Select Committee on Intelligence members present: 
Senators Graham, Levin, Rockefeller, Feinstein, Wyden, 
Mikulski, Shelby, Kyl, Inhofe, Hatch, and DeWine.
    House Permanent Select Committee on Intelligence members 
present: Representatives Goss, Bereuter, Burr, Pelosi, Bishop, 
Roemer, Reyes, and Peterson.
    Chairman Graham. I call the Joint Inquiry Committee to 
order. Welcome.
    This is the third public hearing of the House Permanent 
Select Committee on Intelligence and the Senate Select 
Committee on Intelligence in our joint inquiry into the 
terrorist attacks of September 11, 2001. Today the Joint 
Inquiry will receive testimony regarding three of the 19 
hijackers. These three are notable because they had come to the 
attention of the Intelligence Community at least 20 months 
before the September 11 attacks. We will review what actions 
the Intelligence Community and the law enforcement agencies 
took or failed to take with respect to these individuals.
    Today's proceedings will be in two parts. First, the 
Committee will hear from Eleanor Hill, the staff director of 
our Joint Inquiry, who will present a staff statement on this 
portion of our inquiry. We will then ask the public and 
representatives of media organizations to leave the room 
briefly while we prepare it for the second panel of witnesses. 
I will explain the purpose of doing so after the room is 
reopened for the testimony of that panel.
    Are there any opening statements, by Chairman Goss?
    Chairman Goss. No, thank you, Mr. Chairman.
    Chairman Graham. Senator Shelby.
    Vice Chairman Shelby. Mr. Chairman, I'll try to be brief, 
if I can, with my opening statement.
    We're holding a hearing today, in large part, based on what 
our intelligence agencies knew about two specific people before 
they participated in the September 11 attacks. In our first 
open hearing on Wednesday, several members complained about how 
much information the Administration has been willing to 
declassify. That issue, of course, is a concern to all of us.
    I would like to point out, however, that there is vital 
information about these two hijackers that the Administration 
has shared with the Joint Inquiry staff but which the Chairmen 
have ordered to be concealed not only from the public but also 
from members of these two committees and from committee staff.
    Mr. Chairman, in the Senate Select Committee on 
Intelligence we have certain rules that govern how we do 
business. Among those rules is the requirement that information 
in the possession of the Committee be shared between the two 
sides of the aisle. This rule prevents the majority from taking 
advantage of its status to hide information. As you made clear 
in our first closed hearing, Mr. Chairman, we do not sit here 
as a joint committee. The Joint Inquiry is being run 
concurrently by the Senate and House oversight committees as 
two separate committees, acting jointly. All records of the 
Joint Inquiry are simultaneously the investigative records of 
each committee. I believe it's a violation of Senate committee 
rules to conceal information in the Committee's possession from 
members of this Committee and from properly-cleared minority 
staff.
    Unfortunately, this is not the only problem. In discussions 
with my staff, the FBI has indicated that it has been 
instructed by the two Chairmen not to share this same vital 
information with Members or staff of these two committees, the 
House Committee and the Senate Intelligence Committee. I do not 
know what legal authority the Chairmen have to tell the FBI to 
withhold information from Senators and Congressmen, but these 
are apparently the instructions given to the Bureau.
    I do not necessarily propose that we make the information 
in question about these two people, the hijackers, public at 
this time. I think it would be dangerous. That's a matter for 
the proper declassification authorities to determine. I must 
insist, Mr. Chairman, that we end this policy of withholding 
crucial information from Committee Members and our staff. 
Conducting an investigation and pursuing leads without fully 
informing Members of the very committees who are supposedly in 
charge of the inquiry is not a precedent any of us should ever 
condone. I do not know how many members of these committees are 
aware that information about these two hijackers has been 
concealed from them by the Committee leadership.
    Members of these Committees are privy every day to 
enormously sensitive compartmented information from across the 
Intelligence Community. I doubt that they will understand why 
they may not be permitted to know this information. Before 
Members of these Committees can consider themselves properly 
informed about the subject at hand, I think, Mr. Chairman, we 
must end this practice of withholding information from 
Committee Members and staff. If we need to discuss this matter 
in closed session, we should do that, but we must not conduct 
investigations, I believe, out of the full view of our Members.
    With that, Mr. Chairman, I believe that this still promises 
to be a very productive hearing and I'm looking forward to the 
testimony. I am concerned, however, that the topics we're about 
to explore involve a great deal of classified and sensitive law 
enforcement information. When we begin questioning the 
witnesses the possibility of an inadvertent disclosure of 
classified information is very real, and we would not serve the 
public interest if such disclosure took place.
    I strongly support your efforts, Mr. Chairman, to share as 
much information with the public as possible, but I'm afraid 
that we may be walking a fine line in this instance. I think we 
have to be very, very careful. I believe we should conduct this 
hearing in a secure facility where we can have a full and 
unrestricted discussion without the risk of an inadvertent 
disclosure.
    After the hearing, we can review the transcript, redact 
classified and sensitive law enforcement information, and then 
release it to the public. I wish you would close this hearing, 
Mr. Chairman.
    Chairman Graham. Let me comment on those suggestions and 
observations. First, as to the very sensitive information, 
without elaborating, this information is not only extremely 
sensitive relative to the events leading up to September 11 but 
has very potentially adverse effects on U.S. current policies.
    Two, at the request of the Federal Bureau of Investigation 
this information was made available to the Chairs and the two 
Ranking Members of the Committees, with the understanding that 
it would not be made further available until we could do so at 
a closed session of thisCommittee. We have been endeavoring for 
the past several weeks to make arrangements for that closed hearing of 
this committee, where that matter will be fully discussed with 
appropriate safeguards. It had been my hope that we would be able to do 
that as early as next week. Based on information that I have received 
this morning, I doubt that we will be in a position to do it next week. 
But I can assure you, Senator, that it is my desire to have this made 
available to the Committee at the earliest possible moment, and I 
believe when the Committee hears the information they will be seized 
with why the FBI felt that this had to be treated with such special 
precaution.
    Second, as to the hearing we're going to have today, as 
with the hearings that we had Wednesday and as to those that we 
will have in the future, the staff report is submitted to the 
classifying agencies, which in this case included the FBI and 
the CIA. Those agencies have the responsibility of reviewing it 
and declassifying. We may at some points disagree with their 
standards, but in all cases we observe their standards and 
recognize their ultimate authority to do so.
    This hearing is being conducted under those same ground 
rules, so that all the information that will be presented in 
the joint staff report will have been previously declassified 
by the appropriate agency and the witnesses, all of whom are 
agents of those two agencies, plus one witness from the State 
Department, are aware of the lines of demarcation between 
classified and declassified as it relates to this subject 
matter. So I believe that it is not only possible but highly 
appropriate that we hold this hearing in public today so that 
the American people can become better informed as to the events 
leading up to September 11.
    Ms. Pelosi.
    Ms. Pelosi. Thank you very much, Mr. Chairman. I just want 
to make one point in welcoming our witnesses and commending 
once again Ms. Hill for her excellent work and that of the 
staff.
    I would reiterate some of what my Chairman, Mr. Goss, said, 
I don't know if it was yesterday or the day before. We are all 
committed to having as much information available to the public 
as is possible, and the only limitations would be not to reveal 
sources and methods, plans and intentions, and any matters that 
we couldn't release because of Justice Department activity, 
that we all value the work of the people at the Federal Bureau 
of Investigation and the Central Intelligence Agency and others 
in law enforcement and intelligence-gathering, that they are 
brave and courageous, and that something went wrong here and we 
want to find out what it is, and that any information--just to 
comment on what my distinguished vice chairman from the other 
body said--that we would not be going down a path that would be 
dangerous to our national security and reveal sources and 
methods, plans and intentions, or jeopardize a prosecution, but 
that we understand our responsibility for the safety of these 
people and the importance of this information.
    I think that we should feel quite comfortable proceeding 
under the arrangement that is there, with all due respect to 
the concerns, always legitimate, raised by my distinguished 
colleague.
    With that, Mr. Chairman, I yield back the balance of my 
time.
    Chairman Graham. Thank you very much, Ms. Pelosi.
    Ms. Hill.
    [The prepared statement of Ms. Hill follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
 STATEMENT OF ELEANOR HILL, STAFF DIRECTOR, JOINT INQUIRY STAFF

    Ms. Hill. Thank you, Mr. Chairman. Good morning. I am 
pleased to be here again this morning, and this morning I have 
a statement, as you have alluded to, that describes what our 
review has found regarding what the government knew about the 
hijackers prior to September 11, 2001.
    I am going to summarize this in an oral statement, but I do 
have and would offer for the record a full written statement 
that, as the Chairman has mentioned, has been declassified 
through again a long and arduous process with the working group 
set up by the Intelligence Committee to declassify our work. 
They have done so, and I would offer for the record a copy of 
that statement, written statement, which is certified by the 
lead member of that declassification group as being cleared for 
public release and also certified separately by the Justice 
Department representative as being cleared for public release 
in terms of their concerns about ongoing litigation.
    I would also mention that they have initialed; both of 
those individuals have initialed each page of the written 
statement indicating that in toto it is appropriate for public 
release. So I would offer that for the record and then proceed 
to offer a summarized version for the hearing.
    [The certifications of declassification follow: The 
initialed documents referred to were submitted for inclusion in 
the Joint Inquiry Committee classified record.]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 


    Ms. Hill. My testimony today will focus on the Intelligence 
Community's knowledge prior to September 11, 2001, of the 
hijackers, particularly three of the five individuals who 
hijacked American Flight 77, which crashed into the Pentagon. 
Later in this inquiry we will focus on the July 10, 2001, 
electronic communication from the Phoenix field office of the 
FBI to FBI headquarters and on the FBI's investigation prior to 
September 11 of Zacarias Moussaoui.
    While each of these areas is equally important, I do want 
to emphasize the significance of these matters when viewed 
collectively. The information regarding all three matters was 
available in the same section at FBI headquarters in August 
2001. The first and third matters were addressed in the DCI's 
Counterterrorist Center at approximately the same time. In 
neither unit did anyone see the potential collective 
significance of the information, despite increasing concerns 
throughout the summer of 2001 about an impending terrorist 
attack.
    In each of these areas there were missed opportunities by 
the Intelligence Community. In each area there were indications 
of larger systemic issues that, at least in part, drove those 
missed opportunities. And finally, in each area, there were 
individuals within the Intelligence Community who did recognize 
the importance of what was potentially at stake and tried, 
though ultimately without success, to get organizations within 
the community to do the same.
    Of particular interest to this inquiry is the extent to 
which the Intelligence Community had any intelligence or law 
enforcement information linking any of the suspected hijackers 
to terrorism or to a terrorist group prior to the eleventh of 
September. Today the Joint Inquiry staff has determined that 
prior to September 11 the Intelligence Community possessed no 
intelligence or law enforcement information that would have 
linked 16 of the 19 hijackers to terrorism or terrorist groups. 
The three remaining hijackers, all of whom were aboard American 
Flight 77, did come to the attention of the community prior to 
September 11.
    The three hijackers in question are Khalid al-Mihdhar, 
Nawaf al-Hazmi, and Nawaf's brother, Salim al-Hazmi. What 
follows and what I'm going to present this morning is a 
description of how the community developed information on these 
individuals and when the Intelligence Community had, but 
missed, opportunities both to deny them entry into the United 
States, and, subsequently, to generate investigative and 
surveillance action regarding their activities within the 
United States.
    At this stage we must also reiterate that this is only an 
unclassified summary of our work to date regarding these 
events. The staff is at this point continuing its review of 
other information pertaining to the hijackers and some 
information and areas under review remain classified. A 
separate and more detailed classified statement will be 
submitted for inclusion in the sealed record at a later point.
    The story begins in December 1999 with the Intelligence 
Community on heightened alert for possible terrorist activity 
as the world prepared to celebrate the new millennium. A 
meeting of individuals believed at the time to be associated 
with Usama bin Ladin's terrorist network took place in Kuala 
Lumpur, Malaysia, from January 5 to January 8, 2000. Khalid al-
Mihdhar and Nawaf al-Hazmi were among those attending the 
meeting, along with an individual later identified as Khallad 
bin Atash, a key operative in Usama bin Ladin's network. 
Although it was not known what was discussed at the Malaysia 
meeting, the CIA believed it to be a gathering of al-Qa'ida 
associates. Several of the individuals attending the meeting, 
including al-Mihdhar and al-Hazmi, then proceeded to another 
southeast Asian country.
    By the time these individuals entered Malaysia, the CIA had 
determined Khalid al-Mihdhar's full name, his passport number, 
and his birth information. Significantly, it also knew that he 
held a United States B1/B2 multiple-entry visa that had been 
issued to him in Jeddah, Saudi Arabia, on April 7, 1999, and 
would not expire until April 6, 2000.
    Soon after these individuals departed Malaysia on January 
8, 2001, the CIA also received indications that Nawaf's last 
name might be al-Hazmi. Unbeknownst to the CIA, another arm of 
the Intelligence Community, the National Security Agency, had 
information associating Nawaf al-Hazmi with the bin Ladin 
network. NSA did not immediately disseminate that information, 
although it was in NSA's data base.
    At this stage, Salim al-Hazmi was known to the rest of the 
Intelligence Community as an associate of Khalid's and Nawaf's 
and that he was possibly Nawaf's brother. Al-Mihdhar and Nawaf 
al-Hazmi's names could have been, but were not, added at this 
time to the State Department, INS, and U.S. Customs Service 
watch lists denying individuals entry into the United States.
    A CIA communication in early January 2000 states that al-
Mihdhar's travel documents, including his multiple-entry visa 
for the United States, were shared with the FBI for further 
investigation. We have interviewed the supervisor of the unit 
in which this document was written, and that individual has no 
independent recollection of the documents being sent to the 
FBI. No one at the FBI recalls having received such documents 
at the time. No confirmatory record of the transmittal of the 
travel documents has yet been located at either the CIA or the 
FBI.
    In addition, while the Malaysia meeting was in progress, a 
CIA employee sent an e-mail to a CIA colleague advising that he 
had briefed two FBI agents about what the CIA had learned about 
al-Mihdhar's activities. The CIA employee told us that he had 
at the time been assigned to work at the FBI's Strategic 
Information Operations Center to fix problems ``in 
communicating between the CIA and the FBI.''
    His e-mail, however, makes no mention of the CIA's 
determination that al-Mihdhar held a U.S. multiple-entry visa. 
The CIA employee noted in his e-mail that he told the second 
FBI agent that ``this continues to be an [intelligence] 
operation. Thus far a lot of suspicious activity has been 
observed, but nothing that would indicate evidence of an 
impending attack or criminal enterprise. Told''--and he refers 
to the first FBI agent--``that as soon as something concrete is 
developed leading us to the criminal arena or to known FBI 
cases, we will immediately bring FBI into the loop, like''--and 
he refers to the first FBI agent--``yesterday, the second FBI 
agent stated that this was a fine approach and thanked me for 
keeping him in the loop.''
    The CIA employee told our staff that he does not recall 
telling the FBI about al-Mihdhar's visa information and 
potential travel to the United States. When interviewed by our 
staff, neither FBI agent initially recalled discussions with 
the CIA employee about al-Mihdhar. The first agent did locate 
his own handwritten notes that indicated that he did speak with 
the employee about Malaysia activities, probably in early 
January 2000. The second agent knows the CIA employee but does 
not recall learning about al-Mihdhar or the Malaysia meeting 
until after September 11, 2001.
    An e-mail from the second FBI agent to a superior at FBI 
headquarters has been located that relates the basic facts of 
the conversation with the CIA employee. The e-mail, however, 
makes no mention of al-Mihdhar's visa information or possible 
travel to the United States. It concludes with, ``CIA is 
reporting relevant information as it becomes available.''
    In early March 2000, CIA headquarters, including both the 
CTC and the special bin Ladin unit, received information from 
an overseas CIA station involved in the matter that Nawaf al-
Hazmi had entered the United States via Los Angeles 
International Airport on January 15, 2000. No further 
destination for Khalid al-Mihdhar was noted in the CIA cable. 
The cable carrying the information was marked ``action 
required, none, FYI.''
    The following day, another overseas CIA station noted, in a 
cable the to bin Ladin unit at CIA headquarters, that it had 
``read with interest'' the March cable, ``particularly the 
information that a member of this group traveled to the U.S.'' 
The CIA did not act on this information, nor did it consider 
the possibility that, because Nawaf al-Hazmi and Khalid al-
Mihdhar had been together in Malaysia and continued on together 
to another southeast Asian country that there was a possibility 
that they would travel further together. In fact, al-Mihdhar, 
who traveled with al-Hazmi, continued on with him to the United 
States on January 15, 2000.
    Again, at this point these two individuals could have been 
added to the State Department's watch list for denying 
individuals entry into the United States. Although they had 
already entered the United States, the sharing of this 
information with the FBI and appropriate law enforcement 
authorities could have prompted investigative efforts to locate 
these individuals and possibly surveil their activities within 
the United States. Unfortunately, none of these things 
happened.
    The Joint Inquiry staff has interviewed the individual at 
CIA headquarters who had direct responsibility for tracking the 
movement of individuals at this meeting in Malaysia. That 
person does not recall seeing the March message. In his 
testimony before the Joint Inquiry on June 18, 2001, the 
Director of Central Intelligence acknowledged that the CIA 
should have acted to add these individuals to the State 
Department's watch list in March 2000 and characterized this 
omission as ``a mistake.''
    During the course of our interviews we attempted to 
identify the reasons why that mistake occurred. We were told 
that there was, at the time, no formal system in place at the 
CTC for watchlisting suspected terrorists with indications of 
travel to the United States. CIA personnel also told us that 
they received no formal training on watchlisting. One CIA 
employee said they learned about the watchlisting process 
through ``on-the-job training.'' Another CIA employee who had 
been aware of al-Mihdhar's participation in the Malaysia 
meeting, told us that prior to September 11, 2001, it was ``not 
incumbent'' on CTC's special bin Ladin unit to watchlist such 
individuals. Finally, a CTC employee who in 2000 handled the 
cable traffic on the Malaysia meeting told us that the meeting 
was not considered ``important'' relative to other 
counterterrorist activities occurring at the time, and that 
there were not enough people to handle CTC's workload at the 
time.
    As a result, informational cables such as the March 2000 
message received less attention than action items. Several 
other CIA employees told us that they typically did not have 
time to even read informational cables.
    Senator Mikulski. Mr. Chairman, when will we recess for the 
vote?
    Chairman Graham. We have ten minutes left on the vote. Ms. 
Hill, there is a vote on in the Senate and we're going to have 
to leave. Is there a point that would be better in terms of 
your presenting the story that you're going to reach in the 
next five minutes?
    Ms. Hill. If you would like to break, if you want to break, 
we could break now or I can continue, however you want me to do 
it.
    Chairman Graham. The meeting will be suspended for such as 
it takes the Members of the Senate to vote and return, and I 
would urge expeditious return.
    [Whereupon, from 10:35 a.m. until 11:22 a.m., the 
Committees stood in recess.]
    Chairman Goss [presiding]. Chairman Graham asked me to 
proceed with the continuation of Ms. Hill's presentation to us 
because of the urgency of some other scheduling matters that 
some of our lead questioners have. I see Senator Levin has 
returned, so in that case, Ms. Hill, would you continue, 
please?
    Ms. Hill. Yes, Mr. Chairman. Thank you.
    I'll continue right where I left off. The failure to 
watchlist al-Mihdhar and al-Hazmi or, at a minimum, to advise 
the FBI of their travel to the United States is perhaps even 
more puzzling because it occurred shortly after the peak of 
Intelligence Community alertness to possible millennium-related 
terrorist attacks.
    In the fall of 1999 there was a debate within the community 
about whether intelligence information that had been collected 
earlier that year meant that bin Ladin's terrorist network 
intended to carry out attacks in the midst of the celebrations 
ushering in the new millennium. Intelligence information, along 
with the arrest of Amhad Ressam at the U.S.-Canadian border, 
prompted the U.S. Government and various foreign governments to 
arrest, detain, and otherwise disrupt numerous individuals 
associated with bin Ladin's network in various locations around 
the world.
    These disruptions occurred between December 1999 and 
February 2000. Thus, the Malaysia meeting of January 5 through 
8, 2000, and the March 2000 information that al-Hazmi had 
entered the United States developed at a time when the 
Intelligence Community had only recently confronted the real 
possibility of a bin Ladin attack. However, it apparently was 
still focused on the organization and aftermath of the previous 
operations.
    In interviews with the staff, a number of working level CIA 
personnel who were following the Malaysia meeting and other 
terrorist activities in the millennium time frame have 
characterized the Malaysia meeting as just one of many 
counterterrorist efforts occurring at the time. In contrast, 
documents reviewed by the Joint Inquiry staff show that the 
Malaysia meeting was deemed sufficiently important at the time 
that it was included, along with several other counterterrorist 
activities, in several briefings to the DCI in January 2000. We 
were told, however, that the matter was ``dropped'' when the 
CIA employee handling the matter moved on to other issues and, 
as a result, no CIA officer was following the al-Mihdhar group 
by the summer of 2000.
    By March 2000 al-Mihdhar and Nawaf al-Hazmi had settled 
into a residence in San Diego. In the course of their time in 
San Diego they used their true names on a rental agreement, as 
al-Mihdhar also did in obtaining a California motor vehicle 
photo ID card. In May 2000 they took flight lessons in San 
Diego but abandoned the effort.
    On June 10, 2000, al-Mihdhar left the United States on a 
Lufthansa flight from Los Angeles to Frankfort. Nawaf al-Hazmi 
remained in the United States. On July 7, 2000, a week shy of 
the expiration of the six-month visa to stay in the United 
States, al-Hazmi applied to the INS for the extension to his 
visa. He used on his INS application the LemonGrove, California 
address for the residence that he shared with al-Mihdhar before the 
latter's departure in early June 2000. The INS recorded receipt of the 
extension request on July 27, 2000. The INS has advised the staff that 
it assumes a receipt was generated and sent to al-Hazmi at the address 
he listed. The INS does not have a record of a further extension 
request by al-Hazmi, who remained in the United States illegally after 
his initial extension expired in January 2001.
    On October 12, 2000, two individuals with ties to bin Ladin 
carried out an attack on the USS Cole. The Navy destroyer was 
refueling in Aden, Yemen. In the course of its investigation of 
the attack, the FBI developed information indicating that an 
individual named Tawfiq Mahomed Saleh Atash, also known as 
Khallad, had been a principal planner in the Cole bombing, and 
that two other participants in the Cole conspiracy had 
delivered money to Khallad at the time of the January 2000 
Malaysia meeting. The FBI shared this information with the CIA, 
and it prompted analysts at the CIA to take another look at the 
January 2000 meeting in Malaysia.
    In that process the CIA acquired information in January 
2001 indicating that Khallad had attended the meeting in 
Malaysia. This information was significant because it meant 
that the other attendees, including al-Mihdhar and Nawaf al-
Hazmi had been in direct contact with the key planner in bin 
Ladin's network behind the Cole attack. However, CIA again 
apparently did not act and did not add Khalid al-Mihdhar and 
Nawaf al-Hazmi to the State Department's watchlist. At this 
time, Khalid al-Mihdhar was abroad, while Nawaf al-Hazmi was 
still in the United States.
    In May 2001, personnel at the CIA provided an intelligence 
operations specialist at FBI headquarters with photographs 
taken in Malaysia, including one of al-Mihdhar. The CIA wanted 
the FBI to review the photographs to determine whether an 
individual in custody in connection with the Cole investigation 
could be identified in the photographs. When interviewed, the 
FBI intelligence operations specialist who received the 
photographs told the staff that the CIA told her about al-
Mihdhar's meeting in Malaysia and travel to another southeast 
Asian country but said nothing about his potential travel to 
the United States. Nor did the CIA advise the FBI that the 
photographs were from a meeting that it believed Khallad had 
attended. Again, no action was taken to watchlist al-Mihdhar or 
al-Hazmi.
    On June 11, 2001, FBI headquarters representatives and CIA 
representatives met with the New York FBI agents handling the 
Cole investigation. The New York agents were shown but not 
given copies of the photographs and were told they were taken 
in Malaysia. When interviewed, one of the New York agents 
recalled al-Mihdhar's name being mentioned. He also recalled 
asking for more information on why the people in the 
photographs were being followed and for access to that 
information. The New York FBI agents were advised that they 
could not be told why al-Mihdhar and the others were being 
followed. An FBI headquarters representative told us in her 
interview that the FBI was never given specific information 
until it was provided after September 11, 2001.
    The CIA analyst who attended the New York meeting 
acknowledged to the Joint Inquiry staff that he had seen the 
information regarding al-Mihdhar's U.S. visa and al-Hazmi's 
travel to the United States, but he stated that he would not 
share information outside of the CIA unless he had authority to 
do so and unless that was the purpose of the meeting.
    On June 13, 2001, Khalid al-Mihdhar obtained a new U.S. 
visa in Jeddah using a different passport than the one he had 
used to enter the United States on January 15, 2000. On his 
application he checked ``no'' in response to the question of 
whether he had ever been in the United States. On July 4, 2001, 
al-Mihdhar reentered the United States.
    On or about July 13, 2001, a CIA officer assigned to the 
FBI, who I believe will testify this morning, accessed CIA's 
electronic data base and located a CIA cable for which he had 
been searching that contained information the CIA had acquired 
in January 2001 indicating that Khallad had attended the 
meeting in Malaysia. The presence of Khallad in Malaysia deeply 
troubled the CIA officer, who immediately sent an e-mail from 
FBI headquarters to the DCI's CTC saying of Khallad, ``this is 
a major league killer who orchestrated the Cole attack and 
possibly the Africa bombings.''
    A review at the CIA of all prior cables concerning the 
Malaysia meeting was launched, a task that fell to an FBI 
analyst assigned to the CTC. On August 21, 2001, the FBI 
analyst put together two key pieces of information. These were 
the intelligence that the CIA had received in January 2000 that 
al-Mihdhar had a multiple-entry visa to the United States and 
the information the CIA had received in march 2000 that Nawaf 
al-Hazmi had entered the United States on January 15, 2000. 
Working with an INS representative assigned to the CTC, the 
analyst obtained information that al-Mihdhar had entered the 
United States on January 15, 2000 and had departed on June 10, 
2000. Additional investigation revealed that al-Mihdhar had 
reentered the country on July 4, 2001, with a visa that allowed 
him to stay through August 22.
    CIA suspicions were further aroused by the timing of al-
Mihdhar and al-Hazmi's arrival in Los Angeles, in the same 
general time frame in which Algerian terrorist and bin Ladin 
associate Ahmad Ressam was to have arrived in Los Angeles to 
conduct terrorist operations.
    On August 23, 2001, the CIA sent a cable to the State 
Department, the INS, the Customs Service and the FBI requesting 
that bin Ladin-related individuals al-Mihdhar, Nawaf al-Hazmi, 
and two other individuals at the Malaysia meeting be 
watchlisted immediately and denied entry into the United 
States, ``due to their confirmed links to Egyptian Islamic 
Jihad operatives and suspicious activities while traveling in 
east Asia.'' Although the CIA believed al-Mihdhar was in the 
United States, placing him on the watchlist would have enabled 
authorities to detain him if he attempted to leave.
    Meanwhile, the FBI headquarters bin Ladin unit sent to the 
FBI's New York field office a draft document recommending the 
opening of an intelligence investigation on al-Mihdhar to 
determine if al-Mihdhar is still in the United States. It also 
stated that al-Mihdhar's confirmed association with elements of 
bin Ladin's terrorist network, including potential association 
with two individuals involved in the attack on the USS Cole 
``make him a risk to the national security of the United 
States.''
    The goal of the investigation was to locate al-Mihdhar and 
determine his contacts and reasons for being in the country. 
New York FBI agents told us that they tried to convince FBI 
headquarters to open a criminal investigation in al-Mihdhar, 
given the importance of the search and the limited resources 
that were available to intelligence investigations. FBI 
headquarters declined to do so because there was, in its view, 
no way to connect al-Mihdhar to the ongoing Cole investigation 
without using some intelligence information.
    At the State Department, a visa revocation process was 
begun immediately. Al-Mihdhar, Nawaf al-Hazmi, Khallad and the 
other individual who had been at the Malaysia meeting were 
added to the watchlist. The FBI contacted the Bureau of 
Diplomatic Security at the State Department on August 27, 2001, 
to obtain al-Mihdhar and Nawaf al-Hazmi's visa information. The 
visa information revealed that on entering the U.S. al-Mihdhar 
had indicated on his application that he would be staying at a 
Marriott hotel in New York City. An FBI agent, working with a 
Naval Criminal Investigative Service agent, determined on 
September 5 that al-Mihdhar had not registered at any New York 
area Marriott hotel.
    On September 10, 2001, the New York FBI field office 
prepared a request that the FBI office in Los Angeles check all 
Sheraton hotels located in the L.A. area. The request also 
asked that the Los Angeles field office check with United 
Airlines and Lufthansa for travel andalias information, since 
al-Mihdhar and al-Hazmi had used those airlines. The Los Angeles FBI 
office conducted the search after September 11, 2001, with negative 
results.
    In short, the CIA had obtained information identifying two 
of the 19 hijackers, al-Mihdhar and al-Hazmi, as suspected 
terrorists carrying visas for travel to the United States as 
long as 18 months prior to the time they were eventually 
watchlisted. There were numerous opportunities during the 
tracking of the two suspected terrorists when the CIA could 
have alerted the FBI and other U.S. law enforcement authorities 
to the probability that these individuals either were or would 
soon be in the United States. That was not done. Nor were they 
placed on watchlists denying them entry into the United States.
    It is worth noting that the watchlists mentioned above are 
aimed at denying named individuals from entering the United 
States. Prior to September 11, 2001, these watchlists were not 
used to screen individuals boarding domestic flights within the 
United States. Thus, even though al-Mihdhar and al-Hazmi had 
been placed on watchlists two weeks prior to September 11, this 
did not prevent them from boarding American Flight 77 on 
September 11.
    Beyond the watchlist issue, the story of al-Mihdhar and al-
Hazmi also graphically illustrates the gulf that apparently 
existed, at least prior to September 11, between intelligence 
and law enforcement counterterrorist efforts. There are a 
number of factors that make effective integration of law 
enforcement and intelligence investigations against terrorism 
difficult. These include differences in experience, tactics, 
objectives, legal authorities and concern for protecting 
intelligence sources and methods.
    For example, limitations on the flow of information to 
criminal investigators from intelligence agencies can be 
imposed to protect foreign intelligence sources and methods 
from disclosure in a criminal prosecution. In the case of al-
Mihdhar and al-Hazmi, even the importance of the USS Cole 
criminal investigation was evidently deemed insufficient to 
justify the full sharing of relevant intelligence information 
with the agents handling the criminal case.
    An August 29, 2001, e-mail exchange between FBI 
headquarters and an FBI agent in New York is illustrative. The 
agent, who had been involved in the Cole criminal investigation 
since the day of that attack, and who, I might add, is present 
here today to testify, asked FBI headquarters to allow New York 
to use the full criminal investigative resources available to 
the FBI to find al-Mihdhar. Headquarters responded that its 
national security law unit advised that this could not be done. 
The headquarters response--and I will read it--is as follows:
    ``A criminal agent CANNOT be present at the interview. This 
case in its entirety is based on intelligence. If at such time 
as information is developed indicating the existence of a 
substantial federal crime, that information will be passed over 
the wall according to the proper procedures and turned over for 
follow-up criminal investigation.'' I will refrain from reading 
the agent's response in his e-mail because I believe he's here 
today and he will read that to you himself, which is certainly 
more appropriate than me reading it.
    Within two weeks after the September 11 attacks, the FBI 
prepared an analysis of bin Ladin's responsibility as part of 
the State Department's development of a white paper that could 
be shared with foreign governments. That analysis relied, at 
least in part, on the connection between the attack on the USS 
Cole and al-Mihdhar and al-Hazmi. ``Even at this early stage of 
the investigation, the FBI has developed compelling evidence 
which points to Usama bin Ladin and al-Qa'ida as the 
perpetrators of this attack. By way of illustration, at least 
two of the hijackers met with a senior al-Qa'ida terrorist, the 
same al-Qa'ida terrorist which reliable information 
demonstrates orchestrated the attack on the USS Cole and who 
was involved in the planning of the East Africa bombings.''
    The two hijackers referred to were al-Mihdhar and al-Hazmi, 
the senior al-Qa'ida terrorist was Khallad. The place that they 
met was Malaysia. Thus, the facts linking these two individuals 
to Khallad and to bin Ladin formed the crux of the case made to 
governments around the world after September 11 that bin Ladin 
should be held accountable for those attacks.
    In closing I would just say we have a few preliminary 
conclusions, and they are as follows. September 11 hijackers 
Khalid al-Mihdhar and Nawaf al-Hazmi came to the attention of 
the Intelligence Community in early 2000 but entered the United 
States unobserved soon after. The Intelligence Community 
succeeded in determining that these bin Ladin operatives were 
in Malaysia in January 2000 and in obtaining important 
information about them. The system broke down, however, in 
making the best use of that information and in ensuring that it 
was effectively and fully shared with agencies like the FBI, 
the State Department and the INS that could have acted on it to 
either prevent them from entering the United States or surveil 
them and uncover their activities while in the United States.
    In addition, the FBI and CIA had responsibilities to 
respond to the October 2000 attack on the USS Cole. Each had 
information that the other needed to carry out those 
responsibilities. But, at a key meeting in New York on June 11, 
2001, the CIA did not provide to the FBI information about the 
Malaysian meeting and its participants that could have assisted 
the FBI in their investigation.
    These events reflect misunderstandings that have developed 
over the last several years about using information derived 
from intelligence-gathering activities in criminal 
investigations. The problems of communication between 
organizations that are demonstrated by the al-Mihdhar/al-Hazmi 
situation existed not only between the CIA and the FBI but also 
within the FBI itself. Once it was determined in late August 
2001 that Khalid al-Mihdhar was in the United States, the 
search to determine his whereabouts was limited by U.S. 
government policies and practices regarding the use of 
intelligence information in FBI criminal investigations. This 
limited the resources that were made available for the FBI to 
conduct the search during a time in which al-Mihdhar and al-
Hazmi were purchasing their September 11 tickets and traveling 
to their last rallying point.
    Mr. Chairman, that concludes the statement. I would only 
add one minor correction. I believe when I read it I noted that 
Director Tenet had testified before these committees on June 
18, 2001. That was an error. It should be June 18, 2002. So 
that needs to be clear for the record.
    Thank you.
    Chairman Graham. Thank you, Ms. Hill.
    As I indicated earlier, at the conclusion of Ms. Hill's 
staff presentation we're going to ask the room be cleared 
briefly and then we will make necessary arrangements within the 
room and resume with the three witnesses. I'd ask that all but 
approved personnel leave the room.
    [Whereupon, a brief recess was taken, the room was cleared, 
a screen to protect the identity of two witnesses was set up, 
the witnesses were brought in and seated, and the doors were 
reopened for the public and press.]
    Chairman Graham. I call the hearing to order.
    Before we proceed with the witnesses, I will ask unanimous 
consent for three actions--one, that the full declassified 
staff statement that has just been presented by Ms. Hill be 
placed in the record. Is there objection?
    [No response.]
    Chairman Graham. Two, that a classified staff statement be 
placed in the classified portion of the record. Is there 
objection?
    [No response.]
    Chairman Graham. And, third, that Chairman Goss and I, 
acting jointly after consultation with Vice Chairman Shelby and 
Ranking Member Pelosi, be authorized to place in an appropriate 
place in the record classified and unclassified exhibits that 
are designated for inclusion by the staff director of the Joint 
Inquiry or any Member of the two Committees. Is there 
objection?
    [No response.]
    Chairman Graham. Without objection, so ordered.
    Due to the continuing sensitivity of their counterterrorism 
responsibilities, two of our next witnesses will testify while 
sitting behind an opaque screen. All cameras have been 
relocated so as not to photograph these two witnesses. It is 
our procedure to ask that all witnesses be sworn. Therefore, I 
would ask if you would please stand and raise your right hand.
    Senator Feinstein. No, don't make them stand.
    Chairman Graham. I'm sorry. Our witnesses are taller than 
our screen, so would the two identified witnesses please stand 
and would the two non-identified witnesses please raise their 
right hand?
    Do you solemnly swear that the testimony you will give 
before the Committee will be the truth, the whole truth, and 
nothing but the truth, so help you, God?
    Mr. Rolince. I do.
    CIA Officer. I do.
    FBI Agent. I do.
    Mr. Kojm. I do.
    Chairman Graham. As we commence the witness testimony, I 
would ask that all Members of the Committee refer to the two 
unidentified witnesses as being either the CIA officer or the 
FBI agent.
    The two other witnesses will be Mr. Michael Rolince, FBI 
Special Agent in Charge of the Washington Field Office, and 
Chris Kojm, Deputy for Intelligence Policy and Coordination of 
the State Department Bureau of Intelligence and Research. We 
very much appreciate all of your participation in this 
important hearing. The hearing has been reopened to the public 
and the press.
    Two of our witnesses, one from the CIA and one from the 
FBI, will be shielded by the screen during their testimony. 
Neither of these witnesses are to be addressed by name. This is 
necessary because both are currently engaged in sensitive 
counterterrorism activities. We have introduced the other two 
open witnesses. I would ask that the witnesses be called upon 
to make your oral statements in the following order--first the 
CIA officer, second Mr. Rolince, third the FBI agent, and then 
finally Mr. Kojm.
    The CIA officer.
    [The prepared statement of the CIA Officer follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
   STATEMENT OF AN OFFICER OF THE CENTRAL INTELLIGENCE AGENCY

    CIA Officer. Mr. Chairman, Members and staff, I'm a senior 
officer attached to the DCI's Counterterrorist Center, 
currently assigned to the FBI.
    From September 1998 until May 2001 as an operations manager 
I was privileged to work alongside a group of extraordinary 
officers from the CIA, the FBI, and other agencies who were and 
remain committed to combating the threat posed by bin Ladin and 
those he has inspired.
    In May of 2001 I moved over to the Federal Bureau of 
Investigation, where I have since worked as a CIA detailee in 
the Counterterrorism Division, a position in which I've also 
focused on the bin Ladin menace.
    I would like to read a short statement and then the written 
version will be submitted for the record.
    Chairman Graham. Thank you.
    CIA Officer. Before we begin, I would like to observe that 
even after ten months of incredible effort by the U.S. military 
and others in Afghanistan and by the agencies you see 
represented before you here today and others here and abroad, 
al-Qa'ida remains poised to strike again. What we say in this 
venue over the coming weeks will be closely followed by the 
very people who are trying to destroy you, me, our families and 
our way of life. I want to stress, speaking on behalf of those 
still carrying the battle to al-Qa'ida inside Afghanistan and 
out that we do not and cannot for the foreseeable future view 
this group and its emulators and sympathizers as anything less 
dangerous than they were at this time last year. While we have 
an obligation to ensure that our flaws are identified and 
corrected, we must also take great care that we not educate the 
enemy while we are at it.
    With those comments, I turn to the specific topic we have 
been invited here to review. Your staff has laid out the basic 
facts so I won't repeat them in detail. But I'd like to walk 
through the most significant elements in summary form.
    In late 1999 the U.S. counterterrorist community launched a 
global effort aimed at disrupting terrorist operations we knew 
were being planned for the millennium turnover and that we 
suspected would carry over into the end of the Muslim month of 
Ramadan, which was to occur in early January 2000. Dozens of 
terrorists and terrorist support nodes were disrupted. Both CIA 
and the FBI, as well as other members of the Intelligence 
Community, surged large numbers of officers for this effort, 
and they worked around the clock through roughly mid-January, 
through 15 January 2000.
    During that heightened alert the CIA and the FBI and other 
members of the Intelligence Community were also working over 
data they had shared relative to the Nairobi and Dar es Salaam 
embassy bombings that had occurred in August 1998. In December 
1999 this intelligence provided a kind of a tuning fork that 
buzzed when two individuals reported planning and trip to Kuala 
Lumpur were linked indirectly to a support element that we 
suspected had played a role with the Africa bombers.
    A CTC officer, noting the linkage, set in motion a complex 
series of operations aimed at determining their identity, their 
contacts and, ideally, what they were doing. The operation 
succeeded in its first phase. Within a very short period of 
time we learned the name of one of the travelers, Khalid al-
Mihdhar. We learned where they were staying and the names of 
several of their local contacts. We were unable to complete the 
second phase of the operation, however; we did not learn the 
identities of the other participants in the meeting at the 
time, and were unable to determine and still do not know what 
they discussed during that meeting.
    While the meeting was in process, via CIA officers detailed 
to the FBI, the CTC kept the FBI advised of developments via 
verbal briefings. As you know, for a number of years the FBI 
has had agents and analysts working integrally with CTC, 
including in the CTC's bin Ladin element. And CIA officers in 
turn have also served in various components of the FBI, 
including also in the bin Ladin unit at FBI headquarters.
    Part of the job on either side, especially during moments 
of crisis, is to provide verbal briefs on the fly before 
shifting attention to the next facet of the crisis.
    We prefer to document significant transfers of information 
both to assure ourselves that it was passed and also to create 
a detailed record for our own operations officers and analysts, 
who at a later date draw on such data to do a variety of tasks. 
In this case, CTC did not formally document to the FBI the 
conversations between the CIA referents and the FBI supervisors 
they briefed. CTC did note in a cable to the field that al-
Mihdhar's passport information had been passed to the FBI, but 
to date we have been unable to confirm either passage or 
receipt of the information, so we cannot say what the exact 
details were that were passed.
    As the operations unfolded, a piece of data that in 
hindsight turned out to be critical revealed al-Mihdhar's 
passport information and that he had earlier obtained a visa to 
the United States. Under ideal conditions that passport data 
should have been provided to the State Department's TIPOFF 
program, which is designed to keep terrorists from entering the 
U.S. from abroad. At this point both al-Mihdhar and his 
companion, who would turn out to be another hijacker, Nawaf al-
Hazmi, had their visas.
    Later, in early March 2000, long after the dust had settled 
in Malaysia, information surfaced indicating that al-Mihdhar's 
partner was named Nawaf al-Hazmi. In early March CIA also 
received information indicating that al-Hazmi had booked a 
flight that terminated in Los Angeles on 15 January 2000. 
Again, the new information on al-Hazmi was not disseminated.
    After the October 2000 bombing of the USS Cole, the al-
Mihdhar and al-Hazmi data resurfaced when the FBI learned that 
an individual alleged to have been a key planner of the Cole 
attack had been in southeast Asia at the same time as the 
Malaysia meeting. This raised the possibility that the planner 
of that Cole attack had been at the meeting. The person I'm 
discussing was this person Khallad, who was mentioned in the 
previous testimony. I at the time I wrote this I did not have 
the full declassified version.
    Seeking to develop more information on that hypothesis, 
that Khallad had been at the meeting, and related to other 
information linking some Cole operatives to possible unknown 
contacts in Malaysia, the FBI and CIA sought to develop more 
information about the other people at the meeting. Early in 
2001 more intelligence was developed that strengthened the 
hypothesis that this key planner had been one of the 
participants in the January 2000 meeting with al-Mihdhar and 
al-Hazmi. At the time, the focus was on the USS Cole 
investigation and understanding what had occurred in Malaysia, 
not on whether these individuals had been watchlisted.
    In mid-summer 2001, although the presence of the key 
planner in Malaysia had yet to be confirmed, while burrowing 
through intelligence related to other terrorist activity in 
Malaysia the data from January 2000 and January 2001 was put 
together in a different way, and both the FBI and CIA began to 
work to flesh out their understanding of all the people linked 
to the key planner of the Cole attack, of all the people linked 
to Khallad.
    In the course of that work, in mid-August 2001 CIA and FBI 
learned that al-Mihdhar had entered the U.S. in January 2000, 
departed at a later date, and then reentered in July 2001. CTC 
notified a number of agencies officially within a short time 
and the FBI began an investigation to backtrack from al-
Mihdhar's immigration documents in an effort to find him. But 
he had not registered at the hotels indicated on his forms and 
time ran out before other venues could be searched.
    How could these misses have occurred? I do not want to 
speculate at any great length about this at this point, because 
I really don't have a definitive answer. But I should try to 
put the events into some kind of context. The events I've 
summarized above took place in the context of a worldwide 
campaign that also focused on people we knew were trying to 
kill Americans. The CIA operators focused on the Malaysia 
meeting while it occurred. When it was over, they focused on 
other more urgent operations against threats, real or assessed.
    Of the many people involved, no one detected that the data 
generated by this operation, the Malaysia meeting, crossed a 
reporting threshold or, if they did, they assumed that the 
reporting requirement had been met elsewhere.
    In a later session, officers who served in CTC after 9/11 
will expand on the revisions and new training that have been 
put into place to reduce the chances of this happening again. 
There are new types of watchlists and new very low thresholds 
for entering names onto them. They will be discussed by others 
more familiar with the details and the protocols. What I will 
say here is that, new procedures and training aside, they are 
also the kinds of misses that happen when people, even very 
competent, dedicated people such as the CIA officers and the 
FBI agents and analysts involved in all aspects of this story 
are simply overwhelmed.
    The counterterrorism business often does not feature a 
large team going after a single target but, rather, one or two 
officers juggling multiple activities against many people, 
simultaneously trying to make sense of what it means, which 
target deserves priority attention, and balancing the interests 
of multiple stations, liaison services and U.S. agencies. I 
would like to say that we will get it right 100 percent of the 
time, and in fact we're in a business here where we have to get 
it right 100 percent of the time, because the enemy only has to 
get it right once.
    While I can't promise that we'll ever completely reach that 
goal of perfection, I have no doubt that those working in 
counterterrorism will never stop trying to get there. And I 
will just add a little statement that's not in my prepared 
statement. We appreciate the help.
    Thank you.
    Chairman Graham. Thank you.
    Mr. Rolince.
    [The prepared statement of Mr. Rolince follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    STATEMENT OF MICHAEL ROLINCE, SPECIAL AGENT IN CHARGE, 
    WASHINGTON FIELD OFFICE, FEDERAL BUREAU OF INVESTIGATION

    Mr. Rolince. Thank you, Mr. Chairman.
    Before I begin my prepared remarks, I would just like to 
say for the record that I am honored and proud to follow an 
individual with whom I've worked closely for the last several 
years and who I consider to be one of the finest 
counterterrorism experts in the world.
    Mr. Chairman, Members of the Committees, I am pleased to 
appear before you today to describe the FBI's role within the 
Intelligence Community and our knowledge and actions from 
approximately December 1999 through September 11, 2001. My 
testimony will cover the knowledge of and actions taken by the 
FBI prior to September 11, 2001, regarding Khalid al-Mihdhar 
and Nawaf al-Hazmi, as well as information learned about them 
after the attack. I will touch upon the issue of the FBI's 
investigations of al-Mihdhar as an intelligence case versus a 
criminal target. I will discuss the interaction between the FBI 
and CIA as well as others in the intelligence and law 
enforcement community. I would also like to provide an overview 
of the makeup of the international jihad movement explain how 
it encompasses many groups and organizations, to include bin 
Ladin and the al-Qa'ida network.
    As members of the Intelligence Community, we have been 
asked to discuss the exchange and flow of information within 
the community and its impact on the events leading up to 
September 11. In that context, we've also been asked to discuss 
specifically the investigative efforts into two of the 
September 11 hijackers. The investigation into the activities 
of Khalid al-Mihdhar and Nawaf al-Hazmi illustrates with acute 
clarity that considerable individual effort and collective 
resources will not always result in a successful outcome. 
Notwithstanding improvements over the last few years within the 
Intelligence Community and exchange of personnel and 
information, and despite the extensive work performed by many 
individuals in the various Intelligence Community agencies in 
the war on terrorism, the desired goal to protect our country 
was not realized.
    We have all learned that isolated events and unintentional 
incidents of inaction cannot remain in a vacuum. Individually 
and certainly collectively they have consequences.
    Through a collaborative effort within the community, the 
CIA received information that a meeting of individuals possibly 
associated with Usama bin Ladin's terrorist network took place 
in Kuala Lumpur, Malaysia, in early January 2000. Among those 
attending the meeting were Khalid al-Mihdhar and Nawaf al-
Hazmi, along with a key UBL operative, Khallad. At the time al-
Mihdhar and al-Hazmi were arriving in Malaysia, the CIA advised 
the FBI of their interest in these individuals and indicated 
they would keep the FBI advised of further developments, if 
warranted.
    In March 2000 the CIA received information concerning the 
entry of al-Mihdhar and al-Hazmi into the United States. In 
January 2001 the CIA obtained information which indicated a key 
individual associated with the USS Cole bombing had also 
attending the aforementioned Malaysia meeting. This was 
important because it placed al-Mihdhar and al-Hazmi in direct 
contact with a key operative of UBL.
    During the spring and summer of 2001 analytical personnel 
from the CIA and FBI were working together to pursue avenues 
into the bombing of the USS Cole. On August 23, 2001, the CIA 
advised FBI HQ that on June 13, 2001, al-Mihdhar obtained a 
U.S. visa in Jeddah, Saudi Arabia, using a Saudi Arabian 
passport, and provided his intended address as the Marriott 
Hotel in New York City. His visa was valid until October 3, 
2001.
    The same day, the FBI received a copy of a CIA 
communication to watchlist al-Mihdhar. This information was e-
mailed to FBI New York on August 24, 2001.
    On August 24, 2001, FBI HQ received a copy of al-Mihdhar's 
visa application from the United States Embassy in Saudi 
indicating al-Mihdhar had sponsored his own travel to the 
United States. The application listed al-Mihdhar's plans to 
remain for one month, to depart August 4, 2001.
    Subsequent information received from INS determined al-
Mihdhar had reentered the United States on July 4, 2001, on a 
B1 visa, flying to New York City, and that he would stay at the 
Marriott Hotel in New York. This information was immediately 
relayed verbally to CIA and FBI in New York.
    On August 27, 2001, headquarters verbally advised New York 
of the information contained in the headquarters e-mail to FBI 
New York on August 24, 2001, and further informed FBI in New 
York that headquarters strongly suggested the initiation of a 
full intelligence investigation to locate and fully identify 
the individual. The FBI possessed no information relevant to 
al-Mihdhar's possible involvement in a terrorist attack but 
focused on al-Mihdhar because he had attended a meeting with a 
key individual associated with the USS Cole bombing.
    On August 28, 2001, a full briefing was provided to FBI New 
York in order to initiate that full field investigation to 
locate and identify al-Mihdhar.
    On August 30, 2001, FBI agents contacted security for the 
Marriott Corporation, which agreed to do a search of all guests 
registered at Marriott hotels in the entire New York 
metropolitan area. On September 5, 2001, they advised their 
search for al-Mihdhar was negative.
    On September 10, 2001, based upon previously-received 
intelligence, a lead was sent to FBI Los Angeles to conduct a 
similar search with the security office of Sheraton 
Corporation. This lead was not covered until after the 
September 11 attacks and was also negative.
    As you are probably aware, there was a debate between 
headquarters and FBI New York personnel on whether to open an 
intelligence or criminal investigation on Khalid al-Mihdhar. 
There are two important points to be made in response to this 
issue. First, the decision to handle the al-Mihdhar 
investigation as an intelligence investigation was made under 
procedures which were designed to prevent terrorist acts. 
Second, although it is not uncommon to open a parallel criminal 
investigation, we did not have specific credible evidence of 
criminal activity to do so.
    The restrictions on intelligence agencies and foreign 
services in the sharing of information within our agency 
limited the free flow of that information. This contributed to 
our inability to pull together related information. It was 
frequently difficult to obtain the originating agency's 
concurrence to pass the information to criminal investigators 
even for lead purposes. In terrorism cases this became so 
complex and convoluted that in some FBI field offices FBI 
agents perceived walls where none actually existed. In fact, 
one New York supervisor commented that ``so many walls had 
created a maze'' which made it very difficult for the criminal 
investigators.
    Internally, the FBI adheres to the restrictions and caveats 
placed on intelligence information by the originating agency or 
foreign services. The need for these restrictions and caveats 
to protect sources and methods of intelligence information is 
obvious and needs no further explanation. Routinely 
intelligence agencies evaluate their disseminable information 
to determine whether protections beyond basic classification 
are required. If caveats are required, such as originator 
controlled or ORCON, the classified information remains under 
the control of the originating agency. The FBI is prohibited 
from disclosing information originally classified by another 
agency without its authorization.
    At times criminal investigators are also frustrated by wall 
procedures imposed by the Foreign Intelligence Surveillance 
Court. In a class by itself, FISA information is controlled by 
statute. Although the statute does not preclude the passing of 
information to criminalinvestigators, there are restrictions on 
the use of the information.
    The FISA Court and Department of Justice have been cautious 
through the years of permitting intelligence and criminal 
investigators to become closely associated for fear their 
cooperation would be interpreted as an attempt to circumvent 
the criminal process. Accordingly, the FBI has been required to 
maintain a certain degree of separation between intelligence 
and criminal investigators. With the enactment of the PATRIOT 
Act after September 11, it is much clearer that the sharing of 
information is a government policy issue. Some procedures were 
relaxed and the policy to share was codified. Post-PATRIOT Act, 
the only sharing obstacles relate to the possibility of 
prosecutorial control over the FISA process.
    By Court order the FBI is prohibited from discussing a 
substantive FISA issue with prosecutors unless the Department 
of Justice Office of Intelligence Policy and Review is invited 
to participate. The same requirement does not pertain to 
contact between intelligence and criminal agents, although 
criminal agents cannot control the FISA or the FISA process.
    Mr. Chairman, the remainder of my statement as regards the 
international jihad movement will be submitted for the record 
in the interest of time. That concludes my oral remarks and I 
will be happy to answer questions.
    Chairman Graham. Thank you, Mr. Rolince.
    The FBI Agent.
    [The prepared statement of the FBI Special Agent follows:]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
     STATEMENT OF A SPECIAL AGENT OF THE FEDERAL BUREAU OF 
                         INVESTIGATION

    FBI Agent. Mr. Chairmen, Vice Chairman Shelby, Ranking 
Member Pelosi, and members of the Committees, I am a Special 
Agent of the Federal Bureau of Investigation assigned to the 
New York field office. I appreciate your invitation to appear 
before your committees today in connection with your Joint 
Inquiry into the tragic events of September 11, 2001. I fully 
understand the responsibility with which you have been charged. 
I intend to cooperate with you and answer your questions to the 
best of my ability.
    I am speaking to you today as an individual agent. The 
views I express, therefore, are my own, not necessarily those 
of the FBI, though I believe that my concerns are shared by 
many fellow agents. I hope by appearing here today that I might 
in some small way assure that the men and women of the FBI and 
others in the Intelligence Community have access to the 
information necessary to carry out their sworn duty to protect 
the people of the United States.
    I have no wish in the remarks that follow to be critical of 
any person. Whether they are at FBI headquarters or in the 
field, FBI personnel work their hearts out to perform their 
mission. I am before you today to address practices that 
frustrate us all.
    Much has been written about how the FBI does not share 
information with local law enforcement agencies, but the 
American people must realize that the FBI does not always have 
access to the information itself, nor is all the information 
the FBI possesses available to all of its agents. It is my 
belief that the former problem is due to fear that the Bureau 
may run ahead or mess up current or future operations of one of 
our sister agencies, and the latter is primarily due to 
decisions that have snowballed out of the Foreign Intelligence 
Surveillance Act Court.
    A concept known as ``the wall'' has been created within the 
law enforcement and intelligence communities. From my 
perspective, in the broadest sense the wall is an information 
barrier placed between elements of an intelligence 
investigation and those of a criminal investigation. In 
theory--again same perspective--it is there to ensure that we, 
the FBI, play by the rules in our attempts to gather evidence 
in a criminal case and federal prosecution. I have tried to 
write this statement knowing full well that its contents and my 
testimony will be studied by the enemy. Along those lines, much 
detail has been left out and, if I may humbly remind everyone, 
questions regarding sources, other possible operations, 
investigative methods in this forum should be approached with 
extreme caution.
    As an aside, may I say I firmly believe prevention is best 
served by allowing the law enforcement community, federal and 
local, to conduct sound, sometimes exigent investigations, with 
access to all information that the U.S. government and liaison 
governments possess. These investigations build sources, 
evidence, connections and information and are not simply 
reactive. I would like to assure the American people that in my 
almost seven years in the Bureau the FBI has always been in the 
prevention, if I may, game.
    Before going further, I would like to offer a few words of 
introduction so you are aware of the background that I bring to 
the questions before the committee. Between 1985 and 1993 I 
served in the military. After a brief stint in the private 
sector, I joined the FBI in December 1995 and was assigned to 
the New York field office's joint terrorism task force in July 
1996. From July 1996 through October 1997 I served on the TWA 
Flight 800 investigation. In October 1997 I was assigned to the 
squad that had responsibilities for Taliban and Pakistan 
matters. Following the East Africa embassy bombings in August 
1998 I was part of the first team on the ground, spending a 
cumulative total of over 30 weeks abroad investigating those 
bombings. In early 1999 I joined the New York field office's 
overall Usama bin Ladin case squad, which is responsible for 
the overall investigation of UBL and al-Qa'ida.
    Immediately after the attack on the USS Cole in Aden, 
Yemen, on October 12, 2000, I was assigned as one of the case 
agents who worked on that case, ADENBOM, until the attack on 
September 11, 2001. Since then I have also worked on general 
UBL matters and have been deployed 12 weeks overseas, working 
alongside other Intelligence Community components. I mention 
this fact because although there are issues about the sharing 
of information with FBI investigators by the CIA, my experience 
between the FBI and the Intelligence Community is that we have 
worked successfully together.
    The people of the United States should take great pride in 
the service and sacrifice of the men and women of all the U.S. 
agencies that are deployed overseas, many of whom I've had the 
privilege of working with overseas.
    Briefly, the wall and implied, interpreted, created or 
assumed restrictions regarding it, prevented myself and other 
FBI agents working a criminal case out of the New York field 
office from obtaining information from the Intelligence 
Community regarding Khalid al-Mihdhar and Nawaf al-Hazmi in a 
meeting on June 11, 2001. At the time there was reason to 
believe that al-Mihdhar and al-Hazmi had met with a suspect 
connected to the attack against the USS Cole. The situation 
came to a head during the fourth week of August 2001 when, 
after it was learned al-Mihdhar was in the country, FBI HQ 
representatives said that FBI New York was compelled to open an 
intelligence case and that neither I nor any of the other 
criminal case investigators assigned to track al-Qa'ida could 
attempt to locate him.
    This resulted in a series of e-mails between myself and the 
FBI HQ analyst working the matter. In my e-mails I asked where 
this new wall was defined. I wrote, on August 29, 2001, 
``whatever has happened to this, someday someone will die and, 
wall or not, the public will not understand why we were not 
more effective in throwing every resource we had at certain 
problems. Let's hope the National Security Law Unit will stand 
behind their decisions then, especially since the biggest 
threat to us now, UBL, is getting the most protection.'' I was 
told in response that we at headquarters are all frustrated 
with this issue. These are the rules. NSLU does not make them 
up.
    I hope, Messrs. Chairmen, that these proceedings are time 
to break down the barriers and change the system which makes it 
difficult for all of us, whether we work at FBI HQ or in the 
field at the FBI or elsewhere, to have and be able to act on 
information that we need to do our jobs. Personally, I do not 
hold any U.S. government-affiliated individual or group of 
individuals responsible for the attacks on September 11, 2001. 
I truly believe that, given a chance, any one of them would 
give or sacrifice anything to have prevented what occurred. 
Then and now I hold the system responsible. Information is 
power in the system of intelligence and law enforcement. This 
will never change, nor could or should it.
    In addition to the wall, the system as it currently exists, 
however, seduces some managers, agents, analysts and officers 
into protecting turf and being the first to know and brief 
those above. Often these sadly-mistaken individuals use the 
wall described herein and others, real or imagined, to control 
that information.
    I myself still have two key questions today that I believe 
are important for this Committee to answer. The detailed 
answers to them will deserve and be afforded the scrutiny of a 
nation and must stand the test of time and exhaustive 
investigation. First, if the CIA passed information regarding 
al-Mihdhar and al-Hazmi to the FBI prior to that June 11, 2001, 
meeting, in either January 2000 or January 2001, then why was 
that information not passed, either by CIA or FBI headquarters 
personnel immediately to the New York case agents, criminal or 
intel investigating the murder of 17 sailors in Yemen when more 
information was requested? A simple answer of ``the wall'' is 
unacceptable.
    Second, how and when did we, the CIA and the FBI, learn 
that al-Mihdhar came into the country on either or both 
occasions in January 2000 and/or in July 2001 and what did we 
do with that information?
    On September 11, 2001, I spent the morning on the streets 
with other agents and the joint terrorism task forces personnel 
around the World Trade Center providing whatever help we could. 
I and several of my coworkers were within blocks when both 
towers came down. Within minutes of the second strike on the 
southern tower, we asked a senior fireman heading towards the 
south tower what we could do. At the time he was getting out of 
his fire truck, looking at the towers. By the grace of God, he 
turned to us and replied that he did not know what we could do, 
but that we were not going anywhere close to the buildings 
without a respirator.
    I do not know who he was, but I truly believe he saved our 
lives. I also believe, based on the direction that he was 
looking, towards the southern tower, that moments later he 
entered that tower and perished in the attack.
    It's taken a while for a response, but I believe that the 
task before this Committee and in some small way my being here 
today is what the brave fireman is telling us, all of us, what 
we can do. If we do not change the system, if I may say again, 
some day someone will die and, wall or not, the public will not 
understand why we were not more effective in throwing every 
resource we had at certain ``problems.''
    Thank you for this opportunity and privilege of appearing 
before you today. I would, of course, welcome your questions.
    Chairman Graham. Thank you, sir.
    Mr. Kojm, have I come close to correctly pronouncing your 
name?
    [The prepared statement of Mr. Kojm follows:]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
   STATEMENT OF CHRISTOPHER A. KOJM, DEPUTY FOR INTELLIGENCE 
 POLICY AND COORDINATION, BUREAU OF INTELLIGENCE AND RESEARCH, 
                      DEPARTMENT OF STATE

    Mr. Kojm. Mr. Chairman, you have hit it exactly correctly. 
Thank you.
    Mr. Chairmen, Mr. Vice Chairman and Madam Ranking Member, 
the Department of State is pleased to testify this morning 
about the Intelligence and Research Bureau's TIPOFF program.
    Chairman Graham. Mr. Kojm, could you bring your mike a 
little bit closer?
    Mr. Kojm. Let me begin, if I may, by discussing the 
development and mission of the TIPOFF program. Each year the 
United States welcomes millions of foreign visitors, but entry 
into this country is a privilege for which foreigners must 
qualify when they apply for a visa or arrive at a U.S. port of 
entry. This screening is necessary to keep out undesirable 
foreigners, certainly including those with terrorist 
affiliations. This screening relies largely on visa and border 
lookout systems maintained by the Department of State, INS, and 
Customs.
    TIPOFF was created in 1987 for the express purpose of using 
biographic information drawn from intelligence products for 
watchlisting purposes. In 1987 TIPOFF began keeping track of 
suspected terrorists literally with a shoebox and 3 by 5 cards. 
Since then the program has evolved into a sophisticated 
interagency counterterrorism tool specifically designed to 
enhance the security of our nation's borders.
    TIPOFF's mission today is to protect the United States by 
drawing upon diplomatic, intelligence, law enforcement and 
public source information to watchlist, detect and prevent 
known or suspected terrorists and others from obtaining visas 
or from entering our country. Because TIPOFF is part of the 
Intelligence Community, it does not maintain records on U.S. 
citizens and permanent resident aliens. When it is discovered 
that the subject of a TIPOFF record is a U.S. citizen or a 
legal permanent resident, the information is sent to the FBI, 
which has jurisdiction over investigating such persons, and 
that record is expunged from the TIPOFF system.
    Now, the TIPOFF watchlist system works in the manner of 
providing operational support to the Bureau of Consular Affairs 
at the Department of State and to the U.S. Immigration and 
Customs officers at ports of entry. TIPOFF accomplishes this by 
making available declassified biographic information--name, 
date and place of birth, nationality and passport number--drawn 
from highly classified intelligence products or sensitive law 
enforcement or diplomatic reports.
    Consular officers abroad have online access to the Consular 
Lookout and Support System or CLASS, as it's known, which 
contains the unclassified names and other biographic data 
supplied by TIPOFF, among other items. These officials are 
required by law to check CLASS to determine if a visa applicant 
has been watchlisted. If that check of a name produces a hit 
against the applicant's name, the consular officer may not 
issue the visa until the Department has responded to the 
officer's electronic message requesting guidance as to whether 
or not the applicant may be ineligible for a visa.
    Back in Washington, the TIPOFF staff then makes the highly 
classified information underlying the lookout entry available 
to authorized consular and legal experts in the Department so 
that they can make a reasoned determination as to whether the 
U.S. Government has sufficient information available to deny 
the suspected terrorist's visa request. TIPOFF follows a 
similar process to assist INS in deciding if an alien should be 
prevented from entering this country through border inspection 
points.
    Now the TIPOFF staff coordinates all hits upon names it has 
placed in CLASS with the FBI and other agencies, alerting them 
that a suspected terrorist has applied for a visa. In some 
cases, this process has enabled the exploitation of operational 
opportunities obtained through foreknowledge of pending 
terrorist travel and has resulted in the surveillance or arrest 
of suspects upon their entry into the country.
    Most often, however, there is interagency agreement that 
the applicant's visa should be denied on terrorism grounds. The 
consular officer has ultimate authority in determining an 
applicant's admissibility, but the consular officer will in 
these cases rely heavily on the security advisory opinion 
rendered by the Department's Bureau of Consular Affairs, which 
is often a product of interagency consultation.
    In some cases, the entry may indicate past terrorist 
activity but no current threat, and a waiver of ineligibility 
may be requested from the Attorney General, for example to 
admit someone for important U.S. Government interests, such as 
to facilitate peace negotiations. But in point of fact, in most 
cases the person is denied.
    From its inception in 1987 to September 2002 information 
shared by the intelligence and law enforcement communities with 
the TIPOFF program has enabled the Department of State to 
detect and to deny visas to nearly 800 hijackers, hostage-
holders, assassins, bombers and other terrorists, or to 
facilitate law enforcement action upon their arrival in the 
United States.
    Since the TIPOFF interface with INS and Customs began 
during the Gulf war in 1991, INS has been able to intercept and 
deny entry to or arrest an additional 290 terrorists from 82 
countries at 84 different ports of entry.
    The cooperation exhibited in the TIPOFF program has thus 
been a joint success story for the diplomatic, law enforcement 
and intelligence communities in enhancing the security of our 
nation's borders.
    Now, turning to the hijackers under discussion today, late 
on August 23, 2001, after normal closing hours, the State 
Department did receive a request to watchlist four bin Ladin-
related individuals in the TIPOFF data base, two of whom were 
later identified as hijackers--Khalid al-Mihdhar and Nawaf al-
Hazmi. The communication suggested that both al-Mihdhar and al-
Hazmi were in the United States on that date, August 23. The 
communication included the information that al-Mihdhar and al-
Hazmi had arrived in the United States on January 15, 2000, at 
Los Angeles airport and that al-Mihdhar had departed the United 
States on June 10, 2000, but returned to the United States at 
JFK in New York City on July 4, 2001.
    There was no record that either al-Mihdhar or al-Hazmi had 
thereafter departed the United States. There was no record of 
the arrival and departure of the other two individuals 
watchlisted.
    On the morning of Friday, August 24, the TIPOFF staff saw 
the report for the first time and created records on all four 
of the suspected terrorists. TIPOFF watchlisted them in CLASS 
and tagged the records for review by an INS officer later that 
day. That afternoon, a TIPOFF staff member hand-carried the 
report to the Bureau of Consular Affairs with a request that 
they consider revoking the visas of al-Mihdhar and al-Hazmi.
    The visa office in turn confirmed that both had in fact 
received visas, as reported, and that another of the four 
individuals cited in the communication had been denied visas 
several times at different posts because consular officers 
believed him to be an intending immigrant. The multiple denials 
were not based on any information that he was a terrorist. 
There was no consular record that the fourth person watchlisted 
had ever applied for a visa.
    No actions could be taken on al-Hazmi's visa because 
records indicated that it had expired. The visa office revoked 
al-Mihdhar's visa on Monday, August 27. It is important to note 
and has already been stated here that the important derogatory 
information in this communication was simultaneously provided 
to other federal agencies.
    TIPOFF was originally designed to help prevent precisely 
what occurred on September 11. TIPOFF has 
consistentlydemonstrated that, if it obtains information on which it 
can take action to watchlist suspected terrorists, it has the 
mechanisms in place to ensure those suspects can be detected as they 
apply for visas or arrive at ports of entry. To that end, since 
September 11, TIPOFF has been receiving information on terrorists from 
all sources at a rate far greater than before the attacks.
    The tremendous increase in TIPOFF's workload is largely a 
function of the Intelligence Community's war footing that has 
produced ever-increasing amounts of terrorist reporting, much 
of which has been derived from documents retrieved in 
Afghanistan, from numerous al-Qa'ida suspects captured by the 
U.S. and other forces.
    The CIA in particular is bringing information to TIPOFF's 
attention, through use of the Visas Viper program reporting 
channel, an adjunct of the TIPOFF program. The Visas Viper 
program was started after the 1993 bombing of the World Trade 
Center as a means of assuring the proper flow of information 
concerning individuals linked to terrorist activities. About 
34,000 of TIPOFF's nearly 80,000 records are now comprised 
wholly or in part of data from the Visas Viper program.
    TIPOFF is now the primary focal point for entering 
Intelligence Community information on known or suspected 
terrorists into CLASS, the consular lookout system. However, 
TIPOFF is not adequately staffed to handle the increased 
workload. The current small dedicated staff of TIPOFF come in 
frequently after hours, nights, weekends, wee hours, in 
response to operational requirements, particularly when TIPOFF 
receives urgent inquiries from ports of entry where aliens are 
arriving on a continuous basis.
    Senior levels of the Department of State and the 
Intelligence Community are in discussions about how to expand 
TIPOFF to become a national lookout center. This would enable 
TIPOFF to do all of the things it has successfully done to date 
but, more importantly, also to interface with more agencies, to 
do more, to do it better, and to do it faster.
    I appreciate this opportunity to explain the TIPOFF program 
and I look forward to your questions. Thank you.
    Chairman Graham. Thank you, sir.
    At the hearings of the Joint Inquiry we use a procedure in 
which four lead questioners are identified, two from each 
Committee. Each of the questioners will have 20 minutes to 
present their questions and receive responses. The designated 
lead questioners for today's hearing are Senator Levin, 
Representative Burr, Senator Kyl, and Representative Peterson, 
and they will question in that order.
    After they have completed their questioning, we will 
proceed to other Members of the Committees, five minutes each, 
with additional rounds as necessary.
    Senator Feinstein. Mr. Chairman, may I ask is there going 
to be a lunch break. Some of us have----
    Chairman Graham. It was our intention to break at 1:00 and 
reconvene at 2:00.
    Senator Feinstein. Thank you.
    Chairman Graham. Senator Levin.


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 


    Senator Levin. Mr. Chairman, thank you.
    I'm going to focus on the 18-month period starting in 
January of 2000, but I want to spend a few minutes describing 
the environment leading up to that date. Ms. Hill began her 
very, very thorough and very thoroughly discouraging 
presentation with the statement that the story begins in 
December 1999 with the Intelligence Community on heightened 
alert. I've prepared a chronology which I'll share with all of 
the Members which is to summarize and go back before her 
beginning of the story--in January of 1996 when the CIA created 
a special unit to focus on bin Ladin; in February of 1998 when 
bin Ladin issued a public fatwa authorizing and promoting 
attacks on U.S. civilians anywhere in the world; May 1998 at a 
press conference when bin Ladin says he's going to bring war to 
America; in June 1998 when the Intelligence Community obtains 
information from several sources that bin Ladin is considering 
attacks in the U.S., including Washington and New York; August 
1998 when the Intelligence Community obtains information that 
an unidentified group from the Middle East are going to fly an 
explosive-laden plane from a foreign country into the World 
Trade Center; September 1998 when the Intelligence Community 
obtains information that bin Ladin's next operation could 
possibly involve flying an aircraft loaded with explosives into 
a U.S. airport; October 1998, when the Intelligence Community 
obtains information that al-Qa'ida was trying to establish an 
operative cell within the United States; the fall of 1998, when 
the Intelligence Community obtains information concerning a bin 
Ladin plot involving aircraft in the New York and Washington 
areas; and then, in December 1998, when, as we heard yesterday 
or the day before, when DCI Tenet provided some written 
guidance to presumably everybody in the CIA declaring that the 
United States is at war with bin Ladin and al-Qa'ida. That's 
December 1998, before the story begins.
    In the spring of 1999, when the Intelligence Community 
obtains information about a planned al-Qa'ida attack on a 
United States government facility in Washington; August 1999, 
when the Intelligence Community obtains information that bin 
Ladin has decided to target for assassination the Secretary of 
State and Secretary of Defense and the DCI; December 1999, when 
Ahmed Ressam is arrested as he attempts to enter the United 
States in the State of Washington from Canada with chemical and 
detonator material and his intended target is Los Angeles 
airport; December 1999, when the DCI communication to CIA 
employees warns of a mounting threat of al-Qa'ida attack to 
U.S. interests abroad and in the United States, urging them to 
do whatever is necessary to disrupt bin Ladin's plans.
    That's the background. That's what happens when in December 
of 1999 the CIA gets information from its own sources that two 
men--the men we're following, al-Mihdhar and al-Hazmi--are 
coming to Malaysia. That is not rumors. That is confirmed by 
the CIA's own people.
    And then they come to Malaysia in January of 2000, and the 
CIA, we know, monitored the al-Qa'ida members there, including 
the two people at issue. They knew that these two people had, 
at least in one case, already had a visa to go to the United 
States. That information was not put into the watchlist. It was 
not shared with the FBI. It knew that al-Mihdhar had a 
multiple-entry visa, as a matter of fact, and knew of his ties 
to al-Qa'ida. Two failures there--not placed on the watchlist, 
not shared with the FBI.
    Then, in March of 2000, the CIA found out that al-Hazmi had 
entered the United States at Los Angeles International Airport 
on January 15, not shared with the FBI, even though they knew 
he entered the United States, not shared with the watchlist.
    Then another event occurs in October of 2000. This is a 
watershed event. This is the Cole being blown up. And by 
January of 2001 the CIA knows that the Cole planner was at that 
January 2000 meeting in Malaysia. They knew that a man named 
Khallad had been the center of that attack and the planner and 
that Khallad was at the January 2000 Malaysia meeting with the 
two people we're talking about, al-Mihdhar and al-Hazmi.
    CIA still did not place either individual on the watchlist, 
still no notice of known visas--and I emphasize that--known 
visas to the FBI. They may or may not have shared with the FBI 
earlier that one of them had a passport, but in terms of visas 
to enter the United States, and the fact that at least one had 
entered the United States still CIA doesn't place names on 
watchlists, still no notice to the FBI.
    And now we have a direct link to the killers of Americans 
on the USS Cole, a direct link between these two men--al-
Mihdhar and al-Hazmi--to the planner, Khallad, of the al-Qa'ida 
attack on the USS Cole.
    Now I want to proceed to the June 11, 2001, meeting, 
because that's what I really want to focus on, and the events 
after that. But that's a bit of the background and if I'm wrong 
on any of that I would assume that our witnesses would correct 
me.
    On page nine, at the bottom, of Ms. Hill's report, it 
stated the following: ``On June 11, 2001, FBI headquarters 
representatives and CIA representatives met with the New York 
FBI agents handling the Cole investigation. The New York agents 
were shown but not given copies of the photographs and told 
that they were taken in Malaysia. They weren't told that. 
Still, information being withheld. This is after the Cole, 
information withheld from the FBI.
    One of the New York agents recalled that al-Mihdhar's name 
was being mentioned. He also recalled asking for more 
information on why the people in the photographs were being 
followed. So we've got the FBI now asking the CIA why are you 
following these folks? He recalled asking for more information 
on why they were being followed and for access to that 
information. The New York agents were advised they could not be 
told why al-Mihdhar and the others were being followed.
    This is truly unbelievable, I've got to tell you all. This 
is extraordinary. This has got nothing to do with information 
which can't cross a wall. This has to do with leads which are 
not shared with the FBI--just simple leads, information which 
is so critical.
    Now an FBI headquarters representative told us in her 
interview that the FBI was never given specific information 
until it was provided after September 11, 2001, and here's 
where I want to pick up with our witnesses. The CIA analyst who 
attended the New York meeting acknowledged to the Joint Inquiry 
staff that he had seen the information regarding al-Mihdhar's 
U.S. visa and al-Hazmi's travel to the U.S. but he stated that 
he would not share information outside of the CIA unless he had 
authority to do so and unless that was the purpose of the 
meeting.
    Now, June 11, New York. Now we've got the FBI asking the 
CIA would you tell us why you're following these two guys. And, 
according to the CIA analyst to our staff, that information was 
denied because no authority to do so unless that's the purpose 
of the meeting.
    So I'll ask our CIA officer, so far as you know, is our 
staff report correct?
    CIA Officer. The whole staff report?
    Senator Levin. No, what I read to you.
    CIA Officer. Could I just limit my comment to the June 11 
meeting for right now?
    Senator Levin. Just on that. Is that correct, what I just 
read?
    CIA Officer. First of all, I would distinguish between one 
CIA officer saying I don't feel comfortable with sharing this 
information with a particular FBI individual from the entire 
corporate body of the CIA and its policy.
    The second thing I would say is that the CIA officer----
    Senator Levin. I just asked you if this happened.
    CIA Officer. Not exactly that way.
    Senator Levin. Then tell us how it happened.
    CIA Officer. I wasn't there, but what I will say is that 
when the CIA officer said I'm not going to give you, Mr. FBI 
Agent, this information, he was in the company of an FBI 
headquarters agent or analyst who had the information. The 
information was in the hands of the FBI. It was a question--my 
interpretation of this event, and I wasn't there, is that the 
analyst was being conservative, and basically all I could do is 
go into dangerous area of speculating what's in his head.
    Senator Levin. I'd rather you not speculate. You weren't 
there.
    CIA Officer. I wasn't there, but this is important, because 
he is there with FBI people and this was not CIA withholding 
information from the FBI. There was something else at work here 
that I'm not quite sure of, because we were in support of the 
Cole investigation. That's why this exercise was called.
    Senator Levin. I just want to move to the FBI agent, who I 
believe was there.
    FBI Agent. Yes, sir.
    Senator Levin. Before you begin, I just want to say 
something. You will never receive the public recognition that 
you deserve for what you tried to do, for your e-mails, for 
your efforts to break down the wall, real and imaginary, for 
your efforts to break through bureaucracy. And if I have time I 
want to ask you about what happened on 9/11.
    But, in any event, I just want you to know that you deserve 
that recognition. And I'm sorry it can't be public recognition. 
Having said that and not knowing how you're going to answer, 
you were at this meeting?
    FBI Agent. Yes, sir. First off, I'd like to accept that, 
but on behalf of all the agents that I work with.
    Senator Levin. I knew you would do that. I expected no less 
from you. You were at the meeting. Was that accurate, the staff 
report?
    FBI Agent. As best as I can recall, sir, I wouldn't be able 
to add anything to your comments. From what I remember, that's 
exactly how it occurred, and there's still some disagreement. 
However, my belief of how events happened, to this day, are 
that the analyst herself did not know all the information that 
the CIA had at that time, and I know there are different 
versions of that, so I don't want to speculate about that.
    But my understanding of events today is that the analyst 
did not have access to that information either, because we had 
intelligence agents from the Bureau that were in the room at 
the time and the rest of us criminal agents, even though we 
were frustrated, could have walked out of the room and then 
received that information.
    Senator Levin. Did someone at the meeting say he could not 
share information outside of the CIA unless he had authority to 
do so or unless that was the purpose of the meeting? Do you 
remember that?
    FBI Agent. Not those exact words, but I was told that he 
could not share that information with me and my agents at the 
time and that that information would be attempted to be passed 
in the following days, weeks or months.
    Senator Levin. Do you know whether it was passed in the 
succeeding days?
    FBI Agent. No. In fact, I had several conversations with 
the analyst after that because we would talk on other matters, 
and almost every time I would ask her, what's the story with 
the Mihdhar information and when is it going to get passed. Do 
we have anything yet? When's it going to get passed? And each 
time I was told that the information had not been passed yet.
    And the sense I got from her, based on our conversations, 
was that she was trying as hard as she could to get the 
information passed, or at least the ability to tell us about 
the information.
    Senator Levin. Mr. Rolince, do you know whether or not the 
FBI agents were told by the CIA officials at that meeting that 
they could not know why the CIA was following al-Mihdhar and 
the others that met in Malaysia? Do you know if that 
information was passed at that time and, if not, why not?
    Mr. Rolince. No, sir. I was not at the meeting. I have 
talked extensively with our analyst that was there and, as my 
colleague noted, she is of the position--I know your staff has 
talked with her--that she in fact gave our New York agents 
everything that she had.
    Senator Levin. She said that she did give----
    Mr. Rolince. In other words, what was passed at that 
meeting----
    Senator Levin. According to our staff report, he statedhe 
could not share information outside of the CIA unless he had authority 
to do so. Do you know if that's accurate or not?
    Mr. Rolince. No, sir, I don't know if that's accurate.
    Senator Levin. Okay. When you said ``she,'' that was an FBI 
analyst. You don't know what the CIA analyst said at that 
meeting.
    Mr. Rolince. That's correct.
    Senator Levin. Now we will move--and I have to rely on the 
staff report as being accurate, that there was a denial of 
information at that time--on to August 22. An FBI analyst 
assigned to the Counterterrorist Center determined that al-
Hazmi and al-Mihdhar had entered the U.S. in January 2000 and 
al-Mihdhar's reentry visa allowed him to stay until August 22, 
2001. At that point they were watchlisted; is that correct, as 
far as you know?
    Mr. Rolince. Yes, sir, that's correct.
    Senator Levin. That was when it happened.
    I think we have to know precisely, and perhaps we have to 
talk to the people other than the FBI agent who is here, who 
confirms what our staff report says, to the best of his 
knowledge. I think this is such an important question that if 
there is any difference on this from the staff report we should 
hear from the CIA. I would ask our CIA officer who is here to 
take that request back and, if there is a difference that that 
officer had recollection-wise as to what happened at that 
meeting, whether or not she did in fact refuse to let the FBI 
know in June of 2001 why the CIA was tracking these two men, 
why they didn't say at that time that we knew that these two 
men had visas to the United States. The FBI still didn't know 
that. That still wasn't on the watchlist, as of June 2001.
    Now this is 16 months after the CIA knew that these men had 
visas to come to the United States, had entered the United 
States. Still, according to our staff report, there is this 
refusal on the part of the CIA to share this information. And 
this is critically important information.
    I think that we've got to have accountability in the 
system, and that failure is massive. And if that information 
should have been shared and should have been shared a lot 
earlier and if watchlists should have been entered, if the FBI 
should have been notified--which it seems to me it's clear all 
that should have happened--then we've got to know who is 
responsible for those failures. If we're really going to break 
down walls, real and imaginary, we've got to have 
accountability.
    If I have one minute left, I'd like to ask our FBI agent to 
tell us what happened on 9/11 as to what he tried to do and as 
to a passenger list, I understand--if this is okay and 
unclassified----
    FBI Agent. No. We had come back from the buildings all in a 
state of shock, and there was a briefing at that time by the 
analysts at headquarters over who was actually on the manifest. 
And when we heard the name Khalid al-Mihdhar, obviously I was 
upset, made no bones about saying the fact that I was upset. 
And I know the analyst was very upset also, so it wasn't just 
necessarily on one side. But it was in the afternoon during our 
conference call.
    And I remember exclaiming that this is the same Khalid al-
Mihdhar that we had talked about for three months, and I 
remember a supervisor at the time saying, and rightly so, that 
they had done everything by the book with regards to at least 
what the FBI could do based on current understanding of what 
the laws were, but at the same point in time realizing how 
ludicrous that statement sounded to me. It just didn't sit 
well.
    Senator Levin. I know of the information being sought, 
there was no barrier to that information being shared, that 
these persons were suspected of being terrorists, that could 
have been shared with the FBI, and the fact that they were 
suspected of being in the United States, that could have been 
shared with the FBI. I don't know of any prohibition in law in 
terms of messing up criminal investigations for that 
information, just that information, not to have been shared.
    The reason that June meeting is so critical--there are many 
reasons why it's critical--but one of them is, Mr. Chairman, 
that al-Mihdhar was out of the United States in June of 2001 
and he came back in, as I understand it, in July of 2001. If 
he'd been put on the watchlist then, at that June meeting, he 
could not presumably have come back into the United States, and 
I think that--you know, it's one thing to say that the dots 
weren't connected, and they weren't, even when there was an 
effort made to connect them at the June meeting. The effort to 
connect the dots was frustrated.
    It's another thing when the dots aren't even put into the 
file, when the dots aren't put into the watchlist, and the 
information isn't even shared. That's even preliminary to 
connecting the dots, is simply to get the dots in place where 
someone can connect them. We didn't even see that. So we've got 
failure piled upon failure here, I believe. I hope there's 
going to be some accountability and some answers where there so 
far are none, but again I want to thank our witnesses, all of 
them, and I want to thank Ms. Hill and her staff for an 
extremely thorough report, which I hope will shake up some 
things.
    Thank you, Mr. Chairman.
    Chairman Graham. Thank you, Senator Levin.
    Congressman Burr.
    Mr. Burr. I thank the Chair. Let me take the opportunity to 
thank Senator Levin for a very thorough chronology. I think 
it's safe to say that all of us will deal in the same time 
frame, though we will choose specific areas hopefully to 
highlight and to detail. The work of the inquiry staff is in 
fact very detailed, but it's very helpful on many of these 
issues if in fact we can get as succinct answers from you on 
specific questions.
    I'd like to personally start with the period December 1999, 
when al-Mihdhar and al-Hazmi are connected for the first time 
with individuals suspected in the 1998 East Africa bombings. 
It's this connection that suggests or exposes a plan to meet in 
Malaysia with a group of unknown individuals. On January 5 and 
6 of 2000, as we know, these individuals did meet in Malaysia, 
photos were taken, numerous photos of the participants.
    On January 8 al-Mihdhar and al-Hazmi departed Malaysia. 
After several days and additional stops, on around the 15th of 
January their direction was the United States, both with valid 
passports, both with approved visas.
    Let me ask our CIA officer, were officials notified of al-
Mihdhar and al-Hazmi's plans to enter the United States?
    CIA Officer. As I noted in my statement, the answer to that 
is no. It's very difficult to understand what happened with 
that cable when it came in. I don't know exactly why it was 
missed. It would appear that it was missed.
    Mr. Burr. The cable arrived what date?
    CIA Officer. March 5.
    Mr. Burr. What transpired between January and the 
transmission of that cable in March, that 60-day period?
    CIA Officer. Maybe I misunderstood your question, I'm 
sorry.
    Mr. Burr. You answered the question. This is a follow-up.
    CIA Officer. Okay. In January they were the focus of the 
operational activity until they left the country for another 
country. I think it was the 8th when the sort of crowd broke 
up, the 8th of January. And then there was more effort to find 
out what they were doing next and to understand that. But I 
can't deal too much in the detail between what happened between 
that point and further on. We had the basic visa information on 
Mihdhar and that wasn't passed. And the focus is still on 
trying to find out what they were up to. When they arrived at 
the next destination we were unable to mobilize what we needed 
to mobilize.
    Mr. Burr. At this time there was no attempt to put these 
individuals on the watchlist, correct?
    CIA Officer. That's right.
    Mr. Burr. No discussion. To the best of your knowledge, was 
the FBI ever notified?
    CIA Officer. To the best of my knowledge, the intent was to 
notify the FBI, and I believe the people involved in the 
operation thought the FBI had been notified. Something 
apparently was dropped somewhere and we don't know where that 
was.
    Mr. Burr. Was there any confusion over the connection of 
al-Mihdhar and al-Hazmi with individuals tied to the 1998 East 
Africa bombing?
    CIA Officer. The reason that we were curious about them was 
that we were trying to understand their connection to the East 
Africa bombing structure. We didn't know what it was.
    Mr. Burr. Well, we knew there was a connection?
    CIA Officer. We knew there was a connection, an impersonal 
connection to the bombing structure, but--what you have is a 
hypothesis. You have them connected to part of it, so we have 
two first names and then we go off and we try and find out more 
about them.
    Mr. Burr. I realize that from the chronology that Senator 
Levin had put together.
    Let me ask this, though. Was there not an active 
investigation still under way into the East Africa bombing?
    CIA Officer. Yes.
    Mr. Burr. So the fact that these individuals were connected 
could have been and probably was pertinent to the current 
investigation that was triggered in 1998 with the East Africa 
bombing.
    CIA Officer. Certainly. And I would submit that's why 
thatinformation was documented saying it had been passed to the FBI, 
and I can't explain why it was not. But the intent was to pass it.
    Mr. Burr. Okay. So in March 2000 we have two individuals, 
al-Mihdhar and al-Hazmi, with known connections to suspects of 
the East Africa bombings that have now entered the United 
States. They have been here for over two months. The FBI 
doesn't know that they are in the country. These individuals 
have not been added to the watchlist. Let me ask you, Mr. 
Rolince, whose responsibility is it to track and/or find these 
two?
    Mr. Rolince. If we don't know that they are in the country, 
sir?
    Mr. Burr. Correct.
    Mr. Rolince. If I understand your question----
    Mr. Burr. It's an easy one.
    Mr. Rolince. We would have liked to have had that 
information. I accept the fact that someone thought that it was 
passed. It would appear, based on what we know now, that 
perhaps it wasn't. But essentially our counterparts at the CIA, 
any number of different services, both law enforcement and 
intelligence around the world with whom we work on a regular 
basis, if given the opportunity, would track those people.
    Mr. Burr. In the absence of the verification of transfer of 
this information, the answer is nobody's in charge; is that 
correct? If the FBI does not know, if that information is not 
verified that it was transmitted to you, in fact you can't be 
in charge of tracking these folks.
    Mr. Rolince. I agree with that, Senator, but I would also 
point out that on a regular sustained basis, because of my 
interaction with the Agency over the years and having a deputy 
from the Agency in my section, I don't want to discount the 
effort that they make on a daily or regular routine basis to 
track people that we, the FBI, are interested in.
    Mr. Burr. And I realize that our focus here is on this one 
instance and I think we all know that there are success 
stories.
    In June of 2000, al-Mihdhar departs the United States. He 
applies for a new passport. He applies for a new visa into the 
United States and he simply checks one box--I haven't had a 
visa. Mr. Kojm, is it that simple to create new paperwork, new 
documents, new official documents and to receive official entry 
into the United States, just by checking that little box, I 
haven't done this before?
    Mr. Kojm. Congressman, that's a consular affairs question 
and I would like to ask a colleague of mine from the Consular 
Affairs Bureau to step up to the mike, if he can.
    Mr. Burr. Very quickly, if we could.
    Chairman Graham. Under our rules, I would like to ask if 
the individual on whom you are now calling would please raise 
his right hand. Do you solemnly swear the testimony you will 
give before the Committee will be the truth, the whole truth, 
and nothing but the truth, so help you God?
    Mr. Beer. Yes, I do.
    Mr. Burr. Would you step up to the microphone as quickly as 
you can?
    Mr. Beer. The question, sir?
    Mr. Burr. The question was if this individual, in this case 
al-Mihdhar, simply checks the box that says I've never applied 
for a visa, yet he had, do we have a process to search and is 
it likely that that search took place in this case?

  STATEMENT OF RICHARD BEER, DIRECTOR, COORDINATION DIVISION, 
  VISA OFFICE, OFFICE OF CONSULAR AFFAIRS DEPARTMENT OF STATE

    Mr. Beer. Well, we have an automated process to search to 
see if he had been denied a visa previously.
    Mr. Burr. But if he had had a visa yet he checked, in this 
particular case, in his application that he had never applied 
for a visa, do we check for that?
    Mr. Beer. At that time, no, there was no way to 
instantaneously verify that.
    Mr. Burr. So he created, with the same name, ultimately the 
same birth date, a identical application. The only difference 
was he checked--I have never had a visa--and a passport and a 
new visa was processed for al-Mihdhar.
    Mr. Beer. That's correct.
    Mr. Burr. And in fact he came back into the country, 
correct?
    Mr. Beer. Yes.
    Mr. Burr. If he'd been on the watchlist, what would have 
happened?
    Mr. Beer. When we ran the automatic name check at the time 
we processed the application the officer would have been 
advised by the results of that name check to defer all action 
and refer the case to Washington.
    Mr. Burr. How about when he left the United States? If he 
was on the watchlist, would we have caught him leaving the 
United States?
    Mr. Beer. I don't believe so because the INS normally does 
not check individuals upon departure from the United States.
    Mr. Burr. To make things worse, in July of 2000 al-Hazmi 
files an application for a visa extension. That extension is 
for six months. He lists his real name. He lists his Lemon 
Grove, California, address. And that extension is granted. Am I 
correct?
    Mr. Beer. I believe that would be the process. Of course 
extensions of stay for individuals already in the United States 
are the purview of the Immigration and Naturalization Service.
    Mr. Burr. Would that extension have been approved if al-
Hazmi had been on the watchlist?
    Mr. Beer. Certainly if INS had access to such information 
at the time he adjudicated his request for an extension they 
wouldn't have.
    Mr. Burr. Did INS have access at that time to watchlist 
information?
    Mr. Beer. I don't believe so, but I can't say for sure. I 
don't believe so, no.
    Mr. Burr. The INS at this point in time did not have access 
to check the watchlist individuals in determining visa 
extensions?
    Mr. Beer. Well, they had access to it at the ports of entry 
when they are inspecting the individual for admission, but this 
is a different process, not at the port of entry.
    Mr. Burr. So an individual in the United States that's on 
the watchlist could file for a visa extension and that 
extension be granted. Is that what you're telling me?
    Mr. Beer. Well, again the INS would have to provide the 
definitive answer because they are the agency that handles 
extensions of stay for individuals already in the United 
States.
    Mr. Burr. Let me just point out to the Committee and to the 
Joint Inquiry staff that this is something that we need a more 
thorough understanding. I hope that's not the case today. If it 
was the case then, then we had a tremendous flaw in our system.
    Let me accelerate ahead, if I could, to the Cole bombing in 
October of 2000. Is it safe to say--to our FBI agent--this 
begins an exhaustive investigation?
    FBI Agent. Yes, sir.
    Mr. Burr. In January 2001 the photographs from the January 
2000 Malaysia meeting were shown to an individual who was 
frequented by the CIA and also by the FBI for their help. This 
individual identified one of the people in the photograph as in 
fact Khallad bin Attash, an individual that is now tied to 
playing a large orchestrating role in the Cole bombing to the 
FBI agent; is that correct?
    FBI Agent. Sir, I don't know about those photographs. We 
had two photographs of Khallad. One was a photograph that we 
had derived from investigation, and I understand your concerns 
and I can hear your voice trying to protect certain things 
about this with regards to source information. But that 
photograph, which was an identificationphotograph, was shown to 
the source and he identified the individual as Khallad. But the two 
photographs, the other two photographs were the photographs taken from 
prior meetings----
    Mr. Burr. You are in fact correct.
    FBI Agent. I'm unaware of those photographs.
    Mr. Burr. Let me ask our CIA officer if in fact that 
identification was made.
    CIA Officer. I don't believe this has been declassified, 
sir, and I have a hard time talking about this in public. I'd 
be happy to talk about it in closed session in detail.
    Mr. Burr. I will trust that you are accurate on that.
    CIA Officer. As I said in my statement--maybe I can help 
with the answer a bit--as I said in my statement, we had 
intelligence that supported the hypothesis. It was not a 
confirmation; it supported the hypothesis. And in fact I would 
prefer to answer the rest of it----
    Mr. Burr. Is it factual that we now have a photograph, a 
photograph that we know one of the individuals is Attash or an 
individual who orchestrated, we think, the Cole bombings?
    CIA Officer. That was a different photograph.
    Mr. Burr. I realize that. We have photographs that show 
Khallad bin Attash, as well as al-Mihdhar and al-Hazmi. Am I 
correct that there's a photograph with all three?
    CIA Officer. Yes.
    Mr. Burr. Did any of these three go on the watchlist at 
that time? Connections to the East Africa bombing by two of 
them and connections to the Cole bombing by a third, did any of 
the three go on the watchlist?
    FBI Agent. From what occurred, there were actually--it 
turns out, and I know my CIA colleague doesn't want to get into 
it too much--there's a little bit of confusion. There were four 
photographs that were taken out of a certain operation.
    CIA Officer. Sir, this shouldn't be talked about in public. 
I'm sorry, it should not be. We can't go there.
    Mr. Burr. I will move on.
    CIA Officer. I apologize, but we just can't.
    Chairman Graham. Congressman, if need be we will arrange to 
have further exploration of this in a closed session.
    Mr. Burr. I thank the Chairman. I will move forward. I 
think there is some confusion about specific photographs and 
I'm certainly not trying to go to any that aren't already known 
and part of in fact the Joint Inquiry investigation, but 
because there is confusion, let me move forward for the 
purposes of all the Members.
    The fact is that at this period, though, we still have 
three individuals that are targets of investigations or 
connected to investigations that are not on a watchlist.
    CIA Officer. That's correct.
    Mr. Burr. Let me go to Mr. Kojm again. At this period, 
between the bombing of the USS Cole but prior to September 11, 
do you have any idea how many people went on the watchlist?
    Mr. Kojm. I believe that information is in Ms. Hill's 
statement and if it were passed to me I can provide that to 
you.
    Mr. Burr. While he's looking for that, let me move forward 
to May 2001. I am told that the May 2001 meeting between the 
CIA and the FBI where they shared photographs is in fact an 
area we can go to. Would the CIA agent agree?
    CIA Officer. Yes.
    Mr. Burr. Thank you. Was there any discussion or questions 
relating to al-Mihdhar or al-Hazmi at this meeting in May 2001 
when these photographs were discussed? Let me ask Mr. Rolince 
that.
    Mr. Rolince. I don't have the substance of exactly what was 
discussed in that meeting, so I don't know if al-Mihdhar and 
al-Hazmi were in fact topics of that meeting or not.
    Mr. Burr. Do we have anybody here that was a participant in 
that meeting?
    FBI Agent. To the best of my recollection I believe I 
probably helped to organize the meeting. I don't remember if I 
was there or not. But the purpose was to start going over the--
the FBI had some leads that they were interested in checking in 
the course of the Cole investigation, and so the Mihdhar and 
Hazmi thing resurfaced. And this was the beginning of the 
discussion between the FBI and the CIA that led to sort of the 
work between them to resurrect the file, which had been 
dormant.
    Mr. Burr. On June 11, 2001, the CIA went to the New York 
office of the FBI and in fact passed on to New York agents, who 
led the Cole investigation--am I correct?
    FBI Agent. Yes, sir.
    Mr. Burr. Again, these photographs were shown and 
discussed. The records shows that Mihdhar's name did come up, 
yet we are unclear in the context that it came up. Can you help 
to clarify that?
    FBI Agent. Yes, sir. When these photos were shown to us we 
had information at the time that one of our suspects had 
actually traveled to the same region of the world that this 
might have taken place, so we pressed the individuals there for 
more information regarding the meeting. Usually what I've found 
is coincidences don't occur too much in this job. Usually a lot 
of time when things are the way they are, it's because that's 
pretty much the way they are.
    So we pressed them for information. Now the other agents in 
the meeting recall--one agent does not recall the name being 
given up in the big meeting--there were numerous sidebars that 
happened. Regardless of that, at the end of that meeting--some 
of them say it was just because I was able to get the name out 
of the analyst, but at the end of that day we knew the name 
Khalid al-Mihdhar but nothing else. The context of that meeting 
was we continued to press them two or three times on 
information regarding why were you looking at this guy. You 
couldn't have been following everybody around the millennium. 
What was the reason behind this?
    And we were told that that information--as I recall, we 
were told that that information could not be passed and that 
they would try to do it in the days and weeks to come. That 
meeting--I wouldn't say it was very contentious, but we 
certainly were not very happy, the New York agents at the time 
were not very happy that certain information couldn't be shared 
with us.
    Mr. Burr. Let me, in an effort to acknowledge to the Chair 
that I see that my time has expired, with the indulgence of the 
Chair if I could use the opportunity to cover several more 
points without asking questions, it would be a very brief 
thing.
    On July 13 I think it was an important day because in fact 
our CIA officer began to put some of the pieces together that 
had bugged him, and that led to finding some of the lost cables 
or the misfiled cables. That led to decisions, decisions that 
did put people on watchlists, decisions that did begin the ball 
rolling towards an all-out press by the Bureau to look for 
individuals that for numerous reasons we had not been able to 
raise to this profile at that time.
    But yet in this period, even with the efforts, we 
overlooked simple things like the fact that on the application 
extension al-Hazmi had put his real California address, a 
starting point that might have led us to his movement somewhere 
else in the United States and potentially where he was in that 
two-week period.
    It's important that we remember that our CIA officer said, 
in his testimony, that this had to do with the threshold for 
entering names on the watchlist, and I think it's incredibly 
important that everybody within the community, everybody who 
has the ability to enter a name on the watchlist understand 
what that threshold is. And if it's so damn high that what 
we've looked at in this investigation doesn't trigger getting 
over that wall and putting the name on it, then that may have 
been the first mistake in this overall process.
    Mr. Chairman, you have been very generous with your time. I 
thank the witnesses for their willingness and I hope that the 
other Members can get into more detail of the last several 
months.
    Chairman Graham. Thank you, Congressman Burr, for excellent 
questions.
    Senator Kyl.
    Senator Kyl. Thank you, Mr. Chairman.
    The first thing I'd like to do is to thank the four 
gentlemen, five now, who are at the dais, both for their work 
on behalf of the American people and as representatives of the 
three entities now for which they work. I'd like for them to 
know how much we appreciate their work. I'd like to have them 
pass it on to the agents and officers in the field. It is very 
easy for people to be brilliant Monday morning quarterbacks 
after the fact, when we've gone back and tried to piece 
everything together, but when you are in the middle of a battle 
it's not always easy.
    Everyone agrees that mistakes were made, that things 
weren't done that could have been done, and in fact some of you 
have indicated that was a great frustration to you. I suggest 
that, especially during the last decade, one of the reasons--
and it's our job really to ask the reasons why--there are at 
least three or four reasons that our Committee has begun to 
come up with.
    Obviously everybody can make mistakes. I make about 400 a 
day myself, and we will never change human nature. We will 
always make mistakes. But are there systemic things that 
resulted in more mistakes than should have ordinarily been 
made.
    And a couple of things that we've heard from these 
witnesses here today point us in the right direction--one, a 
lack of resources--I'll get into that in a moment--and, two, 
risk aversion due to the creation of walls and 
misunderstandings about authorities. And, Mr. Chairman, to a 
large extent policymakers, including members of the United 
States Congress and the Executive branch, are responsible for 
both of those, and I'm going to get into that in a little bit 
too. So I just want to put that in perspective.
    But there are two preliminary things I'd like to comment 
on. First, I want to note that I share Senator Shelby's 
concerns about sensitive information being revealed in these 
open hearings. Two of the witnesses have made the same point, 
one saying that our testimony will be studied by our enemies. 
And that's absolutely true. We are revealing in open session 
today a lot of information about how we operate which will be 
very useful to our enemies. That's not good and it's not 
necessary.
    Specifically with respect to the witnesses before us today, 
they've all been interviewed by our staff and we've had 
conversations with some of them as Members. The story has been 
written. It was presented very nicely by the head of our staff 
here today. So this hearing is for show. This isn't to obtain 
information. Now there's a point at which it's important for us 
to present the information that we've derived to the American 
people, but it should be when we're all done. And it shouldn't 
be in a setting in which the witnesses are having to be very 
careful about what they say because they may say something 
that's classified.
    The second thing I'd like to say is that there's been an 
implication that this Committee would be a lot more effective 
if only the FBI and the Department of Justice and CIA and 
others would just cooperate with us. Mr. Chairman, to some 
extent there may be some validity in some of that, but the 
other side of the story is that, as far as I know, they've been 
very cooperative and to some extent I think we're overreaching. 
Let me give you an example.
    Reading through the clips of the Arizona Republic, my home 
paper today, ``FBI Agent is Asked to Testify Publicly on 
Phoenix Memo,'' and I quote the story in part. ``A joint House-
Senate Intelligence panel''--that's us--``is calling Phoenix-
based FBI agent Kenneth Williams to testify next Thursday for 
the first time publicly about his July 2001 memorandum warning 
that potential terrorists were attending U.S. flight schools. 
Senate Intelligence Committee Chairman Bob Graham also says the 
joint committee is intending to release its findings on exactly 
what happened to that memo after it was sent to headquarters in 
Washington. `The report is done,' said Graham in an interview 
on Thursday.'' Going on down the story, ``Williams has already 
testified behind closed doors to the Senate Judiciary 
Committee.''
    We already have all the information that we can possibly 
get from Agent Williams. It is absolutely unnecessary to have 
him testify publicly. And yet this Committee is making a show 
out of it and the Department of Justice naturally is pushing 
back against that. Here's a letter dated September 17 from a 
representative of the Department of Justice to Chairmen Graham 
and Goss, and I just read in part from the letter. ``Yesterday 
the FBI learned that the Middle East television network al-
Jazeera recently broadcast the name and face of at least one 
FBI employee, Kenneth Williams, whom the Committee seeks to 
present as a witness at an open hearing next week. As you know, 
Agent Williams has been interviewed by the JIC staff and has 
provided a closed briefing to Members''--two of them, as a 
matter of fact. ``Agent Williams recently asked that his 
concerns be brought to the attention of the Committee. His 
comments include concerns about the handling of his closed-door 
appearance before the committees' joint inquiry.'' And here's 
what he said: ``Reporters showed up at the front door of my 
residence and my picture and personal information appeared in 
the national news. I can only imagine that a public session 
will result in even greater exposure. If the reporters could 
locate my residence, so could al-Qa'ida or any other terrorist 
organization.''
    Then the letter proceeds. ``He also expressed concern for 
the safety of himself and his family, saying, `I sincerely 
believe that my appearance in a public session would be 
detrimental to my personal safety and the safety of my family.' 
Nonetheless, Agent Williams concludes by noting his willingness 
to appear again before the Committees' Joint Inquiry in closed 
session to cover any issues left unresolved or that are newly 
developed since his last appearance.'' And he notes that and 
says he'd love to return and answer any questions we might have 
in closed hearing.
    Part of this, in other words, is theater, and, Mr. 
Chairman, I just can't express strongly enough that we're 
asking these people to put their lives on the line and I think 
we ought to be a little bit careful about throwing around 
accusations that people are not cooperating with us when part 
of the reason is for their own safety.
    Moreover, any disputes we're having about what's in the 
material that he produced, the so-called Phoenix memo, we know 
everything we have to know about that memo--and when I say 
``we,'' the public. The stuff that hasn't been declassified yet 
nobody needs to know. It's names, dates, places that have no 
bearing on the ultimate issue but are very important in the 
intelligence context. So I want to make that point to make it 
clear that there is a difference of opinion here about just 
what this Committee ought to be doing publicly.
    Now let me get to the questions. As I said, it seems to me 
that there are two themes that derive from both our report and 
the witnesses who have been here, namely that we didn't have 
the resources to do what needed to be done and, secondly, there 
was a lot of confusion about what our legal authority was. I 
just now want to quote briefly from the testimony here, first 
with respect to the resource issue.
    This is the testimony of our CIA witness. ``What I will say 
here is that new procedures and training aside, they are also 
the kinds of misses''--the mistakes, in other words--``that 
happen when people who are very competent, dedicated people, 
such as CIA officers and FBI agents and analysts involved in 
aspects of the story, are simply overwhelmed. The 
counterterrorism business often does not feature a large team 
going after a single target but, rather, one or two 
officersjuggling multiple activities against many people 
simultaneously, trying to make sense of what it means--which target 
deserves priority attention and balancing the interests of multiple 
stations, liaison services and other agencies.''
    Mr. Kojm said, just to quote one statement, ``TIPOFF is now 
the focal point for entering Intelligence Community information 
on known or suspected terrorists into CLASS. However, TIPOFF is 
not adequately staffed to deal with the increased workload.'' 
He talks about the small dedicated staff frequently coming in 
after hours and nights and on weekends and so on.
    In the testimony that was presented by our staff--and I'll 
just mention a couple of these--there are numerous references 
to the lack of resources. For example, ``there were not enough 
people to handle CTC's workload at the time. As a result, 
informational cables such as the March 2000 message''--which 
was much the subject of our discussion here--``received less 
attention than action items. Several other employees told us 
that they typically did not even have time to read information 
cables.''
    Another: ``We were told that the matter was dropped because 
the agent had to move on to other things.'' ``New York FBI 
agents told us they tried to convince FBI headquarters to open 
a criminal investigation on al-Mihdhar given the importance of 
the search and the limited resources that were available to all 
intelligence investigations.'' We're going to get into that 
more in a little bit. I could go on and on.
    Let me just ask the first question here because of a 
comment that the CIA agent here made during his testimony. We 
know that while we had some contact with these people while 
they were in Malaysia that thereafter there was less contact. I 
believe you testified, sir, that we were unable to mobilize 
what we needed to mobilize to remain--that was your direct 
quotation and I'll paraphrase--to remain in the kind of contact 
that would have been useful with those people. Is that an 
accurate statement of what you said?
    CIA Officer. Yes.
    Senator Kyl. Is that an example of having resources 
stretched too thin to do the job that you would have liked to 
have been able to do?
    CIA Officer. Unfortunately, not that particular instance. 
There was a separate reason for that. A larger part of the 
community wasn't able--they were busy doing other things 
related to terrorism. But I think----
    Senator Kyl. Well, excuse me. When you're too busy to 
attend to this because you're busy focused on other things it 
suggests that you are prioritizing.
    CIA Officer. I guess what I'm saying is it wasn't 
necessarily the CIA's choice. It was not a U.S. choice.
    Senator Kyl. Okay. I know where you're going with that. But 
go ahead with the rest of what you wanted to say.
    CIA Officer. That was it.
    Senator Kyl. Okay. Well, let me just ask you a general 
question, then, whether you found occasions in which the lack 
of resources inhibited you from doing your job. Start with the 
CIA agent.
    CIA Officer. Yes. Thank you. I'm not going to make a 
speech, I promise. The lack of resources is critical, and if I 
could shift the context just a tiny bit, I made mention in my 
testimony of ten months of pounding in Afghanistan and yet we 
still regard al-Qa'ida as a threat. Before 11 September what 
the United States Government basically had overseas offensively 
were the resources of CIA, alongside the FBI in many cases, as 
though al-Qa'ida were only an intelligence problem.
    It's fairly clear that the Director's discussion about 
declaring war on al-Qa'ida is not something that he's empowered 
to do officially by the Constitution. That choice remains 
elsewhere. Al-Qa'ida in fact had declared war on the United 
States and nearly sank a billion dollar warship in the process 
of doing that. What you had facing a vastly more effective al-
Qa'ida, in other words, were a few civilians who were, as I've 
heard recently described, a platoon in a brigade-sized field 
and doing the best they can. So yes, there was a lack of 
resources.
    Senator Kyl. Just to any of the other witnesses, I quoted 
Mr. Kojm, who talked about his people being stretched pretty 
thin. Do any of you want to comment on this issue of resources?
    Mr. Rolince. Senator, I couldn't possibly let that pass. I 
think, as my Agency colleague would attest, I spend a fair 
amount of time at CTC and he spends a fair amount of time in 
our headquarters. For a lot of different reasons, part of which 
are competing priorities but a big part of which is in the year 
2000 and 2001 the FBI was not allowed to hire to attrition. We 
had more agents and manhours walking out the door than we had 
coming in. And you don't have to do the math to figure out that 
at some point in time that's going to have a deleterious effect 
on all your criminal investigations as well as your 
counterintelligence and counterterrorism investigations.
    The support people in particular who have worked these 
attacks, and I think it's important to put into context not 
just the past three and a half years, but we talked about the 
Africa embassy bombings. If you start there, the same people 
responsible for investigating the Africa embassy bombings and 
then on to the deployment in Kosovo and the downing of Egypt 
Air, neither of which were terrorism but got handed to us, you 
work on up through the fall and the buildup to the millennium, 
you have people who literally are, as someone told me, just 
learned to work tired, and I saw it every single day.
    I cannot pass up the opportunity to commend them and to 
state for the record for us, the American people, how much 
credit they deserve for this fight. They go months at a time 
without time off, long nights, long weekends, holidays, et 
cetera, without a single complaint by any of them.
    You roll that on into the millennium event and it's another 
month without time off, and this is pertinent to the discussion 
today because there is a tremendous effort under way to try to 
figure out whether or not Ahmed Ressam is tied to some other 
network or is this the kind of problem we're going to have to 
deal with in the future. And there's a hand-in-hand effort 
between the Bureau and the Agency and others around the world 
to try to figure that out.
    We now know that that was going to coincide with a series 
of attacks in Jordan and the attack on the USS The Sullivans 
within a very short time frame, which would have stretched our 
resources incredibly. But they are patient. This is what they 
do for a living. But ten months later 17 sailors die when they 
find the opportunity to attack the USS Cole.
    So you have all of those investigations, then leading on up 
into 9/11 being worked by an increasingly depleted supply of 
analysts, officers, agents, and managers. There are fewer FBI 
agents assigned on 9/11 worldwide to the terrorism problem than 
there were the week of the Africa embassy bombings. The 
Director has noted that. He's corrected that and we're going in 
the right direction. But I just think it's important to put 
that in context.
    And if I could say one more thing, we talk about bin Ladin 
and we move forward from the embassy bombings. Don't forget 
about the people who died in ones and twos. Don't forget about 
our soldiers, our airmen who died at Khobar Towers, the Marines 
in the barracks bombing, Zack Hernandez, who died in Panama 
because he was an American soldier. Don't forget about the 
victims of 17 November that has gone on for decades with no 
resolution until recently, or the Americans kidnapped by Abu 
Sayyef and killed, and the Americans kidnapped by the FARC and 
killed. In addition to all that, five of your seven state 
sponsors counterintelligence responsibilities fall to that same 
international terrorism operations section.
    They're working tired, and they're doing a heck of a job.
    Senator Kyl. I appreciate that very much. Very briefly, if 
others on the panel would like to comment, because I do want to 
go to the next subject. Go ahead.
    FBI Agent. Yes, sir. From a field agent's perspective I 
could probably talk for an hour on resources. The comment in 
there is mainly due to the fact that criminal resources and 
criminal agents, it's so manpower intensive, and with the 
possibility of somebody being let go because you missed 
something with regard to one of the trials, unfortunately our 
managers, I can only try to comprehend their job. They try to 
leverage our assets as best as they can. So most of the 
manpower ends up falling on criminal agents as opposed to 
intelligence.
    Pragmatically, when I stressed that to headquarters, it was 
just as a matter of being pragmatic. This is how I know it's 
going to work just because of the fact that our intelligence 
investigators were absolutely overworked--less weekends off 
than I myself probably had in the last few years.
    Senator Kyl. And this is one of the reasons some people 
were trying to move the investigation into the criminal area 
from the New York office on Mihdhar, because of the greater 
resources in the criminal area than in the investigative area; 
is that correct?
    FBI Agent. Yes, sir. I would say a couple weeks later, 
after everything happened and we had ramped up where thousands 
of FBI agents all over the world were trying to find somebody, 
I thought to myself--and I don't necessarily know how to do it, 
but we've got to be able to get there--when we find out a 
Khalid al-Mihdhar is in the country, intelligence, criminal or 
whatever, we've got to be able to get to the level we were at 
September 12, the afternoon of September 11. We've got to be 
able to get there before September 11, not September 12.
    Senator Kyl. Let me go right to this. I'm obviously not 
going to be able to get into the second area that I wanted to, 
but this is important. Mr. Rolince, I think this question is 
for you because in your opening statement you talked about the 
desire to go to a criminal investigation, but you said we did 
not have specific credible evidence of criminal activity to do 
so, and that's FBI information. But what about the CIA?
    If the CIA had been able to convey to you the information 
that they had, would that perhaps have sufficed to enable you 
to begin a criminal investigation?
    Mr. Rolince. I'm not necessarily sure that it would, sir, 
only because in order to open that criminal investigation, 
that, just as a counterintelligence investigation, is regulated 
by Attorney General guidelines. And what we have, to the best 
of my knowledge, is an individual, two individuals of great 
interest to us at a meeting with another individual that you 
tie to the Cole. Can you make the inference that they are tied 
to it as well? Given what these people do for a living, you can 
probably suppose that, but I'm not sure that suffices to be 
specific and credible enough.
    With that said, and in somewhat a disagreement with my 
colleague, resources in the New York office are larger than the 
resources anywhere else in the country, to include 
counterintelligence resources, so it's a matter of----
    Senator Kyl. Excuse me. But that was the headquarters for 
the terrorist investigation, wasn't it?
    Mr. Rolince. It's a matter of management, allotting 
resources in accordance with the importance of the case. It's 
as simple as that.
    Senator Kyl. Believe me I'm not criticizing anybody for the 
management of what they have, but, as my colleagues here on the 
dais will attest, every time we go someplace and ask is there 
anything else we can do for you, inevitably one of the things 
is, well, we could at least use more help.
    But was part of the problem here the fact that the CIA 
information could not be given to the FBI because of the wall. 
Your testimony is that these restrictions limited the free flow 
of information. You couldn't even for lead purposes get that 
information transferred over to you.
    FBI Agent. Sir, if I could comment on that real quick, 
because I was part of the conversation trying to get this 
information downgraded, what we will do is--FBI agents wear 
both hats, intel and criminal. Depending on what's given to us, 
we try to do whatever we can, even when we're on the criminal 
side, and we can go into more detail on that in a closed 
committee hearing. But, with regard to that, what our attempt 
would have been--and it might have been struck down, but even 
if it had all gone through we might not have ever found Mihdhar 
beforehand--was to go to the CIA, have this information 
downgraded, take what we knew criminally from the Cole and go 
to a judge and say, this is what we have, judge, can you help 
us out here. We'll swear out what we know.
    Senator Kyl. At least try, in other words.
    FBI Agent. At least try to do it. And that was the main 
impetus behind going to them or at least bringing up the 
conversation of having certain information downgraded, 
realizing that we were in an exigent circumstance and this 
individual had come into the country.
    Senator Kyl. Well, I'll just conclude by saying that we 
need to get into this whole question of the risk aversion due 
to the either real or imagined walls--I shouldn't say imagined, 
but either proper understandings or misunderstandings about the 
application of the laws under which both FBI and CIA operated 
and the confusion and misunderstanding that resulted from that, 
and perhaps in some cases the inability to pursue things that 
might have been productive had they been pursued.
    CIA Officer. Could I request a minute just to address this 
one issue, because it's come up about four times just as the 
light has gone red, and I'd really like to just address it for 
a second for the process part of it.
    The New York meeting--as I think it's become clear through 
the Joint Inquiry staff, every place that something could have 
gone wrong in this over a year and a half, it went wrong. All 
the processes that had been put in place, all the safeguards, 
everything else, they failed at every possible opportunity. 
Nothing went right.
    In this particular case--and that's one of the reasons why 
they have an exchange program at the management level between 
the FBI and CIA--is when there's an issue like this there are 
usually procedures for getting the information cleared rapidly. 
And as part of what was going on in the Cole investigation at 
that time, there were some other information not pertaining to 
photos, not pertaining specifically to Mihdhar and Hazmi, but 
pertaining to Malaysia that the FBI was attempting to get 
cleared to use in their interviews of various persons who could 
help them with the Cole investigation.
    And what the Agency was trying to do was to get that stuff 
cleared, was to get it in a position where it could be used. 
What we were also, I believe, trying to do through that summer 
that culminated in kind of the rediscovery of the thing in July 
was to stimulate the dialogue between the FBI and CIA on this 
issue. Normally--and again nothing normal happened--but 
normally what happens is, if it runs into a conversation block 
where you have to stop, then you take steps to get it cleared 
and then it moves on. So the reluctance to pass the information 
was not a deliberate thing. It was, A, we didn't know if we 
knew at the time. So all of the information that could have 
been passed wasn't because we hadn't done it.
    But also there was a movement the get it cleared to pass. 
It just didn't complete.
    Senator Kyl. Thank you.
    CIA Officer. Thank you very much.
    Chairman Graham. Our next questioner will beCongressman 
Peterson, but, if I could, first, as a clock indicates we are working 
through lunch and we will continue until we complete the questioning. 
After Congressman Peterson has completed his 20 minutes as elite 
questioner, the question order will be Senator DeWine, Mr. Reyes, 
Senator Rockefeller, Senator Inhofe, Senator Wyden, Mr. Roemer, Mr. 
Bishop, Senator Feinstein, Senator Mikulski, Mr. Bereuter, and Senator 
Hatch.
    I would like to make a couple of comments in reference to 
the comments Senator Kyl has just made, first about the open 
hearings. We have held ten closed sessions of the joint 
committee. Our first open hearing was held on Wednesday of this 
week and we have had now, with this hearing, three open 
hearings. It is a matter of judgment as to whether it was wise 
or not to have open hearings.
    I believe that it is important and that it is a right of 
the American people to know what their government is doing, and 
those American people also include our colleagues, who have a 
right to know and to assess the severity of the problems to 
justify the reforms that I anticipate we are going to be 
recommending. So in terms of achieving one of our primary 
objectives, which is to reform the agencies where we have found 
that such reform is called for, the greater degree of public 
awareness and colleague understanding will enhance the 
prospects of accomplishing that objective.
    I also believe that democracy is a public enterprise. It is 
not just gratuitously for theatrical purposes that most of the 
things we do are in the public. We believe as a society that 
the right to know of the public what their government is doing 
is a fundamental right. There are clearly areas in which there 
are other interests, including national security interests, 
that will require some modification of that broad principle. We 
are very sensitive to that. The statement that Ms. Hill 
presented today was the product of several weeks of close 
scrutiny by the agencies who had responsibility for classifying 
the information that appeared in the original report, and so 
the information that was presented today by Ms. Hill is 
information that the agencies believe no longer justifies being 
classified.
    I will note that we have concurred with the final judgments 
of the classifying agencies. Where we have disagreed we have 
done so by respectfully noting those areas of disagreement but 
still complying with the declassifying agencies' judgments.
    As to the security of agents, we are following a practice 
that has been used for many years in the United States Senate 
where there are important witnesses who also have a variety of 
security concerns, to do so in the manner that we are doing 
today with our agent from the FBI and officer from the CIA, and 
again this was done in consultation with the agencies and with 
the two individuals involved.
    I recognize that all of those points did not come down from 
Moses with the tablets; they are matters of judgment, but we 
are trying to be as sensitive as we can to the concerns and are 
fully cognizant of the importance of all of our 
responsibilities.
    Senator Kyl. Mr. Chairman, might I just make one quick 
response, since you referred to my comments? No one disputes 
the public's right to know. Our difference is merely one of how 
and when. There will be a final report. It will be made public. 
It will be as open as possible. We all agree with that. I hope 
my comments about the how and the when were not misinterpreted.
    Chairman Graham. Congressman Peterson.
    Mr. Peterson. Thank you, Mr. Chairman, and thank you, 
gentlemen, for your testimony and responses, and thank you for 
what you are doing for the country. We appreciate the job 
you're doing.
    I'd like to first of all flesh out this watchlist issue a 
little bit. As I understand it, being put in the watchlist once 
you're in the United States really doesn't have much effect. Am 
I correct?
    Mr. Kojm. That is correct. The TIPOFF watchlist is for 
visas and ports of entry. It's a border function.
    Mr. Peterson. And even if you leave the country there 
probably isn't any process to check at that point where it 
would have picked up these folks?
    Mr. Kojm. Not upon departure, no.
    Mr. Peterson. And that hasn't changed. It's still the same 
today as it was September 11?
    Mr. Kojm. Well, I believe there are some revisions that are 
in the works through the Immigration and Naturalization Service 
for certain individuals who will be required to check in with 
the INS on departure from the United States.
    Mr. Peterson. I don't know if any of you would know this. 
If somebody was put on the watchlist obviously at that time it 
wasn't made available to the airlines, local police, because 
some of these guys got stopped for speeding. Has any of that 
changed? Has this watchlist information, is it now being made 
available to the airlines, to local law enforcement so that 
they are alerted if somebody tries to--somebody is in the 
United States and they are traveling around and we know they 
are bad guys, there is some way within the country that we can 
pick them up and they don't either have to be coming in or 
going out?
    FBI Agent. To the best of my knowledge, just from an 
investigative standpoint, without going too much into detail to 
give away, there are some watchlists that are out there that 
are being used to try to do what you're talking about. I don't 
know how macro in concept it is or how interoperative it is 
with other watchlists, but there are things like that that are 
being utilized. And I would defer to my colleague from the FBI 
that might know more about such things.
    Mr. Peterson. Mr. Kojm apparently wants to say something.
    Mr. Kojm. Two points to make. We do provide the 
unclassified data elements from TIPOFF to the Foreign Terrorism 
Tracking Task Force. That's an interagency group. INS and FBI 
are playing key leadership roles in that task force. We do 
provide that information to them.
    In addition, we have provided now on a realtime basis, 
through INTELINK, a top secret SCI connection, to five sister 
Intelligence Community elements realtime information on 
everything that is in our data base, and that does include the 
FBI.
    Mr. Peterson. Well, I want to get a little bit into this 
whole issue of assembling this data and maybe focusing on what 
we're doing with data bases and technology, but finally in the 
summer of 2001 our witnesses from the CIA and FBI took action 
to kind of pull all this stuff together. And once all the 
available intelligence was gathered together, the reaction is 
interesting and important.
    When they see all the data together they realize that these 
two guys are connected to the embassy bombings through a UBL 
facility in Yemen, organized and attend a terrorist meeting in 
Malaysia, are connected with the planner of the Cole bombings, 
and have extended visas to the United States and entered the 
United States after the Malaysia meeting. They realize at this 
point that these two guys are dangerous and must be found.
    It's at this point that the two suspects are placed on a 
watchlist and the FBI is asked to search for them in the United 
States. The obvious point is that a CIA officer and an FBI 
analyst pre-9/11 see the threat of the situation exactly as we 
do today, post-9/11. Their actions prove that. If only the 
CIA's data management system had permitted everyone to see all 
the data available, analysts and managers probably could have 
perceived the need for action on Mihdhar and Hazmi long before 
9/11.
    So our focus today on this matter is not--my focus is not a 
case of hindsight so much as trying to look at where we're 
going and whether we're making some progress. To kind of set 
the stage, I'd like to ask the CIA officer how hard it is or 
was to find and assembleintelligence data on Mihdhar and Hazmi. 
Was that an easy process?
    CIA Officer. To reconstruct the file is not that difficult 
an issue if one has the time and the people to do it. The 
question--this is a difficult one to say just the right way but 
I'm going to give it a shot because it's important. There was a 
miss in January, there was a miss in March. We've acknowledged 
that. What happened after that was, I think in part, a 
function--stuff like that should normally emerge during the 
course of a file review, if something provokes the file review.
    Once that file review is provoked, the information is 
readily recoverable. That's how I found what I found when I 
found it kind of thing, but the story kind of emerged in dribs 
and drabs because there was no one person who reconstructed the 
whole file.
    Mr. Peterson. And there were different people that saw this 
stuff at different times----
    CIA Officer. Right.
    Mr. Peterson [continuing]. But it took quite a while before 
anybody pulled this together.
    CIA Officer. Right.
    Mr. Peterson. So your current system, it seems to me that 
you've got a system that sounds like it's antiquated. It's 
still filed on a flat basis and it's not necessarily collated 
together. There is now technology where you can build a data 
file where anybody that looks at it all of this stuff is going 
to come up. And if you would have had something like that, 
somebody that wasn't even experienced, that if all of a sudden 
something went off in their mind to trigger this would see this 
because everything would pop up.
    Are we moving in that direction? Is there going to be 
better technology put in place both in the CIA and the FBI to 
try to make sure something like this doesn't happen again in 
the future?
    CIA Officer. I'm not actually qualified to answer the 
technology question. I'm sorry. I think others----
    Mr. Peterson. But you work with it now. Has anything 
changed from 9/11?
    CIA Officer. I actually have no complaints about CTC's data 
system right now.
    Mr. Peterson. But you have to know how to go in there and 
what to look for and you have to actually be looking for 
something in order to----
    CIA Officer. And you have to have a little bit of time to 
do it, and you have to have a reason to do that instead of 
something else. But the information is there. It's recoverable.
    Mr. Peterson. And it was there for 18 months prior to 9/11.
    CIA Officer. Right.
    Mr. Peterson. And it took somebody who happened to remember 
something, who just finally put this together on August 23 that 
it seems to me didn't give us enough time by 9/11 to track 
these guys down. If this would have all come together earlier, 
we might have been able to track them down.
    I guess my question is, why don't we have a system where 
this guy's name is in there and everything that comes in on 
this guy gets put into that file, so whoever accesses that name 
it pops up and it shows all this stuff in one place so you 
don't have to be a rocket scientist or you don't have to have 
been following this stuff to understand that when you see all 
this that this is a big problem?
    CIA Officer. As I said, someone else will need to answer 
that question.
    Mr. Peterson. How about the FBI?
    Mr. Rolince. I'm in total agreement with what you're saying 
and where you're trying to go. It dawned on me over the years, 
as we went from no relationship with the CIA to what I consider 
to be one that I would brag about and do brag about, anywhere, 
any time, but the exchange of personnel, which has done as much 
as it has, only gets us so far. The information exchange I 
think is the next piece.
    The Bureau's technological woes are there. Our efforts to 
correct that are certainly well known to all. What I would 
personally like to see is an ability for analysts to exchange 
information and get able to get on that system within the 
operations center within the bin Ladin unit at headquarters, 
and access information that's available to their agency 
analytical counterparts.
    I'd like to be able to e-mail my counterpart at the 
Department of Justice. There are a lot of things I'd like to be 
able to do. I think all of them are technologically practical. 
It's a matter of, I think, putting the time and the energy and 
the money and the smart people in the right direction. And I 
believe we're doing that.
    Mr. Peterson. Is that going on now?
    Mr. Rolince. It's moving in that direction. I don't know 
how long it's going to take us to get there.
    Mr. Peterson. But as of today it's not too far from where 
it was on 9/11, apparently. As somebody who uses the system, 
it's not much different, is that what you're saying?
    Mr. Rolince. As someone who uses the system, I would agree, 
but in terms of the progress being made----
    Mr. Peterson. There are probably some people working on 
this trying to improve it.
    Mr. Rolince. Yes, sir.
    FBI Agent. Sir, if I may, in my experience just since 
September 11 there's a technological barrier but there is also 
still gatekeepers with regard to certain information. I'm not 
naive enough to think that the FBI should be privy to every 
ounce of information that is out there, but I try to think of 
it in simplest forms. The first day at Quantico or second day 
CIA handles world intelligence, the U.S. handles domestic 
intelligence. In today's, for lack of a better term, global 
village community, we've got to make sure that that domestic 
intelligence and world intelligence is transparent, both 
physically, technologically, and also in the mindsets of 
certain individuals.
    So I don't think it's just a technological solution.
    Mr. Peterson. I understand what you are saying, and there 
probably would be some resistance. But I know enough about 
these data bases and computers to know that this system could 
be put together and could be shared by all of you. You know, 
we've been doing this for years, and you're not the only folks 
in government that have this problem. The USDA has this problem 
and all kinds of other people. I don't know how we fix it.
    CIA Agent. If I could, just one more thing, Director 
Mueller--I'm speaking now in my FBI hat, not in my CIA hat--has 
said several times, has basically described the objectives that 
he's taking the FBI toward, and I think it's critical to note 
that part of that objective is to transform the way the FBI 
handles its information, that part of its information that 
other agencies would define as intelligence. Intelligence is 
often collected as a by-product of investigations. And unless 
it's bottled and capped and distributed it may not be used.
    So the challenge this Director has taken on and is moving 
the FBI toward is doing that with the FBI's own intelligence, 
and that's a critical piece of the bilateral flow because 
there's no reluctance, wall issues aside, there's no real 
reluctance on the part of counterterrorism professionals on 
either side to talk to each other about issues of common 
concern.
    Oftentimes what you have, though, is this giant anvil of 
information going through the Cheerio of one person, and we've 
got to change that part of it in the computer system. You're 
absolutely right.
    Mr. Peterson. That's something that computers could be a 
huge help to get you sorted through.
    I don't know if anybody can answer, but are you or are you 
considering making some of this information available to 
airlines, Mr. Rolince. This stuff on these bad guys, is that 
somehow or another transmitted to the airlines so they have 
some kind of a system that they pop up when they try to buy a 
ticket?
    Mr. Rolince. I'm aware that that possibility has been 
discussed. How do you run the names of tens or hundreds of 
thousands of travelers, be they international or domestic, 
against the available data bases--be it a watchlist or your 
files on whom you have information that might be of interest to 
them in making the determination as to whether a person does or 
doesn't get on. I know it's being talked about, sir. I'm not 
sure exactly where it is in terms of actually happening.
    CIA Officer. I shouldn't speak for homeland security, but I 
know that that process is going on and that there are review 
and coordination processes that do go on so the airlines do get 
critical information, and they are improving that as they go.
    Mr. Peterson. As I talked about before, we had all this 
information out there and until somebody kind of remembered 
something that pulled all this stuff together, we didn't really 
realize what these guys--how bad these guys were and the threat 
they were. My question is, how many other people like Mihdhar 
and Hazmi are in the system? That's what concerns a lot of us.
    Maybe you can't answer that, but are there other folks in 
there and is there any way that we can get them?
    CIA Officer. That's an issue that does preoccupy us quite a 
lot and, as I said, we're doing the best we can to do that, 
through a variety of different means.
    I think the thing that also bothers us a great deal is that 
other 16 were completely invisible, completely invisible. So 
there's a dual challenge there as well.
    Mr. Rolince. Congressman, if I could jump in for a second, 
I was passed some information that goes to the heart of your 
question. Apparently the TSA, the newly-formed agency, 
maintains two lists--a no-fly list, which would be analogous to 
our armed and dangerous warning, as well as a selectee list of 
people that we have an interest in and we may wish to detain 
for questioning--and we do have the ability to contribute both 
names and information to both of those lists.
    Mr. Peterson. Mr. Kojm, you were acting like you wanted to 
say something.
    Mr. Kojm. Yes, Congressman. You had asked about how many 
names there are in the system. We have 80,000. We're adding 
approximately 2,000 names each month.
    In answer to Congressman Burr's question earlier, between 
the Cole bombing and September 11 we added about 4,000 names. 
And, as the staff report identifies, since September 11 our 
work is up about 450 percent. So there are a lot of names out 
there. We add them as best we can. We try to add them every 
day. We don't meet the standard of same-day data entry, but we 
aim to.
    In relationship to the FAA, we do work with them and they 
provide data that we put in our data base, and we do respond to 
their telephone requests for name checks through Diplomatic 
Security. So we're in contact with them, but we would certainly 
concur with your observation that we need to have closer, 
better electronic contacts with FAA and other domestic 
agencies, and we are working with the homeland security people.
    Thank you.
    Mr. Peterson. Thank you. Mr. Rolince, could you clarify for 
me how these cases are designated either criminal investigation 
or criminal investigation? Mihdhar and Hazmi in 2001 are known 
to be connected with people involved in the COLE and embassy 
bombings, which would appear to make them proper objects of a 
criminal investigation as potential material witnesses, but the 
headquarters was adamant that a criminal investigation was not 
warranted. Can you explain why? Was it simply because all the 
data we had on Mihdhar and Hazmi at the time was from 
intelligence sources or what was going on there?
    Mr. Rolince. That is the core element of the decisionmaking 
process, that the relevant information that came forward was in 
fact all in an intelligence channel, and the meeting that these 
individuals attended we did not have reporting on in terms of 
exactly what was said or transcripts of what was said, so 
although we certainly suspect, and rightfully so, that they 
were probably engaged in past and future acts, criminal acts, 
the information brought to us came essentially in total in the 
intelligence channel, so an intelligence investigation was 
opened.
    You don't always have to have a parallel criminal 
investigation. And both criminal and intel are monitored, are 
regulated by the Attorney General guidelines. I think what's 
important is, do you have the ability to check every record, 
every source, DMV, local police, NCIC, past warrants, banks, 
neighborhoods, et cetera, within an intelligence investigation 
which mirrors what you can do in a criminal investigation, and 
the answer is yes, you do.
    Mr. Peterson. So I get a better sense, does that have a big 
part of the decision about how this gets structured where this 
comes from? Is that what you are saying? If it comes out of 
intelligence, then that's likely to push it to an intelligence 
investigation.
    Mr. Rolince. It's likely, but if there is a logical reason 
or specific articulable facts out there that would also 
indicate participation in a criminal enterprise, then you go 
for the parallel criminal investigation.
    FBI Agent. If I may, sir, one point on that, because I was 
part of the conversation that took place with regards to 
opening a criminal or intelligence matter, not only did these 
things restrict us on what we can do today, but the 
possibilities of what might happen in the future also restrict 
us. The example that was given to me that day on the telephone 
was if we try to go criminally and we do not find this 
individual, if in the future we try to go with intel a FISA 
Court judge will say, hey, you struck out criminally; that's 
why you're coming to me intel-wise. So not only do we have to 
take a snapshot of what we look at now when we make these 
decisions but management is trying to project ahead.
    Let's say we subpoena everything and nothing is in there. 
We can't find this individual. But we find him one day and we 
want to open an intel investigation, we're prevented from doing 
it because then the judge is going to say, you stuck out 
criminally; that's why you're coming back intel-wise. So that's 
just another thing that was used.
    Mr. Peterson. Well, unfortunately I've heard that story 
before in some other situations.
    For you again, you wrote an e-mail that predicted that 
people would die and the public would not understand why every 
resource was not thrown at certain problems. What decisions 
would the National Security Law Division make today, given the 
same circumstances? In other words, have things changed over 
there?
    FBI Agent. I can't speculate. I know the walls have come 
down with regards to FISA information and the snowball effect 
that occurred after that. Where the wall used to be between 
criminal investigators and intel investigators, it's back where 
I personally believe it should be, which is between prosecutors 
and the FBI. In addition to that, with regards to the FISA 
information and direction of those FISAS with criminal 
investigators. So I have seen firsthand that that wall has come 
down and it's been a big help. That happened immediately 
following.
    My recommendations from an agent's perspective, field 
agent's perspective, would be make sure those walls never go up 
again with regards to sharing information between at least 
different elements of an intel investigation and a criminal 
investigation.
    Mr. Peterson. Thank you. I thank the witnesses and I thank 
you, Mr. Chairman.
    Chairman Graham. Thank you, Congressman Peterson.
    Senator DeWine. Senator, before you start, I'm going to 
announce that as soon as Senate DeWine has finished his 
questions, the next questioner will be Congressman Reyes, but 
we are going to take a short break which will necessitate 
clearing the room so that the screened witnesses can have some 
mobility. So those of you who are going to have to leave, if 
you might get prepared because we'd like to make this break as 
short as possible.
    Senator DeWine. Thank you, Mr. Chairman.
    Let me just first say how much we admire all of you and 
appreciate what you do for our country every day.
    We've talked about a wall and, to our FBI agent, I hope 
you're right. I hope that wall stays down, and I think we in 
Congress have an obligation to monitor this and just make sure 
that wall does in fact stay down. I believe that part of the 
problem has been we really have two kinds of walls. One is a 
wall that's there to protect foreign intelligence sources and 
methods, and we all understand that. That has to be dealt with 
on a practical basis by those of you who are the professionals 
in the field. But other is a Congress-created law with the FISA 
wall.
    I will say quite candidly that for many, many years we did 
not do our job in monitoring how that law was being interpreted 
by the court and how that law was then being interpreted down 
into the field. I think that's our responsibility. Mr. 
Chairman, I think that we began to change it and improve it 
with the PATRIOT Act. We came a long way with that. We now have 
had a FISA Court opinion which I don't particularly agree with, 
but at least it is a public opinion. And at least we can see 
where the Court is going. And, of course, there has been an 
appeal. I assume that the appellate decision will be public.
    It will give us some guidance then to see where that court 
is going so that we can make whatever changes we think need to 
be made. So I think we have to follow what the Court is doing, 
see how it's being interpreted and also see how it's being 
implemented down into the field. And that's our obligation to 
do. I think, Mr. Chairman, we can do that consistent with 
national security concerns. It's our Committee's job; we ought 
to do it.
    Let me just ask a question to our CIA officer. You've had, 
as all our witnesses have, great, great experience and great 
background. It's clear that you are a real expert in 
intelligence. You've had experience in the Counterterrorism 
Center. You now have testified that you're a detailee to the 
FBI, so you've seen it in a sense from both sides.
    Again I know you don't want to get into this in great 
detail in a public session, but do you have any guidance for us 
in regard to the Counterterrorist Center? How are we doing? 
What else do you need there? How is the interface between the 
FBI and the CIA coming? Does that need any more improvement? 
Just kind of give us, in the little time I have, a quick 
snapshot, if you could.
    CIA Officer. It's going to be quick because I've been away 
from the Counterterrorist Center for quite some time now and 
they've evolved revolutionary, in a revolutionary way since 
I've left and certainly since September 11.
    It's very difficult to talk about today's CTC in terms that 
are relevant to before September 11, because it is so changed. 
I don't know the details of all the changes. I think in terms 
of any recommendations that might be made, it might be better 
coming from somebody who is attached to it right now rather 
than myself.
    As far as the relationship between CIA and FBI, there is a 
move afoot to exchange personnel between the two. That's 
critical that that continue and expand.
    Senator DeWine. Anybody else on counterterrorism? Any 
thoughts? Want to jump in?
    FBI Agent. I would say, just from my perspective, and 
stories that I hear is that we have come a long way. I think we 
need to go that much further, not only exchanging management 
but also exchanging the field agents at some level and guard 
against the fact that once an individual goes to the FBI or 
vice versa that individual becomes beholden just to that 
institution that they're going to, that they continue to be 
able to flow the information back and forth inside a system of 
checks and balances that allows that information to be shared 
between both organizations.
    The first step might have been management. Maybe the next 
step is actual agents and officers from both sides being 
exchanged.
    Senator DeWine. Mr. Rolince.
    Mr. Rolince. In other to do that, Senator--I totally agree 
with my colleagues--it becomes a resource issue. I know in 
talking to past chiefs of station, to include my friend Cofer, 
who is here, we have to be where they are in terms of going 
after the enemy. I know we'd like to all have officers and 
agents in everyone else's field offices and stations. That's 
not practical. But to begin to go down that road--I don't want 
to speak for my colleagues but I certainly think I can--we need 
more people.
    Senator DeWine. Thank you, Mr. Chairman.
    Chairman Graham. Thank you very much, Senator.
    As previously indicated, we are now going to take a very 
short break. I'd like to ask if those who were asked to leave 
the room earlier, would they please exit again, and would Mr. 
Wolfe tell me when the room is clear.
    [Whereupon, a brief recess was taken.]
    Chairman Graham. I call the meeting to order.
    Congressman Reyes.
    Mr. Reyes. Thank you very much, Mr. Chairman. I appreciate 
the opportunity and also would like to echo the sentiments of 
my colleagues in appreciation of the work that you do for our 
nation.
    I'd also like to comment, Mr. Chairman, that I 
wholeheartedly support open hearings. As I travel back to my 
district, I know there's been great anticipation about at least 
some component--two questions regarding 9/11. One is that we do 
open hearings so the rest of the public knows the work that 
we're doing, and the second thing is that there be a 
commission, an independent commission, that would look at this 
simultaneously or subsequently. So, for whatever it's worth, 
Mr. Chairman, I appreciate the opportunity to do open hearings.
    I've got a couple of venues that I'd like to pursue. First 
of all, Mr. Rolince, do you agree with the FBI agent's 
statement that you could not pursue a FISA order after you have 
begun a criminal investigation? And the second part of that is, 
couldn't the FBI just disclose the criminal investigation to 
the FISA court and still ask for an order under FISA?
    Mr. Rolince. The answer to your first question is I don't 
agree that you could never do it. I agree entirely that 
historically that has been a significant concern of the 
Department of Justice and of FISA Court judges in particular, 
and you've heard it said that there was a concern they were 
circumventing the judicial process or going around the Fourth 
Amendment. For the record, sir, I've been doing this 28 years, 
and I can't cite a single example of an agent trying to 
circumvent the process in order to get a FISA just so he or she 
could get criminal information, and I would hope that that 
would never happen.
    To answer your second point, yes, you can do that. What 
they want to know in total is the extent to which you had 
conducted any prior criminal investigation, and those were some 
of the errors cited that you heard referred to recently, 
whether either through omission or a poor record check or 
whatever there had been a prior criminal investigation or 
perhaps a concurrent and that wasn't reported. And it needs to 
be. It has to be so that the judge can make a decision based on 
the totality of the facts that we bring forward.
    But yes, if we had a criminal investigation of someone, 
let's say for something totally unattached to a subsequent 
intelligence investigation, we would make a strong argument, 
especially if you had the probable cause for that FISA, 
essentially that that was then and this is now. You would have 
to make the argument that that criminal activity has nothing to 
do with the intelligence information available to us and our 
belief that we have probable cause to in fact obtain a FISA.
    Mr. Reyes. Any comment?
    FBI Agent. No, sir.
    Mr. Reyes. Thank you. The other question I have is, why 
couldn't the investigation of Mihdhar been folded under the 
Cole criminal investigation? You know, one of the things that 
to me makes sense is that it was suspected that he was an 
associate of the lead planner of the Cole attack. Weren't 
associates of Khallad investigated in the Cole investigation as 
well?
    FBI Agent. Sir, I believe with regard to--and I confuse 
this all the time and it's taken me years--there's Khalid al-
Mihdhar and Khallad. Khallad is actually one of the individuals 
that was the mastermind behind the Cole. Khalid al-Mihdhar is 
one of the individuals that he was going in fact to meet, 
unbeknownst to us at the time. So we didn't know that Khalid 
al-Mihdhar was a mastermind behind the Cole. The only 
information we had is that he might have been meeting with one 
of the suspects of the Cole in a far east country, and opening 
a criminal case against him we had to show that criminally.
    There's two separate things I've learned, unfortunately, as 
an agent, you might know something to be true but being able to 
show it criminally, to open a criminal case and intel are two 
separate matters. So I hope I answered your question with 
regards to that.
    Mr. Reyes. Yes. And only because my time is brief I want to 
leave that and go to Mr. Kojm.
    Can you tell us how the TIPOFF program is funded?
    Mr. Kojm. Yes, Congressman. It's funded entirely by the 
Bureau of Consular Affairs. In essence it's a service that INR 
provides to the Consular Affairs Bureau and it's funded by 
machine-readable visa fees.
    Mr. Reyes. So the obvious question is, if it's an integral 
part of this nation's ability to identify terrorist, why isn't 
it part of the regular budget process so it can be done 
adequately and successfully?
    Mr. Kojm. Well, this is a question that we are wrestling 
with, and the senior leadership in our building has addressed 
this question as well. We are seeking to identify other sources 
of funds for what we believe is becoming a national program.
    Mr. Reyes. And where would the national data base be 
located? In particular, I have advocated, and the Chairman 
knows, advocated to consider the Intelligence Center, who 
already does a lot of this and is well known nationally and 
internationally for that capability.
    Mr. Kojm. We have approached the Director of Central 
Intelligence. We believe funds that he controls would be very 
helpful in support of this intelligence function. We do believe 
that it is proper to maintain TIPOFF's strong and close 
connection in support of consular affairs even as it needs to 
take on additional purposes for a national mission.
    Chairman Graham. Thank you, Congressman.
    Mr. Reyes. Thank you, Mr. Chairman.
    Chairman Graham. Congressman Roemer. And then the next 
questioner will be Senator Feinstein.
    Mr. Roemer. Mr. Chairman, I want to begin by thanking you 
too for your expert sense of fairness and balance in conducting 
these hearings. I just want to say that I think it is critical 
from a perspective of the jurisdiction of this committee for us 
to do our work. Much of it will take place in private, but some 
of it should take place in public, and you have held off on the 
public settings to get the right balance, to make sure that 
delicate information is protected, and that sources and methods 
are protected, and I think you have done an expert job on that 
front. I hope we continue to have that balance and to have 
public hearings so that the American people can get the 
information so that they can feel more comfortable with access. 
So thank you again for your balance in this.
    Mr. Kojm, I come back to one of the most disturbing things 
that I've heard today, and there have been a litany of 
disturbing things. But one of the most disturbing for me is the 
fact that a couple years ago you could be in America, you could 
be on a watchlist, you could apply for a visa extension, and 
get it. Is that true?
    Mr. Kojm. Congressman, I'm going to ask my colleague, 
Richard Beer, from Consular Affairs, to help you with that 
question.
    Mr. Beer. Again, to make the distinction, this application 
from someone already in the United States to extend their stay 
is----
    Mr. Roemer. Is it true? I only have about four minutes. Is 
it true that you could do that prior to September 11?
    Mr. Beer. Yes.
    Mr. Roemer. So you could be on a terrorist watchlist, you 
could simply apply for extension, receive the extension and 
stay in the United States for whatever your visa extension was 
permitted.
    Mr. Beer. Yes.
    Mr. Roemer. Has that been corrected?
    Mr. Beer. That I'm not prepared to answer. I don't know 
what the Immigration Service is doing now in terms of checking 
the watchlists.
    Mr. Roemer. So a year and a few weeks after September 11 we 
still cannot answer the question of whether or not that 
deficiency has been addressed?
    Mr. Beer. I can't answer that. The Immigration Service can 
answer that.
    Mr. Roemer. Can anyone in this room answer that? Well, I 
would hope we would get an answer to that question very 
quickly, and more so than an answer to that question, a way to 
solve the problem so that one of the places for a terrorist to 
be safe is not in the United States of America.
    I want to ask our dedicated people here from th FBI and the 
CIA--thank you again for coming today--to the CIA officer, I 
want to ask, I've had concerns about not enough emphasis on 
analysts. You and your good work at the CIA put some clues 
together, I understand, in May of 2001, after the situation had 
been missed for a while. You started a ball rolling.
    It's my understanding that with the clues finally put 
together in May of 2001 that was turned over to an analyst, who 
then put it together by August of 2001. Is that correct?
    CIA Officer. Not entirely. There was a small team probably 
working this of separate people. There is an analyst. There is 
also an FBI analyst detailed to CTC who is working on this.
    Mr. Roemer. So there was an analyst from CIA and an analyst 
from FBI?
    CIA Officer. Within CTC, and then they were working with 
their colleagues at the FBI.
    Mr. Roemer. My question would be, sir, how many analysts 
did we have working this in CIA, all together--the total number 
of analysts in CTC in May of 2001?
    CIA Officer. I don't have an answer for that. I was at the 
FBI at the time. I would say roughly--again, as I said before 
in my statement, what you don't have is a large team working a 
single problem. Here you have people who are working multiple 
problems coming together periodically to look at this.
    Mr. Roemer. I understand. My question, though, is how many 
analysts are working UBL in CIA and how many analysts are 
working UBL at FBI? It is my understanding from a previous 
hearing that there was one analyst at FBI working UBL full-
time; is that correct?
    Mr. Rolince. If I can take that, Senator, that is not 
correct.
    Mr. Roemer. How many were there?
    Mr. Rolince. Going back to the fall of 1999, when the 
decision was made to create the Counterterrorism Division 
separate from the old National Security Division, there was 
also a decision taken to create an information resources 
division. It was not necessarily popular, but the theory held 
that if you wanted to do strategic intelligence we need to have 
the majority, if not all, of the analysts in the FBI in one 
division.
    I understand that an analyst within that division was 
working strategic intelligence. In the immediate aftermath of 
the Africa bombings we created a bin Ladin unit, and it is 
within that unit, the only unit at headquarters that is 
responsible for one group and one group only, that initially 
four, in addition to several investigational operational 
specialists, work with the agent supervisors and the unit chief 
in the UBL.
    Could we use more? I think I made that case, and we 
certainly could, and we would certainly hope for your support 
on that.
    Mr. Roemer. I know my time has expired and the Senator from 
California has waited patiently for her turn, but, Mr. 
Chairman, I would hope, since we've had a host of different 
answers to this question over the last several days, that for 
the record we could get with certainty how many full-time 
analysts were working the UBL situation for the FBI, how many 
for the CTC within CIA, and how that had changed over this 
critical three-year period.
    I thank the Chairman.
    CIA Officer. I would just like to add to that that it's 
also critical that we understand what we mean by an analyst, 
because there are a lot of different functions these people 
perform, depending on where they work. So some people are 
analysts working in an operational capacity, some people are 
analysts who write memos for the President, some people are 
supporting operations. They are performing an analytic 
function, but it's different. It is a very difficult question 
to answer in general, and there are a lot of other people 
working in the bin Ladin issue that are not analysts, who 
perform a similar function in terms of operational guidance and 
targeting and that kind of thing.
    So it is a hard question to answer directly.
    Mr. Kojm. Excuse me, Mr. Chairman. I did want to respond to 
Congressman Roemer's previous question. I have at least a 
partial answer. Every name in the TIPOFF data base and every 
new name that is put into the data base is run against records 
of visa holders, both current and expired. If any name is a 
match, we initiate a revocation process. So if it's in our data 
base and they are a visa holder and we believe they are here, 
we provide that information to domestic law enforcement.
    Chairman Graham. In reference to the question about 
personnel, on June 18 of this year Senator Shelby asked 
Director Tenet to provide numbers relative to the personnel 
within the CIA committed to various functions, including the 
Usama bin Ladin account. On August 28 the Joint Inquiry staff 
reiterated that request for a detailed breakdown of personnel 
who were focused full time on bin Ladin, those whose 
responsibilities involved work on al-Qa'ida on a less than 
full-time basis.
    We have not yet received a response from the CIA on either 
of those two requests, and I would particularly reference that 
to the representatives of the CIA.
    I have asked Ms. Hill if we could make the same request of 
the FBI so that we will have comparable data from the two 
agencies.
    Mr. Roemer. Thank you, Mr. Chairman.
    Chairman Graham. Senator Feinstein.
    Senator Feinstein. Thank you very much, Mr. Chairman.
    I think Congressman Roemer raised a good issue, and because 
some of us worked on the Border Security and Visa Entry Reform 
Act, we just pulled the law. As you know, there wasn't an 
interoperable data base. The law provides that now there should 
be one. Whether all the security data bases provided for in 
this law are now operable is a question I'd like to ask.
    Mr. Kojm. Senator, is that addressed to the Department?
    Senator Feinstein. If you don't mind.
    Mr. Kojm. I can answer that in part, and that is that we do 
provide data to the Foreign Terrorism Tracking Task Force. We 
began providing data on all of the unclassified elements of 
every individual in the TIPOFF data base, so that is provided 
to domestic law enforcement.
    Moreover, we do provide----
    Senator Feinstein. Is it provided to INS so that if an 
individual asks for an extension on their visa and they are in 
the watchlist that INS has that data at their fingertips now?
    Mr. Kojm. INS would have access to that information through 
the Foreign Terrorism Tracking Task Force in which INS is an 
integral member. That is my understanding, Senator.
    Senator Feinstein. I think we ought to check that one out.
    Mr. Chairman, I just wanted to state publicly--and then I 
wanted to ask the two agents a quick question--the one thing 
that comes through to me very strongly from the staff report is 
how easy it is for those who would do us harm to use our system 
falsely, to game it to get into the country, and how much they 
knew about our system.
    You know, it's amazing to me that when the expedited access 
program went into play in May of 2001 the very next month five 
of the hijackers avoided a personal interview by using that 
speedy access system in Saudi Arabia, which has been since, as 
I understand it from the staff report, done away with.
    They knew how to get multiple-entry visas. They knew how to 
get a new passport to avoid saying where they traveled and how 
often they traveled. Six of them knew they could go to a bank 
and actually make up a social security number and that the bank 
wouldn't check that number, which they did do and an FBI agent 
came in, as a matter of fact, my subcommittee in Judiciary, 
came in and testified to that.
    So I think what we really need to know is that we've really 
got to keep going over our systems and making recommendations 
of how they can be strengthened to avoid just this kind of 
thing.
    I wanted to talk for just a moment with the two agents, if 
I could, about the wall, because this is something that many of 
us on Judiciary have been interested in. As you well know, it 
involves FISA. In the PATRIOT Act we made a couple of 
amendments. We changed ``primary purpose'' having to be from an 
intelligence point of view to a ``significant purpose'' being 
from an intelligence point of view. And we also enacted a 
section which is called the New Coordination Provision that 
provides for coordination in the law with law enforcement.
    I want to just read to you a couple of the points and see 
if you believe it covers what we need to cover. In other words, 
the FISA Act is amended by adding federal officers who conduct 
electronic surveillance to acquire foreign intelligence 
information under this title ``may consult with federal law 
enforcement officers to coordinate efforts to investigate or 
protect against actual or potential attack or other grave 
hostile acts of a foreign power or an agent of a foreign power, 
sabotage or international terrorism by a foreign power or an 
agent, clandestine intelligence activities by an intelligence 
service or network of a foreign power or by an agent, and 
coordination authorized under other sections.''
    So clearly there is a very clear consultation that is 
permissible now under FISA between the Intelligence Community 
and the so-called Title III law enforcement community.
    My question to you--and I'm sure you've probably reviewed 
this--is, do the agents for the most part that you come into 
contact with believe that this is a significant improvement and 
that that wall--you mentioned something about the wall being 
broken down--is down sufficiently so that you're not hampered 
when you have to perform one of these investigations?
    FBI Agent. Yes, Senator. With regards to some walls, that 
wall, it definitely has helped. I will submit to you that since 
the enacting of the PATRIOT Act, which I requested a copy so I 
had it in writing, I have read on more than one occasion to 
some individual that was attempting to withhold information 
from me, just what you just read right there. So old habits die 
hard, I think, with regards to certain things. It has certainly 
helped to this point.
    With regard to the other wall that Senator DeWine had 
mentioned earlier, I believe there are so many different types 
of walls with regard to intelligence and criminal, but with 
regards to the FISA specifically that one seems to have helped. 
With regards to what Senator DeWine talked about, the other 
wall, we still have to deal with that on pretty much a daily 
basis.
    Senator Feinstein. Because we just had a hearing in 
Judiciary and the Justice Department, as you know, the FISA 
Court, I think only for the second time in its history, had 
just produced an opinion saying to the Justice Department, 
where they tried to sort of entirely break down the wall in 
terms of the application for a FISA process, that the 
significant purpose test remains. And the Justice Department 
apparently did not want it to remain. The FISA Court had an 
unanimous opinion. That opinion is now on appeal.
    Do you have a view on that subject?
    FBI Agent. No, ma'am. I think there is some document that I 
was handed within the last week that talks about that 
specifically, and it's going to be circulated to the field, but 
I don't have any knowledge of that.
    Senator Feinstein. Thank you. Does the other agent have any 
knowledge of that?
    CIA Officer. I'm from the CIA and most of this is Greek. 
Sorry, with all respect, I don't.
    Senator Feinstein. Well, it still is, to some extent, with 
me.
    Mr. Rolince, do you have a view on that?
    Mr. Rolince. Senator, let me start at the beginning and 
move forward. I'm not a legal expert. As you know, Spike 
Bowman, the Deputy General Counsel, will be with you next week 
to walk through this. But unquestionably the concerns that my 
colleague raised about the issue of opening criminal or intel 
goes by the wayside with the PATRIOT Act, and it's probably one 
of the most substantial positive changes that you could have 
put into place to allow us to move information as quickly as we 
possibly can in situations like that.
    In addition to that, the change from a two-pronged test to 
just relevancy in order for us to get national security 
letters, pen registers, information like that, is also a help, 
as are the expanded time frames for which the FISAS on both 
United States persons and non-persons are in effect.
    There is one area that we're still in debate on, and that's 
our ability to use the roving. We're trying to work through 
that. We would like in counterintelligence and counterterrorism 
the exact same capabilities we have if we're working public 
corruption or organized crime cases. I think there's still an 
issue to be worked out there.
    Finally, as regards the last piece, my understanding of it 
is the degree to which criminal prosecutors will be able to 
guide, direct, and manage the FISA process, and I think that is 
part of what is still being adjudicated, if I have it right.
    Senator Feinstein. Thank you very much. Thanks, Mr. 
Chairman.
    Chairman Graham. Thank you, Senator.
    Senator Shelby.
    Vice Chairman Shelby. Mr. Chairman, I'll try to be brief. 
The witnesses have endured a lot with us today and we 
appreciate that.
    I want to add the fact that the FBI agent and the CIA 
officer, we appreciate what you are doing, and we want you to 
continue to do that, but we should give you the tools and the 
resources to complete the job. I think we understand that.
    This is directed to the Bureau. As I understand it, al-
Mihdhar and al-Hazmi did not use aliases when they were in the 
U.S. They lived in San Diego under their real names, signed 
rental agreements, and one even obtained a California motor 
vehicle photo ID card. According to your testimony, the CIA 
told the FBI that it was interested in these two terrorists as 
early as January 2000. In March the CIA apparently learned that 
the terrorists had entered the United States.
    If the FBI had known that these suspected terrorists were 
in the U.S., would it have been difficult to track them down, 
given that they were living entirely at that point in the open? 
You recounted that after the CIA told you in August of 2001 
that these two should be watchlisted, that the FBI tried to 
locate them in New York and Los Angeles by searching for them 
under their real names.
    Did anyone at the Bureau think to use the Internet to 
conduct a national search for them in local phone books and 
other public records or commercial data bases? Further, if the 
CIA had watchlisted these two terrorists in early 2000 and they 
had been identified at the border or if the FBI had managed to 
find them living openly as they were in San Diego, might you 
have been able to conduct some surveillance or something of 
them?
    You know, I know a lot of this is hindsight, but as we look 
back I think it's worth bringing up, especially to where they 
lived in the open. They were living under their own names.
    FBI Agent. Yes, Senator. I will say as part of that 
conversation I talked to Congressman Reyes about, I was told 
that my name specifically could not be on any paper regarding 
al-Mihdhar or in the future we would lose that. But the night 
of September 11, I submitted a request at that time to our 
information center, technology center, and they came back 
within hours with at least one address with regards to Khalid 
al-Mihdhar in San Diego through public resources.
    Now I will caution, saying that the names are unbelievable 
dealing with sometimes, with just a name that it's difficult to 
just take a name and run it back. But it turns out that what 
came back with regards to that address was an accurate address 
for him in San Diego. That was part of my concern voicing with 
regards to intelligence agents and their case assigned, was 
that it was probably going to be assigned, at least initially, 
to not enough people. The guys that were trying to track them 
down were busy with all the advance techniques at the time to 
try to get a hold of them.
    Vice Chairman Shelby. It goes to resources too, doesn't it?
    FBI Agent. Yes, sir.
    Mr. Rolince. It is speculative as to exactly what would 
have been done had we found him. Let me just put it in a 
context. As of September----
    Vice Chairman Shelby. Well, I put it in that context, 
because I think it's fair to do that.
    Mr. Rolince. I was interested to know just how many people 
are out there that we are looking for, and I asked. Ironically, 
as of September 1 there are 7,295 FBI fugitives, most of them 
probably in this country, on whom we have process. Sort of a 
sobering thought that there are in excess of 830,000 local, 
state and federal subjects who are being looked for for various 
number of crimes.
    With that said, had we been able to find them, there would 
have followed, I think, a pretty serious debate on exactly how 
far do you take this. The reason that we put people into the 
watchlists and data bases is, quite frankly, to keep them out. 
So if now you find yourself in a position where a serious 
terrorist is in the country, I'm speculating but I don't 
believe we would have followed, monitored, covered, ad 
infinitum. A point in time would have had to come where 
probably seventh floor decision makers would have said, like we 
did in recent cases of people who we have arrested coming into 
this country, stop him, pick him up, question him.
    Vice Chairman Shelby. Well, that's a judgment call and we 
understand that. Sometimes it's the right thing to do. 
Sometimes we find that you stop them and arrest them too fast.
    One last comment, Mr. Chairman, if you will indulge me. 
Yesterday we had two former national security advisors, Mr. 
Sandy Berger and Mr. Brent Scowcroft. M. Scowcroft is no 
stranger to security knowledge of the world, but his statement 
that concerned me but didn't shock me said--and I'll try and 
paraphrase him; I hope it's verbatim--that basically the safest 
place for a terrorist anywhere in the world is in the United 
States of America, and that concerns us all, and it should 
concern the CIA and the FBI and all the local people and the 
citizens.
    We know we have a challenge ahead of us, and we know we've 
got to have you to meet that challenge. Thank you, Mr. 
Chairman.
    Chairman Graham. Thank you, Senator.
    Senator Rockefeller.
    Senator Rockefeller. Thank you, Mr. Chairman.
    I think these have been very, very useful and serve, I 
think, a variety of purposes, and I think that the two co-
chairmen of this committee have been extremely careful in 
making sure that everything was cleared, that everybody was 
secure. I think it's been quite flawless that way.
    I think all Americans, all government officials, all people 
who do public service and others who just might be well known 
are at risk. When I was first confronted with this I wasn't 
enthused about the idea of public hearings, but I have changed 
a bit because I think that's one way one educates not only the 
American people but, frankly, the Intelligence Community as a 
whole, as well, as Chairman Graham said, our colleagues.
    And the end process here is really to make it better and 
more efficient for all of us so that there is less frustration 
and so that we develop an ability to dialogue with each other, 
that you are more confident the system is working which 
protects and helps you and propels you forward in your work 
rather than the walls and all the rest of it. So I'm glad of 
these hearings and I congratulate Chairman Graham and Chairman 
Goss.
    My two questions are very simple. One is to you, Mr. Kojm. 
You talked about, I think, a 455 percent increase in the TIPOFF 
data base and the committee added some money for this program 
for fiscal year 2003 in, I think, the intelligence 
authorization bill. That doesn't mean it's happened yet.
    In view of what you told us this morning, does that in fact 
give you what you need? If you say 455 percent, people say wow. 
It needs, however, in view of what you, Mr. Rolince, just said 
in terms of 7,000 or 8,000 people at loose in this country, not 
necessarily all terrorists but people that have committed 
serious crimes, to be within a context. I need to have a sense 
of satisfaction that if this money is forthcoming it will be 
sufficient to your purposes.
    Mr. Kojm. Senator, thank you very much for the question. I 
hope it's not any misimpression that I left, but the nature of 
the 455 percent really is the increase in our workload since 
September 11. Our funding would be as follows. Prior to 
September 11 the program was funded at roughly a little over $1 
million a year. Obviously----
    Senator Rockefeller. I've rather reversed the tasks, have I 
not?
    Mr. Kojm. The funds have increased some, but not 
proportionate to the work. With the support of----
    Senator Rockefeller. Well, let's talk about that, because 
that makes my question much more important.
    Mr. Kojm. Funding since 9/11 increased to slightly over $3 
million, so it's a significant increase in a tiny program. But 
it is not sufficient to the workload. At the worker level, we 
would believe that funding ought to increase several-fold to 
accomplish this task. Within the State Department, the source 
of funding for TIPOFF heretofore has been machine-readable visa 
fees. What has happened since September 11 is those fees are 
going south and have decreased and the requirements for those 
funds, because State is a player in homeland security, 
particularly with Mexico and Canada, the funding requirements 
are going north.
    So this is why our senior leadership has been in contact 
with the Director of Central Intelligence about a significant 
increase in resources for what is a national intelligence 
mission.
    Senator Rockefeller. Any response?
    Mr. Kojm. Yes. I think we can say there is considerable 
interest and a favorable disposition, but to speak beyond that 
I really can't, Senator.
    Senator Rockefeller. Understood.
    There was some discussion not only in Ms. Hill's excellent 
report this morning but also among the five witnesses that are 
before us, or at least four of them, about walls, lack of 
communication. This is the essence of everything. It's the 
whole concept of how so many of our national security agencies 
have their own campuses. Senator Graham and I were talking and 
we were talking about going abroad somewhere. Going abroad 
could be visiting within a six-mile radius of the United States 
Capitol, visiting sort of different cultures, different people 
that speak different languages or don't speak to each other or 
have bad histories or whatever.
    A lot has been written about the NSA. The NSA is not famous 
for sharing information. I just am interested in terms of 
whether--I might ask that of our two gentlemen that I'm looking 
at now. Have you had any problems with that from them, the 
sharing of critical information?
    FBI Agent. Before September 11, thrown into this whole FISA 
question was the question of whether or not we could read 
SIGINT. What happened was criminal investigators were 
prevented, before 9/11--and again the only way I can describe 
it in this short time period is a snowball event--that they 
could not read any SIGINT because of the fact that some of the 
information that was being fed to them and that they were 
utilizing was FISA-derived information. The NSA had decided 
that all information then, and since it's possible that some 
criminal investigators might read FISA information, that all 
criminal investigators cannot read any SIGINT whatsoever.
    So prior to September 11, besides not being able to talk 
about the information that we've already talked about here 
today, no criminal investigator was able to read any SIGINT 
information. And that was, in my personal opinion, way too high 
of a wall with regards to that, because that was something that 
we relied on from a perspective just to kind of point us in the 
right direction, if you will, realizing at the same time we 
knew, any criminal investigator six months out of Quantico 
realizes you can never use that information in an affidavit or 
a subpoena or anything like that at all. And that wall has come 
down, but there is rumors that it might go back up with regards 
to SIGINT information since a lot of it is derived or could be 
derived from FISA.
    So that is a part of the problem, too, and I think it is a 
good thing, Senator, that you brought that up, because criminal 
investigators need to be able to look at that information.
    Senator Rockefeller. Since I'm not looking at the lights, I 
don't know whether or not the red light is on.
    Chairman Graham. It is, Senator, and it has been.
    Senator Rockefeller. But I had such a good short question, 
quite extraordinary.
    Chairman Graham. Because we are compassionate, go ahead.
    Senator Rockefeller. It really is short and it's to both of 
you gentlemen. Is there a general sense in each of you that 
what happened on 9/11, and whether or not this open hearing was 
a happy or unhappy event, the fact that so much attention has 
been focused, the fact that people are talking about 
communication, walls and all kinds of things is important? You 
know, NSA was No Such Agency for years and maybe some people 
are beginning to learn about it.
    Is there a sense that there's a brighter future out there, 
or the ``overwhelming'' factor that one of you used, does that 
predominate? Are you looking, do you think, at an improving 
situation? Do you feel that the Congress and your superiors and 
those that you work with are going to be able to do their work 
better because of the attention post-9/11?
    CIA Officer. I will basically just say that the comment 
that I hear most often, without having a personal opinion about 
resources at this point, but the comment I hear most often from 
working level people on both sides of CIA and FBI involved 
directly in the bin Ladin business is when, with a panic-
stricken look in their eyes, saying we're going to miss stuff. 
We are missing stuff; we can't keep up.
    So I believe the--I know that resources are being shifted 
to meet this and they continue to be shifted. I know that 
technology continues to be modified. And sort of the nightmare 
scenario is that the modifications and the resources won't get 
there in time. We also understand that we can't do this in five 
minutes. We can't fix it in five minutes. But I will tell you 
right now from the front lines that the feeling is one that 
there is just too much information still to handle and not 
enough people to do it.
    Senator Rockefeller. So foreboding?
    CIA Officer. Yes.
    FBI Agent. I would say most field agents are still 
frustrated. They realize we've come, with regards to FISA 
issues that we've discussed, with the wall being re-set down, 
that we've come a long way. But we also realize with the 
magnitude of what happened September 11 and trying to prevent 
that in the future we need to go further. We need to make sure 
that all the walls that we talked about here today continue to 
come down and that when information is compartmentalized that 
somebody's accountable for that, why that reason is, to all 
agencies, not just the FBI or CIA or anything.
    So we have some sense that we have made some progress but, 
Senator, in my estimation, just from being where I am, is that 
we need to continue that and go a lot further.
    Senator Rockefeller. I thank you and I thank both Chairmen 
very much.
    Chairman Graham. Thank you, Senator Rockefeller.
    I am going to have to leave. I am turning the chair over to 
my colleague, Congressman Goss. I would like to express, as so 
many of my colleagues have, our appreciation of your 
participation but more so the long service that each of you 
have given to the American people. We are deeply in your debt.
    FBI Agent. Thank you.
    CIA Officer. Thank you.
    Mr. Rolince. Thank you, Senator.
    Chairman Graham. Senator Wyden.
    Senator Wyden. Thank you very much, Mr. Chairman.
    Gentlemen, I was able to add an amendment to the 
intelligence authorization and I think you're aware of it, 
those of you at State, to create a terrorist tracking system, a 
terrorist tracking system. Particularly given what we heard 
from Ms. Hill today, it seems to me just stupefying to hear 
today that a year after 9/11 discussions are essentially only 
under way. That's how it's constantly described--discussions 
are under way. But here Ms. Hill today has outlined all of the 
problems that were associated with some of the past failures.
    In the intelligence authorization the leadership in this 
Committee worked very closely with me so that we're trying to 
do it in legislation. I think the question I would ask, Mr. 
Kojm, is what is it going to take to actually get this done? I 
mean, we've got the documented failures. We've got a bipartisan 
effort in this Committee to be supportive of your agency and 
others. I think I'd like to begin by having you all just give 
me a sense of what it is going to take to actually get this 
done?
    Mr. Kojm. Senator, thank you for your question.
    I think the short answer, with all due respect, Senator, is 
funds. And the Department does not have them. Consular Affairs 
has funded this program almost in its totality from the outset. 
It does not have the funds to provide for this purpose. For 
this reason, the senior leadership at the Department of State 
is seeking funds from elsewhere, from the DCI. And we believe 
that will be forthcoming. But beyond that I really can't speak 
in detail.
    Senator Wyden. I think that is a legitimate concern, but 
when I heard Eleanor Hill this morning and I discussed it in 
the past, I've not had cited as a primary reason for this a 
lack of funds. I mean, what we heard this morning is that it 
just seems like somehow the left hand isreluctant to share with 
the right hand or they simply don't know about it. I'll be very 
supportive of the request for additional funds, but I will tell you the 
more I learn about this the more convinced I am that there are a set of 
forces operating in the various agencies that have responsibilities 
here in the law enforcement and intelligence agencies.
    And I'm just committed to getting to the bottom of this so 
it happens. You have a commitment on my part, and I know from 
others, for the necessary financial support, but I didn't get 
the sense, listening to Ms. Hill, that the central problem was 
funds.
    When you talk about a national lookout center, how would 
that work and what agencies and levels of government ought to 
have access to this information?
    Mr. Kojm. Senator, thank you. I think to help in responding 
to your question it's useful to just enumerate how tiny the 
TIPOFF program is. We're talking about five federal employees, 
six full-time contractors, three part-time contractors, and 
some computer support people. It is a tiny program.
    To fulfill the purpose that you have stated and which we 
believe it needs to fulfill as well it needs to become a much 
larger entity, and it needs to have representation from other 
agencies. As my colleagues have spoken about how it's so 
critically important for FBI and CIA to live and work with each 
other, we believe as well that for a national watchlist center 
to work effectively it would need representation from CIA, FBI, 
NSA, Transportation Security Administration, FAA, Immigration 
and Naturalization Service, Coast Guard, probably other 
agencies that I haven't named.
    Senator Wyden. How many more people do you think are needed 
to do this right?
    Mr. Kojm. It is a planning figure. If our current number is 
eleven, it would be several times that number, probably less 
than 100, but it would be considerably more than are now 
present. I hope I've made clear in my testimony that this small 
number of people cannot do 24 by 7 work. And that is one of the 
initial requirements, that we need to have a 24 by 7 presence 
rather than calling in people, as we do now, at every odd hour 
to come in and handle a case.
    Senator Wyden. With the passage of the legislation--and, as 
you know, we consulted with a variety of agencies that you 
mentioned--how soon could we get this in place, particularly if 
the funds are forthcoming?
    Mr. Kojm. Well, planning is under way. We do believe that 
within a year, certainly within two, we can have a center that 
we believe is equal to the task.
    Senator Wyden. I hope so, because I know that when I went 
home after we dealt with the authorization and people would ask 
what was going on, I said I had worked very closely with my 
colleagues on a terrorist tracking system, essentially 
something that very much is structured along the lines of 
TIPOFF. They say, good job, Ron. They say why do we need 
something like that? Why wasn't something like that in place by 
December 1, a few months after September. And it is very hard 
to give an answer to that question, particularly when you 
listen to some of the comments of Ms. Hill today, who basically 
took sort of step by step how somehow some of these people who 
could inflict such harm on this country somehow fell between 
the cracks.
    And you are forced to conclude that we just can't make the 
wheels of government, with all of the inertia that seems to 
accompany it so often, work very well. I want it understood 
that I'm very much committed to your getting the resources that 
you need. I hope that you will continue to work with us to try 
to refine the legislation, because in effect our TIC system is 
on all fours with what is now considered the TIPOFF program, 
and I want to leave here this session with a sense of how on a 
date certain we're going to have this expanded program in 
place.
    Because to hear Ms. Hill, to hear what we heard today, Ms. 
Hill outlining all the problems, and then to juxtapose that 
alongside the testimony, well, discussions are under way, I 
just think we've got to work together and do better. And I'm 
committed to making sure that the Congress gets you the tools 
and you give us your sense of what it's going to take to get an 
expanded program in place quickly.
    Thank you, Mr. Chairman.
    Chairman Goss [presiding]. I wanted very much to thank the 
United States Senate staff here and the joint staff who made 
this work, and particularly our witnesses today. It's been 
extremely helpful for several of our objectives. The staff has 
inevitably given me a couple of sweep-up questions, which I 
will try and get properly stated. Mr. Rolince, I think they are 
probably both for you.
    The first, and it had occurred to me myself as you were 
talking: Is it ever possible to open a criminal investigation 
on an individual if the only information comes from 
intelligence?
    Mr. Rolince. Yes, sir. If that intelligence information 
touches on criminal activity, then it becomes incumbent upon us 
to go back through the system to see--in fact, we do this with 
the British all the time, to give you a classic example--go 
back through the security services to see if they can't give 
that same information to Scotland Yard or to the police so that 
they can pass it to us in a criminal channel and we can open a 
criminal investigation.
    So yes, that is possible.
    Chairman Goss. It is possible. It did appear from the way 
the statements appeared today that it's a bit of a hindrance, 
however, this whole problem that has been brought up before us. 
One of the things that occurred to me, if I were a defense 
attorney, I would be doing my darndest to try and predict that 
my client really shouldn't be here because much of this is 
coming from intelligence sources and it's not a criminal deal. 
I can understand your problem. It sounds to me like that's 
something we as a society and Congress perhaps as a lawmaking 
body is going to have to deal with. Do you disagree with that?
    Mr. Rolince. I don't disagree with it. I would tell you 
from my past experience that, lawyer jokes aside, the 
competence and quality of people within our organizations and 
within many, many districts--and I would certainly highlight 
the Southern District of New York and Eastern District of 
Virginia--in past dealings are smart enough to get us through 
those problems.
    Chairman Goss. That is good. I think what we need to be 
reassured is that if there is some piece of legislation that's 
in the way or some regulation that's in the way that is causing 
people who are out in the field who are testifying here today, 
causing the frustrations we've heard expressed, that we need to 
take the appropriate action. It would be fixable, in my view, 
and should be fixed if it continues to be a problem.
    Mr. Rolince. I appreciate that, Senator, and the legal 
counsel division representation here and I'm sure next week we 
will be happy to talk more on that subject.
    Chairman Goss. Thank you. I will not hold it against you 
that you called me a Senator. I am a mere Congressman.
    Mr. Rolince. Sorry, Congressman. My apologies.
    Chairman Goss. The second question also occurred to me but 
it's a very good question. In the Cole investigation I think my 
colleague Mr. Reyes asked this question about Khallad bin 
Attash during the investigation. I think there may have been a 
mistake with Khalid al-Mihdhar, and I just want to make sure I 
understand this and understand the reasoning of it.
    My guess is that it was known to the FBI in June 2001 that 
Khalid al-Mihdhar was an associate of Khallad's. Is that 
accurate?
    FBI Agent. No, sir. Based on our knowledge, no, that was 
not accurate. We had reason to believe that another suspect 
that was traveling to deliver money to Khallad had actually met 
with Khalid al-Mihdhar. We can go into that in detail in a 
closed session. But as of thattime we did not. In fact, that's 
the type of thing that we were absolutely looking for in that meeting. 
That would have been a home run for us.
    Chairman Goss. That was my assumption, and my thought was 
that you actually had the association. Had you had the 
association, you would not have run into all these problems in 
that meeting; is that correct?
    FBI Agent. Well, I don't know. I don't want to speculate, 
but it would have kicked it up to the notch of certainly a 
higher level and maybe allowed other avenues for us to pursue.
    Chairman Goss. What I think our staff is trying to 
understand is, as you are pursuing a particular case and in the 
expansion of that case following it where it goes, are there 
hindrances that need not be there once you've got the green 
light to start down that case every time a new name comes in.
    FBI Agent. With regards to certain information, just from 
my standpoint as a case agent, yes, there are hindrances. Some 
of them are there for very good reasons. What we need help is 
just making sure that the criminal agents are aware of all U.S. 
Government information that is out there regarding the people 
that they're trying to pursue criminally and through intel 
investigations within the Bureau, if that answers your 
question.
    CIA Officer. Could I contribute two cents from the CIA 
side?
    Chairman Goss. Of course.
    CIA Officer. And having observed this from the FBI side as 
well. First, in the order of events I don't believe it was 
rediscovered because it had been lost in kind of the file that 
Khallad was suspected to have been at that meeting. I think 
that was not in anybody's head who was up at this meeting in 
New York. That didn't resurface again until later. Had it 
resurfaced, it would have immediately been passed to the 
Bureau.
    And in general, speaking as somebody who has been doing 
this kind of work for a long time, working with the FBI on 
terrorism cases, I arguably should probably know better, but in 
general what happens is that when a CIA CTC person deals with 
the FBI on a terrorism issue, they don't distinguish between 
criminal and non. They just say you're my FBI counterpart; 
here's the information. Or they pass it formally.
    So I would just again caution that there's a difference 
between--that there's not a CIA policy so much that I'm aware 
of to refrain from passing to certain parts of the FBI 
information in general unless it's specifically noted right 
there and there's a clearance process. But when you're doing 
operational coordination, I know in the Cole bombing nobody 
ever stopped to ask, excuse me, are you a criminal, we can't 
give this to you. It was very much, you know, this is the Cole 
bombing and how can we help.
    So what happens at one meeting, maybe we should just be a 
little cautious about generalizing to practice I guess is what 
I'm trying to say. Thank you.
    Chairman Goss. Well, I think that's a very good 
observation. I think there may be a general observation that's 
more relevant, and that is there probably is a greater 
difference in the Washington area. In the headquarters area 
these distinctions are made with greater attention to detail 
than they are in the field, where you're really doing the 
urgent and necessary work in a very different climate, which we 
understand. I'm trying to make sure that not only is the 
cooperation in the field working but that we are not creating 
any impediments to that cooperation back home, because I think 
we all understand there is a healthy friction between the field 
and headquarters.
    CIA Officer. And I do have to say this and I'm violating my 
own common sense by going too far, I think, but I will say it. 
The key area to look at here, having watched the amount of pain 
that my colleagues in the FBI go through on this subject, is 
the FISA process. Without being an expert in the detail, that 
is the key domestic pain issue that I see at FBI headquarters.
    Chairman Goss. Well, you've noticed Congress has taken a 
cut at that already and we didn't get it exactly right the 
first time, apparently. The courts are suggesting some things. 
So this is not a closed book by any means. But I think we share 
the frustration and agree with the observation.
    I had a question for Mr. Kojm, and that is basically this. 
Even if we had watchlists that had the right criteria that 
stopped a lot of these people trying to come in legally, would 
we then have solved the problem of would-be terrorists or 
others coming into the country illegally?
    Mr. Kojm. Mr. Chairman, the answer I think is clear. We 
would not. It clearly would be helpful to have comprehensive 
data bases with excellent information and low thresholds for 
inclusion of information, but if you enter the country 
illegally you would not be captured in any way, shape or form 
by such a process.
    Chairman Goss. And then you would have to break a law, 
presumably, to come to the attention of the law enforcement 
authorities.
    Mr. Kojm. That's my impression.
    Chairman Goss. Since we don't have any intelligence 
activity in this country, that seems to be where we are, which 
is a very interesting question for us to ponder as we go 
forward.
    The last question I had I wanted to state in a cultural 
way. We've heard a whole list of reasons why the system doesn't 
work up to the expectations we all had to prevent a 9/11, and 
there's quite a number of them. They're all justifiable in 
terms of what things can go wrong, do go wrong. I think the 
most impressive to me is the continuous statement about how 
overwhelmed our people are, don't have time to do their job--
it's not just resources; it's time as well--that the 
regulations sometimes, the death of common sense actually did 
happen--it died. The guy in New York who wrote that book was 
right that the regulations go haywire on us.
    The culture is another area that I'm very concerned about. 
I know that there are many who feel that the culture of the 
Intelligence Community is compartmentation and need to know, 
and that in its own way seems to run directly counter to 
coordination and sharing information. On the other hand, I well 
understand in law enforcement prosecutions are a great way to 
get career advancement--successful prosecutions. So we've got a 
cultural problem to deal with too, and we don't want to take 
the esprit away from anybody on the one hand, but we've got to 
work better efficiencies on the other.
    Assigning priorities to resources is an incomplete skill 
and science, it seems, and I know quite often that agencies 
don't get the same satisfaction out of OMB that they'd like to 
get, and we on the Hill have different points of view sometimes 
about both what the agencies and OMB think. The management 
decisions we find unevenness in management and in some cases 
brilliant management, in some cases not so brilliant, failing 
to recognize changed times and changed threats.
    Communications requirements, which go beyond culture into 
technology, secure communications and personnel exchanges we've 
talked about. All of these things are fixable and all of these 
things need to be fixed for America, who it's our mission to 
provide the greatest amount of security for. And for you folks 
doing the work, I want to assure you the whole purpose of these 
9/11 joint investigations for us is, to the greatest degree 
possible, find out what we can do better so we can fix it. That 
is not going to be done in one set of hearings. It is going to 
take continuous time. So do not feel that when we put the gavel 
down to close this hearing that that's the end of this. It is 
going to go forward, because until we finish the process of 
making the fixes we haven't done our job.
    I want to thank you very much for your part in that today. 
If there's no further comment, we will call this session 
adjourned.
    [Whereupon, at 2:55 p.m., the Joint Inquiry hearing 
adjourned.]











JOINT COMMITTEE HEARING ON THE FBI'S HANDLING OF THE PHOENIX ELECTRONIC 
 COMMUNICATION AND OF THE INVESTIGATION OF ZACARIAS MOUSSAOUI PRIOR TO 
                           SEPTEMBER 11, 2001

                              ----------                              


                      TUESDAY, SEPTEMBER 24, 2002

        U.S. House of Representatives, Permanent Select 
            Committee on Intelligence and U.S. Senate, 
            Select Committee on Intelligence,
                                                    Washington, DC.
    The committees met, pursuant to notice, at 10:10 a.m., in 
Room 216, Hart Senate Office Building, the Honorable Porter 
Goss, Chairman of the House Permanent Select Committee on 
Intelligence, presiding.
    Senate Select Committee on Intelligence members present: 
Senators Graham, Shelby, Levin, Rockefeller, Feinstein, Bayh, 
Edwards, Mikulski, Kyl, Inhofe, Hatch, Roberts, and DeWine.
    House Permanent Select Committee on Intelligence members 
present: Representatives Goss, Bereuter, Castle, Boehlert, 
Gibbons, Hoekstra, Burr, Chambliss, Pelosi, Harman, Roemer, 
Boswell, Peterson, and Cramer.
    Chairman Goss. I call to order the joint inquiry of the 
House Permanent Select Committee on Intelligence and the Senate 
Select Committee on Intelligence.
    Good morning, ladies and gentlemen. This is the fourth open 
hearing by our committees as they conduct their joint inquiry 
into the Intelligence Community's performance regarding the 
September 11 attacks. The committee has also held 10 closed 
hearings.
    Today's hearing will be in several parts. First, the 
committees will hear from Eleanor Hill, staff director of our 
joint inquiry, who will present a staff statement on this 
portion of our inquiry.
    We will then ask the press and the public to leave the room 
while we prepare it for our next panel of witnesses. I will 
explain the purpose of doing so after the room is reopened for 
the testimony of that panel.
    It is our intention to conduct as much as we can of today's 
hearing in open session so that the full Congress and the 
public will have the benefit of the testimony presented here.
    In the event it is necessary to take up some other matters 
in closed session, the committees will act under the applicable 
House and Senate rules to complete the hearings in closed 
session.
    Is Ms. Hill here? Thank you.
    The Moussaoui investigation and the Phoenix communication, 
the subject of today's discussions, each raise significant 
questions in their own right. However, for several reasons we 
have decided to approach the two issues in one hearing.
    Both the Moussaoui investigation and the Phoenix 
communication were handled by the same unit in the FBI 
headquarters. Both matters came to FBI headquarters attention 
in the summer of 2001, at a time when the Intelligence 
Community faced an increasing number of reports of imminent al-
Qa'ida attacks against U.S. interests.
    At this hearing, we want to explore whether the FBI's 
investigation of Mr. Moussaoui in the summer of 2001 was 
focused only on investigating a potential specific crime 
concerning him, or whether the FBI also worked to identify any 
linkages between or among separate investigations.
    Finally, we are interested in whether anyone at FBI 
headquarters connected Mr. Moussaoui, the Phoenix 
communication, the possible presence of a Kahlid al-Mihdhar and 
Nawaf al-Hazmi in the United States, and the flood of warning 
about possible terrorist attacks during the summer of 2001. 
Members will recall we had an extensive discussion on Mr. Al-
Mihdhar and Mr. Al-Hazmi last week in our public hearings.
    I am now going to ask my colleagues for their opening 
remarks. I start with Chairman Graham of the Senate.
    Chairman Graham. Thank you, Chairman Goss.
    I would like to say how pleased I am with the progress of 
our public hearings, how grateful I am for the outstanding work 
that has been done by the special investigation staff under the 
able leadership of Eleanor Hill. The staff's work has 
contributed to a significant expansion of knowledge of 
knowledge of the tragic events of September 11 by the public, 
by the Congress, and especially by the members of the House and 
Senate Intelligence Committees.
    We are, without a doubt, better positioned as we look ahead 
to the third and what I consider to be the most important 
responsibility of this joint inquiry, recommending and 
advocating the reforms that will be necessary to allow our 
Intelligence Community to detect, deter and disrupt future 
terrorist plots against our citizens.
    I would like to take a few moments at this fourth public 
hearing to address an issue about which there has been 
considerable public comment and some confusion. That is the 
question of the continued classification of the identities of 
recipients of key intelligence documents.
    As Ms. Hill told us last week, there has been objection to 
the public identification of which documents were received by 
the President. I would like to make several points.
    One, the joint inquiry committee has possession of these 
documents or the information upon which the documents were 
predicated. The committee also has knowledge of which documents 
were distributed to whom, including which were distributed to 
the President.
    Two, the documents themselves have been declassified in 
whole or in part. What has not been declassified are the 
specifics of what documents were shared with the person who 
held the office of the Presidency.
    Three, this policy is being applied to all Presidential 
communications in all administrations. The policy is 
applicable, as an example, to the documents that were or were 
not presented to President Reagan, to President Bush, to 
President Clinton and to the current President Bush. In other 
words, the exception being claimed is not peculiar to this 
President but applied consistently to all occupants of the Oval 
Office.
    Four, we are continuing to pursue this matter with the 
National Security Council and the Director of Central 
Intelligence. We are encouraging the National Security Council 
and the Director of Central Intelligence to either rescind this 
prohibition or to provide a written statement of policy and 
rationale which will be understood and accepted by the American 
people and Members of Congress as worthy of this restriction. 
To date, that written statement of rationale has not been 
provided.
    It is my position that this material should be 
declassified. I believe that there should be a presumption that 
this information is important to the public's understanding of 
and confidence in the management of the Federal Government. All 
of us are privileged to serve in public office. We are 
accountable to the public. It is also essential to the accuracy 
and completeness of the historical records in this important 
chapter of our Nation's history.
    So today, Mr. Chairman, I urge the National Security 
Council and the DCI to reconsider or to provide us with the 
rationale for a continuation of this policy of non-
declassification.
    Thank you, Mr. Chairman.
    Chairman Goss. Thank you, Chairman Graham.
    I now turn to the ranking member, Ms. Pelosi.
    Ms. Pelosi. Thank you very much, Mr. Chairman.
    I, too, want to join you and Chairman Graham in commending 
Eleanor Hill on the Senate side here, Eleanor Hill, for her 
excellent work and that of the staff.
    I proceed very cautiously with my next statement because I 
take it very seriously, and I don't want it to be 
misunderstood. But I want to express strongly my opposition to 
the continued refusal of the administration to declassify which 
senior government officials received certain information 
referred to by Ms. Eleanor Hill in her public statement on 
September 18.
    In my judgment, the information at issue meets none of the 
criteria for proper classification. The disclosure of the 
information would not affect national security. The DCI's 
apparent unwillingness to declassify this information is a 
grave mistake, which will undoubtedly further weaken public 
confidence in the entire classification system.
    Far too much information is classified, even though it 
might meet classification standards. To classify for the wrong 
reasons when security is not at stake, when nothing of 
substance is really at stake, undermines the willingness of the 
American people to put their faith and trust in their 
government. Especially at this time in our history, that is not 
an outcome which anyone should want.
    The committees have procedures to challenge this decision. 
I know that our distinguished chairman has asked the DCI and 
the NSC to reconsider their decision. I am saying, Mr. 
Chairman, that it is time to consider seriously using the 
procedures these committees have to challenge the decision.
    Thank you, Mr. Chairman.
    Chairman Goss. Thank you very much, Ms. Pelosi.
    I would just add that I expect a timely answer; and I will 
share the answer I get, of course, with the members of this 
joint panel.
    The Vice Chairman, I now turn to Senator Shelby.
    Vice Chairman Shelby. Mr. Chairman, I will not have a 
written statement, but I would like to associate myself with 
the remarks of Senator Graham and Congresswoman Pelosi 
regarding this information. I think that we need it. I think 
there is no reason to keep it from the public and go from 
there.
    You know, as Senator Graham said, we already have the 
substance of it in our possession. It is just a question of 
moving forward. Thank you.
    Chairman Goss. Thank you, Senator Shelby.
    Today's interim statement of the joint inquiry staff will 
address the FBI investigations of Zacarias Moussaoui and the 
FBI's handling of the Phoenix electronic communication as it is 
called.
    With respect to the Moussaoui investigation, because of the 
pending prosecution, Ms. Hill's statement and the testimony of 
the witnesses will be limited to the FBI's investigation of Mr. 
Moussaoui prior to September 11, 2001; and I believe Ms. Hill 
is going to have some recent information on the limits of how 
far we can go today in her opening statement.
    Ms. Hill, before I ask you to proceed, I will ask unanimous 
consent that the full opening session staff statement for this 
portion of the inquiry be placed in the record, that a staff 
statement containing classified materials and any other matters 
not made public at this time be placed in a classified or 
otherwise nonpublic portion of the record, and that Chairman 
Graham and I, acting jointly after consultation with Ranking 
Member Pelosi and Vice Chairman Shelby, be authorized to place 
in an appropriate place in the record classified and 
unclassified exhibits that are designated for inclusion by the 
staff director of the joint inquiry or any member of the two 
committees.
    Senator Kyl. Mr. Chairman.
    Chairman Goss. Senator Kyl.
    Senator Kyl. Mr. Chairman, I have no objection, but I would 
like the record to note that the matter that the four of you 
just spoke to is not a matter that has been discussed by the 
full membership of the committee. Therefore, at least I, for 
one, am in no position to judge whether the requests that you 
have made are warranted or not; and I think the record should 
reflect the fact that that, therefore, is a request of the four 
Chairmen and Vice Chairman, not of the membership of the 
committee as a whole, at least if and until we are ever in a 
committee session where we can discuss that.
    Chairman Goss. Thank you, Senator Kyl. Point noted, and I 
will assure you that Senator Graham's remarks about getting 
something in writing is an effort so that we would have a base 
document that we could all share and deliberate over.
    Mr. Roemer. Mr. Chairman, parliamentary inquiry.
    Mr. Chairman, based on the bipartisan remarks that we have 
heard from the so-called big four, who have all voiced concern 
about the administration's failure to declassify this, is it 
your intention on the House side, Mr. Chairman, to engage this 
process before the full committee, a debate and a vote on the 
declassification in the Intelligence Committee before it would 
proceed to the House under Rule 10?
    Chairman Goss. I believe that I have an understanding of 
the membership that there is a consensus at this point that we 
should see if there is a reasonable justification to keep this 
material from the public.
    If there is not, I think we will understand that we are 
going to get the material to the public.
    Mr. Roemer. So it is my understanding then, with that 
answer, if the Administration responds to you in the negative, 
saying that they stand by their initial decision to keep this 
classified, then you would bring this before the full 
Intelligence Committee----
    Chairman Goss. Oh, yes.
    Mr. Roemer (continuing). For discussion and debate and 
possibly a vote?
    Chairman Goss. It will certainly come to the Committee, 
either in separate form of the House and Senate or jointly or 
both.
    Mr. Roemer. Thank you, Mr. Chairman. I strongly agree with 
that. Thank you.
    Chairman Goss. Thank you.
    Any further parliamentary inquiries?
    There being none, we will proceed.
    Good morning, Ms. Hill. We welcome you.
    Ms. Hill. Good morning.
    Chairman Goss. The floor is yours.
    [The prepared staff statement follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
 STATEMENT OF ELEANOR HILL, STAFF DIRECTOR, JOINT INQUIRY STAFF

    Ms. Hill. Thank you.
    Mr. Chairman, members of the Committees, at our last 
hearing last week we discussed information that the 
Intelligence Community had available prior to September 11, 
2001, regarding the September 11 hijackers.
    Today, as the Chairman has alluded to, I will discuss two 
additional topics: First, the July 10, 2001, electronic 
communication, or EC, from the FBI's Phoenix field office to 
FBI headquarters, also known as the Phoenix memo or in this 
statement as the Phoenix EC; and the investigation prior to 
September 11, 2001, of Zacarias Moussaoui. As mentioned last 
week, I want to again emphasize the significance of these 
areas, not just individually but also, perhaps more 
importantly, when viewed collectively.
    Information regarding all three areas was available in the 
same section at the Federal Bureau of Investigation's 
headquarters in late August, 2001. Two of these areas were 
addressed in the Director of Central Intelligence's 
Counterterrorism Center at approximately the same time. Yet no 
one, apparently, saw the potential collective significance of 
the information, despite the increasing concerns throughout the 
summer of 2001 about an impending terrorist attack.
    I am first going to discuss the Phoenix electronic 
communication.
    The FBI's special agent in Phoenix, who I am told will be 
here testifying later this morning, who wrote the EC, told the 
joint inquiry staff that he first became concerned about 
aviation-related terrorism in the early 1990s. He was working 
on two cases in which Libyans with suspected terrorist ties 
were working for U.S. aviation companies.
    In addition, several bin Ladin operatives had lived and 
traveled to the Phoenix area in the past, including a bin Ladin 
lieutenant convicted for his role in the 1998 embassy bombings. 
The Phoenix agent believes that that individual established an 
Usama bin Ladin support network in Arizona while he was living 
there and that this network is still in place.
    In writing the EC, the Phoenix agent said he never imagined 
terrorists using airplanes as was done on September 11. His 
primary concern was that Islamic extremists studying everything 
from aviation security to flying could be learning how to 
hijack or destroy aircraft and to evade airport security.
    In April of 2000, the agent interviewed the individual who 
was to become the subject of the Phoenix EC. When he normally 
interviews young foreign nationals, he told us that they 
usually tend to be at least somewhat intimidated in their first 
contact with an FBI agent. By contrast, this individual told 
the agent directly that he considered the U.S. Government and 
the U.S. military legitimate targets of Islam. In looking 
around the individual's apartment, the agent noticed a poster 
of bin Ladin and another poster of wounded Chechnyan mujahedin 
fighters. He was also concerned by the fact that this 
individual was from a poor Middle Eastern country and had been 
studying a non-aviation-related subject prior to his arrival in 
the United States.
    Another incident increased the agent's suspicion about 
Middle Eastern flight students in the Phoenix area. During a 
physical surveillance of the subject of the Phoenix EC, the 
agent determined that he was using a vehicle registered to 
another individual. In 1999, the owner of the car and an 
associate of his were detained for trying to gain access to the 
cockpit of a commercial airliner on a domestic flight. They 
were released after an investigation. The FBI closed the case, 
and the two were not prosecuted.
    A year later, the individual's name was added to the State 
Department's watch list after intelligence information was 
received indicating that he may have gotten explosive and car 
bomb training in Afghanistan.
    In August, 2001, that same individual applied for a visa to 
reenter the United States and, as a result of the watch 
listing, was denied entry.
    In May, 2001, the Phoenix agent became increasingly 
concerned by the number of individuals of potential 
investigative interest enrolled in aviation training. At that 
point, he began to draft the EC, which focuses on 10 
individuals who were the subjects of FBI investigations. Not 
all were in flight training. Several were aeronautical 
engineering students, and one was studying international 
aviation security.
    One of the individuals under investigation was the primary 
focus of the Phoenix EC. That individual was a member of the 
al-Muhajiroun, whose spiritual leader was a strong supporter of 
bin Ladin and who had issued a number of fatwas against the 
United States, one mentioning airports as a possible target.
    The subject of the Phoenix investigation was taking 
aviation-related security courses. As a member of the al-
Muhajiroun, he was organizing anti-U.S. and anti-Israeli 
rallies and calling for Jihad.
    The investigation of this individual led to the opening of 
investigations on six of his associates also involved in 
aviation training.
    We asked the Phoenix agent whether he had received any 
intelligence from FBI headquarters or from other Intelligence 
Community agencies that contributed to the suspicions he raised 
in the EC. According to the agent, the Phoenix office did not 
receive FBI, Intelligence Community or foreign intelligence 
service products on a regular basis. He told us that he 
believes that, prior to September 11, 2001, the FBI was not 
running counterterrorism as a national level program. He often 
has felt that he is ``out on an island'' in Phoenix.
    He said that, prior to headquarters downsizing, the FBI 
used to do a better job of disseminating intelligence products 
to the field. He does not believe that sufficient resources are 
devoted to counterterrorism, even though it is officially a 
Tier 1 program. In his words, counterterrorism and 
counterintelligence have always been considered ``the bastard 
stepchild'' of the FBI, because these programs do not generate 
the statistics that other programs do.
    The Phoenix EC requested that FBI headquarters consider 
implementing four recommendations: One, headquarters should 
accumulate a list of civil aviation university colleges around 
the country; two, FBI officers should establish liaison with 
those schools; three, headquarters should discuss the Phoenix 
theories with the Intelligence Community; and, four, 
headquarters should consider seeking authority to obtain visa 
information on individuals seeking to attend flight schools.
    On July 30, 2001, an intelligence assistant in the Radical 
Fundamentalist Unit, or RFU, at FBI headquarters assigned the 
lead on the Phoenix EC to an intelligence operations 
specialist. The RFU IOS, in turn, contacted an IOS, 
intelligence operations specialist, in the Usama bin Ladin Unit 
to effect a transfer.
    The UBLU IOS then consulted two other operations 
specialists, intelligence operations specialists, in her unit. 
Their discussions centered on the legality of the visa 
information proposal and whether it raised profiling issues.
    On August 7, 2001, the EC was forwarded to an intelligence 
analyst in the Portland office stating that the document 
``basically puts forth a theory on individuals being directed 
to come here to study aviation and their ties to extremists. 
Nothing concrete or whatever, but some very interesting 
coincidences. I thought it would be interesting to you, 
considering some of the stuff you were coming up with in PD, 
Portland. Let me know if anything strikes you.''
    The Portland analyst has said that she had spoken to the 
IOS at the Usama bin Ladin Unit on several occasions about the 
aviation-related ties of terrorist subjects in the Portland and 
Seattle areas. She did not take action on the communication or 
disseminate it any further, as it was only sent to her for 
informational purposes.
    On August 7, 2001, both IOSs decided that the lead should 
be closed. In the electronic system, the RFU IOS noted that the 
lead was, ``covered, consulted with UBLU, no action at this 
time, will reconvene on this issue.''
    The UBLU IOS maintains that she fully intended to return to 
the project once she had time to do additional research but 
that September 11 occurred and she had not yet had an 
opportunity to do so.
    Both IOSs also said that they considered assigning the 
Phoenix project to a headquarters analytic unit but decided 
against it. In an interview with the supervisory agent in the 
UBLU, the staff was told that the EC should have been assigned 
to an analytic unit, because it was a long-term, labor-
intensive suggestion and that analytic units would have more 
time to devote to it than the operational units.
    The chiefs of both the RFU and the UBLU informed the staff 
that they did not see the Phoenix communication prior to 
September 11. Moreover, neither remembers even hearing about 
the flight school issue until after September 11.
    The manner in which FBI headquarters handled the Phoenix EC 
provides a valuable window into the FBI's operational 
environment prior to September 11 and illustrates several 
procedural weaknesses that have been recognized and are 
currently being addressed.
    The manner in which the EC was handled demonstrated how 
strategic analysis took a back seat to operational priorities 
prior to September 11. That many in the U.S. Government 
believed an attack of some type was imminent in the summer of 
2001 apparently only served to further de-emphasize strategic 
analysis.
    For example, the IOS handling the Phoenix EC was primarily 
concerned with an individual in the EC who was connected to 
individuals arrested overseas. The IOS paid less attention to 
the flight school theories. For his part, the RFU chief said he 
was seeing about 100 pieces of mail daily and could not keep 
up. His solution was to assign the review of intelligence 
reports to his IOS.
    Even the analytic unit responsible for strategic analysis 
was largely producing tactical products to satisfy the 
operational section. In fact, there was no requirement to 
handle projects with nationwide impact, such as Phoenix, any 
different than any other project. This now has been changed. 
Any lead of the types such as Phoenix presented must now be 
raised to the section chief level.
    The handling of the Phoenix EC also exposed information-
sharing problems between FBI headquarters elements. A number of 
analysts commented that the UBLU and the RFU frequently do not 
share information with the international terrorism analytic 
unit. Had the project been transferred to the analytic unit, 
the capability to conduct strategic analysis on al-Qa'ida was 
limited, because five of the unit's analysts had transferred 
into operational units.
    The handling of the Phoenix EC also illustrates the extent 
to which technological limitations affect information flow at 
the FBI. A number of individuals who were addressees on the EC 
stated that they did not see it prior to September 11. The 
FBI's electronic system is not designed to ensure that all 
addressees on a communication actually receive it.
    Furthermore, the system is capable of recognizing units 
only if they are precisely designated in the lead section. 
Otherwise, a unit would not receive the communication. In fact, 
the electronic system was considered so unreliable that many 
FBI personnel, both at the field offices and at headquarters, 
used e-mail instead.
    Several FBI personnel interviewed conceded that it was 
possible that routine leads on which there was no direct 
communication were falling through the cracks. The joint 
inquiry staff has been informed that the FBI recently 
determined that there are 68,000 outstanding and unassigned 
leads assigned to the counterterrorism division dating back to 
1995.
    Since many FBI personnel have not been using the electronic 
system for these purposes, it is difficult to know how many of 
these leads have actually been completed. We are told that the 
counterterrorism division's management is currently looking 
into this situation.
    FBI officials have noted, both in public statements and in 
Congressional testimony, that the September 11 hijackers did 
not associate with anyone of investigative interest. However, 
there is some evidence that hijacker Hani Hanjour, who was 
unknown to the Intelligence Community and law enforcement 
agencies prior to September 11, 2001, was an associate of an 
individual mentioned in the Phoenix EC. This individual had 
been engaged in flight training in the United States, and the 
FBI believed that he was possibly a radical fundamentalist.
    The FBI believes that as early as 1997 Hanjour and the 
individual named in the Phoenix EC trained together at a flight 
school in Arizona. Several instructors at the flight school say 
that they were associates, and one thinks that they may have 
carpooled together. The FBI has confirmed at least five 
occasions when the Phoenix subject and Hanjour were at the 
flight school on the same day.
    On one occasion in 1999, the flight school logs indicate 
that Hanjour and this individual used the same plane. According 
to the flight instructor, the individual mentioned in the EC 
was there as observer. The rules of the school were such that 
for this individual to observe, Hanjour would have had to 
approve of his presence in the aircraft.
    Another individual informed the FBI that this individual 
named in the EC and Hanjour knew each other both from flight 
training and through a religious center in Arizona.
    The FBI's evidence linking the two in the summer of 2001 is 
not as strong.
    The FBI has located records from the flight school in 
Phoenix indicating that on one day in June, 2001, Hanjour and 
several other individuals signed up to use the Cessna 
simulator. The next day, the two individuals who signed up with 
Hanjour the previous day came to the facility with the 
individual mentioned in the Phoenix EC.
    Another employee of the flight school has placed Hanjour 
and the individual together during that time frame, although 
she was not completely confident in her identification. The FBI 
attempted to investigate this individual in May of 2001, but 
discovered that he was out of the country. The FBI was 
apparently unaware that he had returned to the United States 
soon after and may have been associating with Hanjour and 
several other Islamic extremists.
    A Phoenix agent told the staff that, had the individual 
been in the country in May of 2001, they would have opened an 
investigation. However, the Phoenix office generally did not 
open investigations on individuals who they believed had 
permanently left the United States.
    The Phoenix office also did not notify the INS, State 
Department, or the CIA of their interest in this individual.
    No one can say whether the FBI would have developed an 
investigative interest in Hanjour had they opened an 
investigation on the individual mentioned in the Phoenix EC 
prior to September 11. If the hijackers were in fact 
associating with individuals of investigative interest, there 
are more significant questions as to whether or not they should 
have come to the FBI's attention prior to the attacks. These 
associations continued to raise questions about the FBI's 
knowledge and understanding of the radical fundamentalist 
network in the United States prior to September 11.
    The Phoenix EC was not the first occasion that the FBI had 
been concerned about terrorist groups sending individuals to 
the United States for aviation study. Neither the individual 
involved in drafting the Phoenix EC nor the FBI personnel who 
worked on it at headquarters were aware of this broader 
context.
    In March, 1983, the INS published a rule in the Federal 
Register terminating the non-immigrant status of Libyan 
nationals or individuals acting on behalf of Libyan entities 
engaged in aviation ornuclear-related education. The INS turned 
to the FBI for assistance in locating any such individuals.
    In May of 1983, FBI headquarters sent a ``priority'' 
communication to all field offices asking them for assistance 
in complying with the INS request. The joint inquiry staff has 
not been able to locate all of the relevant records, so it is 
not clear how many students the FBI located and deported.
    In 1998, the chief pilot of the FBI's Oklahoma City field 
office contacted an agent on the counterterrorism squad to 
inform him that he had observed large numbers of Middle Eastern 
males at Oklahoma flight schools. An intraoffice communication 
to the counterterrorism squad noted the chief pilot's concern 
that the aviation education might be related to planned 
terrorist activity and his speculation that light planes would 
be an ideal means of spreading chemical or biological agents.
    The communication was sent to the office's weapons of mass 
destruction control file. It appears to have been for 
informational purposes only. There is no indication that any 
follow-up action was either requested or conducted.
    The FBI also received reporting in 1998 that a terrorist 
organization might be planning to bring students to the United 
States for training at flight schools.
    The FBI was aware that individuals connected to the 
organization had performed surveillance and security tests at 
U.S. airports and made comments suggesting an intention to 
target civil aviation. There is no indication that the 
organization actually followed through on their plans.
    In 1999, reporting was received that yet another terrorist 
organization was planning to send students to the United States 
for aviation training. The purpose of this training was 
unknown, but the terrorist organization leaders viewed the 
requirement as being ``particularly important,'' and were 
reported to have approved an open-ended amount of funding to 
ensure its success.
    In response, an operational unit in the counterterrorism 
section at FBI headquarters sent a communication to 24 field 
offices asking them to pay close attention to Islamic students 
in their area from the target country who were engaged in 
aviation training.
    The communication requested that field offices ``task 
sources, coordinate with the INS, and conduct other logical 
inquiries in an effort to develop an intelligence baseline'' 
regarding this terrorist group's use of students.
    To date, we have found no indication that the FBI field 
offices conducted any investigation after receiving the 
communication.
    In November of 1999, the FBI sent a letter to INS 
explaining the intelligence and requesting a database search 
for individuals studying in the United States from the target 
country. According to interviews, the INS never provided any 
information in response to the request.
    The project was subsequently assigned to the international 
terrorism analytic unit at FBI headquarters. The analyst 
assigned to the project determined that there were 75 academic 
institutions offering flight education in the United States and 
an additional 1,000 flight schools.
    In November, 2000, the analyst sent a communication to the 
FBI field offices informing them that no information was 
uncovered concerning this terrorist group's recruitment of 
students studying aviation and stated that ``further 
investigation by FBI field offices is deemed imprudent'' by FBI 
headquarters.
    The former unit chief of the operational unit involved in 
this project told the joint inquiry staff that he was not 
surprised by the apparent lack of vigorous investigative action 
by the field offices. In his opinion, the field offices did not 
like to undertake difficult, labor-intensive projects like this 
with a high risk of failure. He told us that the FBI's culture 
often prevented headquarters from forcing field offices to take 
investigative action that they were unwilling to take.
    The Phoenix EC was also sent to two investigators in the 
FBI's New York field office who specialized in Usama bin Ladin 
cases. They were asked to ``read and clear'' but were not asked 
to take any follow-up action.
    A joint inquiry staff audit of electronic records shows 
that at least three people in New York saw the EC prior to 
September 11. It does not appear to have received much 
attention or elicited much concern. Two of the three do not 
recall the communication prior to September 11. The third 
remembered reading it but said it did not resonate with him 
because he found it speculative.
    The New York agents stated that they were well aware that 
Middle Eastern men frequently came to the United States for 
flight training. A communication noting that Middle Eastern men 
with ties to bin Ladin were receiving flight training in the 
United States would not necessarily be considered particularly 
alarming because New York personnel knew that individuals 
connected to al-Qa'ida had previously received flight training 
in the United States.
    In fact, one of these individuals trained at the Airman 
flight school in Norman, Oklahoma, the same place where 
Zacarias Moussaoui trained prior to his arrival in Minnesota. 
Mohammed Atta and another of the hijackers visited this same 
flight school but decided not to enroll there. The commonly 
held view at the FBI prior to September 11 was that bin Ladin 
needed pilots to operate aircraft he had purchased in the 
United States to move men and material.
    Mr. Chairman, I also will now turn to the investigation by 
the FBI of Zacarias Moussaoui.
    Zacarias Moussaoui also first came to the attention of the 
FBI during the summer of 2001----
    Chairman Goss. Ms. Hill, may I interrupt for a moment, 
please?
    Ms. Hill. Yes.
    Chairman Goss. We are advised that there is a vote on in 
the Senate. I yield to Senator Graham.
    Chairman Graham. Ms. Hill, would this be an appropriate 
place to break for the members of the Senate to be able to make 
this vote?
    Ms. Hill. Yes, Mr. Chairman, I think so, because I am about 
to start on the Moussaoui case.
    Chairman Graham. Then I would recommend to our Senate 
members that we vote and return as expeditiously as possible.
    Chairman Goss. Because we want all members to hear the 
opening presentation and the opening statements of the 
witnesses we will have later, we will be in recess until the 
return of the Senate.
    Ms. Hill. Thank you, Mr. Chairman.
    [Recess.]
    Chairman Goss. The Committee will please come back to order 
and we will continue the hearing which has been suspended for 
the vote of the Senate. I note that two of the big four are 
back.
    I also would like to with great pride take a moment of 
privilege and introduce to our colleagues on both sides the 
leadership tomorrow from southwest Florida. We have about 25 of 
the students and seniors who are up here with the Congressional 
Classroom who are observing this hearing for a while this 
morning, and these folks worked hard to get here. They will be 
here for a week following Members around, learning about the 
Executive branch and so forth. It is an excellent idea, and I 
urge other colleagues to consider it. It is the most rewarding 
thing I think I do as a Member of Congress to have the 
privilege of hosting these folks and following up with them. We 
have been doing it for 14 years, and many of them have gone on 
to be great leaders. So it is a useful thing.
    If any other of the Members have similar groups here, we 
will be glad to recognize them as we go along.
    Returning to the business at hand, Ms. Hill.
    Ms. Hill. Thank you, Mr. Chairman. Zacarias Moussaoui also 
first came to the attention of the FBI during the summer of 
2001, at a time when the Intelligence Community was detecting 
numerous indicators of an impending terrorist attack against 
U.S. interests. Moussaoui has been indicted and faces a 
criminal trial this fall. Among other things, Moussaoui has 
been charged with Federal charges of conspiracy to commit 
aircraft piracy ``with the result that thousands of people died 
on September 11, 2001.''
    In order to avoid affecting the course of that proceeding, 
the Joint Inquiry Staff has limited the amount of detail in 
this presentation while attempting to provide a general 
understanding of the facts of the investigation, and I want to 
take just a moment to update the members of the committees on 
where we are regarding the limitations on what we can say about 
the Moussaoui case vis-a-vis the criminal trial that is pending 
in Alexandria.
    We had been working very closely with the Justice 
Department, and this is not a classification issue. This was 
over and above the review of the statement because of 
classification issues. We have been working very closely with 
the Justice Department to ensure that in no way we prejudice 
Mr. Moussaoui's right to a fair trial in the criminal case, and 
as of last Friday, the Justice Department--I believe it was 
last Friday--the Justice Department had filed a motion with 
Judge Brinkema, who is presiding over the criminal case, to 
clarify what the FBI witnesses who will be here this morning 
when I finish to testify can and cannot say in their testimony 
about the Moussaoui case.
    And the concern was that under the local rule 57 in the 
Federal Court in Virginia they would be prohibited from talking 
about some very broad categories of information, including--and 
I will just mention a few--obviously anything that would 
comment on Mr. Moussaoui's guilt or innocence, anything that 
would reveal what trial witnesses would be testifying to, 
statements of witnesses and also anything relating to 
statements of the defendant himself, Mr. Moussaoui.
    The Justice Department had asked the court to clarify to 
what degree that would limit the witnesses' ability to answer 
questions, and basically had asked that the court clarify those 
limitations so that we would know how to proceed this morning.
    The joint committees responded and did file a written 
response in the court on Monday, which was yesterday, and we 
had assumed--we were trying to be cautious in proceeding by 
deleting a lot of the material in this statement that pertained 
to Moussaoui's statements, or witness statements.
    Last night, late in the day, we received a written order 
from Judge Brinkema, who had ruled on the Justice Department 
motion and our response, and I will read it to you--it is only 
a three-page order. It was signed by her yesterday, but the 
important and pertinent part of it is the statement which 
responds to what witnesses can and cannot say in these hearings 
about the Moussaoui case, The joint inquiry made clear in its 
August 5th, 2002 letter to the Assistant Attorney General for 
the criminal division the limited parameters of the inquiry and 
has reiterated in its reply that the committees will not ask 
witnesses to comment about the merits of the case.''
    Indeed, the questions are expected to focus on--and this is 
quoting from our motion--``what government officials heard, 
observed, reasoned, recommended and acted on or did not act on 
prior to September 11.'' The committees are not interested in 
``expressions of current judgment from government witnesses 
about the defendant's guilt or innocence or the government's 
plans for presenting its case.''
    And this is the pertinent part. The judge ruled, ``given 
the ground rules articulated by the joint inquiry, FBI 
personnel should have no difficulty responding to Congress's 
questions without violating local rule 57 or any other order of 
this court. Accordingly, the renewed expedited motion for 
clarification is denied.''
    So Judge Brinkema, as of last night, has, I think, made it 
clear that the witnesses are free to answer questions about--a 
quote from her order--``what government officials heard, 
observed, reasoned, recommended and acted on or did not act on 
prior to September 11.''
    Obviously--and she mentions this in the order, and we had 
represented to her--we are not asking the witnesses to come and 
testify on whether or not they believe Mr. Moussaoui is 
innocent or guilty or on the merits of the criminal case or 
plans for presenting evidence in the criminal case, but to the 
extent we can go into what people knew or heard or did prior to 
the 11th without talking about the merits of the case, I 
believe the judge has pretty clearly stated that that is 
permissible and would not violate the local rule.
    My only other caveat is that our statement included more 
detail which was taken out before this order was entered, and 
so we will probably, at a later date, now go back and try for 
the record to reinsert some of the detail that was in here, 
consulting with the Department of Justice on that.
    Mr. Chambliss. Mr. Chairman, could we get a copy of the 
judge's order disseminated to all members before we begin an 
examination?
    Chairman Goss. I believe in fact there was some effort to 
get them in the book. I am not sure it is the full order. Is 
there a tab?
    Ms. Hill. I believe it is----
    Mr. Chambliss. In the book.
    Chairman Goss. This just came in. I believe most of the 
books were updated.
    Ms. Hill. It is only a three-page order, and, Mr. Chairman, 
I would also ask that we make this part of the record, the 
judge's order.
    [The information referred to follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Senator Levin. Mr. Chairman.
    Chairman Goss. Yes, sir.
    Senator Levin. Mr. Chairman, when the material is 
reinserted and then put in the record, could Ms. Hill give us a 
copy of the reinsertion, highlighting the material which has 
been reinserted which was not in her report which she is 
presenting today.
    Chairman Goss. The answer to that, Senator, is yes. In 
fact, the principals have discussed a way to do that this 
morning and make sure everybody understands what has been of 
particular interest to us which we are now free to highlight 
again.
    Ms. Hill. All right. With that caveat, I will proceed to 
read the highlights of the statement.
    Our review of the FBI's investigation to date has 
identified three issues in particular to which I will draw 
Members' attention--the differences in the way the FBI field 
offices and headquarters components analyzed and perceived the 
danger posed by the facts uncovered during the FBI's 
investigation of Moussaoui prior to September 11; the tools 
available to the FBI under the Constitution and laws of the 
United States to investigate that danger, notably, the Foreign 
Intelligence Surveillance Act, FISA, and whether FBI personnel 
were well organized and informed about the availability of 
those tools; and whether the substance, clarity and urgency of 
the threat warning provided by the FBI to other parts of the 
Intelligence Community corresponded to the danger that had been 
identified.
    The FBI's focus at the time Moussaoui was taken into 
custody appears to the staff to have been almost entirely on 
investigating specific crimes and not on identifying linkages 
between separate investigations or on sharing information with 
other U.S. Government agencies with counterterrorist 
responsibilities. No one at FBI headquarters apparently 
connected Moussaoui, the Phoenix memo, the possible presence of 
Khalid al-Mihdhar and Nawaf al-Hazmi in the United States and 
the flood of warnings about possible terrorist attacks during 
the summer of 2001.
    The staff has determined that Moussaoui contacted the 
Airman Flight School in Norman, Oklahoma on September 29, 2000 
and expressed interest in taking lessons to fly a small Cessna 
aircraft. On February 23, he entered the United States at 
Chicago's O'Hare Airport, traveling on a French passport that 
allowed him to stay in the United States with a visa for 90 
days. On February 26, he began flight lessons at Airman Flight 
School. On August 11, 2001, Moussaoui and his roommate, Hussein 
al-Attas, arrived in Egan, Minnesota and checked into a hotel. 
Moussaoui began class at Pan Am Flight School there on August 
13, 2001.
    While Airman Flight School provided flight lessons in 
piloting Cessnas and similar small aircraft, Pan Am Flight 
School provided ground training and access to a Boeing 747 
flight simulator used by professional pilots. Most of Pan Am's 
students are either newly-hired airline pilots who use the 
flight simulator for initial training or are active airline 
pilots who use the equipment for an update or a refresher 
training.
    Although anyone can sign up for lessons at Pan Am, the 
typical student has a pilot's license, is employed by an 
airline and hasseveral thousand flight hours. Moussaoui had 
none of these qualifications.
    Based on concerns expressed by a private citizen, the FBI's 
Minneapolis field office opened an international terrorism 
investigation of Moussaoui on August 15, 2001. Agents of the 
INS share space and worked closely with the FBI in Minneapolis 
and were able to immediately determine that Moussaoui had been 
authorized to stay in the United States only until May 22. 
Thus, Moussaoui was out of status at the time, August, that the 
FBI began investigating him.
    On the same day, the Minneapolis field office learned about 
Moussaoui, it asked both the CIA and the FBI's legal attache in 
Paris for any information they had or could get on Moussaoui. 
They also informed FBI headquarters of the investigation. The 
supervisory agent in Minneapolis told the joint inquiry staff 
that FBI headquarters had suggested that Moussaoui be put under 
surveillance but that Minneapolis did not have enough agents to 
do that. The Minneapolis agents also believed that it was more 
important to prevent Moussaoui from getting any additional 
flight training.
    After Moussaoui's detention, the Minneapolis supervisory 
agent called the office's legal counsel and asked if there was 
any way to search Moussaoui's possessions without his consent. 
He was told he had to obtain a search warrant. Over the ensuing 
days, the Minneapolis agents considered several alternatives, 
including trying to obtain a criminal search warrant, seeking a 
search warrant under FISA and deporting Moussaoui to France 
after arranging for French authorities to search his 
possessions and share their findings with the FBI.
    On Saturday, August 18, Minneapolis sent a detailed 
memorandum to FBI headquarters. That memorandum described the 
Moussaoui investigation and stated that it believed that 
Moussaoui posed a threat. The joint inquiry staff has been told 
that FBI headquarters advised against trying to obtain a 
criminal search warrant, as that might prejudice any subsequent 
efforts to try to get a search warrant under FISA.
    Under FISA, a search warrant could be obtained if they 
could show there was probable cause to believe Moussaoui was an 
agent of a foreign power and either engaged in terrorism or was 
preparing to engage in terrorism.
    FBI headquarters was concerned that if a criminal warrant 
was denied and then the agents tried to get a warrant under 
FISA, the court would think the agents were trying to use 
authority for an intelligence investigation to pursue a 
criminal case. Minneapolis also wanted to notify the criminal 
division about Moussaoui through the local U.S. attorney's 
office, believing it was obligated to do so under Attorney 
General guidelines that require notification where there is 
``reasonable indication'' of a felony. FBI headquarters advised 
Minneapolis that they did not have enough evidence to warrant 
notifying the criminal division.
    The FBI case agent in Minneapolis had become increasingly 
frustrated with what he perceived as a lack of assistance from 
the radical fundamentalist unit, RFU, at FBI headquarters. He 
had had previous conflicts with the RFU over FISA issues and 
believed headquarters was not being responsive to the threat 
Minneapolis had identified.
    The Minneapolis case agent contacted an FBI official who 
was detailed to the CTC. The Minneapolis agent shared the 
details of the Moussaoui case with him and provided the names 
of associates that had been connected to Moussaoui. The 
Minneapolis case agent has told the staff that he was looking 
for any information that CTC could provide that would 
strengthen the case linking Moussaoui to international 
terrorism.
    On August 21, 2001, the case agent sent an e-mail to the 
supervisory special agent in the RFU who was handling this 
matter, urging that the United States Secret Service in 
Washington, DC. be apprised of the threat potential there 
indicated by the evidence. The RFU agent to whom the e-mail was 
addressed said that he told the Minneapolis agent that he was 
working on a notification to the entire Intelligence Community, 
including the Secret Service about the threat presented by 
Moussaoui.
    The RFU's supervisory agent sent a teletype on September 4, 
2001 recounting the FBI's interviews of Moussaoui and al-Attas 
and other information it had obtained in the meantime. The 
teletype, however, did not place Moussaoui's actions in the 
context of the increased level of terrorist threats during the 
summer of 2001, nor did it provide its recipients with any 
analysis of Moussaoui's actions or plans or information about 
what type of threat he may have presented.
    On Wednesday, August 22, the legal attache's office in 
Paris provided its report. That report began a series of 
discussions between Minneapolis and the RFU at headquarters 
focusing on whether a specific group of Chechen rebels were a 
recognized foreign power, one that was on the State 
Department's list of terrorist groups and for which the FISA 
court had previously granted orders.
    The RFU agent believes that the Chechen rebels were not a 
recognized foreign power, and that even if Moussaoui were to be 
linked to them, the FBI could not obtain a search warrant under 
FISA. Thus, the RFU agent told the Minneapolis agents that they 
needed to somehow connect Moussaoui to al-Qa'ida, which he 
believed was a recognized foreign power.
    Unfortunately, this dialogue was based on a 
misunderstanding of FISA. The FBI's deputy general counsel told 
the joint inquiry staff that the term ``recognized foreign 
power'' has no meaning under FISA and that the FBI can obtain a 
search warrant under FISA for an agent of any international 
terrorist group, including the Chechen rebels. But because of 
this misunderstanding, Minneapolis spent the better part of 
three weeks trying to connect the Chechen group to al-Qa'ida. 
Ultimately, the RFU agent agreed to submit the Minneapolis FISA 
request to the attorneys and the FBI's national security law 
unit for a review.
    The FBI attorneys advised the RFU agent that the evidence 
was insufficient to link Moussaoui to a foreign power. 
Attorneys told our staff that if they had been aware of the 
Phoenix memo, they would have forwarded the FISA request to the 
Justice Department's Office of Intelligence Policy Review. They 
reasoned that the particulars of the Phoenix memo changed the 
context of the Moussaoui investigation and made a stronger case 
for the FISA warrant. None of them saw the Phoenix memo before 
September 11.
    Two FBI agents assigned to the Oklahoma City field office's 
international terrorism squad visited Airman Flight School in 
Norman, Oklahoma regarding Moussaoui on August 23. In September 
of 1999, one of those agents had been assigned a lead to visit 
the same flight school concerning another individual who had 
been identified as bin Ladin's personal pilot and who had 
received flight training at Airman. Although the agent told us 
that he thought that this lead had been the most significant 
information he had seen in Oklahoma City, the agent did not 
remember the lead when he returned to the flight school two 
years later to ask questions about Moussaoui. He said that he 
should have connected the two visits, but that he did not have 
the time to do so.
    During a conversation on August 27, 2001, the RFU unit at 
headquarters told the Minneapolis supervisor that the 
supervisor was getting people ``spun up'' over Moussaoui. 
According to his notes and his statement to the joint inquiry 
staff, the supervisor replied that he was trying to get people 
at FBI headquarters spun up because he was trying to make sure 
that Moussaoui ``did not take control of a plane and fly it 
into the World Trade Center.''
    The Minneapolis agent said that the headquarter's agent 
told him, ``That is not going to happen. We don't know he is a 
terrorist. You don't have enough to show he is a terrorist. You 
have a guy interested in this type of aircraft. That is it.''
    The headquarter's agent does not remember this exchange.The 
Minneapolis supervisor told the staff that he had no reason to believe 
that Moussaoui was planning an attack on the World Trade Center. He was 
merely trying to get headquarter's attention.
    On August 28, 2001 after reviewing the request for a search 
warrant, the RFU agent edited it and returned the request to 
Minneapolis for comment. The RFU agent says that it was not 
unusual for headquarter's agents to make changes to field 
submissions, in addition to changes made by the NSLU and OIPR. 
The major substantive change that was made but was the removal 
of information about connections between the Chechen rebel and 
al-Qa'ida.
    After the edit was complete, the RFU agent briefed the FBI 
deputy general counsel. The deputy general counsel told the 
joint inquiry staff that he agreed with the RFU agent that 
there was insufficient information to show that Moussaoui was 
an agent of a foreign power. After that briefing, the RFU agent 
told Minneapolis that the information was even less sufficient 
than he had previously thought, because Moussaoui would 
actually have to be shown to be a part of a movement or an 
organization.
    After concluding that there was insufficient information to 
show that Moussaoui was an agent of any foreign power, the 
FBI's focus shifted to arranging for Moussaoui's planned 
deportation to France on September 17. Although the FBI was no 
longer considering a search warrant under FISA, no one 
revisited the idea of attempting to obtain a criminal search 
warrant, even though the reason for not attempting to obtain a 
criminal search warrant, the concern that it would prejudice a 
request under FISA, no longer existed.
    On Thursday, September 4, 2001, FBI headquarters sent a 
teletype to the Intelligence Community and other U.S. 
Government agencies, including the FAA, providing information 
about the Moussaoui investigation. The teletype noted that 
Moussaoui was being held in custody but did not describe any 
particular threat that the FBI thought he posed, for example, 
whether he might be connected to a larger plot. The teletype 
also did not recommend that the addressees take any action or 
look for any additional indicators of a terrorist attack, nor 
did it provide any analysis of a possible hijacking threat or 
provide any specific warnings.
    The following day, the Minneapolis case agent hand-carried 
the teletype to two employees of the FAA's Bloomington, 
Minnesota office, and orally briefed them on the status of the 
investigation. The two FAA employees told our staff that the 
FBI agent did not convey any sense of urgency about the 
teletype and did not ask them to take any specific action 
regarding Moussaoui. He just wanted to be sure the FAA had 
received the cable.
    The final preparations for Moussaoui's deportation were 
under way when the September 11 attacks occurred.
    And I want to just add, in conclusion, a few comments. The 
staff has described three series of events pertaining to al-
Mihdhar and al-Hazmi, the Phoenix EC and Zacarias Moussaoui, 
each of which raises significant questions in their own right. 
In the wake of the September 11 attack, they also illustrate 
the danger of seeing events in isolation from each other. In 
our view, taken together, they clearly demonstrate how our 
counterterrorist efforts must be based on comprehensive and 
current understanding of the overall context in which terrorist 
networks like al-Qa'ida operate.
    During last week's hearing, we focused on the story 
involving al-Mihdhar and al-Hazmi and the problems which it 
illustrated about the use of information derived from 
intelligence-gathering activities in criminal investigations.
    This morning I want to comment on the two matters we 
discussed in today's testimony. The second matter, the Phoenix 
EC, also illustrates the Intelligence Community's strength and 
weaknesses. An FBI agent perceived amidst a perfusion of cases 
that terrorists could use the well-developed system of flight 
training education in the United States to prepare an attack 
against us. The field agent understood that it was necessary to 
go beyond individual cases and to undertake an empirical 
analysis broader than the geographic limits of a single field 
office. The idea was submitted to FBI headquarters, where, for 
a variety of reasons, it generated almost no interest.
    First, no one gleaned from the FBI's own records that 
others at the Bureau had previously expressed concerns about 
possible terrorists at U.S. flight education institutions. 
Second, anticipating future threats has not been a significant 
part of the FBI's general approach to its work. Third, the 
highest levels of the Intelligence Community have not 
communicated effectively to their personnel the critical 
importance of analyzing information in light of the growing 
awareness of an impending terrorist attack in the summer of 
2001.
    Finally, FBI management did not perceive it would be useful 
to simply alert others at the FBI to the danger that one of its 
field offices had perceived. As for the third matter, one can 
see in the pre-September 11 handling of the case of Zacarias 
Moussaoui a myopic focus within both the FBI and the DCI's CTC 
on the case at hand. An FBI field agent and his supervisor saw 
a potential threat, were concerned about the possibility of a 
larger plot to target airlines and reported their concerns to 
FBI headquarters.
    The Moussaoui information was also shared with the DCI's 
CTC, but neither FBI headquarters nor the DCI's CTC linked this 
information to warnings emanating from the CTC in the summer of 
2001 about an impending terrorist attack, nor did they see a 
possible connection to information available on August 23, 2001 
that bin Ladin operatives had entered the United States. The 
same unit at FBI headquarters also had the Phoenix EC, but 
still did not sound any alarm bells.
    No one will ever know whether a greater focus on the 
connection between these events would have led to the 
unraveling of the September 11 plot, but clearly it might have 
drawn greater attention to the possibility of a terrorist 
attack within the United States, generated a heightened state 
of alert regarding such attacks and prompted more aggressive 
investigation and intelligence gathering regarding the 
information that our government did possess prior to September 
11.
    Mr. Chairman, that concludes my statement this morning. 
Thank you.
    Chairman Goss. Thank you very much, Ms. Hill. The Members 
are well advised that the full statement is in their book under 
tab 2 as well, and it is certainly worth reading closely more 
than once.
    At this time I want to advise Members that, to accommodate 
other matters, we will recess for a luncheon break between 
12:30 and 2:00 today--more or less those times. We will try to 
break the questioning off at a reasonable time very close to 
12:30, and ask Members please to be back here at 2:00. I know 
there will be a lot of questions.
    Additionally, I didn't want to take a chance on up-staging 
the Chairman from the Senate side, so it is my pleasure to 
introduce the former First Lady of Florida and the forever 
First Lady of Chairman Graham, Adele Graham, who is with us 
today and their daughter Susan.
    We are going to give them a quiz on this at the end of the 
day and find out how we did. Thank you very much for being with 
us, Adele.
    At this time, I ask unanimous consent that the hearing 
stand in recess at the call of the Chair and request that the 
press, the public and any other unauthorized persons leave the 
room so that it may be prepared for our next panel.
    Due to sensitivities related to the responsibilities at the 
FBI, our three witnesses today will testify while sitting 
behind an opaque screen. All cameras will have to be relocated 
so as to show photography only from the audience side of the 
screen. Before the press leaves, I request that the room be 
arranged and cameras located in a manner that the witnesses 
cannot be seen by the public or press.
    What I have basically just said is we are going to clear 
the room, put the screen in place and bring the witnesses in, 
and then we will be very happy to readmit our guests. And Mrs. 
Graham, I apologize for welcoming you and then asking you to 
leave. So we will be suspended until the room is right, and I 
ask everybody's cooperation.
    [Recess.]
    Chairman Goss. The screen works extremely well. I cannot 
see around it. Are we prepared to continue?
    Thank you. The hearing of the Joint Inquiry is now called 
back to order. I would now like to introduce our next panel and 
describe the circumstances of this portion of our hearing. Our 
three witnesses are all from the FBI and will remain shielded 
by the screen. None of these witnesses will be addressed by 
name but should be referred to by their job titles which we 
have just gone through. There is a Phoenix FBI agent, an FBI 
headquarters supervisor and a Minneapolis FBI agent.
    The committees have agreed to limit their public exposure 
as much as possible due to their roles in sensitive matters and 
the extraordinary work they do protecting our country.
    Each of our committees has adopted a supplemental rule for 
this joint inquiry that all witnesses shall be sworn. I will 
ask the witnesses to raise their right hand.
    [Witnesses sworn.]
    Chairman Goss. Let the record so indicate.
    I have been advised that if Mr. Bowman and Mr. Rolince 
intend to answer any questions, they will also have to be 
sworn. Will you please raise your right hands.
    [Witnesses sworn.]
    Chairman Goss. Thank you very much, gentlemen.
    Are there any other representatives of the FBI today who 
would wish to be publicly identified at this time? Not that we 
know of. Thank you, then.
    I think we have had enough explanation about the rules 
here, so I am going to bypass this. If there are any further 
people that we need to have testify, we will need to advise 
them that they will have to be sworn in as well.
    The prepared statements of the witnesses will be placed in 
the record of these proceedings. I will now call on our 
witnesses for their prepared testimony, which I direct Members 
to the books. You will find it there as well. And I will start 
with the Phoenix FBI agent, who will be followed by the 
headquarters FBI supervisor, who will be followed by the 
Minneapolis field agent. Gentlemen, we welcome you. Please 
proceed.

               TESTIMONY OF AN FBI PHOENIX AGENT

    FBI Phoenix Agent. Thank you. Messieurs Chairman, members 
of the committee, let me begin by saying I am aware that 
Congress has the responsibility, duty and obligation to oversee 
and critique the performance of the Nation's intelligence 
services. I greatly respect your responsibilities in this 
regard and believe your inquiry will result in changes to our 
intelligence services that will make them better and stronger. 
I do, however, take exception and have problems with the manner 
in which classified information and the identities of FBI 
special agents have been exposed to the public.
    Terrorism cases such as the investigation that led to my 
authoring of the July 10, 2001 electronic communication are 
typically classified secret in their entirety. Various 
intelligence sources and methods are utilized while conducting 
these sensitive investigations. FBI special agents assigned to 
work these matters involve themselves on a daily basis with 
Islamic extremist elements representing various terrorist 
organizations. The very nature of these cases involve 
individuals who do not like the United States or what the 
United States represents, thus making them a threat to the 
national security and a threat to the individual special 
agents.
    Special agents are constantly attempting to recruit human 
sources of information to penetrate the terrorist cells that 
operate in the United States and overseas. Human sources are 
absolutely necessary in order to obtain the intelligence needed 
to identify, penetrate and neutralize the terrorist threat. The 
recruitment of these sources takes a great deal of time and 
effort in order to build a degree of trust between the special 
agent and the source. Good human sources are few and far 
between. The FBI and the United States government need to 
protect these sources in order to encourage others to assist us 
in the war on terrorism.
    During May of 2002, this year, I willingly testified before 
various closed House and Senate committees. I was graciously 
treated by members of these committees. However, I was 
astounded and very disappointed that my identity and the 
classified information I provided was immediately made 
available to the national and international news media. My 
photograph was plastered all over print and television media. 
Reporters from all over the world called my office and my 
residence attempting to get a statement from me. The media 
quickly identified through publicly-available records where I 
lived and showed up at the front door of my residence.
    On one occasion, a reporter from an internationally known 
news magazine confronted my 12-year-old son while he was taking 
out the trash and tried to elicit information from him. This 
incident caused my son great distress and made me very angry. 
The media also identified where my mother and father live and 
attempted to get a statement from them. In short, a circus 
atmosphere was created by the unnecessary release of my 
identity and the classified information I provided to Congress.
    Finally, I have been informed that a documentary appeared 
on the Al-Jazeera news network within the past couple of weeks 
concerning the events surrounding September 11, 2001. Several 
al-Qa'ida leaders were interviewed. My name and photograph was 
also included in this documentary. While the exact contents of 
what was discussed concerning me are currently unknown, I am 
particularly concerned knowing this network is broadcasting my 
name and image throughout the Middle East.
    As a result of the above, despite my longstanding practice 
of not discussing the details of my job with my family due to 
its classified nature, I had to explain to my family and close 
friends what was happening. I explained to them that I did 
nothing wrong and was not solely responsible for the horrific 
events that took place on September 11, 2001. As you can 
imagine, the stress upon my family and myself was tremendous 
and continues until this day.
    On a professional level, the public exposure of my identity 
and the information I provided in closed testimony resulted in 
me having to close valued human intelligence sources who were 
targeting against the subject of the July 10, 2001 electronic 
communication. These individuals took great personal risks to 
their physical security to provide the United States Government 
with information on this subject. I promised them a 
confidential relationship with the United States Government, 
which was broken when my identity and the information they had 
provided was made public and it appeared all over the world.
    The United States Government let these individuals down. 
Various Members of the House and Senate have publicly stressed 
the need for the United States Intelligence Community to 
develop morehuman sources to penetrate the various terrorist 
organizations who want to cause harm to our country and our national 
interests abroad. Congress will make this task very difficult if they 
do not take seriously the classified nature of the intelligence work. 
The protection of intelligence agents, human intelligence sources and 
technical sources should be protected at all costs.
    I believe that the unnecessary disclosure of my identity 
has put the safety of my family and myself at risk. I ask 
myself, what are senior members of al-Qa'ida thinking when they 
see my image in the media. If I were in their position, I would 
be thinking that there must be a source who has penetrated the 
organization. I believe that al-Qa'ida would consider me a 
terrorist target and would want to kill me. Just as I believe 
Congress has the duty and responsibility and obligation to 
oversee and critique the Nation's intelligence services, they 
have an equally important responsibility to protect the 
identities of the Nation's intelligence agents who are 
diligently trying to protect the Nation on a daily basis. I 
feel in this regard Congress has personally failed me as an FBI 
special agent and as an American.
    A Member of Congress a couple months ago invoked 
whistleblower protection for me without my asking for it. I do 
not consider myself a whistleblower. I don't feel nor have I 
ever felt threatened or been mistreated by FBI headquarters 
executive management. On the contrary, FBI headquarters 
executive management has been very supportive of me. While I 
appreciate the Member's concern for my wellbeing, I believe his 
concerns, as well-intentioned as I am sure they were, were 
misdirected. Greater emphasis should have been placed on 
protecting my identity and the information I provided during 
closed sessions. I am not afraid of the FBI, but I am very 
concerned about al-Qa'ida and what they may want to do to me 
and my family. Sadly, I can thank the United States Congress 
for my current situation.
    The horrible events of September 11, 2001 have forever 
changed the way we as a Nation view things. Did the Nation's 
intelligence services fail the Nation prior to September 11? I 
believe they did. Can they do things better? You bet they can, 
once Congress gives the intelligence services the tools and 
resources to accomplish the mission.
    These hearings are extremely important. Congress, during 
these hearings, should be very careful not to divulge the 
identities of the Nation's intelligence officers, sources and 
methods used in collecting the intelligence information, as 
well as the information itself. The Nation is at war, and 
Congress has the responsibility, duty, and obligation to 
protect this type of information.
    This concludes my prepared statement, and I would be 
willing to take any questions.
    Chairman Goss. Thank you very much. We are going to have 
the testimony from your colleagues as well, and then we will go 
into our questioning mode.
    The gentleman from FBI headquarters.
    [The prepared statement of the FBI Headquarters Agent 
follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

             TESTIMONY OF AN FBI HEADQUARTERS AGENT

    FBI Headquarters Agent. Mr. Chairman, members of the 
committees, I am pleased to appear before you today. Mr. 
Chairman, I have been a special agent with the FBI for more 
than 15 years. Of these more than 15 years, approximately 13 
have been dedicated to the FBI's counterterrorism mission as a 
field agent, FBI headquarters line supervisor, a field division 
joint terrorism task force supervisor and as an FBI 
headquarters counterterrorism unit chief.
    It was in the capacity of unit chief that I was serving on 
that most tragic day for our Nation, September 11, 2001, having 
returned to FBI headquarters from the field about three months 
previously. It was my group that handled the Zacarias Moussaoui 
matter and through which the Phoenix EC passed.
    Mr. Chairman, I must note that there is an ongoing capital 
prosecution in the eastern district of Virginia against 
Zacarias Moussaoui, with defendant's jury scheduled to be 
selected beginning in December 2002. Because of this, and as an 
employee of the Department of Justice, I am bound by local rule 
57, which prohibits prejudicial pretrial publicity to protect 
the constitutional trial rights of criminal defendants.
    Therefore, I may be unable to answer some of your questions 
in an open session, but I am prepared to answer all of your 
questions in a closed session.
    Mr. Chairman, within the course of these hearings, this 
committee has heard the frustrations of FBI field agents in 
their efforts to conduct their duties and responsibilities on 
behalf of the American people. Having served as a field agent 
and a field supervisor, I know of their sense of frustration as 
posed by rules and regulations, national security law, and the 
sense of being held in check by Washington.
    As an FBI headquarters unit supervisor and unit chief, I am 
also aware of FBI headquarters's role in supporting and 
coordinating terrorism investigations and the necessity of 
Washington's oversight to ensure compliance with existing 
policies and law.
    I have also witnessed first hand a dedicated group of 
counterterrorism professionals that have been routinely 
overwhelmed by large caseloads and continual crisis management. 
They also confront the daily frustrations posed by limited 
resources, especially within our analytical ranks, and 
inadequate technology, which hampers their ability to 
communicate within FBI headquarters, with our 56 field 
divisions and 44 legal attaches around the world, as well as 
with other elements of the law enforcement and intelligence 
community.
    Since September 11, 2001, our Director has already made 
many changes within the FBI to address these systemic problems. 
These reforms must continue.
    Mr. Chairman, throughout my career I have found all of the 
FBI's counterterrorism personnel, agents, analysts and other 
professional support to be a highly dedicated, highly competent 
group of professionals. They will continue to serve on the 
front lines of this war against international terrorists. I am 
now prepared to answer your questions.
    Chairman Goss. Thank you, very much.
    And now, sir, the agent from Minneapolis.
    [The prepared statement of the FBI Minneapolis Agent 
follows:]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

             TESTIMONY OF AN FBI MINNEAPOLIS AGENT

    FBI Minneapolis Agent. Thank you.
    Messieurs Chairman, members of the committees, I appreciate 
your invitation to appear before your committees today in 
connection with your joint inquiry into the tragic events of 
September 11, 2001. I fully understand the responsibility with 
which you have been charged.
    From July, 2001 through October, 2001, I was assigned as 
the Acting Supervisory Special Agent for the Minneapolis field 
office's Counterterrorism Squad, which included the Joint 
Terrorism Task Force.
    I was acting in that capacity on August 15, 2001, when the 
Minneapolis field office opened an intelligence investigation 
predicated upon the receipt of information concerning the 
suspicious activities of Zacarias Moussaoui. I continued to 
supervise this matter beyond September 11, 2001.
    From the time of receipt of the initial information and 
continuing after September 11, Minneapolis aggressively pursued 
the investigation of Moussaoui, resulting in the collection of 
a significant amount of information of investigative interest.
    The investigation was a coordinated effort involving 
Minneapolis, FBI headquarters, FBI field offices and legal 
attaches, the Immigration and Naturalization Service, and other 
members of the United States Intelligence Community.
    Based upon conversations between Minneapolis and FBI 
headquarters, the decision was made to continue working the 
matter as an intelligence versus a criminal investigation. This 
was based upon the understanding that, if Minneapolis pursued 
this as an intelligence matter, Minneapolis still had the 
option of opening a parallel criminal case. If it was pursued 
as a criminal matter, we would not have the option of using 
certain intelligence-gathering techniques, such as those 
available under the Foreign Intelligence Surveillance Act.
    During the approximately three weeks preceding September 
11, 2001, and following those events, Minneapolis communicated 
extensively with FBI headquarters via FBI written 
communications, telephone calls, and e-mails. The purpose of 
these conversations was to attempt to obtain FISA search 
warrants for Moussaoui's personal effects and his residence and 
to discuss other case-related logistics.
    The Minneapolis field office experienced great frustration 
during the investigation and while navigating the FISA process. 
Some of the frustration can be attributed to the FISA law, some 
of the frustration can be attributed to FBI headquarters, and 
some may be attributed to the circumstances of this case. 
Attorney General Ashcroft and Director Mueller have initiated 
procedures to address some of the frustrations within the FBI, 
the frustrations that Minneapolis experienced concerning the 
application of the FISA statute.
    I would reiterate that, as you know, there is an ongoing 
capital prosecution in the Eastern District of Virginia against 
Zacarias Moussaoui. I am also bound by Local Rule 57 and 
therefore may be unable to answer some of your questions in an 
open session. I would be happy and I am prepared to answer all 
of your questions in a closed session.
    What has been lost in the media and in this inquiry process 
is that it is the same FBI which has been extremely criticized 
since September 11, 2001, that is responsible for the 
investigation which led to the indictment of Zacarias 
Moussaoui.
    The FBI is, of course, subject to human factors and 
limitations, and we are occasionally hamstrung by legal 
constraints, both real and imagined. FBI personnel, both in the 
field and at FBI headquarters, were committed to preventing 
acts of terrorism prior to September 11, 2001. We continue to 
be committed to that mission today. Thank you.
    Chairman Goss. Thank you very much.
    Our procedure for the joint inquiry is that we have agreed 
that questioning is going to be led off by four members who 
have been preselected, two from each committee, who will have 
20 minutes each.
    The designated lead questioners for today's hearings are 
Representative Castle, Senator Edwards, Representative Cramer, 
and Senator Hatch, in that order; and after they have completed 
their questioning, we will proceed to the other members of each 
committee for 5 minutes each with additional rounds as 
necessary.
    For Members' information, after the lead questioners and 
the leadership, the order of arrival was Senator DeWine, 
Senator Levin, Representative Roemer, Representative Peterson, 
Representative Gibbons, Senator Mikulski, Senator Inhofe, 
Senator Kyl, Representative Bereuter, Senator Feinstein, 
Senator Rockefeller, Representative Harman, Representative 
Reyes, Representative Hoekstra, Representative Boehlert, 
Representative Burr, Representative Chambliss, Senator Bayh, 
Senator Wyden, and Representative Boswell; and so you can 
conduct yourselves accordingly.
    It is our intent to now go to Representative Castle. He 
will have his 20 minutes, and at the end of that we will recess 
for lunch.
    Representative Castle.
    Mr. Castle. Thank you, Mr. Chairman, for all of the titles.
    Before I start, let me just say to the Phoenix agent that I 
listened to your testimony concerning the issues of personal 
security, et cetera. We all obviously sympathize with that, and 
Congress obviously has to do its job responsibly.
    Let me turn to the Moussaoui issues first, if I may. My 
opening question will be for the Minneapolis agent and the 
headquarters supervisor; and the question is simple but, we 
think, important. What priority did this matter receive in each 
of your respective offices? If we can start with the 
Minneapolis agent first.
    FBI Minneapolis Agent. On August 15, once we received the 
information about Mr. Moussaoui, we initiated the intelligence 
case; and we worked extremely hard. This was the number one 
priority on the squad that I was assigned to until and through 
September 11, 2001. This was our full court press. We had some 
other collateral cases, of course, and we didn't neglect those. 
However, this was the brightest burning case.
    Mr. Castle. Thank you.
    Headquarters supervisor.
    FBI Headquarters Agent. From a headquarters perspective, 
the second that we were made aware of this within the unit that 
did in fact handle that matter, it became a priority. It was a 
priority of the unit. Clearly we saw this as being of great 
importance. We saw that his activities were very suspicious, 
and we also made it a priority.
    Mr. Castle. For the Minneapolis agent, you told our staff 
on August 21 you talked with another agent in Minneapolis who 
said that if you didn't make any progress with the agent who 
was handling the case at headquarters you should consider going 
to the section chief or assistant section chief at 
headquarters. Why didn't you do that?
    FBI Minneapolis Agent. I contacted my immediate supervisor, 
who was an Assistant Special Agent in Charge, acting as the 
Special Agent in Charge of the Minneapolis office. I advised 
him of the players in the chain, up to and including the Deputy 
Assistant Director for Counterterrorism. And once I encountered 
problems at the first line level at FBI headquarters, I went to 
my ASAC again and requested that he start moving things up the 
chain. It was appropriate for him to handle matters at his 
level in the organization, much more appropriate than it was 
for me to move those things forward.
    So I took these concerns to my immediate supervisor, 
requested that he take the information further; and as to why 
it wasn't taken any further, I am sorry, sir, I don't know.
    Mr. Castle. Thank you.
    Our staff has been told, continuing with you, that there 
have been several prior incidents in which Minneapolis found 
itself at odds with the FBI headquarters on FISA issues. Can 
you describe them?
    FBI Minneapolis Agent. No, sir, I cannot. I was installed 
as the acting supervisor of this squad in July of 2001; and I 
only had some very, very brief anecdotal information from cases 
prior to this, nothing in specific. And, quite frankly, I 
didn't focus on the past problems that we had had. I was much 
more inclined to focus on the problem that was facing us.
    Mr. Castle. Does the FBI headquarters agent have any 
helpful information with respect to that question?
    FBI Headquarters Agent. As I stated in my testimony, sir, I 
had arrived at headquarters about three months prior to 
September 11. I am not aware of specific issues. I think in the 
post-9/11, 2001, environment I did become somewhat aware of 
those, but to be able to testify to those facts would be very 
difficult of----
    Mr. Castle. To be clear, your answers are you don't know 
the information so you cannot give it to us, rather than you 
are not willing to give it to us?
    FBI Headquarters Agent. That is correct. I do not have that 
detail.
    Mr. Castle. To both of you, do you think that prior 
disciplinary actions involving agents making erroneous 
applications to the FISA court made agents reluctant to file 
FISA applications? You can start with the Minneapolis agent, 
perhaps.
    FBI Minneapolis Agent. Yes, sir, I do believe that.
    In one of the telephone conversations I had with a 
supervisory agent at the Radical Fundamentalist Unit, those 
points were made to me about the history with the FISA court; 
and the position of that supervisor was that he wanted to 
ensure that at the time we presented everything to the FISA 
court every I was dotted, every T was crossed, that we were 
absolutely certain the information we were presenting was 
accurate.
    My position and my response was that this case was fast 
breaking, information was coming in on a daily basis, sometimes 
several times a day, and that it was my position that we should 
present the information we had to the FISA court on an emergent 
basis, as quickly as possible, with the caveat that this is a 
breaking investigation. Information will be relayed to the FISA 
court as it becomes available, if it changes materially, the 
information that is presented to the FISA court.
    My inclination was to push this forward as quickly as we 
could. I do believe that there was a chilling effect.
    Mr. Castle. And the headquarters agent?
    FBI Headquarters Agent. I don't believe so. The supervisor 
that handled that particular FISA request was a very 
experienced supervisor. He had brought dozens of FISAs before 
the court in the past.
    Yes, he was aware of some of the past problems with regard 
to the FISA court and some of the issues that had developed 
there. But, significantly--and I think this needs to be made 
very clear--is that in April, 2001, new procedures had been put 
in place within FBI headquarters. They are now known as the 
Woods Procedures. Those Woods Procedures require that the field 
verify facts within a FISA application before the agent goes 
and takes those matters before the court and swears as the 
affiant to the FISA request.
    I think that that has greatly helped the sense of these 
agents going in with fact, as opposed to possibly getting 
tripped up.
    Mr. Castle. Thank you.
    For the Minneapolis agent, in your interview with the joint 
inquiry staff, you criticize the Radical Fundamentalist Unit 
for removing information that connected the Chechen rebels to 
Usama bin Ladin. What was your basis for that criticism?
    FBI Minneapolis Agent. The information as it was presented 
back to me by the Radical Fundamentalist Unit was that specific 
paragraph which was included in our application for the FISA, 
or our letterhead memorandum that requested the FISA, 
referenced what we believe to be the connection that we needed 
to establish between Mr. Moussaoui and a foreign power. And 
if--specifically, the FISA law required that we show Mr. 
Moussaoui was connected to a foreign power. That would be 
relevant information. That would be information that is 
required by the statute to prove the allegations, to obtain the 
warrant.
    And it was my position at the time and it remains so today 
that had that information not been made available to the 
national security law unit, the lawyers who were to review the 
FISA, it would have never proceeded beyond their unit. It is 
statutorily required. If you fail to meet the statutory burden, 
then, of course, it is not going to go further. And in my frame 
of reference I believe that there was a chilling effect because 
of the prior incidents with the FISA court. I believed at the 
time that there was a possibility that the case was being 
undersold and that this was redacted--this information was 
redacted because there was this chilling effect.
    Mr. Castle. For the headquarters supervisor, on August 18 
of 2001, the Minneapolis field office sent a 26-page memo to 
headquarters describing the Moussaoui investigation. What was 
your reaction to the memo?
    FBI Headquarters Agent. I did read the memo. Obviously, it 
was very alarming to us. I think it is very important to state 
that those red flags were seen by FBI headquarters, and we 
viewed it as a--very much a priority matter.
    Mr. Castle. Did you perceive from that that Moussaoui was a 
significant threat, or because he was in custody he was not a 
significant threat at that time?
    FBI Headquarters Agent. Clearly, he was in custody. No 
question about that. But we did see this as a priority matter. 
We realized that we wanted to get into his belongings. We saw 
the computer and his personal belongings as possibly holding 
very pertinent information, and we moved in a manner to try to 
attempt to gain a FISA search warrant.
    Mr. Castle. Let me switch back to the Minneapolis agent. 
Considering Moussaoui was in custody, what threat do you think 
he posed?
    FBI Minneapolis Agent. The staff characterized the focus of 
the Minneapolis investigation and the FBI investigation as on 
specific criminal acts, and I take exception to that 
characterization because our position always was we needed to 
get into that notebook computer, we needed to get into those 
individual handwritten notes to determine if there were other 
coconspirators that were identified, if there were battle plans 
that existed that we didn't know, and if there was other 
intelligence that could be exploited and linked to other cases 
that were ongoing both in the Minneapolis office and elsewhere.
    So we were sensitive to the fact that this could have been 
a much larger conspiracy, and we were not satisfied that having 
Mr. Moussaoui in custody dampened the possibility of a 
terrorist attack.
    Mr. Castle. Let me go along that line of questioning for a 
minute.
    On August 21 of 2001, an agent on your squad sent an e-mail 
to the supervisory special agent in the Radical Fundamentalist 
Unit at headquarters saying it is imperative that the U.S. 
Secret Service be apprised of this threat potential indicated 
by the evidence contained in the EC. If he sees an aircraft 
flying from Heathrow to New York City, it will have the fuel on 
board to reach DC.
    Do you know why that agent sent the e-mail asking that the 
Secret Service be notified?
    FBI Minneapolis Agent. Yes. We discussed it on the squad 
before he sent the e-mail. And it was our contention, 
initially, and the focus of our investigative hypothesis, that 
this was a larger issue that was speaking to the potential 
hijacking or commandeering of an aircraft. There were some 
pieces of information that were developed during the course of 
the investigation which led us to believe that that was the 
ultimate end and had JFK airport in New York City been the 
intended destination from an international flight with an 
aircraft of the type, a 747-400, there would be enough fuel 
reserve to hit the Nation's Capitol; and that is what the 
context was.
    Mr. Castle. I may, if time allows, return to you for 
questioning, but I want to turn to the Phoenix agent for some 
questions at this time. Let me start with this.
    In your interview with the joint inquiry staff, you 
mentioned that you did not often see intelligence reports 
either from FBI headquarters or from other agencies and you 
often felt ``out on an island'' from an intelligence 
perspective in Phoenix. Can you comment on your previous 
statements--on those statements?
    FBI Phoenix Agent. Yes. Concerning my feeling of being out 
on an island, I noticed--I have been doing this work for 
approximately 13 years, and I--several years ago, there was a 
significant downsizing of our people at FBI headquarters, to 
include analysts and supervisors.
    Several years ago, many years ago, we used to get regular 
intelligence products put out by the Terrorist Research and 
Analytical Center--TRAC, I believe the acronym was--that would 
give us the MOs, if you will, of what different terrorist 
organizations may be up to in the United States around the 
country. It was informative for someone like myself, sitting 
out in Phoenix, on what was taking place elsewhere in the 
country.
    I have noticed a decline in that type of product being put 
out to the field. So my comment, relative to being out on an 
island, involved that.
    Mr. Castle. Well, let me go on then, for both you and the 
headquarters supervisor. How important do you think it is for 
agents working counterterrorism to be kept abreast of national 
and international developments in their program, and was the 
FBI running counterterrorism as a national level program prior 
to September 11, in your opinion?
    Start with the Phoenix agent.
    FBI Phoenix Agent. Yes. I believe my statements--I read 
that. I believe my statements that it was not being taken and 
put on a national level was taken out of context. I believe my 
management at Phoenix was not looking at it as a national 
priority, due to other priorities that they were looking at, 
such as the war on drugs.
    On a national level, I do believe that they took it as a 
Tier 1 program and a national priority. But I also believe that 
it is a resource issue. The people at FBI headquarters are 
working day in, day out, very hard, probably putting in some of 
the longest hours in the Bureau dealing with threats coming in 
from all over the world to U.S. interests in the United States 
and abroad; and I believe they do not have enough people to get 
these type of intelligence products out to us, such as myself 
out in the middle of the desert in Arizona, to know what is 
going on around the world and within the continental United 
States.
    Mr. Castle. To the headquarters agent.
    FBI Headquarters Agent. Could you repeat the question, sir?
    Mr. Castle. Sure. How important do you think it is for 
agents working counterterrorism to be kept abreast of national 
and international developments in the program, and was the FBI 
running counterterrorism at a national level program prior to 
9/11? And having heard the answer of the Phoenix agent, it is 
not a question of saying something is a priority, but, you 
know, were the necessary personnel and expenditures put into 
place to make sure that it was a priority?
    FBI Headquarters Agent. I can probably answer this question 
from both the field perspective, having just gone back to the 
headquarters about three months before 9/11, and also from 
headquarters.
    Clearly, counterterrorism needs to be run as a national 
type program. That does require the resources within FBI 
headquarters to do that. We need the analysts to be able to 
pull together this information to put it into forms that are 
discernible to the field and to get that information out there.
    Clearly, from a strategic analytical viewpoint, our 
resources have been lacking. No question about it. I think when 
you want to look at systemic problems, which I know this 
committee is looking at, I think clearly you are going to be 
focused in on strategic analysis and you are going to be 
focused in on technology; and to run a national program you 
have to have both.
    Mr. Castle. Thank you.
    For the Phoenix agent again, in your interview with joint 
inquiry staff, you stated that you thought that the FBI should 
have separate career tracks for CT and CI agents. Can you 
elaborate on those, counterterrorism and counterintelligence?
    FBI Phoenix Agent. Yes. In my opinion--this is just my 
opinion--I believe that there have been competing interests 
over the years between the criminal side of the house and the 
counterintelligence/counterterrorism side of the house; and I 
believe that we are always competing with--when I say ``we,'' 
the counterintelligence/counterterrorism side of the house--
with the criminal side of the house for resources, surveillance 
resources, support resources, agent resources assigned to work 
these matters in the field.
    Prior to 9/11, I have had many examples where I may need 
surveillance support on a suspected terrorist and would request 
that support, and that support would be diverted to the 
southern borders to cover a load of cocaine or marijuana that 
was coming across the border.
    So I am of the belief that we should have separate 
entities, and we shouldn't be competing with each other within 
our own house for the resources needed to do both jobs if we 
are going to be continued to be tasked to do both jobs.
    Mr. Castle. Well, for the Phoenix agent and the 
headquarters supervisor, have things dramatically changed since 
9/11, from your perspective?
    FBI Phoenix Agent. I believe that they have but not to the 
extent to which I want to see it, personally. I believe that we 
need many more resources directed to the protection of the 
national security.
    You know, in these hearings that I participated before, and 
this current one, we keep talking about counterterrorism, which 
as well we should. But we cannot forget counterintelligence. We 
cannot forget about the hostile intelligence services that are 
out there that want to steal our weapons technology, our 
company's proprietary information, and things of that nature. 
So we have to be looking at that as well; and with the limited 
agents that you have employed by the Federal Bureau of 
Investigation, it is tough to do all of the criminal things you 
want to us to do, and the counterintelligence and 
counterterrorism responsibilities that you have tasked us to 
undertake.
    Mr. Castle. And for the headquarters?
    FBI Headquarters Agent. Clearly, September was a wake-up 
call. From a headquarters perspective, I will speak to--the 
resources have already grown tremendously. We have now the 
ability to draw on resources within the Counterterrorism 
Division that were just not available before September 11, 
2001. For example, we have now an entire group of people 
looking at nothing but terrorism financing, and that financing 
can clearly give us leads from an operational standpoint on 
going after individuals. That resource was never available. We 
have tremendously beefed up our analytical ranks. That needs to 
continue. We need to get good, trained people in and keep them.
    So from a big picture look, yeah, we are going in the right 
direction. We have to keep this ship on course. This is too 
important to walk away from.
    Mr. Castle. For both of you, the joint inquiry staff has 
been informed that, prior to September 11, 2001, many field 
offices were not unloading communications to the FBI's 
Automated Case System. In addition, the Automated Case System 
is allegedly notoriously difficult to search. What effect did 
the problems with the Automated Case System have on the FBI's 
counterterrorism efforts prior to September 11?
    FBI Phoenix Agent. From my perspective, sir, I don't have 
much faith in the automatic case system. I don't like it. I 
don't like relying on it myself.
    As far as documents getting uploaded, the way we work 
things internally, myself as an agent that would prepare a 
communication would send it through the supervisory ranks to 
get approved, and then it would get sent to what we call rotor.
    Mr. Castle. If the system worked correctly, would you have 
faith in it and would you use it? I mean, is it something that 
you think should work correctly?
    FBI Phoenix Agent. It is something that definitely should 
work.
    Mr. Castle. Your comment then is based on the fact that you 
don't think it is working?
    FBI Phoenix Agent. I personally do not, and many of my 
colleagues don't have confidence in the system as well.
    But to address your questions with information being 
uploaded, internally, I would prepare a communication. I send 
it to my supervisory Special Agent to review. He or she will 
initial it and then it will be sent to what we call a rotor, 
which is a file clerk, who will be responsible for uploading 
that document into the system.
    Now the reason why that is important, and I've got to bring 
this up, is because we are severely understaffed with the 
support side of the house in the FBI and the field, and a 
particular rotor could be sitting on a couple of hundred 
documents a day that haven't been uploaded into the system 
because he or she has been tasked to do too much.
    Some of these people get pulled away from their job to 
perform collateral duties such as answering telephones, 
escorting visitors into the office. In the meantime, these 
documents sit in piles on desks next to the computers waiting 
to get uploaded.
    Mr. Castle. The time is up. But I would like to get the 
answer, if we could, from the FBI headquarters.
    FBI Headquarters Agent. I would echo these same sentiments. 
I think people at headquarters find the ACS system to be 
unfriendly, unreliable. It is just been a--it has been 
nonworkable. It has led to a lot of problems in terms of the 
fact that we have not used it within headquarters properly 
because it can't be counted on.
    As a result, even though a couple of years ago I believe 
there was a directive that went out to the field telling them 
to stop sending hard copies to headquarters because they should 
be retrieved electronically, it was well known, both in the 
field and at headquarters, that you wouldn't get the 
communication or there was a good chance that you weren't going 
to get it. As such, the field would routinely still send hard 
copy.
    Mr. Castle. Thank you. Thank you, gentlemen.
    I yield back, Mr. Chairman.
    Chairman Goss. Thank you, Governor Castle.
    We will now excuse our public guests and ask the press and 
others to clear the room before we excuse our witnesses. We 
will reconvene at 2 o'clock--I think exactly at 2, Senator 
Edwards, if that is convenient. At 2 o'clock we will start 
again, and Senator Edwards will be the lead questioner.
    [Whereupon, the Committees recessed, to reconvene at 2:00 
p.m., the same day.]

                           AFTERNOON SESSION

    Chairman Goss. Okay. The committee will be in order.
    The room is right, and we appreciate everybody's 
cooperation. This is a public session, but we are protecting 
the identity of our three witnesses.
    I would say that there are two gentlemen who are not behind 
the screen--I think members are familiar with them--that have 
already been sworn. Mr. Bowman is the Deputy General Counsel of 
the FBI. Welcome him again. And Mr. Rolince is I think known to 
the committee as the Special Agent in Charge of the FBI's 
Washington field office. We have had the pleasure of meeting 
with him previously.
    Senator Edwards, your 20 minutes, sir.
    Senator Edwards. Thank you very much.
    Mr. Chairman, I want to thank all of the witnesses for 
being here today and for what you have done and for your 
testimony.
    I want to start with Moussaoui. So I will start with the 
Minneapolis agent, if I can, and then later I have some 
questions about the Phoenix EC and the Phoenix memo.
    What I would like to do is go back in time to August of 
2001 and go through what you were thinking; and what you were 
being told from people in Washington. I took from the earlier 
testimony that you gave that you considered this a high 
priority. Fair?
    FBI Minneapolis Agent. Yes, sir.
    Senator Edwards. And an issue around which a lot of people 
in your office were focused and concerned, fair?
    FBI Minneapolis Agent. Yes, sir.
    Senator Edwards. You indicated earlier that, besides 
concern about Moussaoui himself, you were also concerned about 
the possibility that--at that point I assume it was just a 
possibility--that he was part of a bigger plan, part of a 
conspiracy, and that there was a possibility that there were 
plans, or I think you used the term battle plans that were 
under way. Is that fair?
    FBI Minneapolis Agent. Yes, sir.
    Senator Edwards. So you were, at that time, when Moussaoui 
was in custody, thinking to yourself, you and your colleagues, 
that one of the reasons we need this FISA warrant and we need 
to see what is on his computer, what these various documents 
show, is because of the possibility that this guy is involved 
in something bigger and very dangerous, even though we have him 
in custody, correct?
    FBI Minneapolis Agent. That is also fair. Yes, sir.
    Senator Edwards. Now, the documents themselves and the 
computer, what--I assume that you had these within your control 
in some place, is that correct?
    FBI Minneapolis Agent. They were within the control of the 
INS, yes.
    Senator Edwards. They were under the control of the 
government?
    FBI Minneapolis Agent. Yes.
    Senator Edwards. So what you were thinking at the time is, 
I think this is a very dangerous man. I have great concerns 
about him. There is a possibility, at least, that he is 
involved in a bigger plan, a bigger conspiracy, that could be 
very dangerous to us and to our country. There is information 
contained possibly within his computer, possibly within his 
documents, that might tell us whether that is actually true or 
not; is that fair?
    FBI Minneapolis Agent. That is fair, yes.
    Senator Edwards. Which is one of the reasons that you made 
it such a high priority to try to get a FISA warrant, correct?
    FBI Minneapolis Agent. That is correct.
    Senator Edwards. Okay. And obviously you were being 
aggressive, which I assume is how you were trained and what you 
felt you should do under the circumstances?
    FBI Minneapolis Agent. Yes, sir.
    Senator Edwards. Okay. Now, when you went to get the FISA 
warrant, when you got the response from headquarters and from 
the legal experts at headquarters, were you being told that in 
order to get a FISA warrant it was necessary that you have 
evidence, information, linking Moussaoui to a known terrorist 
organization, i.e., one listed by the State Department, one 
recognized by the FISA court? Is that something that you 
understood you had to get in order to get the FISA warrant?
    FBI Minneapolis Agent. Yes. We believed that we needed to 
identify a--and the term that was thrown around was 
``recognized foreign power.'' And so that was our operational 
theory. Yes.
    Senator Edwards. So once you requested the FISA warrant in 
what you considered, I think you just said earlier, was a 
rapidly developing situation, you wanted to move quickly.
    Once you made the request and you got the response, the 
response said to you, I have got to make a link between--in 
order to get a FISA, I have got a make a link between Moussaoui 
and a recognized terrorist organization, as opposed to just any 
group of people, any organization engaged in terrorist 
activities; is that fair?
    FBI Minneapolis Agent. Yes.
    Senator Edwards. Okay. Mr. Bowman, that was not the law in 
August of 2001, was it, what the agent just said?
    Mr. Bowman. No, sir. That was not the law.
    Senator Edwards. So he was being told by headquarters, I 
assume was your contact, correct?
    FBI Minneapolis Agent. Yes, sir.
    Senator Edwards. He was being told that he had to make a 
link between Moussaoui and a recognized terrorist organization, 
either by the State Department or by the FISA court, when in 
fact, all that had to be shown in order to meet that part of 
the test was that there was a link between Moussaoui and, for 
example, in this case the Chechans, correct?
    Mr. Bowman. Between Moussaoui and some organized terrorist 
group in this case. Yes, sir.
    Senator Edwards. The people who were giving them this 
description of the law, which was wrong at the time, are those 
people who worked for you?
    Mr. Bowman. No, sir.
    Senator Edwards. Okay. The people who were giving him, the 
agent, advice about the law that was wrong--and, I might add, 
this is to the agent--the result of that was you spent a 
significant period of time trying to make a link that in fact 
the law doesn't require you now know, correct?
    FBI Minneapolis Agent. That is correct.
    Senator Edwards. The people who gave him that advice, can 
you tell me--I don't know--I don't mean by name, but can you 
tell me what department they worked in?
    Mr. Bowman. I don't have any personal knowledge of that, 
Senator. The information which came to me had nothing to do 
with a recognized foreign power. There was straight facts that 
came to me. I assume that it came out of the terrorism 
division, but I don't have any personal knowledge.
    Senator Edwards. Okay. So that we get this straight--this 
is directed to the agent--you had what you considered an 
emergent situation, was the way you described it, a potential 
very serious threat to the country, the possibility of a 
conspiracy, the possibility of--you talked earlier about 
airplanes and the fuel capacity of airplanes, and I think you 
mentioned the possibility of a plane being able to reach 
Washington, DC.
    Obviously, you were very focused on this potentially--and, 
in fairness, it was only potential at that point--potentially 
dangeroussituation. You made a request, hoping to get a quick 
response. You were told something that we now know is wrong about the 
law, and you spent some period of time running around trying to--what 
is basically a wild goose chase--trying to establish something that the 
law did not require, you now know. Is that correct?
    FBI Minneapolis Agent. That is true to a point. We--the 
staff has characterized that we spent up to three weeks just 
trying to make this definitive link to a recognized terrorist 
organization. In fact, during that three weeks, the entire 
investigation was evolving. We weren't solely focused on making 
that one link. We were focused on making the connection between 
Mr. Moussaoui and the Chechen rebels and then also making the 
connection between the Chechen rebels and al-Qa'ida.
    So, in general terms, yes, we were focused on looking at 
making a definitive link to a recognized foreign power. 
However, there were a couple of steps in there and a couple of 
collateral activities that spoke to the ultimate end.
    Senator Edwards. But you were--in fairness, you were 
spending significant time trying to make this link that we know 
that the law did not require. Fair?
    FBI Minneapolis Agent. Yes, sir. That is absolutely true.
    Senator Edwards. And you were thinking, I know that this 
may not be something, and this information is all sitting in 
the possession of the government, and you are just trying to 
get to it so you can open it and look at it and figure out what 
it is you need to do with it. Is that fair?
    FBI Minneapolis Agent. That is true.
    Senator Edwards. It turns out that when--and this is 
information from the public indictment, and please don't 
comment on anything that any of you would consider outside of 
the realm of what is in the public information. But we now know 
that sitting in the briefcase, in the computer, in the 
information that was in the government's possession in August 
that you were not able to get access to--and one of the things 
you spent your time doing was chasing this legal requirement 
that in fact was not there--in these documents--and this is 
from the indictment--were letters indicating that Moussaoui is 
a marketing consultant in the United States for In Focus Tech.
    Now, In Focus Tech, I think this committee has determined 
in our public information, is a Malaysian company. Yazzad Sufat 
is the president of the company, and his name also I think 
appeared in the documents. He was known to the CIA as the owner 
of the Malaysian condominium in which the al-Qa'ida meeting was 
held in January of 2000, before the time, of course, that we 
are talking about, over a year before. This was attended by two 
other hijackers. That was a meeting that others I believe have 
talked about and have already testified to.
    A name trace would show that Sufat--a name trace from the 
FBI--a name trace request from the FBI to the CIA would have 
produced the information and provided a link between Moussaoui 
and two of what turned out to be the hijackers, a little less I 
guess than a month later.
    Another piece of information in the indictment is that a 
notebook--again, these are the documents that are in the 
government's possession but you can't get to--a notebook 
listing German telephone numbers and the name of Ahad Zebet, 
which is a name used by Ramzi Binalshibh, who was recently 
arrested in Pakistan, I believe the press has reported, as a 
key conspirator in the September 11 attacks. And he, along with 
three other people, three of the hijackers, were part of the 
terrorist cell that was formed in Germany in 1998.
    And we could go on and on. The bottom line is this. There 
was--it appears at least from the public information there were 
significant data in that stuff that you were trying to get to--
his computer and his papers--that would have been useful in 
your effort to determine whether there was a bigger conspiracy, 
whether this man you had in custody had contact with others, 
other known terrorists, others with terrorist connections, and 
whether there were battle plans being undertaken. But that was 
not something you were able to do before September 11, is that 
correct?
    FBI Minneapolis Agent. We were not able to access the 
information that we had in our possession prior to September 
11, that is correct.
    Senator Edwards. Okay. Now, I would like to, if I can, 
focus on the Phoenix agent, on the Phoenix EC. Let me go 
through a group of facts and just get you to respond, if you 
can.
    There have been some public indications from the FBI that 
there was no connection of any kind between your memo and the 
hijackers or the people who were involved in the September 11 
attacks.
    I am going to go through a series of things.
    The FBI I think now believes--I am not going to call him by 
name because his name is classified--that one of the 
individuals mentioned in your memo was in fact an associate of 
Hani Hanjour, who was the pilot of Flight 77, the hijacking 
pilot of Flight 77, that there was significant information that 
Hanjour and this person had ongoing association during the time 
from 1997 through the year 2000, including information from 
flight school records and witness statements.
    This individual, I believe, at the time you wanted to start 
an investigation on him you determined that--which was May or 
June, I have forgotten the exact date--you determined that he 
was out of the country. Is that correct?
    FBI Phoenix Agent. That is correct.
    Senator Edwards. But he came back. We now know he came back 
in the country shortly thereafter, during the summer of 2001. 
Is that correct?
    FBI Phoenix Agent. Yes.
    Senator Edwards. Okay. During the summer, there is also 
some information that he was training at the same facility that 
Hanjour was training in Phoenix, is that correct?
    FBI Phoenix Agent. Senator, this is still a pending 
investigative lead that could lead to a prosecution.
    Senator Edwards. Fair enough. You don't need to say any 
more. But, let me ask you this--and, again, just don't comment 
on it if it is not appropriate. But the fact that this 
individual who you wanted to investigate but who was out of the 
country, and then we now know came back in the summer of 2001, 
and particularly given his experience level as a pilot and that 
he was signing up for Cessna low-level flight training and 
there is information that he was there with some others, 
including Hanjour, during the summer of 2001 who were engaged 
in flight training, let me just ask you a broad question 
without going through the details, which I know you want to 
keep classified.
    Is it possible that this person who we are talking about 
who is listed in your memo, is it possible that he was there in 
the summer of 2001 for the--after he came back into the country 
for the purpose of either helping with the training of Hanjour, 
identifying whether Hanjour was qualified to do what was done 
on September 11? Is that a possibility?
    FBI Phoenix Agent. It is a possibility. It is an 
investigative theory that we are looking into.
    Senator Edwards. Okay. Is it possible that he was looking 
at not just Hanjour but some of the others that he was 
associated with during that summer as the more experienced 
pilot to, for lack of a better term, ``screen'' who might be 
capable of carrying out the September 11 plans out of that 
group?
    FBI Phoenix Agent. Yes. That is possible as well.
    Senator Edwards. Okay. There have been statements--I won't 
read them. Some of them have been in response to questions by 
me and others from the FBI in May of this year indicating that 
therewas no connection of any kind between--well, actually, 
before I get to that, let me go back.
    When this man who you wanted to investigate and who we now 
have these various connections with was out of the country and 
he came back in, did you know he came back in?
    FBI Phoenix Agent. I didn't. I didn't.
    Senator Edwards. Okay. When you all discovered that this 
person who you were concerned about and wanted to investigate 
was outside of the country, did you notify anybody who might 
have identified him coming back in, the State Department, the 
INS, any of the other government agencies who may have known 
that he was coming back into the country?
    FBI Phoenix Agent. No, we didn't, Senator. And the reason 
for that, if I can follow up on that, is because when we first 
became aware of the individual prior to September 11, he was 
out of the country. At that time, we did not routinely open up 
cases on individuals on--who were out of the country.
    In this particular situation, it would have been an 
intelligence type of investigation and a preliminary inquiry, 
which would have given us 90 days to see if the individual was 
involved in terror activity. So inasmuch as he was out of the 
country, the practice at that time was not to open up a case.
    So, therefore, to answer your question, there would be no--
we wouldn't be putting him into a TIPOFF system or any other 
type of border crossing system to see if this person was coming 
back into the country.
    Senator Edwards. But to put all of that back into context 
of what was happening at the time when you were involved and 
you were, as the other agent was, very aggressively pursuing 
these leads, this was one of a number of individuals that you 
wanted to investigate, and he--you have determined that he left 
the country. We now know he came back in. None of the people 
who would have been responsible for identifying him coming back 
in knew that they needed to look for him, is that fair, aside 
from you and the FBI office?
    FBI Phoenix Agent. Yes. That would be correct.
    Senator Edwards. Okay. And there is at least a theory, to 
use your words, there is at least a theory that this man may 
have been the person responsible for helping train Hani Hanjour 
and/or screen which of these pilots were capable of carrying 
out the attack, we know that now, correct?
    FBI Phoenix Agent. Post-9/11.
    Senator Edwards. Correct. Yes.
    FBI Phoenix Agent. Yes.
    Senator Edwards. The policy that existed at that time for 
not notifying the other government agencies about somebody like 
this who you were concerned about and wanted to conduct an 
investigation on, has that changed since 9/11?
    FBI Phoenix Agent. I can speak for the Phoenix division. 
Yes. I mean, if we had a situation like this today, we would be 
looking and opening up an investigation on the individual in 
question here.
    But, prior to that, we had enough people that were residing 
in the United States, residing in the Phoenix area that we 
needed to open up cases on. Prior to 9/11, we just did not open 
up cases on individuals that we had determined had left the 
country.
    And, again, keep in mind with the Attorney General 
Guidelines, so on and so forth, that govern those type of 
investigations that we can get into more detail in closed 
hearings, this individual would have been characterized as 
nothing more than a preliminary inquiry because he looked 
interesting, okay, due to some information that we received 
from other sources and methods.
    So there is no stating that even if we had a full--even if 
we had an investigation, initiated an investigation on him 
prior to 9/11, that we would have been able to go any further 
than the preliminary inquiry stage.
    Senator Edwards. If you had known, which you didn't, that 
this individual had come back into the country, would you have 
been monitoring him in the summer of 2001?
    FBI Phoenix Agent. Yes. We would have been very interested 
in his presence back in the United States.
    Senator Edwards. And if you had been monitoring what he was 
doing in the summer of 2001, the things that you have now 
determined were going on in the summer of 2001, post-9/11 which 
you indicated, some of those things presumably you would have 
observed and seen?
    FBI Phoenix Agent. Not necessarily. And the reason being, 
again, I would like to reiterate, it would be a preliminary 
inquiry, and I would be limited underneath the Attorney General 
Guidelines what I could do to investigate that individual. 
Okay? And that doesn't mean that I would be able to find the 
things that I think that you are getting at about this guy 
during that preliminary inquiry stage.
    Senator Edwards. I was going to ask you about monitoring. 
Knowing what you knew about him at the time that you wrote your 
memo, is that something you would have wanted to do, monitor 
his whereabouts, monitor his interaction with others? We now 
know that included interaction with Hanjour.
    FBI Phoenix Agent. Yes, it would been something I wanted to 
do.
    Senator Edwards. Okay. And if you had that authority and 
had been able to do that, you presumably would have seen some 
of these things that went on in the summer of 2001?
    FBI Phoenix Agent. It is a possibility. Yes.
    Chairman Goss. Senator.
    Senator Edwards. I see that my time is up, Mr. Chairman. I 
thank the witnesses very much. And I thank the chair.
    Chairman Goss. I thank the Senator for very good questions.
    Mr. Cramer.
    Mr. Cramer. Thank the Chairman.
    I want to thank the witnesses that are here today. We have 
two field agents here, headquarters agent, a lawyer and a 
supervisor as well, as I understand it.
    I want to pick back up on where my colleague, Mr. Castle, 
was when he left his question time. I want to talk about the 
resources that you had available to you and, practically 
speaking, how you used those resources. Then I want to ask you 
to walk me through, even though to a certain extent you have 
done that already, certain ways you communicated.
    For example, and I will start with the Phoenix agent here 
if I could, when you sent your memo, your EC to headquarters, 
how many different people--I don't want names--but how many 
different people did you send that memo to?
    FBI Phoenix Agent. Six individuals at headquarters.
    Mr. Cramer. And the way your communications system works, 
do you know if all of those received the memo?
    FBI Phoenix Agent. I personally do not know if they all 
received it, the way the system works.
    Mr. Cramer. Did you hear from any of those individuals?
    FBI Phoenix Agent. No.
    Mr. Cramer. All right. Do you determine yourself in the 
field office whether--who you send it to? In other words, is 
that called uploading? You decide who to send it to?
    FBI Phoenix Agent. I decide who to put on the attention 
line of my communications, yes.
    Mr. Cramer. And you can block as well? You can decide to 
send it to only one person and not to share it with other 
individuals as well?
    FBI Phoenix Agent. No, that is not my intention. If I put 
somebody on there that I want it to go to, I want it to get to 
that person and only those persons. So I am not--you know, I 
don't try to block anybody from getting anything.
    Mr. Cramer. All right. And did you expect to hear from 
those six individuals?
    FBI Phoenix Agent. Well, this is a question that I have 
been asked before. I sent this communication as a routine 
electronic communication, because there was no immediate action 
required on it. There was no terrorist threat information 
contained in the electronic communication, and I just wanted to 
send it to them for their consideration.
    Prior to my sending it, though, I did contact a senior FBI 
analyst, and I said, hey, these are my concerns, my suspicions. 
Who do you think I--who do you recommend I send this to? And 
this particular analyst gave me the names of the individuals 
who are listed on the EC.
    Mr. Cramer. Now if I could come to the headquarters agent 
now. Could I ask you to--you came into this particular unit 
when?
    FBI Headquarters Agent. I came into this unit in 
approximately mid-May of 2001.
    Mr. Cramer. But you have 15 years of experience.
    FBI Headquarters Agent. That's correct.
    Mr. Cramer. In the field and headquarters as well?
    FBI Headquarters Agent. That's correct.
    Mr. Cramer. Could you comment in some detail on the state 
of technology as you found it there at headquarters?
    FBI Headquarters Agent. If I can, I will go back. When an 
EC is set from the field to headquarters, it is--a lead is sent 
to a particular unit at headquarters. It will not be sent to an 
individual. The attention line is, once the communication gets 
into the building, theoretically it would be brought to the 
attention of those people, but in terms of it serving as an 
electronic means of providing it to them, that does not work 
that way.
    Mr. Cramer. All right. Then who determines, once it comes 
into the building--our concern is--and we have had an excellent 
summary from Eleanor Hill of the staff before you were made 
available to us today. As you know, we have had prior 
opportunities to get into these matters. But what I am 
concerned about is the culture at FBI and how you communicate, 
why certain people get certain messages. Is that a resource 
problem? Does resource mean people? Does resource mean 
technology? What does it mean?
    As I observe it from the summaries I have had available to 
me, the communication in this case, the EC from the Phoenix 
agent, went to the weakest link at headquarters, and then a 
person there determines where it goes from there.
    FBI Headquarters Agent. It did not necessarily go to the 
weakest link. The way it would take place within headquarters 
is that the lead would arrive there. It would be given to a 
particular person as a lead. It would be sent to an individual. 
In this case, it was sent to the IOS, an intelligence 
operations specialist. Those are the people that do the work. 
That is where the rubber meet it is road in terms of 
headquarters handling a specific lead sent from the field.
    Mr. Cramer. All right. And then you are in the RFU unit, 
right?
    FBI Headquarters Agent. That's correct.
    Mr. Cramer. And that is an operational unit?
    FBI Headquarters Agent. That's correct. The RFU is an 
operational unit.
    Mr. Cramer. And the UBL unit----
    FBI Headquarters Agent. Is a second operational unit.
    Mr. Cramer. All right. And then the analysis unit is a 
separate unit, correct?
    FBI Headquarters Agent. The operational units have what we 
would call intelligence--I am sorry--investigation operations 
specialists. Those are tactical analysts. Those are analysts 
that work specific case issues. They are the people that handle 
leads that headquarters needs to handle. They are the people 
that write the FISA packages. They are the people who are 
moving specific cases forward.
    Apart from those IOSs, you have a second group of analysts 
known as intelligence research specialists. Those are IRSs. 
They are not within the operational groups. They are in a 
separate--at the time, pre-9/11, they were in a separate 
division. Those are the people that would be expected to do 
strategic type analysis.
    Mr. Cramer. And how was the information routed to those 
individuals before 9/11, before we have reviewed what happened 
and what we could do differently?
    FBI Headquarters Agent. The field could--could have sent it 
directly to the IRSs. They could have sent it directly to the 
division that was responsible for strategic analysis, or in 
this case--and in the case of Phoenix as I remember it and I 
see it--is that the lead was set for the operational group, the 
Counterterrorism Division, into the operational units within 
the Counterterrorism Division. And then it would have been for 
those IOSs or for the supervisors to recognize that there might 
be a need for strategic analysis and then to move it to the 
strategic analytical group. That could be done electronically 
by reproducing another electronic communication, in setting a 
specific lead for the strategic analyst, or it could have been 
done via an e-mail or a telephone call and just walking a hard 
copy to them.
    Mr. Cramer. All right. In the case of the Phoenix EC, your 
EC, the IOS, who decides which IOS gets that memo? Or how is 
that decided? What is the process?
    FBI Headquarters Agent. It is done based on area of 
responsibility. So if a particular analyst is responsible for a 
particular field division or a particular subject matter, then 
the individual who is going into the computer would recognize 
that this particular IOS has responsibilities for this program 
area. Or it might be a case number. It might be that all 
Phoenix communications are handled by this particular IOS. So 
that lead would then have been sent to the particular analyst 
that was responsible for the case or the program matter. So the 
attention line is not necessarily significant.
    It could be that the wrong person was put on the attention 
line, in which case the individual setting that lead would have 
moved it to the proper IOS.
    Mr. Cramer. Well, our information is that the--in this 
case, the EC was assigned to a particular IOS because that was 
the first name on the list.
    FBI Headquarters Agent. I think that she also--why exactly 
it was set to her, I am not exactly sure, but I think it was 
also that she had some of the program responsibilities that was 
addressed within that EC.
    Mr. Cramer. If we could, back to the Phoenix agent, then. 
Your EC as well went to the UBL unit, and you never heard from 
them. Is that correct?
    FBI Phoenix Agent. That's correct.
    Senator, if I can make a point--or, sir. The reason why I 
went to the UBL unit and the RFU unit is because of the nature 
of the subject under investigation. We couldn't put him into a 
particular category. So the division that I made after 
conferring with the person I contacted at headquarters was let 
us send it to both units, the Usama bin Ladin unit and the 
Radical Fundamentalism Unit.
    Mr. Cramer. And were your aware prior to 9/11 that 
headquarters had closed the lead and that they were not taking 
any additional actions at the time based on your communication?
    FBI Phoenix Agent. No, I was not.
    FBI Headquarters Agent. If I could speak to that, the lead 
is not stated as closed. The lead is stated that they will 
reconvene on this matter at a later time. Those operational 
specialists handled the immediate actionable items that were 
before them, and then what they wanted to do was to reflect to 
Phoenix division--in my mind, what they wanted to do was to 
reflect to Phoenix division that they had received the lead and 
that they were looking at it, they were aware of it, and they 
were going to act on it at a later date.
    Mr. Cramer. All right. The New York agents interviewed 
stated that the Phoenix EC did not resonate with them and that 
they found it speculative. Why do you think that is? Why don't 
you think they took seriously a memo like this? Was that 
because they were the leading counterterrorism office and 
Phoenix was more or less an island, as you have stated it, out 
there?
    FBI Phoenix Agent. Sir, I can't speak for why my colleagues 
thought the way they did when they received that. I don't know 
why they did. I have seen other reasons why they claim they 
didn't want to take action on it, to include that they had seen 
other people coming in for training for Usama bin Ladin. I 
wished they would have taken a look at it, because it would 
have been nice to know.
    Mr. Cramer. But you--to this day, you don't know why?
    FBI Phoenix Agent. No, I don't.
    Mr. Cramer. How about Headquarters?
    FBI Headquarters Agent. I am sorry. I do not know why.
    Mr. Cramer. And this is for Phoenix as well as 
Headquarters, we are made aware now of an astounding summary of 
information about terrorist groups--reports of terrorist groups 
that were planning to use airplanes as weapons. Did any of--
were those reports available to you in Phoenix? Were you aware 
of those? Is that partially why you responded to write this 
summary of information, that you were trying to pass up the 
line that was ignored?
    FBI Phoenix Agent. I wasn't aware of all of the situations 
that you discuss, sir. I did have an interest in Islamic 
extremists using or attacking the civil aviation industry due 
to prior and previous investigations I had worked, if that 
answers your question.
    Mr. Cramer. All right. And to the Headquarters agent, did 
you see or hear about the Phoenix EC prior to 9/11? Did you 
yourself have any experience with that?
    FBI Headquarters Agent. I have no recollection of ever 
reading that communication. I did not get--it was not brought 
to my attention before 9/11; and when it was brought to my 
attention post 9/11, that was the first time that I really 
tuned in on it.
    Mr. Cramer. But you were one of the six listed that the 
memo was addressed to, is that correct?
    FBI Headquarters Agent. My name was on the attention line.
    Mr. Cramer. All right. And how to date would that be 
handled differently?
    FBI Headquarters Agent. I am not sure if that would be 
handled differently today in terms of a name appearing on an 
attention line. I can tell you that, based on my position, that 
my name is on hundreds, if not thousands, of documents in that 
building that will probably not be brought to my attention.
    Mr. Cramer. All right. If I could, I would like to get you 
to comment about technology and this process, because we are 
talking about communication. We are talking about names of 
people in a system that responds to that, and I want to know 
how the technology figures into that.
    I understand from the Headquarters agent, from a summary of 
information about your statements in the past, that you found 
the technology inadequate, that you found it not very useful. 
Would you give me more specifics and tell me how you think that 
has affected the way communication occurs, if it has affected 
that?
    FBI Headquarters Agent. The computers--the systems in our 
building are very cumbersome. I have heard from talking to 
analysts, for example, that on a given day you can search a 
name of a subject within ACS and get a set of results. The next 
day--or a second analyst could go into the system and request 
the same information and get a completely different set of 
results. I cannot explain that. My experience comes primarily 
from what I am told by the supervisors and the analysts that 
work for me.
    Another very significant piece that really needs to be 
brought to the attention of this committee is that the 
Counterterrorism Division within FBI is a part of the 
Intelligence Community. The counterterrorism community, the 
Intelligence Community, primarily works in a classification 
level at a TS level, or, in the case of CIA, will frequently 
put HUMINT on communications. Our systems do not go to that 
level of classification. Our computer system is only at a 
Secret level.
    So communications coming into our building from NSA, from 
CIA cannot be integrated into our existing databases. So if an 
analyst is working, say, on a subject in Phoenix division and 
they run that person's name through our databases, they will 
not retrieve information on that person that other agencies may 
also have. It is required of them to get up, walk over to a 
different set of--or a different computer that has access to a 
different database and search that name in that database; and 
the two databases will never come together and be integrated.
    So it is a setup for failure in terms of keeping a 
strategic picture of what we are up against.
    Mr. Cramer. Well, I happen to be on the Appropriations 
Committee as well, and I am on the Commerce, Justice, State 
Appropriations Subcommittee, and we listen to the FBI every 
year, and we--I am an old prosecutor, and I want to give you 
the tools that you need in order to do the job that we want you 
to do. But we ask every year, what do you need in terms of 
technology? Is this a money issue? Is it just a technology 
overload issue? Is the agency so subdivided that you are having 
a hard time getting a handle on that?
    And, honestly, I can't read between the lines as to how--
now, this may not be something for you to answer here today, 
but I am trying to understand from the user point of view of 
what technology you have, what you don't have and how that 
might play into this. The Trilogy system that you made 
reference to, is it anticipated that that will help reorganize, 
to a certain extent, the way communications occur?
    FBI Headquarters Agent. I do not have the expertise to 
speak to that.
    Mr. Cramer. All right. Now, if I could, because time is 
limited, we talked--or it was brought up earlier that there are 
68,000 outstanding or unassigned counterterrorism leads in the 
FBI's electronic Automated Case System. And that that dates 
back to 1995. Are we making any progress? What are we doing to 
improve that? That to me sounds intolerable.
    FBI Headquarters Agent. I have tried to take that on in 
terms of looking at that problem from both the UBL and the RFU 
unit standpoint. We are getting through that system now.
    I think we need to make it very clear, though, because 
there is 68,000 leads outstanding on that point, that does not 
mean that those leads were not handled. Frequently what has 
happened is you have a duplication of a lead. For example, a 
lead will be set for FBI Headquarters to both the 
Counterterrorism Division and the UBL unit. Well, the 
operational unit that would cover that lead is the UBL unit. 
They would maybe clear that lead out, but it would remain in 
the system from the Counterterrorism Division's lead bucket. So 
even though the lead is shown in the computer as not covered by 
the Counterterrorism Division, it is covered by the operational 
unit. So there is a lot of duplication in that. That is one.
    Two is, as I have said in my earlier testimony, is that the 
system is very cumbersome, and people unfortunately have just 
become very frustrated with it, to the point where they have 
somewhat----
    Mr. Cramer. They have no confidence in it? They are working 
around it, is what it sounds like to me.
    FBI Headquarters Agent. That is exactly the case, sir.
    Mr. Cramer. And I would assume that leads are falling 
through the cracks.
    FBI Headquarters Agent. We hope not.
    What will frequently happen, for example, is even though a 
field division sends a lead to Headquarters and ACS, they are 
also e-mailing that communication to the particular FBI 
Headquarters SSA. So they are getting it and working on it via 
the e-mail but not necessarily within the ACS system.
    Mr. Cramer. My time is almost up, but I do want to work in 
one more question, and this is on the Moussaoui investigation. 
You said at Headquarters that this was a priority and that you 
considered Moussaoui to be a threat. Did you alert other field 
offices to the matter in order to determine whether there were 
similar cases in other field offices?
    FBI Headquarters Agent. I can tell you that a September 4 
teletype was written from Headquarters. It was sent to two FBI 
field divisions, and it was sent to elements of the 
Intelligence Community. It was not sent to numerous other field 
divisions, and that is just the nature of how the FBI operated 
in a pre-9/11 environment, namely that we were investigation-
driven.
    The investigation was in Minneapolis. It was in Oklahoma 
City. As leads developed that would have included other field 
divisions, then it would have opened, and we would have started 
to move the investigation out to other divisions. But in a pre-
9/11 environment, we were clearly an investigation-driven 
agency, and unless a particular field division needed to see 
it, they would not.
    Mr. Cramer. Which has to change.
    Thank you, Mr. Chairman.
    Chairman Goss. Thank you very much, Mr. Cramer.
    Senator Hatch, the floor is yours for 20 minutes.
    Senator Hatch. Thank you, Mr. Chairman.
    I would like to direct some questions to Mr. Bowman and Mr. 
Rolince, and of course if any of you would care to comment, 
just raise your hands. I would be happy to have you do it.
    In the wake of the September 11 incident, Attorney General 
Ashcroft worked closely with Congress to formulate--help 
formulate the PATRIOT Act which has provided the law 
enforcement community with necessary tools and resources that I 
feel were long overdue. Among other things, the Act enhanced 
the ability of law enforcement and intelligence authorities to 
share information and coordinate their antiterrorism efforts. 
The Act has updated our laws relating to the electronic 
surveillance.
    We know now that e-mail, cellular telephones and the 
Internet were the principal tools used by the terrorists to 
coordinate their deadly attacks. The sad fact, however, is that 
the bulk of the proposals that were incorporated into the 
PATRIOT Act had been requested by the Department of Justice for 
years but had languished in Congress because we were unable to 
muster the collective political will to enact them into law. 
Now I am concerned that there are additional necessary 
legislative reforms that we here in Congress should be doing 
everything in our power to make into law.
    Now, Mr. Bowman and Mr. Rolince, I am very interested in 
your views on these subjects. Senators Kyl and Schumer have 
identified a problem with FISA, the so-called lone wolf problem 
that I agree is a serious problem and needs to be addressed. We 
held a hearing on July 31, 2002, to examine this issue, and I 
certainly hope and expect this legislation would become law 
this year, because it does enjoy bipartisan support, and it 
would be helpful to you. Do you agree with that?
    Mr. Bowman. Yes, sir. I do agree with that. On July 31, I 
testified on that very matter and submitted testimony which 
explained why the lone wolf has become a modern issue in 
terrorism. Senators Feinstein, Kyl and DeWine and I had quite a 
dialogue on it on July 31.
    The bottom line to it is, sir, there is testimony before 
your committee and in written testimony that you can look in--I 
would be happy to repeat any of it, but I don't want to waste 
your time. I think that it is numbers-wise a huge problem at 
the moment but is certainly a problem we have seen growing over 
the last few years.
    Senator Hatch. Mr. Rolince.
    Mr. Rolince. Thank you, Senator.
    If I could address that from an operational standpoint, 
this has been recognized for the better part of a year, year 
and a half, and we specifically had unit chiefs such as the one 
before you and a prior UBL unit chief bring over the former 
head of OIPR and all of her attorneys to address the problem. 
Because what we were doing was putting agents in a position to 
try to fit people into a group that they didn't--in which they 
did not necessarily belong.
    The last thing that any of us ever want to see happen is 
people standing in front of a FISA court judge and raise their 
right hand and swear to facts that they either do not believe 
are true or are being cancelled, are not sufficient, which goes 
back to the Moussaoui issue, agent of a foreign power, not just 
the foreign power, could you prove him to be an agent?
    So when Senators Kyl and Schumer--in my personal view, they 
hit the nail right on the head. That is exactly one of the 
things that we need to be looking at.
    Senator Hatch. In addition, I believe there are other 
reforms we in Congress need to enact to assist law enforcement 
and the Intelligence Community in their efforts to combat 
terrorism. For example, although the PATRIOT Act enhanced the 
ability of Federal law enforcement and intelligence authorities 
to share information with one another, I understand the 
statutory constraints on the authority of Federal officials to 
share information with their State and local counterparts 
remain and that these constraints apply to information obtained 
through grand jury investigations, wiretaps, FISAs, as well as 
educational records, visa and consumer information.
    Now it seems to me that in order to succeed in this war on 
terrorism it is critical that we have close cooperation in and 
between State and local and Federal officials as well as--and, 
in your view, do existing laws limit your ability to share 
important information with State and local authorities?
    Mr. Bowman. I think there is a--there are some limitations 
here, Senator, which are important. The amendments to the 
FISA--or to the PATRIOT Act on grand jury in Title III 
information runs to Federal officers, which was a great help. 
And I don't want to diminish what a significant change that was 
for us, but it does not allow us to get that kind of 
information to the 650,000 State and local authorities that are 
out there.
    The rules are slightly different, depending on what type of 
information you are talking about. FISA information is not 
included in that kind of a restriction. There are some other 
restrictions that go into it.
    One of the things that the Attorney General has been 
looking into and developing a process for is the procedures 
under which we can get classified information to State and 
locals to help them with their eyes on target.
    Senator Hatch. Don't similar limitations and restrictions 
apply to the information you are permitted to share with your 
international counterparts----
    Mr. Bowman. Yes, sir.
    Senator Hatch [continuing]. Who are cooperating and 
assisting our national efforts to combat terrorism?
    Mr. Bowman. Yes, sir. There are some limitations there. The 
same limitations apply for the grand jury in Title III 
information. There are some speed bumps on other things, FISA, 
for example, to share with--if it is a U.S. person, at least, 
we have--to share with a foreign power, we have to get the 
permission of the Attorney General. We have to make sure that 
they agree to protect the information that we give them and so 
forth.
    Senator Hatch. Okay. Another concern I have relates to 
administrative subpoenas. Isn't it the case that the Federal 
law enforcement officials currently have the authority to issue 
administrative subpoenas to investigate cases involving Federal 
health offenses, child abuse and child pornography, all of 
which are important and very appropriate? However, I have to 
say that you don't have the same authority with respect to 
terrorism investigations. Now doesn't it make sense to expand 
this authority to terrorism cases as well if you are going to 
have that authority for health care offenses, child abuse and 
child pornography?
    Mr. Rolince. Absolutely. The answer is absolutely, Senator.
    We have just locally--here in the Washington field office 
is a great example--moved to entire squads to go after criminal 
enterprises. They are supervised by individuals who formerly 
ran violent crime bank robbery squads and drug squads.
    The first thing they came to me--the first request they 
brought forward was that we try to move down the road to get an 
administrative subpoena, simply because it is faster and it is 
more efficient.
    An Assistant Special Agent in Charge of a field office can 
and does sign those on a regular basis for the kinds of crimes 
you just described. Yet to get that same kind of information 
within a counterterrorism/counterintelligence investigation, 
you can't get it. But you can get a grand jury subpoena or 
national security letter, both of which, although effective, 
are less efficient. We can get it much more quickly with 
administrative subpoena, and we certainly would like that.
    Senator Hatch. Well, as one of the prime authors of the 
PATRIOT Act, I am not finding fault with the PATRIOT Act. What 
I am trying to point out is we wish we could have done better 
for you and that these matters should have been done, but 
sometimes we get involved in some of the politics around here 
rather than doing what is best for the American people.
    Since September 11, there has been a growing concern about 
the risk of a serious cyberattack, particularly one against our 
infrastructure, which could have devastating consequences. Now, 
although the PATRIOT Act included several important provisions 
to improve our Nation's cybersecurity, in my view it did not go 
far enough.
    Just last week I offered an amendment to the homeland 
security bill which, among other things, would give 
communications providers and law enforcement greater 
flexibility when dealing with emergency situations where there 
is a risk of serious bodily injury or death. Specifically, the 
amendment creates a good-faith exception that would allow 
communications providers to disclose communications to a 
government entity such as a hospital or a law enforcement 
agency in an emergency situation involving the danger of death 
or serious bodily harm.
    It seems to me that if somebody wants to bomb on elementary 
school but does not mention when such an attack will occur, a 
communications provider should be able to disclose that 
information immediately and not worry about whether the danger 
is imminent.
    In such a case, where a communications provider believes in 
good faith that the emergency exists, don't we want the 
provider to act quickly without the fear of liability?
    Mr. Bowman. Yes, Senator. I think that is a very important 
point. As we all know now, there has been an extremely large 
number of Internet communications which have been relevant to 
the terrorism investigations. We have been working closely with 
ISPs all over the country, the big and the small, and there 
have been any number of the ISPs who have been bending over 
backwards trying to find ways to help us within the law, and it 
is obvious in some cases that they feel very constrained on 
what they can do. It is also obvious that they are trying very 
hard to do the right thing, and I think your proposal would go 
a long ways towards eliminating the fears that they have in 
trying to do the right thing.
    Senator Hatch. And in protecting the American people.
    Mr. Bowman. Absolutely, sir.
    Senator Hatch. Well, the bottom line is that I believe, in 
addition to examining what intelligence failures occurred 
leading up to 9/11, we in Congress need to do all we can in our 
power to give our law enforcement and intelligence agents the 
tools and resources that they need to protect us from further 
terrorist attack, and I hope that that is part of this review 
process. I hope the Congress will act expeditiously to enact 
these very important reforms.
    But let me just shift here for a minute. The staff's 
statement details chronological intelligence reporting of 
foreign nationals with Middle Eastern terrorist ties seeking 
aviation training in the United States. I think I have counted 
at least 12 or 13 bits of information, classified information 
indicating that our law enforcement and intelligence 
communities had some idea about the possibility of using 
aviation or planes. The reports go back to the early 1980s even 
during the Reagan administration and continue right up to the 
present time.
    Now, as the staff has taken note, this suspicious activity 
spurred FBI headquarters in 1999 to request 24 field offices to 
scrutinize Islamic students from an unidentified target country 
who were engaged in aviation training in these offices' 
jurisdictions. The FBI's international terrorism analytic unit, 
in coordination with the INS, was to consolidate the 
information obtained by the field offices. However, the project 
was never continued, because the field offices did not follow 
through.
    Mr. Chairman, I think this was one of the most serious and 
disturbing sections of the staff report; and I compliment the 
joint inquiry staff for bringing these facts to light. I think 
there is a lot of blame that can go around to people, and some 
of it might rest here in Congress.
    One of the justifications set forth as to why the field 
offices neglected their duties relates to the Buckley 
amendment. Now it is my understanding that, prior to the 
enactment of the PATRIOT Act, the Buckley amendment limited the 
disclosure of educational records to third parties. Under the 
PATRIOT Act, the Attorney General or his designee may now seek 
access to educational records that are relevant to an 
authorized investigation or a prosecution of a terrorism-
related offense or an act of domestic or international 
terrorism. But it is most unfortunate if this legal requirement 
impeded law enforcement's efforts to complete this critical 
project.
    Now, Mr. Rolince or Mr. Bowman, in your view, did the state 
of the law in 1999 indeed make it difficult for field offices 
to complete this critical mission, and that is before the 
PATRIOT Act came into being?
    Mr. Rolince. Senator, I think the answer to your question 
goes in a lot of different directions, both to resources and to 
our inability to effectively carry out our duties.
    The Federal Education Rights and Privacy Act and the 
Buckley amendment certainly stood out there and regulated--
passed by, I believe, your predecessors back in about 1974--the 
kinds of information that the FBI could in fact get from a 
college campus. And the reason it is important is, if you look 
into the numbers--and you don't hear much dialogue about what 
happens if you follow up with the Phoenix EC.
    There are, according to the numbers provided to me by the 
FAA, 108 flight centers analogous to Embry-Riddle University in 
this country that are accredited and for which we would have to 
get a grand jury subpoena to go beyond the name and the address 
of the student, and you would only get the address if that was 
a matter of public record. There are 1,675 flight centers. 
There are in excess of 69,000 certified ground instructors and 
in excess of 82,000 certified flight instructors in this 
country. That, in fact, is the universe.
    I have been to the local law enforcement on the college 
campuses and asked them, quite frankly, if we came and knocked 
on your door asking about individuals on whom we did not have 
pending investigations, what would the response have been, 
assuming you can get past the profile issue? And I will assume 
that somebody smart could have written something that would 
have been accepted by everyone.
    And they basically said to me, you will get the name and 
address, and if you want more, you will have to come back with 
a Federal grand jury subpoena because of that law and that 
amendment.
    I then asked three separate Attorney General-convened joint 
terrorism task forces around the country in different regions--
in Denver, in Washington, D.C. and in Atlanta--just to the 
attorneys in attendance, how many of you would be willing to 
give a Federal grand jury subpoena to an FBI agent to access 
records of an individual on whom we do not have an 
investigation? In all three sessions, among hundreds of people, 
one hand went up.
    So the practicality and the reality of implementing the 
Phoenix recommendations are, quite simply, if you shut down the 
entire bin Ladin program lock, stock and barrel, shut it down, 
touch base with each of those individuals that I talked about, 
assume you get wholesale cooperation, they give you everything 
they have, the mathematics works out to it is a 17-month 
project.
    Senator Hatch. Well, let me mention one other thing. The 
Phoenix memo includes suspicions of terrorist activity that 
were based in part on ethnicity. Now, while some may disagree, 
it seems to me that a general fear of being accused of improper 
racial profiling may have had a chilling effect and caused law 
enforcement agents in this instance, or perhaps in others, to 
be reticent in their investigations.Indeed, I understand that 
the intelligence operations specialists who reviewed the Phoenix memo 
expressed such concerns.
    Now, haven't similar concerns been voiced within the FBI 
and other contexts as well? And if you want to answer that.
    Mr. Rolince. I think you only need to go back to the 
Millennium to get a sense of how the FBI would have reacted if 
we pushed that out the front door. There was a proposal on the 
table to interview every subject of every full and pending--
every full and every preliminary inquiry investigation within 
the UBL program once Ressam came across the border and we were 
concerned about follow-on events for the Y2K. That met with 
overwhelming resistance by the SACs in the field for a lot of 
different reasons, one of which is we would be hounded 
unmercifully over the profiling issue, and we pared it back to 
a listing of individuals and cases and circumstances that 
everyone could in fact agree with.
    Now, the reality is, if you read the communication, it 
doesn't suggest profiling. It, in fact, suggests going out and 
trying to gather a list of everybody from anywhere that is 
coming in to take that training. Practically speaking, that 
would not--that would not be practical. At some point, you have 
to hone it probably to the 60 or so countries that are 
identified as having an al-Qa'ida presence. But at some point 
in time if you come down to Middle Eastern males between the 
ages of 21 and 41 and if you can define it as those who went to 
the camps or not, some would call that a profile. I wouldn't 
disagree.
    Senator Hatch. Well, and that has been working against us 
in this particular case, that you are unable to watch males 
between those age groups, Middle Eastern males.
    Mr. Rolince. If you go back to the Marine Corps barracks 
bombing, up through the annex, the embassy, Khobar Towers, Dar 
al Salaam, Nairobi, there is a consistency and certain traits. 
And I know we are struggling with this whole issue of profiling 
or common characteristics, call it what you will, but those are 
the facts.
    Senator Hatch. Well, legislation introduced by others in 
this Congress proposes to ban racial profiling and prohibit law 
enforcement agencies from relying to any degree on race, 
ethnicity or national origin. Now, do any of you share my 
concern that such so-called racial profiling legislation could 
affect the FBI's ability to vigorously pursue leads which are 
based, at least in part, on ethnicity, and do you deny that 
that was definitely a part of the problem here in these cases?
    Mr. Bowman. Yes, sir. I think you are absolutely right. If 
that legislation were passed and I were asked for legal advice 
on what to do, I would have to follow the legislation, as would 
the special agents.
    Senator Hatch. No matter what the----
    Mr. Bowman. No matter what would happen----
    Senator Hatch [continuing]. As a result in this country.
    Mr. Bowman. And you hear it today. Our agents are extremely 
cognizant of the law, and they are very concerned about not 
going beyond it, and the laws that are passed are the ones they 
are going to follow.
    Senator Hatch. And they were, in these cases.
    Mr. Bowman. Yes, sir.
    Senator Hatch. And these arose in these cases, and they 
were afraid to go out and do anything about it, and they were 
reticent about it.
    Mr. Bowman. That is absolutely correct, and the issue still 
persists.
    Senator Hatch. In May of this year, Attorney General 
Ashcroft announced revised investigative guidelines that are 
intended to enable the FBI to take a more proactive approach to 
prevent and detect terrorism and other crimes before they 
occur. Among other things, the new guidelines permit agents to 
engage in online research on the Internet to employ commercial 
data mining services when necessary to investigate terrorists 
and to access public places that are open to citizens.
    Now isn't it the case that, prior to these guideline 
revisions, agents were restricted from surfing the Internet to 
determine whether there are sites that address subjects such as 
how to manufacturer explosives?
    Let me just add one other--my time is about up, so let me 
add one other part to this. Weren't FBI agents who investigated 
the kidnapping and murder of Daniel Pearle forced to obtain 
information from the Wall Street Journal employees who were 
able to gather information using a relatively simple data 
mining service, because the existing guidelines restricted the 
agents from gathering such information? And under the old 
guidelines, weren't there situations where the FBI was hindered 
in its ability to pursue legitimate investigations because of 
the fear of investigating criminals at this time occurring 
under the guise of political and religious activity?
    So, without revealing any sensitive law enforcement 
information, can you provide some examples of why it is 
necessary for agents to enter public places or events for 
intelligence and investigative purposes and why you should be 
able to surf the Internet and why you should be able to 
overcome some of these limitations?
    Mr. Bowman. I think you have hit the nail on the head for 
much of this, Senator. The reasons for some of those 
restrictions are historical. They go back to events of the 
1960s and 1970s. The restrictions which were put on back in the 
1970s were intended to try to prevent abuses in the future. 
They focused on events and processes that have long since been 
changed.
    The fact of the matter is, everybody in the world knows 
what the weaknesses of our system are as far as being able to 
penetrate it, as far as being able to take advantage of it, to 
whether it is for terrorists or criminal purposes, and if we 
cannot put the agents where the action is, then we are never 
going to be able to fully investigate many situations.
    The fact is, we do have to put agents in open spaces. We do 
have to put them where we expect to find terrorists and 
criminals.
    Senator Hatch. My time is up, Mr. Chairman.
    Chairman Goss. Thank you, Senator.
    Chairman Graham.
    Chairman Graham. Thank you, Mr. Chairman.
    This first question is for all three of the panelists. To 
your knowledge, did anyone in the FBI, either at field or 
headquarters level, see the interrelationship between the 
Moussaoui case, the Phoenix communication, the possible 
presence of Mihdhar and Hazmi in the United States and the 
flood of warnings about possible attacks against U.S. interests 
in the United States, potentially using airplanes as weapons of 
mass destruction? All of that was happening in the spring and 
summer of 2001. Did anybody see the interconnections of those 
events?
    FBI Headquarters Agent. Senator, I will address that from 
the headquarters standpoint first; and the answer to that is 
no. The connection was not made. And I think that goes to a 
number of issues, one being that just the volume of information 
that is consistently being acted upon at both the headquarters 
and the field level, the consistent threats that are varied in 
nature, everything from cars and boats and everything else that 
we consistently see. The volume of work that is handled by the 
people on a day-in-and-day-out basis, it is just--it is 
extremely difficult for individuals to keep these matters 
connected and to see everything and to make these connections 
in their head.
    Again, I think that speaks to two key issues that I tried 
to emphasize here today of a systemic nature, and that is a 
lack of analytical resources and technology. I think in the 
case in which you just stated in terms of making these 
correlations and connections, our weaknesses in both those 
areas need to be fixed.
    Chairman Graham. Do either of the two agents have any 
comments on that question?
    Yes, Mr. Rolince.
    Mr. Rolince. As we noted in a prior hearing, Senator, I 
think it is critical that we keep this in the context of what 
was going on at the time; and, yes, the staff report, which was 
very thorough, talked to a number of different instances 
wherein the use of an airplane or commandeering an airplane 
was, in fact, mentioned.
    I had an analyst go back to January 1 of 2001 and pull up 
the threats disseminated within the FBI's website up through 
September 10 at the Secret level. Two hundred sixteen different 
threats, six of which mention airports, airlines. Three percent 
of what came in at the Secret level in 2001 went to that issue.
    What my colleague I think is saying I think we all agree 
with, is that we literally have every possible kind of threat 
you can imagine coming in day in and day out, and when the next 
attack comes, I have no doubt that we are going to be able to 
go back into the body of threat information, find indicators 
that talk to it with some degree of specificity.
    Chairman Graham. My second question is, assuming that this 
may not be commercial airlines, it may be cargo containers on 
maritime vessels or other forms of threats, that living in the 
environment of a large volume of information and the necessity 
to try to glean from that what is most important and relevant, 
have there been any changes in the personnel, the technology, 
the investigative approach of which in your opinion would have 
changed the answer that you just gave if the circumstance were 
today and not the spring and summer of 2001?
    FBI Headquarters Agent. Would you like me to--from the 
headquarters perspective, I think that the Director is clearly 
moving in the right direction on that, and namely that the 
analysts are coming on board to begin to look at these issues I 
think that that strategic analytical group is beginning to get 
their arms around issues similar to what you are suggesting. I 
think that the technology problems, though, quite frankly, they 
are still there. I don't think they are any better. Again, the 
analytical resources are coming together, but the technology 
being still a major gap.
    Chairman Graham. Any other comments on that question?
    Thank you, Mr. Chairman.
    Chairman Goss. Thank you very much, Mr. Chairman.
    Ms. Pelosi.
    Ms. Pelosi. Mr. Chairman, with your permission, I would 
like to yield my five minutes to the distinguished gentleman 
from Minnesota at the time he comes up in the questions 
process. Being a pilot and, as I say, close to this issue in 
Minnesota, I want Mr. Peterson to have my five minutes at that 
time.
    Thank you, Mr. Chairman.
    Chairman Goss. Thank you, Ms. Pelosi.
    Senator Shelby.
    Vice Chairman Shelby. Thank you. Thank you, Mr. Chairman.
    I would like to direct my questions to the FBI agent at 
headquarters. We have gone through this before, but when FBI 
Minneapolis contacted headquarters on the FISA, for a FISA, 
what date was that, if you recall?
    FBI Headquarters Agent. I think--to the best of my 
recollection, I think we are looking around August 21.
    Vice Chairman Shelby. And what was your concern again 
regarding their request for a FISA at that time?
    FBI Headquarters Agent. We didn't have concern that they 
had a need for a FISA. There was clearly in our minds a need to 
get into that computer and get to those belongings--and his 
belongings.
    Vice Chairman Shelby. Didn't they have to have some kind of 
search warrant, a FISA, a criminal search warrant to get into 
it?
    FBI Headquarters Agent. They could have--the theme that 
quickly materialized was one of a tactical-type decision, 
whether to go towards a criminal search warrant or whether to 
go to a FISA search warrant.
    Vice Chairman Shelby. Did you advise them what to do?
    FBI Headquarters Agent. We put our heads together within 
the operational unit and came up with what we believed to be 
the proper way to go after that.
    Vice Chairman Shelby. Were you the head of the unit?
    FBI Headquarters Agent. Yes, I was.
    Vice Chairman Shelby. Okay. Go ahead, sir.
    FBI Headquarters Agent. I think it was the collective 
opinion of myself and the supervisor who was handling that case 
that we did not see a probable cause for obtaining a criminal 
warrant. But, obviously, we are not attorneys; and I don't 
believe that the supervisor that was handling this matter in 
particular was an attorney. So we elevated that up to the 
national security law unit within headquarters, and we asked 
that the Minneapolis division bring it back to their own chief 
division counsel to try to do a collaborative-type effort to 
make the best decision.
    Vice Chairman Shelby. Excuse me. What kind of time frame 
are you talking about as you kicked it upstairs and then kicked 
it back to the FBI headquarters in Minneapolis?
    FBI Headquarters Agent. I think it was a fairly quick 
movement. I would say within a day we had pretty much----
    Vice Chairman Shelby. A day, you call that a quick 
movement, something that is of that importance?
    FBI Headquarters Agent. In terms of getting the answers and 
in getting the people to put their heads together, I think it 
moved pretty quickly.
    Vice Chairman Shelby. So the answer was no on the FISA, is 
that correct?
    FBI Headquarters Agent. No, that is not correct.
    Vice Chairman Shelby. Well, correct the record, then.
    FBI Headquarters Agent. The decision that we came to in the 
operational unit and within NSLU, if I could speak for them, is 
that FISA was the way to proceed, and I think that was 
substantiated by the CDC in Minneapolis, also.
    Vice Chairman Shelby. Okay. Did the FBI Minneapolis then 
proceed under the FISA and come back to you for clearance or 
whatever you do--permission--under a FISA?
    FBI Headquarters Agent. Right. In terms of the strategy 
that was employed, we moved forward to attempt to acquire a 
FISA search warrant.
    Vice Chairman Shelby. Okay. Did you present--did the 
Justice Department on your recommendation present an 
application for a FISA to the FISA court?
    FBI Headquarters Agent. No application was presented to the 
Department of Justice.
    Vice Chairman Shelby. Why not?
    FBI Headquarters Agent. A decision was made that the 
probable cause standards of FISA were not met.
    Vice Chairman Shelby. And when you say a decision was made 
and you were in charge, was that ultimately your decision?
    FBI Headquarters Agent. It is a collaborative effort with 
the national security law unit.
    Vice Chairman Shelby. Did you notify then Minneapolis of 
some problems they might have had with the FISA application?
    FBI Headquarters Agent. It was voiced to Minneapolis that 
we were having problems with the foreign power issue of the 
FISA application. And I think it is important to note that the 
FISA process never really ends. You know, we were looking at 
that FISA process continually right up until September 10, but 
obviously there came a time when we started to move towards a 
deportation.
    Vice Chairman Shelby. But the clock was ticking all this--
this started in August, and on September the 10 you were still 
fooling around with it--or maybe fooling around is not the 
proper word. You were still grappling with it, is that correct, 
the FBI headquarters?
    FBI Headquarters Agent. It is not uncommon to grapple with 
the FISA----
    Vice Chairman Shelby. Were you still grappling with it?
    FBI Headquarters Agent. Yes. We were still trying to get to 
the foreign power issue.
    Vice Chairman Shelby. Okay. What happened on the morning of 
the 11 September? Did Minneapolis FBI contact you, 
headquarters, again for a FISA or a criminal warrant after the 
Trade Towers were hit?
    FBI Headquarters Agent. I was contacted by an individual in 
Minneapolis division who asked that they be allowed to go 
forward and attempt to acquire a criminal warrant.
    Vice Chairman Shelby. A criminal warrant against Moussaoui 
or a warrant to search the laptop?
    FBI Headquarters Agent. To search both the laptop and his 
other belongings.
    Vice Chairman Shelby. Did you turn that down?
    FBI Headquarters Agent. No.
    Vice Chairman Shelby. Did you approve it?
    FBI Headquarters Agent. I told Minneapolis in no uncertain 
terms they should go forward immediately.
    Vice Chairman Shelby. Well, we have been told that--and I 
don't know if this is correct or not, that FBI headquarters 
turned it down--turned the application again for a search 
warrant down on the morning of the eleventh after the Trade 
Towers were hit and a Federal judge in Minneapolis issued the 
necessary warrant to search the laptop. Is that right?
    FBI Headquarters Agent. That is not accurate.
    Vice Chairman Shelby. Well, explain what is accurate.
    FBI Headquarters Agent. I will, if I could.
    Minneapolis--I received a phone call almost immediately, 
9:50 in the morning or whatever, from an Assistant Special 
Agent in charge of Minneapolis who I knew, and he said to me, 
we would like to go forward with that. I said, absolutely, go 
forward. At that point in my mind, you know, all bets were off.
    Vice Chairman Shelby. And this is the morning of the 
eleventh you are speaking of?
    FBI Headquarters Agent. That's correct. At that point 
Minneapolis went forward and approached the U.S. Attorney's 
Office in Minneapolis and acquired the search warrant and, you 
know, obviously significant probable cause was added to their 
warrant in the fact that three airplanes had smashed into 
buildings and a fourth airplane that was hijacked had crashed 
in Pennsylvania.
    Vice Chairman Shelby. I know my time is up, but could you 
just briefly tell us what was found in the laptop? Can you do 
that?
    Chairman Goss. I think that is----
    Vice Chairman Shelby. Is that----
    Chairman Goss. Mr. Nahmias, you want to give us guidance on 
that?
    Mr. Nahmias. I think the concern is that since that 
happened after September 11--or on September 11 and deals with 
evidence in the criminal case, we----
    Chairman Goss. We won't go that, then.
    Vice Chairman Shelby. I will hold that for a special 
hearing.
    Thank you very much, Mr. Chairman.
    Chairman Goss. Senator DeWine.
    Senator DeWine. Thank you very much, Mr. Chairman.
    First of all, let me thank all five of you for your service 
to our country. We appreciate it very, very much.
    A number of things that have come out of this hearing today 
reinforced some things I think we probably already knew, but 
let me just mention a couple.
    One is that we have saddled the FBI with a communications 
system that is broken. No corporation in this country would 
tolerate it. It is shameful, and from your testimony it appears 
that we still have a long, long, long way to go to fix it. That 
certainly has to be the top priority of this Congress and a top 
priority of the FBI. It is unfair to you. It is unfair to the 
country.
    Second, testimony has reinforced how difficult it is I 
think for the FBI to, when it has to, get out of the case mode. 
I started my career as a county prosecutor. I have some 
familiarity with this area, as many on this committee do. You 
are trying to make a case. You are focused on whether you have 
the evidence to make the case.
    You know, when the Phoenix memo came in, it seems it 
clearly had new information. It mentions some things that in 
hindsight look very, very tantalizing, very, very interesting. 
It is a product, I will say, obviously of a Phoenix agent with 
some very imaginative, creative, good work, good analysis--the 
type of thing that needs to be done and needs to be rewarded in 
our system.
    Your field office didn't seem to think, however, that it 
added very much to what it already knew, and I suspect that was 
because they were looking at it as a case. Did this help them 
make a case? But they failed to see, obviously, the big 
picture.
    And the question to the three of you, is it ever feasible 
to really expect the FBI agents, who have been trained 
historically to look at cases, to look at things from an 
intelligence point of view? Can the FBI really do preventive 
intelligence?
    Let me start with the Phoenix agent.
    FBI Phoenix Agent. Yes, I think we can. I think we have 
demonstrated that since our very inception, I believe. I will 
just point to the examples during the Cold War, the FBI's 
counterintelligence division during the Cold War and the 
effectiveness we had against the Soviets----
    Senator DeWine. Do you disagree with the premise, then?
    FBI Phoenix Agent. Yes, I do disagree with the premise. I 
think we need more resources, more analysts, more support 
persons to attack this problem. I personally feel--it is my 
opinion that we cannot do everything that we are mandated to 
do, both criminally and from an intelligence point of view, and 
do it all well.
    Senator DeWine. Good point.
    FBI headquarters?
    FBI Headquarters Agent. Clearly, I think that we are up for 
the commission. I will echo my colleague's sentiments. I think 
it comes down to redirecting resources. I think clearly 
analysis is going to be a big piece of it, and then a bigger 
piece is training, and the training issue is one that 
headquarters has to grab the bull by the horns right now and 
get our people trained to look at these issues from a national 
perspective, from a strategic perspective.
    Senator DeWine. And the Minneapolis agent.
    FBI Minneapolis Agent. Sir, I think we are absolutely up to 
the task. The type of people that are recruited into the FBI 
are people that are multifaceted and people that look beyond 
just what is happening in their own backyard. As evidenced by 
the way we attacked the problem in Minneapolis, we were 
interested in exploiting the information that we had in the 
government's possession, because we thought it might speak to 
either a larger conspiracy or ongoing cases that were already 
proceeding in other divisions in the FBI. We were clearly 
focused on the bigger picture and were not with this myopic 
look at a single case or a single criminal act.
    So, absolutely, we are up to the task; and I think that is 
going on in field divisions right now. I think it can happen to 
a greater degree and much more effectively, but the type of 
people that are working these cases are the people that have 
clearly an international focus.
    Senator DeWine. Well, I think your testimony has been very 
helpful today. I think your answers just a moment ago, all 
three of you, are very helpful. You have listed a number of 
things that, frankly, fall outside of your responsibility, that 
go to things such as resources, that go back to our 
responsibilities, and I hope Congress will heed your advice.
    Thank you, Mr. Chairman.
    Chairman Goss. Thank you, Senator.
    Senator Levin.
    Senator Levin. Thank you, Mr. Chairman.
    First, I have two requests of our chairmen before I ask my 
questions. One is, I would request that there be a redaction 
and then a release publicly of both the Phoenix memo and the 
Minneapolis documents. I have made a request many, many months 
ago, back in May or June, for the public release after 
redaction to protect sources and methods. The letter I get back 
from the FBI was that they hope to do this at some point in the 
not-too-distant future. It is still not done. It is an 
essential part of our investigation, I believe, that the 
documents with proper redaction be released publicly. Without 
that, accountability is less likely. So I would ask the Chairs 
to take that under consideration.
    Secondly, I would like to highlight a portion in the staff 
reportthis morning on page 23 where, near the bottom of that 
page, it says that a CIA officer detailed at FBI headquarters learned 
of the Moussaoui investigation from CTC in the third week of August. 
The officer was alarmed about Moussaoui for several reasons. Those 
reasons are stunning quotes, if I can put it that way, from documents 
which I can't see any reason should not be released, and I would hope 
that the Chairs and the Vice Chairs would get together and see whether 
or not we can get the disclosure of those quotes.
    This was at a time when the CIA stations were advised of 
the known facts about Moussaoui. All I can tell you is that the 
references in the report are to specific decisions, findings 
made by that officer, which are directly relevant to this 
investigation, into the events of 9/11. So I would ask that our 
Chairs would consider that request as well.
    Chairman Goss. That request has already, in fact, been 
made. It is a work in process. I am not sure how it is going to 
come out. But you will be advised.
    Senator Levin. The first one as well?
    Chairman Goss. Yes, sir. Both of those.
    Senator Levin. Now the questions. This would be for our 
headquarters agent. The Phoenix FBI agent recommended that FBI 
headquarters ``should discuss the concerns raised by the agent 
in the Phoenix memorandum with other elements of the U.S. 
Intelligence Community, and task the community for any 
information that supports Phoenix suspicions.''
    I gather that was not done, is that correct? And if so why 
not, briefly?
    FBI Headquarters Agent. I have learned, obviously post 9/
11, of some of the actions that were taken both by the field 
and by the analysts. In fact, it is my understanding that our 
Phoenix division had, in fact, discussed a number of the 
subjects, in fact, maybe all of them, and maybe my colleague 
could complete on this also with the CIA. And at a couple of 
meetings the issues of--the issue of the infiltration of the 
airline industry by terrorist subjects was discussed.
    Senator Levin. So therefore, are you saying that FBI 
headquarters, specifically your unit, did, in fact, discuss the 
concerns raised by the agent with the Intelligence Community? 
Is that what you are saying, that you acted on that request?
    FBI Headquarters Agent. No, I am not.
    Senator Levin. Why did you not act on that request?
    FBI Headquarters Agent. I can't answer that except to speak 
to what I learned post 9/11.
    Senator Levin. All right. Well, that doesn't then answer 
the question.
    You don't know why you didn't act on that request at the 
time, is that the answer to the question?
    FBI Headquarters Agent. That is correct.
    Senator Levin. Now, the next question then relates to the 
Minneapolis issue. In the case of Phoenix, you have an agent 
who requests specifically that his concerns be shared with the 
Intelligence Community. You did not act on that request, 
inexplicably. Now we have got another similar situation in 
Minneapolis.
    But here, apparently the Minneapolis division did notify 
the CIA's counterterrorist center, the CTC, and according to 
Ms. Rowley, was, in her words, chastised for making the direct 
notification without the approval of the FBI.
    Now, let me ask our Minneapolis agent. Do you know if that 
statement of Ms. Rowley is true?
    FBI Minneapolis Agent. That is true, sir.
    Senator Levin. All right. This to me goes to the heart of--
--
    FBI Minneapolis Agent. Excuse me, if I may qualify that a 
little bit. It is true to a point. The word ``chastised'' is 
perhaps a little prejudicial here. I did receive a 
communication from a supervisor at FBI headquarters that 
indicated his preference would be that we contact FBI 
headquarters to coordinate any intelligence sharing with CIA 
headquarters.
    He indicated to me that the information flowed better when 
they were communicating headquarters to headquarters. I know 
that has been a longstanding preference of FBI headquarters.
    Senator Levin. Did you or she consider that to be a 
reprimand of sorts, a correction of a previous action?
    FBI Minneapolis Agent. It seemed to me to be a direction of 
FBI headquarters to cease and desist.
    FBI Headquarters Agent. I would like to speak to that if I 
could.
    Senator Levin. I am out of time.
    Chairman Goss. You are out of time. I would yield you an 
additional minute because you took a minute on administrative 
matters which are a benefit to all of us. So if you would like 
the additional minute, it is your choice, sir.
    Senator Levin. If you can do that in 30 seconds, that will 
give me 30 seconds for my last question.
    FBI Headquarters Agent. I can. Namely, the supervisor who 
was handling that matter is the person who is going to be the 
affiant on the FISA. That individual has to be aware of 
everything that is going on in that case.
    And communications cannot be kind of going around him. The 
reality of it is, is things do work much better when they go 
through headquarters. There was no effort to hinder in any 
manner communications between CIA and FBI.
    In fact, I can tell you from firsthand experience with my 
conversations with CIA, and with our FBI representative at CIA 
during that time frame, that there was exceptional flow of 
information back and forth.
    Senator Levin. This is a very quick question. It is one 
thing where there is reticence on the part of agents where 
there are legal barriers to take certain actions. But, where 
there are no barriers, that is where we get into trouble, it 
seems to me. That is where I have difficulty understanding the 
failures to act.
    One of the great failures here had to do with the FISA 
warrant, what is the standard for getting a FISA warrant, and 
the so-called foreign power provision, which you viewed or were 
told was a barrier, erroneously, by the legal division at FBI. 
Apparently it was established by Senator Edwards it was 
erroneous.
    Now, my question is this: I read the law. The legal advice 
is clearly erroneous. You don't have to have a foreign power, 
you have a foreign terrorist group. That is enough for a FISA 
warrant under the law as it existed.
    FBI Headquarters Agent. A foreign power with regard to a 
FISA in a terrorism case would be a terrorist organization.
    Senator Levin. Exactly right. The terrorist organization is 
enough. Yet, this was not pursued because you were told that 
you had to prove that there was a foreign power connection.
    FBI Headquarters Agent. No, that is not true.
    Senator Levin. If that is not correct, fine, I will let 
Senator Edward's Q and A answer that.
    My question is this: Apparently there was an acknowledgment 
that there was a misinterpretation of the law. Okay. How many 
FISA requests were denied based on that misinterpretation of 
law, in addition to the one that we are talking about here? 
That is a very specific, numerical question. How many requests 
were not approved based on the misinterpretation which was 
acknowledged or explored by Senator Edwards?
    Mr. Bowman. May I briefly answer that, if I may, Mr. 
Chairman? I don't know of any other instance in which something 
like this came up. But I don't think, Senator, that Senator 
Edwards' questions got quite to what you were focused on there. 
The fact of the matter is that the agent of a foreign power is 
something that is not defined in the statute, but is addressed 
in the legislative history, which we have to follow, because 
that is where we get an explanation of it.
    An agent of a foreign power in the legislative history 
describes a knowing member of a group or organization, and puts 
an onus on the government to prove that there is a nexus which 
exists between that individual and the organization which would 
make it likely that that individual would do the bidding of the 
foreign power. That is the stretch that we weren't able to get 
to.
    Mr. Rolince. Mr. Chairman, I think that is absolutely 
essential, because there seems to be a disconnect between 
whether or not we did not get the FISA because we could not 
connect him to a foreign power.
    We did not get the FISA because the decision came out, in 
consultation with OGC, that we could not plead him as an agent 
of that foreign power.
    Senator Levin. If I could put in the record the definitions 
of foreign power in 50 U.S. Code Section 1801(A). And foreign 
power is defined as, including in Subsection 4, a group engaged 
in international terrorism, or activities in preparation 
therefore.
    Mr. Rolince. No disagreement, but we have to prove that he 
is an agent of that foreign power.
    Senator Levin. Of that group?
    Mr. Rolince. Right. That is where we were lacking, that he 
was an agent of that group.
    FBI Headquarters Agent. If I could, this is a very 
significant issue, and one that we should probably take up a 
closed session. And it needs to be explored, because this is a 
problem that we are going to face many times now in the future. 
And this issue of how to get at these so-called lone wolves 
needs to be addressed.
    Chairman Goss. Thank you very much. We will do that. And we 
have in plain text up here what Senator Levin has just held up, 
it is in our briefing books. We are reading it obviously as 
layman, not as operatives in the field, or people having to 
deal with it. Obviously this needs more dialogue. We will 
arrange to have it in a freer atmosphere for those of us who 
have to deal with this stuff. I think your suggestion is 
excellent.
    We will proceed now to Mr. Roemer.
    Mr. Roemer. Thank you, Mr. Chairman. Mr. Chairman, I want 
to, first of all, thank and also commend particularly the 
agents from Phoenix and Minneapolis.
    As we look back on the horrors of September 11, we find 
that going back to Minneapolis and Phoenix, there were, in 
fact, field agents out there that found clues that could have 
brought more attention to these matters, that pieced together 
important ingredients and evidence in the case, that may 
significantly help us down the lines. So I want to thank you 
for your hard work and your successful work in some ways.
    Given your experience in the field, given your assessment 
of the threat, given your knowledge of where al-Qa'ida may 
operate successfully in this country--first of all, the Phoenix 
agent--how likely is it that we are going to be hit again? And 
when do you think that may take place?
    FBI Phoenix Agent. Well, this would be purely speculation.
    Mr. Roemer. That is all I am asking.
    FBI Phoenix Agent. I believe that, first of all, that the 
watershed event for the international terrorism community took 
place on February 26, 1993. And I wish we had these type of 
hearings back then to address that threat, because I believe 
that that was the first page of a new chapter in American 
history. I believe that the enemy is here, is ingrained in our 
communities and is willing to strike again.
    I just--I couldn't tell you when. I believe that we are 
making some headway and having some success with disrupting his 
activities in the country as is evidenced with what took place 
a couple of days ago in Buffalo and elsewhere around the 
country.
    But, to give you a time frame----
    Mr. Roemer. On a scale of 1 to 10, Phoenix Agent, how 
likely do you think a hit from some of these terrorist groups 
might be, 10 being very likely?
    FBI Phoenix Agent. I would say it would be low right now. I 
would say 1, because of our offensive efforts post 9/11.
    Mr. Roemer. That is in country or from outside?
    FBI Phoenix Agent. I can only speak for inside of country.
    Mr. Roemer. Minneapolis agent.
    FBI Minneapolis Agent. Sir, I am unfortunately not prepared 
to answer your question, because circumstances concerning my 
assignment have changed significantly since my involvement in 
this case. I don't have current information or access to the 
current information because of my present assignment. And for 
me to speculate would be completely out of scope.
    Mr. Roemer. I appreciate your honesty, and I appreciate the 
hard work that you did prior to this.
    Coming back to the Phoenix agent, I want to say that from 
our testimony from Eleanor Hill, she quotes New York FBI 
personnel who found your Phoenix memo ``speculative but not 
necessarily significant.''
    I, on the opposite hand, find it significant, because it 
was speculative. You almost laid out the case for a strategic 
analyst that, piecing together different threat assessments and 
different clues coming in, that this might well happen at some 
point in the future, but that it could be happening in other 
places in the country.
    We are told that five intelligence research specialists, 
strategic analysts were transferred from the analytical unit to 
the operational unit, and in the opinion of one of the 
interviewees in the strategic analytical capability, the FBI 
against al-Qa'ida, that it was ``gutted.''
    Do you have any comment on the state of the strategic 
analysts prior to 9/11?
    FBI Phoenix Agent. I don't have any information concerning 
what took place at headquarters in terms of the downsizing and 
transferring of people. But, as I testified earlier, we in the 
field, I in particular, I can speak to myself, saw a decreased 
amount of analytical material that came out of headquarters 
that could assist somebody like myself in Arizona.
    Mr. Roemer. I hope that we are dealing with that, both from 
a training and a resource capability now and looking into the 
future as well, too.
    Finally, FBI headquarters agent, you said in response to a 
question from Mr. Cramer that your name was on the Phoenix memo 
to headquarters, but you did not recall seeing it. Is that 
correct?
    FBI Headquarters Agent. That is accurate. I do not believe 
I ever saw that communication. In fact, I think your 
investigators for this committee that have been investigating 
this matter have confirmed that the best they could.
    Mr. Roemer. I am not so much going to try to grill on 
whether or not you recall seeing it, not reading it or passing 
it on. What you said afterwards concerns me about the system a 
little bit more.
    You said that you still do not see some things with your 
name on it, sometimes that could amount into the hundreds of 
memos or documents going through FBI headquarters. So if there 
is another Phoenix-type memo coming through, you may not see 
it.
    And maybe there are three or four other names on that memo, 
but I want to be reassured that three or four of those people, 
including you, would see it this time and be able to act on it. 
Are we going to fix the system so that those four or five names 
or six names in this instance--however many were on it--that 
they are seeing it, reading it, and responding to the field 
offices.
    FBI Headquarters Agent. That is a fix that comes with 
technology and resources.
    Mr. Roemer. So it is not fixed?
    FBI Headquarters Agent. It is not fixed. I think this has 
to be clear, nor do I need to see everything on--as an 
individual, I cannot possibly see and consume every piece of 
paper. Unfortunately, there is a culture in the FBI where names 
go on attention lines. That is not necessarily necessary. I 
think it needs to be focused on program responsibilities or 
cases, and field division responsibilities.
    Just because of my position, they tend to put my name on 
that communication. I myself do not necessarily need to see it 
nor could I possibly take on all of those pieces of 
communication with my name on it.
    Mr. Roemer. I would just hope they take your name off it, 
and the people that would have their name on it would be 
reading it and responding to it. Thank you, Mr. Chairman.
    Chairman Goss. Thank you, Mr. Roemer. Mr. Peterson, you 
have ten minutes, sir.
    Mr. Peterson. Thank you, Mr. Chairman. I want to thank Ms. 
Pelosi for her kindness in giving us some time. We in Minnesota 
are probably, as you expect, probably a little more focused on 
what we are talking about today than other places. And I wanted 
to commend theagent from Minneapolis and all of the other 
people. We are proud of the work that you do. And you folks did a great 
amount of work, and a very good piece of work on this issue. I want to 
thank all of you for what you do for your country.
    Now, having said that, I want to bring up a couple of 
things that keep coming up. I want to try to sort through this 
sequence a little bit.
    I just heard this again today, and I wanted for the 
Minneapolis FBI agent to clarify this, that someone brought up 
to me during the break, that the flight school had called the 
FBI office in Minneapolis two or three times before they got a 
response. This has been printed before, and as I understand it, 
that is not the case. Are you familiar with what happened 
during that?
    FBI Minneapolis Agent. I am not at all aware of any prior 
telephone calls. I have heard that also in the past. We have 
been unable to confirm that in Minneapolis. I can tell you the 
first call was August 15. That happened about 1 o'clock in the 
afternoon. And immediately following that call, the agent hung 
up the phone, came into my office and the intelligence case was 
opened.
    Mr. Peterson. That is--I just wanted to get that on the 
record. That is the way I understood it.
    Also in Ms. Hill's statement today, she says that the 
supervisory agent in Minneapolis told the joint inquiry staff 
that the FBI headquarters had suggested that Moussaoui be put 
under surveillance, but the Minneapolis office didn't have 
enough agents to do that.
    It wasn't too long after this all happened that he was 
arrested because he was an INS violation. But is that true? Was 
there a decision made to where they couldn't put him under 
surveillance because there weren't enough people? And that 
raises a question of how much of a priority this was in some 
people's minds.
    FBI Minneapolis Agent. That statement is partially true. 
The decision on whether or not we were going to put Mr. 
Moussaoui under surveillance rested with me. And I made the 
decision that he was going to be arrested because we had a 
violation. The INS was participating as a member, a full member 
of our joint terrorism task force.
    My background in the criminal arena suggests that when a 
violation occurs and you can stop further or potential criminal 
activity, you act on that.
    So that is exactly what I instructed the agents to do. If 
we had the possibility of arresting him, we were going to 
arrest him. If we needed to surveil him, we certainly could 
have instituted a surveillance plan.
    Mr. Peterson. That was not an issue?
    FBI Minneapolis Agent. It was not appropriate to do in this 
case.
    Mr. Peterson. Now, on this whole issue of trying to get at 
his computer and his effects, I understand that initially you 
were looking for a criminal search warrant. Is that----
    FBI Minneapolis Agent. The initial telephone call I made to 
the radical fundamentalist unit was to request a notification 
to the Department of Justice's Office of Intelligence Policy 
Review to grant us concurrence to walk across the street to the 
United States Attorney's office and discuss the possibility of 
a criminal warrant. That was not to say that we were committed 
to getting a criminal warrant, because as the FBI headquarters 
agent has mentioned, the feeling of FBI headquarters was we had 
not yet reached the threshold of probable cause to obtain a 
criminal warrant.
    I don't disagree with that assessment. And when the 
information came to light that we would be better instituted to 
pursue the FISA warrant, because it granted us greater options 
or a larger number of options in the future, it was very clear 
that that was the right decision, was to pursue it as a FISA 
matter. That is the way we went.
    Mr. Peterson. Now, there was some concern that if you went 
through the criminal process and were turned down, that it 
would jeopardize your FISA request too, as I understand it?
    FBI Minneapolis Agent. Yes, sir.
    Mr. Peterson. We got some indication that this--I guess 
this was asked earlier--that there was some kind of adversary 
relationship between Minneapolis and headquarters, that there 
had been some issues before in these areas, and apparently both 
of you gentlemen weren't there long enough to be aware of that.
    Mr. Rolince, do you know that? Would that have been a 
factor in all of this? And we also have the reprimand of 
Colleen Rowley talked about. Was there some kind of problem 
between Minneapolis and headquarters that affected this?
    Mr. Rolince. No. It absolutely should not have been a 
factor. If there had been a prior disagreement between the 
supervisor at my colleague's unit and any agent in Minneapolis, 
it certainly had not been raised with management within the 
international terrorism operations section prior to that.
    So I would take it to mean that, if there were some issue, 
it wasn't significant, because nobody brought it to anyone's 
attention to do anything about it.
    The second part of your question. I think it is important 
to understand that you don't want 11,000 agents in the FBI 
picking up the phone calling back to CIA or INS or State 
Department or any other headquarters in Washington with their 
leads. There is a rational, logical reason why leads come into 
headquarters. There is a headquarters-to-headquarters dialogue. 
And the answer goes back out. In this instance, at that time, 
there was a memorandum of understanding between the FBI and the 
CIA that that is exactly how we would handle inquires from the 
field. That is more effective. It is more efficient. And it is 
the way our counterparts in Washington want it to work.
    Mr. Peterson. There is also some information that the 
headquarters didn't think that the people in Minneapolis 
understood the FISA process, and the people in Minneapolis were 
very frustrated, I think, in the way this whole--they really 
were frantic to try to get at this stuff. How are people in the 
field trained on FISA? Are they only trained at Quantico, or do 
they get updated on court decisions and legal changes? Now, do 
you--an agent in the field, are you trained on this at all?
    FBI Minneapolis Agent. I had received no training on the 
FISA process prior to this incident. I--my background had been 
as a domestic terrorism investigator. I had received some 
fairly extensive training on the Attorney General Guidelines 
and matters related to domestic terrorism.
    FISA problems, or the FISA Act is not often, if ever, 
invoked in domestic terrorism measures. So personally, I had 
not had any. However, there were other agents on my squad, the 
agent who was assigned as the case agent in this matter and an 
agent who was assigned to the parallel criminal case, post 
September 11, who had received some in-service training from 
Quantico, in addition to the on-the-job training and training 
from the supervisor that preceded me, in how to handle the FISA 
matters.
    So there was an understanding of the FISA process in 
Minneapolis by the specific case agent as evidenced by the fact 
that this case agent had a couple of prior FISAs, and had been 
through the process before.
    FBI Phoenix Agent. Sir, if I can address that issue as 
well, I have been working counterterrorism matters for 
approximately 13 years. During the course of my career I have 
been to several in-services at Quantico that give us updated 
training on the FISA process--how to put together the packages, 
what is needed to make them successful.
    Most recently I was at a FISA in-service just right after 
9/11 where we addressed some FISA issues as well. So I have had 
the benefit of having that training. And the training is 
available and has been put on by our national security law 
unit.
    Mr. Peterson. I know there was a lot of frustration in the 
Minneapolis office. I stopped by there shortly after 9/11 and 
so forth.
    Was there ever any attempt by anybody in Minneapolis to go 
above the radical fundamentalist unit, to try to jump over them 
and try to get somebody at a higher level to listen to what you 
were talking about?
    FBI Minneapolis Agent. I took the information, as I 
mentioned earlier, to my immediate supervisor, who was an 
assistant special agent in charge. He also happened to be 
acting as the special agent in charge of the office.
    So there were some internal concerns, or really some 
demographic things that were happening within the Minneapolis 
office at the time that this matter was under way.
    We did not have a Special Agent in charge of the office. So 
we had an acting special agent in charge acting in his stead or 
her stead. We did not have a full-time supervisor on this 
squad. I was acting as the supervisor in the absence of someone 
who had recently been promoted. So the networks that are 
established by those management personnel that are normally in 
those key positions would definitely have come to play or could 
have come to play had the circumstances been a little bit 
different.
    When I took the information up to my assistant Special 
Agent in charge, I provided him with a list of the names of the 
people who were supervising the radical fundamentalist unit, 
and in fact the people who were supervising the international 
terrorism operations section.
    And I--I am prepared to speak to you today as to why those 
telephone calls were not made. I requested that they would be 
made.
    FBI Headquarters Agent. If I could add to that also, as the 
chief of the unit at the time, I want to be very clear, 
probably in my own defense here, that I was not made aware of 
the issues in terms of Minneapolis's frustration with regard to 
this process. I think that clearly there was some 
miscommunication. I think some of the frustration was driven by 
that miscommunication. And obviously in hindsight, I very much 
would have wanted a phone call, and unfortunately that did not 
take place.
    Mr. Rolince. If I could take 30 seconds on that, I think it 
is critical to understand that on a regular basis field offices 
around the country, SACs visit the office, they are on the fax, 
they are on the fax, they are on the phone, they are on the e-
mail. It is a regular occurrence to lobby for your FISA, to get 
it moved up in terms of priority or to make an appointment with 
OIPR, to debate the issues and the merits of your FISA.
    That is something as you look for things you can do better, 
we, clearly in the FBI, are looking for things that we can do 
better, in encouraging that dialogue. That is certainly one of 
them. We should not have chief division counsels who are 
peripheral to an issue where you are desperate.
    The chief division counsel in all 56 field offices--and 
this is a problem we have identified from years ago--needs to 
be a player within the FISA realm. Their forte, their expertise 
for years has been Title III. There has been a reluctance to 
jump on and get educated and be part of this process. Instead, 
they defer to NSLU, which overburdens the people at 
headquarters. So it is something that the Bureau has 
recognized, we need to continually promote, and it has to 
happen in order to make a more effective system.
    Mr. Peterson. Thank you, Mr. Chairman.
    Chairman Goss. Thank you, Mr. Peterson. I appreciate it. 
Before I go to Senator Mikulski, it has been brought to my 
attention that we have two other distinguished visitors; 
Senator Shelby's wife, Annette, and my wife Mariel are here. 
And we welcome them also and appreciate your patience with us.
    Senator Mikulski.
    Senator Mikulski. Thank you very much, Mr. Chairman. First, 
to the men testifying, and really to the men and women that you 
represent, know that I believe, as this United States Senator, 
I have tremendous respect for you.
    And I have tremendous respect for what you do every day. 
While the rest of us are eating Thanksgiving dinner or are 
opening Christmas presents, you are out there in the field, and 
you have missed many a family event, and all of the things that 
we know go into it. And I believe from just the testimony that 
we have heard, that the agents in the field and the field 
offices were really doing their job.
    And to the Phoenix agent, your rebuke of Congress is well 
taken. I accept the validity of that rebuke. I am not one of 
the ones who wagged on you or made you public or whatever. But 
I think that statement was well taken. And for this committee 
to have effective oversight, and to expect the cooperation of 
the agencies, we need to make sure that we protect you, while 
we are asking you to protect us.
    So I think that statement of yours was very well presented. 
It was presented in an excellent, forthright way. And I 
appreciate it.
    FBI Phoenix Agent. Thank you.
    Senator Mikulski. I want to go to really solutions. Much of 
our inquiry has been kind of looking back. I would like to look 
ahead. And with three men who had incredible responsibility 
during this time, and who I am sure have agonized day after 
day, memo after memo what could have been done differently, I 
would like to ask you to share with the committee what you 
think would be the top three things you think the Congress 
should do, or your agency should do, to really improve our 
situation and to make sure that these kind of gaps and so on 
would never happen again.
    And if you could just go down the line, because I was 
looking at the issue of a smoking gun. There isn't a smoking 
gun. Are there systemic issues? Yes. So if we look at the 
systemic issues, then what are the solutions?
    FBI Phoenix Agent. Speaking for Phoenix, the top three 
things that I would like to see. And number one is the most 
imperative, is the additional resources applied throughout the 
Intelligence Community with our analytical capability. There 
should be one place established where raw intelligence from the 
field, both from overseas and within the United States, from 
all of the different intelligence agencies that are out there 
collecting gets dumped and analyzed and looked at and raw 
material put into a--analytical product and gets disseminated 
to the officers in the field.
    The second thing is the need for more investigators here in 
the United States within the FBI. We talk about this in our 
squad areas every day. We cannot continue to do the number of 
things that we are charged with doing with the number of agents 
we have. 11,000 agents, when you think about it, for a country 
of close to 300 million is amazing. When you look at cities 
like New York who have 35,000-plus police officers trying to 
protect their citizens, certainly I think we need more agents 
to do the job.
    And third is, we need to increase our technical 
capabilities, our information flow. I mean, in direct reference 
to my memorandum, we should have a capability to wash and then 
rewash visa applicants through the U.S. Intelligence Community 
databases to see if anybody that is applying for visas to come 
into this country are known to the U.S. Intelligence Community 
as being involved with terrorist organizations. And not to 
mention, as we have heard, time and again today, better 
information technology for us in the FBI so we can communicate 
with each other more effectively.
    Senator Mikulski. Thank you. Would the agent who handled 
Moussaoui go next, and then we will wind up with headquarters.
    FBI Minneapolis Agent. Ma'am, I would reiterate a lot of 
the things that he said. Technology is certainly something I 
think that we have languished well behind the business 
community. It was mentioned that no business in America would 
operate with a system like we have. I would argue that very few 
private citizens in America would be satisfied with the system 
that we are operating with.
    Technology clearly is of high, high priority on my list. 
The resources, to include the analytical resources, be it 
training of those analysts, and the recruitment and retention 
of personnel really at all ranks of the FBI, that would 
probably be my second point.
    And finally is the training issue itself. We have a 
tremendous number of agents who are very, very capable in the 
disciplines that they are already trained in. However, a lot of 
them, since September 11, 2001, have now been transferred to an 
arena that they have never been exposed to before, or the 
initial training that they had fell short of things that were 
occurring in--or the world as it was prior to September 11, 
2001, or really no real sensitivity to the issues that are 
related to counterterrorism.
    So additional in-service training and training of the 
agents who have been reassigned in addition to the agents who 
are already assigned to this type of mission really needs to be 
a priority.
    Senator Mikulski. My time is almost up, but they will let 
me finish.
    FBI Headquarters Agent. From a headquarters standpoint, I 
am going to go back to my two main themes as what I see as 
systemic problems. And clearly they have been hit on. The 
technology, number one. The FBI is a member of the Intelligence 
Community. We have to be able to communicate with them. We have 
to be able to have databases that can be integrated with them, 
and rightnow we do not. It is a major problem. It is a major 
problem for our analysts.
    Number two, analytical resources at headquarters. You have 
heard this throughout today's testimony. From a tactical 
standpoint, we have outstanding tactical analysts that do a 
phenomenal job day in and day out. Unfortunately, from a 
strategic analytical standpoint, the resources are woefully 
inadequate.
    Finally, from a real operational standpoint, I think we 
need to have a hard look at foreign students in our 
universities. And I can't get into more than that in this 
setting. But I think it is an issue that we need to address in 
a closed session.
    Senator Mikulski. Thank you. My time is up. But thank you 
very much.
    Chairman Goss. That is an issue that has come to the 
attention of the appropriate oversight committees. I am sure it 
will continue to be.
    Senator Feinstein.
    Senator Feinstein. Thank you very much, Mr. Chairman. That 
is an issue that we did have hearings on in the Technology and 
Terrorism Subcommittee of the Judiciary. And as a matter of 
fact, part of the Visa Reform and Border Security Act deals 
with tightening the myriad of loopholes that exist in the 
foreign student program. If you have any other recommendations, 
I, for one, as the Chair of that subcommittee, would love to 
have them, because we are going to be holding an oversight on 
progress with respect to terrorism in that area.
    But I wanted to ask you, Mr. Bowman, if I might, this 
question: Just quickly following up on Senator Levin's 
question, as I understand it, then, the FBI's national security 
lawyers essentially used the wrong standard of designated 
group, ergo Chechen, not on the list, ergo not designated, 
rather than any group, and some three weeks was taken in that 
endeavor.
    Then I think Senator Levin asked the question: Well, how 
much other FISA requests went through the same thing? Is the 
answer there was no other FISA--this was the only FISA request 
that happened to encounter that kind of false standard?
    Mr. Bowman. Two different parts of your question, Senator. 
First of all, no one in the national security law arena said 
that the Chechens were not a power that could be--that could 
qualify as a foreign power under the FISA statute.
    The issue that came to us was whether there was any foreign 
power to which you could attach Moussaoui. And we did not see 
that.
    The second part of your question was whether there are 
others who have been given an erroneous standard, whether there 
were other FISAs that did not come to us because there was an 
erroneous standard. I don't know what I don't know.
    This is the only time that I have heard that advice was 
actually given that you don't have--you don't have a foreign 
power, because there isn't a recognized one. That is certainly 
not what we train them to.
    Senator Feinstein. Just a suggestion. It might be well to 
take a look and see if there are others. It would be 
interesting to know.
    I wanted to make an observation and see if the agents 
couldn't comment on the observation. The Phoenix memo 
essentially happened during the month of July. I remember that 
month very well, because we in the Senate were having hearings. 
The intelligence, so-called chatter was at a high.
    The anticipation was that the United States was going to 
experience either here or abroad on our interests or our people 
some kind of attack. There was a real sense of alert. And I 
think other members of the committee shared this sense as well. 
And I think it was well known out there.
    Now, into this comes this memo--and I have read it several 
times--which is thorough, which is well documented, which 
contains good investigative leads. Additionally, from an 
intelligence perspective, UBL and that organization had been--
we learned--on the front burner, the highest administrative 
priority since about 1999.
    And yet the memo, which went up the procedures to then at 
least five different people, it didn't apparently strike 
anybody with any sense of urgency to take another look. Despite 
what everybody says, I find that interesting.
    And my question to you is, other than a strategic analytic 
unit, which I understand from the Phoenix agent is a 
substantial lacking in the FBI today, other than that, did you 
have any strong feeling, because you have said you felt like 
you were kind of an isolated person in Phoenix, to just get it 
on the desk of the FBI Director, get it to somewhere else, 
because you had done a lot of work on this memo.
    This wasn't just, you know, off the cuff. This was a 
substantial research, a lot of expertise, there was a lot of 
history and a lot of names, and various pilots names and that 
kind of thing that were mentioned.
    So is FBI protocol such that if you have within yourself as 
an agent a real belief that I have something important, and it 
doesn't get a response, can't you simply go above that chain of 
command and get it on the desk of the heads of the agencies?
    FBI Phoenix Agent. Well, Senator, to answer your question, 
I refer you back to the communication. I sent it in routine. 
The reason why I sent it in routine was because I did not see 
any, at that time, any immediate action required. There was no 
immediate threat information required in there. Basically what 
I wanted was an analytical product. I wanted this discussed 
with the Intelligence Community. I wanted to see if my hunches 
were correct.
    But, I am also a realist. I understand that the people at 
FBI headquarters are terribly overworked and understaffed, and 
they have been for years. And at the time that I am sending 
this in, having worked this stuff for 13 years, and watched the 
unit in action over these years, I knew that this was going to 
be at the bottom of the pile, so to speak, because they were 
dealing with real-time threats, real-time issues trying to 
render fugitives back to the United States from overseas for 
justice. And again it is a resource issue.
    Senator Feinstein. Did you know of the intelligence that 
was circulating? Did you know that Usama bin Ladin and al-
Qa'ida were in the high priority intelligence in the 
administration?
    FBI Phoenix Agent. I knew that they were, ma'am. I had just 
gotten back to work in international terrorism. I had been 
detailed for several months to work an arson investigation in 
the Phoenix area, a multi task force arson investigation that 
involved the destruction and burning down of numerous homes in 
high-dollar areas in the Phoenix metro area. We believed at the 
time that these were taking place, that they can be eco-
terrorists. I was the senior counterterrorism agent assigned to 
the squad, and my command made a decision to assign me to work 
on that matter.
    After spending approximately six months on that--I worked 
that from June 2000, roughly to, or excuse me, December of 2000 
through May/June of 2001--I got back to work on my 
international terrorism cases.
    And so I wasn't in the loop on all of the chatter that you 
refer to concerning the intelligence chatter and whatnot. But, 
after getting back into the case and recognizing the things 
that I point out in the communication, that is what led me to 
write it and send it up the food chain.
    Chairman Goss. Thank you.
    Senator Rockefeller.
    Senator Rockefeller. Thank you, Mr. Chairman. I echo 
Barbara Mikulski's statements about all of you. You work hard 
and the Nation appreciates it.
    We all make mistakes, we are all overwhelmed. But when you 
are overwhelmed, the consequences are greater than when we are 
overwhelmed. And so I want to start off by asking a question to 
the Minneapolis agent.
    The FBI was suggesting that Moussaoui be put under 
surveillance. That is what you told the Joint Inquiry staff. 
But, you said in your own testimony that you didn't have enough 
agents, didn't have enough people.
    FBI Minneapolis Agent. Well, that is partially true. We 
would have made those people available had we thought that was 
a viable option.
    Senator Rockefeller. Right. I am getting to that.
    FBI Minneapolis Agent. Okay.
    Senator Rockfeller. I had assumed, until you spoke just a 
moment ago, that you were an FBI criminal investigator. And I 
am sorry I didn't know that most of your career has been spent 
in working with terrorism. So Moussaoui had a French passport 
problem. And I am trying to figure out how it works through 
your mind that a French passport expiration problem means that 
we need to pursue him in terms of holding him to account for 
that, as opposed to a surveillance problem where he has already 
been attached and identified with wanting to fly large 
airplanes with which he has no previous experience.
    He, therefore, has been identified potentially as a 
terrorist. Why wouldn't surveillance rise clearly as the 
priority that you would choose?
    FBI Minneapolis Agent. The reason that I made the decision 
that I did, and I will just take it back one step. I have spent 
most of my career in the criminal arena, not in 
counterterrorism. My counterterrorism experience was about the 
last year prior to my assignment in this capacity that brings 
me before you today.
    What we were attempting to do--the information that we 
obtained initially to open up the intelligence case was that 
this person was particularly suspicious. There was no specific 
allegation of any criminal activity.
    But, as we developed the case, we found out, first of all, 
he had this visa waiver pilot program violation. He was in the 
United States longer than he should have been, which gave us 
the opportunity to arrest him and arrest his behavior, because 
I didn't want him to get any additional time on a flight 
simulator that would allow him to have the knowledge that we 
could no longer take back from him to operate an aircraft.
    This provided us the opportunity to freeze the situation as 
it was going on right there, prevent him from gaining the 
knowledge that he could use at some point in the future. And if 
ultimately we determined all we could do, after interviewing 
him and doing some other investigative steps, if all we could 
do was deport him, then we would be sensitized to the fact that 
he was interested in doing something else and he could be put 
in the TIPOFF System. He would be put in--the appropriate 
notifications could have been made if he attempted to reenter 
the United States.
    But our focus was on preventing him getting the knowledge 
that he would have needed.
    Senator Rockefeller. Preventing him from getting the 
specific knowledge which he was engaged in acquiring, but there 
was a larger background that was apparently there. And I think 
it is almost like a nub-hub question that I am asking. How do 
you make that judgment, that somebody has done something which 
is illegal, therefore I am going to pursue my FBI lawyer 
criminal investigation, or that there is a hint here of 
something broader, and rather than just prevent him from being 
able to go back to that flight school, you are going to venture 
out of your very good mold on this and say that we better watch 
this person in a variety of ways and put him under 
surveillance.
    FBI Minneapolis Agent. I think it is important to remember, 
at least for me, it is important to remember, the circumstances 
that were present prior to September 11.
    We had no real incidents of airplane hijacking that had 
happened domestically within the preceding decade. We now have 
a different perspective that it is very, very difficult to go 
back and forget and not acknowledge. But again, I speak to my 
criminal background in saying if a violation has occurred and 
we can take further steps to stop what could speak to a 
continued violation, we will act.
    And those were the circumstances under which I made that 
decision.
    Chairman Goss. Thank you.
    Senator Rockefeller. My time is up. Thank you.
    Chairman Goss. Mr. Reyes.
    Mr. Reyes. Thank you, Mr. Chairman. I have got a couple of 
areas that I want to question in, but I also would like to 
associate myself with the comments made by members of this 
committee in thanking you for your work on behalf of this 
country. We all appreciate that very much.
    There are a couple of things that I want to pursue. First 
of all, when we talk about the testimony here, and when Ms. 
Hill talks about the CIA officer that was detailed to FBI 
headquarters learned about the Moussaoui investigation, and 
talked about the issue of whether or not the Chechen rebels 
were a recognized foreign power or not, and all of that 
context, I would like to know from the FBI headquarters agent 
what lessons learned have we come away with on this?
    In other words, is the FBI putting together a new program 
to train, perhaps in concert with the General Counsel's office, 
to clear up these kinds of issues, make recommendations for 
clearing up legislatively some of the areas that need to be 
clearly redefined or further defined? Is the FBI working on a 
comprehensive package to do that?
    FBI Headquarters Agent. We have raised this issue of the 
foreign power and specifically the fact of how Moussaoui 
somewhat alludes the present legislation. I know Mr. Bowman 
testified in open session before Senate Judiciary on this. I 
think it is an issue that the FBI clearly recognizes is a 
significant, significant problem with regard to individuals 
that we can't fit into that specific foreign power issue. That 
needs to be explored more.
    Mr. Reyes. So is your answer that, yes, the FBI is working 
on a comprehensive lessons-learned package, or what is the FBI 
doing?
    FBI Headquarters Agent. Are you saying--is the question in 
terms of a legal fix?
    Mr. Reyes. All of the above. All of the things that we have 
learned so far from--we now know that the FBI is stuck in a 
technology void in terms of communications, and analysis and 
all of those things.
    My question is, are we in a mode of lessons learned and 
moving forward, have a checklist of, okay, by such and such a 
time we are going to make this proposal for this equipment, for 
this capability, those kinds of--because we are hearing the 
field agents frantic----
    FBI Headquarters Agent. I am just not in a position to 
answer that. I think that is clearly a question for the 
Director.
    Mr. Reyes. So from your level nothing.
    FBI Headquarters Agent. No, there is clearly reform under 
way. We have already addressed getting analytical resources in 
the door. That is going forward. Clearly, we are trying to 
improve our means of communication with CIA and others. I don't 
want to indicate in any manner, though, that it was bad. I 
think the relationship with CIA has been excellent in the last 
few years. And I am speaking as a person who has been in this 
program for 13 years.
    It has been very good. Could it be better? Yes, it could be 
better. I think that technology will fix some of that.
    Mr. Reyes. All right. For the Phoenix agent, you stated 
that the 1999 incident aboard the U.S. domestic flight 
increased your suspicions about aviation-related terrorism. Can 
you elaborate on the incident and why you thought it was 
significant?
    FBI Phoenix Agent. On November 19, 1999, two individuals 
that originated their flight from the Phoenix metropolitan area 
were acting suspiciously on an America West Airlines flight 
bound for Washington, D.C.
    The plane put down in Columbus, Ohio, because the flight 
attendants suspected or observed one of the individuals play 
with the cockpit door of the plane while it was in flight. The 
individuals were detained at Columbus, interviewed by the 
Columbus, Ohio Police Department, FBI Cincinnati, and 
subsequently released after their interviews and they were 
allowed to proceed on their trip.
    They were heading to Washington to attend a conference that 
was being put on with the--or by the Saudi Arabian Royal--well, 
the embassy.
    The individuals, within a day or two of them being 
released, in conjunction with the Council for American Islamic 
Relations in Washington, made a statement accusing the police 
department, the FBI, and America West Airlines of racially 
profiling them. And they actually were broadcast on CNN and 
other TV news networks around the country. I can't get into the 
specifics concerning one of those--or either of those 
individuals. Both are pending intelligence investigations.
    Mr. Reyes. But the upshot----
    FBI Phoenix Agent. I can address further details on both of 
these guys in a closed hearing.
    Mr. Reyes. But the upshot of that was--did anybodypursue an 
investigation or drop the----
    FBI Phoenix Agent. Post 9/11, in a post-9/11 world, I went 
back and looked at that as possibly being some sort of dry run. 
It is currently under investigation. And, again, I can get into 
specific details on that in a closed hearing.
    Mr. Reyes. Okay. And the last thing I want to say, very 
quickly is, if it was significant, you didn't include it in 
your communication. What --
    FBI Phoenix Agent. Good question. You know, I can't account 
for why I didn't include that in there. I wasn't--that is a 
good question. I can't answer that, sir.
    Mr. Reyes. All right. Thank you, Mr. Chairman.
    Chairman Goss. Mr. Chambliss.
    Mr. Chambliss. Thank you, Mr. Chairman. And, again, let me 
associate myself with Senator Mikulski's remarks over there. 
You folks do an unbelievable job in spite of what did happened 
on September 11. We don't tell you enough how much we 
appreciate you.
    Also, my subcommittee, as you know, did a report dated July 
17 that was somewhat critical of some of the acts of the FBI. 
And I want to tell you that it was given--the criticism was 
given in a vein that we were glad it was accepted in. That was 
in a positive way. And I appreciate the reaction of Director 
Mueller and the Bureau with respect to the criticisms that were 
made in there. It appears that changes are being made in a 
positive way. I am very glad to see that.
    My question initially is directed to you, the Minneapolis 
Agent. I want to pick up where Senator Rockefeller left off 
there, because I am a little puzzled by this too.
    The mindset of the FBI at that point in time is where our 
criticism and our report was directed. And that is that the 
mindset was more of an investigate-and-prosecute mindset versus 
a disrupt and interrupt.
    If this was such a priority matter, and I hear from you as 
well as the headquarters agent that that was the case, the 
Moussaoui case was a matter of very much priority, I don't 
understand why your reaction would have been, if we can arrest 
him on what was really a fairly minor violation, why you would 
do that as opposed to putting him under surveillance in hopes 
that you might pick up on something down the road. That seems 
to be a much better action to have taken.
    I realize it is easier for me to sit here today and say 
that. But I am just wondering why that would have been your 
mindset at that time. And let me ask the follow-on or, in your 
answer, if you would just address this. If that situation would 
occur today, has the mindset at the FBI changed to more of a 
disrupt and interrupt as opposed to an investigate and 
prosecute, so that your reaction might have been different 
today with respect to the Moussaoui incident, regarding whether 
or not to arrest him or whether to put him under surveillance?
    FBI Minneapolis Agent. Well, respectfully, sir, I believe 
that the policy that we took that day or the practice that we 
took that day to arrest him was designed to disrupt and 
interrupt any further actions that he could do in furtherance 
of his plan. And that was why the decision was made.
    It was not--the focus was never to arrest him merely to 
prosecute him or deport him from the country on the visa waiver 
violation; it was to arrest the activity that was--the 
suspicious activity that was reported to us by the flight 
school and to allow us the time, while he was in administrative 
detention, to further develop any additional information we 
could about what plan he was up to.
    But it was--my thinking was in the mode of interrupting and 
disrupting what I thought was a potential plot, based on the 
very, very limited information that we had prior to making that 
decision. And the information we had was prior to really going 
too far into the case.
    Mr. Chambliss. To headquarters agent, is there ever any 
situation where, when you receive information like the Phoenix 
EC, where you have got--in my State, for example, we've got 159 
counties. We've got headquarters, FBI headquarters in Atlanta, 
and we've got several field offices out there. But really you 
don't have the manpower to go into all 159 counties and check 
every flight school. Is there such a relationship between the 
FBI and local law enforcement officials like the 159 sheriffs 
in Georgia where you could have simply called on those sheriffs 
to go check flight schools?
    And I am asking this more for the future as opposed to what 
happened there. But is there some kind of relationship there 
that you all have with those folks that you could get that kind 
of assistance?
    FBI Headquarters Agent. Speaking from my time in the field 
and having run a terrorism task force in the field fairly 
recently, that is what you strive for. The supervisors in the 
field, working with their management and also with the agents 
on the squad, they are looking to build those relationships. 
And, yeah, we do want that to be available to us. And I think 
clearly the Director has made that perfectly clear.
    We want to rely and work with the locals and to be able to 
react much quicker in the future on terrorism type matters 
utilizing that resource.
    Mr. Chambliss. Well, I would hope that to be the case. And 
I am not getting very positive feedback from my local law 
enforcement officials about an improvement in the relationship 
with the FBI. But I hope there is a real effort that is being 
made there to make sure that that relationship is doing nothing 
but getting strengthened and that the sharing of information 
between the FBI and our local law enforcement officials is 
getting better and better.
    Thank you, Mr. Chairman.
    Chairman Goss. Thank you, Mr. Chambliss.
    Senator Roberts.
    Senator Roberts. Thank you, Mr. Chairman. I was just 
telling Senator DeWine I was going to associate myself with his 
very wise remarks and that of Senator Mikulski. As Congressman 
Chambliss has indicated, as usual, she has hit the nail on the 
head.
    And I also want to associate with the previous remarks at 
the last couple of hearings by Senator Kyl, who has expressed 
concern about procedure at public hearings, a lack of focus on 
the very challenges that have been prioritized, I think so 
well, by Senator Mikulski, but I am not going to get into that 
today.
    All of you witnesses have stated, and I wrote this down 
when Senator Mikulski said, all right, let's quit looking in 
the past and playing gotcha, and let's look in the future in 
terms of not problems but challenges, what do you need? And you 
responded that you have a tremendous need for some kind of an 
all-source analytical center, which I think is understandable. 
You addressed the technology gap within the FBI as compared to 
our other intelligence community agencies.
    You emphasize the training, retention and recruiting--we 
should have it in reverse order--of analysts and certainly need 
better analytical resources.
    So I think we all agree you need strategic analytical 
ability and better predictive warning analysis. But, my 
question is, is that your mission? Most of the questions you 
are getting are very specific--what did you know, when did you 
know it, what relationship did this have to 9/11--are what I 
call the gotcha questions. I am not trying to perjure them--
well, I am a little bit, but we will leave that alone.
    But you didn't have that mission. And my question is, now 
who has the responsibility in terms of a foreign threat? Is 
that the FBI? Is that the CIA? Is that the DIA? Certainly it is 
the DIA in Afghanistan. Certainly a foreign threat is still 
CIA. We will have those people in a public hearing as of 
Thursday.
    I don't know if you would like to answer that in terms of 
your specific mission. How do we coordinate and find out who is 
really responsible in terms of specific mission for the 
analytical capability that we should have? And that may be 
above your pay grade and mine.
    FBI Headquarters Agent. Mr. Rolince, maybe you want to take 
a shot at that one.
    Mr. Rolince. I think the mission has expanded, and I think 
that goes to the heart of the resource. I am not going to keep 
pounding on that, because I think everybody has it, but the FBI 
still believes that we can, will and should be the primary 
responders to acts of terrorism directed against this country, 
either internally or in terms of our ability to deploy 
overseas--Dar es Salaam, Nairobi, Khobar Towers and the whole 
litany. We want to continue to do that, and we would hope that 
the American people and the Congress would have the confidence 
in our ability to do that.
    In terms of the document exploitation that you talk about 
in Afghanistan, that mission has not changed. We view that as 
force protection, followed by immediate threat to this country, 
followed by whatever intelligence we glean from within that 
system.
    And I would just like to make a point that I don't think 
has been made, which should be made for the record. Prevention 
is not a new job, one for the FBI. Not only is every mission 
statement led with prevention, but I would submit now that we 
know about what the Ramzi Yousefs of this world do, the 14 we 
have indicted in Khobar Towers, the original World Trade Center 
bombers, those convicted in the Africa Embassy bombings, those 
are clear-cut law enforcement acts of prevention. Those people 
were going to kill Americans. There is no doubt in our mind. 
Look what Ramzi Yousef's plan was.
    If we don't continue to pursue and aggressively utilize the 
law enforcement tool, being able to apprehend, render, try and 
convict these individuals, we lose a big part of prevention, 
and we would like to stay in the business.
    Senator Roberts. I think you should stay in the business.
    I have another question that is in reference to the Catch-
22 that I think you face and that everybody faces when they get 
questions from a committee like this with what I will refer to 
again as a ``gotcha question,'' either by a leak or by specific 
information that leads to a question more especially in a 
public hearing or even a classified hearing. There will be some 
specific piece of information that is rather incendiary that 
will lead to a headline. You can't really respond, because if 
you respond in full context, pointing out that there is no 
relevance in regards to a smoking gun on 9/11, which seems to 
be the effort or at least the insinuation, you can't do that, 
because it is classified and you will reveal a source. And you 
simply are stuck.
    We have been trying to figure out how on earth that could 
be presented in a way that would be nonclassified, and so about 
every second foggy night we have something like in the 
Washington Post that came out a day ahead of the interim report 
that was issued--no, it was on the hijacking report issued by 
the professional staff. I was in Kansas, and I didn't get a 
copy of this. My staff didn't get a copy of this, but it was in 
the Washington Post the day before, and about every--as I say, 
about every Tuesday or every Thursday, we have one of these.
    How is your morale situation at the FBI when this comes out 
again and again and again and you can't respond and yet we are 
trying to--it is like when you have a fire department. You call 
the fire department. The house is on fire. We are arguing as to 
whether the truck made the wrong turn or tied the hose to the 
wrong fireplug, and we are having an investigation when there 
is a fire. You are fighting a damn war. How is your particular, 
real situation down there?
    FBI Headquarters Agent. I would like to speak to that, if I 
could. I think it is--these agencies--the FBI, the CIA--the 
fuel of these agencies is morale; and, unfortunately, we have 
been fairly demoralized in the course of a lot of the reporting 
that has gone out there and our inability to fight back, for 
lack of a better word.
    Again--I think I said it in my testimony--the Bureau has 
some of the best analysts in the community. Unfortunately, they 
are tactical analysts and not strategic analysts.
    I think the Bureau agents are the hardest-working people 
out there. That needs to be said. It needs to be recognized. 
September 11 was an incredibly tragic event, but it wasn't 
based on laziness. It was based on inadequate resources, and I 
think my colleague summed it up in saying that we need to stay 
in this business. We can do this job. Just give us the tools we 
need.
    Senator Roberts. Well, my time has expired, Mr. Chairman.
    I would point out a year ago last July there was a 
hearing--Senator Shelby, Senator Stevens, Senator Warner and 
our appropriate ranking members--where we invited 46 Federal 
agencies in and said, are you ready? This is before 9/11. What 
is your mission? What do you really do? And who is in charge? 
Everybody said they were in charge. Now that is 80 Federal 
agencies. We had at that time in the Senate 14 subcommittees 
and committees that allegedly had jurisdiction. Now between the 
House and Senate, it is 88. You talk about a need for 
streamlining and cooperation and some degree of direction. It 
is the United States Congress, it seems to me, that bears part 
of this responsibility.
    I don't speak for other Members. I apologize to you. I 
think you are doing a great job, and I think some of this has 
been tremendously unnecessary and counterproductive. And you 
tell your people down there, there are some people on the 
Intelligence Committee that do believe in you.
    Thank you, Mr. Chairman.
    Chairman Goss. Thank you, Senator.
    Senator Graham.
    Chairman Graham. Well, I want to associate myself with the 
last remarks of Senator Roberts. There certainly is tremendous 
recognition by the members of this committee of the importance 
of your responsibility and the professionalism with which it is 
discharged, and I don't want this hearing, which has focused on 
some specific events, to distort that broader appreciation.
    In that regard, let me just ask a question. I am speaking 
particularly to the Phoenix and Minneapolis agents. You 
performed with a personal standard of exceptional vision and 
aggressiveness and creativity. Have you received any rewards or 
recognition to date for your service in this particular issue?
    FBI Phoenix Agent. Well, sir, I don't expect that. I get 
paid by the American people to do this job, and I view it as 
part of my job. I get a salary, and that is reward enough, and 
it is reward enough to work for the agency. Now, that may sound 
cliche or hokey, but I sincerely believe that. I am doing my 
job, and I really don't believe I need any additional, extra 
recognition for doing it.
    FBI Minneapolis Agent. I agree with those remarks, and part 
of the reward that we are reaping, I believe, is the 
opportunity to come here and tell you our story and tell you 
where we think the intelligence is broken down and what the 
United States Congress can do to perhaps help us do our 
mission. Were it not for this forum, I wouldn't have that 
opportunity, and so we don't need any sort of monetary 
recognition, any sort of pat on the back. We are, in fact, 
doing the job that we signed on to do, and we appreciate the 
opportunity to do it.
    Chairman Graham. Well, I admire your modesty, but I am a 
believer that one of the things that motivates people is 
recognition and reward for beyond-the-call-of-duty performance, 
and I would suggest that you and others of your colleagues who 
might not be as well known as the two of you have in fact 
performed in such a manner and there ought to be some method by 
which that is recognized and therefore presented as a role 
model of conduct for others to aspire to.
    In the staff memo relative to Phoenix, there is this 
sentence: ``The Phoenix SA believes that el Hage established an 
Usama bin Ladin support network in Arizona while he was living 
there and that this network is still in place.'' To the Phoenix 
agent, do you agree with that sentence?
    FBI Phoenix Agent. When I made that comment, Senator, it is 
speculative, and I base it on historical investigation, some of 
which I can't get involved in in this open session, and I would 
prefer to address it in a closed session.
    Chairman Graham. Well, the Chair may be announcing our 
desire to have such a closed session, and I would just alert 
that I will be pursuing that question should we do so.
    All right. On the issue of the Minneapolis office going 
directly to the CIA or other intelligence agencies requesting 
assistance or providing information, Mr. Rolince, you indicated 
that there was good reason for not encouraging that kind of 
behavior. But in the context of the Phoenix memo where one of 
the specific requests made by the agent was ``headquarters 
should discuss the Phoenix theories with the Intelligence 
Community,'' that was one of the items that was not followed, 
one of the recommendations not followed. Wouldn't that create a 
sense in the field that if they believe the situation is 
sufficiently urgent that they might have to take the situation 
into their hands and go directly to an intelligence agency?
    Mr. Rolince. If they had asked at headquarters, can we 
raise this issue with CTC--in fact, the person that it was 
raised with was an FBI agent, ironically--and were turned down, 
then I would have no objection whatsoever of them moving it and 
escalating it.
    Chairman Graham. Is the ``them'' in this case the Phoenix 
or the Minneapolis----
    Mr. Rolince. Minneapolis. But I wouldn't take the Phoenix 
EC--one example of something that should have been done, and I 
will be perfectly honest with you. One of the great 
frustrations in that, it talks about airlines--we have FAA 
people in the unit; it talks about intelligence--we have CIA 
people; it talks about visas--there are State Department people 
and Immigration people in that unit. That information should 
have been shared, if only for FYI purposes, with all those 
people at our headquarters. And it wasn't done, and it should 
have been done.
    Chairman Graham. It was indicated that the example of the 
FISA issue, where there was confusion as to the legal standard, 
that it may have been that Moussaoui was a singular exception. 
No other examples come to mind. Are there any other examples 
that come to mind analogous to the Phoenix communique where 
they made a specific request that information be shared with 
intelligence when that request was not adhered to?
    Mr. Rolince. In the three and a half years I was there, I 
can think of none. I think part of the reason for that is what 
did not happen there was the dialogue, the travel back, the e-
mails, the phone calls, the coordinating meetings with OIPR 
that are done on a regular basis day in and day out.
    So what we generally do precludes that kind of instance 
from happening; and had perhaps those dialogues, visits, et 
cetera, taken place, we could have gotten to the heart of the 
issue, which was is it ``agent of a foreign power'' or is it 
``foreign power'' that we are stumbling over here. But at the 
end of the day, we did bring back every single person from 
Minneapolis relevant to the situation, the Office of General 
Counsel and the substantive unit. We spent six hours, went 
through every single line of every single e-mail, and then I 
turned to my colleague and said, what do you think, and the 
Deputy General Counsel said, it is not there.
    Chairman Graham. And what date was that meeting?
    Mr. Rolince. Last week of November, first week of--I am 
sorry. Last week of October, first week of November. I have 
seen two different dates. It is either the 30th or the 1st.
    Chairman Graham. This is 2001?
    Mr. Rolince. This is post 9/11, 2001, yes.
    Chairman Graham. Senator Shelby.
    Vice Chairman Shelby. Thank you, Mr. Chairman.
    I do want to take a minute, as others, and say publicly 
that I, too, appreciate what the Bureau has done historically 
and in recent times, but to overlook some of the other problems 
which are deep, deep problems, not just in the Bureau but in 
the Intelligence Community, all the agencies, we would be less 
than candid in this hearing. We would be less than honest with 
the American people. There are a lot of things that are right 
with the Bureau, but there are a lot of things that are wrong, 
I believe, and I think a lot of people share that, and I 
believe most of the American people share that.
    We want to support the Bureau. We should first support you 
with resources, and there has been a shortfall in certain 
areas. We have talked about that.
    We should support agents like the special agent and others 
in Phoenix that had the foresight to put together the Phoenix 
memo, which was never acted upon. We should support the agents 
out of the Minneapolis office, one who is seated here with us 
today. And we will.
    But we should never support problems and people who are 
risk averse or people who do not train their people well with 
analytical skills in the Bureau or anywhere else or do not 
train them to share information. I think we are cheating the 
American people. We are cheating the security of the future.
    With that in mind, I will tell you, this is my eighth year 
and final year on the committee, three more months, I suppose. 
I think the FBI is very important in the role you do, and I 
want to personally commend you, sir, and also the woman lawyer 
who came down, Ms. Riley, for her candor in dealing with the 
Moussaoui case.
    To the FBI agent from Phoenix, when you sent the 
information, what we call the Phoenix memo, to headquarters, 
did you ever check on that memo? Did you ever call yourself or 
send a message to see what happened to all that work you did?
    FBI Phoenix Agent. No, I did not.
    Vice Chairman Shelby. Why didn't you?
    FBI Phoenix Agent. Because I was in the middle of the 
investigation itself, and that was just one portion of it.
    Vice Chairman Shelby. You were into the investigation 
yourself in Phoenix. Now, this was before the eleventh. I am 
speaking of the eleventh of September.
    FBI Phoenix Agent. Yes.
    Vice Chairman Shelby. Was your memo dated July 10?
    FBI Phoenix Agent. July 10, 2001.
    Vice Chairman Shelby. So from July 10 to September 11 and I 
suppose up to now, you never checked with FBI headquarters to 
see if they acted on your memo regarding your concern about the 
flight school?
    FBI Phoenix Agent. No, I didn't, Senator; and the reason 
being is I sent it in routine, and generally a routine 
communication----
    Vice Chairman Shelby. You thought it was routine, but it 
wasn't. It turned out not to be routine.
    FBI Phoenix Agent. Well, hindsight, sir, is always 20/20.
    Vice Chairman Shelby. Well, that is why we learn, though, 
from post mortems, don't we?
    FBI Phoenix Agent. I understand, but I sent it routine, and 
generally when you send a routine communication in, you are 
giving the receiver 90 days to look at your product. And at the 
end of 90 days if I hadn't heard anything, I would have been 
picking up the phone saying, hey, did you get it, you know, 
querying ACS to see if somebody acted upon it. But, again, the 
pre-9/11----
    Vice Chairman Shelby. Excuse me. I just have so much time. 
Did you think it was not important? Is that what routine means?
    FBI Phoenix Agent. No. It is----
    Vice Chairman Shelby. Okay. What do you mean by routine? 
How do you define it?
    FBI Phoenix Agent. That there was no direct threat 
information in there. I didn't have any information in there 
saying a bomb was going to go off at X hour.
    Vice Chairman Shelby. No specificity, though?
    FBI Phoenix Agent. Yes.
    Vice Chairman Shelby. But concern?
    FBI Phoenix Agent. Concern, yes.
    Vice Chairman Shelby. Okay. To the agent from Minneapolis, 
I believe this question was asked earlier. When you made the 
arrest, you know, you had reason to believe that a law had been 
broken, an immigration law or something?
    FBI Minneapolis Agent. Yes, sir.
    Vice Chairman Shelby. Is that correct? Did you consider 
putting the agent under surveillance and elected not to for 
lack of resources or other things?
    FBI Minneapolis Agent. No, sir. It was not for a lack of 
resources.
    Vice Chairman Shelby. Was it just your judgment that that 
was the thing to do?
    FBI Minneapolis Agent. Yes, sir. My judgment was to attempt 
to interrupt this.
    Vice Chairman Shelby. Okay. Prior to that date when you 
arrested him and after you had the inquiry regarding the flight 
school in Minneapolis, had you known or had you been informed 
that there had been threats out there starting in 1995 with the 
Filipino situation, where there was evidence that people could 
use--would use airplanes as weapons? Did you know that?
    FBI Minneapolis Agent. I did not know that at the time, 
sir.
    Vice Chairman Shelby. Did you know about the French 
apprehending, I believe, someone that was from Algiers, a 
French Algerian citizen that was going to try to crash a 
plane--hijacked into the Eifel Tower, using that as a weapon?
    FBI Minneapolis Agent. I did not know that, sir.
    Vice Chairman Shelby. You didn't know any of that?
    FBI Minneapolis Agent. That's correct.
    Vice Chairman Shelby. So without any background on that, 
you arrested the man based on your best judgment. Is that 
correct?
    FBI Minneapolis Agent. Yes, sir.
    Vice Chairman Shelby. I know my time is up, but one last 
question. The FISA situation, very important. Were any of you 
trained when you were going through the FBI school at Quantico 
regarding the specificity that was required for FISAs or later?
    FBI Minneapolis Agent. No, sir, I was not during initial 
training.
    Vice Chairman Shelby. Were you, sir, from Phoenix?
    FBI Phoenix Agent. Not during initial agent training.
    Vice Chairman Shelby. Were you later trained?
    FBI Phoenix Agent. Yes, sir. I have been through many in-
services regarding FISA.
    Vice Chairman Shelby. Is the FISA training now at Quantico 
part of the curriculum? And if not, why not, sir, the FBI 
headquarters?
    FBI Headquarters Agent. I know that we are having a very 
serious look at the training at Quantico. The present 
leadership in the Counterterrorism Division, he has taken it 
upon himself to personally look at that issue real hard, has 
directed Quantico to provide all the necessary training 
required of new agents, supervisors, all the way up the food 
chain.
    Vice Chairman Shelby. Lastly, would you agree that there 
has been confusion in the FBI ranks to what the requirements or 
the criteria for FISA was?
    FBI Headquarters Agent. I think that it is a tough issue. I 
think we rely on our national security law unit for guidance, 
and I don't think that confusion exists in the national 
security law unit.
    Vice Chairman Shelby. It didn't exist on September 11 or 
before then?
    FBI Headquarters Agent. I do not believe so, no.
    Vice Chairman Shelby. Okay. Thank you, Mr. Chairman.
    Chairman Goss. Okay. Thank you.
    There is light at the end of the tunnel, and it is going 
very bright. There are a couple of administrative matters, and 
a couple of members who had to leave asked me to do some sweep-
up questions. Frankly, they have been pretty well taken care of 
by Senator Shelby and Senator Graham.
    I had a couple of observations I would like to make 
briefly.
    The first question was to the headquarters supervisor. You 
have people sitting on either side of you who brought forward 
to you, presumably one dot at one time, two dots that could 
have been connected by you, and the question was were you able 
to connect those dots and take them outside of their individual 
case areas and see there was something bigger here? And if not, 
is there some procedural change or systemic change or some 
other way that that kind of thing can be accelerated in the 
future?
    FBI Headquarters Agent. I think the connecting the dots 
issue, we could what-if it to death. I think, clearly, the 
connected dots issue comes down to analytical resources and 
technology. I don't think one individual could keep this all in 
his head, could not possibly be aware of it, all the various 
threats that were out there, all of the ongoing investigations. 
It is just impossible for any individual to deal with that. So 
I think, in terms of the future, I think it goes right to the 
systemic problems that this committee is fully aware of, 
sufficient strategic analysts and technology fixes.
    Chairman Goss. And a certainty that all this material will 
flow to those resources?
    FBI Headquarters Agent. Absolutely. And that is multiagency 
in nature, not just the Bureau.
    Chairman Goss. Absolutely. I think it is multiagency, and I 
think it is multilevel government these days, too. That is 
another subject of the vertical integration down to the local 
and State level as well, which I think is a factor. Do you 
disagree with that?
    FBI Headquarters Agent. No, I do not.
    Chairman Goss. Another question I had from Mr. Boehlert. He 
had two. The first was--and I think it has been answered--the 
routine aspect of the memo from Phoenix was primarily because 
of no immediate urgency, I take it. It was a matter of concern, 
but routineness connotes this is not an urgency, not an 
immediate matter. This is a matter that deserves deliberation 
but in the normal course of events. Is that your assessment?
    FBI Phoenix Agent. Yes, sir.
    Chairman Goss. Is that a fair description?
    FBI Phoenix Agent. Yes, it is.
    Chairman Goss. There was nothing in your background or any 
other dots that you could connect at the time that raised 
anything beyond the level of routine. You created an innovative 
approach. You did something others had not done, but you did 
not think it had any further urgency than just this is where it 
is looking at?
    FBI Phoenix Agent. That's correct.
    Chairman Goss. Thank you, sir.
    With regard to the Moussaoui matter--and if this is getting 
into an area that we shouldn't go, Mr. Nahmias, please say so--
Mr. Boehlert wanted to know why, if it was understood that Mr. 
Moussaoui was out of status, he wasn't deported in mid-August.
    FBI Minneapolis Agent. Because we were working with the 
Immigration and Naturalization Service and had one of their 
agents assigned to our task force, we had a little more 
latitude in what we could do, given the circumstances of the 
case. As we came to understand it, there was no mandate by the 
INS for immediate deportation. There was the opportunity to do 
so, but there was no mandate, and they agreed to defer 
deportation while we conducted our investigation to determine 
whether or not this was part of a larger conspiracy or whether 
or not this was a single actor who was just up to some sort of 
curious activity.
    Chairman Goss. Well, I think that is a very good answer. It 
is one I would have encouraged. I am looking at it from the 
intelligence point of view. As long as there is no immediate 
danger from this guy if he is under some kind of surveillance, 
it seems to me that the right thing to do is to determine 
whether or not he is going to lead you somewhere and the right 
kind of investigative technique. If he has already broken a 
law, however, and is a threat, then it seems to me that some 
kind of enforcement ought to take place. I am glad that those 
calculations seem to go on. Have I described that accurately?
    FBI Minneapolis Agent. Absolutely.
    Chairman Goss. Thank you.
    On the administrative side--Mr. Nahmias, you should listen 
to this--I understand that the press has given us a number of 
requests for the staff statement that we originally had, which 
we suppressed till we got this matter sorted out. Now that we 
have different instructions from the court on what we can and 
cannot do, staff will be going through the appropriate vetting 
procedures with the Department of Justice and the prosecution 
and so forth to make sure that the statement is okay. The press 
needs to be advised that these are normal vetting procedures, 
and we will therefore not have that material for them today.
    The next issue is administrative. The committee will 
convene again at 10:00 a.m. on Thursday this week to hear 
testimony in open session from a senior FBI and a senior CIA 
counterterrorist official, one each.
    It is the intent at this time to consider a closed session 
in the afternoon, witnesses being available, and it appears 
some of those witnesses may be before us now. We will ask staff 
to work that out to see if we can accommodate your schedules, 
because, as you have heard, some of the questions and indeed 
some of your answers have suggested that we go into closed 
session.
    I tend to believe, following up on the gentleman dealing 
with the Moussaoui matter, that there is an opportunity there, 
and it is worth the time, because I feel there is a very good 
learning curve for us on what your problems are in closed 
session if we get into these details. So if you can be 
available, I think it will be helpful.
    The last thing I wanted to say--I do want to associate 
myself with Senator Roberts' remarks, and I feel that in a 
particular way. I say that as a person who has been looking 
very closely at world events andtrying to understand your 
capabilities to deal with threats and the nature of threats in our 
country for eight years, and I will tell you I didn't do any better on 
September 11, 2001, than anybody else.
    So I have a little concern about how clear hindsight 
actually is when we get into some of these things, when we tend 
to focus back, because we, of course, have the advantage of 
knowing what happened. Now we can figure out what went wrong. 
That is a very different circumstance. So I accept Senator 
Roberts' remarks.
    I want to go back to the gentleman who was representing the 
Phoenix matter here. And I am quoting from your statement and 
your concern about your publicity, and I believe your statement 
is: I believe al-Qa'ida would consider me a terrorist target 
and want to kill me. I accept that, and that adds a lot of 
extra burden I think on us up here who have a responsibility to 
deal with these things properly. But I need to also tell you 
something that we all have to understand in this country, in my 
view, is that just being American is enough for al-Qa'ida to 
kill you. I don't think we understand that lesson yet in this 
country. I think it is up to all of us here to make sure that 
we, A, understand it here and, B, never let it happen; and we 
want to join you in that fight.
    I think your words--and I am quoting you--``I feel in this 
regard Congress has personally failed me as an FBI special 
agent and as an American.'' That is an extraordinarily harsh 
indictment. I think that is very understandable from your 
position, and certainly it is something that we take to heart. 
I think it is an area that calls for further consideration down 
the road, and I believe it will get it in a follow-on of some 
type to this commission's work.
    I am relatively sure that there will be a follow-on, and I 
think a strong reason for that follow-on is exactly the 
oversight of Congress, how did Congress do in its oversight 
responsibilities, because that is a big function that we have.
    So I think that that statement that you have made is not 
going to go unnoticed, not only by this group, because we 
certainly have noticed it, but by the next group to come. And I 
think it is a very important observation of how Congress can do 
its advocacy and oversight as wisely as possible on behalf of 
the American people and all of the things we are trying to do.
    The last point I wanted to make was with regard to the 
supervisor's statement, which is to me a very chilling 
statement. I have also witnessed firsthand a dedicated group of 
counterterrorism professionals that have been routinely 
overwhelmed with large caseloads on a continual crisis 
management. They also confront the daily frustrations posed by 
limited resources, especially within our analytical ranks and 
inadequate technology. That is just about everything. So if we 
haven't gotten the message up here and your leadership hasn't 
got the message that we have got these kinds of problems, then 
we have a disconnect that needs attention, and I urge you to do 
everything you can with your leadership--and I include the 
gentlemen outside the screen as well--to make sure the needs 
are known.
    I have heard so many times the frustration of--the scream 
of OMB and so forth and that we can't really tell you what we 
want. We do this with the Defense Department, with the generals 
and the admirals who would like to tell us what they can but 
can only tell us what they are allowed to tell us. It doesn't 
do us any good if we don't understand the problem.
    You are helping us to understand the problem. I urge you to 
make your case to leadership, for them to make their case to 
OMB so we all get on the same track and have a greater 
capability.
    Having said all that, I thank you very much. You are great 
Americans, and God bless you all. We are adjourned.
    Now, before you move, the room has to be cleared. I want to 
thank all our guests and visitors and press for being here. 
They will clear the room, and then we will be finished.
    [Whereupon, at 5:00 p.m., the hearing was adjourned.]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    


  JOINT COMMITTEE HEARING ON THE CENTRAL INTELLIGENCE AGENCY AND THE 
  FEDERAL BUREAU OF INVESTIGATION RESPONSES TO ISSUES RAISED IN OPEN 
         HEARINGS IN REVIEW OF THE EVENTS OF SEPTEMBER 11, 2001

                              ----------                              


                      THURSDAY, SEPTEMBER 26, 2002

        House of Representatives, Permanent Select 
            Committee on Intelligence and U.S. Senate, 
            Select Committee on Intelligence,
                                                    Washington, DC.
    The Committees met, pursuant to notice, at 10:07 a.m., in 
room SH-216, Hart Senate Office Building, the Honorable Porter 
Goss, chairman of the House Permanent Select Committee on 
Intelligence, presiding.
    House Permanent Select Committee on Intelligence members 
present: Representatives Goss, Castle, Boehlert, Gibbons, 
Hoekstra, Burr, Pelosi, Harman, Roemer, Reyes, and Peterson.
    Senate Select Committee on Intelligence members present: 
Senators Graham, Levin, Rockefeller, Feinstein, Durbin, Bayh, 
Mikulski, Shelby, Kyl, Roberts and DeWine.
    Chairman Goss. The Joint Inquiry hearing will come to 
order, please. This is a joint inquiry of the House Permanent 
Select Committee on Intelligence and the Senate Select 
Committee on Intelligence. I'm advised that Chairman Graham 
will be here shortly.
    This is the fifth open hearing by our Committees as they 
conduct their joint inquiry into the Intelligence Community 
performance regarding the September 11 attacks. The Committees 
have also held ten closed hearings.
    Our witnesses this morning will be Cofer Black, former 
Chief of CIA's Counterterrorist Center, and Dale Watson, former 
Executive Assistant Director of the FBI's Counterintelligence 
and Counterterrorism Division. Gentlemen, welcome. We're 
pleased you came up this morning. Each has been asked to 
address the evolution of his agency's response to the growing 
international terrorist threat and how his agency assessed the 
nature of possible attacks against the United States and U.S. 
interests.
    Before swearing in these witnesses there is one brief 
business matter I'm advised of. On June 18 the Committees heard 
in testimony in closed session from the Director of Central 
Intelligence, the Director of the Federal Bureau of 
Investigation and the Director of the National Security Agency 
about what the Intelligence Community now knows about the 
September 11 plot. We then asked the Directors to declassify 
their testimony to the extent consistent with national 
security.
    The Director of the FBI has submitted his declassified 
statement for the record. I ask unanimous consent that the 
declassified June 18 statement of the FBI Director now be made 
part of the open record of these proceedings. Is there 
objection?
    [No response.]
    Chairman Goss. Hearing none, it so ordered.
    [The declassified statement of Director Mueller follows:]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman Goss. If there's any question that either witness 
determines would be best answered by other than CIA or FBI 
personnel who are present, we would welcome being informed of 
that.
    Our goal is to have the best possible information. So that 
we don't need to interrupt the flow of questioning by 
administering oaths to other personnel who are called upon to 
speak, would anyone who might be called upon to speak now 
identify himself or herself for the record and take the oath 
together with Mr. Black and Watson? And, Mr. Black and Mr. 
Watson, do you have anybody with you particularly you 
anticipate will be assisting you?
    Mr. Black. No, sir.
    Chairman Goss. The answer being no in both cases, is there 
anybody else from either agency that is intending to speak?
    Seeing none, each of our Committees has adopted a 
supplemental rule for this joint inquiry that all witnesses 
shall be sworn. I'll ask our witnesses to rise at this time and 
raise your right hand.
    Do you solemnly swear the testimony you will give before 
these Committees will be the truth, the whole truth and nothing 
but the truth, so help you God?
    Mr. Black. I do.
    Mr. Watson. I do.
    Chairman Goss. Thank you, gentlemen.
    The full prepared statements of the witnesses will be 
placed in the record of these proceedings. I'll now call on Mr. 
Black first and then Mr. Watson, as I understand that was the 
selected order.
    Mr. Watson. That's agreeable.
    Chairman Goss. Mr. Black, welcome. The floor is yours, sir.
    [The prepared statement of Mr. Black follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
STATEMENT OF COFER BLACK, FORMER CHIEF, DCI'S COUNTERTERRORIST 
              CENTER, CENTRAL INTELLIGENCE AGENCY

    Mr. Black. Thank you very much. Can you hear me, Mr. 
Chairman?
    Chairman Goss. I can hear you very well.
    Mr. Black. Mr. Chairman, I am honored to be here. I'd like 
to express my appreciation to you and to the Committee offering 
me a screen to protect my identity and to enhance my security. 
Good security is always a very good idea. And if this were 
normal circumstances I would accept your offer.
    The work of this Committee and this hearing is just too 
important. I don't want to be just a voice behind a screen. 
When I speak, I think the American people need to look into my 
face. And I want to look the American people in the eye.
    My name is Cofer Black. I'm a case officer of the 
Directorate of Operations of the Central Intelligence Agency. I 
served as the Director of the Counterterrorism Center from the 
29th of July 1999 until May 2002.
    Mr. Chairman, I hope that these proceedings provide the 
relatives and the loved ones of those lost in the horrific act 
of 9/11 the information that they're seeking. But we are 
meeting here today because of the loss of over 3,000 innocents. 
We provided strategic warning. Our intense efforts were unable 
to provide tactical warning on 9/11. We all share a profound 
and horrible sense of loss.
    Everything we do in this global war and the very real risks 
that we take have only one objective, and that's to defend 
America and to defend innocents. In this long fight, my CIA 
colleagues operating with me in Khartoum, Sudan, in 1995 
preempted preparations of Usama bin Ladin's thugs to kill me.
    Six years later, Usama bin Ladin and his al-Qa'ida are the 
killers of 9/11. You need to appreciate fully three factors. 
There were choices made for us. These choices were made for the 
Central Intelligence Agency and they were made for the 
Counterterrorism Center. These involve the numbers of people, 
money and operational flexibility.
    I'd like to talk about people for a minute. Before 9/11, 
the CIA Counterterrorism Center had as many people as maybe 
three Army infantry companies. Three infantry companies can be 
expected to cover a front of a few kilometers. Our 
Counterterrorism Center is responsible for the entire world and 
all the terrorist threats. It was not only al-Qa'ida that we 
engaged. Until 9/11, Hizbollah had killed more Americans than 
any other terrorist group. Hizbollah is also our responsibility 
as are all the others. We work through the Directorate of 
Operations, which is deployed overseas.
    The head of the Operations Directorate will tell you, Mr. 
Chairman, that at the end of the 1990s, he had 25 percent less 
covert operations officers than he had at the beginning.
    The Director of Central Intelligence, George Tenet, did all 
that he could to help us out. We, of all his interests, had the 
highest priority. Prior to my arrival there had been a 
substantial increase in our personnel. We still struggled. 
While all the other operating components were being cut, the 
Counterterrorism Center received what small increases were 
available.
    My second point, cash. This is what we use to pay for 
operations. At the beginning of each of my three fiscal years 
as chief, the Counterterrorism Center had enough money to 
purchase about two modern jet fighter aircraft. When I became 
the chief in 1999, I had a fiscal reality. We had less money to 
support operations than we had the year before. As a result, I 
cut all of my subordinate units, except for one, more than 30 
percent. We survived because of the Director of Central 
Intelligence's support and the supplemental fundings that we 
received.
    My third point, operational flexibility. This is a very 
highly classified area, but I have to say that all you need to 
know is that there was a before 9/11 and there was an after 9/
11. After 9/11 the gloves come off. Nearly 3,000 al-Qa'ida and 
their supporters have been arrested or detained.
    In Afghanistan the al-Qa'ida who refused to surrender have 
been killed. The hunt is on. At your hearing last Friday my 
colleague, referred to only as CIA Officer behind the screen, 
was a witness before you and spoke. I think the significant 
point that he raised was an unprepared remark saying that he 
was overwhelmed. He was overwhelmed by limitless work and he 
was overwhelmed by a lack of resources. Perhaps now we can say 
why he said this instinctively.
    However, even a fully staffed and supported intelligence 
effort will not provide comprehensive, 100 percent defense. We 
must constantly intensify our offensive while at the same time 
supporting law enforcement and its work.
    I'll leave you again with the three points--resources, 
people, operational flexibility.
    I'd like to talk a little bit about working with the FBI. 
Mr. Chairman, I am very concerned that your hearings last week 
left you with a substantial misunderstanding about 
communications between the CIA and the FBI regarding 
investigation of the attack on the USS Cole. In that case we 
were supporting the FBI's investigation. The two agencies 
wanted to find out who killed our sailors and bring these 
terrorists to justice.
    We are an intelligence organization. We are in the business 
of collecting and providing intelligence. We are not in the 
business of withholding intelligence information. I want to be 
clear that FBI agents and analysts had access to information we 
acquired about the Cole attack. For example, we ran a joint 
operation with the FBI to determine if a Cole suspect was in a 
Kuala Lumpur surveillance photo. Joint means together.
    The FBI had access to the information from the beginning. 
Our records establish that. The special agents from the FBI's 
New York field office who were investigating the USS Cole 
attack reviewed the information about the Kuala Lumpur photo in 
late January 2001. I also want to be clear that, according to 
the CTC analyst who attended the June 2001 FBI/CIA meeting in 
New York City, the FBI analyst brought the photos to New York 
and showed them to the FBI.
    I want to repeat that. An FBI analyst brought the photos to 
New York. Furthermore, the CIA analyst was not permitted to 
provide all of the information FBI criminal investigators 
wanted because of laws and rules against contaminating criminal 
investigators with intelligence information. My statement for 
the record will provide more details about Kuala Lumpur.
    We learned of some of al-Qa'ida's plots in time to provide 
the warning that law enforcement and intelligence services 
needed to stop them. Examples of many of the successful 
operations would include: 1998, plans to attack the U.S. 
Embassy in Tirana, Albania, were thwarted when we identified 
the plotters. 1999-2000 millennium plot. Al-Qa'ida efforts to 
blow up hotels and other terrorist sites in Jordan would have 
resulted in hundreds of casualties. Our global effort was the 
largest operation in the history of counterterrorism.
    2000, Ramadan threat, defeated. Summer, 2001 threat, this 
also included planned attacks on U.S. Embassies in Yemen and 
France, saved lives. In addition, we rendered scores of 
terrorists to law enforcement.
    Mr. Chairman, it would be my greatest wish to bring 
classified holdings of our successes and use them in an open 
format. There are sources to protect, there are methods to 
protect and there are foreign relationships to protect. The 
complete list of our successes was reported in closed session 
to oversight committees. We're happy to meet with you at any 
time and I must leave it at that.
    How do we get successes? The men and women of the 
Counterterrorism Center and those in the CIA who work 
counterterrorism are the finest Americans this country can 
produce. They are smart. They are quick. They are patriotic. 
They are loyal. They are brave and they are hardworking--14,16, 
18, 24-hours a day, six, seven days a week, week after week, 
month after month for the entire time that I was there.
    Our people fought with what we provided them and turned 
back defeat. Leading up to 9/11, CTC conducted intense 
intelligence war measured by constant threats, emerging, 
engaged and defeated. We were also the first on the ground in 
Afghanistan before the month of September of 2001 was out. 
We're able to support the military and their success.
    I would like to take this opportunity, because these days 
you never can really tell who is going to speak for the people 
that do their best and do the work. I want to thank all the 
people in the Intelligence Community and in law enforcement and 
in CIA, those that do counterterrorism, and particularly, in 
the CIA case, our field personnel.
    Now, I want to speak to each man and woman in the 
Counterterrorist Center. I want their families, their neighbors 
and the American people to hear this. I was proud of them when 
I led them. I'm proud of them now, and I will be proud of them 
as long as I live.
    Mr. Chairman, I'll submit the remainder of my statement for 
your record. Thank you, sir.
    Chairman Goss. Thank you very much, Mr. Black, for, I 
think, a very compelling and obviously heartfelt bit of 
testimony, which I think helps us all understand a little 
better just what does go on behind the veil that we don't see. 
I appreciate that.
    Mr. Watson.
    [The prepared statement of Mr. Watson follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
     STATEMENT OF DALE WATSON, FORMER ASSISTANT DIRECTOR, 
  COUNTERINTELLIGENCE AND COUNTERTERRORISM DIVISION, FEDERAL 
                    BUREAU OF INVESTIGATION

    Mr.Watson. Thank you, Mr. Chairman.
    I would like to also say that I'm honored to be here this 
morning. I'm very honored to be next to my friend and 
colleague, Cofer Black. On behalf of the men and women of the 
FBI, we certainly extend our sympathy and our prayers to the 
victims of this horrible act on 9/11, as well as to all 
American victims that have been victimized by terrorism over 
the years, as well as our foreign citizens overseas.
    What I thought I would do this morning with you, since I 
have my prepared statement that's introduced, is to hit some 
highlights of some areas not specifically covered in that 
statement but some issues that need to be talked about this 
morning.
    And the first is I'd like to talk briefly, real briefly, 
and most of you Senators and intelligence committee members 
have heard some of this before, but I think it's worth bringing 
up, what the FBI was doing in counterterrorism since 1996.
    I would also like to briefly discuss the relationship that 
we've had with the CIA over the years, particularly since 1996. 
Thirdly, discuss briefly the budget request, particularly the 
budget years 2000, 2001, and 2002. This is not a budget 
hearing, but there's some numbers that need to be put out so 
you clearly understand where we were coming from in the 
process. And, then, lastly, make some general observations 
about some perceptions that I think need to be clarified for 
the record. Were we doing everything we could on the aircraft 
or civil aviation threats? Was the FBI assuring the 
Administration that an Al-Qa'ida could not attack us inside the 
United States? I'd like to clarify those points.
    And then, thirdly, talk about the concept of being reactive 
and proactive and how that has become popular post-9/11 and 
that we were certainly making headway in the proactive area 
long before 9/11. And I think you need to hear those 
statements. And, as well as Cofer, about the dedication of the 
men and women of the FBI.
    Let's start off with the history real briefly and I will 
not go into a lot of detail about this. Starting in 1993 with 
the World Trade Center, I think everyone's realized the first 
World Trade Center killed six U.S. citizens. The 1993 followed 
that up with the attempt to bomb landmarks in New York City. 
The whole list of terrorist cases that we focused on as the 
FBI, along with all the other matters in counterterrorism that 
were going on--the Manila air plot in 1994, the Oklahoma City 
matter in 1995 where 168 of our citizens were killed inside the 
United States as a result of a domestic terrorist group, 
OPMSANG in November of 1995 in Saudi Arabia, which killed five 
American military personnel. June '96, Khobar towers, wherein 
19 U.S. Air Force personnel were killed. Following up with 
that, in 1998 we had the East African bombings where 12 U.S. 
citizens were killed, followed up by the millennium threat 
where Ressam was arrested coming across the border in the State 
of Washington prior to the millennium, where we charged him and 
other individuals in New York City. October of '00 the USS Cole 
resulted in the death of 17 U.S. sailors, and, then, most 
importantly, 9/11.
    To take you back where we were with the counterterrorism 
program at the time, way back when in 1993 and prior to that, 
it was a high profile program within the FBI but had very few 
people working it. We had less when I was in the--working 
counterterrorism in 1991, we had less than 50 people total in 
the section, which was responsible for all of 
counterterrorism--domestic, international, as well as special 
events.
    Over a period of time, as you well know, and particularly 
starting in 1996 with the 1996 anti-terrorism effective death 
penalty, here's what the FBI was doing. And, sometimes we get 
lost in the shuffle here looking at what we've done since 9/11 
as opposed to prior to 1996.
    Over a period of time we've expanded the Legat programs and 
we started out with a small number of Legat programs. I think 
the number was 16. We're now up to 44. Opening new Legat 
programs since 1996 was a clear indication of our focus on 
counterterrorism and the problems we were having. Those Legat 
offices were not opened in areas where the major concern was in 
organized crime or drugs. They were opened in Tel Aviv and 
Riyadh and Islamabad, Cairo, and I could go with the list.
    So, it was a clear focus by us understanding the expanded 
jurisdiction, which the congressional passed legislation for 
expanding our jurisdiction of about U.S. citizens and Americans 
being attacked overseas, that clearly we recognized the need to 
have a closer and stronger and a larger presence overseas, not 
in any way responsible or trying to do what the CIA does, but 
to look at it from a law enforcement perspective.
    In addition to that, we expanded our JTTFs inside the 
United States. And I'm happy to report that at present we have 
over 56. Prior to 9/11 we had 34 on the books and those are law 
enforcement people assigned to FBI field offices along with our 
federal partners. I think there's been a lot of discussion 
about the JTTF's. I think you understand that. What that does 
for us is not only incorporate the information sharing that we 
need, but it's also a force multiplier for the agents and the 
number of people working counterterrorism within the United 
States, a very worthwhile and beneficial program.
    Since '96 we've expanded and improved our threat warning 
system. And without saying much further about that, I think you 
understand that we have the ability to electronically 
communicate with our federal, state and local partners on 
threat information instantaneously. We established a 
counterterrorism center at FBI headquarters. And basically what 
that was was bringing in 19 federal partners actually working 
within the FBI headquarters to look at counterterrorism cases 
and try to figure out what we're trying to do and where we're 
going.
    We expanded our SIOC operations in order to be able to 
cover more and bring in more partners during a time of crisis. 
And we improved our relationship with the CIA. Being the first 
deputy chief over at the counterterrorism center in 1996, it 
was an exchange program that you've all heard about before and 
it's proved very beneficial and very helpful to us.
    After the East Africa bombings we expanded the five rapid 
deployment teams, teams that were formed in our field offices 
to be able to rapidly deploy in an overseas environment in 
order to investigate and bring responsible individuals for 
those acts to justice.
    One of the main points, though, I need to tell you about 
is, starting in 1998 the light basically came on for us as to 
what we were trying to do in counterterrorism. I came to the 
conclusion, being promoted to deputy assistant director in 
charge of counterterrorism, that if you looked across the board 
and you go back and you look specifically at counterterrorism 
issues, you realize that from a starting point that one, we 
will never be able to stop all acts of terrorists.
    We could have 100,000 FBI agents and the CIA could have 
10,000 more DO officers and our probability of stopping every 
act of terrorism is probably not going to happen. And once you 
realize and take that concept for what it is, then you have to 
ask yourself what does that leave you. Do you throw your hands 
up and you say well, we'll just wait and react to somebody 
bombing us or killing American citizens and we'll have the FBI 
investigate it and will tell us post-event who the people were 
that were responsible for doing that.
    Well, the answer is, that's not the answer. And the answer, 
if you look at it from a strategic standpoint, and we started 
doing that in 1998, what you come up with is the idea that if 
you can't prevent all acts, then you better be at the highest 
capacity that you can possibly be. This led us into strategic 
thinking about what does that mean for our 56 field offices? 
What does that mean for the FBI at FBI headquarters? And 
through a long process called maximum capability by '05, Max 
Cap 5, we started down that road to look at it and to say that 
the FBI does a tremendous job in the area of investigations 
after a crime has been committed.
    We put 1,000 agents or more in East Africa. Oklahoma City, 
we mobilized probably 35 different operation centers throughout 
the country. But, if you look at it from a logical standpoint, 
those things will never get you in the prevention business. 
They will tell you who did it and how they did it, but it's 
always post event.
    So, we started out in a process of trying to develop our 
capability in our field offices and understanding what the 
threat is over the horizon. And it's the hardest thing ever 
tried to do in a bureaucracy as large as ours. We have great 
people, but great people sometimes have an understanding that 
change is very disruptive and change is hard.
    So we started in '98 to look at this. And the only way we 
could do it was to look at how capable our field offices were. 
And if our field offices were not capable of responding, 
investigating, doing everything they can, to include resources, 
technology, then we would be vulnerable for attack again at the 
level inside the United States.
    In addition to looking at our field offices, and we started 
a specific process to do that with several reports coming back 
to me that evaluated where we were in all our field offices and 
what capabilities they had and had a very simple color system, 
red, yellow and green, that we were able to take that.
    But, it's not fair to just evaluate our field offices. We 
also looked internally within ourselves at FBI headquarters. 
And we looked at how well are we doing in the intelligence 
business of sharing information, obtaining information, 
processing information, and what does intelligence mean. And 
intelligence to law enforcement is different than intelligence 
to the CIA. And how do you process intelligence? And our 
thinking of intelligence was tell us what's happened in post 
cases. And that's never going to get you into the prevention 
business if you continue to look post. So we evaluated 
ourselves and said we needed great help in the intelligence 
arena.
    The third area we looked at at headquarters on the criteria 
was the technology piece. And I think you've all been briefed 
on those areas of concern. And we realized we were well short 
of what we needed in technology, the ability to share 
information and pass information back and forth electronically, 
not only with our federal partners, but with our state and 
local partners as well.
    And then fourth we looked internally and evaluated 
ourselves internally, not on reactive stuff but on being 
proactive on the liaison side. How well we're sharing 
information, what are our relationships with our foreign 
partners, what are our relationships with our federal partners? 
And there were areas of improvement that we needed in all those 
areas.
    And once you identify what your capabilities are and have a 
standard to be able to measure it and say we're at this 
percentage and this is where we need to go, it helps you 
formulate budget requests. It helps you formulate what you need 
in technology. It helps you to formulate exactly from a 
national program of what you're trying to do.
    In 1998 we declared Usama bin Ladin the number one priority 
and the al-Qa'ida organization within the FBI. In early spring 
of '99 he was placed on our top ten list. And, so, we hear 
things all the time that the FBI wasn't focused on 
counterterrorism.
    In addition, to that in November 1999, at no one's request 
but an internal review by the FBI, we created the 
counterterrorism division in addition to that, with our 
investigative services division. And so we were singularly 
focused on that and trying to run a national program and being 
able to raise our capability in order to prevent acts of 
terrorism as the number one thing.
    We will never ever move away from being reactive. We 
understand that. And that's what people want to talk about most 
of the time is how's that case going in East Africa, or how's 
the USS Cole investigation going? But, if you step back and 
look at it strategically you need to have people thinking 
beyond the horizon and that's very difficult for all of us. And 
it's particularly difficult for law enforcement people. And 
it's very easy post-event to figure how the kidnapping 
occurred. I won't say it's very easy, but you have a lot more 
leads post-9/11 as to how they did this, as opposed to prior to 
9/11. And there were red flags in the ocean out there. There 
were a lot of red flags prior to 9/11.
    And once 9/11 occurred it's real easy to go back and pick 
out the red flag in the ocean of red flags and say you should 
have done this or you should have seen this. And a threat to 
aviation is certainly one of the areas that we receive threat 
reporting on. It was not the only area. They had threats to 
malls, threats to power plants, threats to assassination; 
across the board, we had threats coming in every day.
    And if something happened today concerning a small boat 
attacking somewhere in one of our harbors in the U.S., we'd 
probably have information about that. So it's a mass of 
information and it's a sea of threats. And it's like working 
against a maze. And if you know where the end point of a maze 
is, it's certainly easier to work your way back to the starting 
point than being trying to go through the maze and sort out all 
the red flags.
    I'm not defensive whatsoever. I encourage you look back 
look. I encourage people to ask us questions and said why 
didn't you do this or why didn't you do that? But the men and 
women of the FBI that were working this in conjunction with 
Cofer's folks were working full-time. We were not sitting on 
our hands. We were not asleep over there thinking that well, 
this can't possibly happen inside the United States. We were 
aware of that.
    Just a couple of other quick points I need to make. We also 
realized prior to 9/11 that information sharing with our state 
and locals is a key piece. We have 600,000 law enforcement 
people in the United States, and as result of October of '00 we 
initiated a pilot project in St. Louis where we would actually 
load, hopefully if we get all the kinks worked out, federal 
information, as well as all state and local information in 
order to electronically be able to use that information to 
connect the smallest dots in the terrorism program.
    An individual stopped in St. Louis County might be the key 
to unraveling a terrorist plot, and that requires time and 
effort and technology to do that. It's not a technology issue, 
but it's a project that needs to be done. Post-9/11 we 
initiated a similar project in San Diego. We also have one 
going in the Northwest with three states--Oregon, Washington 
and Idaho. We do not have all the correct answers on those 
projects yet. But as we continue to work our information 
sharing will get better.
    Just a couple of other key points over a period of time 
since the early '90s is the renditions. The renditions are key 
in law enforcement, but at the same time it is a very difficult 
task to render people back to the United States. We were 
successful in Shirasaki coming out of Nepal and several key 
East African fugitives that were able to get out, working not 
only with the CIA but the State Department, as well as our DOD.
    The key point here is the FBI was a law enforcement effort, 
trying to investigate, bring to justice under our rules, our 
Constitution, crimes that were committed against American 
citizens. And a key point to remember in this war in terrorism, 
and particularly al-Qa'ida and Usama bin Liden, is the fact 
that sometimes the idea that not only is it law enforcement 
issue, it is also a national security issue. We can lock up 15 
people for bombing us in East Africa. We can indict and charge 
individuals in the USS Cole or we can indict and charge 
individuals in whatever terrorist act that goes on, but this 
will not stop this.
    This is a national security issue. And I'm not advocating 
passing the mantle from law enforcement into a national 
security issue, but as, Senator Shelby, you well remember on a 
briefing that we had with you, me and the Director of the FBI, 
where we talked about a very sensitive matter where we were 
close to getting indictment, former Senator Kerrey from 
Nebraska said--turned to my Director and said I'd really like 
to thank you for this effort that the FBI's put into this. But 
actually this is a national security issue. This matter should 
be taken to the Administration and taken to DOD because we're 
never going to stop it just solely through the law enforcement 
side.
    And, so, that's a key point I think we should remember and 
talk about. The other things that, real briefly, are the 
resources and budget. This is not in any way a criticism. This 
is not any way a reflection upon what we were trying to do and 
what we ended up getting or an excuse of what happened about 9/
11. But I would turn your attention to our request, the FBI 
Director's request in the '00 budget. I'm not going to talk 
about what made it actually up here, the numbers, but I can 
tell you what I, head of the Counterterrorism Division, 
requested. And I'll be real brief about this and I only have a 
couple of more points.
    In '00 the FBI requested 180 agents and 680 for support in 
the '00 budget. What comes out the other end approved by 
Congress is five support people. In the '01 budget we asked for 
30 agents, 397 support people. And what comes out the other end 
is 0-0. In the '02 budget we asked for 203 agents, 104 support, 
and what comes out the other end is 8 agents and 56 support 
people.
    If you add those figures up for just three years you come 
up with close to 2,000 individuals that we asked for, a 
breakdown of that of about 430 agents and 1,482 support people. 
And what we got on the other end was 69. That begs the question 
and I'm not here to answer that question, is would this have 
made a difference prior to 9/11? Would we be here talking about 
the Phoenix memo or something else if the identification and 
the recognition of the resources we needed?
    And I know Congress had other issues. And I'm a realist. We 
had other programs going. We had a drug program. We had a gang 
problem. But yet at the same time it comes down to resources. 
And what we asked for and what we received was the figures.
    Does that explain why--and we can discuss these figures--
why we only had one strategic analyst looking at UBL? Does it 
explain the number of people that we had working UBL? I'll 
leave that for further discussion.
    Mr. Chairman, I think Congress recognized the need that we 
needed resources because in the '02 supplemental, right after 
9/11, we received 297 agents and 823 support people. I'll leave 
that at that.
    The last area, in closing, is we've heard some talk, some 
perceptions that we didn't do enough about the airlines 
threats. And I think I've covered that. The airlines threats 
were out there, as well as the mall threats, as well as the 
suicide bomber in 1997, as you recall, that attempted to go 
into the New York subway and blow himself up, as well as other 
things. Continued, continued, you know, repeated threats that 
we received in working with the Agency.
    I'm not here to say that there were not clues or red flags 
that we should have picked on. But it is a sea of red flags. 
The other thing is that there's a perception that we, the FBI, 
never briefed the Administration that al-Qa'ida could attack us 
in the United States. I will tell you that perception is 
absolutely incorrect. If you looked at just the fact that we 
had been attacked in the World Trade Center in '93, if you 
looked at Oklahoma City, if you looked at the Ressam individual 
who was going to set off a bomb in LAX, you understand clearly 
that we were vulnerable in the United States.
    Looking at the pattern before 9/11, of all the pattern, I 
was convinced we were going to be attacked. As a matter of 
fact, we had a discussion with the Director about this prior 
to, long before September 11 about pre-positioning people 
overseas, FBI agents. And I was convinced at that time that the 
probability of an attack against us was great, but I was also, 
the majority of my thought process was that it would be 
overseas. But we had never at any time told anyone that we 
could not be attacked inside the United States.
    The last two points is it continues to be that we're all 
reactive. And if you've heard some of this, and I'll be glad to 
explain this more, we were moving in the right direction in 
being proactive. We were trying to look over the horizon. We 
will always be reactive because of the crimes we do, but we 
also have people that look and think about where is the next 
threat and how's it coming and what we should do about it.
    And, in closing, I guess the best thing is that somehow or 
another people think that we were asleep at the switch. We have 
dedicated men and women. We have individuals, field agents, 
support people, professional staff that have absolutely worked 
themselves almost to death over this problem. And just as Cofer 
said, I'm extremely proud of those individuals. And I'm 
extremely proud of what the work ofthe FBI has done since the 
early '90s in the counterterrorism program. And we don't do everything 
always right. But, in the realm of counterterrorism that's a judgment 
that we're based up or evaluated on.
    I've used this analogy before. We're like a soccer 
goalkeeper. We can block 99 shots and no one wants to talk 
about any of those. And the only thing anyone wants to talk 
about is the one that gets through. And I understand that. I'm 
not asking for sympathy on that, but I'm telling you what 
reality is. And so our folks are very dedicated and work very 
hard about this.
    The last point is somehow or another word's out that 
somehow that the FBI and CIA conspired or had information prior 
to 9/11 that could have prevented this and that we were not 
interested in pursuing that. I can't tell you how I wish we 
could have prevented this. I worry about. And over the period 
of time, even prior to
9/11, it was always the thought process of what have we missed, 
what are we doing that we need to do better. But I'm not 
responsible for the individuals, the 19 individuals that got on 
those planes and the al-Qa'ida organization that pulled this 
plan off.
    However, I think it's important to remember that we did the 
best we absolutely could with the resources we had. I wish we 
would have had technology that could have instantaneously 
evaluated all the documents. I wished we had had 150 analysts 
assigned to FBI headquarters. We didn't. But we did the best we 
could. And that's not being defensive at all, Mr. Chairman; 
that's being very honest with you.
    I thank you for this opportunity. I'll be glad to answer 
any questions you might have.
    Chairman Goss. Thank you, Mr. Watson. That also was 
compelling testimony and very helpful to us.
    Our procedure is now that we assign 20 minutes each to pre-
selected, designated lead questioners and for today's hearings 
our questioners are Representative Gibbons, Senator Durbin, 
Representative Reyes, and Senator DeWine, in that order. And 
after they've completed their questioning then we'll proceed 
with the list of the other members using the Senate system, 
which is in front of me.
    The order of arrival we have is Representative Peterson, 
Representative Roemer, Senator Levin, Representative Hoekstra, 
Senator Bayh, Representative Castle, Senator Feinstein, Senator 
Roberts, Representative Boehlert, Representative Harman, 
Representative Burr, Senator Mikulski.
    What is going to happen, I am advised, is the House is 
going to have a series of votes starting about 11:00 and so I 
would suggest that we can probably get in Mr. Gibbons' 
questions before that and if you can continue in that case 
while we go over there we can keep the questioning going.
    Thank you very much, gentlemen.
    Mr. Gibbons, the floor is yours, sir, for 20 minutes.
    Mr. Gibbons. Thank you very, very much, Mr. Chairman.
    I appreciate this opportunity and I do want to welcome our 
witnesses this morning, Mr. Watson and Mr. Black. Thank you for 
being here before this Committee to enlighten us. And also 
thank you for your service to our country.
    Not often, I'm sure, do you hear people tell you thank you 
enough for what you do and the commitment that you've got. I 
want to say at the outset of this hearing that I believe that 
your experience, your dedication and the time you've spent in 
the jobs that you've held, both in CIA and the FBI, in 
counterterrorism have made you the proper witnesses to be here. 
I think your knowledge level and experience bring what we need 
to hear on this Committee. And we look forward to that.
    Let me say that the purpose of this hearing and the purpose 
of my questioning is to identify the systemic problems at the 
foundation of our Intelligence Community. This is not a finger-
pointing exercise and this certainly is not a witch-hunt. This 
problem is larger than any one individual and it's what we are 
out to do, is to find solutions to making sure that tomorrow's 
attacks and tomorrow's problems are solved today.
    The issue before us is whether we had not just the right 
people or the number of people but whether we had the right 
skill sets and whether we had the right operational attitude in 
some of our agencies to allow us to get to the critical 
information that would be necessary to fight this.
    May I say to both of you that if I do probe or ask a 
question that requires a consideration of national security for 
clearance, please note the question and we will be happy to 
receive your answer in the closed session that we have this 
afternoon.
    Mr. Black, I would like to start with you, if I may. And, 
again, welcome to our Committee. And let me say that you've 
always been a staunch advocate before our Committee. This is my 
sixth year on the Intelligence Committee and I can say to those 
watching that you have come before our Committee time and time 
again as a staunch reporter of terrorist activities, what this 
country was facing, what we needed to do. My question would be, 
was there an articulation of your interest in the terrorist 
activity and the needs of our agencies dealing with terrorism 
communicated to superiors and how was that received?
    Mr. Black. Well, my superiors, of course, are the Director 
of Operations, Jim Pavitt, and the Director of Central 
Intelligence, George Tenet. And I would tell you, sir, that 
there is one person who has been more frenetic in his actions 
and more concerned about counterterrorism than I, and that's 
the Director of Central Intelligence. My leadership certainly 
understood the threat. They were consumed with it. They were 
fixated on it. They attempted to allocate resources. As I 
recall from my statement, I did say that we were the first 
among equals, the entity not to be cut. I think that from a 
resource pie we certainly got our share and a bit more.
    I think the concern was that this is a long war. My 
Director declared it, declared the intelligence war in 1998. He 
took them very seriously. We hire people against it. We train 
for it. But I think the issue before you for your consideration 
would be this is going to be a long struggle. And it's 
certainly going to see a lot of us out in terms of longevity. 
We need to build a base so that we can move forward without 
people like Mr. Watson's special agents getting burned out or 
our personnel running on empty year after year. This is no way 
to run a system, sir.
    If you're going to fight, you want to get the right number 
of troops. And so more is not necessarily the only answer, but 
certainly more is required. But, I think we also have to look 
for the resource base to move forward. Thank you.
    Mr. Gibbons. So what you're telling our Committee is that 
your advocacy of the threat posed by the terrorists was 
communicated to your leadership in a need for more resources in 
the application of the war against terrorism beginning in 1998.
    Mr. Black. I actually came to this job in 1999. But----
    Mr. Gibbons. Beginning in 1999.
    Mr. Black [continuing]. The answer to that is yes, they 
were certainly aware of my concerns. They were as equally 
concerned and, being by their side, their actions conformed to 
their concerns.
    Mr. Gibbons. Now you also mentioned that budget reductions 
in 1999 saw or forced an approximate 30 percent cut in Agency 
operations. This is in opposition to what we're hearing in 
terms of the rise in the advocacy of the threat. Can you 
explain why administrative cuts were requested to the Agency 
when there was an increase in the level of threat knowledge?
    Mr. Black. Well, I'm only going to speak for the 
Counterterrorism Center. But I will tell you that the 
Counterterrorism Center essentially was able to perform at the 
level or was resourced at the level that we achieved as a 
result of supplemental funding. The one-year monies I thought 
were for, in terms of the mission, again as I statedin my 
testimony, was relatively modest. That appeared to be how we conduct 
affairs in the government. We are the recipients of this type of 
action, sir.
    Mr. Gibbons. Let me go back to something you've indicated, 
that during your time as the head of the CTC, chief of the DCI 
portion for CTC, personnel numbers. Oftentimes we hear that you 
had the equivalent of three infantry companies on the line 
fighting this war. My question to you is, did the numbers of 
people you had have the right skill mix with regard to language 
capability, with regard to operational capability and skills 
needed to be able to gather the appropriate information?
    Mr. Black. I think that we had a very good skill mix. We 
hire towards this. We emphasize those attributes that are going 
to be effective overseas. That's what we do.
    Mr. Gibbons. Well, let me ask the question then. Did you 
have the right numbers of people that could speak Arabic, 
Pashtu, Urdu, Farsi?
    Mr. Black. You always need more speakers in those 
languages. We have gone out of our way, increasingly over the 
time, to specifically target these types of individuals with 
these language skills. In fact, I can tell you that the 
Counterterrorism Center even advanced through the appropriate 
offices its own hiring campaign where we advertise in 
newspapers specifically looking for people interested in 
counterterrorism and that had the right language 
qualifications.
    Mr. Gibbons. Okay. Many times in our intelligence gathering 
overseas we often use liaison type operations. When is it 
essential to use liaison operations? And when is it or when 
should we use efforts for unilateral type operations?
    Mr. Black. I appreciate that question. It's a very 
important one. This is a global war and we are involved in 
essentially intelligence combat. When you go to war it's 
usually a good idea to have as many allies on your side as you 
can. There's a commonality of interest here. Most countries are 
against terrorism and we in the CIA have developed a 
constellation of allies that certainly, as I speak right now, 
is extremely effective. When you need to do it yourself is when 
there is no friend to help you, there is no alternative besides 
taking high-risk actions on your own.
    I must say we conduct the normal business of intelligence 
operations at all times, but counterterrorism is a little 
special in that we all need to cooperate, and we do. But, 
there's no reluctance to, as you say, unilateral operations. 
This is what I do for a living. And there is no hesitation 
certainly under the leadership of this Director. We launch very 
quickly whenever it's appropriate.
    Mr. Gibbons. Do you feel there was an under-reliance on 
unilateral operations between the periods of 1999 and 2001?
    Mr. Black. No, I do not. I believe that with the resource 
base that we had that we maximized our operational product with 
exactly how we did it, which was a good mix, an appropriate mix 
at the right time.
    Mr. Gibbons. So you don't believe that we could have used 
more unilateral operations in that time period?
    Mr. Black. Well, we could absolutely. We would need the 
people to do them.
    Mr. Gibbons. So the issue was then we go back to if you had 
the people with the right skill mix to gather that information 
and to do those operations.
    Mr. Black. Yes, sir. If you had the right number of people 
with the right skill mix.
    Mr. Gibbons. Well, that's the issue.
    Mr. Black. Yes, sir. There you go.
    Mr. Gibbons. That's the bottom foundation issues. No matter 
how many people we have, we've got to have the right skill mix, 
whether it's language skills. And I'll ask you again do you 
feel that we had the right number of language-skilled people to 
conduct the right kind of operations in a war against 
terrorism?
    Mr. Black. We always need more. My opening testimony stated 
that we need additional personnel to be as effective as 
possible overseas.
    Mr. Gibbons. So I guess the answer is, no, we didn't have 
the right numbers of language-skilled people. We needed more.
    Mr. Black. Yes, correct.
    Mr. Gibbons. Okay.
    Mr. Watson, I want to turn the question to you in the time 
I have. Do you feel that the FBI was overly focused on 
gathering information for prosecution purposes rather than 
focusing on terrorism prevention prior to 2001?
    Mr. Watson. I think, as I've indicated, in 1998 that the 
light really came on for me personally, as well as an 
organization that we were going to be involved in the 
collection of evidence. We were going to be involved in 
investigating post events. But we also realized in 1998 the 
need to be proactive. And there's a blending of that. And 
that's a cultural change within the FBI. And in order to figure 
that out that's why it was so important to be able to evaluate 
and have an understanding of exactly where you were.
    So the answer to your question is 1998--starting in '98--
and this was a very difficult process because of what we had 
always done. And then you try to talk to individuals or even 
outside the Bureau about well, what do we think might happen 
across the horizon. And you look at the cyber arena, and I'm 
trying to answer your question very specifically.
    We looked at that in '98 because NIPC, the National 
Infrastructure Protection Center, was under the 
counterterrorism program at the time. What in the world are we 
going to do to try to get to where we need to be by '05 in just 
the cyber arena? And people started thinking about it and I 
started thinking it, that if we don't do it we'll be here in 
'05 and we won't be able to figure out cyber issues and they'll 
probably be no crime or no criminal act committed that doesn't 
involve cyber.
    So, to answer your question, heavy, heavy on the collection 
of evidence and investigative side. But starting in '98 it was 
very clear to me that you had to have a vision and you had to 
look beyond cases. And if we were just running out and 
investigating cases, that's all we would ever be doing. And so 
some smart people got together and we decided what is the 
threat and how do we address it.
    Mr. Gibbons. Let me ask both of you to answer this question 
because I think it's clear that both of you have definite and 
distinct approaches to counterterrorism in America. I would ask 
each of you to identify how you measure success in your fields 
with regard to what you've done since 1999 or '98, whenever you 
came to those. What are your success measurements and 
benchmarks that you established to allow you to identify 
whether what you were doing was correct?
    Mr. Watson. Do you want to go first or you want me--who?
    Mr. Gibbons. Mr. Watson, if you want to go first, that's 
fine.
    Mr. Watson. Okay. That is a very fair question and I'll be 
happy to answer that. I think in order to evaluate the 
counterterrorism program with the FBI and if you look at prior 
to '98 and even post-'98 you had to have very specific 
criteria. And if you rely upon the number of arrests, number of 
convictions, or the number of acts of terrorism prevented, I 
think you might get a faulty representation of how well you're 
doing.
    And so the idea was, starting in 1998, was to see how well 
and at what criteria. So we developed specific criteria to 
measure and evaluate ourselves at every field office. And it 
was no longer acceptable for a special agent in charge to be 
assigned to some field office that had worked drugs all his 
life who is now responsible for counterterrorism in a certain 
state or area. He needs help with that or she needs help. So 
wedeveloped specific measurable criteria to say this is what we want 
you to do in Little Rock, or whatever city it was, and we're going to 
measure that. And I'm going to hold you accountable for that action.
    And this is where, when you put all that together, is a 
huge management success to be able to say exactly where you 
were in the process and exactly what resources for the first 
time we needed and what were the technology problems. And do 
all our field offices have enough analysts? And you measure 
that and we measured that through a series of reports every six 
months provided to the Director.
    Did that answer your specific question?
    Mr. Gibbons. Yes.
    Mr. Black.
    Mr. Black. Sir, essentially in my business you're looking 
at a global counterterrorism program. There are a lot of 
criterias of success or measurements towards success. There are 
things such as the number and the quality of foreign 
relationships that you have overseas, the number and quality of 
assets that are providing you insightful counterterrorist 
information, also the support and development measurements, the 
selection of appropriate officers, as you mentioned before, of 
language criteria, the training given and assignment to 
specific regions to maximize the qualities and skills of that 
officer against specific targets.
    In the end, it is my personal view that a programmatical 
approach is a good one in counterterrorism because this fight's 
going to be long. It's going to be very difficult. It's going 
to consume the time of a lot of our officers, as well as 
resources and be looking at relationships. You're looking at 
your own people conducting these operations, as well as the 
product, which is the reporting from assets to be analyzed by 
analysts and the end result objective, which is very difficult, 
but which we do achieve and we attempt to achieve always, is to 
develop that tactical detailed intelligence so that can be 
passed over to law enforcement or other intelligence services 
so that we can preempt and disrupt specific attacks and save 
lives.
    Mr. Watson. Congressman, may I add just one other thought 
that I would like to, referring to your question? I think 
Senator Shelby and Congressman Goss are good examples. I'll use 
both of you in this. I mean when I would come up and appear 
before you I think the question would be for the FBI, Mr. 
Watson, what's your budget and the numbers were so and so. 
Well, last year how many acts of terrorism did you prevent? 
What did we get with that money? And my mind would race real 
rapidly. We had the case in Sacramento. We had the guy down in 
Tampa, Florida. Well, if we cut your budget in half, would we 
get half that many? If we doubled your budget would we get 
double the number of preventions?
    And the answer is no. The answer is you have to be working 
at the highest capability, the maximum things that the FBI 
could do. So the measurement is how well are you doing on the 
capacity? And if you're there, then that's all you can do. But 
if you're not there, that's the measure of standard in a 
counterterrorism program. It has not anything to do--well, it 
does, and I don't want to downgrade that--by a specific number 
of statistics. And we've long been driven by statistics. It's 
being able to project and it's being able to understand what 
you're capacities are. And we were hurting. We were hurting in 
the areas of training and analysts, those things. I just wanted 
to make that point.
    Mr. Gibbons. Thank you.
    Mr. Black, I want to go back to something you indicated. 
The product of your measurement was reporting, increased 
reporting as part of that product. It seems to me that there 
was a dramatic rise in the number of reports that were 
presented to the Agency from the field with regard to terrorism 
over this period of time.
    My question is, do you feel that the threshold of reporting 
was low enough or so low that it presented you with a flood of 
information that could not be properly analyzed, it could not 
be properly disseminated to the Intelligence Community, that 
would have been able to be verified and substantiated and 
corroborated because of the sort of frantic pace that we were 
under to get information and any information that we could? Did 
that have that effect--in other words, preventing it from being 
properly analyzed, properly disseminated and distributed to our 
Intelligence Community?
    Mr. Black. We're obviously in the business of collecting 
intelligence and disseminating intelligence. When we collect 
intelligence information that is new and it's considered at the 
time to be accurate, then that is passed along, with the 
appropriate review and processing, and that would go to our 
analysts. I seem to always return or come back to the same 
thing, and that is that the people are the most important part 
of all of this. All the intelligence we collect is reviewed and 
processed. It is disseminated. We're not going to be in the 
business of withholding intelligence information from a 
validated customer. There is a little secrecy involved in this, 
but if it is caveated, if we feel and essentially think it's 
necessarily completely true, we may say that.
    Mr. Gibbons. Mr. Chairman, I see that my time has expired. 
I want to thank you for the opportunity.
    Chairman Graham [presiding]. Thank you, Mr. Gibbons.
    Senator Durbin.
    Senator Durbin. Thank you very much, Chairman Graham, and I 
want to thank our two witnesses for joining us today. And let 
me say by way of preface to these remarks that, as I'm sure you 
would not question the commitment of Congress, the House and 
the Senate to the security of the United States, we certainly 
don't question your individual commitment nor the commitment of 
the fine men and women who work in your agencies. You are truly 
on the front line of protecting this great nation. And many of 
your colleagues risk their lives every single day in that 
pursuit.
    We should never minimize that, nor ignore it in any of 
these hearings. And I think we should make a point of saying 
that the purpose of this joint inquiry is not only to raise 
questions about your agencies and the Intelligence Community 
and the law enforcement community across America, but to raise 
questions about Congress itself and what we did or failed to do 
that might have had an impact on September 11, 2001. Some of 
these will be hard and embarrassing questions, but they have to 
be asked and answered.
    At times judgments are made, and in retrospect they might 
not have been proper. The same can be said of Congress as can 
be said of your agencies. And I think it's those judgments that 
we are exploring in the course of these hearings. So I hope 
with that caveat and with that understanding that you'll bear 
with me as I ask a few questions that will try to get into some 
detail about issues which still remain unresolved in my own 
mind.
    There's so much of this that we are discussing that is 
subjective--decisions made by men and women at a given time in 
history based on information they had before them, based on 
what they believe to be a threat to the United States and what 
they believe we should do to respond. There are some things, 
though, that are objective and I think we should start there. 
Because I think, Mr. Black, that's where your testimony 
started.
    And the objective element here relates to the number of 
personnel who were dedicated to the war against al-Qa'ida, a 
war declared in December of 1998 by DCI George Tenet. In a 
closed hearing on September 12, 2002, Mr. Black, you testified 
about not having enough people in CTC. In a public hearing on 
September 20 we heard from a CIA officer who talked about, 
``misses that happen when people, even very competent, 
dedicated people, are simply overwhelmed'' by their workload.
    Then, shortly thereafter, a press release was issued by the 
Central Intelligence Agency. This press release of September 
19, 2002,really raised a question as to whether or not the 
Joint Inquiry was correct in saying that the CIA was inadequately 
staffed to meet this challenge. I guess the nature of my first question 
to you relates to these staffing levels.
    And I'd like it if you could clarify this point, if you 
can. First, did you, Mr. Black, play any role in the 
preparation of that September 19, 2002 press release by the 
CIA?
    Mr. Black. No, I did not. You know, press business is not 
my affair.
    Senator Durbin. So, you weren't called on to provide 
information about facts or experiences that related to their--
--
    Mr. Black. I believe that information came from the 
Counterterrorism Center. As I did testify, I left the 
Counterterrorism Center in May. And there's a new chief and I 
am confident that this information came from there.
    Senator Durbin. Let me ask you this. The CIA press 
statement indicates that prior to September 11, 2001, there 
were 115 analysts throughout the CIA working terrorism-related 
issues. You said before our Committee earlier that the CTC 
didn't have enough people. I really have to ask you which 
version we should stand by.
    Mr. Black. Right.
    Senator Durbin. Your conclusion or the conclusion to the 
CIA press release?
    Mr. Black. Unfortunately, in my view, probably both. There 
is a difference between the analysts that are assigned within 
the CTC, as well as analysts that are outside CTC and other 
components in the CIA that do provide analytical support. If 
you're looking at things such as specific terrorist equipment 
or sort of regional analysis of terrorist trends, things like 
that, these personnel spend a considerable amount of their time 
on counterterrorism issues.
    So I will say this is a dangerous area. Counterterrorism, 
as a center, does specifically and only counterterrorism. 
There's a tremendous amount of support to this effort that 
comes from outside. And we work, generally, through others.
    Senator Durbin. The CIA press statement referenced 115 
analysts. Is it fair for me to conclude from what you've just 
said that that does not mean full-time analysts dedicated to 
this war against al-Qa'ida?
    Mr. Black. I have not read the press release. And we use 
analysts in a lot of different ways. I would have to check and 
look at the numbers. I'm not familiar with it. We have--our 
analytical personnel do a lot of things. They do operational 
support. They do targeting. They do only analytical work. So I 
would have to check and I'd have to take that for the record 
and get back to you.
    Senator Durbin. Thank you. I wish you would. And also, the 
CIA press statement says that the CIA's special UBL unit tasked 
and directed 200 agency offices worldwide to work the 
counterterrorism target. The same question applies. How many of 
these were really full-time dedicated people working on it? How 
many of them may have been tasked to do only part of their work 
related to UBL? So if you would be kind enough to provide that 
information as well.
    You also raised in your opening statement a question about 
cash resources. And I read it carefully, just having been given 
it this morning, but I read it carefully. And it indicated, I 
think, some serious problems that you face when you became 
chief in 1999 which resulted in an effort to cut subordinate 
units except one at least 30 percent. Let me ask you this 
question.
    This Committee prepared the fiscal year 2002 authorization 
bill last summer, in 2001, prior to September 11, 2001. We were 
told that the CIA had excess money for counterterrorism left 
over from the supplemental appropriation. The CIA explained 
that they did not intend to spend that money in fiscal year 
2002 but wanted to hold it for use at some future time. Are you 
able to testify as to whether or not there was excess money 
unspent on counterterrorism during that period of time before 
September 11, 2001?
    Mr. Black. No. Frankly, I don't recall. This is a very 
complex issue that's three years. Generally, if there is money 
at the end of the year it becomes an issue of what to do with 
it. I do not recall ever having excess funds that I was--of 
which I had control that was excess. We were generally always 
looking for more money to keep our machine going.
    Senator Durbin. Thank you for that.
    Let me address, if I can, the issue that's been raised 
about the cooperation between your two agencies, the CIA and 
the FBI. One of the questions relates to this now famous June 
11, 2001 meeting, which you've made reference to, Mr. Black, in 
your testimony. And you allowed as to how the FBI presented 
photos at that meeting for the CIA to consider.
    The Joint Inquiry staff statement noted that a CIA analyst 
who attended that meeting of CIA and FBI personnel would not 
share information with the FBI unless he was specifically 
authorized to do so, when, in fact, that was the purpose of the 
meeting, to share information. Why wouldn't a CIA analyst be 
more forthcoming with information of value to the FBI? Is this 
analyst's attitude typical of personnel at your agency or the 
relationship with the FBI?
    Mr. Black. It could not be--first of all, I don't believe 
this happened. The CIA is in the business of collecting and 
disseminating intelligence. And, in this case, the CIA analyst 
had been briefed that it was the laws and regulations of the 
land that prevented this information being passed over to a 
criminal Bureau agent. I'd have to defer to Mr. Watson on the 
difference between intelligence and criminal matters inside the 
FBI. But, the guidance, as I understand it, comes from the FBI.
    Senator Durbin. I need you to clarify your answer. First 
you said you didn't believe it happened. And, second, you 
believed that if it happened it was because of laws and rules 
that prohibited the exchange of information. Which conclusion 
are you giving us?
    Mr. Black. What I'm saying is that the CIA analyst from CTC 
was told that, by the FBI, was told that this was an 
intelligence matter and that the criminal people should not be 
tainted by this because there could be prosecution involved.
    Senator Durbin. That certainly raises, I think, an 
interesting policy question which we have circled so many times 
in the course of this Joint Inquiry about whether existing 
laws, policies or, let me just say, the culture of different 
agencies creates obstacles to the sharing of information 
necessary for national security.
    Mr. Watson, one of the things that came to our attention 
with the arrest of Mr. Moussaoui in Minneapolis was the 
statement by the FBI agent that because of her frustration in 
dealing with FBI headquarters she decided to take a bold, and 
somewhat dangerous, move by suggesting that the CIA be 
contacted directly so that information could be found about 
Moussaoui's background to justify arrest and detainment. Are 
you aware of that statement by the FBI agent that's been given 
to this Committee?
    Mr. WATSON. I know this is pending prosecution, so I'll be 
very limited. But I'll try my best to answer that question. 
What you have in a situation like that, without being 
absolutely specific about it, is that this relationship with 
the CIA that we have is top-down driven. There are always--and 
it doesn't matter what program you're looking at--there are 
always bumps in the road. But the value is that you can get it 
to the top. And there's confusion about what can be shared and 
what can't be shared, what's taken out for FISA or what's 
developed in a criminal case.
    I'm not sure that everybody understands all those rules. 
But if it's a hindrance, they certainly have the opportunity to 
raise that up the highest levels of the FBI. And if someone 
would have told me that or ifsomeone would have called Cofer 
about any of these problems, particularly the Moussaoui deal or 
whatever, then those matters would have been resolved.
    Now I don't know if that was your specific question about 
Moussaoui or not, but I'll come back on that.
    Senator Durbin. I understand what you're saying.
    Mr. Watson. Okay.
    Senator Durbin. And frankly that is the solution. It has to 
start at the top.
    Mr. Watson. That's right and if it's not top-driven, it's 
not going to work.
    Senator Durbin. But the most important element is that it 
reaches the bottom so that the agent in the district office 
understands what his or her authority is and how far they can 
go in cooperation with other agencies.
    Mr. Watson. But if you look at, though, post-98 and what we 
were trying to do in building capacity, one of the criteria for 
the Minneapolis office is do you meet with your NR-counterparts 
on a regular basis. Do you have a working group with all your 
federal folks about counterterrorism? And so if there's an 
inference there, oh, who are these people in Minnesota from the 
CIA, that's their problem and that's a performance issue that 
has to be addressed from my perspective. And that's what we're 
trying to do.
    Senator Durbin. Thank you. Let me move from staff 
performance to the performance of technology. I have paid close 
attention now for over a year to what I consider to be the sad 
state of technology in your agency. I don't know who has to 
shoulder the responsibility for the current state of affairs, 
but it is a fact. And testimony that we received here as well 
as in the Judiciary Committee suggests that information 
technology is primitive in the Federal Bureau of Investigation. 
It is improving because of the TRILOGY project and others.
    But let me ask you specifically, Mr. Watson, if we can 
overcome any cultural obstacles to sharing information, how 
close are we to the point where we actually have computers in 
communication?
    I mean we have received testimony, for example, at a 
hearing on Tuesday, the FBI confirmed that there are currently 
68,000 outstanding unassigned counterterrorism-related leads at 
the FBI dating back to 1995. How much of this is attributable 
to the current state of the FBI's information technology? And 
let me also add at the same hearing an agent stated that due to 
technological limitations there are probably, in his words, 
hundreds of communications with his name on it that he's never 
seen.
    Tell me how bad is it and how much of an obstacle is this 
to really winning this war on terrorism?
    Mr. Watson. I think that's a fair question. And I think 
some of those numbers there are a little distorted. I probably 
need to clarify that. From a technological standpoint, I'm not 
a technocrat. What I am is an operator. And we have been very 
specific about what technology we need to fight the war on 
terrorism. I can't address exactly, you know, do we need this 
type of device or technology? I think we're moving in that 
direction. Do we have that capability? We recognize we did not 
have that capability way back even before 1998.
    Senator Durbin. Do you currently have the capability?
    Mr. Watson. To do what?
    Senator Durbin. To deal with terrorism with the most modern 
information technology available.
    Mr. Watson. With the most modern, the answer is no.
    Senator Durbin. And how far away is the FBI from having at 
its beck and call the information technology resources which 
will make us effective in dealing with law enforcement in the 
war on terrorism?
    Mr. Watson. If you're asking me for a timeline for the 
TRILOGY project, I do not know the answer to that. I know 
money's been appropriated for it. I know we're moving as fast 
as we can in that direction. Is it a problem for us? Has it 
been? You're absolutely right.
    Senator Durbin. I can tell you that before the Judiciary 
Committee the person who is in charge of this now tells us that 
she is hopeful that by mid-2004 we will reach that point. That, 
I think, is a sobering analysis of the lack of progress at your 
agency. And I have tried mightily, even in the Department of 
Homeland Security bill currently pending on the floor, to make 
this a higher priority. Once we have the right culture, once we 
have the dedicated men and women, for goodness sakes, they need 
the weapons in their arsenal to fight. And the FBI now has one 
hand tied behind its back, and it's using primitive equipment.
    Let me at least ask you a question related to the same 
thing. When the FBI receives new names during the course of a 
terrorism investigation, its standard practice is to run the 
names through your database to determine whether there's any 
information about the individual. Arabic names are often 
spelled many different ways in English. I've seen that in the 
press. Given the state of the FBI's information system, what 
kind of problems does this present for the FBI in the war on 
terrorism?
    Mr. Watson. The spelling of the names and the ability to 
run data in there? A good answer to that is to say do we have 
an analytical software on top of our ACS database. The answer 
is no. Is that technology available off the shelf? Yes, it is. 
You know, and I'm not smart enough on the TRILOGY issue to talk 
about that. But our information-sharing project in St. Louis is 
exactly that.
    We take all the Illinois State Police records. We take all 
the St. Louis Police records. We take our data and load it in 
there. And then if we have a bit of information that says 
tattoo on left arm it can immediately read those documents and 
it's not a point and click system where you get a 1,000 
documents Xeroxed back where you have to go look at them. It 
analyzes those documents. It is a tremendous weapon and I hope 
we get there.
    And I hope we get there before '04.
    Senator Durbin. It's a weapon that is available from most 
computer stores?
    Mr. Watson. I should not have said, probably, that it's off 
the shelf stuff. But, I know what we're trying to utilize in 
St. Louis and I don't know the security aspects of how to 
protect that. I mean they are probably reasons why you can't 
walk down to some technology place and buy that and put it on 
the FBI's equipment. I understand that.
    But I'm saying, though, that is a tremendous weapon that 
will be, particularly with the information sharing to the state 
and locals and the 600,000 locals.
    Senator Durbin. I just want to be as candid about this.
    Mr. Watson. I do too.
    Senator Durbin. This is an issue--and I thank you for your 
candor. This is an issue which has been raised repeatedly by 
myself and others to the highest levels of this government, and 
still the answer is so unsatisfying--to be told that there is 
computer technology available in most computer stores across 
America that is not available in the premier law enforcement 
agency in America to search databases for names of dangerous 
would-be terrorists. And I won't dwell on it because it isn't 
your particular responsibility.
    Mr. Watson. Well, I'm glad that you're frustrated by it, 
but from an operational standpoint, I'm doubly frustrated by 
that.
    Senator Durbin. Well, let me ask you if I can, to--let me 
just conclude by saying I think it is fair to say that if you 
can't search for the information within your agency----
    Mr. Watson. Well, we can. We can search for our 
information.
    Senator Durbin. We were told that word search in the FBI 
computer system requires eight screens today, eight screens 
before you can search.
    Mr. Watson. I don't know who told you that, but if you're 
talking about being able to search ACS, we can do that. We have 
that capability and we can link words up with that. We don't 
have the ability for it to read all the documents and say six 
foot one man, Abu whatever and spelling of that or John Smith 
in Birmingham, Alabama.
    Senator Durbin. Or flight training school. If you're 
looking for----
    Mr. Watson. We have some capability of word association now 
currently, but it's not where we need to be.
    Senator Durbin. I agree.
    Mr. Watson. We should be able to say flight training 
schools and we should be able to say I-94s. I mean, you're 
right. We're talking about the same thing.
    Senator Durbin. I'm not going to quarrel with that. Let me 
ask you then----
    Mr. Watson. No.
    Senator Durbin. About questions raised by General Scowcroft 
and Mr. Berger about some of the priorities within the FBI in 
terms of what is viewed as good performance in the FBI and what 
is not. And I think those questions kind of go to some of the 
earlier observations you made as to whether or not when it 
comes to evaluating the work of the FBI whether or not, as 
General Scowcroft told us, that the best FBI agents do criminal 
investigations, not terrorism. Was that a mindset or is that a 
mindset within the agency today?
    Mr. Watson. And he was basing that upon what?
    Senator Durbin. Basing it on his experience.
    Mr. Watson. I think you might could draw that association 
20 years ago. Counterterrorism work is extremely difficult. It 
is not easy. General criminal investigative work is a lot 
less--I need to probably be careful with my words here, is 
probably not easier, what's the word I'm looking for, Michael? 
Easier. Man, I talked around in a circle on that one.
    Is it somebody that culturally--in the 1960s and '70s we 
hired people through the--even into the '80s--to come into the 
FBI and the image was that was chasing bank robbers in 
Tuscaloosa, Alabama or solving a kidnapping or working white 
collar crime or whatever. Yes, that's why we need to look at 
the skill sets of agents.
    I take exception to the fact that somebody says that the 
better agents are working criminal matters. Those are difficult 
cases. You have to be extremely organized and you have to be, 
particularly in counterterrorism and counterintelligence field, 
to outthink your opponent. And it's easy to react on criminal 
matters.
    Someone calls up, the bank's been robbed. Someone calls and 
says that somebody scammed me out of $100,000, as opposed to 
where will al-Qa'ida attack us next. And I take exception to 
that statement and I take exception with the understanding that 
he's probably looking years past. That's not the case. The men 
and women we have in the FBI working counterterrorism are the 
absolute best we have.
    Senator Durbin. I think that's a very fair conclusion on 
your part, too, that it is more difficult to be analytical in 
perspective in terms of the threat than to deal with the 
specific crimes that have traditionally been assigned to the 
FBI.
    Thank you very much, Mr. Chairman.
    Chairman Graham. Thank you, Senator Durbin.
    Our House colleagues are still in a series of votes. So our 
next questioner will be Senator DeWine.
    Senator DeWine. Thank you very much, Mr. Chairman.
    Let me first thank Mr. Black and Mr. Watson for your 
service to this country, and please convey to people back at 
headquarters and the field our thanks. You both articulated 
very well the pride that you have in your men and women, and we 
have that same pride. If you can convey that to them, we would 
appreciate it very much.
    To Mr. Watson, let me say a special thanks to you for your 
many years of service as you begin your retirement. We 
certainly wish you well.
    I know that to our witnesses today and the witnesses that 
we've had during these hearings, to them and to you, this 
committee must look like 37 Monday morning quarterbacks. And we 
all know how much players and coaches dislike Monday morning 
quarterbacking. But I guess to some extent that is the nature 
of inquiries such as this.
    In my 20 minutes today I want to focus on the future. 
Because, as we all know, no amount of Monday morning 
quarterbacking will change the tragedy of September 11. I think 
it's only useful to look at past mistakes so that we can learn 
from them, so that we can take steps to prevent a future 
September 11.
    What has been unspoken, Mr. Chairman, members of the 
Committee, what has been unspoken in this room throughout these 
public hearings is this. Whatever intelligence failure there 
was was a failure not just of the intelligence agencies, not 
just of the FBI, but also a failure of Congress and a failure 
of Presidents. There's been a failure to prioritize. It's been 
a failure to have enough vision. It's been a failure of 
resources.
    In the 1970s many public hearings were held and I happen to 
believe there were some good reforms that were made, but I also 
happen to believe that there was a chilling impact made on our 
intelligence operations. And the value of covert operations and 
the value of good human intelligence was certainly de-
emphasized. At the end of the Cold War, the peace dividend, 
that term was used. That peace dividend was taken out of the 
hide not only of the defense of this country but also out of 
our intelligence agencies. And sometimes we forget that.
    We simply did not understand the new world that we lived 
in. We didn't understand that the world that we were living in 
was just as dangerous as what we all grew up in. We grew up in 
the Cold War. The enemy was communism, the Soviet Union. We 
understood it. We fought it. We won. We didn't understand that 
there were other enemies out there. We understood it, but we 
just didn't, I guess, react.
    We didn't understand the need for covert action, the need 
for human intelligence. They were just as important now as they 
had ever been. I guess in a sense we thought that the long 
twilight struggle that John Kennedy talked about was over. But 
the danger to freedom does, in fact, continue. It is out there.
    We simply did not provide the resources. I have gone back. 
I've gone back to 1990, 1988 and looked at the budget figures. 
And I'm not going to talk about those budget figures in 
specifics today obviously. But simply what you find when you 
looked at what the President proposed and what Congress did, 
what was enacted into law, you find that frankly there is 
enough blame to go around for both Congress and the President, 
the Presidents. None of us really got it. You know, we just 
didn't provide the resources.
    Let me ask, if I could, Mr. Watson, you talked about 
resources. Let me ask actually both of you, both Mr. Watson and 
Mr. Black, a specific question and that is how much bigger 
should the counterterrorism units be if we're serious about 
providing defense. Mr. Watson's made a very good point; there 
are no guarantees. We understand that. We can't guarantee we're 
going to stop every terrorist attack. But, we've grown. We've 
reacted. But if we look at this the way we ought to be looking 
at it in Congress and the way your departments, agencies should 
be looking at it, where should we be two years from now, five 
years from now? What kind of growth should we expect to see?
    Mr. Black.
    Mr. Black. Yes, sir. The key point, at least from my 
agency's end, is that I need to underscore that it is more than 
just the Counterterrorism Center. The Counterterrorism Center 
essentially is a resource provider. We provide expertise. We 
provide people with special languages, special skills. When the 
going gets tough, we get called in, things like that.
    We operate essentially through others, through the 
Operations Directorate and our field stations. So the answer 
actually is that we need to increase the base for the long 
haul. We need more resources for the Operations Directorate 
upon which CTC can achieve its objectives. I would say 
everything at that--just me personally talking, I'd say the 
organization could easily absorb a 100 percent increase in 
terms of personnel and resources.
    Senator DeWine. Where you are today.
    Mr. Black. Where we are today. And that should not be--I 
know you're very interested in this, sir, but that should not 
necessarily be considered the end. That is a good beginning and 
that's an absorption rate and that could take us for the next 
three to five years.
    Senator DeWine. I think your point is very interesting. And 
you've made this point to me in private before, that we're not 
just talking about the Counterterrorism Center itself, that you 
have to operate with support around the world.
    You've also made the point to me, Mr. Black--and I won't 
belabor it--that you cannot increase your spending without 
increasing what surrounds you, but also vice versa.
    Mr. Black. Also. We are dependent on each other, us being 
the smaller partner.
    Senator DeWine. So when we examine your budget we need to 
keep that in mind?
    Mr. Black. If you would, sir, that would be good.
    Senator DeWine. Mr. Watson, do you want to comment on that 
at all? I know you don't like to get into a lot of speculation.
    Mr. Watson. Sure, Senator. Something in your introduction 
though I would like to reflect back on real quick. And I think 
a lot of times we lose sight of the fact. During this period of 
time if you look at it and we used to talk about it, Mike 
Rolince and I used to talk about this, is that we're pushing a 
program where we get up and actually admit that more Americans 
were probably, you know, murdered in Chicago than killed as a 
result of terrorist acts against Americans. And so, that 
perspective is a lot of where we were in the process. Because 
the political will was we've got gang problems here in D.C. and 
in Detroit, I mean whatever that situation is.
    So no one really looked at this and they looked at the 
numbers and I in no way want to talk that the numbers aren't 
important of the number of Americans killed. But if you look at 
the numbers compared to what else was going on, there was 
nobody sitting there saying, holy smokes, when someone attacks 
and kills 3,000 Americans the gloves come off and that's it.
    But, let me go back to your----
    Senator DeWine. Both your agencies have big priorities.
    Mr. Watson. Yes.
    Senator DeWine. Mr. Black has other priorities at his 
agency and there are other priorities.
    Mr. Watson. All right. Let me answer your question real 
quick. A typical bureaucratic answer is we need a thousand 
times more than what we have. I think the answer to your 
specific question is where do we need to be in two years. I 
think it's an accountability piece that you should hold our 
organization accountable for. And when it's time for budget to 
say we need 150 analysts we should articulate to you what 
they're going to be doing and we need an additional 400, rather 
than the normal process of saying we need 400 agents. And 
there's nothing wrong with that.
    What we need to do is look beyond the horizon over the next 
two to three years out, to include the cyber arena.
    Senator DeWine. Mr. Black, talk to me a little bit about 
the strategic long-term thinkers and what that ratio should be 
to the tactical side. Analysts, I'm talking about.
    Mr. Black. We have under-invested in the strategic only 
because we've had such near-term threats. The trend is always 
towards the tactical. We need to put additional resources; 
units have been established doing this now. The tactical is 
where the lives are saved. And it is not necessarily a commonly 
accepted, but strategic analysis does not--is not the 
compelling entity that gets you to saving lives. I would say a 
good ratio to be worked towards with increased resources would 
be something in the ratio like one to four, one to five.
    Senator DeWine. Is that where we are today?
    Mr. Black. No. The ratio is greatly imbalanced. We are 
something like one to eight, something like that.
    Senator DeWine. All right. Let me ask both of you. The 
impression that I think the public would get and people 
watching this would get or listening to this or reading about 
these hearings, would be that there were a lot of facts out 
there. And this investigation has brought all those facts 
together, things going on here, things going on there.
    And the impression is that if they had all been brought 
together by the Intelligence Community, by the FBI, if they had 
been brought in together into one place and one person had 
looked at them that September 11 could have been prevented. And 
I want to know if you can address that perception, whether that 
is, in your opinion, based on what we now know, whether that is 
true or not.
    Mr. Black.
    Mr. Black. That is a question, certainly, that we all need 
to look at very closely.
    Senator DeWine. If it can be answered.
    Mr. Black. It's difficult. We always try to--it's very 
popular to use the term connect the dots. It means a lot of 
things to a lot of different people. The object here is to get 
the tactical warning. And tactical warning is very difficult. 
Tactical warning requires specific details. Analysis can give 
you strategic warning. It is specific intelligence information 
that is actionable for my colleague in the FBI so he can do 
something about it, take specific action.
    The strategic is essentially related to infrastructure 
support, if you want to put more emphasis on the protection of 
containers or an aircraft or trucks. I think the emphasis on 
strategic will continue, but I would say that the tactical is 
where the lives are saved, sir.
    Senator DeWine. But what should the public take away from 
this? That is the perception out there. I wanted your opinion 
about it. Reasonable minds can differ. I'm curious to know what 
yours is.
    Mr. Watson. That's a difficult question. And I come out on 
the side with the status of the resources we had at the time 
and the technology we had at the time and the ability to 
analyze and process information, I come out tactically we 
couldn't have prevented it.
    Senator DeWine. Is there one place----
    Mr. Watson. Now----
    Senator DeWine. Go ahead.
    Mr. Watson. I'm sorry, Senator.
    Senator DeWine. No, no, you finish.
    Mr. Watson. If we had 10,000 analysts I might come out a 
different way in this thinking. But again, as I mentioned 
earlier, looking specifically, hindsight 20/20, after an event 
it's pretty easy to draw the lines. It's pretty easy to say you 
guys should have done this. But if you're looking in a sea of 
red flags of 1,000 things--and I hope that answers your 
question.
    Senator DeWine. Thank you very much.
    Mr. Watson. Yes, sir.
    Senator DeWine. As you both know, Senator Kyl and Senator 
Schumer have proposed a modification of the FISA law to allow 
surveillance of terrorists who are not explicitly connected to 
a foreign group. I very much support that fix. I think it is 
the correct thing to do. I'd like to know if either one of you 
have looked at that.
    Mr. Watson. I fully support that idea.
    Senator DeWine. All right.
    Mr. Black. Absolutely.
    Senator DeWine. Mr. Black, have you looked at it or not. 
I'm sorry.
    Mr. Black. I support it, the little that I know of it. I've 
not made a detailed study of it.
    Senator DeWine. Thank you very much.
    We've heard testimony this week, Mr. Watson, from our joint 
investigation committee that during the months prior to 
September 9, the counterterrorism section at the FBI 
headquarters sent out a request to 24 field offices asking them 
to investigate information that headquarters had received about 
a terrorist organization which was planning to send students to 
the U.S. for aviation training. But the request received little 
or no action.
    Further, the joint investigation committee found that such 
a lack of--or the staff found that such a lack of response was 
not uncommon because the field offices have a great deal of 
control over what they do and often ignore headquarters' 
requests. I want to know if you could comment on that. Is that 
true? And, if so, what are we doing to assert more control with 
regard to national priorities such as terrorism?
    Mr. Watson. Specifically if you're referring to what's 
been, I'm sure, testified up here before about the specific 
facts of that request that came in, my answer is that is I'm 
glad the agent sent it in. But if you look at what he was 
saying in that information, there was nothing in therethat 
would have caused us to open a specific case and go after that specific 
group of individuals at that time.
    And the idea that someone says that the field ignores 
headquarters, that's not totally accurate. There is 
requirements that the field report to headquarters. They have 
reporting requirements. We have reporting requirements to the 
Department of Justice. Where the office of origin is gives a 
lot of latitude to that office. But if it's a counterterrorism 
matter it also has a lot of focus from FBI headquarters. 
Granted, a stolen car ring case is totally different and if 
it's in Knoxville, Knoxville can handle that. But a 
counterterrorism case in Little Rock requires input from 
headquarters. And I don't know--that's where we come out with 
that.
    Senator DeWine. We heard testimony last week from Secretary 
Armitage and Secretary Wolfowitz that both of them believe one 
of the biggest problems with our intelligence analysis is that 
the agencies strive for consensus and don't always encourage 
dissemination of dissident views.
    Mr. Black, do you agree with that or not? Do you have a 
comment on that?
    Mr. Black. I think in theory it's, of course, a concern. We 
work towards that. We do have a system in place which we 
developed where we encourage innovative thinking. We use red 
teams. And when analysis cannot be coordinated and is 
compelling, that lack of coordination is so indicated. So I 
think we have a reasonable balance at this point. I looked to 
the Counterterrorism Center where we have a lot of new analysts 
coming onboard there and we absolutely encourage unusual 
analysis, unusual out-of-the-box thinking. So I think if 
anything we're heading in a good direct in that area.
    Senator DeWine. Mr. Watson, any comment?
    Mr. Watson. We don't produce a lot of analytical reports. 
So----
    Senator DeWine. Should you be producing more?
    Mr. Watson. Yes, we should, absolutely. Should we have 
reports officers out in the field offices, you know, 
absolutely.
    Senator DeWine. I mean isn't that part of the problem, that 
we're still understandably in a case mode and that, you know, 
the long-term analysis, even the short-term analysis sometimes 
no one's got time to do it.
    Mr. Watson. That's correct.
    Senator DeWine. It's not a priority.
    Mr. Watson. I think it's a priority. I think we're getting 
to there in the priorities.
    Senator DeWine. We're getting there.
    Mr. Watson. Yes, sir.
    Senator DeWine. Okay. All right.
    Mr. Watson. Remember, this is a large bureaucracy and it's 
hard to steer the ship in a different way.
    Senator DeWine. Right. We just want to make sure we're 
moving in that direction.
    My last question. Gentlemen, we hear a lot of discussion 
since September 11 about sharing of information, not just 
between agencies of the federal government but down to the 
local level. How do we deal with the conflicting tug and pull 
of wanting to share information, get back information, being 
able to allow people in the field to access that while at the 
same time keeping the secrecy that you need to keep? We have, 
you know, hundreds of thousands of law enforcement agencies in 
this country who do a great job and who are out there and who 
are our eyes and ears and who are the first ones on the scene. 
How do we do that? And is one of the ways we do it with more 
sophisticated technology?
    Let me just say with what Mr. Durbin said, before you 
answer that, you know, I have been a proponent for more 
technology at the FBI. You know, it is shameful where we are. 
The position we have put you in, Mr. Watson, is wrong. The 
position the FBI is in is wrong. It's wrong for the agents. And 
I'm not satisfied with where we are going.
    You can answer my question.
    Mr. Watson. The information-sharing piece is very 
important. And let me just briefly discuss how we're trying to 
do it in St. Louis. There is a need in any information-sharing 
for the local police to understand what--they all want to get 
into the fight us in counterterrorism and help the U.S. 
Government. You hear that all the time. The probability of 
something coming up at a local police department that might 
prevent an act of terrorism is probably a very small percentage 
but at the same time probably the most important thing that 
needs to be reported and retrieved.
    And what we basically designed starting back in '00 with 
the information-sharing, particularly through the International 
Association of Chiefs of Police is to have this data warehouse. 
And the way, not the way you get around it, but the way you 
access it is through the JTTFs. And the JTTFs have officers, 
police officers, from state and local jurisdictions there that 
have security clearances. And you can design technology so that 
there are different levels of information that you can ping 
into.
    But, the key to information-sharing is everyone loading up 
into that warehouse. And there are 1,000 reasons that you can 
be talked out of not doing that. Well, how dare you to think 
that some police officer might have access to FBI information. 
Well, how dare we not give him access to that if he stopped 
somebody that's at an apartment complex that has some interest 
in us that we would have no way to knowing about that.
    And then the last piece, the most critical piece, is you've 
got to have the technology to be able to analyze that and read 
that and not be a point and click system.
    Senator DeWine. Well, let me thank both of you very much, 
Mr. Black, Mr. Watson, for your service to our country.
    Thank you, Mr. Chairman.
    Mr. Gibbons [presiding]. Thank you, Senator DeWine.
    I'll turn to Representative Reyes for 20 minutes.
    Mr. Reyes. Thank you very much, Mr. Chairman.
    And, gentlemen, I, too, appreciate the hard work that both 
the CIA and the FBI do on behalf of our nation. And I know from 
firsthand experience, first as a border patrol agent and then 
as a chief of sectors along the U.S.-Mexican border, I always 
prioritize working with my colleagues, in particular the FBI, 
and the CIA on a more infrequent basis. But we always 
considered that we were tentacles of intelligence out there. If 
I had 1,000 agents out there, there were 1,000 potential eyes 
and ears for the Intelligence Community. And so I was always 
happy to do that.
    I want to start off my questions by asking both of you an 
opinion. And that is does the way that Congress conducts its 
oversight hearings, in your opinion, does that make a 
difference? Our ability to do oversight, is that something that 
you feel is beneficial?
    I have my own opinion; that's why I'm asking you.
    Mr. Black. Well, I certainly have enjoyed and welcomed the 
opportunity to address oversight committees, but particularly 
in closed sessions. I must say the reason that I'm here, truly, 
is to represent my people who have worked so hard and try and 
give a face to the Central Intelligence Agency's 
counterterrorism effort.
    My own personal observation would be that in this 
interaction that we could achieve the resources that we're 
looking for. And I believe that when we've met on this subject 
before--and I know, Congressman, you've come out and had access 
to a lot of the things that we do--I think that is very 
informative to both sides, where you get to have a closer 
appreciation from your oversight committee role into what I do, 
which is classified hard things. So I think this interaction 
can be very good. In our case it certainly has been.
    Mr. Reyes. Mr. Watson.
    Mr. Watson. I think the oversight is appropriate. We 
welcome that, believe it or not. I've been up here a lot. Some 
sessions are a lot easier than other sessions. But at the same 
time I think there's an obligation on our part for us to 
explain to you what's going on because, let's face it, I mean 
resources and budget and you're representatives of the American 
people. You need to understand what we're doing and try to do. 
I welcome that. And I have no problem with that even in times 
when it becomes in closed sessions, not as comfortable as other 
times. But, that's okay.
    Mr. Reyes. The reason I ask that question is because I was, 
particularly as a field chief, at times frustrated because more 
often than not we didn't get the opportunity to testify about 
issues that we thought Congress needed to know, including 
resources, staffing plans and those kinds of things that are--
you know, they're the bread and butter of our ability to carry 
out our mission, regardless of what that is, whether it's 
monitoring the border or doing intelligence work or 
prosecutions or whatever that is.
    So, in that context, let me ask, when the declaration of 
war back in 1998 was issued against Usama bin Ladin as the 
number one target, it seems to me, based on my experience as a 
field chief, there are two things that are critical that you 
do. First of all, you've got to understand what the challenge 
is and how you can meet it with the resources that you have.
    But secondly and most importantly is understanding the 
challenge and recognizing what it is that the director or the 
commissioner or whoever is prioritizing the issue for you, is 
what do you need to make sure that you are successful in 
carrying out that mission or that task.
    So my question is, first and foremost, in your respective 
agencies did we, in your opinion, understand the scope of the 
challenge of going to war against Usama bin Ladin and what he 
was capable of doing against this country?
    And secondly, did you put a plan in place to carry out 
that? And, more importantly--and Mr. Watson, you talked about 
the request for additional positions and funds for the agency 
that came to Congress--was there a comprehensive staffing plan 
put together that we can look at that says here is the 
declaration of war, here is what we have and how we will carry 
that out based on what we have now and here is what we need. Is 
there such a document that we can have?
    Mr. Watson. The declaration of war was issued by the DCI. 
We were well aware of the threat posed by Usama bin Ladin and 
al-Qa'ida in 1998. As a matter of fact, he was indicted in 
November of 1998 for his crimes. From December '98 forward, 
that was the number one priority for the counterterrorism 
program in the FBI. That crossed many fronts. One is where is 
he and working with our colleagues and maybe--and I don't want 
to go into this, I mean we actively pursued with our colleagues 
from the Agency and probably more so with the Agency, what are 
we going to do about this. And so that's going on.
    Mr. Reyes. So there is a plan?
    Mr. Watson. Yes.
    Mr. Reyes. There's a plan that we can see that you 
developed when the declaration was issued? Because I asked the 
staff if anything had been----
    Mr. Watson. No, I don't think--I'm sorry.
    Mr. Reyes. Well, because I asked the staff did we, across 
all the pages of information that they've reviewed, and they 
inform me that they had not seen anything like that. That's why 
I'm asking.
    Mr. Watson. Did we have a war plan, a five-paragraph ops 
order issued on Usama bin Ladin and al-Qa'ida? Absolutely, we 
did not at that time.
    Mr. Reyes. If not, why not? It seems to me like if you're 
going to issue up a directive----
    Mr. Watson. It was the number one priority that was 
addressed through each field office through discussions with 
the SAC in relationship to their annual report that they sent 
in and in our guidance that we gave back as to what we were 
trying to do with al-Qa'ida. There were other priorities as 
well. I mean it was one----
    Mr. Reyes. And I understand that.
    Mr. Watson. All right. Yes.
    To answer your question specifically, can I give you a 
document, here's what we're going to do, those types of issues 
came up in the Director's report as to exactly specifically 
what we were going to try to accomplish in the next 120 days or 
the next 180 days across the board, Usama bin Ladin, al-Qa'ida, 
PIJ, Hamas, you know, those sort of things. That's where that 
is found.
    Mr. Reyes. And what about the second part? Did we identify 
resources that were going to be needed in order to be 
successful in carrying out this mission or this tactic?
    Mr. Watson. Specifically directed at that mission, probably 
not broken down that way. Specifically directed at raising the 
capability of each of our field offices of what we needed to 
get there? Absolutely.
    Mr. Reyes. But, given----
    Mr. Watson. And budget formula--I'm sorry.
    Mr. Reyes. But that was given all the priorities that 
you've mentioned, so nothing was actually put together that 
would zero in? Again what I'm trying to get at is making sure 
that we understood the potential threat that Usama bin Ladin 
meant to this country and, therefore, the priority of making 
him the number one target. And I believe you said he was put on 
the top 10 list.
    Mr. Watson. Yes, in the spring of '99. I'm not dancing 
around on your question, but to understand and to know what the 
threat was, absolutely. Did we have a flip chart that shows 
exactly this week this is what we're going to do, next week, we 
were working in that--you know, toward a specific document like 
that. We don't have a specific war document. That's the answer 
to your question. But, we had plans.
    Mr. Reyes. Okay.
    Mr. Black.
    Mr. Black. After 1998, with the declaration of war from the 
Director, we certainly carried Usama bin Ladin and his al-
Qa'ida organization as our number one priority threat. We did 
indeed develop plans. It is indeed a document. And it is indeed 
very classified. But it was comprehensive, exacting and it was 
a global engagement strategy.
    Mr. Reyes. And by being very classified it's not available 
for us to review or is it?
    Mr. Black. It's classified before the oversight committee. 
I believe you're on the oversight committee.
    Mr. Reyes. Right.
    Mr. Black. Yes, sir.
    Mr. Reyes. Okay. And earlier or last week we had General 
Scowcroft, who testified before the committee that said that 
the safest place in the world for a terrorist was to be in the 
United States. And one of the FBI witnesses supported that by 
saying that we know that terrorists are among us and they're 
poised to strike, and that, in his opinion, we hadn't yet 
devised a--and I think he specifically said we don't yet have 
the best system designed to ferret them out.
    What do we have today, both from the FBI and also, 
auxiliary to that, support from the CIA to identify those that 
are here and to ferret them out? I don't want specifics. I just 
want to know what kind of plans we have either to come up with 
a system or----
    Mr. Watson. Let me comment on that statement. We have a 
Constitution here and our form of government is the freest in 
the world. And if you're talking about a safe harbor for 
people, we have a safe harbor here for justice and fairness. Do 
we want to become a country or become a society that ignores 
that?
    And so I think--I mean it's easy to generalize and make 
statements like that. But it's also we're vulnerable because of 
our freedoms. And I don't think any of us ever want to change 
those freedoms of what we represent, not only inside the United 
States but to the world.
    What we were doing to identify those people is very clearly 
when we have specific information that we can open a case on, 
we do that and we try to identify that, working with the CIA, 
working with pocket litter, working with document exploitation, 
working with individuals arrested. And arrested becomes a 
prevention because they provide information that you wouldn't 
get anywhere else.
    And a good example of that is the individual Wadi al-Haj 
that was convicted in the East Africa bombings, a U.S. citizen 
who wouldn't tell us anything until he was later prosecuted and 
was facing the bar of justice.
    So I think there's a blend here between the intelligence 
work and the law enforcement work. As to how do we get those 
people out, it's a difficult process. It's not something the 
FBI can do by itself. And the process here and the threat is of 
those individuals that have gone through those training camps 
since 1996 that have scattered around the world, where are 
those people. Are they living in Texas? Are they living in 
Montana? I don't know the answer to that. But that's why we 
have to join forces and try to identify those people.
    Mr. Reyes. Okay. But, putting it in context, Director 
Muellerhas told the joint committee that the FBI's number one 
priority is now prevention of terrorist attacks. So obviously the issue 
here transfers from prosecution to prevention. At this point, what is 
the FBI doing to----
    Mr. Watson. Prevent it?
    Mr. Reyes. Yes, have this change in strategy or this change 
in direction.
    Mr. Watson. That's a fair question.
    Mr. Reyes. In the context of what you said.
    Mr. Watson. I'm sorry?
    Mr. Reyes. In the context of what you said.
    Mr. Watson. Okay. I think that's a fair question and that 
what we're doing is any threat information or any thread of 
information that comes in, regardless. If it's an address or if 
it's a phone number overseas that pertains to the United 
States, it's run down absolutely fast as we can, as quick as we 
can. Don't lose sight of the fact that prosecutions are an aid 
in preventions.
    And so, are we abandoning prosecution? Absolutely not. But 
prevention is the number one priority. And prevention might 
mean that we take individuals and charge them with credit card 
fraud as opposed to the only way that we can deal with them. Or 
take them if they're out of status and they're illegal 
immigrants, take them off and arrest them or charge them for 
being out of status. That would be, in fact, a prevention.
    Mr. Reyes. Can we assume that somebody in the FBI is 
working on a plan that will tie this change in strategy that 
will come to Congress with this is the challenge that we're 
facing, these are the things that we want to accomplish and 
this is what we need in order to accomplish that? Is that being 
worked on now?
    Mr. Watson. That's absolutely right. But remember also that 
we were moving toward prevention in '98. And so this whole 
process has been started. And certainly we can do that.
    Mr. Reyes. Yes, and I would--and, you know, I say this with 
all due respect----
    Mr. Watson. Sure.
    Mr. Reyes [continuing]. Based on my experience when we were 
tasked by the commissioner of what resources it would take to 
control the border or to manage the border, we were all charged 
with coming up with staffing surveys that we had to justify at 
what level we could expect to maintain control. And without 
that, frankly, coming to Congress asking for more people and 
more money, it's not going to happen, especially in an 
environment like there is today. So that's why I'm pursuing 
this line of questions.
    Mr. Watson. Yes, and I think that was Senator DeWine's 
point for budget justification. Absolutely.
    Mr. Reyes. Mr. Black, again getting back to the global plan 
that you were talking about that you developed against Usama 
bin Ladin, as part of that plan was there an assessment made of 
the plan's potential for success to either capture or eliminate 
Usama bin Ladin? And also, in following up with what I was 
discussing with Mr. Watson, is a component of that plan 
additional resources--in other words, identifying the challenge 
and telling either the Director or Congress in order for us to 
be successful here, these are the additional resources that 
we'll need by way of support from Congress. Is that part of 
that, those two things?
    Mr. Black. Yes. What I'd like to do on this is that--I've 
already stated that this particular plan is available to you. 
Because of the classified nature of it, I would suggest that at 
your soonest convenience that this be provided to you as a 
member of the oversight committee and hopefully it'll answer 
your questions.
    Mr. Reyes. Is there an assessment in there of the potential 
success upon implementation of the plan?
    Mr. Black. There are various aspects of the plan. And the 
plan is essentially a global effort. So--I don't have the plan 
in front of me, so I don't know which aspect and geographical 
area and function.
    Mr. Reyes. Okay. How about does a component of that also 
address resources, additional resources to be able to 
successfully carry out that plan?
    Mr. Black. I believe I recall as of a few years ago, I 
believe it did. I believe it did. I'm not absolutely sure 
because I don't have it in front of me.
    Mr. Reyes. Thank you.
    Mr. Watson, one other issue that I'm curious about. And I'm 
curious about it because the comment was made in prior 
testimony by one of the FBI agents that in the context of the 
requests for FISA authorization that come up here to 
headquarters that it was my impression, based on his testimony, 
that you have these requests come up to headquarters. And then 
there's, to some extent, some lobbying going on to rise the 
individual FISAs from different offices up to the top of the 
ladder in order to be considered.
    So, given the fact that we have seen that al-Qa'ida can 
carry out very well-coordinated attacks against this country 
and it's not beyond the realm of possibility that 
simultaneously they could be planning operations in the 
northeast, the southeast, the northwest, the midwest, wherever, 
is there an analytical component that looks at these FISA 
requests that would connect those kinds of threats, number one?
    And number two, in that system that evaluates the FISAs, I 
want to make sure that we're not in a situation where one is 
considered at the expense of others. So can you describe what 
takes place when a FISA request comes up here?
    Mr. Watson. There are a large number of FISA requests that 
are processed through FBI headquarters. Once a month, a meeting 
is held with OIPR, the Department of Justice office that 
handles and processes those requests that eventually get to the 
judge with an FBI agent. Those are prioritized, they are 
discussed, which priority first in the FISA process, which one.
    If Detroit comes in with one--and I'll make this up--that 
involves FARC or 17 November or whatever, one of the 30 
terrorist organizations on the list, and the same time Kansas 
City has a request for al-Qa'ida, those things are prioritized. 
And they're prioritized on the basis of what our priorities are 
within the division. But you also have to understand that on 
emergency basis those FISAs can be approved within a very short 
period of time, probably less than two hours. Michael? Two 
hours that we run FISAs on emergency basis.
    Mr. Reyes. So was it a fair statement to make that there is 
some effort or lobby to get your FISA up based on what the 
priority is for that prospective--or is there somebody looking 
at the whole----
    Mr. Watson. They're prioritized by the section chief in 
conjunction with OGC, who understands what our priorities are 
in the counterterrorism arena. And so if you have limited 
resources, unless it's an emergency and those go through. If 
you have limited resources within the prioritization, that's 
where they end up.
    Mr. Reyes. All right.
    Mr. Watson. They're prioritized. And so, you know, the JRA 
or Tamil Tigers, you know, I mean, not saying they're not 
important.
    Mr. Reyes. But there is somebody that's looking at the big 
picture----
    Mr. Watson. Yes. Yes, sir.
    Mr. Reyes [continuing]. When those things come in?
    Mr. Watson. That's the process.
    Mr. Reyes. Very good.
    Thank you, Mr. Chairman.
    Mr. Gibbons. Thank you, Mr. Reyes.
    We've completed the original designated questioning round. 
We'll turn now to those Members who have questions, with each 
Member limited to five minutes each. And we will proceed in the 
order of their arrival here. I'd like to turn now to Senator 
Shelby.
    Vice Chairman Shelby. Thank you. Thank you, Mr.Chairman. 
Five minutes is not a lot.
    Mr. Watson, Mr. Black, I want to join the chorus that I 
appreciate what you've done and what you will do. Mr. Watson 
and I go back a while. He referenced my home state. He spent 
some time there as a young FBI agent. He even mentioned my home 
town of Tuscaloosa, Alabama. He knows a lot about that area. He 
knows a lot of those agents. I was a U.S. magistrate before he 
got here.
    I'm a little older, you know, Dale. But, to both of you, we 
do appreciate what you do. And we appreciate the CIA and the 
FBI. What we're trying to do is find out how we can help you to 
function better and if you put it in that context, with more 
funds, with maybe more oversight, but not micromanagement.
    Mr. Watson, a few questions first to you. You said the 
light--and I believe this is the phrase--the light came on for 
me in 1998. Why didn't the light come on in 1993? When did you 
go and become head of the terrorism section of the FBI?
    Mr. Watson. In the section, it's 1997.
    Vice Chairman Shelby. '97. So, you were not there in '93.
    Mr. Watson. In '93, I was----
    Vice Chairman Shelby. Well, you were at the FBI, but you 
were not the head?
    Mr. Watson. Yes. I was within the Iranian unit at the time.
    Vice Chairman Shelby. Yes, sir.
    Mr. Watson. And then left and went to Kansas City in '94.
    Vice Chairman Shelby. Yes, sir. But what's troubling to me 
and perhaps others is we had the first hit on the World Trade 
Tower in '93.
    Mr. Watson. Right.
    Vice Chairman Shelby. You were involved, all of you were--
--
    Mr. Watson. Yes, sir.
    Vice Chairman Shelby [continuing]. In the investigation. 
And then, in, was it '96, we had the Prince Sultan Barracks 
were hit. And then the Khobar Towers. We worked with you on 
that at that time.
    Mr. Watson. That's right.
    Vice Chairman Shelby. And then in '98 our embassies were 
hit simultaneously in Tanzania and Kenya.
    Mr. Watson. Right.
    Vice Chairman Shelby. You worked on that.
    Mr. Watson. Yes, sir.
    Vice Chairman Shelby. And then, in late 2000, the USS 
Cole----
    Mr. Watson. October----
    Vice Chairman Shelby [continuing]. Which my colleague, 
Senator Roberts, has spent a lot of time on and all of us have, 
too. So it was '98, you'd been in your present job as the head 
of that, what, a few months?
    Mr. Watson. Yes, sir. A year and a half.
    Vice Chairman Shelby. So you became aware this was a 
serious, serious----
    Mr. Watson. No, sir. That's not what the light came on 
about.
    Vice Chairman Shelby. Okay. Tell us. Explain it to me.
    Mr. Watson. Okay. I'll be glad to and I hope--I'm sorry if 
you were confused about it.
    Vice Chairman Shelby. Okay.
    Mr. Watson. What the light came on was----
    Vice Chairman Shelby. No, they were your words.
    Mr. Watson. Maybe my words without the proper explanation.
    Vice Chairman Shelby. Yes, go ahead.
    Mr. Watson. What came on as a light came on to me was that 
we were very reactive. And it was clear that the FBI was being 
very reactive. It had nothing to do with was Usama bin Ladin a 
threat or was Hizbollah a threat. We all knew that. We were all 
working in that.
    Vice Chairman Shelby. Okay.
    Mr. Watson. But our mentality was pointed at being very 
reactive. And the crucial piece was I came to realize that we 
probably will never stop all acts of terrorists. And the only 
way we could look at this and feel good about ourselves, if 
that's a right term to use, is to raise our capacity. That's 
what I meant when the light came on.
    Vice Chairman Shelby. Okay.
    Mr. Watson. Not the fact that there were threats out there.
    Vice Chairman Shelby. My colleague just a few minutes ago, 
I believe he used the phrase--I'm trying to dig it out--scope. 
I think he used the scope of the challenge presented by the 
terrorists. Was that really comprehended by the FBI and the CIA 
at that time? Because I think that is a very, very good 
question he's asked. Was the scope of the terrorist threat 
appreciated early on or prior to September the 11?
    Mr. Watson. Absolutely. And there were a few people that 
got it, so to speak. We knew within the FBI and particularly 
Mike Rollins, the section chief that worked for me, we knew 
exactly what the scope of the problem was. And if you talked to 
the folks at the CIA, they knew exactly what the scope of the 
problem was. And if you talked to representatives up at the 
NSC, they understood what the scope of the problem was. If 
there was a breakdown, it's not with those three individuals. 
But if there was a breakdown, it was where we were at, U.S. 
Government-wise, policy-wise, will of the American people. Did 
they understand the scope? Did you, you know, I mean, that's--
I'll leave it at that.
    Vice Chairman Shelby. If the FBI understood the scope and 
the CIA understood the scope, did everybody else understood the 
scope of what the terrorists presented as a threat and what we 
were up against? Is that what you're saying?
    Mr. Watson. Yes, sir. Well, I don't want to speak for the 
Agency. But that was my impression. They understood it clearly.
    Vice Chairman Shelby. Quickly, Mr. Watson, my time's up, 
but could you describe your role either here or you can do it 
in a closed session if you prefer, in the internal FBI debates 
over whether to share FISA-obtained information with the CIA 
and other agencies? Did you support such sharing or oppose it?
    Mr. Watson. I fully supported that position. And as a 
matter of fact----
    Vice Chairman Shelby. What was your role in that? Do you 
have a central role?
    Mr. Watson. If you're talking about a specific incident, we 
need to talk about that in closed session.
    Vice Chairman Shelby. In closed session.
    Mr. Watson. If you're talking generically, we had a pilot--
--
    Vice Chairman Shelby. Speak generically first.
    Mr. Watson. Okay.
    Vice Chairman Shelby. Then we'll get into specifics later.
    Mr. Watson. We had a pilot project probably back to 1999 
and I think that's the right time where we were offering raw 
FISA data to CIA folks to come in and look at because they 
could probably mine intelligence bits of information out.
    Vice Chairman Shelby. Sure.
    Mr. Watson. There was a lot of resistance from that.
    Vice Chairman Shelby. But it's very important that you 
share that with them, was it?
    Mr. Watson. Yes. Oh, absolutely. Yes, sir.
    Vice Chairman Shelby. All right.
    Mr. Chairman, thank you for your indulgence.
    Mr. Gibbons. Thank you, Senator.
    Mr. Peterson.
    Mr. Peterson. Thank you, Mr. Chairman.
    Gentlemen, I want to talk about the hijackers a little. 
When did it become known that the Sunni extremist terrorists 
were possibly going to hijack planes and use them as missiles? 
Do you remember when that became known?
    Mr. Black. For me? This is a subject that goes back a long 
way. You'd need exactly a specific example of, you know, which 
particular group was involved. I mean, it goes back I can 
recall 1994.
    Mr. Peterson. And did the FBI or the CIA ever warn the 
commercial aviation section about this specific threat?
    Mr. Black. About the aviation threat?
    Mr. Peterson. Airplanes being used as missiles.
    Mr. Black. Hijacking of aircraft and the potential for, in 
the time frame, yes.
    Mr. Peterson. They were, the commercial aviation section 
was warned?
    Mr. Black. Yes.
    Mr. Peterson. Was it in a forum where they would have been 
able to actually do something about it, where they could change 
their security practices?
    Mr. Black. We disseminate----
    Mr. Peterson. Apparently they didn't.
    Mr. Black. Well, we disseminate, we collect intelligence, 
we analyze it and we disseminate it. And the actions that they 
wish to take obviously are their responsibility.
    Mr. Peterson. So you think it was of sufficient alarm that 
they should have taken some action?
    Mr. Black. I think there was significant--they have to 
analyze it according to their own criteria.
    Mr. Peterson. On this--following up on Congress Reyes on 
this FISA situation in Minneapolis, you say that this group 
meets once a month, this OIPR----
    Mr. Watson. This is a headquarters prioritization of all 
the FISAs.
    Mr. Peterson. So some of these sit around for a month 
before they actually get considered to the point where they can 
get past this process?
    Mr. Watson. It all depends, Congressman, on the priority of 
what you're talking about on a FISA. If you're talking about--
--
    Mr. Peterson. Apparently the one in Minneapolis maybe never 
even got to that point.
    Mr. Watson. Well, I'd be glad to discuss that with you 
probably in closed session.
    Mr. Peterson. Okay. And apparently you testified that when 
you came in that you were making a priority of adding staff 
into the field offices to try to beef up this area. And when 
the Minneapolis agent was here Friday, I think he said that the 
Minneapolis office had a couple of positions open and that 
there were folks in that, acting in those open positions. And 
that was one of the reasons why they were having problems 
there, from what I can remember him saying. So if you were 
beefing up this situation, you know, why was the situation like 
that in Minneapolis? Why were those positions open?
    Mr. Watson. Probably through a process of career 
development, those slots were--I'm not sure exactly which 
positions you're talking about. But those routinely--not 
routinely occur, but occur within the Bureau. If you look at it 
from strategically Minneapolis had an opening and maybe Houston 
was evaluated by us as being very vulnerable. And the list of 
priorities that I considered, I would consider what I 
considered where the threat was most vulnerable to try to fix 
first.
    During my deposition, I was asked about an Omaha EC where 
Omaha said they were desperate to get two agents to work--or 
three agents to work counterterrorism. At the same time, you 
had a big vacancy in Los Angeles or you had a vacancy in New 
York. Where, in the scheme of things, do you fit that out? I'm 
not downgrading Omaha, but it was an effective and efficient 
way to determine where you're going to put your resources in 
and what priority.
    Mr. Peterson. So what was going on then at the time in 
Minneapolis, they had these openings, but there was probably 
other areas that----
    Mr. Watson. I don't know specifically about those openings.
    Mr. Peterson. It gets back to this whole resources issue. 
Is that part of the reason why this happens because there 
wasn't enough resources?
    Mr. Watson. I don't know what the agent testified to. But 
if he was talking about an acting SAC in a period of time 
between, that's fairly normal when a vacancy occurs. It 
doesn't, you know----
    Mr. Peterson. I think it was more than just one position 
that was in an acting capacity, if I recall. And I think it did 
have some impact on what they were trying to do there.
    Mr. Watson. I will only say that--okay, we can probably 
talk about that.
    Mr. Peterson. Yes. I think it had some impact on, you know, 
how many people knew how this whole FISA thing worked.
    Mr. Watson. That is absolutely correct. And if you deal 
with one FISA in your career, if you deal with 500, you 
certainly have a better understanding.
    Mr. Peterson. Yes. I guess my time is out, but maybe we can 
talk about the training process in this FISA, too, because I 
still have some questions about that.
    Mr. Watson. That's fine. Yes, Congressman.
    Mr. Peterson. Thank you.
    Thank you, Mr. Chairman.
    Mr. Gibbons. Thank you, Mr. Peterson.
    Mr. Roemer.
    Mr. Roemer. Thank you, Mr. Chairman.
    And I want to thank Mr. Black and Mr. Watson both for their 
testimony and their service.
    My question comes back to trying to change the culture in 
your respective organizations. Mr. Black, in your testimony you 
used some interesting words. You said after September 11, and I 
quote, ``the gloves came off and the hunt was on''. Was it 
extremely difficult to do the hunt and take the gloves off even 
after the DCI had declared war and even after Usama bin Ladin 
had declared war on us?
    Mr. Black. I think there was an evolutionary or escalatory 
approach to the issue key to the intelligence that was acquired 
and driven. You know, one can recall that Usama bin Ladin 
essentially came into the '90s as a financier and, in some 
areas, a doer of good works that required very close study to 
be able to concretely identify that he was a supporter of 
terrorists, a financier of terrorists. By the mid '90s, he 
became more active and then, as we know, shortly after that 
went to Afghanistan.
    So what I would say is yes, that the approach kept pace 
with the common view at the time that was driven by the 
intelligence. And as it was not perhaps preemptive, but it was 
certainly keeping up with the pace of the status of this guy as 
a threat to the United States.
    Mr. Roemer. Let me ask you a question of resources. And I 
want to keep trying to come back to this. The hunt for Usama 
bin Ladin keeps getting escalated, as you said, but the gloves 
don't come off until after September 11. The resource issue is 
one that you considered to be an important one in your 
testimony. You say you're overwhelmed. The CTC budget, although 
we can't talk about numbers, roughly triples during the 1990s.
    And I just want to know, with regard to resources, you must 
have felt a great deal of frustration with this. You get a 
bigger budget, but you still feel like you don't have enough 
personnel fighting an elusive target. Did you say to the CIA 
Director at that point, did you e-mail him, did you call him on 
the phone and say to him, we need more resources? And do you 
have records of this saying to Mr. Tenet, we're overwhelmed, we 
have to get more resources and more money here, even though 
this budget's tripled?
    Mr. Black. When you find yourself in a situation of 
essentially intelligence war, I'm sorry if I smiled about the 
idea of documenting because there's not much time to document 
in that sense. Communication is informal and verbal because 
things are moving so quickly at such a high pace. I would say 
that without equivocation the Director and I were together on 
these issues. He had an appreciation of our needs. From the 
resources he had available to him, he gave us as much as he 
could and, as I indicated in my testimony, that we were able to 
make it through the years because of his intervention and 
provision of funds and lobbying for us.
    Mr. Roemer. So he tried to fight for as many of these funds 
and that is maybe one of the reasons why you got a tripling in 
the CTC budget. Did you go to the White House and OMB and say, 
we need more, we're not getting enough, this is not enough for 
us? Were they aware that you wanted more resources and more 
money?
    Mr. Black. Well, I report through the Director and Ibelieve 
you may be inviting him to testify. I'm the chief of the 
Counterterrorism Center, you know. And I should speak to that level of 
authority and position. I made my superiors aware and they were as 
helpful as possible.
    Mr. Roemer. And so you're unaware of the chain above that?
    Mr. Black. Well, the chain, I just feel----
    Mr. Roemer. My question, Mr. Black, is, did you ever go to 
Mr. Tenet and say, I asked you for resources, when are you 
going to find out from the White House or OMB about these 
requests?
    Mr. Black. Resources and requests for resources were 
actively considered. And what I can say is that I personally 
requested and lobbied for the funds that I thought I needed. 
You have to understand that, compared to most people, that I 
was very much in the forefront because I was the closest to the 
problem. So it did require an aspect of interaction in trying 
to advance, the funds actually should go to this area as 
opposed to the other.
    Mr. Roemer. Thank you.
    Mr. Gibbons. Thank you, Mr. Roemer.
    Senator Levin.
    Senator Levin. Thank you, Mr. Chairman. Let me welcome our 
two witnesses.
    I want to go back to some of the testimony here of Mr. 
Black where you acknowledged, as has Mr. Tenet, that the CIA 
fell short, using your words, in not informing the Department 
of State that you had identified two al-Qa'ida men. And these 
were the two, al-Mihdhar and al-Hazmi, who were hijackers on 
Flight 77. These were two people you had identified back in 
January of 2000 and in March of 2000.
    There's another problem here besides failing to notify the 
State Department and that was failure to notify the FBI. The 
FBI says that it did not know of key bits of information--that 
a visa had been issued to one of them and that the other one 
had actually entered the United States--until August, 2001. So 
there was not just a failure to notify the State Department to 
get these folks on the watchlist, but the CIA was aware of the 
fact that one of them had a multiple entry visa and the other 
one had actually entered the country in March.
    And by the way, this is nothing to do with intelligence 
information and nothing to do with not crossing a line between 
criminal investigation and intelligence investigation. This was 
public information.
    This was a visa had been issued and somebody had traveled 
actually to the United States. My question is this. Why was the 
FBI not notified by the CIA of those two critical facts about 
two people that the CIA had identified as terrorists until 
August, 2001?
    Mr. Black. Because of the nature of our work being very 
fast paced, there was communication and there was communication 
between the CIA officers and the Counterterrorism Center and 
individuals in the FBI, particularly a CIA officer assigned to 
the FBI. There were phone conversations, e-mails, things like 
that. And in particular the lapse that we're referring to is to 
do the extra work of submitting a formal report to the State 
Department into their lookout system, TIPOFF, so that action 
can be taken.
    There was communication. I think you have a very good 
point. We have admitted to the lapses of not submitting a 
report in a form that would be actionable. But there was 
communication. But there's also an incredible amount of work.
    Senator Levin. Yes. You made a point, though, about the 
lack of communication. You say there was communication. I want 
to focus on those two specific, critical facts. Are you saying 
that the CIA did communicate to the FBI that those two people 
that you suspected as being terrorists had a multiple entry 
visa into the United States and had entered the United States? 
Are you saying that in that communication, that general word 
you're using, that those two facts were communicated orally to 
the FBI? Is that what you're saying?
    Mr. Black. What I'm saying is the identities, the names of 
the individuals.
    Senator Levin. No. No.
    Mr. Black. But the issue of the visa is problematic.
    Senator Levin. All right.
    Mr. Black. We have no evidence that that piece of 
information was communicated.
    Senator Levin. And that's critical information. Now to the 
FBI. The FBI is at the Counterterrorism Center?
    Mr. Watson. Yes, sir.
    Senator Levin. And so when the Counterterrorism Center is 
informed of this information, why is that not automatically, 
then, known to the FBI? We're trying to connect dots here, 
folks. The Counterterrorism Center is one place where the dots 
are supposed to be connected. And now I want to press the FBI.
    Since you're at the Counterterrorism Center, and since that 
information, I believe, went to the Counterterrorism Center, 
why, then, wasn't the FBI put on notice that two terrorists 
identified in early 2000 as terrorists, because they had been 
at those critical meetings in Kuala Lumpur, why then, was that 
not enough notice, just being at the CTC, for the FBI to then 
say, whoops, wait a minute, these guys have visas to the United 
States, this guy entered the United States? Why weren't you put 
on notice? How can you say you didn't know about this until 
August, 2001?
    Mr. Watson. I don't know the answer to that, Senator. And 
there's a volume of information that flows through every day. 
And I'm not sure where the FBI agents were at the time that 
might have had access to that cable or not. It might have come 
in from the other division of the CIA. So I can't defend or say 
that they saw it and didn't report it. I will say, though, 
without a doubt, I know that if the Agency had it, there was no 
plot, no thought by anybody at the CIA not to tell us.
    Senator Levin. Well, wait a minute. There was a decision by 
the CIA not to tell you back in June of 2001. They were sitting 
there at a meeting and the decision was made at that meeting in 
New York not to tell the FBI about it. That was a CIA decision, 
for reasons that totally mystify me because this is not 
criminal investigation versus intelligence. This isn't blurring 
a line, violating rules and regulations. This has got nothing 
to do with that. This is public visa information. This is 
public travel information, commercial travel information.
    I understand the rules and regulations about not blurring 
the line between criminal investigation and intelligence 
because you don't want to mess up your criminal investigation. 
But that is not the type of information that the CIA--that 
we're talking about here and that the CIA did not share at that 
June meeting. But I want to press the FBI.
    Mr. Black. Sir, could I just say one thing?
    Senator Levin. Sure.
    Mr. Black. As we understand it, sir, the CIA analyst was 
not permitted to provide all of the information FBI criminal 
investigators wanted because of laws and rules against 
contaminating criminal investigators with intelligence 
information.
    Senator Levin. I understand that.
    Mr. Black. Okay. That's what I'm saying.
    Senator Levin. But you're saying you could have put it and 
should have put it on the watch list up at the State 
Department. This isn't polluting criminal investigation. This 
is stuff that should have gone on the watchlist by your own 
acknowledgment. This is a visa. That's public information. This 
is commercial travel. That is public information. There is no 
pollution of criminal investigation whatsoever, under any 
regulation, by simply the CIA telling the FBI, hey, watch these 
folks. We have identified these folks as terrorists. These 
folks have entered the United States. That's all you have to 
tell them.
    You don't have to go into sources, methods. You don't have 
to talk about wiretaps. You don't have to talk about anything, 
just that these folks identified by us have now entered the 
United States. That's all we're talking about. There's no 
violation of any rule, any regulation that I know of by simply 
telling the FBI that.
    And I think you acknowledge that when you say we should 
have notified the State Department to put them on a watchlist. 
That makes it the kind of information which is and should have 
been available to the FBI.
    My time is up. If the Chairman wants to give them time to 
comment, that would be up to the Chairman. I would welcome it, 
but I can't press that any further with that red light on.
    Mr. Gibbons. Certainly if your answers are brief in 
response, we would like you to respond.
    Mr. Black. In my view, I think we're talking about two 
separate things. On the one hand, we're talking about the New 
York meeting between the CIA and the FBI. And on the other, 
we're talking about the watchlisting issue. Yes, the whole 
purpose of the system is to provide this type of information to 
the Department of State. There's no question about that.
    Mr. Gibbons. And Senator Levin, if we have additional time 
at the end, we'll certainly allow you to ask some more.
    Senator Levin. Thank you.
    Mr. Gibbons. Mr. Hoekstra.
    Mr. Hoekstra. Thank you, Mr. Chairman.
    And thank you, gentlemen, for being here today. I want to 
follow up a little bit on what Mr. Reyes and what Mr. Roemer 
were talking about, exactly what the process is here for 
planning. You're planning a war against al-Qa'ida and 
terrorism.
    Mr. Black, you've said that that plan was put in writing 
and we have access to review that and we'll do that. I'm 
assuming it outlines the requirements that you feel that you 
need to conduct this war effectively, outlining personnel 
requirements, resource requirements and perhaps also a review 
of what you may or may not be able to do because of legal 
requirements or executive orders and those types of things.
    You then go through a process where, you know, the budget 
requests come to Congress. We pass a budget. Mr. Tenet then 
comes back and says, you know, Mr. Black, here's your 
resources. Here's what we've got for you. And then what happens 
at that point that you go back to George and say, I can't do my 
job with this? And, you know, these are the risks that we are 
going to encounter.
    Mr. Black. The essence of counterterrorism is--or the 
problem of counterterrorism is the harder you work and the more 
effective you are, the more work you create for yourself.
    Mr. Hoekstra. Right.
    Mr. Black. So you're in a constant state of requiring more 
and more to keep up with the problem. And the better you are, 
you know, the more agents you have, the more reports you 
produce, the more people you have overseas, the more work is 
generated, the more success you have. So there is essentially 
inherent in this kind of business a constant state of a 
relationship between the subordinate and a superior, me going 
to the Director and say, you know, this is all we're doing and 
we've created this opportunity over here.
    And then this has to be weighed, not only, first within the 
counterterrorism mission, you also have to think about things 
like Hizbollah and the Palestinian Islamic Jihad and the whole 
rest of it. So you have that going on. And that has to be, if 
it goes outside of that process, then you have to be 
coordinated with the Director and the Director of Operations in 
terms of other specific areas that are of key interest. But 
again, counterterrorism was always the highest priority.
    Mr. Hoekstra. Yes. But the question that, I think, that 
maybe Mr. Roemer and I have is at the end of the day, you know, 
we along with the President are the ones that determine exactly 
under what constraints you're going to be operating under. And, 
you know, how do we get that information more clearly or more 
accurately or perhaps in a more timely basis that says, you 
know, I'm sorry, you haven't resourced enough or you haven't 
put in place the proper frame work for us to do the job 
effectively. As a result of that, we're not going to be able to 
win this war on terrorism. We're fighting skirmishes. We're 
going to be--you know, we are very, very vulnerable and we're 
opened up to these kind of risks.
    Mr. Black. I think communication, certainly between the 
senior intelligence officers and members of the oversight 
committee is key. I must say that, you know, in the last two 
years, I have been before the oversight committee with, I 
think, regularity. I think the Congressman has validated that. 
My need for resources, the need, at least, certainly was 
conveyed almost every time I came.
    Mr. Hoekstra. Mr. Watson, I'm a little concerned about what 
the planning process may be at the FBI in that, you know, if 
there's not that plan in place as to--or you said that there's 
not a written plan in place.
    Mr. Watson. A war plan?
    Mr. Hoekstra. Yes.
    Mr. Watson. I think that's an--well, I know that's an 
accurate statement. We have priorities, though, that we 
establish. And the number one priority was al-Qa'ida and UBL. 
That is clearly articulated.
    Mr. Hoekstra. It's a number one priority, but I don't know 
what--if that doesn't translate into specific allocations of 
resources, specific allocations of personnel and those types of 
things, I mean, I don't know what it means if you had a number 
one priority.
    Mr. Watson. True. Yes.
    Mr. Hoekstra. Do you have three number ones and the war on 
terrorism became number four, you know, the fourth number one 
priority?
    Mr. Watson. It's very helpful for the counterterrorism 
program to be a national program and say--let me see if I can 
explain this. At the field level, what do you want Little Rock 
to do with limited counterterrorism resources?
    Mr. Hoekstra. Right.
    Mr. Watson. And if they have somebody that's on, you know, 
a group that's number 30 on the list of priorities, it's a 
prioritization. And so those priorities are set by us. And we 
say this is what the priorities are. That also equates to what 
we request through the budget cycle and the planning process of 
what we need.
    What do we need to do to address, resource wise, at 
headquarters for al-Qa'ida? We need more analysts. We need more 
agents. We need better technology. We need, you know, the 
intelligence piece, reports writers, et cetera.
    I don't want to mislead anybody by saying we didn't 
understand that process. I thought the question was do you have 
a five-paragraph op order against al-Qa'ida and the war that 
was declared on them in '98. The answer to that was no. But did 
we understand what the threat was? Did we know what we were 
trying to do? Yes, it was and it drove the budget request as 
part of the budget request for counterterrorism.
    It also--the budget request included domestic terrorism 
issues. We had the winter Olympics coming, for instance. We had 
the problem out in Seattle with the World Bank and IMF and, I 
mean, resources drains like that. So the aggregate budget was 
incorporated all the numbers.
    Mr. Hoekstra. Mr. Black--I'm sorry. I guess my time's up.
    Mr. Chairman, thank you.
    Witnesses, thank you.
    Mr. Gibbons. Thank you, Mr. Hoekstra.
    Senator Roberts.
    Senator Roberts. Mr. Black, Mr. Watson, I only have five 
minutes. Bear with me. I have an observation and one question.
    My observation is crosscurrent with some of my colleagues 
on this committee and the process that has been adopted by the 
Joint Inquiry staff and basically acquiesced to by the 
leadership of this Committee. I have not acquiesced to it. My 
concern and frustration is that, while unintended, one of the 
results of this investigation has been to demoralize our 
Intelligence Community. These are the people, as you have 
pointed out, whose job it is to detect and deter terrorist acts 
against our citizens.
    The Catch-22 of this process, it seems to me, is that in an 
attempt to learn our deficiencies, what went wrong prior to 9/
11, and to fix it and to provide the public transparency 
through public hearings, not to mention the unfortunate leaks 
that we have seen, we have been the source, if not the 
instigator of what I call ``gotcha'' charges and also 
``gotcha'' headlines. These new and specific insinuations and 
charges are media incendiary. They're controversial and they're 
political. We have seen a media frenzy as a result and 
increasing frustration and concern and anger on the part of the 
American people. Where was the smoking gun?
    I say this knowing that mistakes were made. Hindsight is 
20/20. We have an obligation for oversight and to ask the tough 
questions. I still believe the USS Cole is a microcosm of 
thechallenges that we face and I don't think that was handled right. 
But my point is if we are all to assess responsibility, if not blame, 
that responsibility should not be selective. The responsibility for 9/
11 also lies with the Congress, past and current policymakers and, yes, 
more comprehensive reporting by the nation's press.
    Yet our process here is to pose questions to you that I 
define as pejorative in nature. Your only choice and response 
is the old ``while I'' answer. While I agree with you, sir, 
while I think we needed more resources, while I think we needed 
more analytical ability, let me point out that. You're in a 
Catch-22. You cannot provide any answers in full context to 
show there has been no smoking gun because the full context is 
classified unless it's leaked. And should it be made public, it 
would compromise sources and endanger lives.
    My preference, shared by some on this Committee, not a 
majority obviously, was not to stage public hearings until the 
investigation of the Joint Inquiry staff was complete and then 
report, then go public. But here we are. My question is the 
same I had from Monday's behind-the-scene witnesses. We are at 
war. The work of those in the Intelligence Community is crucial 
to the safety of our American people. One of the problems we 
face is risk aversion. I worry about the morale and the esprit 
de corps of our intel community.
    Before I ask you to say how is your morale and how you're 
feeling about this and what is the morale at the community, the 
question referred to you earlier, Mr. Black, was from the Joint 
Inquiry staff briefing book. Now you remember the question. I 
think it was asked by Senator Durbin and I certainly don't mean 
to be pointing any fingers at him. A book, by the way, that was 
provided to this Member as of this morning which is standard 
operating procedure. Had I wanted it earlier, I would have had 
to have gone to the Chairman for permission to speak to the 
staff, which is a little unique for this Member in terms of the 
Senate and serving on any committee.
    You've heard the questions. Let me tell you the rest of the 
story. After the question, there is a suggestion, if not an 
instruction, to members. And it is, ``Mr. Black will probably 
dissemble on this point and simply say that the press statement 
is accurate insofar as the total number,'' et cetera, et 
cetera. Next question and then there's some instruction. ``Mr. 
Black will probably dissemble on this point, too.'' I have a 
definition of ``dissemble'' from the dictionary. It says to 
hide under a false appearance, to put on the appearance of, to 
simulate, to put on a false appearance, conceal facts, 
intentions or feelings under some pretense.
    You're almost on trial, sir. You're almost on trial. I have 
to apologize, you know, for that and for this book. You have my 
apologies. It's only me. I'm not speaking for the rest of the 
Committee for the intended consequences of what I believe is an 
inspector general runaway train. I don't like it. And for me, I 
want to apologize, Senator Pat Roberts, to your people in the 
FBI and the CIA, which I think is, I won't call it shameful, 
but it's damn close. How is the morale down at your place?
    Mr. Black. Senator, you really made my day. This is so 
unfortunate. There is no one that I know that does 
counterterrorism that would dissemble to a representative of 
the American people. I've got to tell you something's getting 
out of hand here. I work for the American people. I'm a big 
boy. Let me tell you, I'm responsible for my people. And why do 
you think I came in here starting with, you know, pride for my 
people? Things happen. People die in war. No one regrets it 
more than us. But dissemble, mislead our people? No. It's like 
living a nightmare. What's going on here? I better stop. Thank 
you.
    Senator Roberts. Mr. Watson.
    Mr. Watson. I think it's been a long process since 9/11 and 
the fingerpointing and looking at we should have done this or 
you should have done that. And the responsibility of that 
clearly rests with myself. And, you know, I don't duck any of 
those issues or those questions. Individuals that work down in 
those sections and the agents out in the field that work these 
problems are absolutely the best we have. They should be 
supported. And it's a disappointment.
    Senator Roberts. I thank you both. I think with the red 
light on I've probably said enough.
    Thank you, Mr. Chairman.
    Mr. Gibbons. Thank you, Senator.
    Mr. Burr.
    Mr. Burr. Thank you, Mr. Chairman, or at least I think 
thank you.
    It's somewhat difficult to follow Senator Roberts because I 
think it's safe to say that there was not full agreement among 
members of the course that we're currently on. But the fact is 
that we've got the task to do it now and for that reason you're 
here today.
    Let me move to a section that we've already covered to some 
degree. And that's the notification that went from either 
agency specifically to the aviation world about the potential 
threat. Let me for the purposes of your answer ask you to 
separate the FAA from the commercial airline industry and ask 
you was the alert that went out, to one or to both, the alert 
that went out within the entire community about an imminent 
threat? Or was there a specific communication, either written 
or verbal, that went out to the FAA and commercial airlines 
that was targeted specifically because of the fear of a 
commercial aircraft being used as a delivery system?
    Mr. Watson, let me turn to you first.
    Mr. Watson. I don't know the answer to that question 
specifically, Congressman. I can't tell you if there was a 
circular that went to the commercial side or what notification. 
I'll be glad to get back and try to answer that question.
    Mr. Burr. I would appreciate it.
    Mr. Watson. Okay. Maybe we can have it by this afternoon 
closed session.
    Mr. Burr. Thank you. Thank you. Mr. Black, anything that 
might have emanated from the Agency?
    Mr. Black. Sir, I'd like to help you out on this, too. And 
I certainly do remember there were alerts and notifications 
going out. They have dates. And I think they certainly were 
pretty descriptive. I just don't want to answer the question 
right now because I don't have all the facts available to me. 
What I will do is I'll promise you we'll get the information 
and get back to you.
    Mr. Burr. I appreciate that.
    Mr. Black. I don't want to misspeak here.
    Mr. Burr. I appreciate that and I recognize that you can't 
be the wealth of 100 percent of what transpired. I think it's 
very important that we separate for the purposes of the answer 
the FAA and the commercial airline industry specifically. If, 
in fact, this was an alert that went to the FAA but then was 
not disseminated to the airlines themselves, who, at the time, 
were primarily responsible for the security within the 
airports, I think that's an important aspect that we need to 
know.
    Mr. Black. Okay.
    Mr. Burr. By the same token, we would like to make sure 
that our system today for notification, heaven forbid that we 
were to have to put one out today, that if we had a similar 
situation where we believed there was a higher likelihood of a 
particular means of delivering the threat and that was a 
commercial airliner, that in fact there might be a different 
alert that went to the FAA than went to general communities 
specifying why they should read it and act on it more quickly.
    Let me, Mr. Watson, if I could, turn to you and ask you, in 
hindsight, on or about August 23 we put everything together as 
it related to al-Mihdhar and al-Hazmi being in the United 
States. And the FBI began a process to find these individuals. 
Using hindsight as a tool, did we respond at that time like we 
should have? Or would you haveresponded differently looking 
back at it--i.e., did we put the correct number of people, did we put 
the right people, did we exhaust every possibility in what was a very 
short period of time, what ended up being a little over two weeks, to 
locate these individuals?
    Mr. Watson. That can be a short answer or a long answer. 
And I think the short answer is I don't have a problem with 
what we did after August 23. If you recall, on the I-94 he 
lists his name on the I-94. He lists his sponsor as himself. He 
lists his occupation as fisherman. And he lists his place of 
staying as the Marriott, New York City. And there were 17 of 
those--long gone from the Marriott in New York City, long gone 
if you want to take this and think this through, long gone from 
California.
    Mr. Burr. Let me ask you, if I could because I've just got 
a couple seconds left.
    Mr. Watson. Okay. Sure.
    Mr. Burr. I understand that the focus was on al-Mihdhar. 
Was there an effort on al-Hazmi to try to locate him? Because, 
in fact, he had an address that was in a phone book, though it 
wasn't current. He had an address that was the same under his 
own name on a visa extension that during the period he's in the 
country was granted. Was all the focus on al-Mihdhar and not on 
al-Hazmi?
    Mr. Watson. It was on both, absolutely on both. And if you 
recall, though, and I know your time's up and I'll be real 
short with the answer, long gone out of California. Yes, he was 
in the phone book. Yes, he got a loan. And there are a lot of 
clues there, but he's not in California on August 23.
    Mr. Burr. I thank both of you for your willingness.
    The Chair has been very gracious. Thank you. I yield back.
    Mr. Gibbons. Thank you, Mr. Burr.
    Senator Bayh.
    Senator Bayh. Thank you.
    Gentlemen, thank you for your testimony. I have five 
minutes. I have five questions, so I'll try and move quickly 
and I'd be grateful to you if you could do the same.
    Mr. Black, most of these questions are for you. As you 
stated, you were the head of CTC until, I think, about four 
months ago.
    Mr. Black. Yes, sir.
    Senator Bayh. And in your prepared testimony, you had 
indicated that before 9/11 of last year Hizbollah had really 
been perceived as probably the greatest terrorist threat. The 
question I have for you is could you give us the--as of the 
date that you left CTC, can you give us the hierarchy of 
priorities? I assume al-Qa'ida was number one by that point.
    Mr. Black. Yes, sir. I have to apologize if I misspoke. I 
didn't mean it like that. I said--I was trying to convey the 
sense that there was not only al-Qa'ida. There was Hizbollah. 
And up until 9/11, Hizbollah had killed more Americans.
    Senator Bayh. Correct.
    Mr. Black. So I'm not saying that they were----
    Senator Bayh. So as of the date you left, it would have 
been al-Qa'ida, presumably, would have been number one?
    Mr. Black. Al-Qa'ida would have been first. This is a list 
of particularly--what I'd rather do is give you the criteria. 
Essentially, it makes it easier. The highest criteria for us 
are terrorist groups that say they want to kill us, have the 
capability to kill and have killed us. So essentially, if you 
look at that, that would be the highest. The greatest threat to 
the United States would be like al-Qa'ida.
    Senator Bayh. Let me cut to the chase.
    Mr. Black. Please.
    Senator Bayh. I was sort of laying a predicate there. As of 
May when you left, where would Iraq have been on the priority 
list of terrorist threats to our country?
    Mr. Black. That's a good question, but it's sort of the 
wrong shop. That is a state sponsor of terrorism. I deal with 
the outgrowth of that. I don't specifically address countries.
    Senator Bayh. Well, we're now in the business of trying to 
analyze the nexus between state sponsorship and other terrorist 
organizations. But in any event, with other questions, I'll 
just move on. That obviously is a question of some moment.
    Mr. Black. Yes, it is. And I don't think it would be a good 
idea, certainly, for me to address that here.
    Senator Bayh. The question of the use of lethal force, we 
can't get into that in any detail here. But, as you know, 
there's a prohibition against that. Occasionally, the chief 
executive of the country can authorize certain activities that 
don't involve that but might involve that. The lawyers get 
involved, et cetera, et cetera, and understandably there's a 
reluctance on the part of your former shop to read too much 
into those kind of things.
    Is it your opinion that we should revisit the policy and 
consider revoking the prohibition against the use of lethal 
force?
    Mr. Black. In my view?
    Senator Bayh. Yes.
    Mr. Black. Yes.
    Senator Bayh. Mr. Black, you mentioned during your 
testimony, you mentioned at least one occurrence where laws and 
results against contaminating criminal investigation with 
intelligence information sort of hampered the cooperation 
between yourselves and the FBI.
    Could you give us a list or, if not a list, at least your 
top examples of the laws and the rules that you think we should 
take a look at to perhaps improve, to make your job and the job 
of the FBI easier in terms of discharging your duties in terms 
of protecting the country?
    Mr. Black. I'm unprepared to answer that question. I will 
have to research it and get back to you.
    Senator Bayh. Well, I would appreciate it if you would, 
because obviously looking forward we want to examine those 
things that you view or your colleagues in the FBI view as 
impediments and look for ways that we can address those 
impediments to better accomplish the mission that we all share 
here. So if you would do that, I would appreciate it.
    Mr. Black. Yes, sir. I will certainly do that.
    Senator Bayh. My next question deals with--and I think Mr. 
Watson has addressed this and I apologize, Mr. Black, if you 
have addressed this as well. One of the big picture issues we 
have to address is not only whether we should have some 
systemic changes in terms of the management of intelligence 
globally but whether we should follow the British example and 
the example of other countries in terms of having a separate 
domestic intelligence capability.
    I think that Mr. Watson spoke that things have changed, in 
his view, since the '70s and the '80s. It's a little bit 
different now. Do you have an opinion about that, whether we 
should adopt the British model, the Israeli model, some others, 
or whether we should try and work within the current structure 
to meet that responsibility?
    Mr. Black. I would have to look at it in some detail for a 
definitive answer. One could go either way. But the FBI is 
positioned with exceptionally good people and they can certain 
do this job. What it requires is a different set of training, 
different sort of mindset, and I'm sure they're up to it and it 
can be done. If they can't, then of course there's a problem, 
but I have ever confidence that they can.
    It requires looking at problems in a different way. As 
opposed to law enforcement, it is intelligence collection and 
operations.
    Senator Bayh. That's one of the big picture questions that 
we have to answer.
    I'm down to my last question, if I can sneak one in here. 
It's been my impression since joining the Committee that we're 
still suffering the after-effects of the '60s and the '70s and 
really a withdrawal from many areas of human intelligence, at 
least in the aggressive sense, abroad. We're attempting to 
reconstitute that, but aren't quite where we need to be yet. 
And as a result of that, we're more reliant upon some of our 
allies who have the right assets in the right places.
    Mr. Black, how long, if I'm correct--first of all, am I 
correct? And if so, how long will we be overly reliant upon 
others for that kind of capability? How long will it take us to 
reconstitute our human intelligence resources so that we can be 
more independent in terms of protecting our country?
    Mr. Black. Well, I think we are independent. I think it's a 
combination of two, sir.
    Senator Bayh. Or have the assets that we really need.
    Mr. Black. Have the assets that we really need is a 
function of resources and people. We have to put the trainers 
in place. We have to put the right kind of people here. We have 
to do much, much more--I hate to say this; this won't sound 
very clever--of what we're doing already. Then we get the 
people out there and produce. I don't want to minimize the 
relationship with others.
    Senator Bayh. Well, my last comment was--and again, thank 
you for the Chair's forbearance--if given a blank check, how 
long would it take?
    Mr. Black. A blank check. It would be speculation, sir, I 
can give--you know, it depends what type of comprehensive 
defense you're looking for. There'll never be 100 percent. So 
you can give me everything and I can't get 100 percent. It 
would go down something from there. It would be speculative.
    Senator Bayh. Thank you.
    Mr. Gibbons. Thank you very much, Senator.
    Mr. Black, Mr. Watson, thank you for your presence here 
today. We've kept you what must have seemed like an eternity. 
It's been three hours and we appreciate that. Your testimony 
has been very helpful and very enlightening, not only just to 
the Committee but to those of us that have been able to listen 
and watch what's gone on.
    I do have an announcement to make at the request of the 
Chairmen. The Committee will meet this afternoon in S-407. 
That's upstairs in the Capitol, and it will be a closed session 
starting at 2:00 p.m. We will also, once again, return to this 
room Tuesday, October 1, at 10:00 a.m. and we will return to an 
open session.
    With that, this meeting has been adjourned.
    [Whereupon, at 1:04 p.m., the hearing was adjourned.]

</pre></body></html>
